<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                         TUESDAY, MARCH 2, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Herb Kohl (chairman) presiding.
    Present: Senators Kohl, Harkin, Brownback, Cochran, Bond, 
and Collins.

                       DEPARTMENT OF AGRICULTURE

                        Office of the Secretary

STATEMENT OF TOM VILSACK, SECRETARY
ACCOMPANIED BY:
        DR. KATHLEEN MERRIGAN, DEPUTY SECRETARY
        DR. SCOTT STEELE, BUDGET OFFICER, DEPARTMENT OF AGRICULTURE


                 OPENING STATEMENT OF SENATOR HERB KOHL


    Senator Kohl. Good morning.
    Today, we begin our hearings on the fiscal year 2011 budget 
for the Department of Agriculture.
    We'd like to welcome Secretary Vilsack. He's accompanied by 
Dr. Kathleen Merrigan, Deputy Secretary; and Dr. Scott Steele, 
the USDA Budget Officer. We thank you all for being here.
    Last year this subcommittee worked in a bipartisan manner 
that produced effective and efficient results. With an adequate 
budget request and allocation, there was much collaboration 
across the aisle. We were able to provide USDA with much-needed 
increases in programs, like food safety, which had long been 
underfunded. And we were rewarded for our bipartisan 
cooperation by getting our bill out nearly on time, which, as 
everyone knows, was a welcome change.
    This year, the numbers are a little different, but I'm 
hopeful the process will be much the same. The President's 
budget proposes $21.5 billion for discretionary programs at 
USDA for fiscal year 2011. This is actually a decrease from 
last year, and I am pleased that USDA is showing fiscal 
restraint.
    It is incumbent upon this subcommittee to review all these 
proposals with three priorities in mind. First, we need to 
produce a bill that protects important gains made last year. 
Second, we need to ensure that programs vital to people's 
health, safety, and livelihoods are adequately funded. And 
third, we need to do so in a way that shows fiscal restraint 
and responsible austerity.
    Briefly, here are a few of the major increases in the 
budget, as I see them: The WIC program, which we consider 
essential, receives funding necessary to provide assistance to 
roughly 10 million low-income women, infants, and children. The 
Food Safety and Inspection Service budget receives an increase 
smaller than those of the past several years, but nevertheless 
an increase in order to maintain the safety of our food supply. 
The Farm Service Agency receives a large increase in order to 
pay for much-needed information technology upgrades which allow 
farmers to continue receiving assistance. There is a small 
increase in agricultural research funding. The Foreign 
Agricultural Service receives a significant increase for export 
trade activities. Finally, we have additional welcome emphasis 
on healthy local food production.
    All of these increases, however, are more than offset by 
decreases in other programs, like conservation, research, rural 
development, and others. Further, the budget proposes to reduce 
multiple farm bill programs that this subcommittee has worked 
to protect, and which will certainly raise opposition. None of 
these options are off the table, and everyone needs to be aware 
of that.
    Clearly, we all have to tighten our belts. We'll certainly 
work to ensure that the Department has all of the funding 
necessary to serve the American people. While we have been able 
to provide some necessary increases over the past several 
years, we will be taking a long hard look at the budget, the 
proposed increases and new initiatives, as well as the proposed 
decreases.
    We all look forward to working, again, with Senator 
Brownback in a close bipartisan manner. We need to produce a 
bill that is a reflection of the importance of the USDA, but 
also a reflection of the need to slow spending growth.
    So, Secretary Vilsack, we welcome you, again, for being 
here and look forward to your statement.
    Before that, we'd like to ask Senator Brownback for his 
statement.
    Senator Brownback.


                   STATEMENT OF SENATOR SAM BROWNBACK


    Senator Brownback. Thank you very much, Senator Kohl. 
Appreciate the hearing.
    Welcome, Secretary Vilsack, good to have you here. We had a 
good process last year that worked successfully and quickly, 
and--kind of the way the place is supposed to, which was pretty 
amazing in and of itself, and I give that applause to the 
chairman. I look forward to working with you on this year's 
budget. I noted, in a cursory review of it, you've worked to 
reform your budget, cutting some places, putting higher 
priority on others, which is the way I think we ought to look 
at things. If you've got a high priority, put the money there, 
but don't just ask for more money; get it from somewhere else 
in the budget. We may have some questions with you about where 
you got it, and have some suggestions as to other places that 
you may get it from, but I applaud that route of going.
    I've got two suggestions to you that we're going to be 
working on. One is on the agriculture development budget. And 
here, this is one that's going on in another committee, but I 
really think you've--you're the one that's got the expertise on 
it. You're seeing a lot of agriculture development work 
starting in other sectors of the budget, particularly AID, and 
I think you're the one with the primary expertise--or you and 
the land grant university system. I would really--and we're 
going to be pushing this in other sectors, as to ways that we 
can see that budget fit better together.
    Gates Foundation and others are really stepping up in this 
field. They stepped up in the health field on developing 
countries, and together we've had a huge drop in AIDS deaths 
overseas. Malaria is getting more under control, not completely 
by any means. And this is the best foreign policy tool we've 
got, when you save somebody's life. The next step in that is 
agriculture development, and to see it to development. And this 
is a historic role that places like Iowa State, K State, 
Missouri, Wisconsin, others have played for many years. But, 
you've got, I think, the best connection to them, and I'd 
really like to see us--what we can do on that.
    And the final one that I think is key--and you've--got it 
in my opening statement here--is the next generation on 
biofuels. There's just no question that this is a big deal for 
us in farm country. I was at an ethanol plant the other day 
that's feeding wet distiller's grain. They can sell at 30 cents 
cheaper than if you have to dry it. They're taking the 
CO<INF>2</INF> straight to an oil field for recharge purposes. 
I was at NREL in Golden, Colorado, where they're working on the 
cellulosic ethanol. They believe they can make it as price 
effective with grain ethanol by 2012. And I think that's going 
to really help us in agriculture, having a grain stream and a 
cellulosic stream probably under the same plant. And I can't 
think of a bigger thing for us to work on for market 
development and share than this next generation on biofuels, 
bio-based products.
    I had a group the other day--a PCA--hand me a some 
ChapStick that was made out of soy oil. I had a guy a few years 
ago hand me a blue rock, a skeet, that was made out of 
cornstarch. You know, just little widgets, little tiny market 
segments, but all of them add up, all of them add to renewable 
uses, and they're good products.
    And I just--I really think that's one that, if we're going 
to serve the farmers in rural areas of this country, I'd--there 
is not a better place for us to invest time and effort and 
focus and research dollars. And you've got the lion's share of 
that, even though other areas are working on it. And I really 
hope we can working with you on those.
    Chairman, I look forward to the comments and the questions.
    Senator Kohl. Thank you, Senator Brownback.
    And now we turn to you, Mr. Secretary, for your statement.


             SUMMARY STATEMENT OF SECRETARY THOMAS VILSACK


    Secretary Vilsack. Mr. Chairman, thank you very much. And, 
to the members of the subcommittee, thank you for the 
opportunity to appear today.
    As the chair indicated, I'm here with Deputy Secretary 
Merrigan and Mr. Steele in an effort to educate the 
subcommittee on our priorities.
    Let me say that we started this budget process with four 
frames in mind. The first frame is a recognition of the 
economic difficulties the country currently faces, which is 
reflected in our continuation of support programs like SNAP and 
WIC, our food assistance programs, which make up 70 percent of 
our budget. We will continue to provide the nutritional 
assistance necessary to take care of America's families.
    As was mentioned by both the chair and Senator Brownback, 
we also recognize the fiscal challenge that this country faces, 
and that the Senate and House face in putting a budget 
together, which is why we made an effort to try to propose a 
budget with reductions in discretionary spending recognizing 
full well that there are difficult and tough choices that have 
to be made by this subcommittee, by this Congress. We laid out 
what we believed would be the appropriate choices, but are 
certainly open to working with this subcommittee and the House 
committee on thoughts and ideas that you all have.
    I will tell you that we were also struck by the state of 
the rural economy. While the country has faced a recession for 
the last 2 years, I think I can make the case that rural 
America has faced a recession for a number of decades. If you 
take a look at the statistics, what you'll see is, in rural 
America, there is a higher poverty rate; a higher unemployment 
rate; a loss of population, with over 50 percent of rural 
counties having lost population in the last decade. The facts 
are fairly clear that they are less educated, in terms of 
college educated and high school educated individuals, living 
in rural America. And there is a graying of rural America, an 
aging of rural America. All of which is reflected also in 
statistics relative to farms, where we saw a 30 percent 
increase in the number of farmers over the age 75, and a 20 
percent decrease in the number of farmers under the age of 25.
    For that reason, we are proposing and suggesting a slightly 
different direction as it relates to rural development. We 
believe that we need to focus less on individual community and 
project-by-project efforts, and focus more on recognizing that 
smaller communities are part of a regional economy, and looking 
for ways in which we can bolster the regional economy in order 
to create greater activity. Now, we think that this is a 
strategy that--a number of communities have banded together in 
other parts of the country and are seeing positive results.
    We think this rural strategy and this regional strategy 
should be focused on five basic pillars. First of all, a 
continuation of the efforts that this Congress appropriated, in 
terms of expansion of broadband to all parts of America, both 
rural and remote areas, and the opportunities that presents.
    Second, as Senator Brownback indicated, a real focus on 
biofuels and bio-based products and the energy potential that 
can be created in our farm fields, recognizing that this needs 
to be not just focused in one part or one region of the 
country, but, as our Biofuels Task Force report indicates, an 
opportunity for us to have regional economic opportunity in all 
parts of the country by using a variety of feedstocks to create 
biofuels and bio-based products. This can happen in all parts 
of the country, and it actually can create greater energy 
security for this country, promote national security, and also 
significantly help the rural economy.
    We think there is also a need for us to continue an effort 
to link local production and local consumption of farm 
products, creating opportunities for schools, hospitals, 
prisons, and the like, to be able to purchase locally produced 
food in order to keep the wealth in the region and in the 
community. The establishment of the ecosystem markets under the 
2008 farm bill creates an extraordinary opportunity for us to 
focus on water, carbon, and habitat protection as another 
alternative income source for farm families across the country. 
And finally, an aggressive effort in forest restoration and 
private land conservation. We see this budget, in terms of 
conservation, as actually historic, in the sense that we will 
propose extending conservation programs to over 305 million 
acres, an increase of about 10 percent, also focusing those 
acres in programs that really matter, in terms of creating more 
habitat, which, in turn, will create more hunting and fishing 
opportunities, which is often an overlooked economic 
opportunity in rural America.
    These five pillars, we believe, can create higher incomes, 
better-paying jobs, and attract young people to stay and to 
come to rural communities. We'd like the opportunity to prove 
that case to you with the proposal that we have set forth in 
our budget.
    This process will be aided by our focus on research and 
development. Recognizing the need for competitive grants, we 
have maintained the formula funding for our research efforts, 
but have suggested that there needs to be a real competition 
for other research dollars. And so, we have proposed a record 
amount of competitive grants, focused in four or five major 
areas: the energy area, as was mentioned; the need for us to 
continue to look for ways in which we can increase productivity 
and protection of crops and animals from disease and pests and 
invasive species; a focus on food safety; a focus on obesity 
and nutrition; and finally, a focus on the capacity of 
agriculture to adapt and mitigate to changing climates.
    Given the First Lady's Let's Move Initiative, we believe 
the last frame reflected in our budget stems from the 
centerpiece of her Let's Move effort--the legislative 
centerpiece--which is the reauthorization of child nutrition 
proposals. An opportunity to substantially expand efforts in 
the school lunch and school breakfast programs gives us an 
opportunity to add more fruits and vegetables in the diets of 
our young people, responding to the very serious obesity 
epidemic we now face, as well as a strategy for dealing with 
the fact that we still, yet today, in this rich and powerful 
country, have hungry children.
    We also recognize the responsibility that we have at USDA 
to provide the safest and most abundant and most affordable 
food supply. And so, there is continued emphasis on food 
safety, with a focus on increased prevention; better 
surveillance and risk assessment; and more rapid response, 
recall, and recovery. While there is a small budget increase in 
food safety, there has been a tremendous amount of effort and 
focus on the regulatory side of food safety, in an effort to 
better utilize the resources that Congress has provided.


                          PREPARED STATEMENTS


    We believe this is a good budget, a strong budget, a budget 
that has elements of reform and responds to the challenges that 
we face in rural America. And we look forward to the 
opportunity to answer your questions.
    [The statements follow:]

                  Prepared Statement of Thomas Vilsack

    Mr. Chairman and distinguished members of this subcommittee, I 
appreciate the opportunity to appear before you as Secretary of 
Agriculture to discuss the administration's priorities for the 
Department of Agriculture (USDA) and provide you an overview of the 
President's 2011 budget. I am joined today by Deputy Secretary Kathleen 
Merrigan and Scott Steele, USDA's Budget Officer.
    I don't need to tell you that the American people have been 
struggling through the most serious economic recession since the Great 
Depression. Families have been forced to make difficult decisions in 
the face of unprecedented job losses. The immediate effects of being 
unemployed are felt deeply by the unemployed and their families. We 
have seen more and more Americans relying on USDA to help put food on 
the table.
    The challenges facing rural communities for decades have grown more 
acute, which is why the Obama administration is committed to new 
approaches to strengthen rural America. Rural Americans earn less than 
their urban counterparts, and are more likely to live in poverty. More 
rural Americans are over the age of 65, they have completed fewer years 
of school, and more than half of America's rural counties are losing 
population.
    This year, President Obama took steps to bring us back from the 
brink of a depression and grow the economy again. But with the 
unsustainable fiscal policies over the past decade, it's time to get 
our fiscal house in order.
    The President has announced the 3-year, non-security discretionary 
spending freeze for the remainder of his term. This is a freeze on the 
bottom line rather than an across-the-board freeze on all line items in 
the budget, which provides the flexibility to achieve high priority 
goals by reducing funding for lower priority, duplicative, or non-
performing programs. USDA's proposed fiscal year 2011 budget is a 
reflection of that policy, essentially freezing funding for on-going 
discretionary programs at the fiscal year 2010 level. When limits 
placed on select programs and efforts to eliminate earmarks and one-
time funding are taken into account, USDA's total discretionary budget 
authority is reduced by over $1 billion. The decrease is primarily due 
to reductions in one-time funding such as earmarks, supplementals, 
rescissions, and targeted program reductions. However, USDA's total 
budget authority request pending before this subcommittee proposes a 
total of $129.6 billion in 2011, up from $119.3 billion in 2010, 
primarily due to an anticipated increase in nutrition assistance 
program participation and mandatory expenditures for crop insurance. 
The discretionary appropriation request for this subcommittee is $21.5 
billion, which is comparable to the $21.7 billion enacted for 2010.
    The 2011 budget request supports the administration's vision for a 
strong rural America through the achievement of four strategic goals. 
Achievement of these goals will ensure that all of America's children 
have access to safe, nutritious, and balanced meals; create new 
economic opportunities for increasing prosperity; strengthen 
agricultural production and profitability through the promotion of 
exports with a specific emphasis on biotechnology while responding to 
the challenge of global food security; and ensure the Nation's national 
forests and private working lands are conserved, restored, and made 
more resilient to climate change, while enhancing our water resources.
    With the help of this subcommittee and the funding provided by the 
Recovery Act, USDA has been able to achieve significant accomplishments 
over the past year. Some of these accomplishments include:
  --SNAP has improved the diets of more than 38 million low-income 
        people now served by the program;
  --The financial distress of over 2,600 producers in 47 States has 
        been relieved through direct farm operating loans. Nearly 20 
        percent of beginning farmers and socially disadvantaged 
        producers obtain at least part of their credit needs from USDA;
  --Critical rural infrastructure improvements have been made that will 
        provide nearly 1 million Americans with improved access to safe 
        drinking water, improve facilities for 655 communities, 
        including many that provide healthcare service and educational 
        opportunities, and create 84,000 housing opportunities for 
        families. USDA has made investments to improve watershed and 
        flood control on 37,000 acres in 36 States. These actions have 
        created thousands of jobs, while investing in projects that 
        will provide benefits for years; and,
  --USDA has made available $2.5 billion to expand and enhance the 
        Nation's access to broadband services. USDA has taken a 
        particular interest in addressing the needs of unserved and 
        underserved rural areas. Broadband projects will support anchor 
        institutions--such as libraries, public buildings and community 
        centers--that are necessary for the viability of rural 
        communities. USDA announced initial awards of $54 million in 
        December 2009. A second USDA announcement of $310 million was 
        made on January 25, 2010. A third USDA announcement of $277 
        million was recently made on February 17, 2010. The second 
        solicitation of applications was published in the Federal 
        Register on January 22, 2010; applications are being accepted 
        through March 15, 2010. This funding will open the door to new 
        businesses that serve global as well as local customers as well 
        as improve the educational and medical opportunities for rural 
        residents.

     ENSURING THAT ALL OF AMERICA'S CHILDREN HAVE ACCESS TO SAFE, 
                     NUTRITIOUS, AND BALANCED MEALS

    A major priority for the Department is ensuring a plentiful supply 
of safe and nutritious food, which is essential to the well-being of 
every family and the healthy development of every child in America. A 
recent report by the Department showed that in over 500,000 families 
with children in 2008, one or more children simply do not get enough to 
eat. There is a growing body of evidence demonstrating that children 
who eat poorly or who engage in too little physical activity do not 
perform as well as they could academically, and that improvements in 
nutrition and physical activity can result in improvements in academic 
performance. Too many children also have poor diets and gain excessive 
weight. Recent data shows that the prevalence of obesity has increased 
over 10 percent, to a level of 17 percent for children between 6 and 19 
years of age. There is also a paradox that hungry children are 
disproportionately prone to obesity. Having poor access to healthy food 
contributes significantly to both of these problems.

Nutrition Assistance
    The budget fully funds the expected requirements for the 
Department's three major nutrition assistance programs--the National 
School Lunch Program, WIC, and SNAP--and proposes $10 billion over 10 
years to strengthen the Child Nutrition and WIC programs through 
reauthorization.
    School lunch participation is estimated to reach a record-level 
again in 2011, 32.6 million children each day, up from about 32.1 
million a day in 2010. This is consistent with the increase in the 
school age population.
    The reauthorization of the Child Nutrition Programs presents us 
with an important opportunity to combat child hunger and improve the 
health and nutrition of children across the Nation. The 2011 budget 
proposes a historic investment of $10 billion in additional funding 
over 10 years to improve our Child Nutrition Programs and WIC. It is 
designed to significantly reduce the barriers that keep children from 
participating in school nutrition programs, improve the quality of 
school meals and the health of the school environment, and enhance 
program performance. Funding will be used to improve the quality of the 
National School Lunch and Breakfast Programs, increase the number of 
kids participating, and ensure schools have the resources they need to 
make program changes. With this investment, additional fruits, 
vegetables, whole grains, and low-fat dairy products will be served in 
all school cafeterias and an additional one million students will be 
served through school lunch programs in the next 5 years. Improving 
these programs directly supports the First Lady's ``Let's Move'' 
campaign aimed at achieving the ambitious national goal of solving the 
challenge of childhood obesity within a generation so that children 
born today will reach adulthood at a healthy weight.
    To ensure USDA makes progress to decrease the prevalence of obesity 
among children and adolescents, and to improve the quality of diets, 
the budget includes an increase of $9 million. The increase will allow 
USDA to strengthen systematic review of basic, applied, and consumer 
research that provides the information necessary to answer questions 
about diet, health, education, and nutrition-related behaviors. This 
will ensure that that USDA and other Federal agencies can describe the 
best nutritional behaviors and develop the best ways of communicating 
this information to help Americans improve their diets. The increased 
funding will also be used to create more effective nutrition education 
interventions for schools and communities, and broaden and maintain 
tools and systems that Americans can use to adopt more healthful eating 
and active lifestyles, in particular reducing overweight and obesity. 
The 2011 budget includes an increase of $50 million for research 
through AFRI that will focus on identifying behavioral factors that 
influence obesity and conducting nutrition research that leads to the 
development of effective programs to prevent obesity. AFRI funding will 
also focus research on addressing the micronutrient content of new food 
crops and improving the nutritional value of staple crops, fruits and 
vegetables through plant breeding leading to greater access to healthy 
foods.
    The budget includes $7.6 billion for WIC, which will support the 
estimated average monthly participation of 10.1 million in 2011, an 
increase from an estimated 9.5 million participants in 2010. The 
request is $351 million above the 2010 appropriation and supports a 
robust contingency fund. Highlights include expanding the breastfeeding 
peer counseling program, doubling the size of the breastfeeding 
recognition program, supporting Management Information Service 
improvements and program research and evaluation, and providing a $2 
increase in the value of the fruit and vegetable voucher for children. 
WIC administrative activities are also funded, which will facilitate 
continued implementation of the revised WIC food packages, required to 
be implemented at the beginning of fiscal year 2010. The changes in the 
food packages bring recipient diets into better conformance with the 
Dietary Guidelines for Americans and feeding recommendations for small 
children. Fruits, vegetables and whole grains were added to the WIC 
packages, mostly for the first time. Fruit and vegetable consumption is 
expected to increase significantly via the new cash value vouchers 
recipients will receive, improving nutritional intake, improving long-
term eating habits, and improving the economics for our fruit and 
vegetable producers. Recipients will use their new vouchers to purchase 
fresh, frozen or canned fruits and vegetables year round.
    Participation in SNAP is estimated to be about 40.5 million 
participants per month in 2010, and is projected to increase to 43.3 
million in 2011. The budget estimates a total of $80.2 billion is 
needed in 2011 to fund all expected costs and includes a $5 billion 
contingency fund recognizing the uncertainty USDA faces in estimating 
actual participation. The Recovery Act increased SNAP benefits $80 a 
month for a family of four and will continue until the statutory cost 
of living adjustments (COLA) eclipse the Recovery Act benefit levels.
    For 2011, we need to continue to support America's families as they 
recover from the current economic crisis many of them find themselves 
in. Fortunately, SNAP is working as it should with participation 
increasing as the people in need increase. However, changes need to be 
made to ensure that participants are treated fairly and equitably and 
that the resources being delivered foster economic mobility. For these 
reasons, we are proposing to improve the accessibility to SNAP. The 
main legislative proposal for SNAP would establish a common, national 
asset allowance for means test of $10,000 for programs government-wide. 
Programs with asset limits currently treat assets inconsistently and 
without regard of the need to allow and encourage families to save 
toward self-sufficiency. SNAP asset limits have been held for decades 
at $2,000 for most households and $3,000 for households with elderly. 
In addition, a second proposal would exclude lump sum tax credits to 
prevent disruption in eligibility and benefits in the wake of new and 
refundable tax credits, and the administrative churning this creates. A 
third proposal would extend the Recovery Act provision that waives time 
limits for Able-Bodied Adults Without Dependents (ABAWDs) for an 
additional fiscal year. In total, these changes to SNAP would add $462 
million to recipient benefits and SNAP program costs in 2011 with a 5-
year total of $4.5 billion.
    The budget also includes increased funding for staffing needed to 
strengthen USDA's ability to simplify and improve the nutrition 
assistance programs, enhance capacity to improve nutritional outcomes, 
and encourage healthy and nutritious diets and expand an obesity 
prevention campaign through efforts supported by the Food and Nutrition 
Service.

Food Safety
    Protecting public health is one of the most important missions of 
USDA. Foodborne illness is recognized as a significant public health 
problem in the United States. These illnesses can lead to short and 
long-term health consequences, and sometimes death. I am firmly 
committed to taking the steps necessary to reduce the incidence of 
food-borne illness and protect the American people from preventable 
illnesses. Over the past year, we have striven to make improvements to 
reduce the presence of deadly pathogens and we continue to make 
improvements. At USDA, about 8,500 inspectors work in approximately 
6,300 slaughtering and processing establishments, import houses, and 
other federally regulated facilities to ensure that the Nation's 
commercial supply of meat, poultry, and egg products is safe, 
wholesome, and correctly labeled and packaged. A major focus is 
implementing the recommendations of the President's Food Safety Working 
Group (FSWG) in accordance with three core food safety principles:
  --Preventing harm to consumers;
  --Conducting analyses needed for effective food safety inspections 
        and enforcement; and,
  --Identifying and stopping outbreaks of foodborne illness.
    The budget includes $1 billion for the Food Safety and Inspection 
Service to fully fund inspection activities and implement 
recommendations of the FSWG and other initiatives aimed at improving 
USDA's public health infrastructure. This includes an increase of $27 
million to further implement recommendations of the FSWG and strengthen 
our public health information infrastructure. Increased funding will be 
used to enhance FSIS' ability to collect, analyze and present food 
safety data necessary for improving inspection practices. Additionally, 
FSIS will hire more epidemiologists to improve investigations of 
foodborne illness and outbreaks in coordination with State officials to 
develop ``trace back'' tools and improve record-keeping. These 
improvements will decrease the time necessary to identify and respond 
to foodborne illness outbreaks, which will better protect consumers by 
improving our capability of identifying and addressing food safety 
hazards and preventing foodborne illness.
    USDA research continually works to meet the evolving threats to the 
Nation's food supply and focuses on the reduction of the hazards of 
both introduced and naturally occurring toxins in foods and feed. As 
part of an integrated food safety research initiative, the budget 
proposes an increase of $25 million, including $20 million for AFRI and 
$5 million for the Agricultural Research Service. This initiative will 
strengthen surveillance and epidemiology programs, develop improved 
methods for controlling food pathogens in the preharvest stage, develop 
innovative intervention strategies to eliminate pathogens and 
contaminants, and improve technologies for ensuring postharvest safety 
and quality.

Minimizing the Impact of Major Animal and Plant Diseases and Pests
    The budget includes $875 million in appropriated funds for the 
Animal and Plant Health Inspection Service (APHIS) to protect 
agricultural health by minimizing major diseases and pests. APHIS 
activities that contribute to this goal include pest and disease 
exclusion, plant and animal health monitoring, response to outbreaks of 
foreign plant and animal threats, and management of endemic pests and 
diseases. Of note, the 2011 budget includes $11 million to continue 
efforts initiated with emergency funding to address the light brown 
apple moth (LBAM). This is an increase of $10 million compared to 2010. 
The LBAM is an invasive pest that attacks a wide variety of plants of 
agricultural or horticultural significance. APHIS estimates the pest 
could cause annual production losses up to $1 billion if allowed to 
spread.

            ASSISTING RURAL COMMUNITIES TO CREATE PROSPERITY

    The economic downturn has impacted many sectors and areas of the 
Nation, including rural America. At this time, there remains high 
poverty in sparsely populated rural areas, which is reflected in higher 
mortality rates for children, higher unemployment, and declining 
populations. Since the beginning of the economic slowdown, rural 
residents have experienced a greater decline in real income compared to 
other parts of the Nation. Some factors contributing to this include 
lower rural educational attainment, less competition for workers among 
rural employers, and fewer highly skilled jobs in the rural 
occupational mix. It is not surprising that over 51 percent of rural 
counties lost population and that a majority of farm families rely on a 
significant amount of off-farm income to meet their needs. However, an 
energetic and creative citizenry is looking for new ways to spur rural 
economic activity to create prosperity and strengthen the economic 
foundations of their communities.
    After a year as the United States Secretary of Agriculture, I have 
reached the conclusion that we must overhaul our approach to economic 
development in rural America. During the past year, at the instruction 
of President Obama, I worked on the elements of a new rural economy 
built on a combination of the successful strategies of today and the 
compelling opportunities of tomorrow. The framework of the new effort 
recognizes that the rural economy of tomorrow will be a regional 
economy. No one community will prosper in isolation. Further, USDA must 
help create economic opportunities in America's rural communities by 
expanding broadband access, promoting renewable energy, increasing 
agricultural exports, taking advantage of ecosystem markets, 
capitalizing on outdoor recreation, pursuing research and development, 
and linking local farm production to local consumption. The common goal 
is to help create thriving rural communities where people want to live 
and raise families and where the children have economic opportunities 
and a bright future.
    The 2011 budget will assist rural communities to create prosperity 
so they are self-sustaining, economically thriving, and growing in 
population. With the assistance of the committee, we have already taken 
important steps in this effort. With funding from the Recovery Act, we 
supported farmers and ranchers and helped rural businesses create jobs. 
Investments were made in broadband, renewable energy, hospitals, water 
and waste water systems, and other critical infrastructure that will 
serve as a lasting foundation to ensure the long-term economic health 
of families in Rural America.
    This budget includes almost $26 billion to build on this progress 
and focuses on new opportunities presented by producing renewable 
energy, developing local and regional food systems, capitalizing on 
environmental markets and making better use of Federal programs through 
regional planning.

Facilitating the Development of Renewable Energy
    On February 4, 2010, the President laid out his strategy to advance 
the development and commercialization of a biofuels industry to meet or 
exceed the Nation's biofuels targets. Advancing biomass and biofuel 
production that holds the potential to create green jobs, which is one 
of the many ways the Obama administration is working to rebuild and 
revitalize rural America. In support of this effort, USDA's budget 
includes funding for a variety of renewable energy programs across the 
Department. These programs help ensure that farmers and ranchers are 
able to capitalize on emerging markets for clean renewable fuels and 
help America achieve energy independence and reduce greenhouse gas 
emissions.
    The 2008 farm bill provided significant mandatory funding to 
support the commercialization of renewable energy. The 2011 budget 
builds on this investment by providing an increase of $17 million in 
budget authority to support $50 million in loan guarantees for the 
Biorefinery Assistance Program. The budget also maintains the budget 
authority for the Rural Energy for America Program (REAP) at $39.3 
million. The budget allocates most of the funding to grants rather than 
loans, because grant applicants will be able to more efficiently 
leverage greater amounts of private sector investment.
    The Department will also focus additional research investments on 
the production of energy crops and the development of renewable energy 
processing. The 2011 budget includes an increase of $33 million for a 
comprehensive research program in alternative and renewable energy 
within the Agriculture and Food Research Initiative (AFRI) competitive 
grant program. This will advance the development of dedicated, 
bioenergy feedstocks, and feedstock production. The budget also 
proposes an increase of $10 million for in-house research for the 
establishment of regional biofuels centers dedicated to the development 
of energy feedstocks and bioenergy feedstock production systems for 
different regions across the Nation.

Developing Local and Regional Food Systems
    With the growing interest among consumers in eating healthy foods 
and knowing where their food comes from, promoting local and regional 
food systems can offer win-win solutions for all involved.
    USDA's ``Know Your Farmer, Know Your Food'' Initiative will work to 
reduce the barriers to local and regional food production, such as the 
lack of local meat processing and packing capacity, and promote 
opportunities to increase local and regional food production and 
purchasing, such as supporting school purchases of local and regional 
foods.
    There exists great potential to create new economic opportunities 
for rural America by strengthening local and regional food systems. 
Currently, many communities across America have limited access to 
healthy foods, which can contribute to a poor diet and can lead to 
higher levels of obesity and other diet-related diseases, such as 
diabetes and heart disease. Most often, these communities are also 
economically distressed and less attractive to grocery stores and other 
retailers of healthy food.
    To address this problem, the Departments of Agriculture, Health and 
Human Services, and Treasury will implement the Healthy Food Financing 
Initiative to provide incentives for food entrepreneurs to bring 
grocery stores and other healthy food retailers to underserved 
communities. Under this initiative, over $400 million will be made 
available in financial and technical assistance to community 
development financial institutions, other nonprofits, public agencies, 
and businesses with sound strategies for addressing the healthy food 
needs of communities. For USDA, the budget includes about $50 million 
in budget authority for loans, grants, and technical assistance to 
support local and regional efforts to increase access to healthy food, 
particularly for the development of grocery stores and other healthy 
food retailers in urban and rural food deserts and other underserved 
areas.

Capitalizing on Environmental Markets
    As America's farms and forests hold a tremendous potential for 
sequestering carbon, improving water quality, and preserving 
biodiversity the budget requests the resources necessary to conduct 
government-wide coordination activities that will serve as the 
foundation for the establishment of markets for these ecosystem 
services.
    Through the Office of Ecosystem Services and Markets and the Office 
of the Chief Economist, the Department will establish technical 
guidelines that outline science-based methods to measure the 
environmental services benefits from conservation and land management, 
pursuant to the 2008 farm bill.
    USDA conducts research that contributes to the development of 
climate change mitigation and adaptation tools and technologies, and 
USDA outreach and extension networks make them available to farmers, 
ranchers, and land managers. The 2011 budget includes an increase of 
$50 million within AFRI for global climate change research to develop 
mitigation capabilities and adaptive capacities for agricultural 
production. The budget also proposes an additional $5.4 million for ARS 
to conduct research that will increase the resilience of crops so they 
can thrive in variable and extreme environments, as well as focus on 
mitigating the effects of climate change by ensuring the availability 
of water through improved management.

Regional Innovation Initiative
    In addition to these priorities, the 2011 budget maintains support 
for USDA's key rural development programs, including $12 billion for 
single family housing loan guarantees and nearly $1 billion in 
guarantees for business and industry loans. These programs not only 
provide needed assistance to rural families and the capital needed to 
create jobs, they also create the foundation needed to improve rural 
markets and communities which is essential for long-term economic 
growth.
    In order to utilize the Federal Government's assets more 
effectively, USDA's Rural Innovation Initiative will promote economic 
opportunity and job creation in rural communities through increased 
regional planning among Federal, State, local and private entities. By 
creating a regional focus and increasing collaboration with other 
Federal agencies, USDA resources will have a larger impact, enabling 
greater wealth creation, quality of life improvements, and 
sustainability.
    To support this initiative, USDA requests authority to set aside up 
to 5 percent of the funding within approximately 20 existing programs, 
approximately $280 million in loans and grants, and allocate these 
funds competitively among regional pilot projects tailored to local 
needs and opportunities. This will encourage regional planning and 
coordination of projects that are of common interest throughout self-
defined regions. This approach will also support projects that are more 
viable over a broader region than scattered projects that serve only a 
limited area. It will also help build the identity of regions, which 
could make the region more attractive for new business development, and 
provide greater incentives for residents to remain within their home 
area.
Broadband
    Although funding for broadband under the Recovery Act will end in 
2010, USDA will continue to make broadband loans and grants under the 
authorities provided by the 2002 farm bill, as amended by the 2008 farm 
bill. The 2011 budget provides $418 million in loans and grants for 
this purpose.

 PROMOTE AGRICULTURAL PRODUCTION AND BIOTECHNOLOGY EXPORTS AS AMERICA 
                    WORKS TO INCREASE FOOD SECURITY

    We will also give priority to promoting the production of food, 
feed, fiber, and fuel, as well as increased exports of food and 
agricultural products, as we work to strengthen the agricultural 
economy for farmers and ranchers. America's farmers and ranchers are 
the most productive and efficient in the world and the U.S. 
agricultural sector produces $300 billion worth of farm products 
providing a major foundation for prosperity in rural areas as well as a 
critical element of the Nation's economy.
    The Department provides a strong set of financial safety net 
programs to ensure the continued economic viability and productivity of 
production agriculture, including farm income and commodity support 
programs, crop insurance and disaster assistance, as well as other 
programs. The farm safety net is critically important and provides the 
foundation for economic prosperity in rural America. For 2011, USDA 
estimates that roughly $17 billion in total direct support will be 
provided to farm producers and landowners through a variety of 
programs.
    Recognizing the need to reduce the deficit, the budget proposes to 
better target direct payments to those who need and can benefit from 
them most as well as cap total payments paid to larger operations. For 
2011, legislation will be proposed to build on reforms made by the 2008 
farm bill by reducing the cap on direct payments by 25 percent and 
reducing the Adjusted Gross Income (AGI) payment eligibility limits for 
farm and non-farm income by $250,000 over 3 years. The savings from 
these proposals will impact approximately 30,000 program participants, 
which is about 2 percent of the 1.3 million total program participants, 
and will over time comprise less than 2 percent of the total direct 
support the Department expects to provide annually to farm producers 
and landowners.
    The Federal crop insurance program is an important part of the farm 
safety net. It allows producers to proactively manage their risks 
associated with losses from weather, pests and diseases, and financial 
risks associated with price fluctuations. The stability provided by 
crop insurance has become an important factor used by commercial banks 
to determine the credit worthiness of their agricultural borrowers.
    The budget also reflects savings expected to be achieved through 
reforms in the Federal crop insurance program the changes we are 
proposing will help protect farmers from higher costs, rein in costs 
for taxpayers, improve access to crop insurance and provide greater 
protection from crop losses. Negotiations are currently underway with 
the crop insurance industry to restructure the contract that governs 
their delivery of the crop insurance program. The proposed new Standard 
Reinsurance Agreement (SRA) includes six primary objectives, which will 
(1) maintain producer access to critical risk management tools; (2) 
realign administrative and operating subsidies paid to insurance 
companies closer to actual delivery costs; (3) provide a reasonable 
rate of return to the insurance companies; (4) equalize reinsurance 
performance across States to more effectively reach under-served 
producers, commodities, and areas; (5) enhance program integrity; and 
(6) simplify provisions to make the SRA more understandable and 
transparent.
    These objectives align with RMA's primary mission to help producers 
manage the significant risks associated with agriculture. By achieving 
these six objectives, the new SRA will ensure financial stability for 
the program and the producers it serves, while increasing the 
availability and effectiveness of the program for more producers and 
making the program more transparent. The new agreement will also 
provide insurance companies with greater flexibility for their 
operations and financial incentives to increase service to underserved 
producers and areas, while ensuring that taxpayers are well-served by 
the program.

National Export Initiative
    Agricultural trade contributes directly to the prosperity of local 
and regional economies across rural America through higher commodity 
prices and increased sales. USDA estimates that every $1 billion worth 
of agricultural exports supports 9,000 jobs and generates an additional 
$1.4 billion in economic activity. At the same time, however, foreign 
trade barriers limit exports, thereby reducing farm income and 
preventing job growth in the agricultural sector.
    USDA has an important role in expanding export opportunities for 
our food and agricultural products. As part of the administration's 
National Export Initiative, the budget proposes increased discretionary 
funding of $54 million to enhance USDA's export promotion activities. 
The initiative includes increases of $34.5 million to supplement 
funding for the Foreign Market Development Program--commonly known as 
the Cooperator Program--and $9 million for the Technical Assistance for 
Specialty Crops Program. This funding will be in addition to that 
provided to the programs by the Commodity Credit Corporation and will 
double the level of funding available to the programs in 2011.
    Increased funding of $10 million is also requested for the Foreign 
Agricultural Service, which will be used to expand export assistance 
activities, in-country promotions, and trade enforcement activities to 
remove non-tariff trade barriers, such as unwarranted sanitary and 
phytosanitary standards and technical barriers to trade imposed on U.S. 
commodities by other countries.

Research To Improve Agricultural Productivity
    For 2011, the budget provides almost $800 million for research 
aimed at improving agricultural productivity and protecting agriculture 
from pests and disease that limit the productive capacity of 
agriculture. The proposed research will improve genetic resources and 
cultivars that will lead to improved germplasm and varieties with 
higher yields, improved disease and pest resistance, and resilience to 
weather extremes such as high temperature and drought. The budget also 
funds several initiatives to support research on breeding and germplasm 
improvement in livestock which will enhance food security and lead to 
the development of preventive measures to combat diseases and thereby 
increase production. The budget also includes a 56 percent increase for 
the Sustainable Agriculture Research and Education (SARE) programs 
aimed at helping farmers and ranchers adopt practices that are 
profitable and beneficial to communities. As part of this increase, the 
2011 budget proposes funding for the Federal-State Matching Grant SARE 
Program to assist in the establishment and enhancement of State 
sustainable agriculture research, education and extension programs. The 
matching requirement will leverage State or private funds and build the 
capabilities of American agriculture in becoming more productive and 
sustainable.
    As the world population grows and the demand for food with it, we 
must look to new technologies for increasing production, including 
biotechnology. Biotechnology can expand the options available to 
agricultural producers seeking solutions to a variety of challenges, 
including climate change. However, prudent steps must be taken to 
ensure that biotech products are safely introduced and controlled in 
commerce. For 2011, the budget requests $19 million, an increase of 46 
percent, to strengthen USDA's science-based regulatory system for 
ensuring the safe introduction and control of biotechnology products. 
This includes preventing regulated genetically engineered products from 
being co-mingled with non-regulated products and to ensure the safe 
introduction of biotechnology products. USDA will also continue to 
provide technical input for the development of science-based regulatory 
policies in developing countries. By promoting consistency between the 
domestic regulatory system and the import policies of our trading 
partners, the likelihood of the United States being the supplier of 
choice improves as markets for these products grow.

Increasing Global Food Security
    Recent estimates from the United Nations Food and Agriculture 
Organization suggest that more than one billion people around the world 
are chronically hungry, many of them children.
    A productive agricultural sector is critical to increasing global 
food security. USDA plays a major role in helping American farmers and 
ranchers improve the efficiency of agricultural production, including 
the safe use of biotechnology and other emergent technologies. New 
technologies and production practices can enhance food security around 
the world by increasing the availability of food as well as providing 
developing nations tools for increasing their self reliance and giving 
them greater control over their production decisions.
    For 2011, the budget includes approximately $2.1 billion in 
emergency and non-emergency foreign food assistance programs carried 
out by USDA and USAID, and capacity building programs. Through the 
McGovern-Dole International Food for Education and Child Nutrition 
Program, which is administered by the Foreign Agricultural Service, 
USDA will assist an estimated 5 million women and children in some of 
the world's poorest countries.
    In support of agricultural reconstruction and stabilization 
activities in Afghanistan, USDA is increasing the number of 
agricultural experts serving in Afghanistan from 14 to 64 in 2010. The 
work of these courageous individuals is essential for stabilizing 
strategic areas of the country, building government capacity, ensuring 
the successful management of assistance programs, and addressing the 
issue of food insecurity. It is estimated that as much as 80 percent of 
the Afghan population relies on agriculture for wages and sustenance. 
Consistent with these efforts, the Department has established a 
priority for increasing the number of Afghan provinces in which women 
and children are food secure from 10 to 14 by the end of 2011, ensuring 
food security for 41 percent of the country's provinces by the end of 
2011.
    An important means to assist developing countries to enhance their 
agricultural capacity is by providing training and collaborated 
research opportunities in the United States, where participants can 
improve their knowledge and skills. The 2011 budget provides increased 
funding for the Cochran and Borlaug Fellowship Programs, which bring 
foreign agricultural researchers, policy officials, and other 
specialists to the United States for training in a wide variety of 
fields. Under our proposals, as many as 600 individuals will be able to 
participate in these programs and bring this knowledge home with them 
to benefit their respective countries.
    In addition, the Department is working with other Federal partners 
to reduce global food insecurity and increase agriculture-led economic 
growth in developing countries. These combined efforts will not only 
ensure that the world's children have enough to eat, but will improve 
national security as well. By promoting strong agricultural systems in 
the developing world, we will eliminate some of the primary causes that 
fuel political instability and diminish the economic vitality of 
developing nations.

 ENSURING PRIVATE WORKING LANDS ARE CONSERVED, RESTORED, AND MADE MORE 
    RESILIENT TO CLIMATE CHANGE, WHILE ENHANCING OUR WATER RESOURCES

    USDA plays a pivotal role in working with farmers and ranchers to 
protect and restore private working lands, while making them more 
resilient to threats and enhancing our natural resources. USDA partners 
with private landowners to help protect the Nation's 1.3 billion acres 
of farm, ranch, and private forestlands.
    The budget includes record levels of support for conservation 
programs, bringing total funding to about $6 billion, which includes $5 
billion in mandatory funding for the conservation programs authorized 
in the 2008 farm bill and nearly $1 billion in discretionary funding 
for other conservation activities, primarily technical assistance. This 
level of funding supports cumulative enrollment of more than 304.6 
million acres in farm bill conservation programs, an increase in 
enrollment of about 10 percent over 2010.
    The budget will accelerate the protection of our natural resources 
by strategically targeting funding to high priority program areas. This 
includes an increase of $25 million to implement the Strategic 
Watershed Action Teams initiative that will target identified 
watersheds for a period of 3 to 4 years with the intent of reaching 100 
percent of the landowner base in each watershed eligible for farm bill 
conservation program assistance. The additive effect of planned and 
applied conservation practices would hasten environmental improvement 
while keeping production agriculture competitive and profitable.

Research
    Underlying the achievement of all of the Department's goals is a 
strong research program. Research fuels the transformational change 
that rural America needs to excel. To help bring about this change, I 
have launched the National Institute of Food and Agriculture (NIFA), 
which will be a key element in providing the knowledge and technical 
advances that will lead to increased productivity, more abundant food 
supplies, improved nutrition, safer food, and a cleaner environment.
    Agricultural research ultimately leads to increased profitability 
for farmers, reduced food costs and greater choice for consumers, and 
improved management of the natural resource base. To get more out of 
our research, the Department must focus its research and development 
components on making sure we do our very best job not just to increase 
productivity but also to make sure that we protect what it is they are 
growing and raising. The National Institute is going to have a more 
focus, in part on improving productivity and also being able to figure 
out how we can do a better job of protecting crops and animals from 
pests and disease. The more we produce, the healthier we produce, the 
better off we will be. If you conduct more research that will enable 
farmers to be more productive and improve the protection of their crops 
from pests and disease, in concert with protecting the market through 
food safety, we will be able to expand domestic markets and increase 
export markets.
    As I have highlighted a few of the most significant research 
initiatives, I would like to point out that the 2011 budget proposes 
the largest funding level ever for competitive research with $429 
million for AFRI, an increase of $166 million over 2010. AFRI is the 
Nation's premier competitive, peer-reviewed research program for 
fundamental and applied sciences in agriculture. It is broad in scope 
with programs ranging from fundamental science to farm management and 
community issues.
    The budget also maintains formula funding for research and 
extension at 1862, 1890 and 1994 land-grant institutions, schools of 
forestry and schools of veterinary medicine at the 2010 level, thereby 
maintaining the research infrastructure needed to meet our research 
goals. These important capacity building programs will allow 
institutions to sustain the matching requirement that many of these 
programs have, thereby allowing Federal funds to leverage non-Federal 
resources. All of these institutions are also eligible to apply for 
AFRI funding to enhance their research efforts.

Management Initiatives
    The budget also includes a number of management initiatives that 
will improve service delivery, ensure equal access to USDA programs, 
and transform USDA into a model organization.
    As part of a government-wide effort to improve service delivery and 
IT security, the Department will continue to implement improvements to 
address vulnerabilities to aging IT systems used for delivering 
billions of dollars in farm, conservation, and rural development 
program benefits that will result in more reliable, customer-focused 
service to producers.
    Ensuring that the Department and its programs are open and 
transparent is a priority for USDA. Therefore, USDA is proposing to 
expand the Office of Advocacy and Outreach, which was established by 
the 2008 farm bill, to improve service delivery to historically 
underserved groups and will work to improve the productivity and 
viability of small, beginning, and socially disadvantaged producers.
    In support of my commitment to improve USDA's handling of civil 
rights matters, the budget includes funding to ensure that USDA has the 
staffing and resources necessary to address its history of civil rights 
complaints and seek resolution to claims of discrimination in the 
Department's employment practices and program delivery. To demonstrate 
this commitment, USDA under my leadership has been aggressively 
pursuing resolution to several pending discrimination lawsuits against 
the Department. Most notably, USDA and the Department of Justice 
reached a settlement of outstanding claims of discrimination by Black 
farmers in the Pigford case. Resolution of this litigation is evidence 
of the commitment to resolving all of the large civil rights cases at 
USDA, including those involving Hispanic, Native American, and women 
farmers.
    As USDA's workforce interacts directly with the public we serve 
every day, the Department's employees are some of our most valuable 
assets. To enhance the Department's human resource capabilities, USDA 
will focus on improving leadership development, labor relations, human 
resources accountability, and veterans and other special employment 
programs. Investing in our employees will create an environment that is 
more responsive to the Department's broad constituency.
    There is no doubt that these tough times call for shared sacrifice. 
The American people have tightened their belts and we have done so as 
well. We made tough decisions, but this budget reflects our values and 
common sense solutions to the problems we face. It makes critical 
investments in the American people and in the agricultural economy to 
set us on a path to prosperity as we move forward in the 21st century.
    I would be pleased to take your questions at this time.
                                 ______
                                 
        Prepared Statement of Phyllis K. Fong, Inspector General

    I want to thank Chairman Kohl and Ranking Member Brownback for the 
opportunity to submit testimony about the Department of Agriculture's 
(USDA) Office of Inspector General's (OIG) fiscal year 2011 budget 
request. My statement will summarize a number of the most important 
oversight projects and investigations we performed in fiscal year 2009 
and 2010 to date and present the key elements of the President's fiscal 
year 2011 budget request for OIG.
    During this period, we issued a total of 78 audit reports regarding 
USDA programs and operations. We obtained $131 million in potential 
monetary results by reaching management decision with USDA on our 
recommendations. In that time period, we reported 866 convictions and 
$179 million in potential monetary results as a result of OIG 
investigations.\1\
---------------------------------------------------------------------------
    \1\ Audit monetary impacts are derived from funds put to better use 
and questioned/unsupported costs, as established by Congress in the 
Inspector General Act of 1978. The components of our investigative 
monetary results include fines, recoveries, restitutions, claims 
established, and administrative penalties, among others.
---------------------------------------------------------------------------
    My statement will begin with an overview of our work to assess and 
improve the Department's American Recovery and Reinvestment Act of 2009 
(Recovery Act) programs and operations, cover our most significant 
recent audit and investigative activities, and conclude with a summary 
of the President's fiscal year 2011 budget request for OIG.

            OIG OVERSIGHT OF USDA'S RECOVERY ACT ACTIVITIES

    The Recovery Act provided USDA with $28 billion in additional 
funding for an array of programs and activities. Among the USDA 
programs funded by the Recovery Act are farm loans, watershed 
protection, nutrition assistance, wildfire management, capital 
improvements and maintenance, and rural development. With the 
subcommittee's leadership, the Recovery Act also provided OIG with 
$22.5 million to oversee the USDA programs funded by the Act; these 
funds are available through fiscal year 2013.
    In response to this call for additional oversight, in 2009 OIG 
modified its audit and investigative programs, added staff to handle 
the additional workload, and reprioritized its current work. Along with 
expanding the scope of audits already in process, we added 54 
additional audits that were specifically designed to address Recovery 
Act programs.
    Our approach to auditing Recovery Act-funded programs involves 
three phases that will be implemented over the next several years. In 
the first phase, we are reviewing USDA agencies' documented internal 
control procedures relating to Recovery Act programs. In the second 
phase, through field reviews, we are evaluating program delivery, 
reviewing participants' eligibility, and ensuring Recovery Act funds 
are being used for their intended purposes. In the third phase, we will 
evaluate program performance measures and how accomplishments and 
results are reported by USDA agencies.
    As of April 1, 2010, we have issued 12 audits regarding the 
Department's Recovery Act programs and operations. Our audits addressed 
USDA's internal controls over loan and grant processing, management of 
the Supplemental Nutrition Assistance Program (SNAP), actions taken in 
response to prior audit recommendations, aquaculture grants, and Forest 
Service (FS) contracting and grants management. We have also issued 
another six audits relevant to USDA's Recovery Act activities that were 
in process when the Act was passed. These audits examined programs that 
subsequently received Recovery Act funding, such as the rehabilitation 
of flood control dams, broadband loans and grants, nutrition 
assistance, and rural development. At present, we have 34 Recovery Act 
audits in process, with 10 additional audits scheduled to start in the 
coming months.
    We have also developed a new reporting process to provide USDA 
agency managers with prompt feedback regarding the use of Recovery Act 
funds; these ``fast reports'' convey issues to program managers as soon 
as they are identified. Fast reports are then consolidated and issued 
in a formal, audit report at a later date. As of April 1, 2010, we have 
issued 30 fast reports addressing matters such as business and industry 
loans, contract issuance and management, Recovery Act reporting, 
housing loans, nutrition assistance, farm operating loans, water and 
waste disposal grants and loans, and floodplain easements. For example, 
the fast report we issued concerning SNAP found the budgetary estimate 
for SNAP had increased significantly since the original estimate 
included in the Food and Nutrition Service's Recovery Act Plan. The 
change was not consistently or timely reported on Recovery.gov and 
associated agency Web sites.\2\ The Department agreed to work with the 
Office of Management and Budget (OMB) and the Recovery Accountability 
and Transparency Board to establish a process for changing estimates 
reported on these public Web sites.
---------------------------------------------------------------------------
    \2\ The original estimate totaled more than $19.8 billion through 
fiscal year 2013. This amount increased to $65.8 billion through fiscal 
year 2019 when estimated for the fiscal year 2011 budget.
---------------------------------------------------------------------------
    Our Investigation Division has been working to ensure the integrity 
of Recovery Act programs by investigating allegations of potential 
fraud, preparing to conduct investigations, and implementing a 
whistleblower allegation program. To accomplish these goals, we 
developed a two-phase approach. As part of the first phase, we are 
increasing fraud awareness training for Federal, State, and local 
officials involved in the disbursement and administration of Recovery 
Act funding from USDA.
    In the second phase, we are assessing complaints and referrals OIG 
has received to ascertain if criminal investigations should be opened. 
As of April 9, 2010, OIG had received 31 referrals relating to USDA 
Recovery Act contract awards and 20 complaints to our hotline. Our goal 
is to expeditiously evaluate any concerns raised about USDA's Recovery 
Act activities and expenditures and ascertain if there is potential 
criminal activity or, alternatively, administrative issues. As of April 
9, 2010, we had identified no criminal activity in our reviews of 
Recovery Act referrals and complaints.

   GOAL 1: STRENGTHEN USDA'S SAFETY AND SECURITY MEASURES FOR PUBLIC 
                                 HEALTH

    One of OIG's most important goals is to protect public health and 
ensure the wholesomeness of the food reaching both U.S. consumers and 
consumers in foreign markets. In fiscal year 2009 and the first half of 
fiscal year 2010, we completed several important oversight projects 
related to food safety. We also completed work related to other USDA 
activities potentially affecting public safety, such as assessing the 
ongoing rehabilitation of aging dams throughout the country.

Evaluating Food Safety Controls Prior to Slaughter of Cattle
    In 2008, when videos came to light documenting the abuse of cattle 
awaiting slaughter at a meat packing company in Chino, California, the 
Food Safety and Inspection Service (FSIS) oversaw the company's recall 
of approximately 143 million pounds of raw and frozen beef products--
the largest recall in U.S. history. OIG's audit of conditions at the 
slaughter facility determined there was not a systemic failure ofFSIS' 
inspection process, but that plant personnel acted deliberately to 
bypass required inspections.
    OIG investigators continue to work closely with the U.S. Attorney's 
Office and FSIS to investigate the events that took place at this 
facility. Meanwhile, in 2009, OIG audit's work on this beef recall led 
to three major audits concerning the quality of beef processed in the 
United States.

Evaluating the Recall
    Given the unprecedented size and scope of this beef recall, OIG 
evaluated whether FSIS effectively oversaw the recall, verifying if the 
packing company contacted beef distributors, retrieved the potentially 
contaminated meat, and properly disposed of it. We also assessed 
whether FSIS had implemented corrective actions in response to 
recommendations OIG made in two prior reports on the agency's recall 
process.
    While FSIS had generally taken appropriate actions in response to 
our prior recommendations, we found that FSIS needs to improve how it 
evaluates the success of its recalls. To determine if a recall has been 
successful, FSIS samples and follows up with distributors who have 
received potentially adulterated beef. The agency, however, had no 
procedures to replace sampled distributors who were found not to have 
actually purchased any of the recalled beef. The size and completeness 
of the sample is important because FSIS depends on statistical 
projections to support its overall conclusions concerning a recall's 
effectiveness.
    In this recall, 41 percent of the companies FSIS contacted had not 
received the recalled product and therefore should not have been used 
to evaluate the recall--some were out of business, some did not sell 
meat at all, and others never purchased any of the recalled beef. We 
also found that FSIS needs to implement written procedures to ensure 
that all of its district offices follow a standardized and 
statistically valid process for evaluating recalls. FSIS agreed with 
OIG's recommendations to strengthen agency procedures to evaluate 
recalls.

Evaluating Controls Over Residues in Cattle
    Another public food safety issue facing the United States is the 
contamination of meat with residual veterinary drugs, pesticides, and 
heavy metals. ``Residue'' of this sort finds its way into the food 
supply when producers bring animals to slaughter plants while they have 
antibiotics or other drugs in their system. When the animals are 
slaughtered, traces of the drugs remain in these animals' meat when 
shipped to meat processors and retail supermarkets, and eventually 
purchased by consumers. In cooperation with the Environmental 
Protection Agency (EPA) and the Food and Drug Administration (FDA), 
FSIS inspectors are required to sample and test animal carcasses to 
verify that beef is not contaminated with harmful residue.
    Our March 2010 report found that the National Residue Program is 
not accomplishing its mission of monitoring the food supply for harmful 
residues. For example, FSIS, FDA, and EPA have not established 
thresholds for many dangerous substances (e.g., copper or dioxin), 
which has resulted in meat with these substances being distributed in 
commerce. To address these serious shortcomings in the National Residue 
Program, FSIS, EPA, and FDA need to take steps to improve how they 
coordinate with one another.
    Acting on its own initiative, FSIS can strengthen the National 
Residue Program by requiring slaughter plants to increase their 
controls when processing dairy cattle and bob veal calves. Our analysis 
shows that plants handling these animals were responsible for over 90 
percent of residue violations. The agency can also do more to focus on 
repeat violators-producers who have a history of bringing to slaughter 
animals with residue in their system. FSIS agreed with our findings and 
recommendations.

Purchasing Ground Beef for Federal Nutrition Assistance Programs
    The Agricultural Marketing Service (AMS) purchases ground beef 
products for use in Federal nutrition programs. Our newly released 
audit found that the agency had significantly improved its procedures 
to ensure that contracted ground beef suppliers comply with purchasing 
requirements. However, our audit found that further improvements are 
still needed. AMS has not made a formal determination as to whether 
ground beef suppliers should be required to obtain bonding or insurance 
to safeguard the Department against possible monetary losses resulting 
from major product recalls. The agency needs to strengthen its criteria 
to hold suppliers accountable for their non-conformances and to 
properly track non-conformances to ensure that ground beef suppliers 
meet eligibility requirements for continued program participation. In 
addition, AMS needed to strengthen its controls over the selection of 
product samples for laboratory testing and the laboratory testing 
process itself. This would provide increased assurance that ground beef 
products purchased for Federal programs meet quality and safety 
standards. AMS officials agreed with OIG's findings and 
recommendations.

Overseeing the National Organic Program
    The public's interest in environmental concerns and food produced 
with fewer pesticides and chemicals has led to increased focus on 
USDA's National Organic Program. Over the past decade, the organic 
industry has grown between 14 and 21 percent annually. In 2008, it sold 
more than $24.6 billion in agricultural products. Administered by AMS, 
the National Organic Program is responsible for ensuring that when 
consumers purchase foods labeled ``USDA organic,'' those foods meet 
uniform standards.
    Our recent audit of the National Organic Program found that program 
officials need to improve their process for handling complaints and 
taking appropriate enforcement actions. For example, AMS did not take 
enforcement action against a farming operation that marketed nonorganic 
mint under USDA's organic label for 2 years. Other farming operations 
continued to improperly market their products as organic while AMS 
considered enforcement action, which in some cases took as long as 32 
months.
    Organic products must originate from farms or operations certified 
by agents accredited by USDA. These certifying agents grant organic 
certification upon determining that an operation's procedures comply 
with regulations. We found that AMS did not ensure that its certifying 
agents consistently enforced the requirements of the organic program so 
that products labeled as organic meet a uniform standard. AMS officials 
agreed with OIG's findings and recommendations.
    OIG has also investigated criminal schemes to defraud the National 
Organic Program. In February 2010, as a result of a joint investigation 
involving OIG agents, the owner of an organic commodities company in 
Texas was sentenced to 24 months imprisonment and ordered to pay 
$520,000 for falsely certifying that conventionally grown crops (grain 
sorghum, beans) were organic.

Rehabilitating Aging Dams To Address Public Safety
    Since the 1940s, the Natural Resources Conservation Service (NRCS) 
has assisted in the construction of more than 11,000 dams, many of 
which have reached (or will soon reach) the end of their planned design 
lives and need rehabilitation. Congress appropriated over $159 million 
from fiscal years 2002 to 2007 to assist dam owners in rehabilitating 
these structures, most of which are owned by local governments and 
utilities.
    Our 2009 audit found that instead of first coordinating with State 
dam agencies, NRCS selected dams for assessment as they were 
volunteered by their owners, regardless of the potential threat to life 
and property or their proximity to the end of the planned design life. 
Six years after the program was initiated, NRCS had not assessed 1,345 
of 1,711 high-hazard dams (79 percent) and has spent $10.1 million to 
assess and rehabilitate lower hazard dams. (The failure of a lower-
hazard dam is unlikely to result in loss of life.) NRCS lacks authority 
to compel owners to take any particular action, even in the case of a 
dangerous high-hazard dam. NRCS officials agreed with OIG's findings 
and recommendations.

            OIG Investigations: Food Safety
    OIG considers investigations involving food safety our highest 
priority due to the potential impact on the health and well-being of 
the American public. In our food safety investigations, we typically 
see various schemes such as product tampering, adulteration, the 
falsification of documents, smuggling, and inhumane slaughter. Within 
the last year, we completed a number of noteworthy food safety 
investigations as illustrated by the following two cases.
    The first involves a Texas food company that schemed to defraud 
several Middle Eastern food companies as well as the U.S. military, 
which relies on these companies to provide food to its troops in Iraq 
and Afghanistan. The owner of this food company forged USDA export 
certificates and Halal certificates and directed his employees to wipe 
expiration dates off the products and stamp new dates on them. In July 
2009, the owner pled guilty to charges that he conspired to defraud the 
Government. He was sentenced to serve 24 months in jail and ordered to 
pay $3.9 million in restitution to the Federal Government.
    The second significant OIG food safety investigation involved the 
seizure of smuggled duck and other meat/poultry products aboard cargo 
ships at Port Elizabeth, New Jersey. The importer attempted to 
illegally bring the products into the United States by not listing them 
on the ship's manifest, thereby avoiding USDA inspection. A multi-
agency investigation found that the food products originated from 
China, which was prohibited from exporting poultry to the United 
States. The owner of the American import company ultimately pled guilty 
to conspiracy in February 2010. To date, this investigation has 
resulted in Federal fines in excess of $6.7 million being imposed on 
several companies and their owners.

            Animal Fighting Investigations
    Animal fighting is a crime that has gained national attention 
recently due to several high-profile investigations. OIG has been 
involved in investigating animal fighting for several years because of 
the effect these activities have on animal health, as well as human 
public health and safety concerns. The animals used in these illegal 
activities can introduce diseases into the United States. Individuals 
participating in animal fighting operations are also often implicated 
in illegal activities involving firearms, drugs, contraband, gambling 
and, in some instances, public corruption. In fiscal year 2009 and the 
first half of fiscal year 2010, our animal fighting investigations 
resulted in 405 individuals being convicted and monetary results of 
approximately $223,000.
    An OIG investigation disclosed that the former sheriff in Luray, 
Virginia, was accepting campaign contributions to protect an illegal 
cockfighting and gambling operation at the local sportsman's club. He 
was also using his position to conduct other improper activities, such 
as misusing inmate labor for personal gain. Due to OIG's investigation, 
the sheriff resigned from his position and was ultimately sentenced in 
December 2009 to 19 months imprisonment, 2 years of supervised release, 
forfeiture of $75,000 to the Federal Government, and approximately 
$5,000 in other monetary penalties. The sportsman's club was also fined 
and several associated individuals received prison terms ranging up to 
18 months.

   GOAL 2: STRENGTHENING USDA'S PROGRAM INTEGRITY AND IMPROVING THE 
                          DELIVERY OF BENEFITS

    OIG has also completed a number of projects intended to ensure that 
USDA programs are reaching the people who most need and are eligible 
for program benefits. These projects range from audits verifying the 
accuracy of payments made to farmers to investigations resulting in the 
prosecution of individuals who defraud SNAP.
Determining the Accuracy of Financial Assistance to Peanut Producers
    From 2002 through 2007, the Farm Service Agency (FSA) provided more 
than $1 billion in financial assistance to peanut producers. FSA 
determines how much assistance is needed based on weekly average peanut 
prices published by the National Agricultural Statistics Service 
(NASS). Even very small changes in peanut prices can result in 
significant changes in the amount of assistance provided--a penny one 
way or the other equals roughly $33 million a year. Our March 2009 
audit found that NASS' peanut prices are not based on reliable market 
data. Since there is no public commodity market for peanuts, NASS 
solicits price data from peanut buyers. Their participation is 
voluntary and confidential by law, and NASS does not verify the data 
they provide. Without mandatory and verifiable price reporting, FSA has 
no assurance that its program payment rates depending on NASS' 
published prices correspond to a true market price. FSA officials 
generally agreed with OIG's recommendations.

Improving USDA's 2008 Disaster Relief Response
    The Disaster Relief and Recovery Supplemental Appropriations Act of 
2008 provided USDA with extensive supplemental funding for disaster 
relief assistance to individuals and communities affected by the 
hurricanes and flooding in the Midwest and South (primarily) that year. 
Due to the efforts of this subcommittee and your counterparts in the 
House, the Act provided OIG with $5 million in supplemental no-year 
funding for oversight of the Department's emergency relief activities.
    Our disaster relief oversight program has focused on whether USDA 
agencies have implemented the internal control improvements regarding 
emergency benefits that OIG recommended after assessing their response 
to the 2005 Gulf Coast hurricanes. That experience demonstrated that 
management controls regarding emergency assistance eligibility and 
program oversight are vital to prevent the waste or misuse of USDA 
disaster funding. OIG's audit program for USDA disaster relief 
activities programs is assessing the Department's short-term emergency 
relief assistance and its longer-term rebuilding efforts. We are 
currently reviewing aspects of USDA 2008 disaster relief operations, 
such as the Emergency Watershed Protection Program and the Emergency 
Conservation Program.

Ensuring That All Farm Loan Recipients Are Treated Fairly
    A provision in the 2008 farm bill required OIG to review how FSA 
was processing foreclosures to ``socially disadvantaged'' farmers 
(i.e., women and minorities) to ensure that all loan recipients were 
being treated fairly and in conformity with the law. By analyzing FSA's 
actions at critical points in the foreclosure process, we found that 
FSA generally followed its established process in servicing and 
foreclosing loans to socially disadvantaged borrowers and that the 
agency's decisions conformed to applicable laws and regulations. We did 
find a few instances where FSA did not technically conform to 
prescribed timeframes for some policies and procedures; however, there 
was no statistically significant difference between how socially 
disadvantaged borrowers were treated compared to the rest of the 
population.

            OIG Investigations: USDA Benefit and Farm Programs
    Ensuring the integrity of benefits provided by USDA programs is the 
hallmark of the investigative work we do. OIG investigations of 
criminal activity in USDA's nutrition assistance programs resulted in 
250 convictions and over $44 million in monetary results in fiscal year 
2009. I would like to highlight for the subcommittee several noteworthy 
OIG investigations regarding USDA benefit programs that achieved 
significant sentencings and/or restitution orders in fiscal year 2009.
  --An Illinois store owner and employee conspired with at least five 
        additional retail grocery stores to illegally exchange SNAP 
        benefits for cash. Together, the owner and his employee were 
        sentenced to 83 months of incarceration and ordered to pay $6.3 
        million in restitution to USDA.
  --An Oklahoma entity receiving Child and Adult Care Food Program 
        benefits made false statements and claims on monthly meal 
        reimbursement records to fraudulently obtain additional meal 
        reimbursements. The director was sentenced to 41 months 
        imprisonment and ordered to pay $1.6 million restitution to the 
        U.S. Government.
  --Kentucky business owners fraudulently used the same collateral to 
        secure two bank loans guaranteed by USDA's Rural Business 
        Cooperative Service. In February 2009, the owners pled guilty 
        to bank fraud, wire fraud, and money laundering and were 
        sentenced to 27 months and 30 months imprisonment, 
        respectively. They were ordered to pay $4.5 million in 
        restitution to USDA and two other entities.
    In fiscal year 2009, OIG also completed several investigations into 
fraudulent activities involving FSA and Risk Management Agency (RMA) 
programs. These are some of the most complex investigations we conduct, 
as they often involve large monetary amounts and voluminous 
documentation. In this area, OIG found that:
  --A Florida farming entity received over $1 million in fraudulent 
        crop insurance payments. The OIG investigation resulted in the 
        corporation being ordered in March 2009 to pay $1.1 million in 
        restitution to USDA. The farmer was ordered to pay in excess of 
        $460,000 in taxes and penalties to the Internal Revenue 
        Service.
  --A Missouri farmer made false statements to obtain loans, convert 
        collateral, and commit bank fraud. In September 2009, the 
        farmer pled guilty to all charges and was sentenced to 9 months 
        incarceration and ordered to pay $550,000 to the Federal 
        Government.

     GOAL 3: OIG WORK IN SUPPORT OF USDA'S MANAGEMENT IMPROVEMENT 
                              INITIATIVES

    OIG continuously monitors risks to USDA programs to assist the 
Department in identifying and correcting programmatic concerns, and to 
improve overall Department management.

Enhancing the Integrity of the Federal Crop Insurance Program
    RMA oversees private companies that sell crop insurance policies to 
American farmers. The total liability for this insurance has increased 
markedly in recent years--from 2005 to 2009, total liability increased 
from $35 billion to approximately $91 billion. OIG found that RMA needs 
to take a number of steps to strengthen its oversight of this industry. 
Above all, it needs a comprehensive, systematic, and well-defined 
strategy for improving the integrity of the crop insurance program, 
including a strategy that coordinates the various activities being 
conducted by the different RMA divisions. In order to use RMA's limited 
compliance resources as effectively as possible, the strategy should 
focus those resources on program vulnerabilities, which we recommended 
RMA determine by performing a risk assessment. We identified steps RMA 
can take to strengthen its oversight of the crop insurance companies 
that are responsible for much of the day-to-day operations of the 
program. Such steps include improving the agency's review of large 
insurance claims and holding the private insurance companies 
responsible when RMA finds that they made errors while processing 
claims. We continue to work with RMA officials on corrective actions to 
address OIG's recommendations.

Strengthening the Security of USDA Information Technology
    Over the last decade, USDA has improved its information technology 
(IT) security, but many longstanding weaknesses remain. In 2009, the 
Department implemented its Cyber Security Assessment and Management 
System to provide it with current agency security information and 
enhance the Department's oversight capabilities. USDA still needs to 
take steps to address a number of security weakness, such as developing 
a Department-wide plan for addressing IT security vulnerabilities, 
updating software, addressing vulnerabilities, deploying both 
encryption and the Federal Desktop Core Configuration, and using 
standard security settings. With such a large and diverse Department, 
ensuring that all agencies comply with these standards will take time 
and resources. The Office of the Chief Information Officer is 
continuing to work towards these goals.

Financial Statements for Fiscal Years 2008 and 2009
    Pursuant to the Chief Financial Officers Act of 1990 and OMB 
guidance, Federal OIGs are responsible for annual audits of 
departmental and agency financial statements to obtain reasonable 
assurance that the financial statements are free of material 
misstatements. USDA's fiscal year 2008 and 2009 consolidated financial 
statements received an unqualified opinion, as did the fiscal year 2008 
and 2009 financial statements for five other USDA entities.\3\
---------------------------------------------------------------------------
    \3\ Rural Development, Commodity Credit Corporation, FS, Food and 
Nutrition Service, and Federal Crop Insurance Corporation. NRCS 
received a disclaimer of opinion, but this did not change the opinion 
for the consolidated statements.
---------------------------------------------------------------------------
OIG Investigations
    In order to promote integrity of departmental operations and 
activities, OIG has responsibility to investigate incidents of severe 
misconduct and potential criminal activity by USDA personnel. The 
following OIG investigations involving former USDA personnel resulted 
in sentencings in fiscal year 2009:
  --A former FS employee in Wisconsin was found to have misused 
        purchase card convenience checks and misappropriated almost 
        $320,000 over a 4-year period. In May 2009, she was sentenced 
        to 12 months incarceration and ordered to pay $320,000 in 
        restitution to the Federal Government.
  --In December 2009, a former FSIS employee was sentenced in the 
        Southern District of Mississippi to 11 months in prison and 3 
        years of probation for threatening and pointing an assault 
        rifle at OIG agents. OIG agents had been sent to interview the 
        former employee after he made threatening phone calls to the 
        FSIS Regional Director. The individual pled guilty to one count 
        of assaulting, resisting, or impeding Federal employees.
       goal 4: improving usda's stewardship of natural resources
    USDA provides leadership to help America's private landowners and 
managers conserve their soil, water, and other natural resources. Our 
goal in auditing these activities is to increase the efficiency and 
effectiveness with which USDA exercises stewardship over natural 
resources.

Encouraging Farmers and Ranchers To Become Good Stewards of the Land
    NRCS' Conservation Security Program (CSP) provides financial 
assistance to producers who meet the very highest standards of 
conservation and environmental management. OIG assessed NRCS' CSP 
administration for one fiscal year in which the agency was authorized 
$259 million in financial assistance for prior year contracts and new 
signups for conservation practices, as well as technical assistance to 
develop conservation plans. Of the approximately 4,400 contracts for 
the new signups with first year payments totaling $51 million, we 
sampled 75 contracts that totaled $11.8 million. We found that half (38 
of 75) were given to participants who did not qualify for the program. 
NRCS relied on applicants to provide accurate information, but did not 
confirm key information that would help verify producer qualifications. 
Agency officials agreed with OIG's recommendations and we continue to 
work with NRCS on appropriate corrective actions.

Forest Service
    Employing approximately 30,000 employees and overseeing 193 million 
acres comprising 175 National Forests and Grasslands, the U.S. Forest 
Service (FS) is the largest USDA agency. In fiscal year 2008, FS spent 
more than $5.8 billion managing and protecting America's natural 
resources. Because FS is an extremely decentralized agency that has a 
history of weak internal controls, OIG devotes a significant percentage 
of its resources to overseeing its operations. The following are brief 
descriptions of several of our more noteworthy oversight reviews 
pertaining to FS operations.

Purchasing and Maintaining the Aircraft FS Needs To Fight Fires
    We reviewed FS' plans for purchasing new aircraft for its 
firefighting program, and found that FS did not present the best case 
possible to justify buying new aircraft. With an average age of more 
than 50 years, more than half of the 44 airtankers available under 
contract in 2004 were grounded for safety concerns. By 2012 the 
remaining 19 airtankers will begin to be either too expensive to 
maintain or no longer airworthy. FS will probably have to purchase 
replacement aircraft--at a cost of up to $2.5 billion--rather than 
lease airtankers, as it has done in the past. FS agreed with our 
recommendations to: (1) collect current aviation performance data to 
determine how new aircraft will improve its firefighting performance; 
(2) use aviation firefighting performance measures that directly 
demonstrate the cost impact of its aging airtanker fleet; and (3) 
formally establish an integrated team to take charge of developing the 
agency's budget document.

Improving How FS Uses Contracted Labor Crews To Fight Fires
    Since FS relies on contractors to fulfill many of its firefighting 
responsibilities, we assessed how effectively and efficiently FS is 
deploying these resources. We found that FS needs to analyze its 
mobilization data from previous seasons to identify trends in how 
firefighting labor crews are used in conjunction with other resources 
(i.e., aircraft operations, fire engine crews). Analyzing this data 
would greatly improve FS' ability to identify more effective deployment 
strategies, especially during severe fire seasons when FS' resources 
are most taxed. We continue to work with FS to obtain agreement on the 
corrective actions.

Evaluating How FS Plans To Replace Its Critical Personnel as They 
        Retire
    FS could face a significant shortage of qualified firefighters as 
its workforce ages and firefighters face mandatory retirement. As of 
2009, approximately 26 percent of FS' critical firefighters were 
eligible to retire. Unless adequate replacements are available, the 
nation could face losses to its natural resources and firefighters 
could be at increased risk of harm. We concluded that FS has not taken 
the necessary steps to ensure it has a sufficient number of qualified 
staff to meet its future wildland fire management responsibilities. FS 
officials agreed with OIG's findings and recommendations.

                           OIG INVESTIGATIONS

    In the case of each fatality of an officer or employee of the FS 
that occurs by a wildfire entrapment or burnover, OIG is required by 
law to conduct an independent investigation.\4\ Thus, when five FS 
firefighters fighting the Esperanza Fire died due to a burnover in 
October 2006, OIG investigated the circumstances of their deaths. Our 
investigation found that there was no evidence of any criminal 
wrongdoing involved in the accident.
---------------------------------------------------------------------------
    \4\ 7 U.S.C. 2270(b).
---------------------------------------------------------------------------
    OIG's Wildland Fire Investigation Team will continue to work with 
FS to ensure that there is transparency and established procedures for 
handling future investigations of this sort.

                 OIG'S FISCAL YEAR 2011 BUDGET REQUEST

    Before concluding, I would like to address key elements of the 
President's fiscal year 2011 budget request for OIG. We are very 
grateful for the support of the administration and of the Congress 
particularly the Members of this subcommittee--during this budget 
process. Your ongoing support and interest in our work has enabled us 
to consistently provide constructive oversight for a wide array of 
USDA's extensive programs and operations.
    Over the last 5 fiscal years, the total appropriation available for 
OIG was approximately $413 million. The potential dollar impact of 
OIG's audits and investigations for this same period was $1.36 billion, 
resulting in cost savings and recoveries of approximately $3.29 for 
every dollar invested in our oversight work.
    We respectfully ask that you support the President's fiscal year 
2011 request of $90.3 million for OIG. This appropriation would be an 
increase of $1.6 million over our fiscal year 2010 level and would 
provide:
  --$1 million for 2011 mandatory pay costs;
  --$162,000 to support investigator training, which includes required 
        Federal law enforcement training, training peer counselors for 
        Critical Incident Stress Management, and continuing legal 
        training to maintain the current professional standards set for 
        OIG staff;
  --$394,000 to support the Council ofInspectors General on Integrity 
        and Efficiency (CIGIE, or the Council).
    Pay cost increases are needed to maintain current staffing levels 
to enable OIG to carry out important oversight work in areas such as 
food safety, program integrity, and departmental management. 
Approximately 86 percent of OIG's budget is dedicated to personnel 
compensation. The remaining 14 percent is expended for contract 
services and rental fees (7 percent); travel (5 percent); and supplies, 
equipment, and telecommunications (2 percent). This leaves very limited 
flexibility to OIG managers to absorb mandatory pay increases.
    The President's request provides funds to support CIGIE, which is 
an organization of 69 Federal IGs established by the Congress via the 
IG Reform Act of 2008.\5\ As authorized by the Congress, the Council's 
mission is to address integrity, economy, and effectiveness issues that 
transcend individual agencies and increase the professionalism of the 
IG workforce. USDA OIG is a member of the Council and serves as its 
first elected Chair. To fund CIGIE's activities and responsibilities 
and fulfill its legislative mission under the IG Reform Act, the 
administration has included $394,000 in the budgets of 15 OIGs, 
including USDA OIG. Your support for this request is essential to 
funding this newly established Council.
---------------------------------------------------------------------------
    \5\ Public Law 110-409.
---------------------------------------------------------------------------
    We would be pleased to provide the subcommittee's Members and staff 
with any additional information you may require to fully consider the 
President's fiscal year 2011 budget request for our office.
    This concludes my written statement. I want to again thank the 
Chair and Ranking Member for the opportunity to submit testimony for 
your consideration.

    Senator Kohl. Thank you very much for that fine statement.

                             DAIRY FARMERS

    Mr. Secretary, last year dairy farmers in my State of 
Wisconsin, and as well as all around the Nation, experienced 
the worst downfall in prices in history, as you know. We were 
able to provide some direct assistance to dairy farmers in our 
bill last year. Can you please update us on what USDA has done 
to implement the assistance we provided, other things you have 
done to stabilize the dairy sector, as well as your outlook for 
the coming year?
    Secretary Vilsack. Mr. Chairman, the dairy outlook is, I 
think, much better than it was last year when we were faced 
with record low prices. There has been a slight rebound in 
prices, and our hope is that that will continue.
    We took aggressive steps last year, in the form of 
increasing price support, encouraging an expansion of the Dairy 
Export Incentive Program to spur exports and to allow us to be 
more competitive. We focused on, as you know, rapidly 
implementing the support and assistance that Congress provided 
at the tail end of the year, distributing roughly $270 million 
of the $290 million in cash, that was provided by Congress in 
the appropriation to farmers, pursuant to a formula that tried 
to mirror the MILC payment structure, with a few modifications 
to ensure an equitable distribution of those resources among 
all dairy farmers. The balance of the $350 million has been 
used in purchasing cheese, in an effort to make sure that all 
of the dairy farmers throughout the country have been helped 
and assisted through this effort.
    I think it's fair to say that we got the resources out, and 
in a relatively quick period of time. The cheese purchases have 
recently been concluded. And so, at this point, we have 
eliminated or utilized all of the resources that Congress has 
provided, with the exception of the small percentage of the 
cash payments to make sure that, if we made a mistake on a MILC 
calculation or payment calculation, that we can correct that 
mistake.
    Senator Kohl. Thank you Mr. Secretary.

                             WIC ARRA FUNDS

    The American Recovery and Reinvestment Act of 2009 provided 
funding to support increased WIC participation. According to 
this budget, not all of this funding has been yet allocated. 
Will you use your transfer authority to obligate any of the 
remaining funds from the Recovery Act for other nutrition 
programs, or will these funds be returned to the Treasury?
    Secretary Vilsack. Mr. Chairman, we are watching very 
carefully the resources provided under the Recovery Act, in 
terms of nutrition assistance. We are hopeful that we are 
making the right set of decisions.
    I will say that with SNAP we've seen a rather dramatic 
increase in the numbers. We haven't necessarily seen that same 
corresponding increase in some of the other programs. And we 
are working with States to make sure that, with the tough 
budget situations that States face, that they aren't reducing 
their administrative assistance and help to get the information 
out about these programs. So, we are cautious about 
transferring resources from one program to another until we are 
confident that the trends we're seeing in SNAP are not all of a 
sudden going to be recognized in WIC or some of the other 
programs.
    Obviously, our goal is to make sure that we do as much as 
we possibly can with this nutrition assistance. And the reason 
for it is not just to make sure that people have adequate 
resources to buy groceries, but also the economic stimulus that 
these items represent. For every dollar we spend in the SNAP 
program, for example, we know there's $1.84 in economic 
activity. We know it has helped to retain jobs in grocery 
stores and trucking facilities and processing facilities around 
the country. So, we're going to be very careful about how we 
manage these resources. Our budget does request additional 
resources for WIC; it does focus on additional resources for 
breastfeeding, because we know that that leads to a healthier 
start for our youngsters. We will continue to monitor this.

                               WIC BUDGET

    Senator Kohl. Just to follow on, the budget includes, as 
you know, a big increase for the WIC program, because this 
program, as you know, is volatile, as well as essential. Do you 
believe the budget is sufficient to cover the demand for the 
WIC program, given the recent history of unforeseen food costs, 
as well as other problems?
    Secretary Vilsack. I do, Mr. Chair, in part because the 
rather dramatic increases we've seen in food costs are not 
being reflected in the numbers we're seeing for food increases 
this year. There has been a moderation of those increases, 
number one. On the other hand, we changed the WIC package to 
include more nutritious choices and options. And so, we're 
obviously focused on making sure that we keep an eye on the 
cost of the package, because we want to encourage more 
nutrition.
    Frankly, what we're also focusing on is expanding the 27 
States that are making electronic benefit transfer cards 
available to WIC participants. We see this as a way of 
encouraging participation and making it easier on families to 
be able to utilize these resources in an effective way without 
having any stigma attached to it.
    Today, 50 percent of America's infants are engaged in the 
WIC program. So, it is obviously a very important program for 
the nutritional need of America's children.
    Senator Kohl. Can you say that again? Fifty percent----
    Secretary Vilsack. Yes sir.
    Senator Kohl [continuing]. Of America's children?
    Secretary Vilsack. Infants, the infants----
    Senator Kohl. Yes.
    Secretary Vilsack [continuing]. Fifty percent of the 
infants born in the United States are in the program.

                   SNAP STATE ADMINISTRATIVE EXPENSES

    Senator Kohl. Okay. Mr. Secretary, as you are aware, 
Congress recently approved additional funding to cover the 
costs of State administrative expenses for the SNAP program. 
Because of budget constraints, some States have chosen to use 
these funds for other programs. I outlined this problem to you 
in a recent letter signed by the ranking member and myself. 
What is the Department doing to make sure that these funds are 
only being used for SNAP? Are there any repercussions to States 
for using these funds on other programs?
    Secretary Vilsack. Mr. Chairman, I had the opportunity to 
visit, informally, with a number of the Nation's Governors 
during the recent National Governors Association meeting here 
in Washington, to reinforce the message that we are here to 
help, but we want to make sure our help is focused and directed 
in the proper manner. We have also recently sent correspondence 
to the Nation's Governors on the important role that SNAP is 
playing, and on making sure that, despite the difficult choices 
that they have to make, that they don't misuse these resources. 
And we are keeping an eye on it.
    We are focused on a couple of States, in particular, who 
have had some significant difficulties with the administration 
of the SNAP program. Decisions that were made to outsource some 
of the administrative activities have not done as well as they 
had anticipated. And so, we are working with those States to 
make sure that they are focused.
    We're also focused on States where the participation rate 
has been less than, I would say, optimal. There are States 
that, still today, 50 percent of those who qualify for SNAP are 
not participating. So, we're encouraging and trying to incent, 
recognizing the difficulties and circumstances that Governors 
face. Having been in that situation for 8 years in Iowa, 6 of 
the 8 years, while Governor I had less money than I had the 
year before. So I am somewhat sympathetic, but understand our 
responsibility is to make sure those resources are used 
appropriately.
    Senator Kohl. Did you say there are States that are 
eligible for SNAP, but they don't participate?
    Secretary Vilsack. Well, they participate, but they don't 
actively and aggressively promote the program. So, as a result, 
in a number of States, a little over 50 percent of the people 
who are eligible to participate in SNAP are, in fact, 
participating. It's one of the reasons why we're constantly 
looking for ways in which we can assist folks with categorial 
eligibility.
    In our budget proposal, we're taking a look at the asset 
tests. We're taking a look at extending some of the provisions 
of the Recovery Act that are working pretty well to provide 
that floor, that nutritional floor that SNAP and the nutrition 
assistance programs provide. We have seen an increase, 
obviously, in the numbers in SNAP. We now have more than 38 
million Americans participating in the program. But, if all of 
America participated, I think you would see even more 
significant numbers.
    Senator Kohl. Thank you.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.

                                ETHANOL

    There have been proposals kicking around on the Hill to up 
the percentage of ethanol in some of the fuel mixtures from 10 
percent to 15 percent. I don't know of a better way to move up 
ethanol than do something like that. Is there--has the agency 
been able to look at that, or weigh in on that debate, 
Secretary?
    Secretary Vilsack. Senator, we have. As you probably know, 
the EPA is currently considering adjusting the E10 rate to as 
much as E15. They are in the process of working with the 
Department of Energy in a series of tests that are being 
conducted on a variety of engines. I believe that there's an 
indication that, in the later-model vehicles, E15 would work 
without significant problems. In some of the older vehicles it 
may be a little bit more difficult. And so, they're trying to 
figure out precisely where that cutoff point is.
    Second, when we put together the Biofuels Task Force 
report, recognizing that we wanted to make sure that this 
industry was a national industry and not necessarily a regional 
industry, we recognized that there were some deficiencies in 
our strategy. One deficiency was that there really wasn't 
adequate distribution, and that's why it's important, I think, 
for us to set up regional efforts so that we can have regional 
distribution systems so that this fuel doesn't have to travel 
long distances to get to where it can be used.
    Second, we saw an overlapping of our research efforts. 
Department of Energy was focused on what really wasn't its core 
competency, and we were focused on things that weren't our core 
competency at USDA. So, we have separated the research 
responsibilities, with USDA focused on feedstocks, Department 
of Energy focused on conversion efficiency. We're also looking 
at ways in which we can focus on the near term, things that 
could be implemented within the next 10 years, with the 
Department of Energy looking at more of the longer-term 
attitude.
    So, there is a comprehensive look at this, and we are going 
to work as hard as we possibly can to get to that 36-billion-
gallon threshold that you all have set.
    Senator Brownback. When--is EPA going to make a ruling on 
this sometime fairly soon, or----
    Secretary Vilsack. I think that they are waiting on a 
completion of the Department of Energy testing. The last time I 
checked, there was still some testing to be done on some of the 
older vehicles. I would anticipate and hope that we would see 
this relatively soon. I think we got positive news, from a 
ethanol and biofuel industry standpoint, with the RFS2, 
reflecting that virtually--the corn-based ethanol and biodiesel 
would be able to qualify under the new RFS2.
    So, we're moving aggressively forward. We're looking at 
ways in which we can use both Recovery money and our regular 
program money to encourage this distribution system for 
biorefineries. We're trying to accelerate the energy title of 
the farm bill provisions so we can make the resources available 
to really jumpstart this industry. We see this as a critical 
component, as I said earlier, a critical pillar to a new 
revitalized rural economy. And we absolutely need this, 
Senator. We need this and a lot more. And we need, I believe, a 
regional approach, in terms of how we invest these resources so 
we get the biggest bang for the buck.
    Senator Brownback. Well, I'd sure urge you to put your 
shoulder in on this--on the EPA, on that percentage, because I 
don't know anything that could quicker move us up than a move 
like that would. And your voice, and your strength on this, and 
your speaking for rural America, could be a key piece of that, 
if you can.

                            METHANE RESEARCH

    Also, we are having difficulties--some people are looking 
at methane within livestock operations. It--I think it would be 
a worthwhile thing for the Department to invest in methane-to-
electricity research--collection-gathering type of systems. 
They have them in dairies--in confined dairies. They aren't, 
off of large cattle operations, because of the collection and 
the dirt that's involved in it, instead of a confined facility.
    We need help in that field. If--in your electricity--or, 
excuse me, when you're looking at the biofuels sector, if you 
can see--that piece of it would be very helpful, as well.
    Secretary Vilsack. I'd say a couple things in response to 
that comment, Senator. First, one of the reasons we wanted to 
focus our competitive research dollars was to be able to 
advance areas that had great significance so that our National 
Institute of Food and Agriculture would become the equivalent 
of the National Institutes of Health, in terms of its ability 
to leverage additional resources. One of the areas we think we 
should be leveraging more dollars competitively is in this 
energy area.
    Second, we entered into a memorandum of understanding with 
the dairy industry. The dairy industry and the retail community 
have combined together to commit to reducing their carbon 
footprint by a significant amount, and one strategy for doing 
that is expanded use of digesters. And so, we are in the 
process of working with the dairy industry to figure out how we 
can use our grant programs more effectively to allow dairy 
operations to utilize this digester capacity. The problem there 
is that the smaller dairies are often not included because it's 
cost prohibitive. So, how can we help those smaller dairies?
    And then, finally, I have been and I have seen farms--hog 
operations, in particular--where there has been a rather 
phenomenal thing taking place, in terms of large hog operations 
essentially converting the methane produced in their pit to 
electricity, and doing it with solar-powered technology. It's 
happening in North Carolina, and it's happening in a number of 
other parts of the country.
    Senator Brownback. We need some help with that in the large 
feed-yard cattle operations. It's just a different setting, 
it's not a----
    Secretary Vilsack. Right.
    Senator Brownback [continuing]. Confined unit. And yet, as 
you might guess, the methane production is fairly substantial 
with it. So, you'd--it's something to watch.

                            AGRICULTURE EXPO

    Just a final thought would be--I'm a big person that, if 
you show people or if you provide an opportunity for people to 
see something, they really--their imagination catches on and 
things start to happen. I've pushed, for some time, that we 
would a new products expo where you would--the USDA--maybe 
USDA, with Department of Energy, or with NREL--would host a 
``bring your latest gismo out of what you're doing with 
agriculture renewable products.'' Maybe it's like a Detroit 
auto show, where you--the latest and greatest comes out, and 
maybe you want to host it in a great Midwestern city of--like, 
Kansas City, maybe, or something like that. I don't know what--
the Kansas side of Kansas City--but, you know, in that area 
anyway. But, I think you would really get a lot of interest. 
And I think you'd--there'd be a lot of people looking at it. 
Just as these things--they start to tend to tell people a 
different narrative of what future that can be different. And I 
think it also helps attract human capital into our industry, 
which is at the root of what we need to do. We need to attract 
more people into the industry. And to do that, you've got to 
sell some excitement with it. And I think these things can be 
very exciting. So, I hope you'd consider doing that.
    Secretary Vilsack. Positive suggestion. I won't commit to 
the Kansas part of it, because I've got a Wisconsin chair, I've 
got a Missouri friend, Mississippi probably could make a case 
for it, and I know--Senator Harkin's not here, and I'm sure 
he'd be--his interest would be piqued in having it in Des 
Moines. Mine would be, too, frankly.
    Senator Brownback. Thanks, Secretary.
    Senator Kohl. Thank you, Senator Brownback.
    Senator Bond.
    Senator Bond. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. I agree with my friend from 
Kansas. You ought to go to an ag show. It just so happens that 
the Danforth Plant Science Center, the NIDUS Center, which is 
coming up with all of these wonderful ag developments, has 
their annual ag show--it's an international ag show--the last 
week in May. And I hope that you will be there, because they 
are doing tremendous things, particularly in biofuels. And I 
would be--be happy to provide you information, if some of your 
staff wants to attend. And my colleagues are welcome to come, 
too.
    I would agree strongly with what the Senator from Kansas 
said about ag development. We found--as a result of requests 
from the president of Afghanistan, and our commanding general 
at the time, now Ambassador Eikenberry--that providing 
agricultural tools can totally switch around the area. The 
State Department was unable to send ag development specialists, 
but the Missouri National Guard went with ag specialists, 
working with a land grant college--in 1 year they brought 
reasonably modern ag practices that were much more productive 
and lucrative than poppy farming--and poppy production in 
Nangarhar, in 1 year, went from the second highest in the 
Nation to almost zero. And there are now at least 10 other 
States, backed up by land grant colleges--they can provide a 
very valuable resource in what--Secretary Clinton and I 
strongly believe smart power is the only way to establish 
stability in many of these countries. So, that is an area where 
the USDA can help.
    I commend you and thank you for the significant increase to 
$425 million for competitive grants through ag and food 
research. I think NIFA has--is developing wonderful things for 
improving nutrition, making much greater availability of food 
for a growing population, lessening the use of chemical 
pesticides, and improving agricultural energy.
    But, one of the problems we see in the developing area is 
biotech. Many of the experts in the area say, ``This is a 
tremendous industry, but it's being strangled by regulation.'' 
And right now, we've seen roundup-ready alfalfa--been 3 years 
since the court order. They go back for an EIS. It's likely 
going to be 4 years before they get a final EIS. So, this has 
been tested, tested, and retested. And in order for farmers and 
consumers to realize the benefits of agrobiotechnology, it's 
essential the USDA continue to implement a timely--a science-
based, but timely approval process.
    I'd like to hear your thoughts on that; and if there are 
things that we can do legislatively to help you clear away the 
underbrush so we can bring these new products to market, I 
would be very happy to join with my colleagues to provide you 
all the help you need.

                        AFGHANISTAN AGRICULTURE

    Secretary Vilsack. Senator, first of all just a brief 
comment about Afghanistan. I went to Afghanistan in January to 
visit with 64 USDA workers who were over there working with 
National Guard troops, as you mentioned, and with the Afghan 
farmers. And I agree with you----
    Senator Bond. Oh, it's----
    Secretary Vilsack [continuing]. There is----
    Senator Bond [continuing]. Huge.
    Secretary Vilsack [continuing]. A tremendous opportunity. 
The Afghan Agriculture Minister is a person, I think, of good 
integrity. He's got a framework in place focused on increasing 
agriculture productivity, regenerating agribusiness in 
Afghanistan, making sure the natural resources are protected, 
and change management to his own operation. There's a lot of 
work yet to be done there, but I think you're going to continue 
to see----
    Senator Bond. Okay.
    Secretary Vilsack [continuing]. A USDA presence there.

                             BIOTECHNOLOGY

    As it relates to biotechnology, let me, first of all, say 
that, when I came into office, I was confronted with an 
inspector general's report suggesting that the Department did 
not have a strategy for promoting biotechnology, not only 
within the United States, but around the world.
    Senator Bond. Right.
    Secretary Vilsack. We have spent the last 7 or 8 months 
focusing on developing such a strategy, that includes continued 
promotion of a science-based and rules-based system; using 
public diplomacy, pointing out the benefits of biotechnology, 
in terms of its capacity to increase productivity, less 
reliance on natural resources, and on chemicals and protection 
of the environment. So, we're in the process now of 
implementing that strategy.
    We are also focused on our own rulemaking process, which we 
began a number of years ago, in this effort. We got quite a bit 
of comments from people from all parts of the spectrum.

                          NUTRITION GUIDELINES

    Senator Bond. Mr. Secretary, I--time's running out. I just 
want to add one final thought. I support the First Lady's Let's 
Move campaign, but as one who shops in a rural grocery store 
and sees people going through with food stamps for the SNAP 
program, with obese children and parents, and baskets full of 
empty-calorie food, have you thought about implementing the 
same kind of guidelines you have for WIC, school lunch, to SNAP 
to say that you have to use it to buy milk, fruits, vegetables?
    Secretary Vilsack. Senator, we have looked at this. The 
complexity is in the fact that there are now, on average, 
50,000 different items in a grocery store. And using the 
technology to be able to adjust the EBT card makes it difficult 
to do what you've asked to be done.
    What we are looking at is creating a set of incentives. We 
have a program now in which we are encouraging States to look 
at point-of-sale incentives, where, instead of a dollar being 
credited to your EBT card for vegetables and fruit purchases, 
the grocer would get the dollar, but you, the person with the 
card, would only be charged 80 cents. So, that would extend 
their card a bit, as a way of encouraging and incenting fruits 
and vegetable purchases. We're going to see. We've got about 
$20 million of incentive grants for pilots, to see how this is 
going to work, if it's going to work. And that's how we're 
approaching it right now.
    I will say our principal focus this year on fruits and 
vegetables is trying to make sure that we get more of them in 
our school lunch and school breakfast programs.
    Senator Bond. Thank you very much, Mr. Secretary.
    I thank you, Mr. Chairman, and apologize for running over.
    Senator Kohl. Thank you very much, Senator Bond.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much. I 
appreciate your leadership of this subcommittee.
    And, Mr. Secretary, welcome. We appreciate your dedicated 
service as Secretary of Agriculture. I know you have a couple 
of hot-button issues in our State, we've always got one or two. 
Don't want you to get bored in your job.

                            FARMERS LAWSUITS

    One of these is the implementation of judgment in the 
minority farmers lawsuit, which had been pending for some 
years. There is now a directive that funds be paid to those who 
were shown to have been discriminated against in the 
administration of Department of Agriculture programs over a 
period of years. I wonder if you could just give us a status 
report on what the administration is doing to settle these 
claims, and what the outlook is. What's the request, if any, 
for specific settlement payments in this bill?
    Secretary Vilsack. Senator, thank you for asking that 
question. When I came into office, on a bipartisan basis, the 
former Agriculture Secretaries that I talked to encouraged me 
to focus time and attention and resources on trying to get 
these cases settled. As you know, there are cases involving 
Black farmers, women farmers, Hispanic farmers, and Native 
American farmers. They are all different, in terms of where 
they are in the court process.
    The Pigford case, which is the Black farmer case, was 
probably the most mature case. We had a class-action 
certification. We had had a settlement of the case. Late filers 
came in. Congress essentially, in the farm bill, reopened this 
matter, but did not put sufficient resources to actually get it 
settled. I encouraged the President and the administration to 
fix a dollar amount that would actually be real, which they 
did. The President submitted in his budget last year, and has 
submitted in a recent supplemental request, $1.25 billion that 
would be distributed in somewhat the same way that the first 
tranche of resources were distributed.
    You'd have two tracks, a speedy track, which would require 
less proof of claim, but a lower dollar amount that you would 
be entitled to, with debt relief; and a more complicated track, 
that would allow you to get up to $250,000. That process 
requires Congress to appropriate the resource. We've made the 
request, and we're going to continue to work with Congress to 
make sure that that is followed through, and hopefully done by 
the end of this month.
    The other cases, we have encouraged the Department of 
Justice, and it has responded, to begin the process of 
discussing negotiations. In the Keepseagle case, which is the 
Native American case, there are numbers being discussed. 
There's a fairly wide gap between the parties at this point, 
but we're continuing to have conversations to narrow that gap. 
In the other two cases, the Love and Garcia case, we're in the 
process now. They are complicated because they're not yet 
certified as class action, so, in a sense, they're individual 
cases, tens of thousands of individual cases.
    Candidly, to get these cases settled, in my view, one of 
two things has to happen. Either there has to be an 
understanding and agreement on a dollar amount that lawyers 
representing an adequate number of plaintiffs will agree with 
the Department of Justice on, or Congress has to essentially 
direct a process for USDA to go through for a rapid evaluation 
of the claims so that we'd get a sense of what the potential 
liability could be in those other three cases. We are very 
committed to trying to get these cases settled and closing this 
rather sordid chapter of USDA history.
    Senator Cochran. Well, we appreciate your insights and 
sharing with us the status of these programs, and your efforts 
to help resolve this in a fair way, and one that's consistent 
with the judgments of the courts that have rendered decisions 
on that subject.

                            FOREIGN CATFISH

    In our State, we have been advised, by some of our 
aquaculture catfish farmer constituents, that the Department 
hasn't been doing much to support them in their effort to get 
inspection of foreign fish that are imported into the country, 
some of it labeled as if it's catfish from Mississippi--it 
doesn't say ``Mississippi,'' but it borrows the name--and in 
other ways is making it difficult to compete, because they're 
not going through the inspection processes and other safeguards 
that are required of our domestic producers. And so, we've got 
a problem there. And folks are not only angry about it, but 
they're going out of business.
    I drove through the delta the other day and noticed some 
bulldozers just pushing down the impoundments, and I found out 
that that person, the landowner involved, is going to try to 
make money growing soybeans again. And maybe that's, you know, 
a good decision, based on the fact that we do have this 
difficult competitive situation.
    What is the status of implementation of the inspection 
programs for foreign fish coming in? And do you have any 
encouragement that I can pass on to my fish farmers down in 
Mississippi?
    Secretary Vilsack. Senator, again, thanks for asking that 
question. One of the things that I've tried to do as Secretary 
is occasionally walk down the various long hallways at the USDA 
building and pop into someone's office and just sit down and 
find out what they're up to. Not long ago, I happened into the 
office of the fellows who are working on the catfish 
regulations, and over the next 45 minutes, I found out how 
complicated this issue is.
    First, we had to determine the intent of Congress, from the 
legislation that was passed, as to whether or not Congress 
intended a narrow definition or an expansive definition. There 
are 39 different varieties of catfish, I found out from my 
brief visit with those fellows. And they are, as you indicated, 
raised in a number of parts of the world in different 
conditions and circumstances.
    Following that conversation, we did put together a rule, 
and we submitted that to OMB. And at the current time, that is 
where the process is. OMB is in the process of reviewing that 
rule. So, we have made our determination as to what we think is 
appropriate, but, in light of the process that we have to 
follow, folks have to sign off on that. We're encouraging OMB 
to do that as quickly as possible.
    We recognize this is a complicated circumstance, because 
you've got safety issues, you've got consumer information 
issues, you've got the economic development capacities of folks 
who are raising these fish in America. You also, obviously, 
have relationships with other countries that get complicated, 
based on decisions that we make here.
    Let me just simply say, from USDA's perspective, we are 
concerned about safety, and ought to be; that's our number one 
concern. We are also concerned about making sure the consumers 
have the right information to make the right and more informed 
choices as they go shopping, that they are getting what they 
are paying for and what they think they are getting. We are 
also interested in making sure that what we do is consistent 
with the science-based systems that we are advocating in 
trading relationships throughout the world. So, those are the 
three criteria that we used in developing our rule.
    Senator Cochran. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Kohl. Thank you, Senator Cochran.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Mr. Chairman, 
Senator Brownback, I want to start by thanking you both for 
your leadership of this subcommittee.

                           IRRIGATION FUNDING

    Mr. Secretary, recently I met with a group of potato 
growers from Maine who expressed to me their difficulty in 
securing funds for important irrigation projects in my State.
    It's my understanding that there are two USDA potential 
sources for irrigation projects. One is the Environmental 
Quality Incentives Program (EQIP). And the second is the 
Agricultural Management Assistance Program. Unfortunately, our 
potato farmers have had difficulty in securing funding from any 
of these programs on an ongoing basis. And let me explain why 
it's important.
    In 2007, the need for irrigation funding was greatly 
increased when the State of Maine established low-flow rules 
for streams and rivers. These rules were the result of a 
collaborative process between agricultural stakeholders and 
environmental groups, and they developed significant new 
environmental standards for minimum flow levels. Everyone 
worked together in a collaborative process, and it was 
understood, at the time, that NRCS would provide the resources 
to assist in implementing these rules. They're particularly a 
problem in the months of July and August, when irrigation is 
most needed for the crop. Thus, the potato industry is in 
desperate need of funds to establish irrigation ponds and 
purchase efficient irrigation equipment.
    Now, there are local meetings that are held to decide how 
to allocate part of the NRCS funds, but those meetings are 
inevitably scheduled, it seems, during either planting or 
harvesting times. And thus, the farmers are unable to leave 
their farms to participate.
    So, my first request would be for you to encourage those in 
charge of the program in our region to schedule those 
allocation meetings at a time when the farmers can attend.
    The second issue is, the director of the program has 
discretion with some of the funding, and yet is putting it to 
other uses. This is an ongoing problem. When the Maine Potato 
Board came to see me recently, it was their number one issue. 
And I worked with the chairman last year on a colloquy urging 
the Department to help us. Unfortunately, nothing really has 
changed.
    So, I want to ask you, personally, to help us resolve this 
irrigation problem that has been created by my farmers, working 
in a very collaborative way with environmental groups, to come 
up with minimum flow standards. But, it has created a need for 
more irrigation.
    Secretary Vilsack. Senator, first of all, I've just 
instructed the staff to make sure that the meetings are 
scheduled at a more convenient time for the farmers. That is an 
absolutely fair request, and I'm not quite sure why that hasn't 
been done, but we will certainly try to rectify that 
immediately.
    I have been advised that $750,000 of EQIP money was made 
available, and resources under the Agricultural Management 
Assistance Program of about $258,000 was made available. The 
total AMA allocation for Maine was made exclusively available 
for potato growers in one county. I may get this wrong, is it 
``Arrows''----
    Senator Collins. It's Aroostook.
    Secretary Vilsack. Aroostook.
    Senator Collins. Where I'm from.
    Secretary Vilsack. Okay, well, that's where all that money 
went.
    Senator Collins. Good.
    Secretary Vilsack. The rest of the resources, the $750,000 
of EQIP money, was available statewide for irrigation 
management. And as a result of the meetings that have taken 
place, NRCS in Maine has established an initiative in which it 
intends to fund, each year for the years 2010, 2011, and 2012, 
an additional $750,000 per year available statewide.
    We will make sure that those resources are, obviously, 
strategically focused and make sure that people have input as 
to where they are to be spent.
    Senator Collins. Thank you. It is an important issue. We 
did receive some funding, but this year the State--the 
conservationist, the head of NRCS, has allocated the AMA 
irrigation funds for other purposes. So, we look forward to 
working with you.
    Mr. Chairman, I know my time is expired. I would ask that I 
be permitted to submit, for the record, a question on our dairy 
industry, which is still facing tough times. But, I want to 
thank the Department for the work that you've been doing to try 
to provide some assistance.
    And also, an issue that Senator Snowe and I have written to 
you about--new regulations being promulgated by the Food Safety 
and Inspection Service that have a big impact on a chicken 
producer in Maine. We're just asking that the full rulemaking 
process be followed so that we can have the opportunity for 
input.
    Secretary Vilsack. Mr. Chairman, can I just make----
    Senator Kohl. Go ahead.
    Secretary Vilsack [continuing]. Two quick comments to 
Senator Collins?
    We have met with the Maine business that has concerns about 
the ready-to-eat, not-ready-to-eat products. And we had a good 
meeting with them.
    And second, we do have a dairy council that we have 
established to take a look at long-term strategies for 
moderating the severe ups and downs of the dairy industry so 
there can be greater predictability. That group will meet by 
conference call in March, and they'll have their first in-
person meeting in Washington, DC, in April. Our hope is that 
they can report to us by the end of this year with 
recommendations.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    And thank you, Mr. Secretary for your hard work.
    Senator Kohl. Thank you very much, Senator Collins.
    Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    And, again, thank you, Mr. Secretary, for your great 
leadership, and that of your Deputy Secretary. It is good to 
see our Budget Officer here again, as it is every year for a 
long time, Mr. Steele.
    First of all, let me just, again, congratulate you and 
thank you for the tremendous emphasis that you have put on 
child nutrition. That is long overdue, and I can sense a 
refocusing of the Department's efforts in this area under your 
leadership. That extra billion dollars a year for 10 years is 
truly, as you said in your statement, an historic proposed 
investment, improving the quality of the food that kids get in 
schools, improving their nutritional level, and getting more 
kids included, of course, in the programs.
    We had a good meeting with the First Lady, and I know we're 
all going to be working together--this subcommittee, and other 
committees I'm on, the Health, Education, Labor, and Pensions 
Committee, and the Agriculture, Nutrition, and Forestry 
Committee--to make this a coordinated effort. So, I thank you 
for having that in the budget.
    In the WIC program, the increase in the fruit and vegetable 
vouchers--again, that is something long overdue. So, I'm glad 
you're addressing that also.
    On food safety, as you know, the--we have a food safety 
bill, that the House has passed--we have it about ready to go. 
I'm sure you've looked at it, at least what the House has done. 
We'll be tracking closely with the House; there'll be a few 
differences that we'll have to work out. I'm hopeful that we'll 
have that food safety bill on the Senate floor soon. If not 
this work period, it definitely will be at the top of the list 
as soon as we come back after Easter. And so, I hope to have 
that done and to the President's desk perhaps by late May, 
something like that.
    That bill is FDA, and USDA's Food Safety and Inspection 
Service is equally critical--focusing not just on diseases, but 
also better food safety pathogen controls. You've addressed 
that also in your statement, and I appreciate that.
    Regarding the Know Your Farmer, Know Your Food initiative, 
again, I've sensed, in the last few years, a growing interest 
in this effort, in Iowa and in other States. In fact--more and 
more often, young people are getting involved in agriculture, 
not with 10,000 acres but smaller enterprises, where they're 
growing for local markets, fruits, and vegetables, livestock or 
poultry, that kind of thing, and are filling niche markets. It 
may not be a full-time occupation, but it's something that 
they're doing with their families. And they may have other 
sources of income. I sense this as a very big--a growing 
movement all over the country. So, to the extent that you have 
focused on that, and are focusing on local processing, local 
meatpacking, local projects that can build off of that, it 
generates income, it's good for the rural economy, and people 
will tend to stay in those local communities. So, again, I 
commend you for your focus on local food initiatives and urge 
you to continue to really push that Know Your Farmer, Know Your 
Food effort.

                          CONSERVATION FUNDING

    Okay, those are all the good things. Now let me get to a 
couple of other things that I'm not quite so happy with, Mr. 
Secretary. And I say that all in good friendship and 
admiration. One has to do with conservation.
    We worked very hard, on the 2008 farm bill, Mr. Chairman, 
to strike balances. It was a long process, but we had 
overwhelming support for the bill here and in the House. In 
fact, it took overriding two Presidential vetoes to get it 
done, but we did so with overwhelming vote. You, yourself, Mr. 
Secretary, have pointed out a number of conservation efforts--
the Mississippi River Basin initiative, the Coral Reef 
Conservation initiative are examples that show--and I know, 
personally--I know your commitment to conservation that you had 
as Governor of the State of Iowa. But, I'm disappointed in the 
budget, on conservation.
    Last fall, in just 56 days, USDA received 21,300 
applications for the Conservation Stewardship Program, covering 
an estimated 33 million acres. But, we could only enroll 12.8 
million acres for 2009 under the farm bill--so, the demand is 
there. The demand is there, but we couldn't meet it all. In the 
EQIP program, at the end of 2009, USDA had on hand, but didn't 
have the funding for, 54,329 applications. So, again, the 
demand is there. And as we keep reading in the paper, whether 
we pick it up and read about the Chesapeake Bay and what's 
happening there, or we look at the water quality in Iowa and 
other States, we just can't back off of all the great strides 
we've started to make in conservation.
    Farmers want to carry, but, you know, when a farmer is 
faced with a cost-price squeeze--well, that additional few 
acres of land that maybe was being devoted to conservation--
well, maybe a farmer is pressured to plant that land to corn or 
beans or wheat, or something like that, or to cut back other 
conservation efforts to make ends meet. So, the pressure's 
become great on farmers. They want to be conservationists. You 
know that as well as I do. They just need some help. They're 
willing to put in their own labor, they're willing to put their 
own money into it, but they need some help from the Federal 
Government.
    And the estimate I have is that the budget cuts will 
eliminate conservation that would be carried out on about 4 
million acres of land.
    So, please talk to me about that, Mr. Secretary. I know 
there are budget problems, but it just seems to me that this is 
one area where we can't back off--I'm concerned deeply about 
it.
    Secretary Vilsack. Well, Senator, first of all, let me 
acknowledge the fact that you have been a champion of 
conservation for as long as you've been in this body, and have 
certainly led the effort in the 2008 farm bill, and in previous 
efforts to try to get people's attention focused on 
conservation as if it were, in a sense, a commodity.
    Senator Harkin. Commodity.
    Secretary Vilsack [continuing]. As significant.
    You know, I haven't been in Washington very long, so I 
don't quite understand the way Washington thinks, at times. 
Last year, we basically funded enough resources to enroll 
roughly 277 million acres--almost 277.5 million acres--in our 
conservation programs totally. The budget we submitted this 
year will cover almost 305 million acres, an increase of over 
27 million acres. So, I think we are continuing to try to look 
for ways in which we can enhance conservation.
    Now, I can understand there's a difference between 
authorized levels and appropriated levels, but we believe that 
this budget actually appropriates more money to conservation 
than the previous year. So, more money and more acres.
    One of the challenges that we have is to manage these 
programs properly. And NRCS has been under a cloud of an audit 
for the last couple of years, because it didn't do all it 
needed to do, in previous years, in making sure that people 
were applying properly and that people were getting resources 
for the right type of conservation. So, we want to make sure 
that, as we increase and ramp up some of these programs, that 
we do it in a way that we manage the resources effectively and 
that we don't continue to be under this cloud of an audit. It 
will take a couple of years for us to fix this problem, 
because, frankly, we tried to do too much too soon, and didn't 
have enough people. So, we're in the process of trying to make 
sure we do this properly so that we can respond to taxpayers 
that we're spending their money wisely.
    So, I think our budget is a constructive one. And I think 
it is furthering the interests of conservation. It may not be 
as much as folks would like to spend, but, given the fiscal 
realities, we thought we did a pretty good job of balancing.
    Senator Harkin. Well, I understand what you said. But, in 
the farm bill we put that money in there, including funds for 
technical assistance and personnel to carry it out, and we paid 
for it. It was fully offset. And that's why, I think, we got so 
many votes for the farm bill. We fully offset it. It was fully 
paid for. So, again, yes, you're increasing, but you're 
``here'' and the farm bill is ``here,'' so there's a--there is 
a gap there, a reduction from what we enacted. Now, if you're 
saying that you want to make sure that you have the people in 
place and everything to make sure that the programs work, well 
I can understand that, too, I guess. But, I'm just worried 
about whether or not we're going to be able to get these people 
signed up in the numbers that we had laid out and fully paid 
for in the farm bill. You think we'll be okay on that this 
year, that we'll have--be able to sign up the 12.8 million 
acres again this year--in the CSP, for example?
    Secretary Vilsack. I think we'll probably, candidly, be 
closer to 12 million, but we'll probably see a significant 
increase in EQIP. So, it kind of depends on which program folks 
sign up for.
    I will say, Senator, our goal is not to undercut the 
conservation efforts. I think the worst thing that could happen 
would be for folks to learn that people who weren't entitled to 
money for conservation were getting money. And we want to make 
sure that we do this right. And if you read the audit of NRCS, 
as I have, you realize that there were some serious issues that 
had to be addressed, and are being addressed, and they were 
fairly comprehensive.
    So, I don't want to, with resources, not properly manage 
those resources. I think I have a responsibility to do that.
    Senator Harkin. Right.
    Secretary Vilsack [continuing]. So, we are trying to ramp 
this up in a way that is manageable.
    Senator Harkin. Thank you.

                     BIOREFINERY ASSISTANCE PROGRAM

    Next is on the whole area of the Biorefinery Assistance 
Program, section 9003 of the farm bill. Again, there is a lot 
of strong support for that. I know you've been a supporter of 
biofuels. But, the budget is $245 million in 2010, $150 million 
was authorized for 2011, but your budget only calls for $17 
million. Why such a low budget figure for the Biorefinery 
Assistance Program?
    Secretary Vilsack. Senator, we have a significant amount of 
carryover to take from the previous year. There has not been 
as--well, let me back up.
    In order for this to work, I think there had to be a 
strategy, there had to be a holistic and comprehensive approach 
to how you build this industry. When credit became difficult, 
when prices collapsed and there was a challenge in the ethanol 
industry, because of a very tough year last year, there was 
sort of a slowing down of interest in this area.
    That's one of the reasons why the President did two things: 
He instructed us to put together a strategic plan for the 
biofuels industry and to accelerate, as best we could, the 
other components of the energy bill that you all put together 
in the 2008 farm bill. Because all of them have to, sort of, 
work in concert. You have to have the resources available to 
farmers to incent them to produce the feedstocks. You have to 
have resources available to biorefineries that can be 
retrofitted to become more efficient. You have to have a 
broader expanse of opportunity, not just in one region of the 
country, but all across the country. You have to have 
coordinated research that increases the efficiency of what 
we're currently doing and develops new feedstocks so we can 
meet the 36 billion gallon threshold.
    And so, as a result of all of that, we are trying to 
coordinate all of these resources. So, with the carryover and 
coordinated resources, we think we're going to have a much 
stronger and more viable biofuels industry, and we are already 
seeing signs of interest picking up. The uncertainty about the 
RFS2 also had issues, which we've now cleared up. And Senator 
Brownback and I had a conversation, before you came, about E15 
and the important role that could play in stimulating 
additional growth. So, there were a lot of moving pieces in 
2009, some of those pieces have come into place. I think you're 
going to see more aggressive effort this year. And I think 
you'll see us do a better job, in terms of resources, in the 
future. But, at the present time, we think the carryover plus 
that amount is enough to, probably, meet the demand, and 
especially using some of the loan guarantee assistance.

                                ETHANOL

    Senator Harkin. Did you--did you state earlier anything 
about the timeframe on when we're going to see the RFS2 come 
out?
    Secretary Vilsack. Well, it's----
    Senator Harkin. It's not your Department, but----
    Secretary Vilsack [continuing]. It's come out, in the sense 
that the EPA has indicated that corn-based ethanol is alive and 
well, meeting the threshold of 20 percent; soy diesel, 
biodiesel alive and well, meeting the threshold. So, that was a 
positive indication and sign.
    Senator Harkin. But the--upping the percentage of ethanol 
that can be blended----
    Secretary Vilsack. The blend rate is----
    Senator Harkin [continuing]. Blend rate----
    Secretary Vilsack [continuing]. Still--as I explained to 
Senator Brownback, Senator, the Department of Energy is 
currently doing testing on older vehicles to determine the 
impact of E15 on those older vehicles. They're fairly confident 
that the newer vehicles can take E15, but they want to make 
sure they know what the cutoff point is. And as they are 
figuring that out, we, obviously, are figuring out ways in 
which we can provide assistance and help through rural 
development for the kind of blender pumps that I think 
ultimately we'll have to have. Because I think somebody will 
drive into a gas station and want E15, somebody will want E85, 
and somebody will want E10, and you have to be able to have the 
pumps to be able to meet that. And so, that's part of our 
effort to try to build this industry, is to create rural 
development resources to make that happen.
    Senator Harkin. Very good.
    Secretary Vilsack. And I should say we're using rural 
development resources from the Recovery Act to essentially 
promote those kinds of gas stations that have capacity to do 
E85. And once we get a read from EPA on whether it's E10 or 
whatever it is, then we can move forward on the appropriate 
distribution systems.
    Senator Harkin. Very good.
    Mr. Chairman, thank you. I have a couple questions, one 
dealing with crop insurance. I'll just--I'll submit it in 
writing.
    Senator Kohl. Sure.
    Senator Harkin. I'm a little concerned about----
    Senator Kohl. Yeah.
    Senator Harkin [continuing]. Some of the cuts in the 
underwriting and in the administrative and operating--A&O, as 
they call it, expenses for crop insurance. I'm just--I'm 
concerned about that, but I won't take any time here. I'll just 
submit it in writing.
    Secretary Vilsack. Senator, if I can just clarify--staff's 
just given me--so that you know--in terms of the biorefinery, 
we believe we have loan guarantee authority up to $900 million. 
So, there's discretionary money, and there's mandatory money. 
What you referred to, I think, was the discretionary money that 
we're adding on--in addition to the mandatory resources. So, in 
biorefinery--we have $900 million of guarantees, which is a 
fairly significant amount, I think. And I would like the 
opportunity to comment about the crop insurance----
    Senator Harkin. Well----
    Secretary Vilsack [continuing]. If I could----
    Senator Harkin [continuing]. Go right ahead.
    Secretary Vilsack [continuing]. If that's----
    Senator Harkin [continuing]. I just didn't want to take----
    Secretary Vilsack [continuing]. All right----
    Senator Harkin [continuing]. Any more time. But----
    Secretary Vilsack [continuing]. I----
    Senator Harkin [continuing]. If you have something you want 
to add.
    Secretary Vilsack. I mean this is a very important issue.
    Senator Harkin. Yes.

                             CROP INSURANCE

    Secretary Vilsack. And it's one that I think folks have to 
understand.
    When crop insurance was first devised, it was not a product 
that people were aware of. It was a new product. And so, there 
had to be a way in which it could be incented so that people 
would think about it and purchase it. It wasn't the thing that 
was mandated, it wasn't a--it was a choice.
    And so, there were efforts to try to encourage agents and 
companies to get into this business. Over the course of time--
--
    Scott, do you have that chart?
    Mr. Steele. Yes.
    Secretary Vilsack. Over the course of time the profits for 
both the agents and the companies have grown rather 
significantly. And, in fact, in the last couple of years--and 
this is the chart. You, obviously, can't see it very well, but 
this is the chart. This is where it started, and this is where 
it is today. And you've seen a dramatic increase in profits in 
the last couple of years, in part because agents are paid based 
on the value of the policy, as opposed to the number of 
policies they sell. And the companies have done a pretty good 
job; they've gotten about a 16 percent return on their money.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    So, what we're proposing is a change that would adjust the 
A&O so that agents would be paid for the number of policies 
they sell. I mean, the reality is that most bankers today 
require crop insurance as a condition of loans. So, it's not 
all that difficult to sell this product.
    And on the profit side, we think a 12 percent return is a 
fair return, and so there's a slight adjustment. Now, why do we 
say that? Because we had a study done, by an independent 
research group, that suggested that 12 percent would be a 
pretty good return. I would take 12 percent on my money.
    And then, second, the GAO was very critical of this 
program, so we tried to respond to the concerns of GAO, to the 
independent study, to the fact that, today, there are 200,000 
fewer policies being written than there were in 2000. So, the 
profits have doubled in the last couple of years, for 200,000 
fewer policies. So, we think, you know, there has to be some 
adjustment; there has to be a fair balance between the need for 
this product, which is a very important risk-management tool, 
and the need for farmers to have it, and also the taxpayers to 
be treated fairly.
    And finally, some of the resource is going to be used to 
expand access to the product in some parts of the country where 
it has been very difficult to get crop insurance at all. So, 
it's an effort to try to spread the opportunity and the risk 
management tool in other parts of the country.
    Senator Harkin. Well, I appreciate your explanation. I may 
want to just get some more elaboration on that. But, you make a 
strong argument. Thank you, Mr. Secretary.
    Secretary Vilsack. Thank you.
    Senator Harkin. Thank you, Mr. Chairman.
    Senator Kohl. Thank you, Senator Harkin.

                 NATIONAL ANIMAL IDENTIFICATION SYSTEM

    Mr. Secretary, after the discovery of mad cow disease in 
North America nearly a decade ago, there was great interest in 
developing a system to trace diseased animals that move in 
commerce. This was considered vital to protect the livestock 
sector against catastrophic market collapse in the event of a 
serious disease outbreak. Since then, there have been 
substantial Federal investments to develop a National Animal 
Identification System, as you know.
    However, on February 5th of this year, USDA announced an 
abrupt about-face, in the nature of goals of this system. This 
revised system will be national, only to the degree that 
animals pass into interstate commerce, leaving much of the 
responsibility to States and Native American tribes. Rather 
than taking the lead, USDA will be a collaborator, assisting 
States and tribes to create diverse localized responses.
    So, Mr. Secretary, what assurance can you provide that, in 
the face of the next widespread animal disease discovery, this 
system will increase consumer confidence, mitigate economic 
impacts of the outbreak, and maintain market access of U.S. 
products--U.S. producers in global markets? What is your 
timetable for development and implementation of this new 
system? How will costs be borne among the Federal Government, 
States, and tribes? How do you plan to assist these States and 
tribes that are not able to assume the additional costs of 
development and implementation of a diverse State-centric 
system? And, as you know, the dairy sector has developed a 
fairly sophisticated identification and animal tracking system 
already. How will your proposal affect dairy farmers or alter 
the system they already have in place, Mr. Secretary?
    Secretary Vilsack. Mr. Chairman, we had a series of 
listening sessions throughout the country, on animal 
identification. There were 15 in all, I attended 2 of the 15, 
and read comments from the other 13. A wide range of concerns 
about the former system, starting with confidentiality and 
privacy and how the Federal Government was going to dictate the 
technology, the cost, and the fact that there were differences 
between various types of livestock. Greater acceptance of this 
program among sheep, among hogs, goats, and the poultry 
industry; great resistance from the beef industry, to the point 
that less than 35 percent of operators were, essentially, 
participating, if you will, in this system. So, we really 
didn't have the kind of cooperation and participation that we 
thought we would have.
    Congress, and many Members of Congress, began to express 
concerns about the resources that were being allocated to this 
program, and were suggesting that--Chairman Peterson, I think, 
suggested the time had come to basically pull the plug on this. 
So, a lack of confidence in Congress, and a lack of confidence 
on behalf of the cattle industry in particular, led us to 
think, ``Is there a way in which we could get greater 
participation?''
    We're still taking advantage of the things we learned from 
the resources that we've spent, and not disrupting what perhaps 
the poultry industry or the hog industry had developed, and not 
disrupting what we had learned from other disease management 
strategies.
    We felt that the one way to do this would be to have a 
partnership between the Federal Government and State 
governments to focus on where the real issue is, which is 
cattle and livestock that pass in interstate commerce, and work 
with the States to develop a strategy that would focus on low-
cost technology that would get the job done, have a higher rate 
of participation, and therefore, allow us to do a better job of 
traceability, which is really what this is all about, and 
encourage a more rapid response if there is, in fact, an 
outbreak.
    So, we are in the process of meeting with State ag 
commissioners and secretaries this month. We start this process 
with our team meeting with those folks, and we will begin to 
develop sort of a standard for how this could work.
    Recognizing that, once the standard's put in place, it 
would probably likely focus on lower-cost technology; it would 
address the concerns that were expressed by those who were just 
local producers and local consumers, that they didn't know why 
they had to participate in a program, when all they were going 
to do was slaughter it for their own use or for their 
neighbors' use; deal with the issue of confidentiality by 
ensuring that Federal Government wasn't going to be having this 
massive database of information about people that would be used 
for purposes other than traceability; and work with folks, in 
terms of the more difficult issues of liability; providing 
Federal resources to help purchase the low-cost technology; and 
see whether or not we could get significantly greater 
participation.
    There may very well be decisions made by these 
commissioners that what's working in poultry and what's working 
in pork may continue, and we would be supportive of that. They 
may decide that they want ear tags, they may decide that 
there's some other technology that makes sense for them in 
their State; we'll help pay for that.
    What we think will happen at the end of this is that 
there'll be greater cooperation between State and Federal 
Government; there'll be greater participation on behalf of 
those in all sectors; and we'll have a better job of promoting 
traceability, and, at the end of the day, will probably reduce 
the cost overall to the Federal Government.
    If we continued down the road we were on, we'd continue to 
have participation in some, but not all, of livestock, and we 
would continue to be confronted with the notion that when only 
30 to 35 percent of people participate, it means 60 to 65 
percent of the folks aren't participating, and that means that 
you really don't have a traceability system, and you don't have 
the capacity to really do what you need to do to preserve the 
market. So, we wanted to try something different.
    Senator Kohl. How will this affect the dairy sector?
    Secretary Vilsack. Well, I think it depends on the 
individual State. I mean, the reality is that if animals are 
crossing State lines, there's going to have to be a system to 
make sure that we can track them back to the State of 
Wisconsin. For example, if they go from Wisconsin to Iowa, then 
we'll have a system that will allow us to track them back to 
Wisconsin. Then, within Wisconsin, you can decide how far back 
you want to go from that point. You may want to go back to the 
case with Wisconsin, where there's been great cooperation and 
participation in the system, you may want to continue that. You 
can do that.
    But, the State's going to be the one that's going to make 
that decision, the producers within that State will have a 
greater say in it, and the technology will be something that 
producers will be satisfied that it's reasonable and that 
they're not being dictated to.

                            NEW INITIATIVES

    Senator Kohl. All right. Mr. Secretary, the budget proposed 
a number of initiatives, including the Healthy Food Financing 
Initiative, and enhancements for organic and sustainable 
agriculture production. Could you please walk us through these 
initiatives? For example, how much of this involves a real 
increase in spending and how much is simply a redirection of 
funds from existing programs?
    Mr. Secretary, I'd like your thoughts on this. I'd also 
like to hear from Deputy Merrigan, if she has any additional 
comments.

                   HEALTHY FOOD FINANCING INITIATIVE

    Secretary Vilsack. Mr. Chairman, I'll give you a general 
overview and then ask the Deputy to provide more specifics.
    As we began the process of taking a look at how to better 
link local production and local consumption, one of the things 
we found out was that there were many communities, both rural 
and in inner-city America, that did not have access to a 
grocery store that would allow them to have access to fruits 
and vegetables and healthy food choices. There was a plethora 
of convenience stores located in these areas that provided an 
opportunity for processed food and more expensive food, but not 
a grocery store.
    So, one of the things we wanted to focus on was a way in 
which we could respond to that challenge. And so, we began a 
process of looking at States and cities that had been 
addressing this aggressively such as the State of Pennsylvania 
and the city of Philadelphia, as an example. And what we 
learned was that, with additional resources and the use of 
market tax credits, we could creatively and innovatively 
respond to the fact that there were places where people would 
go miles and miles and miles without access to a grocery store, 
that we could do this in an innovative and creative way, and we 
could increase the nutritional opportunities that these folks 
have, and also create business opportunities and rural economic 
development. A community without a grocery store has a very 
difficult time attracting any other kind of opportunity.
    What we also found was, when a grocery store located, it 
created enough traffic that other business wanted to collocate, 
so that you could create some momentum in these communities.
    So, working with the Treasury Department, the Health and 
Human Services Department, the First Lady's initiative, and 
USDA, we put together a $50 million proposal, part of which 
would be used to help create that innovative and creative 
approach to getting that grocery store located. And it may not 
even be a fixed facility, it may be a mobile facility. We just 
need to be creative about this.
    We also wanted to focus our efforts on a continuation of 
farmers markets, community-supported agriculture, and we wanted 
to create our rural development resources with enough 
flexibility that if somebody wanted to build a small processing 
facility or a slaughter facility or a mobile slaughter facility 
or a cold storage warehouse so that you could aggregate enough 
product to be able to provide a school or hospital with a 
steady supply of good quality food, locally produced, we ought 
to be able to look at ways in which we could do that.
    So, all of this is designed to use new money, but also to 
redirect some existing resources in what we think might be a 
more effective way.
    But, I want the Deputy, who's worked a lot on this and 
knows more of the details about it, to amplify, if that's all 
right.
    Dr. Merrigan. Thank you, sir.
    The Secretary did a great job talking about Healthy Food 
Financing Initiative, which we're doing in cooperation with 
Treasury and HHS. We have a variety of strategies to deal with 
the food deserts that were identified by the Economic Research 
Service, as mandated by the 2008 farm bill. We're excited about 
that.

                    KNOW YOUR FARMER, KNOW YOUR FOOD

    In terms of the Know Your Farmer, Know Your Food 
Initiative, which Senator Harkin mentioned, great excitement 
across the country about that. I was in Kansas City a couple 
months ago, there was a lot of action going on there around 
local, regional, with your healthcare and your farmers working 
in cooperatives. I'm on my way to Madison this month. I was at 
Iowa State not that long ago.
    But, the Know Your Farmer, Know Your Food Initiative is not 
a program in and of itself. It doesn't have staff, it doesn't 
have its own budget. The concept is to use existing USDA 
authorities, we've got a lot of resources, we've got a lot of 
people, and make sure that we're really following through on 
some initiatives in the 2008 farm bill, in particular. For 
example, the Business and Industry Loan Guarantee Program, 
which Congress had asked that there be 5 percent of that money 
set aside for local food promotion, when Secretary Vilsack and 
I got into the Department and got down into the details, we 
found out that nobody had applied for that money. Our question 
naturally was, ``Well, why not?'' Are we doing enough to get 
the word out that this money is available? And so, part of Know 
Your Farmer, Know Your Food is really trying to better utilize 
existing resources within the Department. It's also about 
having a national conversation, particularly with young people, 
about where we want American agriculture to go. And that's all 
been positive.

                        NATIONAL ORGANIC PROGRAM

    In terms of organic, we will be having an inspector general 
report coming out, probably this week, that will look at some 
longstanding problems in the National Organic Program. These 
are problems that we're getting ahead of now, and, for that 
reason, we've asked for a $3.1 million increase in the 
regulatory program. We believe that this is the age of 
enforcement.
    We're instituting new initiatives, like residue testing, 
unannounced inspections on farms. We really want to increase 
the rigor of this program. At the same time, we want to fund 
organic initiatives around the Department, really just small 
increases in pots that are already there. For example, Market 
News, trying to find out more about what's going on in organic 
dairy in the marketplace. So, we've just asked for a small 
amount of money increase there.
    So, there's a variety of footholds in the Department for 
organic, but no huge new program. Again, it's getting USDA, 
which is a very big-tent organization, finding a way for the 
different kinds of production schemes to have a home within our 
different agencies.

                    KNOW YOUR FARMER, KNOW YOUR FOOD

    Senator Kohl. Deputy, you talk about Know Your Farmer, Know 
Your Food Initiative. We all know it's gaining in popularity 
through expanding farmers markets, and other means also. Would 
you speak a bit to the economic efficiencies of reduced 
transportation costs and the ability for rural communities to 
keep more of the wealth it generates in those local 
communities. And are there other new challenges in food safety 
or other problems, due to this shift in marketing, that we 
should be made aware of?
    Dr. Merrigan. Well, Secretary Vilsack and I are always on 
the road, saying that nobody gets a pass in food safety. Food 
safety is not a size-relevant thing. Whether you're a little 
guy or the big guy, we all have to do better. But, because one 
of the emphases in Know Your Farmer, Know Your Food is to get 
more institutional purchasing of locally grown, regionally 
grown food, maybe that's our school system, there are new 
relationships there, and there are questions about what food 
safety certifications need to be put in place; what are the 
concerns about liability; how contracts should be written. And 
that's one of the reasons that we have a Farm to School team 
that's going around the country trying to figure out where Farm 
to School has been successful, and where it has failed. There 
are 43 States now that have a foothold in Farm to School. Get 
the lessons learned and document that so that other 
institutions can follow. Get that roadmap in place.
    In terms of its potential for rural economic development, 
we think it's great. As we know from our NASS Survey data, 
there is a real uptick in small farms, those that are grossing 
$10,000 and less. We also know that there's that disappearing 
middle of family farmers that are just not finding ways to make 
ends meet. We think that if we can build stronger local and 
regional ag systems, those smaller farmers will graduate into 
the middle-sized farms, and those middle-sized farms that are 
trying to find a way to survive in a differing, evolving 
agricultural climate, that they'll be able to do so.
    And so, again, it's a lot of strategies. It may be helping 
fund a mobile flash-freezing processing van that will help 
small farmers; it might be about helping augment cold storage; 
it might be facilitating the development of a farmer 
cooperative, so they can aggregate materials, so they can 
actually satisfy an institutional buying request. So, again, a 
variety of strategies. And again, no food safety concerns that 
I'm aware of, at this point.
    Senator Kohl. Thank you very much, Deputy Merrigan.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    Just wanted to follow from the opening comments I made, and 
then Senator Bond hit it, as well.

                     GLOBAL AGRICULTURE DEVELOPMENT

    There's a chart you have, Secretary, on agriculture 
development as a percentage of total development assistance. 
And it's what I was mentioning to you earlier about how this 
has fallen off substantially. We had a big investment in 
agriculture development, globally, in the 1980s. It was, I 
guess, trendy but not sufficient enough to grab on. And then 
the--you can see how much it's fallen off, by this chart here--
and then you have it.
    This recent uptick, I'm told, is Millennium Challenge 
funding--accounts funding, which is good. But, again, I think 
it's outside of the wheelhouse. So, you're the one that's got 
the expertise in this field; USDA and the land grant system is 
the one that knows it. And I just--my hope is that, as Gates 
gets into this more, as Millennium Challenge gets into this 
more, as AID focuses on this area more, as we look at ways that 
we stabilize countries around the world via agriculture 
development--like Iraq and Afghanistan, to name two--and as, I 
think, there's more of a focus on Africa--that it's USDA and 
it's the land grant system that's in there doing this, because 
that's where the expertise is.
    This is very good investment for foreign affairs, in my 
estimation, for the United States. And where I--it seems like 
we're kind of in the--betwixt and between on how we're actually 
going to do this, who is going to do it. And I would hope that 
maybe the funding goes through Millennium Challenge, or the 
funding goes through AID, but it ends up working through the 
expertise that you have, and the expertise that's at the land 
grant universities.
    And it would be my hope, as well, that the overall number 
would go up, because this is--we're a long ways down the road 
of--we give a lot of development assistance, we give a lot of 
food aid, in places around the world, but, you know, these are 
ones that, over the longer period of time, have been very 
successful in many places around the world. We're still hard-
stretched in some places. And there's a concentrated set of 
countries, particularly sub-Sahara Africa countries, that the 
picture--as I've looked at this over 20 years, it's narrowed 
in, a narrower set, when we can--we can deal with a lot of 
these problems. And I'm hopeful you can tackle that and deal 
with it.
    Secretary Vilsack. Senator, this is a very important aspect 
of our job at USDA. And as part of our strategic vision for the 
Department, we realize that we have to do a better job of 
providing assistance to deal with food insecurity issues across 
the globe.
    We have a one-government approach to this. And so, the 
State Department, USAID, and USDA have an interagency task 
force, if you will, that had been put together to promote 
global food security, the Global Hunger and Food Security 
Initiative. And it is focused on, first of all increasing 
resources, as the President indicated during the G20 meeting 
last year, and which I indicated a commitment to when I 
traveled to Italy for the first G8 Agriculture Ministers 
meeting on food security ever. It is targeted, in terms of its 
impact on the countries in sub-Saharan Africa and some of the 
poor countries, such as Haiti is another targeted area, even 
before the earthquake. And it is focused on three fundamental 
approaches; first of all, increasing agricultural productivity 
in these countries. And that involves USDA providing 
opportunities for greater exchanges through the Borlaug and 
Cochran fellowships, which we've requested additional resources 
for. It is working with agricultural ministries, like we are in 
Afghanistan and Iraq and Pakistan, to address specific issues 
that we have expertise on that we can share. It is designed to 
promote a science-based approach, in terms of biotechnology, 
and the benefits that that could potentially have in increasing 
crop production in drought areas, with drought-resistant crops 
and other strategies, more appropriate use of fertilizer, a 
better understanding of soil conditions, things of that nature.
    Second, even if you grow the food, it doesn't necessarily 
mean it gets to the people who need it; and therefore, it 
doesn't necessarily create economic opportunity for those 
farmers. So, we need to also focus on creating greater access, 
and that deals with developing market strategies, developing 
regulatory structure and legal frameworks that allow this to 
happen, and the infrastructure, both the storage facilities to 
avoid post-harvest loss, transportation facilities, and the 
like.
    And then, finally, even if it's available, even if it's 
accessible, it may not be properly utilized. And so, therefore 
it goes into an education effort to make sure that there's 
proper refrigeration, proper handling, proper cooking of the 
food so that it's safe for people to consume. When you do all 
of that, you really do create a much more vibrant agricultural 
economy. And in these countries that are fragile and are food 
insecure, that is absolutely the first thing that has to 
happen.
    We are doing pretty significant work in Afghanistan. And, 
you know, I know time doesn't permit me to go into great detail 
about it, but I think we are seeing some results from that.
    Senator Brownback. Well, I--one other thing that you didn't 
mention, and it's not in your area, but I think it's just 
critically important, is that--the structure of the government 
in those countries. We--we've seen places--and particularly--I 
know I can look at examples in sub-Sahara Africa, where we put 
quite a bit of money in over a lot of years. And I've traveled 
these places and you meet with the leadership and they kind of 
ask the question, ``Where'd the money go?'' And that's why I 
like the Millennium Challenge account approach, where they go--
there's a--a key piece of this is about governance, on how you 
govern. And when places like China and India went to a more 
open-market sector, and away from the way they were doing it, 
systems and things started to flourish.
    So, I would hope that we learn our lessons, too, from our 
past engagement, when we put a fair amount of money in this, is 
that it does matter whether a country is willing to help itself 
and structure itself in a way that these dollars can take hold. 
It's like whether it can take root or not, or are we going to 
just throw some money in here. And I would kind of hold it 
back, say, ``We're ready to do this, but you've got to change 
these two things before we're going to put this--we're ready to 
do it, and we want to do it.'' But, otherwise, I think we may 
repeat some past problems, where we poured money into some 
countries and we don't have a whole lot to show for it.
    Secretary Vilsack. Well, that precise discussion took place 
in Afghanistan, with reference to Minister Rahimi and his 
efforts at developing this framework, part of which is change 
management. His own ministry has to operate effectively. And we 
made a commitment of resources, but it was conditioned on those 
resources being used to bolster his capacity to actually do the 
work that needs to be done, and to understand the core 
competencies that a ministry requires. So, there is a concerted 
effort, in that country and in all countries, to make sure that 
we have the regulatory structures, the government structure and 
framework that's actually going to make this work. And that's 
certainly what we're focused on at USDA.

                             SPENDING CUTS

    Senator Brownback. One final thought. And I really 
appreciate your time and your knowledge of your subject and 
your agency. Last year, when we went through the process, 
chairman, on the floor we had a number of amendments proposed 
by individuals suggesting different cuts in places within USDA. 
Our office is going to go back through and look those over to 
see if there were some good suggestions there of things that we 
should look at cutting and maybe putting that in other places, 
or even have a pruned-down budget even further. Because I think 
we owe it to the taxpayer, in these times of, you know, record 
deficits, to say, ``What is it we can do to get this number 
down?'' We need to do our functions, we need to do them well, 
but we also--with a $1.5 trillion deficit, we've just got to 
get--we've got to get the numbers down. And so, we're going to 
go back through and look at some of the suggestions our 
colleagues put in, last year, for possibilities to get the 
budget number down further.
    And I appreciate it, Mr. Chairman.
    And thank you, Secretary, for your time.

                           RESEARCH PROGRAMS

    Senator Kohl. Thank you very much, Senator Brownback.
    Mr. Secretary, I'm pleased to see that the budget continues 
the growth we began last year on the competitive Agriculture 
Food and Research Initiative, known as AFRI. As you know, I'm a 
strong supporter of this program. However, in order to pay for 
the unprecedented increase that the budget proposes in AFRI, a 
large number of other research programs are eliminated, 
including formula funds.
    As I said, I'm pleased to see the beginning of the long-
term growth for AFRI. Its mission, however, is different from 
that of formula programs. Formula programs are, by their 
nature, more flexible and able to rapidly respond to emerging 
research needs which require more immediate action than a long-
term research contract. Can you respond to this concern?
    Also, Mr. Secretary, I've heard from Senator Byrd, who has 
expressed concern about proposed elimination of ongoing ARS 
work in West Virginia. We'll be submitting some questions for 
the record on behalf of Senator Byrd. I'd just like to know--
you to know that I'm going to submit those, and would 
appreciate a response.
    Secretary Vilsack. Very good, Mr. Chairman. Let me see if I 
can respond. Our understanding of what we proposed on the 
formula funding is that we maintained the funding that was 
included in last year's budget, that basically it's the same 
formula funding as the previous year.
    We recognize the concerns that the subcommittee expressed 
about the need to maintain formula funding, and we tried to 
respect that with status quo formula funding. We did eliminate 
some of the programs that were specifically designated, or 
earmarked, if you will, by members of the subcommittee, as is 
consistent with our practice, and refocus those resources into 
a more competitive circumstance. We honestly think that we will 
get a bigger bang and a better bang for our buck if we do this. 
We want research that's actually going to move the dial. We 
want research that's focused on key priorities that this 
Congress, this administration, this country needs to focus on.
    As it relates to ARS, we appreciate Senator Byrd's 
concerns. Our view is that, before we begin spending additional 
resources on ARS facilities, that we really need to take a step 
back and do a strategic overview of precisely what facilities 
we have, what condition they're in, and prioritize the 
maintenance and expansion and new construction projects. We'd 
like a year to be able to do that, and we'd like a small amount 
of money to be able to do that, so that we can come back to 
this subcommittee with a thoughtful and strategic approach to 
improvements, to construction to these labs. We recognize the 
important role they play. We just, again, want to make sure 
we're using taxpayer dollars wisely.

                              FSIS BUDGET

    Senator Kohl. All right, Mr. Secretary, I appreciate that.
    Mr. Secretary, the FSIS budget request asks for a much 
smaller increase than in recent years, but it does include 
significant performance measures. This includes a goal of 
decreasing total illnesses from all FSIS regulated foods by 
more than 17 percent between fiscal year 2009 and fiscal year 
2010, as well as additional decreases in the following years. 
Is FSIS on track to meet these goals?
    Secretary Vilsack. We think they are, Mr. Chairman. I think 
it's appropriate for me to say that there is a need for better 
data collection so that we have a better understanding of 
precisely what causes the difficulties and illnesses that 
Americans experience, and at what part in the food chain those 
difficulties are experienced. One of the things that we would 
like to do is to increase data collection. We'd like to use 
additional resources to focus on better data collection so that 
we could focus on trend lines, establish baselines by which we 
then can make better risk assessment and better decisions, 
relative to where there may be problems.
    We think we need to strengthen our capacity to respond to 
multiple jurisdictional illnesses that cross State lines, which 
is why we have proposed additional resources for strengthening 
our public health programs. We think there needs to be expanded 
research efforts on identifying pathogens that we may not even 
be aware of today, that could potentially cause problems. We're 
obviously continuing to focus on improving the HACCP program 
with particular focus on improving surveillance of pathogens, 
and expanded sampling that's necessary to do that.
    And finally, we want to focus on our school food programs 
to make sure that they are not creating difficulties for our 
school children, in terms of unsafe food. We're doing a top-to-
bottom review of those programs. We will be looking at our 
inspection and procurement programs. We'll also have an 
independent set of eyes at the National Academy of Sciences 
take a look at some of those programs. We want to improve a 
notification system between the Federal Government, State, and 
school districts.
    And so, there's an awful lot of work going on within FSIS. 
It isn't always necessarily about additional resources; it's 
about making sure that you're focusing your time and attention 
on the things that matter. And we want to make sure that we get 
a regulatory structure in place with the resources that we 
have.

                       STATE INSPECTION PROGRAMS

    Senator Kohl. What about State-inspected meat programs, are 
they going to be continuing to receive your attention and 
funding?
    Secretary Vilsack. You know, that is a question I will have 
to get back to you on, unless the Deputy's going to----
    Dr. Merrigan. We're----
    Secretary Vilsack [continuing]. Bail me out here.
    Dr. Merrigan [continuing]. In rulemaking, hopefully soon to 
come out with a final rule, on the interstate meat. I know 
that's something that Wisconsin is desperately waiting for, and 
we've certainly had a lot of comments. I think it's a great way 
to facilitate some of the niche markets. It's very important, 
for the smaller plants, for opportunities there. And we're 
looking forward to publication of the final rule. We did get a 
lot of comments, and we're trying to fine tune the proposal so 
everyone will be ready to embrace it.
    Secretary Vilsack. I would also say, Mr. Chairman, that one 
area that we are focused on relative to State inspections is a 
continued effort to promote more frequent and better 
inspections of schools. As you know, there is a requirement 
that there be two inspections per year, of schools. Not all the 
schools in America are up to that standard. We continue to 
press States to make sure that they are encouraging that to 
happen. We recognize, again, they are under a substantial 
financial stress. We don't want this to be a casualty of that.

                         ELECTRIC LOAN PROGRAM

    Senator Kohl. All right. Mr. Secretary, USDA is the 
principal source of funding to improve the availability of 
electric power throughout rural America. Rural areas face 
unique challenges in accessing adequate power at affordable 
costs because of the high cost to extend electric power to 
rural household, farms, and communities due to the lower 
customer density, as well as the remote locational aspects.
    This budget cuts the electric power program level by more 
than 30 percent, even though the subsidy costs for this program 
are small. It further stops the use of these funds for the 
construction, acquisition, or improvement of fossil-fueled 
electric generating plants, unless those funds are for carbon 
sequestration systems. We all support cleaner energy, 
particularly in rural America, but this budget proposes drastic 
changes in the USDA electric program.
    Mr. Secretary, the planning horizon for large power 
projects is years. How will these proposed program changes 
affect the electric power supply to rural areas in the near 
term? And what assurance can you provide that rural areas will 
not be harmed, such as with higher electric rates and 
unreliable power availability, as a result of these proposed 
changes, Mr. Secretary?
    Secretary Vilsack. Mr. Chairman, we are obviously 
encouraging farmers and ranchers across the country to take a 
look at their own facilities to determine whether or not they 
can be embracing more renewable energy opportunities. It's one 
of the reasons for the REAP Program. We've seen a tremendous 
interest in REAP; millions of dollars being spent to do audits 
of operations and, I think, there's a growing recognition that 
there is money to be made and money to be saved through 
renewable energy. So, we obviously wanted to send a positive 
message about renewable energy. The President has been very 
clear about his priorities in this area.
    I would say that it isn't always necessarily a budget that 
is reflective of support that could be provided to an industry. 
One of the things that we are looking at, which I know the RECs 
have asked us look at, is this notion of how we use our 
security position to enhance expansion. We have circumstances 
today, where we made loans to RECs, where the value of the 
assets that they have, have substantially appreciated since the 
time of our loan, which means that our loan is over-secured, if 
you will.
    The question is, is there any way in which we can take a 
look at that over-security concept to determine how we might be 
able to provide additional resources without necessarily 
spending additional dollars? These are the kinds of things that 
we need to be looking at to make sure that, in these fiscally 
difficult times, we're stretching the resources as effectively 
as we can. So, we're looking at ways in which we can help the 
RECs particularly in this way. We haven't yet made a decision 
on it, but we are looking at it.
    Senator Kohl. So, the assurances that I'm looking for here 
this morning are forthcoming, but not----
    Secretary Vilsack. Well, you know, I don't want to mislead 
the chair. I'm not in a position today to tell you that all of 
the demands are necessarily going to be met. I can tell you 
that I think there is a growing demand on the renewable side, 
which is why our budget reflects that. It's also consistent 
with the President's comments to the world, to the globe. And I 
think there are perhaps other strategies that we could utilize 
that would supplement for additional resources. But, we 
recognize and appreciate the importance of affordable power.

                               BROADBAND

    Senator Kohl. On broadband, Mr. Secretary, for the last 
several years, substantial funding has been provided annually 
to extend broadband service throughout rural America. In 
addition, the Recovery Act made a substantial investment to 
strengthen the program with funds that must be obligated by 
this September. This budget seeks additional funding for 
broadband loans for fiscal year 2011. Mr. Secretary, please 
describe the progress you are making extending broadband 
service to remote, unserved, and underserved rural areas. By 
the end of this year, how much of rural America do you think 
will still be without adequate broadband service? Do you expect 
to obligate all of the Recovery Act funds for this by this 
September? And with the abundance of funding already provided 
for this program, can you justify an additional $400 million in 
fiscal year 2011?
    Secretary Vilsack. Mr. Chairman, I think it's fair to say 
that the tremendous work that Congress and the President did in 
the Recovery Act in creating opportunities for broadband 
expansion represent a significant downpayment, but by no means 
a balloon payment, on the need for expanded broadband access in 
the United States.
    We've seen literally thousands of applications for these 
resources, far in excess of the resources that were made 
available in the Recovery Act. I believe we are on track to 
obligate our resources by September 30 from the Recovery Act, 
but there will still be significant demand after those 
applications have been approved and funds are provided.
    What we are trying to do with this is to emphasize, 
particularly in rural communities, the importance of having 
this technology. It isn't just simply expanding broadband, it's 
making sure that people in rural communities understand how 
best to utilize it. Whether it's distance learning, or 
telemedicine, or business expansion by expanding markets from 
local to global markets, or the opportunities for farmers and 
ranchers to have realtime information. There is a need for 
additional education for people to understand that this is a 
tool that they ought to have, if they have to pay a 
subscription fee or whatever, they ought to be willing to make 
that investment, because it will return that investment.
    I would say that, as I said earlier in my earlier comments, 
it is a linchpin, a pillar of a new rural economy that we have 
to construct in this country. Without that technology, 
businesses, farmers, ranchers, communities will not be able to 
succeed in the 21st century.
    So, I think we have to continue to invest. I think we have 
to be wise about our investments. We have to make sure that 
folks understand how to utilize the resource, that they have 
the financial wherewithal and the technological expertise to 
utilize it properly in communities, and that we need to look 
for projects that will benefit not just a single community, but 
a region, a group of communities, multiple communities from 
resources.
    We're seeing projects for example, my home State recently 
received an award in which 12 counties, 90,000 people, will be 
impacted by this. I think it was something like 30,000 small 
business operations and farms and activities in this area would 
be benefited. So, it's an enormous opportunity here. So, I 
would encourage the subcommittee to look strongly at continuing 
to invest in this very important technology.
    Senator Kohl. You've made the point, and I agree with you, 
that broadband is absolutely essential to future of rural 
America. When do you imagine that we'll have full broadband 
service, as well as, as you pointed out, the ability of 
individuals to know how to use it?
    Secretary Vilsack. Senator, I'm not sure I can give you a 
specific date. I will tell you that I think we have a ways to 
go. I know my State, when I left as Governor, we had roughly 90 
percent of the State covered, but that didn't necessarily mean 
that it was being fully utilized and fully appreciated. And 
that took 5 or 6 years of hard work on the part of our utility 
companies and on the part of our small telephone companies to 
make that happen in the State regulatory structures.
    So, there's a lot of work yet to be done here, but I think 
we need to accelerate. I would say that a continued investment 
is an indication, from this Congress and this administration, 
of the importance of it and the need to continue to look for 
ways to leverage these resources. And part of our challenge, 
candidly, is that there are places where you may have 300 or 
400 people, but the investment will be multiple millions of 
dollars. And so, it becomes very difficult to be able to 
explain to people why a subsidy of $50,000 or $60,000 or 
$70,000 per customer can be warranted, which is why we're 
looking at lower-cost strategies to at least get people further 
ahead in the technology arena than they are, whether it's 
satellite or other strategies that may be perhaps a little bit 
less expensive than broadband, but can still provide access to 
the Internet, can still provide some distance learning 
opportunities. And so, it's conceivable that, at the end of 
this process, if we have resources left over from the 
applications with the Recovery Act, that we'll put a small 
amount of money out there for these communities that just 
cannot justify a $50,000 subsidy, but we could justify a 
satellite operation or a tower or some kind of antenna system.

                               FOOD BANKS

    Senator Kohl. All right.
    Mr. Secretary, according to a Feeding America study, more 
than 37 million people receive emergency food each year through 
food banks and other agencies. This is an increase of 46 
percent since 2006. With the current economic situation not 
improving for many Americans, what is the Department doing to 
help food banks make sure people have access to food?
    Secretary Vilsack. Well, the Recovery Act provided us a 
tremendous shot in the arm, and we got those resources out as 
quickly as possible. We'll continue to use our commodity 
purchasing capacity. It's a little bit limited, based on 
activities that have taken place prior to this year, but we 
will continue to look for ways in which we will provide help 
and assistance.

                   EMERGENCY FOOD ASSISTANCE PROGRAM

    Senator Kohl. The budget includes a small increase for the 
Emergency Food Assistance Program. Do you believe this increase 
is sufficient?
    Secretary Vilsack. The answer to that question, Senator, 
depends, in part, on how well and how quickly the economy 
recovers. We expect and anticipate that we're going to see a 
steady increase in economic activity, as we have seen in the 
last couple of months, with our stock market being stabilized 
and the housing market being somewhat stabilized. Our hope is 
that that help will be reflected in job growth at some point. 
And then, when that happens, there'll be less demand and less 
pressure. But, in the meantime, we want to provide some 
resources that will allow us to respond. Whether this is enough 
or not, it somewhat depends on where we are 6 months from now 
or 9 months from now. Our hope is that it is enough, but I'm 
not going to say that we wouldn't come back here, at some point 
in time, and tell you we need more.

                     SCHOOL FOOD SERVICE EQUIPMENT

    Senator Kohl. Mr. Secretary, this subcommittee provided 
grants, through the stimulus bill, for the purchase of school 
food service equipment. Can you please provide an update on the 
status of those funds?
    Secretary Vilsack. Over 5,000 schools received assistance 
from those resources. And I will say that part of the child 
nutrition reauthorization effort is also focused on continuing 
to provide additional resources for equipment. The reason for 
this is, a lot of schools are not in a position to take full 
advantage of more nutritious food, because they don't have the 
capacity to prepare it or deal with it. They may have a fryer, 
but they may not have something that can steam or cook 
vegetables, for example.
    So, we have to continue to look for ways to provide 
resources and help, both on the equipment side and the 
technological side, and training of school food personnel. So, 
that's part of what we're proposing, in terms of our 
reauthorization effort.

                      HUNGER-FREE COMMUNITY GRANTS

    Senator Kohl. Mr. Secretary, last year we provided funding 
for Hunger-Free Community grants, as authorized in the farm 
bill. What is the status of those funds?
    Secretary Vilsack. We asked for additional resources in 
that area; I think it's a $3 million increase. There is a real 
opportunity here for us to encourage more innovative and 
creative strategies. We are particularly concerned--again, back 
to children--particularly concerned about the summer months, 
when our feeding programs just, frankly, don't get enough 
resources and assistance, and there are a lot of youngsters who 
don't get adequately fed.
    So, we're encouraging, through the grant program, through 
our reauthorization efforts, to try to find additional 
resources to incent more creative and thoughtful approaches. 
How can we take resources and utilize them so that we go to 
where children are, for example, in the summer? Are there 
programs where we can identify where youngsters are, as opposed 
to compelling youngsters to come to a central location for a 
congregate meal type of activity? Is there a way in which 
ballparks, swimming pools, playgrounds, where kids will 
normally and traditionally congregate, and could we figure out 
some kind of mobile strategy that would meet those needs? How 
do we continue to provide backpack opportunities during the 
weekends when there is a snowstorm and school's out for week 
because people can't get to school, what do we do for those 
youngsters?
    So, we want to incent and encourage communities to focus on 
creative strategies. They're going to need resources and 
incentives to do that, which is why we're asking for additional 
resources.
    Senator Kohl. Very good.
    I'd like to thank everybody here today for attending. 
Secretary Vilsack, we appreciate your participation 
particularly, with your assistance Dr. Merrigan, and Dr. 
Steele.

                           PREPARED STATEMENT

    Before we recess this subcommittee hearing, Senator Tim 
Johnson has asked that his statement be made part of the 
record.
    [The statement follows:]

               Prepared Statement of Senator Tim Johnson

    Thank you, Chairman Kohl and Ranking Member Brownback, for holding 
today's Agricultural Appropriations Subcommittee hearing on the 
President's proposed fiscal year 2011 budget. Secretary Vilsack, thank 
you for coming to the Hill today to discuss USDA's funding proposal.
    Mr. Secretary, I appreciate your working to implement Country of 
Origin Labeling according to Congressional intent, and look forward to 
reviewing USDA's rules regarding agricultural competition as authorized 
by the 2008 farm bill. I am hopeful that together, we can make some 
meaningful improvements for independent producers. The President's 
fiscal year 2011 budget contains some very good things, including a 
substantial investment in nutrition as with the proposed increase for 
the Commodity Supplemental Food Program and investment in child 
nutrition and WIC.
    The budget, however, also includes some questionable funding cuts, 
including the elimination of the Resource, Conservation and Development 
program. While the conservation funding included in the budget allows 
for a 10 percent increase in acreage enrollment over 2010 levels, I am 
concerned for the proposed reductions in acreage or funding which may 
impact conservation programs in the future.
    Mr. Secretary, thank you for your time this morning and I look 
forward to working with you on priorities of importance to South 
Dakota.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Kohl. We'd like to request that all members submit 
any questions for the record within 1 week, which is March 9. 
Secretary Vilsack, also like to request that USDA respond to 
those questions within 4 weeks, which would be Tuesday, April 
6. We look forward to working with each of you as we continue 
this appropriations process.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Herb Kohl

                   HEALTHY FOOD FINANCING INITIATIVE

    Question. The Budget proposes an appropriation of $35,000,000 under 
the Office of the Secretary plus a reserve of $16,280,000 from other 
agencies for the USDA component of a multi-departmental Healthy Food 
Financing Initiative that would total in excess of $400,000,000. The 
goal of this initiative is laudable. Improvement in accessibility of 
healthy foods to many populations will help combat obesity and other 
health problems tied to improper diet.
    This initiative is described as ``multi-year'' in nature. Do you 
foresee that this program will operate indefinitely or do you have a 
specific timeframe in which you expect to meet the program's 
expectations? What measurements will you use to determine program 
effectiveness?
    Answer. Through the new multi-year Healthy Food Financing 
Initiative and by engaging with the private sector, the administration 
will work to eliminate food deserts across the country within 7 years. 
With the first year of funding, the administration's initiative will 
leverage enough investments to begin expanding healthy food options 
into as many as one-fifth of the Nation's food deserts and create 
thousands of jobs in urban and rural communities across the Nation.
    The objectives of the initiative are to increase access to healthy 
and affordable food choices in struggling urban and rural communities, 
and help reduce the high incidence of diet related diseases; create 
jobs and economic development; and establish market opportunities for 
farmers and ranchers. As a result, measurements of program 
effectiveness will include the number of new grocery stores and other 
healthy food retail outlets built in food deserts, the number of people 
previously living in food deserts who are served by the new retailers, 
and other such output measures. It is going to take a lot longer, 
possibly decades to have definitive data on improved diets, better 
health and reduced obesity. USDA plans to involve evaluators in the 
initiative to ensure proper measurements of program effectiveness and 
overall success of the initiative.
    Question. Please describe how USDA will coordinate this initiative 
with other departments and please explain the specific functions the 
other departments will employ in carrying out this initiative.
    Answer. Each of the three agencies brings a particular expertise 
and set of resources to the Healthy Food Financing Initiative. 
Specifically:
    The Department of Agriculture specializes in improving access to 
healthy foods through nutrition assistance programs, creating business 
opportunities for America's farmers, and promoting economic development 
in rural areas. USDA's proposed funding level of $50 million will 
support more than $180 million in public and private investments in the 
form of loans, grants, promotion, and other programs that can provide 
financial and technical assistance to enhance access to healthy foods 
in underserved communities, expand demand and retail outlets for farm 
products, and increase the availability of locally and regionally 
produced foods. USDA has a solid track record of supporting successful 
farmers markets, and has also invested in grocery stores and creating 
agricultural supply chains for them, such as in the People's Grocery 
project in Oakland, CA.
    The Treasury Department will support private sector financing of 
healthy foods options in distressed urban and rural communities. 
Through the New Markets Tax Credit (NMTC) and financial assistance to 
Treasury-certified community development financial institutions 
(CDFIs), Treasury has a proven track record in expanding access to 
nutritious foods by catalyzing private sector investment. The Healthy 
Food Financing Initiative builds on that track record, with $250 
million in authority for the NMTC and $25 million for financial 
assistance to CDFIs devoted to helping finance healthy food options.
    The Department of Health and Human Services (HHS) specializes in 
community-based efforts to improve the economic and physical health of 
people in distressed areas. HHS will dedicate up to $20 million in 
Community Economic Development program funds to the Healthy Food 
Financing Initiative. Through the CED program, HHS will award 
competitive grants to Community Development Corporations to support 
projects that finance grocery stores, farmers markets, and other 
sources of fresh nutritious food. These projects will serve the dual 
purposes of facilitating access to healthy food options while creating 
job and business development opportunities in low-income communities, 
particularly since grocery stores often serve as anchor institutions in 
commercial centers.
    Question. Since this initiative will combine the efforts of a 
number of different USDA agencies and mission areas, how will you 
ensure that proper coordination will occur and who or which agency will 
be ultimately responsible for this initiative?
    Answer. USDA will establish an internal coordination mechanism. 
Leadership for the initiative within USDA is currently assigned to Ann 
Wright, Deputy Under Secretary for Marketing and Regulatory Programs, 
and Cheryl Cook, Deputy Under Secretary for Rural Development. They are 
assisted by staff throughout the Department.
    Question. Please provide an explanation of specifically what each 
USDA agency involved with this initiative will do to carry it out at 
both the headquarters and field level.
    Answer. The Agricultural Marketing Service, Rural Development, and 
the Office of the Secretary will work together to ensure that expertise 
within USDA is appropriately leveraged to carry out the initiative. AMS 
has considerable knowledge and expertise enhancing food access for low 
income populations and improving retail market access for small and 
mid-sized producers. Rural Development has significant expertise 
funding and supporting infrastructure development for purposes of 
economic development.
    Together, the two agencies, working in concert with the Office of 
the Secretary will make funding available to provide:
  --Technical assistance to grantees to help them with facility, and 
        distribution logistics, and food marketing;
  --Grants, loans, and loan guarantees in support of business and 
        infrastructure development and investment; and
  --Administrative support of HFFI and project evaluation.
    Each agency will work through its existing programs to carry out 
the program. There will be no reprogramming of funds:
Rural Development
    Rural Development's Community Facility Grant Program supports the 
success of rural communities by providing loans and grants for the 
construction, acquisition, or renovation of community facilities or for 
the purchase of equipment for community projects.
    The Business and Industry loan program is designed to help new and 
existing businesses in rural areas gain access to affordable capital.
    The Rural Business Enterprise Grant Program provides grants for 
rural projects that finance and facilitate development of small and 
emerging rural businesses.
    The Rural Microentrepreneur Assistance Program provides loans and 
grants to support new and existing rural micro businesses by providing 
funds to microenterprise development organizations for micro lending 
and technical assistance.
    The Intermediary Relending Program (IRP) provides loans to local 
organizations that relend to rural businesses.
    The Rural Business Opportunity Grant Program provides grants for 
training and technical assistance to support economic development.
Agricultural Marketing Service
    The Farmers Market Promotion Program provides grants to support the 
development of farmers markets and other farm to consumer marketing 
businesses. Money from this program can be spent to equip farmers 
markets with electronic benefit transfer equipment so credit cards and 
Supplemental Nutrition Assistance Program (SNAP) benefits can be 
redeemed at the markets.
    The Wholesale, Farmers and Alternative Market Development Program 
provides technical assistance to create or upgrade markets and 
marketing facilities.
    Question. Since the USDA initiative envisions the use of Rural 
Development funds to enhance food accessibility in urban areas, how do 
you reconcile the requirement and underlying objective that rural 
development programs are enacted to serve ``rural'' America?
    Answer. Programs that serve rural America do not necessarily need 
to be located in rural areas. In the case of the Healthy Food Financing 
Initiative, rural areas are expected to benefit from the increased 
demand for agricultural commodities. In addition, all America will 
benefit from a healthier citizenry and stronger economy in both rural 
and urban areas.
    Question. How will you prioritize areas in the Nation to 
participate in this initiative and, more to the point, how will you 
determine where factors such as crime rates and lack of security are 
the dominant forces that determine success or failure of businesses 
such as full service grocery stores? What effect will lack of security 
or similar factors play in your determination where to make Federal 
investment?
    Answer. The administration has set an ambitious goal for the 
initiative--to eliminate food deserts across the country in 7 years. To 
accomplish this goal, the initiative will inevitably need to fund 
projects in areas of the Nation that suffer from high crime rates and 
lack of security. Agencies providing assistance under the initiative 
will draw upon past work they have funded in communities with similar 
characteristics and study and apply the lessons learned from similar 
initiatives such as the Pennsylvania Fresh Food Financing Initiative to 
ensure best practices are being applied to the selection and 
implementation of projects. In addition, the agencies will 
strategically invest in projects in the initial years that will further 
the knowledge and practice of ensuring successful projects in these 
communities. It is worth noting that crime and lack of security have 
not stopped fast food establishments from thriving in food deserts and 
other deprived areas.
    Question. Since a main (if not the primary) underlying purpose of 
this initiative is to improve the diets of Americans who might 
otherwise have to rely on food items from less than full-service 
grocery stores where it is more common to find items of convenience 
rather than high nutritional value, is the Department also looking at 
other changes to improve the nutritional intake of Americans. For 
example, do you think the SNAP program should be reformed to restrict 
benefit use to disallow items of low nutritional quality?
    Answer. By most standards, almost all American diets are in need of 
improvement. Given interest in using Federal nutrition assistance 
programs to promote healthy choices, some suggest that SNAP recipients 
should be prohibited from using their benefits to buy foods with 
limited nutritional value. However, there are serious problems with the 
rationale, feasibility and potential effectiveness of this proposal.
    First, there are no clear standards for defining foods as good or 
bad or healthy or not healthy. Foods contain many components that can 
affect health, and diets contain many foods. As a result, it is 
challenging to determine whether and the point at which the presence or 
absence of desirable nutrients outweighs the presence of nutrients to 
be avoided in ruling a food in or out.
    Second, there are operational issues. Implementation of food 
restrictions would increase program complexity and costs. The task of 
identifying, evaluating and tracking the nutritional profile of every 
food available would be substantial. The burden of identifying which 
products met Federal standards would fall on an expanded bureaucracy or 
on manufacturers and producers asked to certify that their products 
meet Federal standards.
    Third, restrictions may be ineffective in changing the purchases of 
participants. About 70 percent of all SNAP participants who receive 
less than the maximum benefit allotment are expected to purchase a 
portion of their food with their own money. There is no guarantee that 
restricting the use of SNAP benefits would affect food purchases other 
than substituting one form of payment (cash) for another (SNAP 
benefits).
    Finally, there is no strong research-based evidence that SNAP 
participation contributes to poor diet quality. Recipients are no more 
likely than higher income consumers to choose foods with little 
nutritional value; thus the basis for singling out SNAP recipients and 
restricting their food choices is not clear.
    USDA believes the better approach is nutrition education about 
healthy eating and physical activity to foster real behavior change. 
Incentives rather than restrictions that encourage purchases of certain 
foods or expanded nutrition education to enable participants to make 
healthy choices are more practical options and likely to be more 
effective in achieving the dietary improvements that promote good 
health. The Healthy Incentive Pilot program, established by the farm 
bill and supported with $20 million in 2009 will explore this question. 
The President's fiscal year 2011 budget proposes $6 million to expand 
this effort.

                  OFFICE OF ECOSYSTEM SERVICES MARKETS

    Question. The Budget includes an increase of $2,021,000 for the 
Office of Ecosystem Services Markets, as authorized under section 2709 
of the 2008 farm bill. It is stated that the purpose of this request is 
to expand the Department's efforts to develop technical guidelines to 
quantify environmental services provided by America's farmers, 
ranchers, and forest landowners. Since this request is for the 
expansion of Departmental efforts, please provide information on the 
activities (including funding levels) currently underway that serve 
this purpose.
    Answer. The Office of Environmental Markets (OEM), originally 
established in December 2008 as the Office of Ecosystem Services 
Markets, builds on and will complement a strong foundation within USDA 
to assess the environmental services provided by conservation and land 
management actions. Ongoing USDA efforts include: the work of the 
Climate Change Program Office within the Office of the Chief Economist 
established the only set of comprehensive farm-level greenhouse gas 
estimation guidelines used in the Government's Voluntary Greenhouse Gas 
reporting Registry; efforts to assess the conservation and 
environmental benefits of USDA actions through the Conservation Effects 
Assessment Program; and monitoring resource conditions through programs 
including the National Resources Inventory (NRI) and the Resource 
Conservation Assessment (RCA).
    OEM is currently active in a project called Farm of the Future that 
demonstrates how landowners are accelerating their environmental 
performance and receiving a positive return on their investment by 
participating in environmental markets. In addition, OEM is leading a 
series of inter-Departmental dialogues that brings together senior 
leadership from across the Federal family to discuss coordination for 
the development of performance metrics and overall infrastructure for 
environmental markets at a national level. In 2010, the OEM intends to 
conduct an assessment of existing science-based technical guidelines 
and develop recommendations on national guidelines for greenhouse 
gases, water quality, biodiversity and wetlands.
    OEM will provide preliminary recommendations for integrating 
carbon, water, wetlands and biodiversity values on the same landscape. 
OEM also intends to assess existing registries and other reporting 
mechanisms and develop initial recommendations to the Secretary for a 
national, integrated registration process. OEM is well positioned to 
build on existing information and move in a new direction that expands 
the Department's work to build the infrastructure for a robust 
marketplace.
    Question. While section 2709 of the 2008 farm bill directs the 
Secretary to issue guidelines regarding this effort, it does not call 
for the establishment of a separate office. Why do you feel this is 
necessary? Why can't these functions be carried out under the Office of 
the Chief Economist, the Economic Research Service, the Natural 
Resources Conservation Service, or some other appropriate agency?
    Answer. All these agencies you mention play a critical role in 
developing information to study and support environmental markets 
including the necessary research. To be effective and increase 
communication between all of the relevant parties, these efforts must 
be coordinated and having a central organization to coordinate this 
work across USDA and the Federal Government as well as with the private 
sector requires an office with a specific focus. The Office of 
Environmental Markets (OEM) is the entity that will coordinate across 
Federal and private sector lines all these critical elements.
    Question. Please provide a description of the types of services 
markets that you envision as coming under the purview of this activity 
and please explain how they will generate additional income to 
participants.
    Answer. The four environmental markets that USDA will potentially 
be focusing on may include greenhouse gases (carbon trading); water 
quality trading: (nutrients, sediment, and temperature) conservation 
banking (species and habitat); and wetland banking. The Department, 
through the Office of Environmental Markets and the Climate Change 
Program Office, will potentially work to develop guidelines for these 
markets consistent with the guidance provided in section 2709 of the 
2008 farm bill. Environmental markets may offer a cost effective 
alternative for regulated communities to meet their environmental 
obligations by purchasing environmental benefits from landowners who 
apply enhanced conservation actions on their operations. These 
conservation solutions could be applied at a fraction of the cost of 
technological options and typically include additional environmental 
benefits as well. Landowners would potentially have the option of 
engaging in environmental markets by offering new commodities such as 
water quality, habitat and other environmental benefits as part of 
their suite of products for sale.

                       OFFICE OF TRIBAL RELATIONS

    Question. The Office of Tribal Relations was created in fiscal year 
2010 with initial funding of $1,000,000. Please describe the activities 
and accomplishments of this Office during the current fiscal year and 
those that are planned for fiscal year 2011.
    Answer. The Office of Tribal Relations serves as the USDA central 
point of contact for all 564 federally recognized tribal governments. 
The Director of the Office of Tribal Relations (OTR) serves as the 
Senior Advisor to the Secretary for Tribal Affairs. Interim staff 
members have been detailed into the office from around the Department 
to begin operations, and the hiring of permanent staff is under way. In 
fiscal year 2010, OTR has participated in the White House Tribal 
Nations Conference of November 2009 and led the development of USDA's 
Action Plan for Tribal Consultation and Collaboration. As part of the 
development of the Action Plan, OTR participated in a number of 
meetings and venues seeking consultative input from tribal leaders. OTR 
is now leading efforts of the Department's Native American Working 
Group to implement the Action Plan.
    Planned activities for fiscal year 2011 include: finalization and 
adoption of a new USDA Departmental Regulation on Tribal Consultation; 
launch of USDA Employee Education and Training initiative relating to 
tribal consultation and collaboration; launch of a reporting and 
accountability structure to track tribal consultation and collaboration 
activities throughout the Department; participation in numerous 
consultation activities throughout the Department; and launch of 
regional consultative venues to more fully engage tribal leadership in 
consultation and collaborative activities.

                     OFFICE OF THE CHIEF ECONOMIST

    Question. One of the functions of the Chief Economist relates to 
the work of the Climate Change Program Office (CCPO), which coordinates 
the Department's climate change activities and generally represents the 
Department on issues and policies relating to this phenomenon. Since 
agricultural production is extremely sensitive to changes in weather 
patterns and the consequences of extreme weather events, please 
describe ongoing efforts of CCPO and policy implications of the 
Department that work to achieve protection to American producers and 
agricultural production around the world.
    Answer. The Climate Change Program Office (CCPO) within the Office 
of the Chief Economist (OCE) provides syntheses and assessment of the 
implications of climate change on agricultural and forested systems. In 
2008, OCE released The Effects of Climate Change on Agriculture, Land 
Resources, Water Resources, and Biodiversity. Since then, OCE has 
followed up with shorter reports and brochures designed to make this 
information available to farmers, ranchers, forest land owners, and the 
general public. OCE/CCPO has responsibilities for coordinating the 
Department's research program on climate change to ensure that the 
Department's research is providing answers to the most pressing 
questions related to climate change and is leading efforts to develop a 
USDA Strategic Plan for Climate Change Research. A goal will be to 
provide credible, validated, and effective climate change science and 
technology and to make this information easily available to internal 
and external USDA customers and stakeholders on scales relevant to 
decisionmaking.
    Question. Were there any outcomes of the Climate Change Summit 2009 
in Copenhagen, or other national or international meetings in the past 
year, that have affected the operations of CCPO or the Department?
    Answer. Several meetings on climate change in 2009 will affect the 
work of CCPO and the Department. The 15th Conference of the Parties 
(COP 15) to the Framework Convention on Climate Change produced a new 
international agreement--the Copenhagen Accord. Under this Accord, the 
United States has pledged to reduce greenhouse gas emissions by 17 
percent from 2005 levels by 2020--contingent on domestic legislation. 
In addition, a series of preparatory meetings were held in 2009 prior 
to COP 15. These included meetings in Bonn, Bangkok, and Barcelona.
    Land use issues for developed and developing countries were central 
to these negotiations. CCPO led USDA's involvement in the negotiations 
and ensured that USDA technical expertise were applied to the issues 
of: how to address emissions from deforestation and forest degradation 
in developing countries, how to include agricultural mitigation 
opportunities in new agreements or arrangements, and how to account for 
forest carbon in reporting systems.
    At COP-15, USDA made a series of announcements related to climate 
change actions domestically and internationally, including the Global 
Research Alliance on Agricultural Greenhouse Gases and a Memorandum of 
Understanding with the Innovation Center for U.S. Dairy to work 
together to reach a 25 percent reduction in greenhouse gas emissions 
while benefiting dairy farmers.

                 OFFICE OF BUDGET AND PROGRAM ANALYSIS

    Question. For many years, this subcommittee has enjoyed an 
excellent working relationship with the Office of Budget and Program 
Analysis (OBPA) that in our view has been mutually beneficial to both 
the Congress and the Department. Last year, a reorganization of the 
Department occurred in which the status of OBPA was apparently reduced 
and the agency placed under the Assistant Secretary for Administration. 
The Committee continues to be concerned that many of the functions of 
OBPA that have been instrumental over the years for sound and useful 
exchanges of information between the Committee and the Department have 
lost, to a degree at least, their vitality and depth of purpose. Are 
all reports requested in appropriations acts or reports being 
coordinated and reviewed by OBPA, and if not, please explain.
    Answer. OBPA continues to review all reports requested in the 
Appropriations Acts.
    Question. Please identify any categories of information or policy 
recommendations that are not being reviewed by OBPA that were prior to 
the reorganization.
    Answer. Under the delegations of authority OBPA is assigned 
responsibility for a range of budget, legislative and regulatory 
analysis, process and reporting functions. These delegations of 
authority have not been changed as part of the Departmental Management 
reorganization.
    Question. Please identify Departmental positions that have 
management authority over OBPA who did not have such authority prior to 
the reorganization.
    Answer. Since the reorganization, the Assistant Secretary for 
Administration and the Chief Financial Officer has management authority 
over OBPA.

                    OFFICE OF ADVOCACY AND OUTREACH

    Question. The Budget proposes a substantial increase in funding for 
the Office of Advocacy and Outreach, from the fiscal year 2010 enacted 
level of $1,700,000 to $7,009,000 for fiscal year 2011. Of this 
increase, $4,000,000 is a transfer from the Rural Housing Service 
account for carrying out a Farm Worker Program. Please describe the 
activities and accomplishments of the Farm Worker Program in fiscal 
year 2010.
    Answer. The budget request is a $1.3 million increase for the 
Office of Advocacy and Outreach. Four million dollars is provided 
through RHS in 2010 for the 14204 program to fund farm worker job 
stability, safety and training demonstration projects. This funding 
will be used to assist agricultural employers and farmworkers by 
improving the supply, stability, safety, and training the of 
agricultural labor force. USDA plans to assist with: agricultural labor 
skills development; the provision of agricultural labor market 
information; transportation; short-term housing; workplace literacy; 
health and safety instructions; and other supportive services.
    An interim Farm Worker Program Leader has been assigned to the 
position while the selection for a permanent Supervisory Leader is 
underway. The interim leader has developed a plan of operations for the 
program within the Office of Advocacy and Outreach. The program leader 
is working on emergency assistance for farm workers in the devastated 
Florida freeze zone, meeting with Farm Worker organizations and Faith 
Based Organizations to discuss potential USDA assistance, and 
developing a Federal Emergency Humanitarian Farm Worker Aid Plan. The 
Farm Worker Program Leader chairs the Farm Worker subcommittee of the 
USDA Deputy Secretary Know Your Farmer, Know Your Food initiative.
    Other activities of the Farm Worker Program scheduled for 2010 
include: administer funding as available of section 2281 of the Food, 
Agriculture, Conservation, and Trade Act of 1990, low-income and 
migrant seasonal farm worker funding; work with USDA, Federal, State, 
local agencies, as well as, Faith Based Organizations, Farm Workers 
Organizations and other CBO's to provide emergency humanitarian aid to 
Farm Workers in disaster areas; maintain external communication with 
CBO's, Farm Worker Organizations, Faith Based Organizations, 
educational institutions and others to keep abreast of emerging topics, 
trends, and community needs to assist in appropriate USDA response to 
Farm Worker issues; and provide internal leadership and council to USDA 
agencies on Farm Worker issues, as well as, compare community needs 
with USDA programs and make recommendations for program modifications 
or development.
    Question. To what extent does the Farm Worker Program duplicate the 
mission of NIFA extension and education programs?
    Answer. The Farm Worker Coordination Program was established to 
meet the needs of the farm workers that are not currently being 
addressed in USDA and to better coordinate existing USDA programs and 
activities to assist this community. NIFA Extension is managed by 
individual State educational institutions which are not always 
consistent nationwide in addressing the needs of farm workers. The Farm 
Worker Coordination Program will provide leadership to USDA agencies 
and others to provide consistency in program delivery. The program will 
also provide leadership in the modification of existing programs and 
development of new programs that benefit Farm Workers, especially those 
that assist farm workers to become farm operators or owners. This 
program will work in conjunction with NIFA Extension as well as all the 
other USDA agencies.
    Question. To what extent has the centralization of program outreach 
activities for various USDA agencies into the consolidated Office of 
Advocacy and Outreach resulted in savings in the appropriations 
accounts of the affected agencies? Will the requested increase in 
funding for this Office result in even further savings in fiscal year 
2011?
    Answer. The program outreach activities of USDA agencies have not 
been centralized in the Office of Advocacy and Outreach (OAO). Congress 
established the OAO in the Food, Conservation and Energy Act of 2008 
and established duties which included establishing and monitoring goals 
and objectives of the Department to increase participation in programs 
by small, beginning, or socially disadvantaged farmers and ranchers; 
assessing effectiveness of Departmental outreach programs; developing 
and implementing a plan to coordinate outreach activities; providing 
input on agency programmatic and policy decisions; measuring outcomes 
of programs and activities of the Department on small farms and 
ranches, beginning farmers and ranchers, and socially disadvantaged 
farmers and ranchers; and recommending new initiatives to the 
Secretary. As a result of these activities, USDA anticipates more 
effective, coordinated and focused outreach across the USDA agencies, 
who will continue to maintain their own outreach programs. The 2008 Act 
also transferred several USDA programs residing in other agencies to 
OAO, which has already begun efforts to increase access and utility of 
these programs to small, beginning, and socially disadvantaged farmers 
and ranchers.

             OFFICE OF THE CHIEF INFORMATION OFFICER BUDGET

    Question. In fiscal year 2010, an increase of nearly $44,000,000 
was provided to the Office of the Chief Information Officer for IT 
security upgrades. In view of recent breaches of USDA IT information 
systems, the Congress believed this investment was necessary to protect 
the integrity of Departmental security. Please describe how these funds 
have been used.
    Answer. The fiscal year 2010 Appropriation for the United States 
Department of Agriculture (USDA) Office of the Chief Information 
Officer (OCIO) included nearly $44,000,000 in new funding to support 
our strategy to improve information technology security. The increase 
in funding is being used in support of the following three initiatives:
  --Nearly $17.2 million to Conduct Network Security Assessments to 
        analyze the state of USDA's network to identify 
        vulnerabilities;
  --Nearly $14.3 million to Procure and Deploy Tools for enhanced 
        monitoring and detection; and
  --Nearly $12.3 million to establish an Agriculture Security 
        Operations Center to monitor and protect USDA's systems.
    A summary of activities through early February, 2010, addressing 
each of the three initiatives in turn, is provided below for the 
record.
    [The information follows:]
    Conduct Network Security Assessments.--The purpose of this 
initiative is to gain a comprehensive understanding of how USDA 
computers and networking equipment are interconnected and the existing 
vulnerabilities of that equipment. Nearly $17 million has been 
allocated for this initiative. The following paragraphs provide an 
overview of key projects.
    The Vulnerability Assessment project is underway. We shall complete 
11 assessments by the end of fiscal year 2010. Currently, we have 
completed assessments of three USDA agencies and staff offices: the 
Foreign Agriculture Service (FAS), Washington Communications and 
Telecommunications Services (WCTS), and the National Information 
Technology Center (NITC). An assessment of the Food Safety and 
Inspection Service (FSIS) is currently under way and one for the 
International Technology Services (ITS) is ramping up. The 11 
assessments represent USDA networks carrying 80 percent or more of the 
Department's total network traffic. We are documenting the methods and 
tools involved to create a repeatable process that we can apply 
regularly to ensure our knowledge remains current and improve our 
internal processes.
    The Network Modeling and Performance project is in acquisition 
phase. We plan to complete implementation of the project in the 4th 
quarter fiscal year 2010. Once completed, we shall have a comprehensive 
network inventory, including diagrams showing the interconnections. 
This shall help identify the most economical and effective placement of 
security devices to protect data connections within and external to 
USDA networks. With these devices we can identify and analyze patterns 
at key points in the network to thwart attacks and prevent data 
leakage.
    The Security Management Sensors and Console project is in 
acquisition phase. We have identified our core requirements and are in 
the process of selecting suitable vendors to install the sensors and 
console. We shall have our security management sensors deployed to 12 
locations within USDA to protect network traffic. We plan to complete 
the acquisition and begin implementation in the 4th quarter fiscal year 
2010 and complete implementation in the 1st quarter fiscal year 2011. 
Collectively the sensors will analyze and protect our networks from 
vulnerabilities and report centrally to a management console at the 
Agriculture Security Operations Center.
    Procure and Deploy Security Tools.--Acquiring and deploying a 
number of security tools will help us defend against exploits of 
vulnerabilities as well as maintain a near real-time understanding of 
the health our networks and the devices attached to them. Nearly $14 
million has been allocated for this initiative. The following 
paragraphs provide an overview of key projects.
    The Endpoint Security project is in the operations phase. This 
project installs a piece of software on each end user desktop, laptop 
and server within USDA. It allows us to examine reports centrally, and, 
ultimately, manage end user computers connected to our networks. As of 
the first part of February 2010, we have installed the software on over 
70,000 devices; the remaining devices will be completed in the 3rd 
quarter of fiscal year 2010. Currently, the software where deployed 
allows us to identify the status of patching and compliance with the 
Federal Desktop Core Configuration. We have been using the data to 
identify commercial software vulnerabilities and plan the remediation 
efforts.
    Our Whole Disk Encryption (WDE) project is in the operations phase. 
Full implementation is expected by 4th quarter fiscal year 2010. By 
encrypting the entire hard drive we nearly eliminate the possibility 
that unauthorized users will gain access to sensitive government 
information from lost or stolen equipment. As of the first part of 
February 2010, we have installed WDE on over 36,000 laptops. WDE is 
fully implemented on laptops across 18 agencies and staff offices. We 
are continuing our efforts to implement WDE across the remaining 
agencies and staff offices.
    The Email Security project is in the acquisition phase. This 
project enhances our Enterprise Mail Solution to increase our capacity 
so that we can inspect all email passing through our email gateway to 
allow for a broader protection against data loss and malicious 
attachments. When completed, we will have a capability to classify data 
across departmental systems based on key indicators or data patterns. 
The Email Security project will be operational in the 3rd quarter 
fiscal year 2010.
    The ASOC Information Technology Service Management (ITSM) project 
is in the development phase. ITSM will provide USDA with the capability 
to record IT security incidents Department-wide and enable a more 
robust analysis of incident trends and patterns. ASOC is modeling its 
ITSM after the one in use at the Department of Justice's Security 
Operations Center. ITSM will be operational in the 3rd quarter fiscal 
year 2010.
    The Data Loss Prevention project is in the pilot phase. We are 
evaluating a number of commercial products to determine the best 
solution to preventing costly leaks of data to outside the USDA 
networks. Once completed, we shall analyze the results of the pilot to 
determine the most economical and effective way to acquire a solution 
that can be deployed across the entire USDA network. The pilot will be 
completed in 3rd quarter fiscal year 2010.
    There are several other projects where we are in either the 
evaluation or acquisition phase regarding products to support functions 
such as computer forensics and file protection. These proactive 
measures shall reduce our exposure to vulnerabilities and provide a 
greater control of the health of our systems.
    Establish the Security Operations Center.--The new Agriculture 
Security Operations Center (ASOC) is ramping up operations and has 
taken responsibility for the ongoing IT security operations functions 
of USDA. This fiscal year alone the ASOC has responded to 75 percent 
more incidents in the first 4 months as compared to the same timeframe 
last fiscal year. This higher incident rate is an indication that USDA 
is evolving to a more mature and proactive stance regarding security 
monitoring and incident handling. Approximately $12 million has been 
allocated for this initiative.
    We have completed the organizational design of the ASOC and have 
begun staffing its critical positions with talented Federal employees. 
In the meantime, we have obtained a number of contractor services to 
support our daily operations while we complete our staffing. The new 
organization is active in issuing guidance to our component agencies 
and staff offices to address their IT security needs in the face of 
increasing exposure to complex technologies and social networking. The 
ASOC is overseeing the execution of all the initiatives and projects 
listed above to ensure the citizens of the United States that waste and 
duplication are eliminated and that the results address the greatest 
risk to the security of Federal information assets entrusted to the 
care of the Department of Agriculture.

                           IT SECURITY RISKS

    Question. To what extent have security risks been resolved and if 
any still exist, what plans do you have to resolve those problems?
    Answer. New security risks are always appearing, and the methods to 
mitigate them entail balancing conflicting business requirements with 
resources which are not unlimited. The result always includes some 
residual risk and our challenge is to reduce that residual risk to an 
acceptable level. The USDA's strategy is to employ a risk management 
framework based on the guidance of the National Institute of Standards 
and Technology (NIST) in its Series 800 of Special Publications. We 
have established the ASOC to ensure operational security incidents are 
quickly identified and promptly remediated.
    One principal source of risk to USDA IT assets is the difficulty in 
identifying and centrally reporting specific vulnerabilities which come 
from the misconfiguration and/or out-of-date software installed on our 
computers. Our Endpoint Protection solution readily identifies in near 
real-time specific devices which are out of date and allows us to bring 
these devices in compliance with the latest recommendations. The 
solution provides an infrastructure that allows us to extend the 
capabilities to accommodate future monitoring requirements.
    An additional source of risk stems from the disparate environments 
housing our application servers. These environments are spread 
throughout the Nation, do not have uniform access controls (both 
logical and physical), nor uniform environmental controls, and hinder 
disaster recovery efforts. By consolidating our application servers 
into a small number of Enterprise Data Centers we greatly reduce the 
variation among environments and ensure that all USDA servers benefit 
from common security controls.
    Another risk comes from multiple points of entry into the USDA 
network. USDA is following OMB guidelines and embracing the Trusted 
Internet Connection model; still, USDA has a significant portion of its 
workforce that is highly mobile, and connectivity for these workers 
ranges the full spectrum of broadband technologies. By consolidating 
the number and type of connections we limit the points of attack, and 
can consolidate our monitoring and mitigation efforts.
    A final risk that merits mentioning is our overseas operations. 
Adequately securing overseas installations has been a continuing 
challenge for the USDA Foreign Agricultural Service (FAS). We are 
mitigating this risk by moving all FAS overseas end user support into 
the Department of State's OpenNet to take advantage of its existing 
security controls and experience with this operating environment. 
Simultaneously, we are consolidating their data operations into our 
Enterprise Data Center, to provide a more robust security 
infrastructure and operational model.
    These examples highlight key operational risks to USDA. 
Identifying, evaluating and tracking these risks in the light of new 
guidance and internal reviews shall be the focus of our initiative to 
develop a Governance, Risk Management and Compliance System. This 
system will streamline the execution of USDA's risk management 
framework to ensure we continue to reduce the residual risk to an 
acceptable level.

             E-GOVERNMENT INITIATIVES AND LINES OF BUSINESS

    Question. USDA participates in 31 e-Government initiatives and 
Lines of Business. To what extent are USDA customers using the e-
Government options open to them to inquire about USDA programs or to 
make application for assistance? What sort of growth rate has there 
been in such use among USDA customers over the last several years?
    Answer. USDA participates in 31 e-Government initiatives and Lines 
of Business (LoBs). Seven of these initiatives and LoBs are customer-
facing and provide measurable services that provide a means for the 
public to inquire about USDA programs or make applications for 
assistance. The remaining 24 initiatives and LOBs are internal facing 
and/or support other Federal agencies. A brief description of the 
services provided by each of the seven customer-facing initiatives is 
provided immediately below for the record.
    [The information follows:]

                            BUSINESS GATEWAY

    By creating access to consolidated compliance information, Business 
Gateway directly benefits USDA's ``customers'' (e.g., farm owners, food 
industries, and agricultural chemical producers), all of whom are 
subject to complex compliance requirements across multiple agencies.
    The Business Gateway initiative comprises two Web sites: 
Business.gov and Forms.gov. USDA posts agency forms on Forms.gov so 
customers do not have to search multiple Web sites to find forms they 
need to apply for government assistance. Links to program-related Web 
pages are posted on Business.gov to allow customers to search for 
information on government programs from a central location. Customers 
find a synopsis of programs on Business.gov and are able to ``click-
through'' to USDA Web pages to find more information if they desire. A 
summary of customer activity on these Web sites for fiscal years 2008 
through the present is provided in the table below.

----------------------------------------------------------------------------------------------------------------
                                                                  Number of USDA     Number of       Number of
                           Fiscal year                                 forms        times forms   customer click-
                                                                     available     were accessed     throughs
----------------------------------------------------------------------------------------------------------------
2008............................................................             563         268,496          12,643
2009............................................................             546         407,801          13,612
2010 (to date)..................................................             546         249,320           6,924
----------------------------------------------------------------------------------------------------------------

                            E-AUTHENTICATION

    E-authentication is a public-private partnership that enables 
citizens, businesses, and government employees to access online 
government services using credentials issued by trusted third-parties, 
both within and outside the government.
    The e-authentication initiative provides a single, centralized 
authentication service for Web-based applications across USDA, serving 
USDA employees and customers as well as other Federal agencies. USDA's 
e-authentication service represents USDA's implementation of the E-
Authentication Presidential Initiative.
    The number of applications protected by USDA's e-authentication 
service and the number of users who own an e-authentication credential 
grows each year. USDA employees and customers use this service to 
authenticate themselves by entering a user name and password. Once a 
user is authenticated, he or she is authorized to access multiple 
individual applications protected by the service. A summary of USDA's 
use of the e-authentication service is provided in the table below.

----------------------------------------------------------------------------------------------------------------
                                                         Average number
                                          Number of Web     of active     Average number of    Average number of
              Fiscal year                 applications   users \1\ (per  authentications \1\  authorizations \1\
                                            protected        month)          (per month)          (per month)
----------------------------------------------------------------------------------------------------------------
2007...................................             256        -268,000         -1,648,000          -6,398,800
2008...................................             289        -310,000         -1,828,000          -7,096,800
2009...................................             335        -350,000         -2,129,000          -7,167,000
2010 (to date).........................             365        -435,000         -2,143,000          -7,182,400
----------------------------------------------------------------------------------------------------------------
\1\ Includes USDA employee and customer accounts.

                              E-RULEMAKING

    USDA's 14 rule-making agencies completed migration to the Federal 
Docket Management System (FDMS) on December 8, 2006. As a result, all 
USDA Federal Register rules, proposed rules, and notices are available 
for public comment on e-rulemaking's Regulations.gov. This initiative 
increases the transparency of USDA's rulemaking process. A summary of 
the rules and proposed rules made posted by USDA to Regulations.gov and 
the number of comments received from the public in response from 
calendar year 2007 to the present is provided in the table below.

----------------------------------------------------------------------------------------------------------------
                                                                     Number of       Number of       Number of
                                                                     rules and        notice          public
                          Calendar year                           proposed rules     documents       comments
                                                                  posted by USDA  posted by USDA     received
----------------------------------------------------------------------------------------------------------------
2007............................................................             300             843           7,133
2008............................................................             317             868          13,272
2009............................................................             339             915          28,986
2010 (to date)..................................................             115             332          24,791
----------------------------------------------------------------------------------------------------------------

                               E-TRAINING

    AgLearn is USDA's implementation of the E-Training Presidential 
Initiative. E-training and AgLearn provide a single, USDA-wide learning 
management system that replaces seven legacy, agency-specific systems 
and widespread manual tracking of training. USDA employees are the 
primary users of AgLearn, but the resource is also available to select 
customers and contractors. A summary of USDA's use of AgLearn is 
provided in the table below.

----------------------------------------------------------------------------------------------------------------
                                                                                     Number of
                                                     Number of                       different
                                                   active users      Number of        courses      Total course
                   Fiscal year                    (employees and  active courses   completed by   completions by
                                                    customers)       available     at least one      all users
                                                                                       user
----------------------------------------------------------------------------------------------------------------
2008............................................         131,247          11,216           3,614     \1\ 900,935
2009............................................         134,957          14,423           5,684         778,564
2010 (to date) \2\..............................         120,030          14,552           4,295         323,994
----------------------------------------------------------------------------------------------------------------
\1\ Information Security Awareness and Privacy courses were separate. These were merged for 2009 and forward.
\2\ Through February 2010.

    In addition to the metrics presented above, USDA also uses AgLearn 
to deliver mandatory annual civil rights and cyber security training. 
AgLearn is USDA's official system of record for processing Standard 
Form (SF) 182, which allows USDA to track training requests and 
associated costs. In an average month in fiscal year 2009, nearly 2,000 
SF-182 forms were processed using AgLearn. This represents an increase 
of 100 percent over fiscal year 2008.

                            GOVBENEFITS.GOV

    GovBenefits.gov provides a self-service tool for citizens to get 
information about agency benefit programs, which reduces the need for 
traditional channels such as call centers and mail. Citizens are able 
to search for program descriptions on GovBenefits and follow links to 
USDA Web pages where they can gather more information. The table below 
provides a summary of the number of USDA benefits programs listed on 
GovBenefits.gov, the number of times citizens viewed those benefits 
descriptions, and the number of referrals to USDA Web pages that 
resulted.

----------------------------------------------------------------------------------------------------------------
                                                                  Number of USDA
                                                                     benefits     Number of page     Number of
                           Fiscal year                              programs on        views       referrals to
                                                                    GovBenefits                   USDA Web pages
----------------------------------------------------------------------------------------------------------------
2008............................................................              34         650,000         109,000
2009............................................................              34       1,198,321         360,275
2010 (to date)..................................................              34         330,128         100,422
----------------------------------------------------------------------------------------------------------------

                               GRANTS.GOV

    Grants.gov provides a single location to publish grant (funding) 
opportunities and application packages, and provides a single site for 
the grants community to apply for grants using common forms, processes, 
and systems. Since May 2006, USDA has offered the option to apply 
electronically to 100 percent of its discretionary grants and 
cooperative agreements to applicants through the Web site. The number 
of unique grant opportunities posted by USDA varies by year, but 
customer usage (submission of electronic applications) has increased 
each year. The table below demonstrates this increase in usage from 
fiscal year 2007 through the present.

------------------------------------------------------------------------
                                             Number of       Number of
                                               grant        electronic
               Fiscal year                 opportunities    submissions
                                              posted         received
------------------------------------------------------------------------
2007....................................             144           6,614
2008....................................             143           7,821
2009....................................             136          10,786
2010 (to date)..........................              18           2,303
------------------------------------------------------------------------

                          RECREATION ONE-STOP

    Recreation One-Stop consolidates information about Federal 
recreation areas from disparate sources (databases, Web sites, and 
publications) by standardizing data and interfacing recreation-related 
computer systems. The initiative provides information for planning 
visits to Federal recreation sites and making campground/tour 
reservations through a customer friendly recreation portal 
(Recreation.gov).
    The National Recreation Reservation Service gives the public a 
customer-friendly recreation portal (www.recreation.gov) with 
information for planning visits to thousands of Federal recreation 
sites.
    Information related to the public's use of the Recreation.gov Web 
site was requested from the Managing Partner, Department of the 
Interior. As of this response no statistic information has been 
received from the Managing Partner.

                          GAO GREENBOOK REPORT

    Question. What has the Department done to comply with the 
recommendations included in the October, 2009, GAO report?
    Answer. The Greenbook Departmental Reimbursable Programs are 
operated for the general benefit of the Department and its agencies. 
The centralization of these programs avoids the duplication of efforts 
and costs that would otherwise be incurred if each of the USDA agencies 
tried to address these program needs on their own. As noted in USDA's 
comments on the GAO report, the Department has already taken steps to 
document and provide a more formal process for the annual budget 
review. USDA issued formal budget requirements for the fiscal year 2011 
Greenbook budget. The fiscal year 2011 Greenbook budget guidance 
provided specific requirements for performance measures and analysis of 
benefits of Greenbook activities. Based on the budget submissions, this 
is an area that will be developed more fully to measure the value of 
the individual activities to USDA and its agencies and Staff Offices.
    In 2009 an interagency review board was formed. The Deputy 
Assistant Secretary for Administration Management chaired the board. 
Consisting of representatives appointed by seven USDA mission area 
Under Secretaries, the board was charged with reviewing the fiscal year 
2011 budgets for the Greenbook reimbursable activities. Board members 
held a series of budget review meetings, in which reimbursable program 
managers presented their budget requests and responded to questions 
from board members. The board completed its review and submitted its 
recommendations via the Chief Financial Officer to the Assistant 
Secretary for Administration for use in making the final funding 
decisions.
    The Department plans to continue building on the progress that was 
made in 2009 in developing the Greenbook budgets. While working with 
its agencies, USDA will issue guidelines for decision-making related to 
activities added to or removed from the Greenbook. These guidelines 
will strengthen the oversight of the activities and require that 
decisions made during the budget process are documented.

                         OFFICE OF CIVIL RIGHTS

    Question. The Budget proposes to relegate the Office of the 
Assistant Secretary for Civil Rights to be absorbed within the Office 
of Civil Rights, as was directed as part of last year's Department 
reorganization. Given the high profile cases of civil rights that are 
still pending and the stated intent of the Department to reverse any 
history of discrimination at USDA, why did the USDA take this action 
which will leave the perception that ``civil rights'' is now being 
relegated to a position of lesser rank than the other Sub-Cabinet 
posts?
    Answer. As part of the reorganization of the staff offices and 
administrative services of the Department, numerous functions have been 
consolidated under the Assistant Secretary for Administration in an 
effort to improve the effectiveness and efficiency of the Department.
    The Office of the Assistant Secretary for Civil Rights has been 
realigned into Departmental Management in order to enhance civil rights 
leadership to USDA employees, applicants and customers and to provide 
more effective enforcement of civil rights programs. Including the 
Office of the Assistant Secretary for Civil Rights in the new 
Departmental Management will also improve necessary focus, 
communication, and coordination with the new Office of Advocacy and 
Outreach and the Office of Human Resource Management.

                       PENDING CIVIL RIGHTS CASES

    Question. Please provide information regarding the status of 
pending civil rights claims including the number of cases pending 
during the past two fiscal years, the number that have been closed 
during that period, and the number of new cases filed. Also, please 
indicate the Department's ability to manage and reduce the number of 
pending cases during fiscal year 2011.
    Answer. During fiscal year 2008, 1,264 new civil rights program 
claims were filed and 1,621 program claims were closed. As of September 
30, 2008, the Office of the Assistant Secretary for Civil Rights 
(OASCR) had a pending inventory of 806 program claims. During fiscal 
year 2009, 1,326 program claims were filed with OASCR and 1,079 program 
claims were closed, for a final inventory of 1,053 program claims.
    The Department has the ability to reduce the number of pending 
cases during fiscal year 2011. The OASCR's Programs Directorate has 
been staffed to manage the complaints that are less than 2 years old. 
The Civil Rights Program Complaints Task Force manages the inventory of 
complaints that are more than 2 years old. Under the reorganization, a 
Program Adjudication Division was formed and staffed with seven 
adjudicators; plans include hiring three more adjudicators. In 
addition, the Program Investigation Division staff has been increased 
from 5 to 15 investigators.
    Question. Please distinguish the status and categorization of the 
claims under Pigford II, Garcia, Keepseagle, and Love petitions.
    Answer. While there are distinctions in the legal posture of the 
large civil rights cases, the Department remains committed to resolving 
each of these important cases. The Justice Department has reached out 
to the plaintiffs in cases all of these cases regarding discussions 
towards a meaningful settlement process. The Secretary has repeatedly 
made clear that he is committed to resolving all of the large civil 
rights cases quickly and fairly as he believes it is time to move past 
this sad chapter of USDA's history so that USDA can focus on helping 
all farmers be successful.
    In Re Black Farmers Discrimination Litigation (Pigford II) is a 
collection of cases that were filed in the United States District Court 
for the District of Columbia by African American farmers or African 
Americans who allegedly attempted to farm pursuant to section 14012 of 
the 2008 farm bill. A settlement agreement was signed by the parties on 
February 18, 2010. The plaintiffs will file a motion for preliminary 
approval of the settlement agreement within the next 15-18 days. Also, 
funding for $1.15 billion needs to be secured.
    Marilyn Keepseagle, et al. v. Tom Vilsack, is pending in the U.S. 
District Court for the District of Columbia. To date, a class has been 
certified for injunctive relief. Discovery has been completed and there 
are several motions pending including a motion for class certification 
for economic damages. The litigation has been stayed pending settlement 
discussions between the parties. Guadalupe Garcia, et al. v. Tom 
Vilsack, and Rosemary Love, et al. v. Tom Vilsack, are also pending in 
the U.S. District Court for the District of Columbia. Attempts to 
certify these cases as class actions have been rejected by the courts 
including a recent denial of a writ of certiorari by the U.S. Supreme 
Court. The district court has stayed litigation pending settlement 
discussions between the parties.
    Question. In addition to the claims that are part of the Pigford II 
category, there are a number of similar claims by African American 
farmers (the so-called ``non-Pigford'' claims) that are not part of the 
negotiated settlement announced in February, 2010, but which still are 
requested some form of relief. Does the Department intend to pursue 
some settlement for these claims or support action by the Congress 
should legislation to provide relief move forward, or is it the opinion 
of the Department that these claims are without merit justifying 
further relief or settlement?
    Answer. The Department intends to address the ``non-Pigford'' 
claims. The Department has identified hundreds of potentially 
meritorious claims involving actions for which the 2-year statute of 
limitations (SOL) under the Equal Credit Opportunity Act has expired. 
The Department has developed a plan to resolve the complaints should 
Congress pass legislation extending the SOL.

                 DEPARTMENTAL MANAGEMENT REORGANIZATION

    Question. Last year, USDA executed a Departmental reorganization 
which, among other things, placed the Chief Information Officer (CIO) 
and the Chief Financial Officer (CFO) under the Office of the Assistant 
Secretary for Administration. Under current law, both the CIO and CFO 
are required to report directly to the Secretary of Agriculture. How 
have you determined that the reorganization is in compliance with 
current law when it, in fact, relegated these two offices to positions 
where they would not report directly to the Secretary?
    Answer. I charged the USDA staff offices with ensuring that all 
USDA mission areas are equipped to achieve optimal results in the most 
efficient and effective manner possible. By optimizing and streamlining 
the various operations, we can improve quality of services and 
communications, streamline processes and improve transparency to our 
customers. Ultimately, effective USDA management means effective 
results for taxpayers and the people USDA serves.
    Prior to reorganization the USDA Office of General Counsel (OGC) 
reviewed the proposed reporting relationships. OGC stated that the 
Chief Financial Officers Act only requires that the CFO ``report 
directly to the head of the agency regarding financial matters, not for 
all purposes.'' Accordingly, we believe that the requirements of the 
CFO Act may be met, consistent with the proposed organizational chart, 
as long as the CFO is given periodic opportunities to brief the 
Secretary on internal controls, budget execution and financial systems 
improvement projects. Similarly OGC stated that they find no legal 
impediment in the Clinger-Cohen act to having the CIO report to the 
Assistant Secretary for Administration, as long as he is given periodic 
opportunities to brief the Secretary directly on information resources 
management projects.

                   CONSOLIDATION OF GSA LEASED SPACE

    Question. In fiscal year 2010, $6,342,000 was provided as one-time 
cost for consolidation of GSA leased space. Please provide the status 
of this consolidation.
    Answer. GSA awarded the lease on behalf of USDA on November 12, 
2009. The new leased facility, Patriots Plaza III, is located at 355 E 
St., SW, Washington, DC. This is a newly constructed building that 
requires build out and furnishing before USDA takes occupancy.
    With GSA as the lead USDA is currently completing its final review 
of conceptual space plans and build out requirements. Final plans will 
be complete by the end of the 2nd quarter, fiscal year 2010. Final 
drawings for the space layout are expected to be complete by the 3rd 
quarter, fiscal year 2010. Build out of the space is expected to 
complete by the 2nd quarter, fiscal year 2011.
    USDA plans to complete all moves to the new facility by the 3rd 
quarter, fiscal year 2011. This meets the time lines originally 
scheduled for the lease consolidation project.

                        GLOBAL RESEARCH ALLIANCE

    Question. I understand the United States has been working with 
other members of the Food and Agriculture Organization to coordinate 
agricultural research through a so-called Global Research Alliance, 
with a focus on the needs in developing countries struggling to become 
food secure and to address the challenges of climate change. Please 
provide the status on the creation of this international collaboration 
on research, including the structure and governing principles of the 
research effort. Please identify the countries involved and those that 
have pledged financial support to carry out this initiative.
    Answer. The Global Research Alliance (GRA) was proposed in 
September 2009, by New Zealand and has been under development in 
partnership with the United States and other countries since then. At 
the United Nations Climate Change Conference in Copenhagen in December 
2009, 21 countries endorsed a joint Ministerial Statement on the 
Establishment of a GRA on Agricultural Greenhouse Gases. This statement 
notes the following points: Agriculture plays a vital role in food 
security, poverty reduction and sustainable development; the 
agricultural sector is particularly vulnerable to climate change 
impacts and faces challenges in meeting the world's increasing food 
demands; the agricultural sector contributes about 14 percent of global 
greenhouse gas emissions but has opportunities to contribute to 
emissions reductions and carbon sequestration; agriculture could reduce 
greenhouse gas emissions and increase carbon sequestration by improving 
agricultural systems' efficiency and productivity; and that underlining 
the need for food security, the GRA is established to help reduce 
greenhouse gas emissions intensity, increase soil carbon sequestration 
and contribute to overall mitigation. The statement further asserts 
that the GRA seeks to understand greenhouse gas emissions from 
agriculture, improve measurement and estimation of greenhouse gas 
emissions and carbon sequestration, develop ways to reduce emissions 
and increase carbon sequestration, mitigate greenhouse gases while 
sustaining or enhancing productivity and resilience as climate changes, 
transfer new knowledge and technology to farmers and land managers 
worldwide, and build scientific capacity in developing countries via 
partnerships.
    The structure and governing principles of the GRA are still not 
established and are currently under discussion among the member 
countries. On April 7-9, 2010, senior government officials representing 
countries that have endorsed the Copenhagen Ministerial Statement will 
meet in Wellington, New Zealand to create a roadmap to guide the first 
12-month goals of this alliance, with specific objectives to agree on 
structure and governance principles, agree on principles for the 
functioning of scientific research groups, identify elements to go into 
a draft charter, and agree on future meetings. A government team with 
representatives from various USDA agencies is currently developing the 
U.S. position on issues to be discussed at the April meeting in New 
Zealand.
    Countries that have endorsed the creation of the GRA are: 
Argentina, Australia, Canada, Chile, Colombia, Denmark, France, 
Germany, Ghana, India, Indonesia, Ireland, Japan, Malaysia, Mexico, 
Netherlands, New Zealand, Norway, Peru, Spain, Sweden, Switzerland, 
United Kingdom, United States, Uruguay, and Vietnam. Canada, New 
Zealand, and the United States have pledged financial support.

      LEGISLATIVE AUTHORITY FOR ADMINISTRATIVE DATA PILOT PROJECT

    Question. Does ERS currently have the legislative authority to 
undertake the proposed Administrative Data Pilot projects, in lieu of 
the legal obstacles that currently exist?
    Answer. Yes, ERS has the legislative authority to undertake the 
proposed Administrative Data Pilot project. As a principal statistical 
Agency, ERS' mission includes the collection and analysis of a variety 
of data for statistical purposes. This pilot project is part of a 
cross-cutting initiative sponsored and developed by the Interagency 
Council on Statistical Policy (ICSP). [The ICSP is chaired by OMB's 
Chief Statistician and has the heads of the 13 principal statistical 
agencies as its members. The ICSP serves as an opportunity for 
information exchange between agencies and as a mechanism for agencies 
to participate in shared activities.]
    The other lead agencies, with whom ERS has a tradition of 
partnering, are the U.S. Bureau of the Census (Census) and the National 
Center for Health Statistics (NCHS), who have explicit authorities to 
acquire and use administrative records for statistical purposes. ERS' 
contribution to this proposed partnership includes subject matter 
expertise, a strong connection to the research community whose 
expertise we likely will want to employ, and a strong connection to 
USDA policy agencies that would benefit from the substantive results of 
the project.
    Question. Has ERS worked with other government agencies in 
preparation for the Administrative Data Pilot Projects to ensure, that 
if funded, there will be appropriate participation to determine their 
effectiveness?
    Answer. This pilot is part of a cross-cutting initiative sponsored 
and developed by the Interagency Council on Statistical Policy (ICSP). 
ERS, the National Center for Health Statistics (NCHS), and Census will 
collaborate on the initiative. Census will develop the infrastructure 
for ERS to study the health and nutrition outcomes for low-income 
households participating in food assistance programs and for NCHS to 
examine the relationships between health, and Medicare and Medicaid 
enrollments. ERS is already collaborating with NCHS and the Census on 
other data-linkage activities.
    Question. Is it anticipated that the main Federal agencies 
participating in the Administrative Data Pilot Projects will be USDA 
agencies? What other main Departments and Agencies are expected to 
participate?
    Answer. Through collaboration with the Interagency Council on 
Statistical Policy (ICSP), of which the National Agricultural 
Statistical Service is also a member, the project will benefit the 
entire Federal statistical system by addressing some long-standing 
barriers to greater incorporation of administrative data in statistical 
programs. Another USDA agency that will likely participate in the 
proposed project is the Food and Nutrition Service, which administers 
USDA's domestic nutrition assistance programs and through which 
administrative data would be solicited.

  FUNDING FOR THE STATISTICAL COMMUNITY OF PRACTICE (SCOP) INITIATIVE

    Question. How was the funding request level determined for the 
Statistical Community of Practice (SCOP) proposal?
    Answer. SCOP is one of two cross-cutting initiatives in the 
President's fiscal year 2011 budget to support the Federal statistical 
system. These costs were based upon current costs for similar 
activities that are ongoing in individual statistical agencies. The 
funding request represents the combined costs of staffing a SCOP 
project management office at ERS that will be responsible for providing 
statistical system-wide support to build a platform to pilot cloud 
access to publicly available data, acquire software for interagency 
group purchases, support and manage the individual SCOP projects, and 
manage and maintain FEDSTATS, the dissemination platform for SCOP. Each 
individual SCOP project will be led by a representative from one of the 
Federal statistical agencies and staffed by representatives from other 
interested agencies. Those agencies will contribute financially if 
there are costs specific to the project (e.g., the purchase of 
software). However, there will be the need for support for background 
research and in some cases for the evaluation of existing software and 
the adaptation or development of new software to meet the needs of 
specific aspects of data collection, processing, and/or dissemination. 
The goal is to identify and/or develop Government-owned solutions that 
can be shared across the Federal statistical system, resulting in cost 
savings, process efficiencies and improvements across the survey life 
cycle.
    Question. Since the SCOP will be voluntary and self-selected, how 
will ERS recruit participants?
    Answer. Since the initiative is the product of work sponsored by 
the Interagency Council on Statistical Policy (ICSP), the initial 
participants will come from that community. The ICSP is chaired by 
OMB's Chief Statistician and includes the heads of 13 principal 
statistical agencies. The ICSP sponsors information exchange among the 
agencies and serves as a mechanism for the agencies to participate in 
shared activities. Members of the SCOP task force have met several 
times during the development of SCOP to brief the ICSP members on 
progress, to receive feedback from them, and to request formal 
participation from interested agencies. The ICSP is expected to serve 
as the Governing Board for SCOP. A number of the specific projects 
proposed for SCOP were a direct result of a strategic planning activity 
conducted by the ICSP. In addition, statistical data quality expertise 
will be channeled through SCOP to support the Data.gov effort within 
OMB. All statistical agencies will share in the benefits of SCOP 
project deliverables, e.g., analytical software tools.
    Question. Are there other statistical agencies within the 
government participating in this effort? If so, is ERS the lead agency?
    Answer. Under the guidance of the Interagency Council on 
Statistical Policy (ICSP), the ERS CIO has been working with an 
interagency task force that includes representatives from the OMB 
Statistical and Science Policy Office and 9 of the 12 other principal 
Federal statistical agencies. These include the Bureau of Economic 
Analysis, the Bureau of Justice Statistics, the Bureau of Labor 
Statistics, the Census Bureau, the Energy Information Administration, 
the National Agricultural Statistics Service (NASS), the National 
Center for Education Statistics (NCES), the National Center for Health 
Statistics (NCHS), and the Statistics of Income Division at IRS. The 
ERS CIO is the project lead; as such he has also met with senior staff 
in the OMB E-gov program to ensure that the required documentation is 
available for SCOP to acquire E-gov recognition as a recognized Line of 
Business. Five statistical agencies have officially signed on to be 
active participants in SCOP (Census, ERS, NASS, NCES and NCHS); based 
on feedback from other agencies, we fully expect the list to grow.
duration of the national household food purchase and acquisition survey
    Question. How long is it anticipated that the National Household 
Food Purchase and Acquisition Survey will take to complete?
    Answer. The National Household Food Purchase and Acquisition Survey 
(FoodAPS) is being planned and executed over several years. The 
contract to carry out a pilot survey was awarded in September 2009. A 
full scale survey would be carried out over fiscal year 2011 and 2012. 
Resultant data will be used to understand the determinants of food 
purchases and acquisitions. The proposed Community Access to Local 
Foods Initiative will build on this data collection effort to fund data 
development and to provide staff to carry out research and evaluation 
using the data. The initiative supports research to understand how the 
local food environment influences acquisitions of healthy food in low-
income households. It will provide the baseline for monitoring the 
outcomes of policies and programs such as the Healthy Food Financing 
Initiative.
    Question. Is this survey anticipated to be a one-time event, or 
something that will be continually updated?
    Answer. The FoodAPS survey will be a recurring data investment. 
Currently, the Federal Statistical Agencies do not collect detailed 
price and quantity for food purchases and acquisitions. This survey is 
designed to address that gap. The initiative will also support on-going 
research on Community Access.
    Question. Will the funding request fully fund the survey, or will 
there be additional dollars required in future years?
    Answer. The initiative should not require increased levels of 
annual funding over the foreseeable future.

                NATIONAL AGRICULTURAL STATISTICS SERVICE

    Question. Will the NASS annual county estimates program funding 
increase be used at all to fund third-party work, for example, to 
continue State or local cooperative agreements?
    Answer. A vast majority of the funding will be used to fully 
implement a probability based survey design, for improved data 
collection follow-up. This data collection is conducted through an 
agreement with the National Association of State Departments of 
Agriculture (NASDA). NASDA employs over 3,000 local interviewers who 
collect virtually all of the data used for NASS estimates.
    Question. How long will it take NASS to develop the rotational 
organic agriculture data series, if funding is provided?
    Answer. The requested funding would allow NASS to implement a 3-
year rotational organic agriculture data series. Planning and 
preparation of the survey would take place the first year; the data 
would be collected in the second year; and analysis and publication 
would be done in the third year.
    Question. How much funding at NASS is currently being used to 
gather data on organic agriculture?
    Answer. The 2008 farm bill provided $1 million in mandatory 
funding, and provided the basis for the initial 2008 Organic Production 
Survey, which was conducted in fiscal year 2009. An additional $250,000 
was appropriated in fiscal year 2010 to aid in completing analysis and 
publication of this new data series. The additional request in fiscal 
year 2011 will provide a total of $750,000 annually for organic 
agriculture statistics and allow NASS to conduct an organic agriculture 
survey on a 3-year cycle.
    Question. If the TOTAL survey has been inactive since 1998, but 
funds have remained in the budget to fund it, as evidenced by their 
proposed elimination this year, what has NASS been doing with these 
funds?
    Answer. The TOTAL survey is funded under the Census of Agriculture. 
This is a cyclical funding source which varies by year and only 
includes the necessary appropriations to complete the cyclical 
activities for that fiscal year. The cyclical activities include such 
items as the planning, conducting, analysis, and summary of the 
quinquennial Census of Agriculture and associated follow-on studies. 
The $4.0 million reduction in fiscal year 2011 are the funds that would 
have been used to conduct the TOTAL survey.
    Question. What effect will the elimination of any activities 
described above have on NASS?
    Answer. A comprehensive review was completed to determine the 
priority of each survey within the overall existing program. Eliminated 
programs were identified as lower priority items which could offset 
requested funding in support of higher priority administration goals.

                   CONGRESSIONALLY DIRECTED SPENDING

    Question. Please provide a list of all congressionally directed 
spending in fiscal year 2010, including gross to location and net to 
location. Please provide detailed information on how any funding beyond 
a 10 percent difference was used, by project.
    Answer. There are no funding differences beyond 10 percent. The 
information is submitted for the record.
    [The information follows:]

------------------------------------------------------------------------
    Congressionally directed project       Gross amount     NTL amount
------------------------------------------------------------------------
Animal Vaccines, Greenport, NY..........      $1,518,000      $1,366,200
Aquaculture Fisheries Center, Stuttgart,         519,000         467,100
 AR.....................................
Aquaculture Initiatives, Harbor Branch         1,597,000       1,437,300
 Oceanographic Institute, Stuttgart, AR.
Arthropod-Borne Animal Diseases Research       1,500,000       1,350,000
 Laboratory, Manhattan, KS..............
Biomass Crop Production, Brookings, SD..       1,250,000       1,125,000
Biomedical Materials in Plants,                1,700,000       1,530,000
 Beltsville, MD.........................
Bioremediation Research, Beltsville, MD.         111,000          99,900
Biotechnology Research and Development         3,500,000       3,150,000
 Center, Headquarters...................
Catfish Genome, Auburn, AL..............         819,000         737,100
Center for Agroforestry, Booneville, AR.         660,000         594,000
Cereal Disease, St. Paul, MN............         290,000         261,000
Computer Vision Engineer, Kearneysville,         400,000         360,000
 WV.....................................
Crop Production and Food Processing,             786,000         707,400
 Peoria, IL.............................
Dairy Forage Research Center, Madison,         2,500,000       2,250,000
 WI.....................................
Dale Bumpers Small Farms Research              1,805,000       1,624,500
 Center, Booneville, AR.................
Diet Nutrition and Obesity Research, New         623,000         560,700
 Orleans, LA............................
Endophyte Research, Booneville, AR......         994,000         894,600
Forage Crop Stress Tolerance and Virus           200,000         180,000
 Disease Management, Prosser, WA........
Formosan Subterranean Termites Research,       3,490,000       3,217,590
 New Orleans, LA........................
Foundry Sand By-Products Utilization,            638,000         574,200
 Beltsville, MD.........................
Human Nutrition Research, Boston, MA....         350,000         315,000
Human Nutrition Research, Houston, TX...         300,000         270,000
Improved Crop Production Practices,            1,293,000       1,163,700
 Auburn, AL.............................
Livestock-Crop Rotation Management,              349,000         314,100
 University Park, PA....................
Lyme Disease, 4 Poster Project,                  700,000         630,000
 Headquarters...........................
Medicinal and Bioactive Crops,                   111,000          99,900
 Washington, DC.........................
Mosquito Trapping Research/West Nile           1,454,000       1,308,600
 Virus, Gainesville, FL.................
National Bio and Agro Defense Facility,        1,500,000       1,350,000
 Manhattan, KS..........................
National Center for Agricultural Law,            654,000         588,600
 Beltsville, MD (NAL)...................
National Corn to Ethanol Research Pilot          360,000         324,000
 Plant, Headquarters....................
North Carolina Human Nutrition Center,         1,000,000         900,000
 Headquarters...........................
Northern Great Plains Research                   543,000         488,700
 Laboratory, Mandan, ND.................
Northwest Center for Small Fruits,               275,000         247,500
 Headquarters...........................
Pacific Basin Agricultural Research              700,000         630,000
 Center Staffing, Hilo, HI..............
Phytoestrogen Research, New Orleans, LA.       1,750,000       1,575,000
Potato Diseases, Beltsville, MD.........          61,000          54,900
Poultry Diseases, Beltsville, MD........         408,000         367,200
Seismic & Acoustic Technologies in Soils         332,000         298,800
 Sedimentation Laboratory, Oxford, MS...
Sorghum Research, Little Rock, AR.......         135,000         121,500
Soybean Genomics, St. Paul, MN..........         200,000         180,000
Subtropical Beef Germplasm, Brooksville,       1,033,000         929,700
 FL.....................................
Termite Species in Hawaii, New Orleans,          200,000         180,000
 LA.....................................
Tropical Aquaculture Feeds, Oceanic            1,438,000       1,294,200
 Institute, Hilo, HI....................
Water Management Research Laboratory,            340,000         306,000
 Brawley, CA............................
Water Use Reduction, Dawson, GA.........       1,200,000       1,080,000
Wild Rice, St. Paul, MN.................         303,000         272,700
------------------------------------------------------------------------

                           GREENBOOK CHARGES

    Question. Please provide a list of all Greenbook charges assessed 
to ARS during fiscal years 2009 and 2010. From where did the funding 
come to pay for these charges?
    Answer. These costs are funded from a 10 percent indirect cost 
assessment to cover administrative and program management costs 
associated with conducting nationwide research programs and funds set 
aside from lapsed salaries within the agency. The final determination 
of the Greenbook charges for fiscal year 2010 has not been completed. 
The fiscal year 2009 information is submitted for the record.
    [The information follows:]

                     ARS FISCAL YEAR 2009 GREENBOOK
------------------------------------------------------------------------
                     Agency programs                       Amount funded
------------------------------------------------------------------------
U.S. Postal Service Mail Postal Code P005...............        $255,000
Unemployment Compensation \1\...........................         427,000
Workers Compensation \1\................................       3,592,506
Transit Subsidy.........................................         430,204
National Archives Records System........................          78,521
GSA HSPD-12 Lincpass Maintenance........................         142,088
OPM Federal Employment and Administrative Law Judges              41,793
 Service................................................
Consolidated Fed Funds Report and Fed Audit                       11,520
 Clearinghouse..........................................
Small Business Certification............................           1,505
FEMA Emergency Preparedness.............................          19,087
Government-wide Council Activities......................          43,137
Flexible Spending Accounts FSAFEDS......................         158,599
E-Gov Initiatives.......................................         585,438
USDA Tribal Liaison.....................................             915
Advisory Committee Liaison Services.....................          15,919
Faith-Based Initiatives & Neighborhood Partnerships.....          22,126
Hispanic-Serving Institutions National Program..........         118,168
1890 USDA Initiatives...................................         198,721
USDA 1994 Program.......................................          47,529
Diversity Council.......................................          42,039
Visitors Center.........................................          21,962
Honor Awards............................................           6,556
TARGET Center...........................................          75,965
Drug Testing Program....................................           1,900
Sign Language Interpreter Services......................          18,930
Sign Language Interpreter Agency Specific Service \1\...          43,616
Emergency Operations Center.............................         180,693
Labor and Employee Relations Case Tracking and Reporting           5,900
 System.................................................
Continuity of Operations Planning.......................         149,144
Personnel and Document Security.........................         143,347
Federal Biobased Products Preferred Procurement Program.          28,681
Radiation Safety \1\....................................         624,704
Retirement Processor Web Application....................          27,698
Preauthorized Funding...................................         213,062
Financial Management Improvement Initiative.............         250,660
E-Gov Initiatives--HSPD12...............................       1,047,528
E-Gov Initiatives--Content Management...................          75,198
Enterprise Network Messaging............................         345,827
USDA Enterprise Contingency Planning Program............          44,116
USDA IT Infrastructure Security.........................         150,396
E-Gov Enablers-Cyber Security...........................          79,860
                                                         ---------------
      Total.............................................      $9,767,558
------------------------------------------------------------------------
\1\ Cost centers assessed based on actual usage.

                        ARS ADMINISTRATIVE COSTS

    Question. Has ARS considered the possibility of including a general 
fund to pay for all administrative costs and estimated Greenbook 
charges? If not, what concerns would ARS have with such a proposal?
    Answer. No, ARS has not considered the possibility of including a 
general fund for all administrative and program management costs and 
estimated Greenbook and Working Capital charges. ARS assesses 10 
percent on any program increases appropriated to the agency to finance 
administrative and program management costs associated with conducting 
nationwide research programs. This way of budgeting accounts for the 
full cost of running the program, ensuring transparency and 
accountability. In addition to diminishing full cost account and 
transparency, a centralized administrative expenses account may not 
accurately reflect the cost of administering the program. Costs 
associated with the Greenbook and Working Capital Fund are not 
finalized until after the beginning of the fiscal year.

                        CLASSICAL PLANT BREEDING

    Question. What level of ARS funding is used for classical plant 
breeding research?
    Answer. The ARS funding for classical plant breeding research for 
fiscal year 2010 is $74,193,800.

                            ORGANIC RESEARCH

    Question. What level of ARS funding is used for organic research?
    Answer. In fiscal year 2010, ARS invested $17,234,600 in research 
that directly addresses organic agriculture problems. The ARS 
investment in research that does not have specific organic agriculture 
research objectives but which indirectly benefits the organic industry 
is $40,951,300.

                 REGIONAL BIOFUELS FEEDSTOCKS RESEARCH

    Question. What are the proposed locations of the Regional Biofuels 
Feedstocks Research and Demonstration Centers? How were those locations 
chosen?
    Answer. The five proposed Regional Biomass Research and Development 
Centers will be research networks within the following five agro-eco 
regions:
    Southeast--spans the Southern Coastal Plains and Piedmont areas 
(includes FL, GA, SC, AL, MS, LA, AR, NC, TN, KY, eastern TX, and HI);
    Central-Eastern--covers the Mid-Atlantic, Midwest and eastern Great 
Plaines (includes NE, ND, SD, KS, OK, MN, IA, MO, WI, IL, MI, IN, OH, 
KY, TN, PA, DE, MD, and VA);
    Northern-Eastern--spans the Northern Coastal Plains (includes MN, 
WI, MI, NY, VT, NH, ME, MA, CT, RI, PA, OH, DE, MD, and WV);
    Western--spans the relatively dry Southwest and Western States (NM, 
AZ, CA, NV, UT, CO, MT, WY, ID, and western TX);
    Northwestern--encompasses the Northwest and northern Great Plaines 
(includes WA, OR, ID, MT, eastern CO, WY, CA, AK, and western ND and 
SD).
    Each Regional Center will be composed of a network of ARS and 
Forest Service laboratories, scientists, and their partners within that 
region. Each of the centers will be organized in a ``hub'' and 
``spoke'' fashion with at least one ``hub'' and many ``spokes'', all of 
which contribute to the Regional Center's performance. ``Hubs''--single 
laboratories within Regional Centers will help to coordinate the 
Center's work and relationships so as to maximize effectiveness and 
prevent duplication of efforts. These hubs were chosen based on the 
expertise each possesses for regionally adapted bioenergy feedstocks 
and the kinds of agricultural production systems suited to that region.

                            WORLD FOOD PRIZE

    Question. What amount of funding is in ARS's base budget for the 
World Food Prize? What reasoning is provided for ARS being the USDA 
lead agency to support this Foundation?
    Specifically, how was this amount determined and for what will it 
be used? Since the World Food Prize is related to international food 
security, do you believe it would be better suited within the Foreign 
Agricultural Service?
    Answer. Presently, there are no funds in the ARS base budget to 
support the World Food Prize Foundation (WFP). Conference Report 109-
255, accompanying the Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriations Bill for fiscal 
year 2006, directed the Secretary to report ways in which the 
Department can participate in support of WFP and appropriated $350,000 
for such efforts. In response to the directive, the Secretary 
designated ARS to support and partner with WFP and transferred the 
$350,000 appropriated for these efforts to ARS. No funding was 
appropriated in subsequent years for support of WFP.
    The fiscal year 2011 budget, request for $750,000 builds upon the 
established relationship with ARS and the World Food Prize Foundation 
to relieve world hunger. The proposed funding will be used to support 
activities such as travel costs for distinguished participants; 
preparation of publications, brochures, and other materials; 
participation of students and teachers in the Youth Institute; and 
related staff and administrative support costs.

                AGRICULTURE AND FOOD RESEARCH INITIATIVE

    Question. Please provide a specific list of all research 
initiatives and funding goals for those initiatives proposed within the 
Agriculture and Food Research Initiative (AFRI), including those within 
base funding.
    Answer. The information is submitted for the record.
    [The information follows:]

------------------------------------------------------------------------
                                                            Fiscal year
                                                               2011
                       Initiative                           President's
                                                              budget
                                                             proposal
------------------------------------------------------------------------
Childhood Obesity Prevention plus Improving National         $74,908,900
 Nutrition and Health...................................
Sustainable Bioenergy...................................      73,272,600
Global Food Security....................................      28,309,040
Food Safety.............................................      39,963,000
Global Climate Change...................................     104,909,000
Foundational Programs Listed Below:
    Plant Health and Production and Plant Products--          35,000,000
     Including Colony Collapse Disorder of Honey  Bees..
    Animal Health and Production and Animal Products--        30,000,000
     Animal Health and Production.......................
    Food Safety, Nutrition, and Health..................       6,000,000
    Renewable Energy, Natural Resources, and Environment      11,482,460
    Agriculture Systems and Technology..................      10,000,000
    Agriculture Economics and Rural Communities--             15,000,000
     Economics of Markets and Agricultural Prosperity
     for Small and Medium-sized Farms...................
                                                         ---------------
        Total...........................................     428,845,000
------------------------------------------------------------------------

    Question. Is there any assurance that research programs that have 
been eliminated in the budget, with the justification that they will be 
included in the proposed AFRI increase, will be protected at the levels 
they currently receive?
    Answer. While the specific section 406 funding mechanism and 
programs are not part of the 2011 budget request, AFRI will continue to 
emphasize food safety and climate change (include water issues). In 
addition, research and education supporting organic agriculture is 
conducted through a mandatory funded grants program, and expanded 
Sustainable Agriculture Research and Education activities. I will have 
NIFA provide additional details for the record.
    [The information follows:]
    Water issues will be addressed in multiple Challenge Area programs. 
Impacts on water use, distribution, quality and quantity will be 
addressed in the Bioenergy, Global Climate Change, and Global Food 
Security integrated and research program. Especially important is the 
usage of water for the expanded bioenergy crop production and continued 
availability of high quality water for food production. Basic research 
will continue through the Agricultural Water Science Foundation program 
also. The fiscal year 2010 funding for Water Quality was $12,649,000. 
The AFRI programs for the three Challenge Areas will increase funding 
by over $96 million.
    The AFRI Food Safety Challenge Area Program will continue to 
provide funding for research, education, and extension efforts to 
improve the safety of the U.S. food supply through new and improved 
rapid detection methods, epidemiological studies, and improved food 
harvesting and processing technologies. Several basic research programs 
will address issues related to plant diseases and pathogen 
interactions, animal health, and the use of nanotechnology use to 
ensure food safety. The Food Safety Area will increase funding by 
$19,963,560. The section 406 Food Safety funding in fiscal year 2010 
was $14,596,000.
    The application of Integrated Pest Management will be a focus in 
the Global Food Security Challenge programs looking at a system 
approach in pest management and expand to potential partnerships with 
other agencies addressing appropriate national and international 
application of IPM principles and practices. Section 406 related IPM 
funding for fiscal year 2010 was $12,903,000. Foundational Pest and 
Beneficial Insects in Plant Systems Foundation program funding is at $6 
million and the Global Food Security Challenge IPM program area is at 
$5 million and an increase in the Global Food Security Challenge area 
of over $13 million.
    Organic agricultural production and management systems have been 
and will continue to be supported through many of the AFRI programs. 
Basic research through the Small and Medium-Sized Farms and Rural 
Communities and Economics of markets and Development programs can 
support research on the expansion of organic agriculture with a focus 
related to land use and economics of rural communities. The Global Food 
Security Challenge Programs can support integrated efforts both 
nationally and related to international food security issues. Since 
many organic producers market locally, regional food security efforts 
may be researched to address ``food deserts''. The Nutrition and Health 
Challenge programs address behavioral factors that can address 
providing highly nutritious food especially to children and could 
include improvements in nutritional value in organic crops. Section 406 
Organic Transition Program funding in fiscal year 2010 was $5 million. 
Potential related funds from AFRI from the two Foundational Programs 
are $10 million and $5 million from the Global Food Security Challenge 
Program.

SECONDARY EDUCATION, 2-YEAR POSTSECONDARY EDUCATION, AND AGRICULTURE IN 
                           THE K-12 CLASSROOM

    Question. What level of funding requests was received by USDA for 
Secondary Education, 2-Year Postsecondary Education, and Agriculture in 
the K-12 Classroom (SPECA) grants in fiscal year 2009 and 2010?
    Answer. USDA received requests for Secondary Education, 2-Year 
Postsecondary Education, and Agriculture in the K-12 Classroom (SPECA) 
grants totaling $2,986,906 in fiscal year 2009 and $2,434,403 in fiscal 
year 2010.

             HIGHER EDUCATION INSTITUTION CHALLENGES GRANTS

    Question. What level of funding requests was received by USDA for 
Higher Education Institution Challenges Grants in fiscal year 2009 and 
2010?
    Answer. USDA received requests for Higher Education Institution 
Challenge grants totaling $15,205,883 in fiscal year 2009 and 
$20,600,489 in fiscal year 2010.

                 FOOD EMERGENCY RESPONSE NETWORK (FERN)

    Question. The FSIS budget proposes to decrease funding for FERN 
laboratories, but the FDA budget restates the importance of these 
laboratories. Did FSIS consult with FDA in making this budget decision, 
and how do the two agencies work together on this initiative?
    Answer. No, the Department did not consult with FDA prior to making 
this budget decision. However, we continue to work closely with FDA to 
further develop and manage FERN. FSIS has primary responsibility for 
funding and overseeing Cooperative Agreements with non-Federal 
laboratories that assist FERN in building surge capacity for responding 
to microbiological foodborne emergencies, while FDA supports 
Cooperative Agreement activities related to chemical and radiological 
emergencies. Joint activities include laboratory training, proficiency 
testing, surveillance testing, method validation studies, and 
coordination of responses to exercises and events. We have made 
considerable investment in the States in building capacity to respond 
to foodborne emergencies through its Cooperative Agreements. The level 
proposed for Cooperative Agreements in fiscal year 2011 is the same as 
for fiscal year 2009.
    For the fiscal year 2011 President's budget, the administration is 
proposing to redirect FSIS funding from FERN in order to offset costs 
to support one of the key findings of the President's Food Safety 
Working Group which is to develop more timely estimates of pathogen 
prevalence. This $10 million increase above the fiscal year 2010 level 
will allow FSIS to improve surveillance of foodborne pathogens of 
human-health concern in FSIS-regulated products through significant 
expansion of Hazard Analysis and Critical Control Point regulatory 
sampling, and conducting an additional traditional baseline study. 
Accurate, timely prevalence estimates for pathogens are critical for 
evaluation of existing prevention policies and the development of new 
regulatory strategies.

                      INTERSTATE SHIPMENT PROGRAM

    Question. Please provide an update on the status of the FSIS State 
Meat Inspection rule.
    Answer. The Department is working to implement the farm bill 
provision to allow the interstate shipment of meat and poultry products 
for certain small and very small establishments. The proposed rule was 
published in the Federal Register on September 16, 2009.
    The Department held two public teleconference meetings on the 
proposed regulations, on October 27 and November 5, 2009, and accepted 
public comments on the proposed rule through December 16, 2009. We are 
taking into consideration these public comments and will then move 
forward with the final rule.

                       FSIS SALARIES AND EXPENSES

    Question. Will the budget adequately fund all FSIS pay costs, 
including required within grade increases, benefits, and other required 
salary increases? If not, what amount is necessary to ensure that the 
salaries of FSIS employees are fully covered?
    Answer. The President's fiscal year 2011 budget fully funds FSIS 
salary needs including funding for continuation of inspection 
operations without interruption. I am committed to ensuring that we 
have the staffing, the training, the lab support, oversight and other 
resources that are necessary to ensure the safety of the food supply.

                            HUMANE SLAUGHTER

    Question. The Committee has received a proposal to redirect funding 
previously set aside for Humane Animal Tracking in order to fund a 
position whose sole responsibility will be to oversee FSIS efforts on 
enforcement of the Humane Methods of Slaughter Act. Has FSIS considered 
this and what would the cost of such a position be? Further, the 
Committee has received a request to fund a specific team of FSIS 
employees whose job description would require them to perform 
undercover investigations of slaughter facilities to ensure compliance 
with the Humane Methods of Slaughter Act. Again, is this something FSIS 
has considered, and what would the approximate cost be?
    Answer. The Department has funded a position whose primary 
responsibility will be to oversee FSIS efforts on enforcement of the 
Humane Methods of Slaughter Act. FSIS used the additional $2 million 
provided in fiscal year 2009 for 24 additional positions to further 
boost its humane handling oversight and verification inspection 
activities. One of these positions is a headquarters-based Humane 
Handling Coordinator, whose primary responsibility will be to provide 
consistent oversight of field-level humane handling activities. The 
other 23 positions--5 PHVs, 1 Supervisory Consumer Safety Inspector, 13 
Consumer Safety Inspectors, and 4 Food Inspectors--were assigned to 
specific plants where the employee will conduct on-line or off-line 
activities. As of March 14, 2010, 22 of these positions had been 
filled, including the Humane Handling Coordinator position, and 2 were 
still in the hiring process.
    We've recently become aware of the suggestion for an undercover 
investigative team and have not yet estimated the cost for such a team. 
Since the events at the Hallmark/Westland establishment in 2008, FSIS 
has made numerous efforts to strengthen and improve its verification 
and enforcement related to the Humane Methods of Slaughter Act. FSIS 
conducted covert humane slaughter surveillance operations in nine 
establishments across the United States within 4 months of the Humane 
Society's Hallmark/Westland video release and determined that all of 
these establishments were in compliance. FSIS can conduct covert 
surveillance operations under existing surveillance and investigation 
allocations. Moreover, FSIS instructed PHVs and other inspection 
program personnel to vary from day-to-day the time during their tour of 
duty that they perform their activities to verify that animals are 
treated humanely. In April 2009, FSIS issued Notice 21-09, which 
reminded inspection program personnel to conduct humane handling 
activities randomly throughout their shift.

            PUBLIC HEALTH DATA COMMUNICATION INFRASTRUCTURE

    Question. Is the funding requested for the Public Health Data 
Communication Infrastructure Funding one-time funding, or will 
additional investments be required in immediate outyears?
    Answer. Reliable connectivity to information systems and 
applications is critical to the accomplishment of FSIS' inspection, 
investigative, and food defense responsibilities. The backbone that 
underpins these systems and applications must be expanded to support 
the increased requirements of PHIS in both the installed base and for 
additional users. Provision of additional telecommunications support 
will subsume $2.3 million of the $8.0 million requested. These are on-
going costs.
    In addition, the Agency will spend an additional $5.7 million to 
support the on-going costs for the migration to and operation of the 
Department's two Enterprise Data Centers (EDCs). These costs will 
increase as PHIS is brought on-line. Front-line personnel will benefit 
from the increase in the number of centralized mission critical 
applications available under the EDCs. Interoperability of Agency 
systems with other governmental and non-governmental systems will also 
increase demand for EDC-hosted applications, which will in turn, 
increase the Agency's costs for support of those systems. While the 
Agency has received additional funding for the EDCs in fiscal year 2010 
and 2011, the Agency's contribution to the overall EDC support will 
rise as we move from the implementation to the maintenance and 
operations phase with increased user demand. The requested funds are 
therefore intended to be a baseline increase.
    The third major element is to increase the number of FSIS employees 
with daily access to computers. The request includes $5 million to 
purchase 3,600 computers, as part of a longer-term plan to move towards 
one-computer per employee. Much of the agency's frontline workforce is 
highly mobile, making it difficult to share computers across multiple 
sites when access to real-time applications are required. Likewise, the 
agency has not had the systematic ability to turnover computers at the 
work sites of its existing computer users, to enhance workforce 
productivity. Shortening technology lifecycles and the increasing 
complexity of FSIS applications has led to an agency-wide computer 
strategy that includes both increasing the installed base and 
refreshing the computers to the existing users. The requested funds are 
therefore intended to be a baseline increase to support the agency's 
over 10,000 employees and partners.

                              COST SHARING

    Question. Many APHIS programs ensure containment, reduction, and 
elimination of animal and plant pests and diseases that could do huge 
harm to production agriculture in the United States. Typically, these 
program resources reflect cost sharing between APHIS and program 
collaborators (generally States and tribes). However, a consistent 
theme in this budget is the proposed reduction in Federal contributions 
to program costs, forcing States and tribes to assume larger burdens.
    Mr. Secretary, does this decision reflect conversations and 
agreements you have reached with your partners?
    Will your collaborators have adequate time to adjust their budgets 
to maintain needed levels of program performance?
    In those States already facing severe budget shortfalls, will you 
provide this subcommittee assurance that needed levels of program 
services will continue?
    Answer. While there may not have been agreement to the level of 
contributions for each pest and disease program, it is reasonable to 
expect all parties to contribute some level of resources towards these 
cooperative programs that, in most cases, have been in place for 
several years.
    The Agency's budget request is presented more than 6 months in 
advance of when it will become effective, which allows time for program 
partners to develop their spending plans in the coming year. The Agency 
will continue to conduct the pest and disease programs based on the 
total available resources and on the highest priorities for the 
program.

                           USE OF ANTIBIOTICS

    Question. There continues to be vocal debate on the non-therapeutic 
use of antibiotics in the livestock sector. Some contend that the 
practice places human health at risk due to a concern that the 
consumption of related food products results in antibiotic resistance 
to certain strains of bacteria. On the other hand, it is argued that 
the use of antibiotics in livestock is so minimal that there is no such 
effect.
    What is the current science in regard to this issue?
    Is there any evidence that the use of antibiotics for livestock has 
any influence on human health through food products from such animals?
    Since there is obviously some effect in the use of antibiotics (or 
else the industry would not use them in the first place) is it not 
logical to assume that there is some residual effect in humans? If not, 
what is being done to educate consumers that the use of antibiotics 
poses no threat to human health?
    Answer. Current science is largely assessing the effect of 
antimicrobial use and the antibiotic resistance, also known as 
antimicrobial resistance or drug resistance. APHIS and ARS, FDA, and 
CDC continue to work collaboratively on antimicrobial issues. The 
question of whether antibiotic use in animals has any effect on human 
health requires the consideration of the organism involved, the 
antibiotic in question, and various other mitigating factors in food 
production. The FDA continues to do risk assessments for various 
antibiotics used in animals and their potential to harm human health. 
In some cases the FDA has found that certain uses of antibiotics result 
in unacceptable increased risks to human health and have withdrawn 
approvals for specific antibiotic uses. In other cases the risk 
assessment has indicated that there is not an increased risk associated 
with the use of specific antibiotics in certain animals.
    Antibiotics are used in animals for purposes of treatment of 
clinical disease, disease prevention and growth promotion. Concern for 
antibiotic resistance relative to use of antibiotics in animals is 
primarily related to the transmission of organisms from animals to 
people, especially through food. In some cases these organisms may 
harbor genes that make them resistant to the effects of certain 
antibiotics. When these resistance genes occur and people require 
treatment for that infection, they may not respond optimally to 
treatment.
    APHIS' focus for the antibiotic use and resistance issue has been 
to survey livestock populations to estimate the types and levels of use 
for various commodities/animals and to evaluate the prevalence of 
resistance. APHIS reports on findings from the on-farm sampling through 
reports and in peer reviewed publications in the professional 
literature. The Web site address to access the reports is http://
www.aphis.usda.gov/vs/ceah/ncahs/nahms/. These reports are also made 
available to the Food and Drug Administration (FDA), the agency 
responsible for the approval process of antibiotic use in animals. 
Information regarding the use of antibiotics in animals is available to 
the public on the following FDA Web site: http://www.fda.gov/
AnimalVeterinary/SafetyHealth/AntimicrobialResistance

                               FARM LOANS

    Question. Mr. Secretary, in the face of deteriorating credit 
conditions for rural farmers this Committee increased Farm Service 
Agency ownership and operating loan levels for fiscal year 2010. Now it 
appears even those increased levels will not be sufficient to meet 
fiscal year 2010 credit demand. Adequate credit is essential to help 
rural areas recover from this deep recession. But, this budget cuts 
farm loan program levels for fiscal year 2011.
    What evidence do you have that this request will be sufficient to 
meet the credit needs for agricultural producers?
    Answer. At the time the fiscal year 2011 budget was being 
formulated, economic forecasts indicated that farm prices would rebound 
in fiscal year 2010 and agriculture would continue to be somewhat 
insulated from the credit crisis faced primarily by the non-agriculture 
sectors of our economy. Based on these assumptions--and given that 2009 
funding was augmented by $173 million of stimulus funds and $810 
million of supplemental funds provided adequate funding to satisfy a 
large increase in credit applications for fiscal year 2009--a 
determination was made that fiscal year 2009 obligation levels would be 
sufficient for fiscal year 2010 and subsequently for fiscal year 2011. 
We will continue to monitor the agricultural credit markets and, 
pursuant to the 2010 Conference Report, keep the Committee informed of 
the farm credit needs.
    Question. What tools do you have to increase program levels during 
the year if your estimates for fiscal year 2011 turn out to be low?
    Answer. The last several appropriations acts included language that 
allowed FSA to make adjustments to program levels by moving funds from 
program areas with less demand to those with greater demand, with 
Committee consent. This flexibility proved useful in the past when 
demand changed significantly from forecasts, which are made many months 
in advance. The Department also has authority to interchange up to 7 
percent of funds provided to FSA for farm loans should the need arise.

                       CCE COMPUTER MODERNIZATION

    Question. Mr. Secretary, the budget includes $35,000,000 under 
Conservation Operations for CCE computer modernization and upgrades. 
Will this activity require funding beyond fiscal year 2011? If so, what 
is the anticipated overall cost?
    Answer. The Common Computing Environment (CCE) infrastructure was 
implemented in 2000 to provide a common information technology (IT) 
platform for the three Service Center Agencies (the Farm Service 
Agency, the Natural Resources Conservation Service, and Rural 
Development). Since 2000, the system has not undergone a system-wide 
refresh resulting in outdated equipment and processes and therefore, 
the 2011 budget includes funding to reduce vulnerabilities and improve 
system performance by initiating a refresh and right-sizing initiative. 
This initiative will be an on-going effort to ensure that system 
components are replaced and configuration changes are made to support 
current and future program delivery.
    In addition to the funding requested under NRCS Conservation 
Operations, USDA is also requesting funding under FSA and RD. The 
details of this funding request are provided in the accompanying table. 
As this is an on-going initiative, its total overall cost will be 
driven by the length of time that USDA continues to operate the CCE. 
According to the business case developed for this investment, after 
2011, total annual funding to maintain the investment and to support a 
regular refresh cycle according to industry standards will be 
approximately $62 million.

------------------------------------------------------------------------
                                                            Fiscal year
                         Agency                                2011
------------------------------------------------------------------------
FSA.....................................................     $36,000,000
NRCS....................................................      35,000,000
RD......................................................      12,000,000
                                                         ---------------
      Total.............................................      83,000,000
------------------------------------------------------------------------

                    STRATEGIC WATERSHED ACTION TEAMS

    Question. The budget includes $25,000,000 for the implementation of 
strategic watershed action teams. Please explain how you envision this 
new initiative to be carried out.
    Answer. NRCS envisions deploying Strategic Watershed Action Teams 
(SWATs) consisting of five to seven people (approximately 35 teams or 
175 FTEs), for a period of 3 to 5 years in a specified geographic 
location. These teams will include Soil Conservationists, technicians 
and specialists and will be identified based on the needed technical 
expertise in each watershed. The number of teams deployed for each 
watershed will depend on the analysis of natural resource and 
socioeconomic data of the region and will be decided based on a formula 
that NRCS will develop.
    The development and deployment of SWATs will greatly improve the 
environmental cost effectiveness of NRCS technical and financial 
assistance programs. By significant planning, education, and program 
implementation assistance, the technical assistance teams will enhance 
the Agency's capability to strategically invest in conservation and 
better target the Agency's financial and technical assistance programs.
    The goal of deploying the SWATs will be to reach every eligible 
landowner in a targeted watershed and provide them with the technical 
assistance to assess their natural resource conditions and offer 
resource planning and program help. Emphasis in resource assessment and 
planning will be placed on those resource conditions that are of 
priority interest in the selected watershed.
    The SWATs will help NRCS work more closely and effectively with the 
U.S. Forest Service (FS) in that Agency's efforts to also adopt a 
landscape-scale approach to natural resource management. This will 
leverage the strengths of each agency's technical skills and natural 
resource programs to conserve and restore forestland, grassland, and 
working farmland.
    During fiscal years 2010 and 2011, NRCS will coordinate with FS and 
other stakeholders and partners to identify high-priority watersheds in 
order to enhance conservation on a landscape scale across land 
ownerships. Smaller critical watersheds within these high-priority 
watersheds would be identified for the deployment of SWAT, using 
natural resource and socioeconomic data.

    WATER AND WASTEWATER DISPOSAL GRANTS FOR NATIVE ALASKAN VILLAGES

    Question. This Committee has been concerned about the growing 
unobligated balances of grants to Native Alaskan Villages. The 
Secretary was directed to: obligate the funds; and develop a plan to 
streamline the grant process and reduce the paperwork burden on rural 
Alaskan communities and Native Alaskan Villages. That plan was due to 
the Committee 90 days after enactment of the fiscal year 2010 
appropriations bill. Please explain why delivery of the plan has been 
delayed.
    Answer. The selection of an independent third party contractor that 
is responsible for developing a final work plan to address processing 
delays was recently completed in January 2010. In the next few days, a 
preliminary plan for analyzing the use of all unobligated balances will 
be submitted to Congress.
    Prior to fiscal year 2006, Water and Waste Disposal Program funding 
for Native Alaskan Villages was provided to an intermediary. Some 
technical disruptions in delivering the program occurred, requiring the 
agency to takeover review of grant applications and head coordinated 
efforts to aid Alaskan residents prepare applications is the largest 
single reason why a significant amount of the appropriated funds remain 
unobligated.
    The preliminary report provides detailed background on the program 
and how the significant amount of unobligated balances was created, and 
the approach to resolve application processing delays. This report 
indicates that a final report will be submitted to Congress in August 
of 2010. Until then, discussions are ongoing.
    Question. Please provide a status report including the obligations 
history, applications backlog, and estimated demand for fiscal year 
2011.
    Answer. This information will be included in the final report.
    Question. What process improvements are you considering to enhance 
the efficiency and effectiveness of this program?
    Answer. The final report will provide a thorough analysis of the 
application, approval, and tracking process; dialogue with other 
agencies regarding their roles in the process; stakeholder input; and 
third party contractor review.
    Question. What is the expected timeframe for implementation of 
these changes?
    Answer. This information will be included in the final report.

             SINGLE FAMILY HOUSING GUARANTEED LOAN PROGRAM

    Question. The Committee is aware that funding for the single family 
housing guaranteed loan program ($12 billion appropriated for fiscal 
year 2010 plus carryover funds from the Recovery Act) will be exhausted 
in April. It is taking time for private sector lenders to unwind from 
the current recession and begin providing normal levels of housing 
lending. In the meantime this program is one of only a few that is 
offering necessary credit for homebuyers.
    When did you realize and formally notify this Committee that funds 
would be exhausted so early in the fiscal year?
    Answer. The Department is still assessing, evaluating options, and 
preparing status report required by the 2010 Conference report.
    Question. What actions are you taking to supplement this credit 
shortfall for the last 5 months of fiscal year 2010?
    Answer. The administration is pleased that it will be able to fully 
obligate all Single Family Housing Guaranteed Loan Program funds that 
were appropriated for this program in fiscal year 2010. We are 
currently evaluating various options to ensure assistance is provided 
to rural homeowners.
    Question. This budget proposes several significant changes to the 
program including adding an annual fee and implementing a ``direct 
endorsement'' program. The annual fee will eliminate program costs to 
the government. Please explain why you are proposing an annual fee 
rather than increasing the up-front fee which could generate the same 
result.
    Answer. Program costs to the government can be eliminated either by 
increasing the up-front fee or by instituting an annual fee. The annual 
fee was proposed to achieve consistency with FHA, and to maintain up-
front costs at current levels.
    Question. Please describe the effects on borrowers of an annual fee 
versus an up-front fee in which both alternatives generate zero subsidy 
cost.
    Answer. The 2011 budget requests a loan level of $12 billion 
supported by establishing a fee structure that will eliminate the 
subsidy cost for all new purchases. The annual fee that USDA is 
proposing would eliminate the need for an annual appropriation to pay 
for the cost of loan subsidies. The up-front fee on new purchase loans 
will remain 2 percent, but an annual fee of 0.15 percent will be added 
to both new and refinanced loans. In addition, the up-front fee for 
refinanced loan guarantees will be increased to 1 percent. The annual 
fee would apply to all loans, regardless of the income of the borrower. 
This is the same as for the one-time fee that is assessed up-front, and 
can be incorporated in the loan amount. The annual fee would, instead, 
be applied directly to the borrower's monthly payment. The two fees, 
combined, would be lower than the fees charged by HUD and VA. Low-
income borrowers constitute about 30 percent of USDA's single family 
guaranteed loan borrowers. The annual fee included in the 2011 budget 
proposal is estimated to be 1/15 of 1 percent. It is anticipated that 
it would have minimal impact on the ability of low income borrowers to 
qualify for loans.
    The annual fee will be capped at 0.5 percent and in fiscal year 
2011 is expected to be 0.15 percent of the guaranteed principal loan 
amount. On a $100,000 loan, the annual fee will be $150. This results 
in an additional monthly payment of $12.50. This is a nominal increase 
and should be affordable.
    Question. Under a direct endorsement program the Agency's role in 
loan underwriting is minimized while the responsibilities for 
maintaining credit quality are shifted to the private sector guaranteed 
lenders. Please elaborate on the need for a direct endorsement program 
at this time.
    Answer. Direct endorsement will streamline the loan making process 
and achieve a measure of consistency with the other Federal Housing 
programs. Some private sector lending partners have repeatedly 
requested direct endorsement capabilities. Also, this will make the 
Agency more efficient and allow the single family housing staff to 
focus more on single family housing direct loans.
    Question. How do you reconcile this request with your proposal to 
reduce (by $6 million) resources to monitor guaranteed lender 
performance?
    Answer. Significant Information Technology gains related to 
maintaining portfolio compliance, safety, and soundness are being made 
through investment of Recovery Act administrative funding in 2010. 
These gains will be applied to many of Rural Development's programs, 
including the section 502 guaranteed loan program. The projected $6 
million reduction is supported through gains that will be realized in 
fiscal year 2010, reducing the need for these Information Technology 
investments in fiscal year 2011.
    Along with these Information Technology gains, efforts and 
investment towards monitoring section 502 guaranteed lenders and 
portfolio performance and compliance will increase in 2011. This is 
necessary due to the growth of the program and the level of new lender 
participation. We are proactively working internally and with the 
Office of Inspector General to ensure that robust portfolio quality 
control procedures continue to evolve and be implemented to protect the 
safety and soundness of the program.
    Question. What assurance can you provide that the current excellent 
portfolio credit quality and low default history will be maintained?
    Answer. We expect the current excellent portfolio credit quality 
will be maintained. The intent is to limit direct endorsement to 
lenders that have demonstrated strong program knowledge and 
responsibility. Only well performing lenders would be given direct 
endorsement capabilities, and they would be closely monitored on a post 
closing basis. Lenders with direct endorsement would have to submit 
their loans through Rural Development's automated underwriting system. 
Loans receiving an ``accept'' from the automated underwriting system 
have demonstrated better performance than loans which are manually 
underwritten.

                                OUTREACH

    Question. I know that you share our commitment to improving access 
to the child nutrition programs for families that have long suffered 
material hardships and those experiencing new difficulties as a result 
of the recession. Children are especially vulnerable to the effects of 
the recession. The SNAP program has an aggressive outreach component 
that is not matched in the school meals programs. Parents that are 
recently unemployed may not realize that their children are eligible 
for free or reduced price meals. Others may not realize that they can 
sign up at any point in the school year. What has USDA already done to 
make sure that eligible families are enrolled for free or reduced price 
school meals and what are your plans to engage schools in outreach 
campaigns for the upcoming school year?
    Answer. The Department recognizes the importance of getting program 
information to families suffering from economic hardship, and we have 
taken several steps to ensure children have access to the healthy meals 
they need. In response to the recent economic problems, we have 
targeted outreach about the availability and importance of free and 
reduced price school meals to unemployment insurance applicants. We 
issued a policy memorandum on February 27, 2009 (SP 15-2009) describing 
ways to assist families during an economic downturn. This memo 
encouraged schools to reach out to families whose circumstances may 
change during the school year by reminding them that they may apply for 
free or reduced price meal benefits at any time.
    On September 3, 2009, through coordination with the Department of 
Labor's Employment and Training Administration, we distributed two 
letters through the listserv of the National Association of State 
Workforce Agency Administrators. The first letter was directed to State 
Workforce Agency Administrators, and asked that they further distribute 
and/or post the second letter to Unemployment Insurance applicants, to 
make them aware of their potential eligibility for free school meals.
    We have also issued a policy memorandum to all State agencies, 
Extending Categorical Eligibility to Additional Children in a 
Household, on August 27, 2009 (SP 38-2009, CACFP 08-2009, SFSP 07-
2009). Under this memorandum, effective immediately, all children in a 
family are considered categorically eligible for free meals either 
through direct certification with SNAP, the Food Distribution Program 
on Indian Reservations (FDPIR) and the Temporary Assistance for Needy 
Families (TANF) program, or through free and reduced price applications 
with case numbers for these programs. This means that when school 
districts have information on a family's composition, either through 
the free and reduced price application or school enrollment records, 
they should certify all children in a family for free meals if there is 
a SNAP, FDPIR or TANF case number for at least one family member on an 
application, or if one family member is directly certified through 
SNAP, FDPIR or TANF. We will soon issue additional guidance to States 
on this eligibility extension.
    We are also working to encourage more schools to conduct Direct 
Certification matches more frequently and to do it better. More 
effective direct certification is a vital tool to increase the number 
of children certified as eligible for free lunches and breakfasts. FNS 
published a report titled ``Direct Certification in the National School 
Lunch Program: State Implementation Progress'' in November 2009 to 
assess the effectiveness of State and local efforts to conduct direct 
certification of children for free school meals. The report found that 
the 2008-2009 median direct certification rates of SNAP-participant 
children were 72 percent. This shows that local educational agencies 
have increased their use of direct certification from a rate of 69 
percent reported in the previous year.

                          DIRECT CERTIFICATION

    Question. Automatically enrolling poor children for free school 
meals based on participation in other means-tested programs is an 
important component of improving access to the school meals programs 
and reducing the administrative burden of running them. I am concerned, 
however, that your recent report on State direct certification 
performance shows that as many as 3.5 million children who could have 
been directly certified were not, and a good portion of those children 
may have missed out on free meals. Congress has already taken steps to 
try to improve direct certification rates, most recently providing 
$22,000,000 in the fiscal year 2010 agriculture appropriations 
legislation for grants to improve direct certification. I would like to 
hear what USDA is doing to improve State performance. Specifically, 
what steps have you taken to distribute the grant funds? What 
improvement steps are you asking of these States? What support are you 
providing to share best practices and support improvement efforts?
    Answer. The Department recognizes the importance of using direct 
certification to enroll eligible children to receive free school meals 
and is working aggressively to develop a request for application 
(RFA)--describing qualification criteria, the application process, 
allowable uses of funds, etc.--so that States can begin applying for 
the grants as soon as possible. We are developing the RFA based not 
only on the best practices described in the report you referenced, but 
on input obtained directly from eligible States during conference calls 
that FNS is conducting specifically to discuss this grant opportunity. 
In addition, FNS will continue to publicize this grant opportunity 
during conference calls, webinars, and stakeholder meetings such as the 
School Nutrition Association meeting in July.

                       NATIONAL EXPORT INITIATIVE

    Question. The budget request for the Foreign Agricultural Service 
includes an increase of over $53,000,000 for the National Export 
Initiative. This is quite a large increase for FAS. How will the 
initiative be carried out?
    Answer. I have the honor of being appointed by President Obama as a 
member of the Export Promotion Cabinet, which has been charged with 
providing the President a comprehensive plan within 180 days to carry 
out the goals of the National Export Initiative (NEI). The plan will 
identify the resources and strategy for effective implementation of 
NEI.
    The NEI includes a proposed increase of $53.5 million in 
discretionary funding for the Foreign Agricultural Service for 2011 to 
promote exports of U.S. food and agricultural products. This enhanced 
funding would stimulate increased agricultural exports through new 
trade promotion and marketing activities; expanded grants to improve 
market access for specialty crop exports; and expanded cost-share 
activities with agricultural market development groups.
    The funding requested for FAS would be invested in three areas. 
First, $10 million is provided for enhanced export assistance by FAS. 
It would support expanded foreign market development activities at 
selected FAS overseas posts; strengthen trade facilitation services of 
FAS personnel in key countries; facilitate the participation of a 
greater number of small- and medium-sized enterprises (SMEs) at foreign 
and domestic trade shows; increase resources targeted at removing 
sanitary and phytosanitary (SPS) and technical barriers to trade; and 
strengthen outreach activities to a broader array of SMEs.
    For the Technical Assistance for Specialty Crops (TASC) Program, 
funding would be increased by $9 million to double the overall size of 
the program. Grants under TASC aim at breaking down SPS and technical 
barriers to foreign markets that prohibit or impede the export of U.S. 
specialty crops. Examples of TASC projects include technical seminars, 
study tours, field surveys, pest and disease research, and pre-
clearance programs. Increased funding would enable FAS to support a 
wider range of entities promoting U.S. exports of specialty crops and 
horticultural crop products.
    Increased funding of $34.5 million would be provided for the 
Foreign Market Development (Cooperator) Program, which would double 
total funding for that program as well. Increased resources for the 
Cooperator Program would support an expansion in the range of 
agricultural products benefiting from the existing program and export 
marketing promotions to include, for example, new or non-traditional 
uses of U.S. agricultural commodities and new foreign markets.
    Question. Do you foresee this requiring funding beyond fiscal year 
2011?
    Answer. The President has announced a plan to double total U.S. 
exports in 5 years. During that period, it is clear that promoting 
export growth and developing long-term trading relations will require 
an extended commitment for the President's goal to be accomplished.

                     CAPITAL SECURITY COST SHARING

    Question. Over the past several years we have provided funding for 
Capital Security Cost Sharing. This budget does not include funds for 
that activity. Is the State Department no longer assessing FAS for 
capital security?
    Answer. The State Department continues to assess Foreign Service 
agencies for contributions to the costs of building new, more secure 
diplomatic facilities, and funding of $9.9 million for that purpose is 
included in the 2011 FAS budget. However, no increase in funding is 
requested in 2011 because the amount of FAS' annual contribution has 
now leveled off. The original plan was for the Capital Security Cost 
Sharing program to be phased in gradually over a number of years, with 
annual funding increases requested during that phase-in period. The 
phase-in period is now completed with the 2010 budget. There may be 
periodic adjustments in the amount of annual agency contributions in 
future years based on changes in the number of personnel overseas and 
construction costs, but no adjustment is anticipated to be made during 
2011.

             AGRICULTURAL RECONSTRUCTION AND STABILIZATION

    Question. The budget includes $14,600,000 to fund agricultural 
reconstruction and stabilization activities. Please explain how these 
funds will be used. What countries besides Afghanistan will benefit?
    Answer. In Afghanistan these funds will be used by USDA to help 
support the implementation of the U.S. commitment to rebuilding that 
country by providing agricultural experts who serve as advisors to key 
ministries and work with rural farmers throughout the country. 
Additional funding to support these efforts will be provided by the 
Department of State.
    These agricultural experts serve on civilian-military command units 
throughout the country. The experts' work is essential for stabilizing 
strategic areas of the country, building government capacity, and 
raising confidence in the government. They will help to ensure the 
successful management of assistance programs, to develop economic 
opportunities and jobs in agriculture, and address food insecurity. 
Consistent with these efforts, USDA has established a high priority 
performance goal of increasing the number of Afghan provinces 
designated as food secure from 10 to 14 provinces by the end of 2011. 
Other countries that will benefit include Iraq, Haiti, and Pakistan, 
although others may be added later.

               VETERINARY MEDICAL LOAN REPAYMENT PROGRAM

    Question. Over the last several years this subcommittee has 
provided a funding for USDA to implement the Veterinary Medical Loan 
Repayment Program. I am happy to see that progress is being made. Some 
concerns have been raised about the time line that State Animal Health 
Officials were given to apply for a ``shortage designation''.
    Have you heard similar concerns? Is the Department doing anything 
to address this issue? How many State Animal Health Officials have 
submitted applications for the ``shortage designation''?
    Answer. On July 9, 2009, the National Institute of Food and 
Agriculture (NIFA) published an interim final rule and request for 
comments on this program.
    The rule clearly stated the intent was to solicit nominations of 
shortage areas, and spelled out in detail the procedure to be followed. 
The rule also explicitly stated the agency's intention to solicit 
nominations for a period of 60 days. Insofar as this interim final rule 
was published approximately 6 months prior to actually calling for 
nominations, we believe that the 60 day response period is sufficient 
and reasonable. I will have NIFA provide additional details for the 
record.
    [The information follows:]
    The period for submitting shortage area nominations ended on March 
8, and we received 249 nominations from 48 States and the Republic of 
Marshall Islands. We did not receive any complaints with respect to the 
time we allowed for nominations from any of the State Animal Health 
Officials (SAHO).
    All States submitted nominations except Massachusetts and Hawaii 
(and DC). We contacted the SAHO of Massachusetts and Hawaii and both 
indicated that this was not a priority concern for them. Neither 
indicated that the compressed timeline was a factor.
    There was considerable effort made to ensure eligible entities were 
informed and engaged. All Chief Animal Health Officials received 
information and reminders about the nomination process both leading up 
to and after release of the Federal Register notice soliciting 
nominations. The National Assembly of State Animal Health Officials 
(NASAHO) and the United States Animal Health Association (USAHA), both 
with memberships comprising the authorized respondents to this 
solicitation, were very helpful sending out notices and reminders to 
respond by the deadline.
    Although the intention was to solicit nominations for a period of 
60 days, we determined that a period of 45 days was necessary to allow 
for sufficient time to review and certify shortage areas prior to the 
opening of the VMLRP application period on April 30. Given that this 
was the first year of implementation, we were prepared to allow a grace 
period to those that needed extra time to submit their nominations.

                   LIMITATIONS ON FARM BILL PROGRAMS

    Question. Section 726 would impose limitations on a number of 2008 
farm bill programs in order to achieve savings to pay for increases in 
discretionary spending. Among these is language to not allow for the 
enrollment of more than 192,982 acres in the Wetlands Reserve Program 
in fiscal year 2011. According to USDA documents, this language would 
achieve discretionary savings of $116,386,000. However, estimates of 
the Congressional Budget Office (CBO), which will control Congressional 
budget scorekeeping, often differ from those of OMB.
    Given this potential discrepancy, does USDA intend for us to 
increase the acreage limitation to comport with CBO scorekeeping, if 
necessary, or will Congress receive a budget amendment to account for 
either the need for lower spending or additional savings in mandatory 
programs?
    Answer. USDA believes the projected discretionary savings resulting 
from limiting enrollment for the Wetlands Reserve Program is an 
accurate estimate. Therefore, USDA does not anticipate submitting a 
budget amendment to Congress concerning this issue.
    Question. Similarly, if intervening congressional action (such as 
the reauthorization of the Child Nutrition Act, or other actions 
requiring budgetary adjustments) further reduces the availability of 
mandatory funds in programs identified for savings in the 2011 
appropriations bill, will the administration provide guidance on how 
the subcommittee should make adjustments through other reductions?
    Answer. The 2011 budget represents a judicious allocation of 
conservation resources. It reflects a strategic targeting of high 
priority programs and current workforce and workload capacity, while 
including efforts to ensure financial integrity and cost effectiveness. 
At this time, USDA believes that the current budget proposal is the 
best allocation of resources and looks forward to working with the 
Committees on obtaining funding for these important programs.
    Question. The budget proposes to eliminate language in the 2010 Act 
relating to activities of the Watershed and Flood Prevention Operations 
account. The reason provided for this termination is ``in order to 
permit the Secretary the flexibility needed to carry out programs in 
the most efficient and effective manner''. However, elsewhere in the 
President's budget, the entire Watershed and Flood Prevention 
Operations account is eliminated. How does the elimination of an entire 
program strengthen the Secretary's ``flexibility'' to carry it out?
    Answer. With the elimination of the Watershed and Flood Prevention 
Operations (WFPO) Program, which has been heavily earmarked in recent 
years, the Secretary will have the ability to use merit-based criteria 
to prioritize projects in other programs within those watersheds 
without the pre-selection of watershed projects. The WFPO program 
benefits are highly localized and the Agency anticipates that those 
projects not yet completed will continue to receive local support from 
project sponsors.

             CONTRACTING AND ACQUISITION WORKFORCE TRAINING

    Question. Section 729 proposes an appropriation of $6,500,000 to 
support a Government-wide Contracting and Acquisition Workforce 
Training initiative. What efficiencies and what savings to the 
Department will result as a consequence of the appropriation?
    Answer. Office of Management and Budget (OMB) Memorandum M-09-25, 
Improving Government Acquisition, dated July, 29, 2009 promotes 
``building the skills of the acquisition workforce and recruiting new 
talent so as to negotiate more favorably priced contracts and manage 
contract costs more effectively''.
    In order to meet these objectives, USDA proposes to (1) improve 
training and development for new hires through an acquisition workforce 
intern program; (2) enhance skills and training for current acquisition 
workforce regardless of level; and (3) implement knowledge management 
initiatives to increase contracting efficiencies throughout USDA.
    USDA has at least one acquisition workforce employee in virtually 
every county in the United States. Provision of mandatory training 
requires a substantial amount of logistical and training funds. Many of 
the existing acquisition employees are insufficiently trained due to a 
lack of funding. Effective training will address critical proficiency 
gaps and enhance the quality of contract award/management which often 
translates to cost savings.
    An effective knowledge management program will increase efficiency 
in understanding best practices; more effectively define customers and 
business partners; and ultimately provide the right information to the 
right individual(s) at the right time. An effective knowledge 
management program will reduce the risk of time and money spent 
unsuccessfully obtaining information.
    An intern program at USDA would help develop the acquisition 
workforce, as well as facilitate improvements in attracting and 
retaining talented, proficient employees. An intern program will 
counteract USDA's high retirement rate and increase the percentage of 
agency 1102's with bachelor's degrees. The USDA intern program will 
include several key components as follows:
  --Training will allow USDA to enhance the knowledge of its 
        acquisition workforce to award and administer higher quality 
        and more economical contracts. Soft skills training such as 
        communication, leadership, and interpersonal skills will 
        improve workforce effectiveness.
  --Rotational assignments will support intern development and maximize 
        the fit of the right intern with the right agency.
  --FAC-C certification will validate understanding of specific 
        competencies and expedite workforce ability to obtain warrant 
        levels, and expand the pool of contracting officers with the 
        knowledge and warrant to award procurements.
  --Promotions will provide interns with a structured promotion 
        schedule to maintain morale and productivity and bolster 
        retention, thereby minimizing cost and inefficiencies due to 
        employee attrition.
    Question. Since this is a government-wide initiative, what 
consequences will result if less than the fully requested amount is 
provided?
    Answer. The inability to fully fund the initiative to improve 
USDA's acquisition workforce would have a detrimental impact on USDA's 
acquisition workforce. In recent years unsettling trends gained 
momentum and these trends could continue if insufficient funding is 
provided for training and improvement programs. Consequences would 
involve the widening of the human capital gap with mass retirement of 
an aging workforce and high turnover rate of employees within USDA. 
Acquisition workforce employees frequently transfer from one Federal 
agency to another. Employees may also be lost to private industry, who 
may offer better salaries and benefits. Knowledge gaps will widen 
leading to more costly and less effective contracts.

         GREENBOOK CHARGES AND MISCELLANEOUS AGENCY ASSESSMENTS

    Question. Mr. Secretary, we continue to hear concerns from research 
centers, universities, and other parties who work with USDA on a 
cooperative basis that assessments charged by USDA are harming their 
ability to continue research and other activities as envisioned in the 
original cooperative agreements. For example, certain research centers 
who engage with ARS under specific cooperative agreements are 
discovering that the funding levels described in Congressional acts and 
reports for those locations are reduced far below the customary 10 
percent reduction for net-to-location adjustments. In addition, the 
Governmental Accountability Office (GAO) reported in October, 2009, 
that Greenbook charges have increased from $5,400,000 in 1999 to 
$61,200,000 in 2009, with a peak of $76,000,000 in 2007.
    Can you please provide a listing of USDA programs, projects, or 
activities involving non-Federal cooperators that are reduced through 
assessments not related to the purposes described by the Congress, 
including the amounts (in the aggregate by program) and purposes of 
such assessments?
    Answer. Programs are affected for a variety of reasons. In addition 
to the traditional assessments that pay for services provided by the 
Department, programs can be reduced based on statutory direction as is 
the case with the Small Business Innovation Research Program and the 
Biotechnology Risk Assessment Programs. In addition, there are 
statutory authorities that make assessments permissive such as the case 
with NIFA programs where statutory authority allows up to 4 percent of 
program funding to be assessed to pay agency costs for program 
management and oversight. In addition, there could be assessments to 
fund Department-wide costs, such as e-Government charges, or agency 
specific assessments to support program management and oversight.
    The following table provides a summary of agency programs involving 
non-Federal cooperators that are reduced for these types of program 
costs.
    The information is submitted for the record.
    [The information follows:]

 LIST OF PROGRAMS, PROJECTS OR ACTIVITIES INVOLVING NON-FEDERAL COOPERATORS THAT ARE REDUCED THROUGH ASSESSMENTS
                                                FISCAL YEAR 2009
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                       Total
                         Agency/program                            2009 enacted     Assessments      available
----------------------------------------------------------------------------------------------------------------
Agricultural Research Service: \1\
    Salaries and Expenses.......................................          $3,323            $332          $2,991
Animal and Plant Health Inspection Service:
    Salaries and Expenses.......................................           4,963             852           4,111
Food Safety and Inspection Service: \2\
    Salaries and Expenses.......................................          59,170           1,773          57,397
National Institute of Food and Agriculture: \3\
    Research and Education Activities...........................         691,524          54,919         636,605
    Extension Activities........................................         474,250          20,786         453,464
    Integrated Activities.......................................          56,864           2,842          54,022
Natural Resources Conservation Service: \4\
    Conservation Operations.....................................          11,693           1,437          10,256
    Watershed Operations........................................           5,276             465           4,811
----------------------------------------------------------------------------------------------------------------
\1\ ARS has a long-standing policy of applying a 10 percent indirect cost assessment on increases in
  appropriated program funds to finance administrative and program management costs associated with conducting
  nationwide research programs. This policy is documented in REE Policies & Procedures 329.5 entitled,
  Assessment of Indirect Program Support Costs and Indirect Research Costs.
\2\ Agency met States for Cooperative Agreements up to 50 percent of State Meat and Poultry Inspection costs as
  authorized by the Federal Meat and Poultry Act, as amended (21 U.S.C. 601 et seq.), specifically section 301
  of the FMIA (21 U.S.C. 661) and the Poultry Products Inspection Act, as amended (21 U.S.C. 451 et seq.),
  specifically section 5 of the PPIA (21 U.S.C. 454) Agency redirected funding for FERN Cooperative Agreements
  to mission critical needs, including salary and benefits, frontline travel and Cooperative Agreements with
  State MPI programs.
\3\ Set-aside for Agency administration costs. Unless otherwise stipulated in law, most NIFA programs are
  assessed up to 4 percent to pay agency administrative costs. This includes costs for the grants review and
  approval process, documentation and management, funds disbursements, and post-award grants monitoring,
  including site visits and final close-out activities. Section 1469 of the National Research, Teaching and
  Policy Act of 1977, as amended, provides specific statutory authority to pay for administrative costs set-
  aside for the Current Research Information System (CRIS). Funds are set aside from the Hatch Act and Evans-
  Allen formula programs for partial support of CRIS. The amount set aside is based on the approved multi-State
  Hatch project that supports operational costs each year set-aside for Peer Panel Costs. NIFA has statutory
  authority for setting aside funds for the costs associated with convening peer panels for the purpose of
  reviewing and evaluating proposals submitted to competitively awarded programs. Section 1469 of the National
  Research, Teaching and Policy Act of 1977, as amended, provides this authority.
\4\ Adjustments include about $2 million for Technical Assistance costs. The program authorizations for carrying
  out these programs are under: Soil Conservation and Domestic Allotment Act of 1935, Public Law 74-46 (16
  U.S.C. 590a-590f) and the Soil and Water Resources Conservation Act of 1977 and Watershed Protection and Flood
  Prevention Act (16 U.S.C. 1001-1005 and 1007-1009).

    Question. If agencies which are funded through a general salaries 
and expenses appropriation require funds to be set aside for various 
administrative purposes, why does the budget not specifically identify 
those items and provide for them by a specific appropriations amount, 
thereby making assessments against actual research or other activities 
unnecessary?
    Answer. As you know, some agencies in the Department have separate 
program, and salaries and expenses appropriations, while others have 
one appropriation. Having separate appropriations for program 
activities and salaries and expenses is one approach that has merit. 
However, due to certain statutory requirements, some assessments 
against programs, projects or activities may occur even within agencies 
that have a separate salaries and expenses account. These statutory 
set-asides include a requirement to set aside 2.5 percent of extramural 
research and development funds to be used for the Small Business 
Innovation Research Program (Small Business Research and Development 
Enhancement Act of 1992, Public Law 102-564, as amended). In addition, 
all biotechnology research projects are required to set aside 2.0 
percent of funds to support the Biotechnology Risk Assessment program 
(section 1668 of the Food, Agriculture, Conservation, and Trade Act of 
1990, Public Law 101-624, as amended).
    Question. Please describe any adverse consequences that would 
result from a prohibition against further agency assessments and, 
instead, provide a specific appropriation to cover the items for which 
those charges are currently being assessed.
    Answer. It is difficult to assess the impacts of your proposal 
without the specifics of what the prohibition would entail. However, in 
general eliminating the ability to charge assessments would limit 
agencies' flexibility to respond to unforeseen events or other changes 
that occur during the fiscal year. In addition, it would be difficult 
to accurately identify needed administrative costs a year and a half in 
advance. Finally, historically salaries and expenses accounts have not 
kept pace with needed program delivery costs, leading to the 
possibility that the appropriate management and oversight of program 
delivery would be at risk.

              FARM SERVICE AGENCY (FSA) AUTOMATED SYSTEMS

    Question. Mr. Secretary, the precarious status of FSA's automated 
systems has been evident for several years. In the face of systems 
outages, the Agency has had to take the unprecedented step of rationing 
access by FSA employees. These automated systems support commodity 
programs, credit and farm loans, farm operations, conservation, and 
agriculture disaster relief, and systems instability is untenable.
    In fiscal year 2010, this Committee provided funding to begin a 
multi-year information technology stabilization and modernization 
initiative. This budget requests continuation of that initiative, 
seeking $38,300,000 for the continued implementation of the MIDAS 
system, $20,000,000 for conversion of FSA software from obsolete legacy 
systems, and $36,000,000 to replace outdated hardware components in 
local offices.
    Mr. Secretary, what progress has been made toward stabilizing and 
modernizing FSA's automated systems?
    Answer. As of the end of fiscal year 2010, FSA will have completed 
the Stabilization activities that secure Web-based platform systems and 
adapted ``best practices'' and technology to the current environment to 
significantly lower the risk of future stoppages. These Stabilization 
activities enable FSA to improve the existing network by acquiring and 
using monitoring and management tools, methodologies and processes that 
promote optimal and efficient system performance. The result is a 
significant step towards achieving success in all future modernization 
efforts. Additional progress has also been made in the Modernize and 
Innovate the Delivery of Agricultural Systems (MIDAS) initiative. For 
example, FSA used ARRA funding to release the major acquisition 
solicitation that was essential to start system implementation work, 
continue program management and governance support, and continue 
business process streamlining activities that leverage industry ``best 
practices'' to reduce process errors and ongoing costs.
    The fiscal year 2011 budget proposal includes the necessary 
resources to move ahead on schedule with IT modernization for FSA. It 
will support the continuation of the MIDAS project as planned along 
with necessary conversion of software for supporting activities to 
facilitate transition of FSA IT from the obsolete legacy system. In 
addition, the budget provides for a needed refreshment and upgrade of 
the Common Computing Environment to support the continued modernization 
process for FSA and the other service center agencies.
    Question. Is this budget request sufficient to ensure against 
catastrophic system collapse, and to maintain adequate service levels 
through fiscal year 2011?
    Answer. Yes, FSA has a plan in place to continue transforming and 
modernizing its IT environment and program delivery processes for 2011 
and beyond. The 2011 budget requests $95.3 million for FSA IT Systems. 
This includes $38.3 million for the second installment of a multi-year 
request for MIDAS, $20 million for the continued conversion of legacy 
system processes to Web-based applications, $36 million to ``refresh'' 
the hardware on FSA's portion of the Common Computing Environment 
(CCE), and $1 million for IT staffing.
    Question. Will you please provide a detailed schedule and funding 
needs estimate to complete the task?
    Answer. FSA efforts to modernize aging IT systems, when completed, 
will work in concert with all of FSA's modernization initiatives to 
successfully operate and maintain daily our IT infrastructure while 
ensuring the viability of our payment processes moving forward. FSA 
will use the Web to provide information which employees need to deliver 
farm programs and provide a modernized, Web-based public face to their 
customers in support of open government.
    The Stabilization initiative began in fiscal year 2007. As of the 
end of fiscal year 2010, FSA will have completed the Stabilization 
activities that secure Web-based platform systems and adapted ``best 
practices'' and technology to the current environment to significantly 
lower the risk of future stoppages. These Stabilization activities 
enable FSA to improve the existing network by acquiring and using 
monitoring and management tools, methodologies and processes that 
promote optimal and efficient system performance.
    For Stabilization, no additional cost above our base requirements 
is needed. The original fiscal year 2007 Stabilization Project estimate 
did not include requirements for operational costs in fiscal year 2010 
through fiscal year 2012. In our fiscal year 2010 budget request, FSA 
included requirements and received funding for operational costs in 
fiscal year 2010. These operational costs for Stabilization are 
considered base requirements and are included in our fiscal year 2011 
President's budget totaling $20.4 million.
    The cost breakout and task schedule for Stabilization are provided 
in the tables below.

                                 STABILIZATION PROJECT AND OPERATIONAL EXPENSES
----------------------------------------------------------------------------------------------------------------
                                 Actual        Actual        Actual        Actual
       Funding source          fiscal year   fiscal year   fiscal year   fiscal year   Fiscal year   Fiscal year
                                  2006          2007          2008          2009          2010          2011
----------------------------------------------------------------------------------------------------------------
S&E Base....................  ............  ............  ............  \1\ $5,189,2   \2\ $27,232   $20,400,000
                                                                                  10
S&E Increase................  ............  ............  ............  ............    20,400,000  ............
Base Carryover..............  ............  ............  ............  ............  ............  ............
Common Computing Environment  ............   $24,585,000  ............  ............  ............  ............
 (CCE)......................
Emergency Supplemental......  ............  ............   $37,500,000  ............  ............  ............
Recovery Act (ARRA).........  ............  ............  ............     9,126,345    21,873,655  ............
                             -----------------------------------------------------------------------------------
      Total.................  ............    24,585,000    37,500,000    14,315,555    42,300,887    20,400,000
----------------------------------------------------------------------------------------------------------------
Note: Stabilization Operational Expenses for fiscal year 2011 and beyond will be covered from within the S&E
  base.
Total Stabilization Project Costs (fiscal years 2007-2010): $118,701,442.
\1\ The $5,189,210 in the S&E base for Stabilization was provided for fiscal year 2009 only to expedite
  contracting until ARRA funds were available. The only funds designated for Stabilization in fiscal year 2009
  were ARRA funds.
\2\ In fiscal year 2010, FSA made a conscious decision to use $5,161,978 from the fiscal year 2009 S&E base to
  cover other critical infrastructure operational needs, which left $27,232 in the base for Stabilization
  expenses.


                                          STABILIZATION TASK SCHEDULE FISCAL YEAR 2007 THROUGH FISCAL YEAR 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
         Initiative/Task           Fiscal year 2007    Fiscal year 2008    Fiscal year 2009    Fiscal year 2010    Fiscal year 2011    Fiscal year 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
Stabilization Investment Tasks:
    eAUTH Performance             Start.............  End...............  ..................  ..................  ..................  ..................
     Enhancements.
    Site B Disaster Recovery      Start.............  End...............  ..................  ..................  ..................  ..................
     Management Study.
    Data Base Performance         ..................  Start & End.......  ..................  ..................  ..................  ..................
     training.
    ITS Independent Verification  Start.............  End...............  ..................  ..................  ..................  ..................
     and Validation (IV&V)
     Management Study.
    Application Performance       Start.............  ..................  End...............  ..................  ..................  ..................
     Monitoring.
    Network Server Management...  Start.............  End...............  ..................  ..................  ..................  ..................
    Certification &               Start.............  End...............  ..................  ..................  ..................  ..................
     Accreditation Management.
    Technical Performance         Start.............  End...............  ..................  ..................  ..................  ..................
     Training.
    IV&V Gartner Management       ..................  Start & End.......  ..................  ..................  ..................  ..................
     Study.
    Project Closeout and          ..................  ..................  Start & End.......  ..................  ..................  ..................
     Migration Management.
    Security Performance          ..................  Start & End.......  ..................  ..................  ..................  ..................
     Training.
    Security Operations           ..................  Start.............  End...............  ..................  ..................  ..................
     Monitoring Enhancements.
    Application Build and Test    ..................  Start.............  End...............  ..................  ..................  ..................
     Performance Management.
    Application Availability and  Start.............  End...............  Migrated To         Migrated To         Migrated To         Migrated To
     Performance Lab.                                                      Operations.         Operations.         Operations.         Operations
    Application Performance       Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Testing.                                                                                  Operations.         Operations.         Operations
    Data Base Management........  Start.............  End...............  Migrated To         Migrated To         Migrated To         Migrated To
                                                                           Operations.         Operations.         Operations.         Operations
    Application Process Flow      Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Management.                                                                               Operations.         Operations.         Operations
    Application Middleware        ..................  Start.............  End...............  Migrated To         Migrated To         Migrated To
     Performance Upgrade.                                                                      Operations.         Operations.         Operations
    Enterprise Data Management..  ..................  Start.............  End...............  Migrated To         Migrated To         Migrated To
                                                                                               Operations.         Operations.         Operations
    Enterprise Reporting          ..................  Start.............  ..................  End...............  Migrated To         Migrated To
     Performance Capability.                                                                                       Operations.         Operations
    Application Process Flow      ..................  Start.............  End...............  Migrated To         Migrated To         Migrated To
     Management Reposi-  tory.                                                                 Operations.         Operations.         Operations
    IT Infrastructure             Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Architecture Management.                                                                  Operations.         Operations.         Operations
    End to End User Performance   Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Monitor.                                                                                  Operations.         Operations.         Operations
    Hosting and Network           Start.............  End...............  Migrated To         Migrated To         Migrated To         Migrated To
     Management.                                                           Operations.         Operations.         Operations.         Operations
    Hardware/Software & Telecom   Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Performance Enhancements.                                                                 Operations.         Operations.         Operations
    System Center & Service       Start.............  ..................  End...............  Migrated To         Migrated To         Migrated To
     Oriented Monitoring.                                                                      Operations.         Operations.         Operations
    Problem Detection             ..................  Start.............  End...............  Migrated To         Migrated To         Migrated To
     Performance Monitoring.                                                                   Operations.         Operations.         Operations
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The Modernize and Innovate the Delivery of Agricultural Systems 
(MIDAS) program is designed to transform the FSA delivery of farm 
program benefits, on behalf of the Commodity Credit Corporation (CCC), 
into a 21st century business model. MIDAS will streamline FSA business 
processes and develop a modernized long-term IT system and architecture 
to meet the needs of our customers, USDA, and other stakeholders.
    The total implementation cost for MIDAS is estimated to be $304.7 
million. In fiscal year 2006, fiscal year 2007 and fiscal year 2008, 
FSA utilized $2,716,000 of Salary and Expense funds for pre-planning 
and project office set up. These pre-planning costs were not part of 
the $304.7 million estimate.
    This amount has not changed and is consistent with previous reports 
submitted to Congress. MIDAS is currently on track. With enactment of 
the current fiscal year 2011 request, a total of $159.9 million will 
have been provided for this project to date (see table below). 
Therefore $144.8 million is needed to fund the remaining costs of 
MIDAS.
    See the cost table below for MIDAS funding.

                                                      MIDAS
----------------------------------------------------------------------------------------------------------------
                                       Actual       Actual       Actual       Actual
          Funding source            fiscal year  fiscal year  fiscal year  fiscal year  Fiscal year  Fiscal year
                                        2006         2007         2008         2009         2010         2011
----------------------------------------------------------------------------------------------------------------
S&E Base..........................      $40,000      $40,000     $676,000   $1,000,000   $2,600,000  $49,500,000
S&E Increase......................  ...........      636,000    1,324,000  ...........   46,900,000   39,300,000
Base Carryover....................  ...........  ...........  ...........  ...........    1,600,000  ...........
Recovery Act (ARRA)...............  ...........  ...........  ...........    5,600,000   13,400,000  ...........
                                   -----------------------------------------------------------------------------
      Total.......................       40,000      676,000    2,000,000    6,600,000   64,500,000   88,800,000
                                   -----------------------------------------------------------------------------
      Total MIDAS Project Costs...                                   304,700,000
----------------------------------------------------------------------------------------------------------------

    The table below identifies MIDAS's schedule until fiscal year 2014.

                                                                                              MIDAS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
        Initiative/Task         Fiscal year 2006  Fiscal year 2007  Fiscal year 2008  Fiscal year 2009  Fiscal year 2010  Fiscal year 2011  Fiscal year 2012  Fiscal year 2013  Fiscal year 2014
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
MIDAS INVESTMENT TASKS:
    Pre-planning and project    Start...........  ................  End.............  ................  ................  ................  ................  ................  ................
     office set up.
    Acquisition and Planning--  ................  ................  ................  Start & End.....  ................  ................  ................  ................  ................
     Software and SI
     acquisition.
    Task Order 1--Planning....  ................  ................  ................  ................  Start & End.....  ................  ................  ................  ................
    Task Order 2--Proof of      ................  ................  ................  ................  Start...........  End.............  ................  ................  ................
     Concept and System Design
     Complete.
    Task Order 3--Initial       ................  ................  ................  ................  ................  Start...........  ................  End.............  ................
     Deployment.
    Task Order 4--Full          ................  ................  ................  ................  ................  ................  Start...........  ................  End
     Deployment.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Stabilization and MIDAS are just pieces of a larger FSA 
Modernization picture. Stabilization served as a necessary first piece 
to transform the IT environment to support the various initiatives of 
FSA's modernization plan. MIDAS is a significant piece that modernizes 
FSA's Farm programs; however, it is intertwined with several other 
modernization efforts. Currently, FSA is identifying funding needs and 
developing funding estimates for fiscal year 2012 to continue the 
journey to fulfill FSA Modernization. These efforts include
  --Enterprise wide modernization either by assuming a lead role or 
        partnering with USDA/agencies across the Federal Government 
        including Budget and Performance Management Systems (BPMS), Web 
        Based Supply Chain Management (WEBSCM) and Financial Management 
        Modernization Initiative (FMMI); and,
  --Acquisition and management of geo-spatial data and imagery in a way 
        that maximizes efficient collection and manipulation of 
        information while enhancing agricultural benefits 
        administration and program monitoring. FSA intends to enhance 
        such program capabilities as assembly, storage, transfer, 
        manipulation, and display of geo-spatial data.
  --Full modernization of all FSA program delivery including Farm 
        Loans, and also Commodity Operations, not just Farm Programs.
    All these efforts are required to move FSA's IT environment from 
one reliant on old/unsupported technology, isolated business processes 
using paper and manual operations, and limited online service and 
functionality to an open and portable 21st century environment that 
provides IT services, support, delivery and operations for the delivery 
of essential farm business management information and program benefits 
to farmers and ranchers. FSA will also transform the IT environment and 
infrastructure to deliver quick response solutions, such as farm bill 
requirements, when asked.

     SECTION 719 OF THE PROPOSED 2011 ACT/FARM BILL IMPLEMENTATION

    Question. Section 719 would permit the use of CCC funds provided in 
the 2008 farm bill for various program benefits to also be used for 
salaries and related expenses to carry out those programs. Please 
provide information on a program by program basis indicating the 
amounts of funding that would be transferred for this purpose.
    Answer. The Recovery Act provides authority for USDA to use funds 
provided for certain farm bill programs for administrative expenses 
associated with implementing the programs. This authority expires at 
the end of September 2010. The 2011 budget requests similar authority 
to allow USDA to continue implementing these farm bill programs. The 
information provided below reflects the amounts apportioned for program 
implementation in fiscal year 2010. Actual obligations may be less.
    [The information follows:]

ADMINISTRATIVE EXPENSES TAKEN FROM PROGRAM LEVELS AUTHORIZED IN THE 2008
                                FARM BILL
------------------------------------------------------------------------
                                                          Administrative
                         Program                              expense
                                                             estimates
------------------------------------------------------------------------
Market Access Program...................................      $4,980,000
Foreign Market Development Cooperator Program...........       1,530,000
Technical Assistance for Specialty Crops Program........       1,000,000
Emerging Markets Program................................       1,350,000
Quality Samples Program.................................         330,000
Local and Regional Purchase Pilot Program...............       1,550,000
Food for Progress.......................................       3,300,000
Marketing Loss Assistance Asparagus.....................          96,000
Voluntary Public Access Program.........................         175,000
Farmers Market Protection Program.......................         682,000
Specialty Crop Block Grants.............................         637,000
Plant Pest and Disease Management.......................      10,000,000
National Clean Plant Network............................         485,000
                                                         ---------------
      SUBTOTAL..........................................      26,115,000
                                                         ===============
Additional CCC Spending\1\:
    Feedstock Flexibility...............................          50,000
    Biomass Crop Assistance Program.....................       3,000,000
                                                         ---------------
      SUBTOTAL..........................................       3,050,000
                                                         ===============
      TOTAL.............................................      29,165,000
                                                         ===============
Recap by Agency:
    Farm Service Agency.................................       3,321,000
    Foreign Agricultural Service........................      14,040,000
    Agricultural Marketing Service......................       1,319,000
    Animal and Plant Health Inspection Service..........      10,485,000
                                                         ---------------
      TOTAL.............................................      29,165,000
------------------------------------------------------------------------
\1\ Mandatory funding is provided ``as such sums as are necessary''.

                                 ______
                                 
               Questions Submitted by Senator Tom Harkin

               WOMEN, INFANTS AND CHILDREN (WIC) PROGRAM

    Question. WIC is a sound investment, not only because of the 
extraordinary benefits for participants, but also because it is one of 
the most cost-efficient benefit programs. One of the reasons that WIC 
continues to be able to serve all eligible applicants is because 
Congress and the Department of Agriculture have taken seriously the 
responsibility to control the program's costs.
    USDA just released a report that found that WIC is paying $127 
million more annually for infant formula under the contracts that are 
currently in place than under previous contracts, after adjusting for 
inflation. The Economic Research Service at USDA attributed nearly 
three quarters of the increase to increases in the inflation-adjusted 
price of infant formula (the remainder reflect lower rebate bids). The 
report concluded that the increase in infant formula price is largely 
explained by the introduction into formulas of two long-chain 
polyunsaturated fatty acids, which were followed by wholesale price 
increases of some 7 to 30 percent above the prices of what had 
previously been standard formulas.
    Please explain whether the Department agrees with the details of 
the ERS report regarding the principal causes of price increases for 
infant formula in recent years (above the rate of inflation). Is the 
increased cost of infant formula in the WIC program a concern to you, 
and if so, what will be the response of the Department?
    Answer. While I have not personally reviewed the conclusions of the 
ERS report you mention, I am confident that their analysis is rigorous 
and sound.
    The Department is always concerned about costs which impact the WIC 
Program's ability to serve the greatest number of eligible persons 
within the funds made available to it. FNS continually monitors program 
costs, market trends, and developments in an effort to ensure WIC pays 
competitive prices for all eligible foods and infant formula in 
particular. FNS also reviews State agency rebate solicitations to 
ensure the solicitations comply with Federal requirements established 
to maintain an even playing field for formula manufacturers, thereby 
fostering competition.

                         NRCS OIG AUDIT REPORT

    Question. Please detail all actions taken to respond to the Office 
of Inspector General audit report of November 13, 2008. Do you believe 
the actions taken thus far will adequately address the issues raised in 
the OIG report? Why or why not?
    Answer. NRCS has taken numerous actions since the OIG audit report 
was issued in 2008 to improve the condition of financial information. 
While many actions have been completed, they have not yet been 
sufficient in scope to produce a clean audit opinion. Some of the 
actions planned but not yet completed will take more time and require 
more dedicated resources to complete. Information on actions completed 
to date is provided below for the record.
    [The information follows:]
    Training:
  --Ensured all employees who prepare agency financial statements 
        attend mandatory training presented by the U.S. Department of 
        Treasury.
  --Provided 2-day training which included a checklist reference guide 
        to State personnel on evaluating and reviewing the validity of 
        open obligations.
  --Developed and delivered training on the review and proper recording 
        of accruals, the accounting for reimbursable agreements, and 
        the review of cardholder transactions.
  --Ensured all employees completed required OCIO Information 
        Technology Services User Authorization Access Training Program.
    Policy and Procedures:
  --Reviewed, updated and issued interim policy and procedures to 
        ensure balances were valid, delivered orders were accrued in 
        accordance with policy, and obligations were properly recorded 
        on a timely basis.
  --Issued draft policy for reimbursable agreements and unfilled 
        customer orders.
  --Instituted a process effective December 22, 2008, to ensure general 
        ledger account relationship tests over Fund Balance with 
        Treasury are performed on a routine basis.
  --Reviewed and updated current change control policy and procedures 
        related to testing and approving application changes prior to 
        migration to production.
  --Reinforced the need for supervisors to adhere to policy and 
        procedures over reviewing purchase cardholder transactions.
  --Instituted procedures for management review of the monthly 
        statements for fleet card purchases. In addition to monitoring 
        activities, periodically sampled fleet card purchases during 
        OMB Circular A-123 testing cycle to ensure proper use and the 
        reasonability of the amount charged.
  --Reaffirmed guidance regarding the transfer of USDA Officer of the 
        Chief Information Office (OCIO) information technology 
        equipment at the State offices to the OCIO inventory listing 
        and monitored for compliance.
  --Developed and deployed a Web-based tool to assist State and 
        Headquarters personnel in a 100 percent review of open 
        obligations. On-going monitoring is conducted to ensure 
        compliance with policy and procedures. In fiscal year 2009, 
        this activity was performed quarterly. In fiscal year 2010, 
        NRCS plans to perform this activity three times.
    Reviews:
  --Conducted reviews of 20 States in fiscal year 2009 to ensure 
        compliance with the open obligation review.
  --Reviewed and ensured appropriate segregation of duties and 
        established guidelines and procedures for reviewing Co-Lab 
        project roles are performed on a periodic basis (Co-lab is a 
        collaboration system that NRCS uses to support software 
        development and maintenance).
  --Completed a review of the property systems to ensure bulk purchases 
        are properly classified.
    Accountability:
  --Developed a standardized certification statement that all allowance 
        holders are required to certify each quarter.
  --Developed an inventory of all leases. Received and classified all 
        leases prior to signing in order to ensure proper accounting 
        treatment. This inventory is compared to the information in the 
        USDA Corporate Property and Information System to ensure 
        completeness.
  --Instituted a management review process and approval of agency 
        financial statements.
    Security:
  --Modified the security tables in the USDA Foundation Financial 
        Information System (FFIS) to ensure appropriate segregation of 
        duties.
  --Revised the WebTCAS (Agency time reporting system) Risk Assessment 
        to account for all NIST SP 800-30 (Risk Management Guide for 
        Information Technology Systems) control areas and revised the 
        WebTCAS System Security Plan to account for all NIST SP 800-18 
        (Guide for Developing Security Plans for Federal Information 
        Systems) control areas.
    Despite the actions that NRCS has taken thus far, there are still 
challenges we are working to overcome. These include the following:
  --Turnover in key financial management positions.
  --Insufficient documentation of policy and procedures for financial 
        management activities that reflect the large number of 
        accounting standards and requirements promulgated in the past 
        decade.
  --Inadequate numbers of staff with appropriate skill level in 
        financial and administrative organizations at both Headquarters 
        and State organizations. Shortages are most acute in accounting 
        and involve developing policy, procedures and processes in 
        accounting operations at headquarters and State offices, 
        controls over financial reporting through OMB Circular A-123, 
        Appendix A, and support for the annual financial statement 
        audit.
  --Lack or inadequacy of Agency program systems to correctly capture 
        financial information without labor-intensive work-arounds.
    NRCS has recently taken steps with regard to each of these barriers 
as follows:
  --Recruited for a new CFO; selection process is underway.
  --The Accounting Officer position was recently vacated and will be 
        advertised soon.
  --The Agency is currently recruiting qualified individuals for 
        lateral reassignment to perform high-risk functions described 
        in the audit report.
  --NRCS leadership has procured the support of a firm to evaluate and 
        recommend an appropriate organization for financial and 
        administrative functions.
  --Training has been developed and delivered to employees with 
        responsibilities in financial and administrative functions.
  --The Agency is investing in a strategic initiative to streamline the 
        program, administrative and financial components of the 
        financial assistance programs (including mandatory funds). This 
        initiative will streamline and automate business processes 
        using role-based technology to most efficiently capture 
        financial transactions with the necessary internal controls.
  --The Agency is considering the centralization of certain 
        administrative/financial functions to ensure standardization, 
        accuracy and completeness of financial reporting.
  --The Agency has procured support for audit remediation support that 
        will begin in April 2010. The audit remediation contract will 
        focus on the weakness/risk that were initiatives in the audit. 
        The contractor will work with States on an individual basis to 
        focus the efforts under this contract including the hands-on 
        training of personnel and clean-up of the Agency's financial 
        records with regard to all the weaknesses and deficiencies 
        noted in the audit report.
    Question. If you believe the Department is not now capable of 
carrying out the conservation programs at the mandatory funding levels 
provided in the Food, Conservation and Energy Act of 2008, what further 
changes in management will be necessary for the Department to take to 
properly carry the programs out as required by law, and by what date 
would you expect to have made all necessary management changes?
    Answer. NRCS is currently working diligently to address management 
and financial concerns raised by its most recent stand-alone audit.
    The Agency has experienced expanded programmatic and administrative 
responsibilities with expanded and new programs in the recent farm 
bills. However, the workforce needed to effectively carry out the 
expanded responsibilities has not increased at a comparable level.
    To improve the efficiency and business management of the Agency, 
the following actions are taking place:
  --Implementing a conservation streamlining process that includes more 
        effective and efficient automated processes for managing 
        financial assistance programs. NRCS estimates this initiative 
        will reduce the administrative and clerical burdens on field 
        staff by over 80 percent once fully implemented. The 2011 
        budget includes a $5 million in to accelerate this process;
  --Improving internal controls in program databases;
  --Updating program policies to reflect current statues and 
        regulations;
  --Developing a managerial cost account methodology that clearly 
        defines and aligns the Agency's funding with performance; and
  --Conducting a workforce planning assessment to identify staffing 
        needs (i.e. positions and locations) and to better allocate 
        human resources.
    In addition to the actions listed above the 2011 budget includes 
the following initiatives for the Agency:
  --$25 million for the implementation of Strategic Watershed Action 
        Teams (SWATs) that will be deployed to high-priority watersheds 
        and landscapes to focus program assistance to more effectively 
        address resources concerns. The development and deployment of 
        SWATs will greatly improve the environmental cost effectiveness 
        of the Agency's programs. By significant planning, education, 
        and program implementation assistance, the technical assistance 
        teams will enhance the Agency's capability to strategically 
        invest in conservation and better target the Agency's financial 
        and technical assistance programs.
  --$35 million for the agency's share of the modernization and upgrade 
        to the Common Computer Environment (CCE) for the Service Center 
        Agencies (NRCS, Farm Services Agency (FSA) and Rural 
        Development (RD). The funding will be used to replace outdated 
        components of the CCE (reducing system vulnerabilities and 
        improving performance and effectiveness of the infrastructure 
        and allow for the first system-wide refresh since the system 
        was implemented in 2000).
    It is anticipated that it will take 3 to 5 years to complete these 
actions.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

                               MANDAN ARS

    Question. Secretary Vilsack, I was disappointed that the 
President's fiscal year 2011 budget proposed a $543,000 cut in 
biofeedstock research at the Northern Great Plains Research Laboratory 
in Mandan, North Dakota. Bioenergy feedstock research is a priority for 
your Department and for the Congress. In fiscal year 2010 for example, 
Congress redirected money to this area and in your fiscal year 2011 
budget, you requested a $10 million increase for biofuels feedstock 
research. Can you explain why you cut the bioenergy feedstock funding 
at the Mandan ARS when it matches USDA's high priority research 
mission?
    Answer. The ARS fiscal year 2011 budget proposed to terminate all 
congressionally earmarked projects appropriated in fiscal year 2010, 
including the $543,000 earmarked for the Northern Great Plains Research 
Laboratory in Mandan, North Dakota. The proposed elimination of ARS 
earmarks and the redirection of these funds will offset the cost for 
new and expanded research initiatives, including the establishment of 
five Regional Biofuels Feedstocks Research and Development Centers.

                              SMITH-LEVER

    Question. Congress established the Cooperative Extension Service 
through the Smith-Lever Act of 1914. North Dakota has extension offices 
in 52 counties and on Fort Berthold Indian Reservation. Smith Lever 
funding is critical to our State in providing educational assistance 
and technical support to North Dakota rural communities. These funds 
are necessary in order to serve long term, short term and emergency 
needs in rural America. What steps are being taken by USDA to increase 
Smith Lever funding?
    Answer. The fiscal year 2011 President's budget request sustains 
support for the Smith-Lever 3(b) and (c) formula at the fiscal year 
2010 appropriated level. However, increased funding for AFRI will 
substantially support extension activities through growth in both 
extension focused awards and integrated research and education awards. 
The budget also seeks a funding increase for the Sustainable 
Agriculture Research and Education program, which is a critical element 
of extension delivery at the regional, State, and local levels. In 
addition, the 2008 farm bill provides funding for the Beginning Farmers 
and Ranchers Program, Organic Agriculture Research and Extension 
Initiative, and Specialty Crop Research Initiative which will support 
extension activities.

        TRIBAL COLLEGE AND UNIVERSITY COMMUNITY FACILITY PROGRAM

    Question. Congress established the Tribal Colleges and Universities 
Essential Community Facilities Program to help our Nation's tribal 
colleges and universities (TCU) address long overdue and high-priority 
infrastructure and facilities needs. The USDA's fiscal year 2011 budget 
proposes to eliminate entirely this vitally needed program for American 
Indians. Can you explain your reasoning for eliminating this program? I 
understand that USDA offers some competitive programs that could also 
offer a potential source of funding for TCUs. If the Department sees 
this as a viable alternative for these institutions, please provide an 
analysis of the success that TCU's have had in competing for general 
USDA programs and for land-grant programs.
    Answer. The reason the program is proposed for elimination in the 
2011 budget is that the tribal colleges and universities can compete 
for community facility funding without a specific set-aside. From 2001 
through 2009, TCUs received about $38 million in grants under the set-
aside, compared to about $229 million in grants, direct loans and loan 
guarantees that all tribal entities received under the community 
facility program, which shows that the TCU set-aside is only a modest 
portion of the assistance USDA is providing to meet the needs of 
American Indians. Further, tribes are eligible for several other USDA 
Rural Development programs, such as the business and industry 
guaranteed loan program and the rural business enterprise grant 
program.

            RURAL UTILITIES SERVICE LOAN AND GRANT PROGRAMS

    Question. What is the Rural Utilities Service doing to ensure that 
the Broadband Initiatives Program promotes broadband deployment in 
unserved or underserved areas?
    Answer. With over 60 years of successful telecommunication 
financing experience, RUS will continue to strive to ensure that it 
provides loan and/or grant resources to eligible projects. Under our 
Broadband Initiatives Program (BIP), RUS has established an objective 
scoring process which incents applicants to bring the most robust 
service to the most rural and unserved areas. In fact, RUS gives 
priority to unserved and highly rural areas. RUS will rely heavily upon 
the information submitted by the applicant to prove the need for 
broadband service. To further validate this information, RUS will post 
all proposed service territory maps on broadbandusa.gov and allow 
incumbent providers to comment on whether these areas are unserved or 
underserved through Public Notice Responses (PNRs) received during a 
30-day comment period. RUS will rely upon these comments, along State 
broadband maps (where available), and both RUS and Rural Development 
Field Staff to validate the information when necessary.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                              FOOD SAFETY

    Question. I have been encouraged to see this administration's 
commitment to improving the safety of our food supply, and I commend 
you and Secretary Sebelius for forming the Food Safety Working Group. I 
know that you share my belief that there is much room for improvement 
in this area, and I would encourage you to examine these important 
issues with a very critical eye.
    Specifically, I am concerned about the chemical intensive 
production practices that are used to clean and prepare our meat, and I 
am concerned about the persistent presence of pathogens even after 
these chemical and antimicrobial processes have been applied.
    According to FSIS Directive 7120.1, industrial strength chemicals 
such as chlorine and ammonia, as well as carbon monoxide, and other 
complex chemical compounds can be used in the production and processing 
of meat products. What is even more shocking is that there is no 
requirement to label most of the additives on this list.
    Why doesn't the USDA require that all processes and processing 
agents be labeled on the packaging of meat products so that consumers 
will know exactly what they are consuming? Have you conducted any 
research that concludes that consumers do not want to know that these 
processing aids have been used on their meat products?
    Answer. Under a Memorandum of Understanding between the agencies, 
the U.S. Department of Health and Human Services' Food and Drug 
Administration (FDA) is responsible for determining whether or not 
substances are safe for use in meat and poultry products, and USDA's 
Food Safety and Inspection Service (FSIS) is responsible for 
determining the suitability of their intended use.
    FSIS strives to have consistent labeling policies with FDA. For 
example, FDA does not require processing aids to be declared on the 
label. Processing aids are ingredients that are present in a meat or 
poultry product in an insignificant amount and that have no functional 
or technical effects in the finished meat or poultry product.
    We have not conducted consumer research on processing aids. We do 
continually review our labeling policies and strive to ensure that 
consumers are not misled by information either on or missing from food 
packages.
    Question. Have you started any reviews, or taken any other steps to 
begin reevaluating the safety of all products that are currently listed 
as Generally Recognized As Safe (GRAS) using modern scientific 
standards?
    Answer. To conduct a review of GRAS substances would be very 
expensive, and we are not aware of any evidence that unsafe ingredients 
have been allowed for use in food by FDA or FSIS. The FDA is 
responsible for determining whether or not substances are safe for use 
in meat and poultry products, and issues GRAS notices regarding these 
substances. GRAS determinations are based on scientific data showing 
that, under the proposed conditions of use by industry, the substance 
is safe. Based on these findings, FSIS determines whether the proposed 
conditions of use by industry are suitable.
    Question. While the Food Safety Inspection Service is testing meat 
products for the presence of the deadly E. coli O157:h7, what other 
pathogens are inspectors looking for? Why are the tolerance levels for 
these other pathogens, such as Salmonella which also has the potential 
to cause debilitating illnesses significantly higher than the tolerance 
levels for E. coli O157? When is the agency going to develop pathogen 
reduction activities and set performance goals for non-O157:H7 Shiga 
toxin producing escherichia coli (STEC)?
    Answer. The Department is continuing its intensive efforts targeted 
at reducing the incidence of foodborne illness and the prevalence of 
foodborne pathogens in the meat, poultry and processed egg supply. 
Inspection program personnel sample for a variety of foodborne 
pathogens, including Salmonella, E. coli O157:H7, Listeria 
monocytogenes, and they will soon sample for Campylobacter.
    Reducing the prevalence of Salmonella is a priority of the 
President's Food Safety Working Group (FSWG) as part of its first core 
principle of preventing harm to consumers. As part of the FSWG 
recommendations, we are in the process of finalizing revised 
performance standards for use in reducing the prevalence of Salmonella 
in turkeys and young chickens. Our goal, as part of FSWG, is that 90 
percent of all poultry establishments meet the new standards by the end 
of 2010. Performance standards assess the plant's process control by 
testing for the presence of the pathogen in product. By revising 
current performance standards, we will have a means to measure whether 
food safety improvements are occurring in the products it regulates.
    Currently FSIS is collaborating with USDA's Agricultural Research 
Service to develop a laboratory test for non-O157 Shiga toxin-producing 
E. coli (STEC).

                                 CITRUS

    Question. I remain very concerned about the citrus industry in 
California. The Asian Citrus Psyllid has now been found in five 
counties and the pest is quickly approaching the major citrus producing 
regions of my State. Although no cases of citrus greening have yet been 
reported, producers believe that unless a resistant citrus strain is 
identified or dramatic action is taken to stop the spread of the 
psyllid that it is only a matter of time before this catastrophic 
disease infects our citrus trees.
    In your effort to stop the spread of the Asian Citrus Psyllid, how 
are you engaging the Mexican government, and what efforts are you 
taking to help prevent or slow the pest's movement north across the 
border? Have you engaged the Government of Belize in similar efforts? 
To what extent do you believe these efforts will help citrus growers in 
California?
    What research is being done to help identify resistant citrus 
varieties and how soon do you expect these varieties to be made 
available for commercial use?
    The Asian Citrus Psyllid infestation has been particularly hard on 
citrus nurseries because of the extended latency period of the 
Huanglongbing disease. What resources are you dedicating to help 
protect the existing citrus nursery stock in California, and have you 
been able to identify any ways to provide an earlier diagnosis of the 
Citrus Greening disease?
    Answer. Protecting agriculture from pest and diseases remains a 
priority for the Department. Like you, we are also very concerned about 
the potential for citrus greening (CG) to spread to additional citrus 
producing States like California. To protect California and other 
States, the Animal and Plant Health Inspection Service (APHIS) is 
conducting survey and regulatory activities for both the Asian citrus 
psyllid (ACP) and CG. In addition, APHIS is working with State and 
industry cooperators to implement control measures aimed at suppressing 
ACP populations and preventing or slowing the spread of CG. APHIS is 
working closely with the Mexican government to delimit and suppress ACP 
populations along the United States-Mexico border. APHIS spent $800,000 
in fiscal year 2009, and is spending $1.7 million in fiscal year 2010, 
to assist the Mexican government with these activities along the 
border.
    While APHIS is not conducting suppression activities in Belize, the 
Agency is coordinating efforts with its government as well. APHIS, 
Mexico, and Belize recently developed a tri-national strategic and 
operational plan to address citrus diseases. This plan established 
harmonized protocols that each country will use for survey, regulatory, 
and control activities and will help enhance coordination of 
protection, response, and recovery from ACP and CG.
    APHIS is coordinating research efforts on ACP and CG with the 
Agricultural Research Service, the National Institute of Food and 
Agriculture, universities, and industry stakeholders. The areas being 
investigated include survey and detection methods, diagnostic tools, 
control tools (biological and chemical), as well as the development of 
citrus varieties resistant to CG. Research and development of resistant 
varieties started more than a year ago, and APHIS, along with its 
stakeholders and partners, recognizes the importance that such 
varieties could play in successfully mitigating the effects of ACP and 
CG on U.S. citrus production. However, we are not able to specify a 
timeframe for when the varieties may be available for commercial use.
    APHIS also recognizes the concerns of the nursery industry about 
the impact the detection of CG in California could have on the State's 
ability to move its products. APHIS' current quarantine restrictions on 
areas with CG prevent any host plants from being moved out of the 
quarantine area. To protect California (and other States), APHIS is 
working to improve strategies for early detection of citrus diseases. 
Current efforts include protocols that intensify sampling for CG as 
soon as ACP is detected in an area. APHIS also is working to prevent or 
slow the spread of ACP from the areas currently affected in California, 
which do not include citrus or nursery stock producing areas at this 
time.
    Additionally, the California Department of Food and Agriculture is 
conducting ACP suppression efforts. APHIS is spending $14.5 million on 
Citrus Health Response Program activities in California and continues 
to review the current regulatory response to ACP and CG while research 
into new detection and treatment methods continues.

                                ORGANIC

    Question. I have been encouraged to see that the administration is 
committed to improving the organic industry in our country, and the 
inclusion of $10.1 million for the National Organic Program in the 
President's budget was an important step to ensure the integrity of 
USDA's organic label. However, I am concerned that the President's 
fiscal year 2011 budget cuts funding for competitive organic research 
programs by $5 million. With these cuts, funding for organic research 
amounts to only 1.3 percent of the total budget for the National 
Institute of Food and Agriculture.
    This proposed reduction in dedicated organic research funding 
appears to be at odds with the administration's commitment to support 
the growth and development of organic agriculture.
    Can you please explain this decision to reduce the level of organic 
research funding in your fiscal year 2011 proposed budget?
    Answer. In efforts to streamline program delivery, the National 
Institute of Food and Agriculture proposes to eliminate funding of $5 
million for the Organic Transition Program (OTP). In fiscal year 2011, 
$20 million in mandatory funding through the Organic Agriculture 
Research and Extension Initiative is available for research on 
organics. Programs such as the Specialty Crop Research Initiative, 
Agriculture and Food Research Initiative, and Sustainable Agriculture 
Research and Education Programs also support organic activities. These 
competitive programs as well as State and local governments, and 
private sources, could be used to support aspects of OTP deemed to be 
of priority at State and/or local levels.
    Question. I am also concerned that some producers are taking 
advantage of the USDA Organic label, and that the current standards, 
oversight and enforcement options at the National Organic Program are 
not strong enough. What reassurances can you give me that the National 
Organic Program is actively seeking out producers that are cheating the 
system and penalizing them for their actions? With the additional 
funding in the fiscal year 2011 budget, how do you intend to improve 
enforcement of NOP standards in the coming year?
    Answer. The National Organic Program continues to actively work to 
enforce NOP regulations in the United States and internationally. The 
NOP is working closely with accredited certifying agents to verify and 
enforce organic standards. We are conducting market surveillance of 
organic labels and the organic market to ensure proper labeling. NOP 
has begun taking steps to resolve compliance and enforcement cases more 
quickly by increasing staff, establishing standard operating 
procedures, and enhancing use of tracking and monitoring systems. In 
addition, NOP is planning to develop an administrative sanctions policy 
to specify when civil penalties or other sanctions are warranted; 
implement a more efficient system for tracking and resolving 
complaints; strengthen oversight of certifying agents and operations; 
publish a program manual to serve as a guide for certifying agents on 
NOP regulations; and develop a quality manual to comply with 
international accreditation norms.
    Internationally the National Organic Program has conducted 
extensive audits of certifiers and certified operations in Europe 
(United Kingdom, Italy, Spain, Germany, Netherlands, Austria, and 
Switzerland) South and Central America (Bolivia, Brazil, Argentina, 
Chile, Costa Rica, and Peru), Australia, and Canada through the course 
of accreditation audits of certifiers based in those countries. 
Protocols for auditing large international certifying agents now 
include site reviews of certified operations outside of the certifiers' 
home country of operations.
    With the funding increase in fiscal year 2011 the National Organic 
Program will continue to improve compliance with program regulations 
and will enhance the integrity of the organic label. Of the $3.111 
million funding increase requested for fiscal year 2011, $2.11 million 
will provide the resources needed to accelerate the review and 
amendment, as required, of the program standards and regulations to 
reflect industry and consumer expectations through a transparent and 
participatory process; improve the consistency in certifier application 
of the standards, explore statutory authority to strengthen compliance, 
ensure label integrity, and respond to requests for international 
equivalency agreements.

                               PESTICIDES

    Question. Environmental, public health, and farming groups have all 
contacted me to express concerns about the EPA's review of pesticide 
use. I understand that there are concerns about pesticide drift and the 
impact of these pesticides on endangered species. It is my hope that 
you will be engaging with the EPA on this matter to ensure that the 
concerns of all parties can be addressed.
    What is USDA doing to ensure that pesticides can be used by farmers 
in a safe way?
    Answer. The Agricultural Research Service (ARS) conducts research 
on technologies to minimize spray drift by investigation of spray-drift 
management, maximizing field deposition and targeted spraying to 
minimize spray drift. Technologies and application guidelines are 
developed to ensure that the right amount of pesticide is applied to 
the right location at the best time. More precision of application 
ensures reduced losses to the atmosphere and waterways, thus reducing 
economic losses to the farmer, fostering more sustainable production 
and ensuring that the demands of a growing population for food, fiber, 
feed and fuel can be met while improving environmental quality. ARS and 
the Forest Service are actively supporting EPA's efforts to advance 
Drift Reduction Technology.
    In addition to ARS, the National Institute of Food and Agriculture 
(NIFA) engages in promoting the safe application of pesticides through 
numerous activities. After the passage of the Food Quality and 
Protection Act (FQPA) in 1996, a number of Integrated Pest Management 
(IPM) programs were developed by the Cooperative State Research, 
Education and Extension Service (now the National Institute of Food and 
Agriculture or NIFA), with an emphasis on the development and 
implementation of safer alternative pest management practices and 
strategies. These programs include the Regional IPM Centers, the 
Extension IPM Coordination and Support Program, the Pest Management 
Alternatives Program, the Regional IPM Program, the Crops at Risk 
Program, the Risk Avoidance and Mitigation Program, and the Methyl 
Bromide Transitions Program. All of these programs encourage the use of 
IPM strategies, which provide a sustainable approach to managing pests 
by combining biological, cultural, physical, and chemical tools in a 
way that minimizes economic, health, and environmental risks. In 
addition, the Pesticide Safety Education Program, managed jointly by 
the U.S. Environmental Protection Agency (EPA) and NIFA, supports 
educational programs for pesticide applicators in the proper use of 
pest management technologies.
    Because these programs encourage and support the use of IPM and 
best management practices, and the judicious use of more selective and 
carefully timed pesticides, the risks from pesticide drift to natural 
enemies, pollinators, endangered species, wildlife and human health are 
minimized. Projects supported by many of these programs have documented 
significant reductions in pesticide use.
    I will have ARS and NIFA provide additional information for the 
record.
    [The information follows:]
    DepositScan, a portable scanning system that was developed at 
Wooster, Ohio, to enable farmers to optimize equipment settings, 
techniques, and practices; train applicators to accurately apply 
chemicals on targets; and accelerate manufacturers' processes for new 
pesticide formulations and pesticide spraying equipment. The software 
for DepositScan is available to the public without charge, and can be 
downloaded from the Web site: http://ars.usda.gov/mwa/wooster/atru/
depositscan.
    Assessments of methods that can be used to test potential drift 
reduction technologies (DRTs).--In cooperation with the U.S. EPA Office 
of Pesticide Programs, this work at College Station, Texas, included 
testing protocols for ground and aerial DRTs, and assessments of 
various spray nozzles and the droplet sizes produced. This is critical 
in providing the aerial application industry with scientifically sound 
information, protocols, and new technology to assure ongoing compliance 
with evolving regulatory requirements.
    New spray nozzles improve herbicide application efficiency.--New 
spray technologies developed at College Station, Texas, allow herbicide 
applicators to optimize the efficiency of sprays so that effective weed 
control can be achieved with a minimum amount of glyphosate. The work 
clearly showed that rotary atomizer and electrostatic nozzles provide 
superior herbicide efficacy and permit reduced amounts of liquid spray 
applications, thus reducing application costs and environmental 
impacts.
    Optimizing pesticide application rate technology for nursery 
production.--Various adjustments of air-assisted sprayers developed by 
ARS scientists at Wooster, Ohio, resulted in one-half the usage of 
pesticides for pest and disease controls in nursery shade tree plants. 
By using the half-rate technology, growers safeguarded the environment 
due to pesticide applications and reported savings of over $200-$500 
per acre.
    Developing ways to prevent devastating soybean disease.--Small 
droplet applications designed at Wooster, Ohio, to improve coverage can 
effectively treat the target area if air-assistance is used to help 
provide extra energy to penetrate down to the plants' lower leaves, 
where the potentially devastating Asian soybean rust fungus can hide. 
Applicators will know the importance of matching the application 
equipment parameters with the pesticide choice to provide the most 
efficacious applications.
    Increased efficiency and safety through drip applications.--
Researchers at Bushland, Texas, and Parlier, California, have developed 
surface and subsurface drip and microdrip irrigation technologies that 
minimize weeds in cropping systems. Drip irrigation minimizes water 
that would support weed growth, eliminates the need for aerial sprays, 
lessens runoff, reduces worker exposure, and cuts the use of herbicides 
and tillage otherwise needed for weed control.
    Artificial wetlands that capture pesticides.--Researchers at 
Oxford, Mississippi, and Tifton, Georgia, have developed constructed, 
artificial wetland systems to capture agricultural drainage waters and 
reduce nutrient levels and allow time for the dissipation and decay of 
pesticides. This research helps to determine the fate and transport of 
nutrients and pesticides and helps to establish design parameters for 
wetlands. This information is also valuable in predicting how climate, 
soils and management affect the cycling of these contaminants.
    Sensor for smart application of pesticides.--Researchers at 
Lincoln, Nebraska, and Bushland, Texas, have developed active light 
reflectance sensor technologies for use in precision agriculture on 
sprinkler systems. The sensors are designed to detect the health or 
stress of growing crops and when connected to control systems, can 
direct on-the-go variable rate herbicide, fungicide, pesticide or plant 
growth regulator applications; or can map specific crop attributes or 
conditions while crop scouting. Active sensor use for management of 
crop inputs such as pesticides and nutrients can improve efficiency and 
profitability, while enhancing environmental quality.
    Contributions to interagency technical and financial assistance to 
growers and U.S. EPA.--ARS' Office of Pest Management Policy works with 
the four regional Integrated Pest Management Centers (funded by the 
USDA National Institute of Food and Agriculture) and grower 
representatives to provide information to EPA on how pesticides are 
used and to help determine how they can be used safely for workers and 
the environment. The Pest Management Centers' Crop Profiles and Pest 
Management Strategic Plans, produced in cooperation with the EPA, 
support pesticide Registration Review efforts and identify pesticide 
alternatives. The Natural Resources Conservation Service provides 
information on the use of conservation practice standards and 
Integrated Pest Management (IPM) techniques in the local Field Office 
Technical Guide (FOTG). The Window Pesticide Screening Tool (WIN-PST) 
is used to assist with site specific management of pesticide use at the 
farmer level. Financial assistance is provided by the Environmental 
Incentive Program (EQIP) and Conservation Security Program (CSP) which 
encourages farmers to use conservation practices and IPM techniques 
that reduce the risk of degrading natural resources and follow label 
instructions. The Animal and Plant Health Inspection Service (APHIS) 
implements procedures to ensure that staff applying pesticides have 
taken appropriate training and certification classes specific to their 
State requirements and any special pesticide requirements.
    NIFA and other USDA agencies are currently involved in discussions 
with EPA concerning their review of pesticide use and the forthcoming 
draft National Pollution Discharge Elimination System Program (NPDES) 
general permit. EPA has encouraged Federal agency comment on the draft 
permit. We are encouraged that the use of IPM strategies is anticipated 
to be among the requirements for obtaining an NPDES general permit.
    The Regional IPM Centers promote the development and implementation 
of IPM strategies by facilitating collaboration across States, 
disciplines, and purposes. They serve as focal points for regional pest 
management information networks, collaborative team building, and 
broad-based stakeholder participation. The end result is increased 
coordination of IPM research, education and extension efforts and 
enhanced responsiveness to critical pest management challenges. The 
four Regional IPM Centers serve the needs of the north central, 
northeastern, southern and western regions of the United States.
    The Extension IPM Coordination and Support Program supports 
regional, State, and local efforts in advancing the goals of the 
National Roadmap for IPM by addressing priority needs associated with 
the coordination, design, development, implementation, and evaluation 
of Extension IPM programs. The program helps agricultural producers and 
other pest managers adopt alternative pest management practices through 
training, demonstration, and evaluation of methods and strategies.
    The Pesticide Safety Education Program, managed jointly by EPA and 
NIFA, supports educational programs for pesticide applicators in the 
proper use of pest management technologies. Extension programs at land 
grant institutions, in conjunction with State regulatory agencies that 
certify and license applicators, provide these education programs.
    The Pest Management Alternatives Program supports the development 
and implementation of pest management alternatives when regulatory 
action, voluntary action by the registrant, or other circumstances 
results in the unavailability of certain pesticides or pesticide uses. 
Through these grants, new pest management tools and techniques are 
developed to address critical pest problems identified by pest managers 
and other stakeholders. This program works with the Regional IPM 
Centers to identify and address regional priorities established by 
stakeholders.
    The Regional IPM Program is managed by the Regional IPM Centers and 
supports the development and implementation of new and modified IPM 
tactics and systems, their validation in production systems, and the 
delivery of educational programs to pest managers, advisors, and 
producers. The program builds stakeholder partnerships to address 
critical pest management needs in each region.

                                 DAIRY

    Question. I understand that USDA is nearing the completion of the 
Dairy Economic Loss Assistance Program that was authorized and funded 
by this subcommittee last year to assist dairy producers who have 
struggled as a result of last year's record low prices.
    Since the implementation of this program, what steps has the 
Department taken to address the long term problems in the dairy 
industry and avoid similar collapses in the coming years? Do you 
believe that any of the supply management proposals will be able to 
stabilize the dairy market, or does the Department believe that other 
alternatives would be more appropriate?
    When will the Department endorse a specific plan to stabilize the 
volatile dairy market?
    Answer. Since payments were initiated under the Dairy Economic Loss 
Assistance Program, USDA continues to operate the Milk Income Loss 
Contract (MILC), the Dairy Export Incentive and the Dairy Product Price 
Support programs as authorized under the 2008 farm bill. Dairy 
producers may elect to enroll in the Risk Management Agency's Livestock 
Gross Margin for Dairy Cattle Insurance Policy to provide protection 
against volatility in milk prices and feed costs. The Department 
continues to reduce its inventory of surplus nonfat dry milk through 
barter and other arrangements in order to provide nutritious and 
wholesome foods to low-income families and bring dairy product markets 
into better balance.
    In addition, we have taken steps to move forward with the USDA 
Dairy Industry Advisory Committee, which will have its first formal 
meeting April 13-15, 2010. We will be looking to this diverse group of 
17 individuals to provide insights regarding the issues of farm milk 
price volatility and dairy farmer profitability. As you suggest, supply 
management likely will be a topic that this subcommittee addresses. 
USDA eagerly awaits the recommendations of the Dairy Industry Advisory 
Committee and their insights regarding measures to reduce volatility in 
dairy markets.

               WOMEN, INFANTS AND CHILDREN (WIC) PROGRAM

    Question. The WIC program purchases infant formula at a substantial 
discount to provide to low-income mothers and children. Under the 
program, a competitive bidding process is used in which manufacturers 
offer discounts (rebates) to a State WIC program in exchange for being 
the sole formula provider in that State.
    USDA recently released a report that found that the WIC program is 
paying $127 million more annually for infant formula under the 
contracts that are currently in place than under previous contracts.
    Considering that the program now spends about $800 million each 
year on infant formula, that is a significant increase. The report says 
that the main reason for the increase is that WIC is providing more 
expensive formulas with certain fatty acids. Can you please explain 
this trend?
    Answer. During 2002 and 2003, manufacturers introduced an infant 
formula that was supplemented with the fatty acids docosahexaenoic acid 
(DHA) and arachidonic acid (ARA). Manufacturers' advertisements claim 
the additional nutrients support the mental development and visual 
acuity of infants. The wholesale price of the formula was more than the 
non-enhanced formulas. Since the introduction of the DHA/ARA-enhanced 
infant formula, manufacturers have mostly phased out the production of 
non-enhanced formulas. In addition, manufacturers have submitted bids 
for infant formula rebate contracts using the DHA/ARA-enhanced infant 
formula. As a result of formula availability and contract requirements, 
WIC State agencies are issuing the enhanced infant formulas on a 
regular basis.
    Question. Does USDA have any authority that would prevent WIC from 
having to pay more if new, even more costly, formulas are introduced?
    Answer. USDA does not have authority that prevents WIC from having 
to pay more for new and more costly formula. The State agencies 
contract with infant formula manufacturers and accept the bid that 
provides the lowest net cost for the formula the manufacturer has 
determined meets contract requirements. If the infant formula 
manufacturer adds a new, more costly formula after the contract has 
been awarded, State agencies have the discretion to deny its inclusion 
to the State agency's allowable food list and thus not pay for the more 
costly formula during the life of the contract, which is typically 3-5 
years.
    The Department is always concerned about costs which impact the WIC 
Program's ability to serve the greatest number of eligible persons 
within the funds made available to it. USDA continually monitors 
program costs, market trends, and developments in an effort to ensure 
WIC pays competitive prices for all eligible foods and infant formula 
in particular. We review State agency rebate solicitations to ensure 
the solicitations comply with Federal requirements established to 
maintain an even playing field for formula manufacturers, thereby 
fostering competition.
    It is worth noting that it is FDA that determines the regulatory 
requirements for infant formulas and determines if a product may be 
marketed in the United States. Due to the array of infant formulas that 
are produced and in order to ensure infant formula rebate solicitations 
remain competitive, WIC Program regulations require State agencies to 
issue rebate solicitations for an infant formula that is suitable for 
routine issuance to the majority of generally healthy, full-term 
infants. The infant formula manufacturer determines the formula that 
best meets this requirement. The lowest bidder is awarded the contract, 
and the formula that the manufacturer bid is considered the Primary 
Contract Brand infant formula. The Primary Contract Brand formula is 
considered the formula of first choice and all other infant formulas 
are considered alternative formulas.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                         MARKET ACCESS PROGRAM

    Question. The administration recently announced its intent to 
increase U.S. exports through a National Export Initiative. But while 
the administration's fiscal year 2011 budget invests in a number of 
programs aimed at export promotion, it proposes a 20 percent reduction 
in funding for the Market Access Program (MAP). MAP has played an 
important role in making our products competitive overseas. The program 
effectively leverages public and private resources to establish and 
build export markets abroad and increase farmer profitability. Overseas 
markets are critical for agricultural producers in Illinois and across 
the country. I am pleased that this administration is committed to 
eliminating trade barriers and boosting U.S. agricultural exports, and 
believe MAP, a program with a proven track record, can contribute to 
that goal. Are there specific concerns with MAP's effectiveness to date 
that led to the proposal to scale back even while renewing the 
commitment to expand exports of U.S. products?
    Answer. The fiscal year 2011 budget proposes a series of 
adjustments in the funding levels for USDA's market development 
programs to provide a better balance among them and to reflect the 
changing nature of agricultural trade competition. While the requested 
2011 MAP funding is reduced from $200 million in 2010, to $160 million, 
that level provides program funding nearly 80 percent above 2001.
    At the same time, the proposed budget includes increases in 2011 to 
double annual funding for the Foreign Market Development (Cooperator) 
Program and Technical Assistance for Specialty Crops (TASC) Program to 
address long-term barriers to export growth. The budget also includes 
an increase of $10 million for the Foreign Agricultural Service to 
expand its exporter assistance efforts, trade missions, in-country 
promotions, and trade enforcement activities to remove non-tariff trade 
barriers, such as unwarranted sanitary and phytosanitary standards. 
Annual funding for the Cooperator program has remained relatively 
stagnant since the early 1980s, which has tended to discourage new 
organizations from participating and new types of activities from being 
undertaken. The proposed increase in TASC program funding reflects the 
growing importance of specialty crops for U.S. agricultural trade 
growth and the contribution the program has made in resolving numerous 
trade barriers.

                         MC GOVERN-DOLE PROGRAM

    Question. The McGovern-Dole International Food for Education and 
Child Nutrition Program reduces child hunger and promotes education by 
providing meals to vulnerable children at schools in the world's 
poorest countries. The Program was developed to expand and improve upon 
a $300 million pilot program known as the Global Food for Education 
Initiative, which was created by President Clinton in 2000. Although 
the McGovern-Dole Program was authorized by Congress in the 2002 farm 
bill and reauthorized in 2008, it has never received the level of 
funding provided for the GFEI pilot program. I was pleased the 
administration's fiscal year 2010 budget provided a significant boost 
in funding to the McGovern-Dole Program. I understand the budget 
constraints that may have influenced the decision to flat fund the 
program in fiscal year 2011. What plans does the Department have to 
ensure the future growth of this very important program?
    Answer. USDA believes the McGovern-Dole International Food for 
Education Program is a crucial tool for improving education, nutrition, 
health, and the general food security of women and children worldwide 
and requested a doubling of the budget in 2010. We continue to improve 
the program through increased monitoring and evaluation, improved 
indicators, and increased collaboration with host country governments.

                       CONSERVATION PARTNERSHIPS

    Question. The administration's budget directs NRCS dollars to 
programs that ``focus on addressing the needs of priority landscapes in 
the most need of protection, and emphasize partnering with local 
constituents to efficiently implement programs and initiatives.'' I'd 
like to highlight a great conservation partnership that has developed 
in Illinois. The Illinois Department of Natural Resources has been 
working with organizations that specialize in landscape and habitat 
restoration to help private landowners restore vital watersheds 
throughout central and southern Illinois. What is the Department doing 
to encourage more of these partnerships, particularly those that serve 
to multiply benefits by using the technical assistance and expertise of 
State agencies and qualified private organizations?
    Answer. The Cooperative Conservation Partnership Initiative (CCPI), 
established in section 2707 of the Food, Conservation, and Energy Act 
of 2008, gives the NRCS legal authority to enter into partnership 
agreements with eligible entities, including State agencies and 
qualified private organizations, to enhance conservation outcomes on 
agricultural and nonindustrial private forest lands. In 2010 NRCS will 
offer CCPI through the Mississippi River Basin Healthy Watershed 
Initiative (MRBI) and the Chesapeake Bay Watershed Initiative (CBWI). 
Through these initiatives, NRCS and its partners will provide technical 
assistance to help landowners and operators voluntarily implement 
conservation systems to address resource concerns in priority 
watersheds.
    Federal, State, and Local partners are critical to the 
implementation of the CBWI and have been engaged through State 
Technical and partner meetings. In many cases, partners, especially 
Conservation Districts, are able to provide both technical and or 
financial assistance that complements the goals of the CBWI. For 2010, 
three locations in the Chesapeake Bay Watershed have been chosen as 
Showcase Watersheds (Conowago PA, Upper Chester MD, and Smith Creek 
VA). The objective of the Showcase projects is to reduce nutrient 
loading into waterways while demonstrating and documenting the 
effective voluntary implementation of priority conservation practices 
and ``Cooperative Conservation Partnerships''. These watersheds will be 
the locations for increased outreach activities (with potential 
interaction with every farmer in the watershed). In addition, the U.S. 
Geological Survey and other scientific partners will provide water 
quality monitoring services to watch for potential in-stream responses 
from the increased conservation efforts.
    In 2010, Environmental Protection Agency received $475 million for 
the inter-agency Great Lakes Restoration Initiative (GLRI) to address 
regional issues that affect the Great Lakes, such as invasive species, 
habitat and wildlife protection and restoration, non-point source 
pollution, and contaminated sediment. As a Federal partner in the GLRI, 
NRCS will receive $34 million in fiscal year 2010, to purchase 
conservation easements and implement conservation systems in priority 
watersheds in the Great Lakes. Through GLRI, NRCS will also partner 
with the Great Lakes Commission to support the Great Lakes Basin 
Program for Soil Erosion and Sediment Control. The Great Lakes Basin 
Program will provide financial assistance, information and education, 
and technical assistance to partner agencies, landowners, and operators 
to protect and improve water quality in the Great Lakes Basin by 
reducing soil erosion and improving sediment control.
    The Agricultural Water Enhancement Program (AWEP) also provides an 
excellent opportunity for partnership with State and local entities. 
Under AWEP, NRCS enters into partnership agreements with eligible 
entities that want to promote ground and surface water conservation or 
improve water quality on agricultural lands. After the NRCS Chief has 
announced approved AWEP project areas, eligible producers submit 
applications for financial and technical assistance to implement water 
enhancement activities. AWEP will be offered in 2010.
    On March 12, 2010, USDA announced the Sage-Grouse Initiative. 
Sixteen million dollars in Environmental Quality Incentives Program 
(EQIP) and Wildlife Habitat Incentive Program (WHIP) funds will be used 
to assist private landowners with implementing conservation practices 
that address the many threats to sage-grouse habitat. This funding will 
be available in all 11 States that have sage grouse populations: 
California, Colorado, Idaho, Montana, Nevada, North Dakota, Oregon, 
South Dakota, Utah, Washington, and Wyoming. By providing a focused 
effort across multiple States, NRCS can ensure funds are prioritized 
consistently to provide the highest potential of improving the quality 
of sage-grouse habitat. There will be close collaboration of many 
stakeholders, including the State fish and wildlife agencies, in this 
effort to ensure that NRCS activities complement efforts already 
underway.

                              FOOD SAFETY

    Question. The National School Lunch program provides a valuable 
service to our Nation, by ensuring that over 32 million children each 
day are well fed and ready to learn. With so many of our Nation's 
youngsters relying on this program, we must take necessary steps to 
ensure that the food they are consuming is safe. While USDA and FDA 
both work hard to ensure the safety of our food supply, in the past 
some school kids have been served--and even sickened by--products that 
should never have been consumed because they were recalled. In a report 
on this issue, GAO recommended that changes to Federal agencies' 
procedures could reduce the risk of school children consuming recalled 
food. I understand that USDA and FDA are finalizing a Memorandum of 
Understanding that will provide for specific notification to the USDA's 
Food and Nutrition Service, Agricultural Marketing Service, and Farm 
Service Agency during FDA investigations that may involve commodities 
intended for school meal programs. Can you give me an update on the 
status of the MOU?
    Answer. The health and safety of the children we serve each day in 
our school nutrition programs is of the utmost importance to us. The 
Food and Nutrition Service (FNS), Agricultural Marketing Service (AMS), 
and Farm Service Agency (FSA) work closely with the regulatory 
agencies, Food and Drug Administration (FDA) and the Food Safety and 
Inspection Service (FSIS) to provide interlocking rings of protection 
against foodborne illness. FNS, AMS, and FSA are strengthening the 
bonds with FDA by drafting an MOU on communications during food safety 
investigations and recalls. USDA is working closely with FDA to create 
an MOU that meets the needs of all agencies involved. A final MOU is 
expected by the end of the fiscal year.
    FNS closely monitors data from the Centers for Disease Control and 
Prevention (CDC), the FDA, and other sources to ensure we are reducing 
the impact of foodborne illness in schools to the greatest extent 
possible. Illnesses linked to recalled foods in schools are very rare, 
and there is no evidence of any cases of foodborne illness being 
attributed to recalled USDA commodity food that was served at schools 
in the last 10 years. The primary cause of foodborne illness in schools 
is norovirus, which recently was characterized and published by FNS in 
the Journal of Environmental Health. That article described the 
analysis of CDC foodborne illness outbreak data and showed that 
norovirus was confirmed as being responsible for over 60 percent of 
outbreaks in schools (Venuto et al., Journal of Environmental Health, 
2010. Available at http://www.fns.usda.gov/fns/safety/pdf/
JEH_2010.pdf). Food is generally contaminated with norovirus by 
infected food handlers, and FNS has launched an educational campaign to 
address this issue with food service workers in the National School 
Lunch Program.
    FNS and FDA are working together on other fronts as well. We have a 
joint research project to address improper cooling of foods in schools, 
another frequently cited cause of foodborne illness outbreaks.

                            IMPORTS OF DOGS

    Question. I worked to include language in the 2008 farm bill to 
prevent the import of underage, unhealthy dogs destined for resale in 
the United States. The final bill, signed into law in June 2008, 
provides USDA APHIS with new enforcement authority and requires that 
dogs imported to the United States for resale be at least 6 months of 
age, properly vaccinated, and in good health. Please provide an update 
on the status of USDA's regulations for enforcement of the farm bill's 
puppy import restrictions.
    Answer. As mandated by the 2008 farm bill, APHIS is coordinating 
with the Department of Health and Human Services' Centers for Disease 
Control and Prevention, the Department of Commerce's Chief Counsel for 
Regulations, and the Department of Homeland Security's Customs and 
Border Protection to develop appropriate dog import regulations and 
enforcement strategies. APHIS anticipates that the proposed rule will 
be published in the Federal Register and available for comment by the 
summer of 2010.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson

                       ANIMAL DISEASE TRACEABILTY

    Question. Many farmers and ranchers in South Dakota were very 
pleased to hear that USDA recently scrapped the proposed National 
Animal Identification System, as it was seen to be invasive and 
burdensome. We've heard USDA estimates that a new animal disease 
traceability system would take roughly 18 months to complete--how will 
you involve farmers and ranchers in the program's development and 
ensure transparency?
    Answer. We are committed to ensuring transparency and openly 
working with States, tribes, and producers in the new approach for 
animal disease traceability. In keeping with the spirit of the 
listening sessions we held last year, we are holding a forum March 18-
19, 2010, in Kansas City, Missouri, with States and tribes to discuss 
the new approach and to discuss their ideas for achieving a workable 
animal disease traceability framework.
    APHIS also established a working group to develop regulations 
related to animal disease traceability. The working group consists of 
Federal, State, and tribal animal health officials who assess options 
for the animal disease traceability framework, provide input to the 
Agency, and review feedback received from stakeholders, such as 
ranchers and farmers. Input and feedback can be provided through local 
animal health officials, and by contacting the USDA area veterinarian 
in charge, State veterinarian, or tribal animal health officials. 
Contact information for State veterinarians is available on USDA's 
animal disease traceability Web site at: http://www.aphis.usda.gov/
traceability.
    USDA will also establish a Secretary's Advisory Committee on Animal 
Health to provide feedback to the Department. Membership on this 
Advisory Committee will be completed in a transparent manner, with a 
call for nominations that will be published in the Federal Register. In 
addition, if States, tribes, and industry need species working groups, 
USDA will establish these groups under the Advisory Committee on Animal 
Health. Upon publication of the proposed rule, APHIS will offer a 
comment period of 90 days for comments and feedback from farmers, 
ranchers, and other interested parties. APHIS will also ensure timely 
updates to the Agency's traceability Web site to honor our commitment 
to transparency.

                       COUNTRY OF ORIGIN LABELING

    Question. Thank you for your work in implementing Country of Origin 
Labeling. As you know, this has been a substantial priority for me 
since 1992. USDA conducted a survey to ascertain how COOL was being 
implemented in accordance with Congressional intent. When will the 
results of that survey be released?
    Answer. Since the COOL Final Rule went into effect, USDA has been 
carrying out compliance activities through conducting in-store retail 
reviews. In calendar Year 2009, COOL compliance reviews were performed 
in 3,871 retail stores where approximately 1.16 million item types 
(e.g., U.S. Choice Strip Steak, company branded strip steak, bin of 
tomatoes, package of carrots, Tilapia fillet, etc.) were evaluated. By 
this summer, we plan to have completed a total of 12,700 reviews.
    We are currently in preparations to post information related to our 
compliance-related activities on the USDA Web site late this spring. We 
will ensure this information is provided to you at that time.

                      ``ACTIVELY ENGAGED'' FARMER

    Question. I am disappointed to see that USDA's rules on farm 
program payment limits do not include a stronger interpretation of what 
it means to be an ``actively engaged'' farmer. Will USDA revisit this 
definition?
    Answer. For more than 20 years, Congress and USDA have worked to 
ensure that farm program benefits only go to farmers who are actively 
engaged in farming. For 2009-12, new requirements were placed on the 
contributions of active personal labor and/or active personal 
management by the partners, stockholders, and members of some types of 
legal entities in the determination of actively engaged in farming. 
These changes include:
  --Each of the partners, stockholders, or members must make a 
        contribution of active personal labor and/or active personal 
        management to the farming operation that must be performed on a 
        regular basis, be identifiable and documentable, and separate 
        and be distinct from the contributions of any other partner, 
        stockholder, or member of the farming operation;
  --The contribution of the partners, stockholders and members must be 
        significant and commensurate; the legal entity will make 
        contributions to the farming operation that are at risk for a 
        loss, with the level of risk being commensurate with the 
        claimed share of the farming operation; and
  --The failure of any partner, stockholder, or member to meet this 
        requirement will result in a reduction of payments to the 
        payment entity commensurate with the ownership share held by 
        that interest holder.
    On an on-going basis, USDA examines the definitions and parameters 
we use for a wide variety of programs. Likewise, staff continually 
reviews our actively engaged regulations to determine whether changes 
in those regulations are needed to prevent farm program payments going 
to non-farmers. Given the changing structure of agriculture--including 
how operations are run and their financial and ownership structures--we 
are evaluating options to best ensure that our programs are equitable 
and efficient to all, while at the same time taking into account a wide 
variety of viewpoints.

               VETERINARY MEDICAL LOAN REPAYMENT PROGRAM

    Question. I am glad to see USDA has implemented the Veterinary 
Medical Loan Repayment Program. I am concerned, however, that the 
timeline to turn in shortage area nominations has been too compressed. 
What outreach has USDA undertaken to ensure that every State has ample 
opportunity to participate in this program, and has USDA received 
complaints from State Animal Health Officials about the timeline?
    Answer. On July 9, 2009, the National Institute of Food and 
Agriculture (NIFA) published an interim final rule and request for 
comments on this program.
    The rule clearly stated the intent of was to solicit nominations of 
shortage areas, and spelled out in detail the procedure to be followed. 
The rule also explicitly stated the Agency's intention to solicit 
nominations for a period of 60 days. Insofar as this interim final rule 
was published approximately 6 months prior to actually calling for 
nominations, we believe that the 60 day response period is sufficient 
and reasonable. I will have NIFA provide additional information for the 
record.
    [The information follows:]
    The period for submitting shortage area nominations ended on March 
8, and we received 249 nominations from 48 States and the Republic of 
Marshall Islands. We did not receive any complaints with respect to the 
time we allowed for nominations from any of the State Animal Health 
Officials (SAHO).
    All States submitted nominations except Massachusetts and Hawaii 
and the District of Columbia). We contacted the SAHO of Massachusetts 
and Hawaii and both indicated that this was not a priority concern for 
them. Neither indicated that the compressed timeline was a factor.
    There was considerable effort made to ensure eligible entities were 
informed and engaged. All Chief Animal Health Officials received 
information and reminders about the nomination process both leading up 
to and after release of the Federal Register notice soliciting 
nominations. The National Assembly of State Animal Health Officials 
(NASAHO) and the United States Animal Health Association (USAHA), both 
with memberships comprising the authorized respondents to this 
solicitation, were very helpful sending out notices and reminders to 
respond by the deadline.
    Although the intention was to solicit nominations for a period of 
60 days, we determined that a period of 45 days was necessary to allow 
for sufficient time to review and certify shortage areas prior to the 
opening of the VMLRP application period on April 30. Given that this 
was the first year of implementation, we were prepared to allow a grace 
period to those that needed extra time to submit their nominations.

                   CONSERVATION TECHNICAL ASSISTANCE

    Question. I've heard many times from conservation groups that a 
crucial piece of conservation program implementation is an adequate 
focus and dedication to technical assistance to ensure producers are in 
compliance with program requirements. What are your thoughts on 
technical assistance, and will you place additional emphasis on this?
    Answer. The successful delivery of conservation technical 
assistance is inherently a field-based activity. Since 2002, increased 
administrative workload associated with increased financial assistance 
programs has reduced the amount of time field staff can spend in the 
field during the planning process. At the same time the financial 
assistance funding has increased, the number of NRCS FTE's has remained 
relatively stable. To streamline the business processes required to 
support conservation planning and contract development, NRCS is 
designing a mobile conservation planning tool that will be a critical 
part of our delivery model in the future. NRCS envisions having field 
staff in the field, working with clients 65 to 80 percent of the time. 
Web-based applications will integrate Geographic Information System 
services and mobile computing so that planning and contract development 
will occur simultaneously as the planner is working in the field.
    The streamlining effort and next generation tools will: (1) make 
participation in USDA's conservation programs easier for customers and 
the delivery of programs less complex for employees; (2) increase 
efficiencies by streamlining and integrating processes across business 
lines, and (3) ensure the continued science-based delivery of 
technically sound conservation products and services.
    NRCS envisions deploying Strategic Watershed Action Teams (SWATs) 
consisting of five to seven people (approximately 35 teams or 175 
FTEs), for a period of 3 to 5 years in a specified geographic location. 
These teams will include Soil Conservationists, technicians and 
specialists and will be identified based on the needed technical 
expertise in each watershed. The number of teams deployed for each 
watershed will depend on the analysis of natural resource and 
socioeconomic data of the region and will be decided based on a formula 
that NRCS will develop.
    The development and deployment of SWATs will greatly improve the 
environmental cost effectiveness of NRCS technical and financial 
assistance programs. By significant planning, education, and program 
implementation assistance, the technical assistance teams will enhance 
the Agency's capability to strategically invest in conservation and 
better target the Agency's financial and technical assistance programs.
    The goal of deploying the SWATs will be to reach every eligible 
landowner in a targeted watershed and provide them with the technical 
assistance to assess their natural resource conditions and offer 
resource planning and program help. Emphasis in resource assessment and 
planning will be placed on those resource conditions that are of 
priority interest in the selected watershed.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson

                RURAL MICROENTERPRISE ASSISTANCE PROGRAM

    Question. I worked to get the Rural Microenterprise Assistance 
Program (RMAP) into the 2008 farm bill (The Food, Conservation, and 
Energy Act, Public Law 110-246), which was signed into law on in June 
of 2008. Unfortunately 20 months later we are still waiting for USDA to 
roll out this new initiative.
    With small business making up 90 percent of all rural businesses 
and over one-million rural businesses containing 20 or fewer employees; 
Congress supported the creation of RMAP, and provided mandatory funding 
for the initiative. Because we wanted to address the financing needs of 
small rural businesses, particularly the small firms with less than 10 
employees that have always had a difficult time securing affordable and 
flexible financing.
    The current economic slowdown has made it even more difficult for 
these businesses. The reasons: banks are no longer willing to provide 
capital for expansion, for working capital or for equipment. The 
situation is even more dire for start-up businesses that do not have a 
track record and must depend on ``character lending.'' The start-ups 
and micro businesses are on the chopping block for private credit even 
with a good business plan and/or record of success. While the 
Department published a proposed rule on RMAP last fall, we have seen 
nothing since. When can we expect the program to be implemented?
    Answer. We anticipate that an interim rule will be published in 
April 2010 and that the Notice of Funds Availability (NOFA) will follow 
shortly thereafter.
    Question. Can you provide a timetable for issuing a publication of 
a final rule, Notice of Fund Availability, application deadlines and 
loan and grant awards?
    Answer. We anticipate publication of the Interim Rule in April, 
2010 and that a NOFA will follow very shortly thereafter. Applications 
could be accepted as early as May with the first awards being made in 
August.
    Question. The budget proposes a reduction of $1.65 million in 
microenterprise assistance grants. A number of Members expressed 
concern in a letter to the Department November 23, 2009 that the 
proposed rule did not adequately address need to ensure that the 
government's investment in this program was protected through technical 
assistance to borrowers nor did the rule seem to fully grasp the 
importance of helping those entities and organizations with community 
need but without the capacity to implement a program authorized under 
RMAP right this second. What is the view of the Department on technical 
assistance activities authorized under RMAP?
    Answer. The Department fully realizes the importance of technical 
assistance to micro-borrowers and potential micro-borrowers. We also 
recognize the subcommittee's position regarding the expansion of the 
microenterprise development industry into areas without immediate 
capacity. Upon receipt of the November 23rd letter the Department 
internally addressed each of the subcommittee's concerns in developing 
the interim rule. The rule is currently under review.
    In that same letter, we also commented on the proposed rule 
regarding loan rates and loan loss reserves. In our view the statute is 
clear in mandating 1 percent loans to intermediaries. The rule proposed 
a different and in our view more confusing approach. The proposed rule 
also required borrowers to fund from their own resources the loan loss 
reserve. This requirement will serve to limit participation of 
organizations with limited resources. Our suggestion was to fund that 
out of the Federal loan.
    Question. What is the Department's view on these issues?
    Answer. We agree that the rate structure in the proposed rule was 
not straight-forward. This issue has been addressed in the interim 
rule. We believe that the interim rule is much simpler.
    Regarding the Loan Loss Reserve Fund (LLRF), we fully understand 
the subcommittee's position regarding lowering the cost of program 
participation by funding the LLRF with Federal funding.

                                RESEARCH

    Question. The scarcity of food and the disappearance of fuel have 
the potential to be major crises that could develop across the world. 
Certainly research in Agriculture has the potential to mitigate the 
impact of these possible shortages.
    While we have seen significant sums of research funding through the 
National Science Foundation, National Institutes of Health, DOE's 
Office of Science, we have not had the same investment in agricultural 
research. The proposed $1.35 billion in discretionary spending for the 
National Institute of Food and Agriculture (NIFA) is the same level as 
last year.
    Recognizing agricultural research can address these challenges and 
find solutions--by addressing water quality and quantity issues; 
adapting to climate change and the effect it has on agriculture and 
forestry; increasing food production for a raising population with 
reduced inputs; and promoting renewable fuels to replace dependence on 
foreign fossil fuels--how do you anticipate utilizing the fund that are 
available to promote these activities?
    What can be done in the future to get Agricultural research the 
recognition it deserves to grab a greater share of the overall Federal 
budget?
    Answer. We have taken a critical step toward giving agricultural 
science the recognition it deserves by substantially increasing funding 
for the Agriculture and Food Research Initiative competitive grant 
program which is focused on high priority issues where science and 
education can solve real problems in agriculture--improving food 
safety, reducing childhood obesity, adapting and mitigating climate 
change, expanding biofuels, and addressing world hunger. NIFA will 
focus resources on larger, longer programs to create substantial 
impacts in addressing critical issues facing the long-term viability of 
agriculture. By working with the best and brightest scientist across 
the Nation, and continuing to foster collaborations with other science 
agencies, we hope to reposition agricultural research within the 
Federal science enterprise.

                      INTERNATIONAL FOOD SECURITY

    Question. Continuing on the importance of food scarcity and 
security, could you elaborate on your plans for international food 
security?
    Answer. USDA is participating in a ``whole-of-government'' approach 
to a global food security initiative called ``Feed the Future.'' The 
U.S. strategy will:
  --Address the underlying causes of hunger with a comprehensive 
        approach by focusing on agricultural productivity, linking 
        farmers to markets, and reducing under-nutrition;
  --Invest in country-led plans and tailoring assistance to the needs 
        of individual countries through country-led consultations and 
        investment plans;
  --Improve strategic coordination through participation of all 
        stakeholders to ensure efficiency, effectiveness, and 
        accountability;
  --Leverage the strengths of multilateral institutions to deliver 
        resources effectively, increase resources, and promote 
        inclusive policy dialog; and
  --Make long-term, sustained and accountable investments and use 
        benchmarks and targets to measure progress toward meeting the 
        initiative's goals.
    USDA's role will be to leverage the wealth of knowledge and 
expertise it possesses to support the U.S. initiative in areas of (1) 
basic agricultural research, (2) adaptive research that takes 
scientific innovation and output to farmers and processors, and (3) 
capacity building to ensure sustained country ability to build and 
maintain agricultural statistics systems; enhance capabilities with 
Ministries of Agriculture; link farmers to markets; conduct policy and 
market analysis; and create and oversee modern food safety standards 
and regulations. USDA will not have the lead for the U.S. Government 
for agricultural development activities.

                      INTERNATIONAL FOOD SECURITY

    Question. Many of our universities have long worked on agricultural 
production around the world. What do you see as the partnership role 
between these universities and USDA in addressing the issues of 
international food security?
    Answer. Global food security is one of USDA's Research, Education, 
and Economics agencies' Challenge Areas and it is addressed in part 
through the NIFA's partnership with land grant and other public 
universities. USDA international activities and outreach often involve 
and rely upon expertise and experience of academic personnel from our 
universities. For instance, because of their experience and expertise 
in Haitian soils and agriculture, researchers from Auburn University 
(Alabama), the University of Florida, and Virginia Tech University were 
in the group that was there to set up soil fertility evaluations and 
recommendations when recent earthquake there occurred. NIFA's 2010 
Agriculture and Food Research Initiative (AFRI) will have a request for 
application on Global Food Security and will award grants for research, 
extension, and education in this area to universities and other 
research institutions. Also, it is anticipated that much of USDA's 
research, education, and outreach commitment to the Global Research 
Alliance for Agricultural Greenhouse Gases will be accomplished through 
grants to U.S. universities. In addition to reducing greenhouse gases 
from agriculture, this research will improve international food 
security. It is further anticipated that leading scientists from 
universities will participate in the research groups of the Alliance 
and provide input and expertise for many of the Alliance's activities. 
NIFA's International Programs section also administers funds awarded to 
U.S. universities in the area of international agricultural production 
and food security. For instance, in 2008, 23 institutions received 
grants to enhance capabilities of U.S. universities to conduct 
international collaborative research, extension, and teaching through 
the competitively awarded International Science and Education Grants 
program. The projects will enhance the international content of 
curricula, provide faculty with the opportunity to work outside the 
United States to bring lessons learned back to the classroom, promote 
international research partnerships, enhance the use and application of 
foreign technologies in the United States and strengthen the role that 
colleges and universities play in maintaining U.S. competitiveness.
    Question. While DOE has made huge investments in biofuels, their 
investments in renewable it is towards non-grain cellulosic ethanol. 
These priorities ignore the years of success made by grain ethanol and 
the efficiency gains made by the industry that will continue to 
drastically reduce greenhouse gas emissions and improve the 
profitability in the first generation of biofuels. What steps is USDA 
taking to ensure the continued success of grain based biofuels and the 
expansion of cellulosic biofuels in order for farmers and ranchers to 
be a part of their expansion and rural communities can benefit from 
their development?
    Answer. Much of the interest in non-grain cellulosic ethanol, 
including USDA's guaranteeing of a loan to Range Fuels under the 
Biorefinery Assistance Program is driven by the realization that grain 
ethanol alone cannot met the Nation's renewable energy standard of 36 
billions of renewable fuel by 2022--four times the 2008 level--without 
significant impacts on U.S. exports of grain, land usage, a food 
prices. Cellulosic ethanol production currently limited to small pilot 
projects. Although there are several commercial sized plants under 
development, grain ethanol production is expected to remain viable into 
the foreseeable future, at least for as long as it continues to receive 
the Government's subsidy through tax credits. USDA fully appreciates 
the benefits that grain ethanol has provided to many rural communities, 
and will continue to conduct research to increase yields to keep 
abreast of the market potential for both grain ethanol and bio-diesel. 
USDA also understands that there are potential benefits for cellulosic 
ethanol and other renewable fuels that also need to be tapped through 
its research. In addition, USDA administers a number of 2008 farm bill 
programs that support the commercialization of advanced fuels.

                   NATIONAL DROUGHT MITIGATION CENTER

    Question. With USDA reorganizing its research priorities the 
National Drought Mitigation Center (NDMC) was not included in the 
Department's fiscal year 2011 budget. Based at the University of 
Nebraska--Lincoln, NDMC helps people and institutions develop and 
implement measures to reduce societal vulnerability to drought. By 
stressing preparation and risk management over crisis management, the 
Center provides valuable research that is utilized by all levels 
government and the agriculture sector to lessen the impact of drought.
    While we will work to provide funding for the Center through our 
work in Congress, what can be done to protect the valuable work of the 
NDMC and ensure its funding for years to come?
    Answer. Mitigation and adaptation to climate change will be one of 
the focus areas of the Requests for Applications in the Agriculture and 
Food Research Initiative competitive grants program in 2010 and 
anticipated in 2011, where the NDMC should be well positioned to 
compete.

                                 TRADE

    Question. The U.S. Department of Agriculture has again targeted the 
Market Access Program for a 20 percent reduction. While the budget 
proposes an additional $53.5 million for Department of Agriculture 
export promotion activities, of which $34.5 million is for the Foreign 
Market Development program, I am concerned about any reduction in 
funding for programs that assist farmers and ranchers to gain access in 
foreign markets and help their products overcome the inherent biases 
and barriers that can block access to the market.
    I would like to hear more about the Department's efforts in helping 
agriculture keep up with the fluctuations in the market. What steps is 
it taking to help overcome new regulations and barriers that our 
international partners are putting up to our agricultural products?
    Answer. As tariff barriers declined with the emergence of the World 
Trade Organization (WTO), there has been a dramatic increase in non-
tariff barriers to trade such as unnecessarily restrictive and 
scientifically unjustified regulations to protect human, animal and 
plant health, and technical barriers to trade (TBTs). In spite of the 
WTO Sanitary and Phytosanitary (SPS) and TBT Agreements, countries have 
increasingly erected SPS and technical barriers as a means to protect 
domestic industries in the face of quickly growing global trade.
    High priority SPS and TBT issues for USDA include restoring the 
Russian market for poultry, the Turkish market for biotech cotton and 
soybeans, the Japanese beef market, and harmonizing international 
standards for maximum residue levels for pesticides and veterinary 
drugs.
    Within the Department, FAS provides overall leadership on trade 
issues. In Washington, FAS assesses the trade implications of foreign 
regulations, and coordinates strategies to address priority trade 
barriers. Overseas, FAS and the Animal and Plant Health Inspection 
Service (APHIS) address border-entry problems affecting U.S. exporters, 
and provide valuable information on foreign regulations. APHIS 
negotiates international standards related to plant and animal health--
the most effective way to prevent new trade barriers in those sectors. 
The U.S. Office for Codex Alimentarius, housed in the Food Safety 
mission area, promotes science-based regulations and standards around 
the world, while the Food Safety and Inspection Service technical 
programs ensure that foreign governments recognize the U.S. food safety 
systems for meat, poultry, and egg products. Agricultural Marketing 
Service verification programs provide the ability to certify to many 
foreign government trade requirements. USDA capacity building programs, 
conducted by several agencies, train foreign governments in science-
based regulatory decisionmaking to prevent new barriers to trade.

                        RURAL UTILITIES SERVICE

    Question. The President's fiscal year 2011 Budget has proposed to 
cut the Rural Utility Service (RUS) Electric Loan program by $2.5 
billion and prevent RUS lending for peaking natural gas plants, as well 
as environmental upgrades to existing power plants.
    While the shape of future energy legislation is a bit uncertain; 
what is for sure, is our Nation's utilities will need to begin to move 
towards cleaner and more efficient means for energy. My concern is by 
cutting this loan program and placing restrictions on lending, we are 
hindering our small rural utilities from securing the funds necessary 
to help them to make the transition to cleaner burning fuels and 
renewable wind power, to help them mitigate the potential costs of any 
future energy legislation.
    At this time of energy transition, why does the Department feel it 
is necessary to lessen the capabilities of the Electric Loan Program; 
especially if it actually saves the government money by bringing loan 
repayments into the treasury and reduces ratepayers energy costs by 
spurring the development of efficiencies and renewable.
    Answer. The budget request for the RUS Electric Program reflects 
the level that will be needed to finance borrower requests since the 
agency is not currently financing base load generation projects. The 
budget request also reflects the President's commitment not to provide 
subsidies for fossil fuels. Restricting the use of RUS electric loans 
to non-fossil fuel projects will increase the emphasis on moving 
towards cleaner and more efficient means of energy and spurring 
technological development.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                                  SNAP

    Question. Mr. Secretary, thank you for your work and commitment to 
ensure that all Americans have access to safe, nutritious foods and 
particularly for your support of the Supplemental Nutrition Assistance 
Program (SNAP). The increase in participation over the last year is 
clearly a sign of the tough economic times we face, but it is also a 
result of USDA's and your efforts to encourage eligible individuals to 
apply for benefits. In addition, the temporary benefit increase 
provided under the Recovery Act has helped participants and has 
provided an economic lift, since each dollar in benefits increases GDP 
by $1.73, according to economist Mark Zandi.
    In Rhode Island, where unemployment is just under 13 percent, SNAP 
benefits have been a life-line for thousands of families who have been 
out of work for months. Nonetheless, it has at times been difficult for 
individuals to get enrolled in the program, particularly in States like 
mine, where State resources have been stretched to the breaking point. 
Indeed the State of Rhode Island was sued and entered into a settlement 
agreement last year over its failure to process applications within the 
statutory time lines. As you know, the Recovery Act, as well as the 
fiscal year 2010 Defense Appropriations Act, provided administrative 
funding to help States with SNAP enrollments.
    Can you comment on how the States have used these funds? Are they 
investing in personnel, in equipment? Have they been effective in using 
these resources to expedite the enrollment process? How are you 
evaluating their performance and how is USDA encouraging them to use 
their additional administrative funding wisely?
    Answer. States are required to report on how they spend ARRA funds 
to administer SNAP. ARRA reporting is done in a manner that is similar 
to how States report spending regular SNAP administrative funds. 
According to those reports, it is clear that States are overwhelmingly 
spending ARRA funds on staffing to address the increased workload 
resulting from the rising SNAP caseloads. In fact, our reports show 
that in 2009, over 80 percent of the ARRA funding was used to hire and 
maintain staff. Early reports for 2010 indicate a similar trend. We 
also know that many States have taken this opportunity to use ARRA 
funding to update work environments to better handle the increase in 
demand for this critical nutrition program.
    Rhode Island received $471,124 as a result of ARRA in fiscal year 
2009 and an additional $476,014 in fiscal year 2010. In addition, Rhode 
Island received $1,501,575 from the Department of Defense (DOD) 
appropriations in fiscal year 2010. Rhode Island reported that they 
used their fiscal year 2009 ARRA funds for staff overtime to clear 
application backlogs and to purchase new telephone systems to lay the 
groundwork for a statewide call center model to improve customer 
service and increase efficiency. Finally, they also developed automated 
noticing and recertification packages to alleviate staff of 
administrative tasks so that their time could be spent on other 
certification related activities. The State plans to use fiscal year 
2010 funds to further support a call center model. Early indications 
are that Rhode Island intends to use their DOD money to hire additional 
staff.
    USDA works with State partners to ensure that they understand the 
purpose of both ARRA and Department of Defense appropriations funding. 
In addition to both the ARRA and regular administrative cost reporting 
requirements, USDA evaluates State performance through multiple 
mechanisms including participation rates, management evaluations, 
quality control error rates, timeliness measures and continuous 
monitoring and oversight by the regional office.
    We recognize the workload pressures faced by States. USDA offers 
technical assistance to encourage States to wisely spend ARRA funds in 
ways that maximize quality customer service for SNAP applicants and 
participants. Additional guidance was issued to State agencies on March 
15, 2010, to help ensure that States are using the ARRA administrative 
funds for their intended purposes. Over 7 million more people have been 
enrolled in SNAP over the past year. We believe that the ARRA funding 
has been instrumental in enabling State agencies to respond to this 
increased need.

                  RURAL DEVELOPMENT--RURAL DEFINITION

    Question. Mr. Secretary, although some may not consider Rhode 
Island to be a rural or agricultural State, it does have rural 
communities and agriculture. As a result, it has benefited (and done 
good things) with rural development funding through USDA. Regrettably, 
as the result of new statutory requirements and institutional bias, 
States like Rhode Island have found it difficult to access funding that 
had traditionally been available to them. If this trend continues, I am 
concerned that my constituents will view USDA Rural Development in the 
same way they view the Bureau of Reclamation: an agency that their tax 
dollars support but which provides them with no direct benefit.
    I appreciate your efforts, as well as those of Chairman Kohl, last 
year to restore the eligibility of several communities in my State, as 
well as Massachusetts and Connecticut, which had been deemed ineligible 
for rural development grants and loans under an administrative ruling, 
even though these communities had long histories of participating in 
these programs. Under the 2008 farm bill, USDA is charged with 
developing an equitable definition of rural communities.
    Can you provide an update on that process and the steps that you 
are taking to ensure equity for communities in States like mine?
    Answer. The confusion that has existed in the Northeast relates to 
the fact that there are many villages and boroughs in the Northeast and 
these terms are not defined in either the 2008 farm bill or prior 
legislation. The long standing policy of allowing villages and boroughs 
to be considered eligible on the same basis as a town has been restored 
through an Administrative Notice sent to Rural Development field staff. 
This policy appears to be the best approach to providing equity for 
Northeastern States.
    As for the changes in the definitions of rural and rural areas that 
were included in the 2008 farm bill, they involve a considerable amount 
of area mapping that has yet to be done. Further, regulations will need 
to be developed with regard to the discretionary authority given to the 
Under Secretary for Rural Development to make a determination on 
whether certain areas are ``rural in character.'' This work is not 
likely to be completed before next year. In the interim, the Under 
Secretary of Rural Development will accept, as provided by law, the 
petition of a unit of government in areas described in the farm bill 
language for such a determination and will act accordingly.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

            ADMINISTRATION'S FUNDING OF CATFISH INSPECTIONS

    Question. The President's budget recommends $5 million for catfish 
inspection needs in 2011. This is a decrease of $10.3 million from 2010 
levels. The budget cited the ``investment to date and the need for 
considerable stakeholder engagement and regulatory development before 
the adoption and implementation of a catfish inspection program'' as 
justification for the decrease. This Congress approved the last farm 
bill in June of 2008 and provided 180 days for the administration to 
complete its rulemaking process and implement the rule for catfish 
import inspections. Can you tell the subcommittee where we are in the 
rulemaking process, which is now over a year and a half overdue, and 
explain why the administration is seeking fewer resources for 
implementation?
    Answer. We believe that the $5 million requested for catfish 
inspection is adequate to meet essential program needs in fiscal year 
2011. The draft proposed rule is currently under review. In the 
meantime, we are working diligently in order to develop the foundation 
needed to assume catfish inspection responsibilities upon 
implementation of a final rule.

                   POULTRY IMPORTS (CHINESE CHICKEN)

    Question. Last year, with the help of USDA, Congresswoman DeLauro, 
and members of the Appropriations Committee, we included food safety 
language in the fiscal year 2010 Agriculture Appropriations bill to 
provide additional safety measures for certain imported poultry 
products from China. This language was important for food safety, trade 
relations, and import quality assurances. Since passage last fall, the 
administration has been corresponding with the Chinese government to 
implement the measures provided by Congress.
    Can you please bring the Committee up to speed on how things are 
progressing with the implementation of section 743 of the fiscal year 
2010 Appropriations bill? Is the Chinese government participating in 
discussions with USDA and USTR?
    Answer. The Department has moved forward on implementation of 
section 743 of the fiscal year 2010 Agriculture Appropriations Act. A 
report on the actions taken was submitted to the Committee on February 
22, 2010. We have provided China with clear instructions to complete 
the equivalence process, and will work with them to get the necessary 
information in order to act on their application.

         ADMINISTRATION'S PROPOSED CUTS TO FARM BILL SAFETY NET

    Question. Budget proposed making significant cuts to the safety net 
provisions of the 2008 farm bill. The 2008 farm bill was essentially a 
contract between the Federal Government and domestic agriculture 
producers. During the farm bill debate, significant concessions were 
made by farmers and significant constraints on support programs were 
placed on farmers. For example, there was the elimination of the three-
entity rule for direct attribution, income restrictions, payment 
limits, and cuts to direct payments. Now, the administration wants to 
go several steps further in their budget proposal by adding additional 
income restrictions, payment limits, and payment reductions.
    Do you view the 2008 farm bill as a contract between the Government 
and Agriculture producers? Why does the administration propose such 
drastic changes to policies negotiated by Congress that are currently 
the law through the life of the 2008 farm bill?
    Answer. I agree that the 2008 farm bill contains an implicit 
``contract'' set by the scope of programs in the farm bill. Rather than 
viewing the President's budget proposals as a drastic change in this 
underlying ``contract,'' however, I see this as the next step in a 
series of changes that have occurred over time. Specifically, we are 
recommending that the Direct Payment limit and the Adjusted Gross 
Income (AGI) payment eligibility criteria be reduced beginning with the 
2011 program (crop) year. More specifically:
  --The Direct Payment limit would be reduced to $30,000 per program 
        year for individuals and applicable entities, down from the 
        current limit of $40,000, and
  --The non-farm and farm AGI criteria would each be reduced by 
        $250,000 over a 3-year period--with the non-farm AGI declining 
        to $250,000 and the farm AGI declining to $500,000.
    The Department provides a strong set of financial safety net 
programs to ensure the continued economic viability and productivity of 
production agriculture, including farm income and commodity support 
programs, crop insurance and disaster assistance, as well as other 
programs. The farm safety net is critically important and provides the 
foundation for economic prosperity in rural America. For 2011, USDA 
estimates that roughly $17 billion in total direct support will be 
provided to farm producers and landowners through a variety of 
programs.
    Recognizing the need to reduce the deficit, the budget proposes to 
better target direct payments to those who need and can benefit from 
them most as well as cap total payments paid to larger operations. The 
savings from these proposals will impact approximately 30,000 program 
participants, which is about 2 percent of the 1.3 million total program 
participants, and will over time comprise less than 2 percent of the 
total direct support the Department expects to provide annually to farm 
producers and landowners.
    USDA estimates that these changes would save the government roughly 
$2.3 billion over 10 years. By focusing farm program payments to those 
most in need, and working to reduce the additional $12 trillion in debt 
that has accumulated since the beginning of the decade, we are working 
to ensure that Federal funds are being spent wisely.

       ADMINISTRATION'S PROPOSED CUTS TO DELTA REGIONAL AUTHORITY

    Question. Budget proposed to eliminate 100 percent of funding 
($2.97 million) for the DRA to administer Rural Community Advancement 
Program (RCAP) funds for the region. Why did the administration decide 
to cut (RCAP) funding to the Delta region in their 2011 Budget?
    Answer. This funding has been provided in recent appropriation acts 
as a grant to the Delta Regional Authority (DRA) for purposes that can 
be funded under RCAP, with no more than 5 percent used for 
administration. No other regional authority or entity receives such a 
grant from USDA. While the administration supports regional planning 
and coordination, it proposes to do so under a competitive process. DRA 
can compete for USDA funding as can other eligible entities within the 
Delta region.
    Question. How is the administration committed to improving the 
economic condition of the Delta Region?
    Answer. The President's 2011 budget supports $24 billion in loans, 
grants and technical assistance to be provided through USDA's Rural 
Development programs. The Delta region is expected to receive a fair 
share of this assistance, much of which will be allocated among the 
States based on established formulas. USDA's programs have historically 
reached deep in to the Delta to serve this purpose. USDA is committed 
to having a strong presence in the Delta region and will continue to 
commit resources to worthy projects and infrastructure there.

         OUACHITA NATIONAL FOREST TRAIL MANAGEMENT PLAN (ATVS)

    Question. In late January, the Ouachita National Forest announced a 
new trail management plan to go into effect in the coming weeks. This 
plan, which apparently changed dramatically after the last comment 
period, has agitated constituents in the region (Mena/Polk County) that 
have built economic engines off the National Forest through recreation 
opportunities provided by the Forest Service. Now the Forest Service is 
proposing dramatic cuts to the status quo, and these cuts will 
undoubtedly cause economic harm to the region, which is already 
struggling tremendously due to the declining demand for forest 
products. I've sent you a couple of letters recently with some of my 
colleagues expressing some concern over the plans, and I hope you will 
commit to working with me to minimize economic harm to these 
communities.
    Are you aware of the recent letters that I've sent you regarding 
the Ouachita National Forest? Will you commit to working with me on 
this issue?
    Answer. I am aware of recent letters from you and your colleagues 
regarding the Ouachita National Forest. As we continue to put the 
Nation back on the path of economic recovery, job creation remains one 
of my top priorities. Plans for Ouachita National Forest Trail 
Management are currently under review by a regional team that will 
address all administrative appeals. And in the meantime, the Chief of 
the Forest Service plans to visit the sites to understand the impacts 
first hand in late March. We look forward to working with you on this 
issue.

             RURAL BROADBAND--RURAL UTILITIES SERVICE (RUS)

    Question. When Congress appropriated funds for broadband in the 
American Recovery and Reinvestment Act, priority was placed on unserved 
and underserved areas. Ensuring that tax payers funds are not going 
towards projects with sufficient broadband service is a priority for 
me. However, I have heard reports of projects awarded that overbuild 
private investment. So far, RUS has awarded projects in 18 States, with 
at least 3 States (Iowa, Alaska, and North Dakota) receiving multiple 
project awards.
    What measures has RUS taken to ensure that grants and loans are 
going to truly unserved and underserved areas?
    Answer. The Rural Utilities Service is responsible to ensure that 
projects funded under the Broadband Initiatives Program (BIP) meet the 
requirements of Recovery Act. To do so, RUS has established an 
objective scoring process which incents applicants to bring the most 
robust broadband service to the most rural and unserved areas. In fact, 
RUS gives priority to unserved and highly rural areas. RUS will rely 
heavily upon the information submitted by the applicant to prove the 
need for broadband service. To further validate this information, RUS 
will post all proposed service territory maps on broadbandusa.gov and 
allow incumbent providers to comments on whether these areas are 
unserved or underserved through Public Notice Responses (PNRs) received 
during a 30-day comment period. RUS will rely upon these comments, 
along with State broadband maps (where available), and both RUS and 
Rural Development Field Staff to validate the information when 
necessary.
    Question. Does RUS need additional resources in order to conduct 
diligent and vigorous oversight of the BIP program and its award 
grantees?
    Answer. At the current time, RUS has sufficient resources in its 
headquarters and field staff to provide oversight of the BIP program 
and its award grantees.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

              APPALACHIAN FARMING SYSTEMS RESEARCH CENTER

    Question. I am deeply concerned by the Administration's decision to 
eliminate funding for the operation of the Appalachian Farming Systems 
Research Center (AFSRC) in Beaver, West Virginia. The AFSRC supports 55 
full time equivalents and 6 part-time positions in Raleigh County, West 
Virginia, a historically low-income, high-unemployment area of the 
country. As I am sure you are aware, the AFSRC has operated in West 
Virginia for more than 30 years and is dedicated to designing 
management practices that sustain productivity and profitability for 
small scale farmers and to delivering improved soil, water, and air 
quality. Further, the AFSRC infuses millions into the economy of 
southern West Virginia, an economically disadvantaged area.
    Mr. Secretary, you personally outlined five goals for the U.S. 
Department of Agriculture (USDA), one of which is to create wealth in 
rural communities so that they are self-sustaining, repopulating, and 
thriving economically.
    Why has the administration proposed to eliminate the AFSRC when its 
primary mission is to support small scale farmers in rural communities 
across the country?
    Answer. As do all of ARS' 106 locations, the Agricultural Research 
Service (ARS) Appalachian Farming Systems Research Center (AFSRC) 
contributes to a wide range of research topics, including work that is 
relevant to the five goals recently outlined for USDA. However, despite 
some degree of relevance to assorted topics, the work of the Center 
could be done more effectively at other ARS locations where a larger 
concentration of researchers would be more conducive to achieving the 
various research missions.
    The work pertinent to USDA constituents will continue at other ARS 
locations with similar focus on small farms research. The proposed 
closure of the AFSCR will offset the cost of higher priority programs 
and projects in service of USDA constituents.
    Question. The Agriculture Research Service has identified five 
research priorities, one of which is Global Food Security. The AFSRC is 
working to develop management strategies for cattle, sheep, and goat 
production on terrain not suitable for cultivated row crops, as a way 
to diversify and support local food production. It has been shown that 
locally produced livestock contributes significantly to food 
availability for the United States and the world populations. In 
addition, locally produced livestock provides alternative resources for 
meat should concentrated livestock production systems in the United 
States become compromised.
    Do you believe that the AFSRC contributes to the agency's Global 
Food Security mission?
    Answer. The AFSRC has conducted collaborative research on pasture 
based animal production systems. ARS recognizes the regional 
contribution of this research but considers the largest impact to be 
gained from conducting research on grass fed cattle to be complete.
    Question. How does eliminating the AFSRC align with your personal 
goal of having America lead the world in sustainable crop production 
and biotech crop exports?
    Answer. The ARS fiscal year 2011 budget proposes an increase of 
$61.5 million for high priority program initiatives, including $9 
million for expanded research on crop breeding and protection to 
enhance sustainable production. This high priority research directly 
supports the USDA goal of having America lead the world in sustainable 
crop production by focusing research on providing a continuous supply 
of improved plant varieties with protection from emerging diseases, 
insects, and damaging environmental conditions. The proposed funding 
increases are offset by the termination of $53.3 million in 
Congressionally earmarked projects and other lower priority programs 
and projects, including the $8.2 million for the Appalachian Farming 
Systems Research Center at Beaver, West Virginia.
    Question. Food Safety is a second research priority for the 
Agriculture Research Service. The AFSRC is working to discover pasture 
plant materials that can help maintain sheep and goat health, thus 
decreasing the need to administer pharmaceutical products. These 
efforts will produce safer meat products for consumers and reduce 
pharmaceutical residues entering soil and water resources. Meeting 
livestock nutritional needs, while preventing chemical and biological 
contamination of water resource, provides a significant contribution 
toward food safety.
    Mr. Secretary, do you believe that the AFSRC contributes to the 
agency's Food Safety mission?
    Answer. Food Safety is a research priority for the Agricultural 
Research Service. However, the research conducted at the AFSRC is only 
peripherally related to USDA Food Safety goals. Medicinal plant 
research to produce safer meat products for consumers and reduce 
pharmaceutical residues entering soil and water resources is not 
considered a food safety priority. No significant amount of the 
location's appropriation is used for such research, and the location's 
scientists are not among those with primary responsibility to lead or 
conduct work under ARS' multi-location food safety National Program.
    Question. How does eliminating the AFSRC align with your personal 
goal of having America's children and the world's children have access 
to safe, nutritious and balanced meals?
    Answer. The ARS fiscal year 2011 budget proposes an increase of 
$61.5 million for high priority program initiatives, including crop 
production, food safety, and human nutrition. These critical 
investments will focus on the availability of high quality, safe, 
nutritious food for children and adults. New and expanded research in 
these high priority initiatives will be financed by the termination of 
$53.3 million in congressionally earmarked projects and other lower 
priority programs and projects, including the $8.2 million for the 
Appalachian Farming Systems Research Center at Beaver, West Virginia.
    Question. Climate Change is a third research priority for the 
Agriculture Research Service. The AFSRC develops systems that improve 
small-acreage farm productivity and sustainability within the 
Appalachian region. This technology is applicable to hill-land 
environments world-wide. However, these production systems are already 
resilient to climatic variability. The grazing systems designed for 
small-acreage farms accommodate soil, plant, and animal resources are 
already capable of adapting to varied weather patterns.
    Further, the AFSRC has developed the technology to apply biochar 
(produced from charring poultry litter or plant residues from the 
biofuels industry) to improve the production capability of soil and 
increase carbon sequestration. The results are improvements to the 
chemical and physical attributes of soil, including sequestering 
chemical and biological contaminants of ground water and improving 
plant productivity through hospitable rooting environments.
    Mr. Secretary, do you believe that the AFSRC contributes to the 
agency's Climate Change mission?
    Answer. Much ARS research across the Nation has relevance to 
climate change, in terms of research on soil and tillage management, 
soil carbon, or breeding crops or livestock for tolerance to weather 
extremes and variability. The AFSRC's mission is not directed to 
climate change research. No significant amount of the location's 
appropriation is used for such research, and the location's scientists 
are not among those with primary responsibility to lead or conduct work 
under ARS' multi-location climate change National Program. Although the 
Center conducts limited work on the application of biochar to soil as a 
way to modify soil condition and sequester carbon, it is not central to 
the overall research on land management for small farms and is not a 
leading site for this topic nationally.
    Question. How does eliminating the AFSRC align with your personal 
goal of ensuring that private working lands are conserved, restored and 
made more resilient to climate change and are managed to enhance water 
resources?
    Answer. Although much of ARS' nationally coordinated research on 
livestock production has implications for water resources, and water 
quality is mentioned in the Center's mission statement in the small 
farms context, the AFSRC is not among the ARS locations that have a 
research project contributing significantly to the ARS National Program 
on water resources.
    Question. The administration and Congress are working every day on 
ways to create and preserve jobs in communities across the country. 
Eliminating the AFSRC will not only result in a direct loss of nearly 
60 jobs in Raleigh County, West Virginia, but countless others across 
the country, as important assistance to small acreage farmers, 
independent family farm operators, and sheep and goat producers is no 
longer available.
    Mr. Secretary, do you believe that eliminating the AFSRC will 
contribute to the efforts of the Congress and the administration to 
create and sustain jobs in the United States?
    Answer. The fiscal year 2011 USDA budget continues to make critical 
investments in long-term sustainable job creation and economic growth, 
while maintaining discretionary spending at the fiscal year 2010 level. 
The fiscal year 2011 budget proposes significant investments to: (1) 
increase access to broadband and continue business creation; (2) 
facilitate sustainable renewable energy development; (3) develop 
regional food systems; (4) capitalize on climate change opportunities; 
and (5) generate and retain jobs through recreation and natural 
resource restoration, conservation, and management. These critical 
investments are being financed by the reduction or elimination of 
congressionally earmarked projects and other lower priority programs.
    Question. How does eliminating the AFSRC align with your personal 
goal of enabling the USDA's constituents to understand and appreciate 
what the agency can do for them every day in every way because USDA 
employees are engaged, valued, and productively serving the people of 
America and the world?
    Mr. Secretary, in summary, I am greatly disturbed that the 
administration is seeking to eliminate a deeply rooted Federal 
operation that clearly meets many of your stated goals for the USDA, 
particularly when the overall USDA budget proposes a $20 million 
increase for Salaries and Expenses. I want you to know that restoring 
funding for the operation of the AFSRC will be among my highest 
priorities for fiscal year 2011. It is my hope that between now and the 
formulation of the fiscal year 2012 President's budget request that you 
will avail yourself the opportunity to visit the AFSRC. I have no doubt 
that you would find that this outstanding facility clearly aligns with 
the research priorities of Agriculture Research Service and your 
personal vision for the agency. I look forward to hearing from you 
after your visit to the AFSRC and our future discussions in this 
regard.
    Answer. The work pertinent to USDA constituents will continue at 
other ARS locations with similar focus on small farms research. The 
proposed closure of the Appalachian Farming Systems Research Center 
will offset the cost of higher priority programs and projects in 
service of USDA constituents.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

                         INTERNATIONAL FOOD AID

    Question. As you may know, the GAO reports that 65 percent of food 
aid funding goes to administration and transportation of food aid 
commodities. Section 737 of the 201 agriculture appropriations bill 
requires a consensus report from the Secretaries of Agriculture, State, 
and Transportation on changes that could be made to the food aid 
programs. Specifically, we asked that you and your colleagues look at 
the potential savings and efficiencies for long-term commodity 
procurement contracts, increased use of pre-positioning, longer term 
shipping contracts, and adoption of more commercial standards in 
contracting. What is the status of this report? Have you engaged the 
Departments of State and Transportation on this?
    Answer. Representatives from the U.S. Department of Agriculture, 
the U.S. Department of Transportation (DOT), and the U.S. Agency for 
International Development (USAID) have met three times to collect the 
information outlined in section 737 of the fiscal year 2010 agriculture 
appropriations act. USDA, DOT, and USAID are preparing a draft response 
that should be ready for submission to Congress in May 2010.

                        FOOD AID PILOT PROJECTS

    Question. Last year, I held numerous meetings with food aid experts 
and asked them to tell me what changes they would make to the existing 
food aid programs. Expert after expert told me that micronutrient 
fortification was the single greatest improvement we could make. So in 
fiscal year 2010, we included $10 million to develop new micronutrient 
fortified food aid products for use in the McGovern-Dole Food for 
Education Program. What is the status of this pilot program? Can you 
provide the Subcommittee with information on how USDA envisions this 
will be carried out?
    Answer. FAS plans to announce the opening of solicitations for 
proposals for this pilot project in March 2010. FAS will consider a 
range of products in various locations that meet the micronutrient 
needs of a variety of program beneficiaries and that ship well and have 
a good shelf life. The $10 million in funding will be used to develop, 
monitor, and evaluate the new products. Their purchase and shipping 
will be covered by McGovern-Dole program appropriations. FAS hopes to 
identify new products that can become a regular part of the McGovern-
Dole program through this pilot program.

                            FOOD AID QUALITY

    Question. Over the past few years there have been some issues with 
the quality of the commodities provided by the United States for 
international food aid programs. These issues have been highlighted in 
GAO oversight investigations. In response to this the USDA entered into 
a contract with SUSTAIN, a nonprofit organization whose mission is to 
improve nutrition in developing countries through innovative 
applications of food science and technology. In 2008, SUSTAIN published 
a food aid quality study for the Department that developed new product 
specifications for food aid to meet U.S. commercial food industry 
quality standards.
  --Please address the following question in GAO's September 2009 
        report: ``How have U.S. Agencies implemented SUSTAIN's 
        recommendations on updating specifications and improving 
        nutritional standards of U.S. food aid?''
  --New authority and obligations were included in the 2008 farm bill 
        for USDA to utilize Title II funds to address and resolve food 
        aid quality issues. Directives on implementation of food aid 
        quality reforms were reiterated and reaffirmed in fiscal year 
        2010 agriculture appropriations act. Please address whether the 
        Department believes there are any limitations in law that are 
        preventing them from moving forward with implementation of food 
        aid quality reforms.
  --In communications to committee staff in September 2009, USDA stated 
        it was working to complete an ``Independent Government 
        Estimate'' for the statement of work of the implementation of 
        SUSTAIN's recommendations. Please provide a schedule for when 
        the award will be issued and implementation of the statement of 
        work completed.
    Answer. USDA's Farm Service Agency contracted with Sharing Science 
and Technology to Aid in the Improvement of Nutrition (SUSTAIN) in 
October, 2007 to develop methods that would standardize and harmonize, 
in a consistent format, the specification language used in USDA foreign 
food assistance commodity acquisitions. The components of this contract 
included:
  --A review of existing department commodity specifications used to 
        obtain food aid commodities;
  --Recommendations to achieve maximum standardization and 
        harmonization among the specifications; and
  --Recommendation of a post-production commodity sampling and testing 
        regime based upon sound scientific standards and similar to 
        commercial practices exercised by food suppliers.
    SUSTAIN completed all requirements of this contract in June 2008. 
Most of SUSTAIN's recommendations have been incorporated into FSA 
commodity purchase announcements, as appropriate. SUSTAIN's recommended 
post-production commodity sampling and testing regime (a minimum of 5 
samples per lot to a maximum of 20 samples per lot) was not adopted as 
the additional value to be achieved was not deemed to justify the 
considerably higher procurement cost that would result. FSA, partnering 
with the Grain Inspection, Packers and Stockyards Administration, 
ensures that contractors perform sampling and testing protocols and 
institute tests necessary to substantiate that the supplies or services 
furnished under the contract conform to established requirements. In 
addition, contract provisions currently specify that the contractor 
shall have in place a quality control system consistent with the 
standards and specifications of the contract.
    Presently, FSA does not believe there are any statutory 
restrictions that would prevent the Department from moving forward with 
implementation of food aid quality reforms. Because FSA has implemented 
most of SUSTAIN's recommendations, FAS and FSA at this time do not 
believe that a statement of work for the implementation of SUSTAIN's 
recommendations is needed. Therefore, there is no schedule for 
completion of a statement of work and no award for an additional 
contract will be issued.

                        AGRICULTURAL DEVELOPMENT

    Question. Spending on agriculture development as a percentage of 
the United States total official development assistance has dropped 
from 20 percent in 1980 to around 5 percent today. Interestingly, most 
of this assistance comes from USAID and not USDA. What has the 
experience in Afghanistan and Iraq taught you about USDA's capabilities 
to assist with agricultural development?
    Answer. Since 2003, USDA has effectively deployed over 120 
agricultural experts to Iraq and Afghanistan. These experts have been 
recognized by the Department of State and Department of Defense for the 
skills and professional expertise provided to both countries to help 
reconstruct the physical and institutional infrastructure of the 
agricultural sectors. USDA has responded to requests for technical 
assistance from the Governments of Iraq and Afghanistan by reaching out 
to all USDA agencies which have a wealth of expertise in the areas of 
strategic planning, extension and education, land and water resources 
management, and animal inspection and food safety. In addition, USDA 
has drawn from U.S. land grant universities to support capacity 
building efforts in Iraq and Afghanistan.
    Question. Beyond your work in Afghanistan and Iraq, how does USDA 
tap its vast pool of expertise and its relationships with the land 
grant universities to assist in agricultural development globally?
    Answer. USDA collaborates with land-grant institutions to provide 
technical assistance around the world to help other nations address 
economic transitions, natural disasters, minimal resources, and decades 
of neglect and mismanagement. The partnership between USDA and U.S. 
land grant universities has been instrumental in helping countries 
around the world acquire the agricultural knowledge they need to 
achieve food security. Through a comprehensive, multidisciplinary 
approach that integrates research, teaching, and extension, USDA and 
its university partners have improved the quality of life for millions 
of people at home and abroad.
    Question. What do you believe the role of USDA should be in 
international agricultural development?
    Answer. Although USDA does not have the lead in the U.S. Government 
for agricultural development activities, USDA agencies contribute to 
global agricultural development by providing agricultural capacity 
building and technical assistance in an array of areas such as natural 
resource management and conservation, plant and animal health, and 
farming techniques. USDA can support technical assistance activities 
within developing countries through the short and long-term assignments 
of personnel from USDA agencies, State departments of agriculture, and 
land grant universities.
    USDA has a longstanding role in framing U.S. Government policy on 
global food security with the Department of State and the U.S. Agency 
for International Development. USDA also has a long tradition of 
technical assistance and capacity building to help other countries 
develop a productive agriculture sector in cooperation with host 
governments, producers, and markets. USDA's expertise and institutional 
resources, which serve as a reference for other countries and are among 
the most sophisticated in the world, have been deployed to help 
countries strengthen food security since the United States first 
engaged in foreign assistance. USDA's institutional ties with 
agribusiness, land grant universities, extension services, and 
agricultural research centers are fully utilized in providing 
international technical assistance for agricultural and rural 
development. USDA's market development programs leverage additional 
private-sector engagement in addressing food security.

                            WHEAT STEM RUST

    Question. I am very concerned about the impact that cereal rust, 
especially Ug99, will have on world hunger. Since 1999, Ug99 stem rust 
has moved throughout East Africa to Yemen, and in 2007, was found in 
Iran. The African stem rust--Ug99--has defeated nearly all major genes 
for resistance currently deployed in the United States and around the 
world. The wheat growers tell me that over 75 percent of wheat acreage 
in India, Pakistan and Afghanistan, representing 20 percent of world 
production, is planted to susceptible varieties; areas that all of us 
on this subcommittee are concerned about.
    First, how have you used the $1.5 million the subcommittee provided 
to ARS in last year's appropriation bill?
    Answer. The goals of the USDA Ug99 Action Plan for the United 
States are:
  --Cereal Stem Rust Assessment and Pathology;
  --Detection and Identification;
  --Monitoring and Reporting;
  --Germplasm Enhancement, Gene Discovery, and Development of Molecular 
        Markers;
  --Regional Variety Development, Evaluation, and Implementation;
  --Disease Management;
  --Communication and Outreach.
    Details on how Appropriations were used are provided for the 
record.
    [The information follows:]
    Congress appropriated $1.5 million in fiscal year 2009 for Wheat 
Stem Rust (Ug99). The focus was on Action Plan goals 1-5. Funding was 
distributed as follows:
    ARS Cereal Disease Laboratory, St. Paul, Minnesota--ARS cereal rust 
disease experts at the laboratory are the world experts on 
characterizing stem rust pathogens and are the only authorized 
laboratory in the United States to work with Ug99. The Cereal Disease 
Laboratory was provided $666,700. A portion of the new funds is being 
used to handle expanded demands to identify resistant wheat and barley 
germplasm and characterize unknown rust pathogens. New funding has been 
used to identify and verify emerging rust biotypes, culture and 
conserve live rust pathogens from foreign sources, and accurately 
identify host-plant resistance in seedlings, and adult plant resistance 
genes in collaborative research with U.S. wheat and barley breeders. A 
specific cooperative agreement has been established to partner with the 
University of Minnesota in pathogen screening and resistance breeding 
in wheat and barley.
    ARS Manhattan, Kansas, was provided $166,700 to combine three or 
more highly effective Ug99 resistance genes into hard winter wheat 
elite lines and deliver those to regional breeders and to identify 
resistance genes in wild relatives of wheat and move those genes into 
regional germplasm. A cooperative agreement was established with the 
wheat genetics program at Kansas State University. The ARS Manhattan 
location serves the Southern Great Plains Region that produces winter 
wheat, which is prone to stem rust overwintering and can serve as a 
source of stem rust spores for the central and northern Great Plains.
    ARS Raleigh, North Carolina, was provided $333,300 to accelerate 
breeding of Ug99 resistant winter wheat varieties in the Southeast, 
genotype parent lines for regional breeders for adult plant resistance 
to Ug99 and develop breeder-friendly DNA markers, partner with the 
international centers CIMMYT and ICARDA in screening international 
nurseries for Ug99 resistance, and coordinate screening of wheat lines 
for U.S. breeders in Eastern Africa. The ARS Raleigh location serves 
the Gulf Coast and Southeastern Region, another winter wheat region 
(principally soft red winter wheat) which is prone to stem rust 
overwintering, and can serve as a source of stem rust spores for the 
Mississippi River Valley, the Upper Midwest, and the East Coast.
    The ARS Small Grains and Potato Germplasm Research Unit, Aberdeen, 
Idaho, was provided $194,400 to identify Ug99 resistance genes in land 
races of the National Small Grains Collection and to support East 
African screening, to expand molecular marker analysis of the 
collection for rust resistance, and to enhance capacity of the 
repository to ensure that resistant accessions are readily available 
for U.S. wheat and barley breeders. The ARS Aberdeen location serves 
the Western Region that produces western white wheat and barley.
    The ARS Wheat Genetics Unit, Pullman, Washington, was provided 
$138,900 to expand germplasm evaluation for western white wheat and 
barley for stem and stripe rust resistance, expand genotyping for wheat 
and barley breeders in the West and for the National Small Grains 
Repository for stem rust resistance introgression, and to establish a 
specific cooperative agreement with Washington State University for 
barley resistance gene mapping.
    An additional $1.0 million was appropriated in fiscal year 2010 for 
Wheat Steam Rust (Ug99). The focus is on Action Plan goals 4-5. This is 
in keeping with Congressional intent that the new funds be used for 
development of stem rust resistant varieties, and for the overriding 
need to get disease resistant varieties developed and deployed in the 
most vulnerable regions of the United States. Emphasis has been placed 
on U.S. regions that are most prone to stem rust development and 
overwintering. In addition, we are emphasizing the protection of the 
majority wheat market in the United States, that is, winter wheat (70 
percent of all wheat grown in the United States). Ug99 protection of 
barley is also targeted because Ug99 also attacks barley and can 
overwinter on barley. Fiscal year 2010 funding was distributed as 
follows:

The Southern Great Plains Region
    ARS Manhattan, Kansas, was provided $270,000 to strengthen 
identification of new sources of Ug99 genetic resistance for deployment 
into hard red and white winter wheat. A combination of controlled 
conditions and field research is focused on incorporating adult-plant 
resistance into adapted genotypes in partnership with regional wheat 
breeders. Portions of the funding are being used for specific 
cooperative agreements with wheat breeding programs at Texas A&M 
University, Oklahoma State University, Kansas State University, and 
Colorado State University, to support development of new Ug99-resistant 
wheat varieties.
    ARS Lincoln, Nebraska, was provided $88,000 to develop Ug99-
resistant winter wheat and barley for the Great Plains. A portion of 
the funds is being used for a specific cooperative agreement with the 
University of Nebraska wheat breeding program.

The Gulf Coast and Southeastern Region
    ARS Raleigh, North Carolina, was provided $259,000 to expand 
identification, genotyping, and incorporation of adult-plant resistance 
in soft red winter wheat and winter barley, including field locations 
in Louisiana, Georgia, North Carolina, and Virginia. A portion of the 
funding will support specific cooperative agreements with wheat and 
barley breeding programs at Louisiana State University, University of 
Georgia, North Carolina State University, and Virginia Tech University.
    The Northern Plains Region, which produces principally hard red 
spring wheat and some barley, would be the primary ``recipient'' of 
stem rust spores produced from the more southern States:
    ARS Fargo, North Dakota, was provided $250,000 to identify and 
breed Ug99 resistant genes from the wild relatives of wheat into 
commercial wheat varieties, enhance genotyping for developing barley 
germplasm with resistance to Ug99 for all U.S. barley breeding 
programs, and to deploy Ug99 resistant genes into wheat and barley, 
particularly for the Northern Plains. A portion of the funds will be 
used for a specific cooperative agreement with the barley and wheat 
breeding programs at North Dakota State University.

The Western Region
    ARS Small Grains and Potato Germplasm Research Unit, Aberdeen, 
Idaho, was provided $133,000 to accelerate efforts to develop Ug99-
resistant wheat and barley. This includes strengthening support for the 
National Small Grains Collection to conserve accessions with cereal 
rust resistance and to introgress stem rust resistance into western 
barley germplasm.
    Question. If Ug99 continues to spread, what will its impact be on 
world food supplies?
    Answer. The United Nations Food and Agricultural Organization (FAO) 
estimates that 29 countries in East and North Africa, the Near East, 
and Central and South Asia--which account for 37 percent of global 
wheat production--have been affected by Ug99 or are at immediate risk. 
ARS research in collaboration with the international wheat research 
centers, CIMMYT and ICARDA, indicates that over 80 percent of the 
world's wheat production is vulnerable to Ug99. Pakistan consumes 22 
million tons of wheat annually and 35 percent of its citizens live 
below the poverty line. Wheat varieties grown in Pakistan and 
Afghanistan are completely vulnerable to Ug99 as are many varieties 
grown in India. Ug99 losses have already caused at least a 30 percent 
decrease in yield in Kenya. Small farmers who cannot afford fungicide 
treatments especially suffer from Ug99 losses. Further spread of Ug99 
would significantly reduce world grain supplies and could lead to grain 
speculation and higher grain prices.
    Question. How much will wheat production around the world suffer 
and what will be its impact on world hunger needs?
    Answer. Wheat represents approximately 30 percent of the world's 
production of grain crops, and the impact of Ug99 losses will be 
especially severe where wheat or barley is a major food staple. On 
average, each person in the world consumes 68.2 kilograms of wheat each 
year, about 630 calories per day per person, or one-half to one-third 
of the minimal energy requirements of most adults. In North Africa and 
in West and Central Asia, wheat provides more calories than all other 
grains combined. Nearly one-half of the world's wheat production this 
year will be harvested in developing countries. Currently, Middle 
Eastern and North African countries consume over 150 percent of their 
own wheat production and are heavily dependent on imports. In Sub-
Saharan Africa wheat is the number one urban food staple.

                   TRADITIONAL PRODUCTION AGRICULTURE

    Question. There is a growing perception among traditional 
agriculture that USDA is willing to disparage conventionally produced 
food to promote local production--creating a good food, bad food 
distinction and distorting the perceptions of consumers across the 
country.
    How is the agency prepared to defend traditional production?
    Is there any effort to include traditional production in the Know 
Your Farmer, Know Your Food initiative? If not, why not?
    Answer. USDA supports agriculture through every agency in our 
Department in a myriad of ways. USDA does not support nor does it 
maintain any ``good food/bad food'' distinction. USDA continues to 
defend U.S. farmers and agricultural products domestically and 
overseas, while working to provide valuable safety net assistance to 
farmers, sustain current markets, and promote new markets. USDA 
utilizes its authorities to help keep our farmers on the farm and 
sustain our rural communities, while helping them provide Americans and 
persons around the world with a safe, affordable, and abundant food 
supply. Two recent efforts will serve to highlight USDA's work on 
behalf of traditional production agriculture. First, since February 
2009, USDA expedited implementation of 2008 farm bill programs that had 
not been implemented by the last administration, including the 
Livestock Indemnity Program (LIP), Livestock Forage Disaster Program 
(LFP), Supplemental Revenue Assistance Payments (SURE) Program, and 
Emergency Assistance for Livestock Honey Bees, and Farm-Raised Fish 
(ELAP). To date, more than $480 million has been disbursed to farmers 
and ranchers under these major disaster programs. Notably, USDA 
implemented the Dairy Economic Loss Assistance Program (DELAP) in only 
60 days and has efficiently disbursed more than $270 million in 
assistance to dairy farmers in dire need. Second, USDA is actively 
working to support President Obama's National Export Initiative to help 
rebuild the economy by increasing export opportunities. This year 
alone, despite the sharp global economic downturn, USDA estimates that 
agricultural exports will reach $100 billion. Production agriculture 
will not only benefit from the National Export Initiative, it will also 
benefit from a more informed and engaged consumer population.
    The Know Your Farmer, Know Your Food initiative is designed to 
benefit all of American agriculture by facilitating a much-needed 
national conversation about food, food production, and all that farmers 
do to provide our food supply. One of the main goals of the initiative 
is to better link consumers to the farmers they rely on for every meal. 
An informed consumer that understands the capital investments and the 
weather and other risks associated with farming is more likely to 
support--or even act as an advocate for--traditional agriculture, 
compared to a consumer who has lost touch with agriculture. The 
initiative also seeks to foster new opportunities for all types of 
farmers by supporting new markets created by the demand for local and 
regional products. This will benefit rural communities as USDA 
strengthens the link between rural economies and agriculture and helps 
rural areas become economically sound, vibrant places to live. Examples 
of existing operations that serve as a model for the Know Your Farmer, 
Know Your Food effort include Illinois corn producers selling to a 
tortilla company in Chicago and a group of Pacific Northwest wheat 
farmers who have tripled their sales in the past 3 years by cooperating 
under a brand label to produce flour that constitutes a personalized 
product which can be easily traced back to its producers. We are taking 
an inclusive approach to the Know Your Farmer, Know Your Food effort, 
and look for successful examples and insights from all over 
agriculture.

                             CROP INSURANCE

    Question. You're in the middle of the renegotiation of the Standard 
Reinsurance Agreement (SRA) on crop insurance. As you know, the latest 
draft proposes significant additional reductions from the industry 
creating what most believe will be a significant deterioration of the 
quality of products available to producers and potentially the number 
of companies willing to offer crop insurance tools. How does USDA see 
the system functioning as a part of the farm safety net if companies 
cannot continue to offer crop insurance products to producers?
    Answer. Under the new SRA, insurance companies can expect to earn a 
reasonable rate of return, receive more stable payments, and have more 
protection in bad years. Although some consolidation has occurred in 
the Property and Casualty insurance industry generally, crop insurance 
companies have fared proportionately better--a trend that is expected 
to continue under the new SRA. In fact, in early March 2010 we expect 
to welcome Occidental Fire and Casualty Company of North Carolina as 
the newest participating company to sign the SRA. I believe the 
imminent signing of Occidental, and the continued interest of 
additional insurance companies, shows that this agreement is still a 
very attractive business proposition that will serve the crop insurance 
industry well for many years to come.
    The changes that USDA has proposed in the most recent draft of the 
SRA are justified for a variety of reasons. Administrative & Operating 
(A&O) subsidy payments for 2006 were $959 million, a level that 
motivated Congress to reduce the subsidy rate in the 2008 farm bill and 
to direct USDA to seek further reductions through the renegotiation of 
the SRA for 2011. Since 2006, there has been a 65 percent increase in 
A&O subsidy payments to the insurance companies with no commensurate 
increase in the number of policies sold.
    Managing risk is critical for all producers and every farmer and 
rancher deserves access to this important national program. However, 
geographical differences in loss patterns have resulted in dramatic 
differences in the concentration of companies and agents in the Corn 
Belt States compared with most other parts of the country. The draft 
SRA contains a number of features that are designed to expand the 
availability of crop insurance to places where there are currently few 
companies and agents selling policies, while ensuring that a high level 
of service will be maintained for those who have come to depend on it.
    The draft SRA rebalances the program's underwriting performance to 
level the playing field across the United States. In addition, it seeks 
to expand the availability of crop insurance by providing insurance 
companies with additional financial incentives to service those areas, 
producers, and operations that lack the product availability and 
quality service that many of the Corn Belt States currently enjoy. The 
draft agreement will provide the non-Corn Belt States with higher 
reference prices which will lead to higher A&O subsidies for these 
lesser-served States. Additionally, the draft SRA contains a provision 
to give back a portion of the Net Book Quota Share to those insurance 
companies that sell and service the lesser-served States. Together, 
these provisions will provide financial incentives for companies to 
foster enhanced service in lesser-served areas.

                   HEALTHY FOOD FINANCING INITIATIVE

    Question. As a part of the First Lady's ``Let's Move!'' campaign to 
address childhood obesity, the President's budget includes a $400 
million government-wide request for the Healthy Food Financing 
Initiative. USDA's part of this initiative is $50 million in direct 
appropriations that will support more than $150 million in loans, 
grants, and market promotion programs. I agree that far too many of our 
youth lead sedentary lifestyles and live in areas where less nutritious 
food is the first choice for a snack because fruits and vegetables are 
not easily found.
    Would you provide additional information on the overall initiative 
and USDA's specific role?
    Answer. The Healthy Food Financing Initiative will promote a range 
of interventions that expand access to nutritious foods, including 
developing and equipping grocery stores and other small businesses and 
retailers selling healthy food in communities that currently lack these 
options. Residents of these communities, which are sometimes called 
``food deserts'' and are often found in economically distressed areas, 
are typically served by fast food restaurants and convenience stores 
that offer little or no fresh produce. Lack of healthy, affordable food 
options can lead to higher levels of obesity and other diet-related 
diseases, such as diabetes, heart disease, and cancer.
    Through the new multi-year Healthy Food Financing Initiative and by 
engaging with the private sector, the administration will work to 
eliminate food deserts across the country within 7 years. With the 
first year of funding, the administration's initiative will leverage 
enough investments to begin expanding healthy food options into as many 
as one-fifth of the Nation's food deserts and create thousands of jobs 
in urban and rural communities across the Nation.
    USDA's proposed 2011 budget includes a funding level of $50 million 
that will support more than $150 million in public and private 
investments in the form of loans, grants, and promotion, and other 
programs designed to create healthy food options in food deserts across 
the country. Of that:
  --$35 million in fiscal year 2011 discretionary funding is to remain 
        available until September 30, 2012 for the Secretary to use for 
        financial and technical assistance.
  --$15 million in funds shall be made available for technical or 
        financial assistance and shall come from a set aside of up to 
        10 percent of the funds made available through programs 
        outlined in the budget request.
    Of the $50 million requested for USDA's component of the Healthy 
Food Financing Initiative, $15 million would be made available for 
technical or financial assistance and would come from a list of 
relevant programs outlined in the budget request. These funds would 
remain in the respective agencies and within the designated programs 
and would not be transferred to any other account. The program dollars 
set aside for the HFFI would be used to support strategies for 
addressing the healthy food needs.
    HFFI projects may require a combination of grants, loans and/or 
technical assistance, so this effort will require close coordination 
among USDA agencies to ensure that dollars are leveraged and used 
wisely. Coordination will occur throughout the process of announcing 
and selecting projects and where appropriate may include the use of 
consolidated solicitation and application processes to ensure the most 
worthy projects are identified and funded.
    The Agricultural Marketing Service, Rural Development, and the 
Office of the Secretary will work together to ensure that expertise 
within USDA is appropriately leveraged. AMS has considerable knowledge 
and expertise enhancing food access for low income populations and 
improving retail market access for small and mid-sized producers. Rural 
Development has significant expertise funding and supporting 
infrastructure development for purposes of economic development.
    Together, the two agencies, working in concert with the Office of 
the Secretary, will make funding available to provide:
  --technical assistance to grantees to help them with facility design, 
        and distribution logistics, and food marketing;
  --grants, loans, and loan guarantees in support of business and 
        infrastructure development and investment; and
  --administrative support of HFFI and project evaluation.
    Question. I understand that the Department of Treasury and the 
Department of Health and Human Services are also involved in this 
initiative, can you speak briefly to their role and how their programs 
are expected to complement USDA's efforts?
    Answer. Through the joint initiative, which was included in the 
President's budget for 2011, Treasury, USDA, and HHS would make 
available more than $400 million in financial and technical assistance 
to community development financial institutions, other nonprofits, and 
businesses with sound strategies for addressing the healthy food needs 
of communities. The initiative will make available a mix of Federal tax 
credits, below-market rate loans, loan guarantees, and grants to 
attract private sector capital that will more than double the total 
investment. Federal funds will support projects ranging from the 
construction or expansion of a grocery store to smaller-scale 
interventions such as placing refrigerated units stocked with fresh 
produce in convenience stores.
    Each of the three agencies brings a particular expertise and set of 
resources to the Healthy Food Financing Initiative. Specifically:
  --The Department of Agriculture specializes in improving access to 
        healthy foods through nutrition assistance programs, creating 
        business opportunities for America's farmers, and promoting 
        economic development in rural areas. USDA's proposed funding 
        level of $50 million will support more than $150 million in 
        public and private investments in the form of loans, grants, 
        promotion, and other programs that can provide financial and 
        technical assistance to enhance access to healthy foods in 
        underserved communities, expand demand and retail outlets for 
        farm products, and increase the availability of locally and 
        regionally produced foods. USDA has a solid track record of 
        supporting successful farmers markets, and has also invested in 
        grocery stores and creating agricultural supply chains for 
        them, such as in the People's Grocery project in Oakland, CA.
  --The Treasury Department will support private sector financing of 
        healthy foods options in distressed urban and rural 
        communities. Through the New Markets Tax Credit (NMTC) and 
        financial assistance to Treasury-certified community 
        development financial institutions (CDFIs), Treasury has a 
        proven track record in expanding access to nutritious foods by 
        catalyzing private sector investment. The Healthy Food 
        Financing Initiative builds on that track record, with $250 
        million in authority for the NMTC and $25 million for financial 
        assistance to CDFIs devoted to helping finance healthy food 
        options.
  --The Department of Health and Human Services (HHS) specializes in 
        community-based efforts to improve the economic and physical 
        health of people in distressed areas. HHS will dedicate up to 
        $20 million in Community Economic Development program funds to 
        the Healthy Food Financing Initiative. Through the CED program, 
        HHS will award competitive grants to Community Development 
        Corporations to support projects that finance grocery stores, 
        farmers markets, and other sources of fresh nutritious food. 
        These projects will serve the dual purposes of facilitating 
        access to healthy food options while creating job and business 
        development opportunities in low-income communities, 
        particularly since grocery stores often serve as anchor 
        institutions in commercial centers.
    Question. I am concerned that the budget request asks the Committee 
to eliminate any legal requirements regarding ``eligibility, area 
served, and size of loan'' when funding this program without a clear 
explanation of why this is necessary.
    Answer. Food deserts exist in both rural and urban areas. 
Successfully addressing the multi-faceted problem of food deserts will 
take a concerted effort by all sectors of society and requires the 
unique combination of financial and technical assistance proposed in 
the Healthy Food Financing Initiative. The statutory requirements of 
several of the programs included in the initiative include several 
provisions that would impede the initiative, for example, limitations 
to rural areas, or areas less than a certain level, and loan limits 
below those necessary to serve large projects in urban areas. Rather 
than asking for a broad repeal of these limitations, USDA is asking for 
the discretionary authority to eliminate them only for the HFFI.
    Question. Would you explain the intent of this request and provide 
examples of how USDA's current authority prohibits full implementation 
of the Healthy Food Financing Initiative as envisioned?
    Answer. The community facility programs are limited rural 
communities and towns of less than 20,000 population and the business 
and industry loan program is limited to rural areas of less than 
50,000. The statutory limit on the loans to intermediaries under the 
Intermediary Relending Program is $2 million, regardless of the number 
of ultimate recipients they serve, and the statutory limit on loans to 
rural microentrepreneurs under the Rural Microentrepreneur Assistance 
Programs is $50,000. While these limits may be adequate to serving 
projects in rural areas, they would preclude reaching out to urban 
areas that can best be served by larger projects, such as the recently 
constructed grocery store that is now serving the Anacostia area of 
Washington, DC.
    Question. Under what circumstances would the Department overlook 
eligibility requirements when making grants and loans?
    Answer. Projects under the HFFI would be expected to meet other 
statutory and regulatory requirements for the programs used to provide 
financing. In short, they would need to show that they are competitive 
with other applications for these programs, except for those 
requirements that would be waived.

                      SINGLE FAMILY HOUSING LOANS

    Question. Because traditional home loans are increasingly difficult 
to secure, USDA's single family housing guaranteed loan program has 
become an attractive alternative for those seeking to purchase a home 
in rural America. I understand USDA has been guaranteeing around $2 
billion worth of loans per month--a staggering amount. The fiscal year 
2010 appropriations bill provided funding to guarantee $12 billion in 
single family housing loans.
    Would you provide an update on this program? Is current funding 
sufficient to meet demand in fiscal year 2010?
    Answer. Like all of the Rural Development programs, funding is not 
determined by demand. These are discretionary programs with a set level 
of funding as provided by Congress. In 2010, RD will obligate the full 
funding level provided by Congress in the 2010 appropriations. We 
should note that there is frequently a greater demand than available 
funding for below market financing. Just as there can be a backlog in 
the Water and Wastewater program, so can there be a backlog in any of 
the RD programs, including 502 Guarantees.
    Fiscal year 2010 has had some specific challenges that have 
aggravated demand lately. Due to this strong demand arising from the 
housing and economic crisis, and the success of our program across the 
country, the private sector remains reluctant to make home loans absent 
Government backing. Also, in some areas the Rural Development SFH 
guaranteed program is the only financing available. Until the crisis, 
the guaranteed loan program historically obligated about $3 billion 
each fiscal year. The crisis pushed obligations to a record $6.9 
billion in fiscal year 2008 and to another record $16.2 billion during 
fiscal year 2009. The $16.2 billion obligated in fiscal year 2009 
included substantial funding from the American Recovery and 
Reinvestment Act of 2009 (ARRA) which provided about $10 billion for 
the program.
    The guaranteed loan program received almost $12 billion in program 
level from the fiscal year 2010 appropriations bill. In addition, ARRA 
funding in the amount of $1.1 billion carried over from fiscal year 
2009. We are continuing to monitor the level of demand for the program 
and will keep the committees informed of the status.
    Question. To help ease the burden on the program and give the 
Department authority to guarantee more loans, the budget request 
includes a proposal to charge an annual 0.5 percent fee to lenders, 
which is consistent with the operation of HUD's FHA loan program. This 
fee will make the single family housing program essentially a ``no 
cost'' program allowing the Department to guarantee loans without 
appropriated funds supporting the loan level.
    Do you expect lenders to pass this fee on to borrowers? If so, do 
you have an estimate for how much the monthly payment for borrowers 
will increase?
    Answer. We expect lenders to pass the annual fee on to borrowers, 
the same way as is done for FHA loans. The annual fee will be capped at 
0.5 percent and in fiscal year 2011 is expected to be 0.15 percent of 
the guaranteed principal loan amount. On a $100,000 loan, the annual 
fee will be $150. This results in an additional monthly payment of 
$12.50. This is a nominal increase and should be affordable.
    Question. In addition to the fee proposal, the budget also includes 
language that will allow lenders to directly issue loan guarantees on 
behalf of USDA. This proposal is consistent with FHA and VA loan 
programs. Why are you seeking this change now?
    Answer. Direct endorsement will streamline the loan making process 
and achieve a measure of consistency with the Federal housing programs. 
Some private sector lending partners have repeatedly requested direct 
endorsement capabilities. Also, this will make the agency more 
efficient and allow the single family housing staff to focus more on 
single family housing direct loans.
    Question. USDA's loan portfolio is much stronger and has a lower 
default percentage than traditional loans and loans guaranteed by other 
government agencies. We would like to maintain the Department's 
outstanding record. Does giving a 3rd party authority to issue these 
loans put USDA's portfolio at risk? What does USDA plan to do to make 
sure this change does not put the portfolio at risk?
    Answer. We expect the current excellent portfolio credit quality 
will be maintained. The intent is to limit direct endorsement to 
lenders that have demonstrated strong program knowledge and 
responsibility. Only well performing lenders would be given direct 
endorsement capabilities, and they would be closely monitored on a post 
closing basis. Lenders with direct endorsement would have to submit 
their loans through Rural Development's automated underwriting system. 
Loans receiving an ``accept'' from the automated underwriting system 
have demonstrated better performance than loans which are manually 
underwritten.

                     REGIONAL INNOVATION INITIATIVE

    Question. The budget request unveils a new program called the 
Regional Innovation Initiative. Funding for this program comes from a 5 
percent tap to existing rural development, Agricultural Marketing 
Service, Natural Resources Conservation Service, and forestry programs 
which are not under the jurisdiction of this subcommittee. Through 
these taps the Department expects to generate $280 million in loans and 
grants for this initiative. The goal of the initiative is to ``promote 
economic opportunity and job creation in rural communities through 
increased regional planning among Federal, State, local and private 
entities.''
    While I recognize that regional planning can be beneficial, I am 
concerned that the budget and your testimony lacks sufficient details 
describing how this program will be implemented, especially since the 
budget proposes to redirect 5 percent of programs that are either 
generally oversubscribed or not under the jurisdiction of this 
subcommittee. Does USDA currently have sufficient authority to allow 
the inclusion of these regional innovation grants and loans in the 
programs you propose to tap?
    Answer. USDA has a series of programs that are already oriented 
toward regional economic development. These programs include broadband 
loans administered by the Rural Utilities Service, the Community Food 
System Program administered by NIFA, and the Rural Business Opportunity 
Grant (RBOG) program. USDA has expertise with regional economic 
development, but we believe our overall economic development activities 
can be better targeted toward the goals of this initiative.
    RBOG is one example of an oversubscribed regional economic 
development program. Created in the 1996 farm bill, this program 
provides grants to nonprofit organizations, public bodies, and tribes 
for strategic technical assistance, training, and planning activities 
that promote ``best practices'' in sustainable rural economic 
development. The 2009 RBOG program yielded dozens of regional 
applications, including 21 multi-State applications. Because of our 
funding level, Rural Development simply couldn't fund most of these 
applications. We believe that this program holds great promise for the 
early steps in regional economic development of planning and 
collaboration.
    RBOG grantees will be just one of a variety of regional 
organizations that USDA has supported through the Rural Development 
Mission Area. Others include Empowerment Zones, Enterprise Communities, 
and Champion Communities; Rural Economic Area Partnership, or REAP, 
zones; the Delta Regional Authority, and the Appalachian Regional 
Commission; and organizations with cooperative agreements with Rural 
Development around certain priority areas, such as food systems or 
economic diversification in regions dominated by a National Forest. 
Rural Development will focus additional outreach and technical 
assistance on these groups, as well as monitoring for results under the 
Department's commitments to OMB's High Priority Performance Goals 
process.
    In addition, Rural Development already has undertaken two 
significant efforts toward the Department's larger regional strategy. 
First, a team has been assembled in headquarters to begin reviewing all 
Rural Development programs, starting with those identified for 
inclusion in the regional provisions of the President's 2011 budget, to 
ensure that agency regulations and application evaluation criteria do 
not disadvantage applicants seeking financing of a regional project. 
Where necessary, the Administrators of Rural Housing Service, Rural 
Utilities Service, and Rural Business--Cooperative Service will propose 
regulatory modifications.
    Second, Rural Development's 47 State directors have been tasked 
with developing more active working relationships with other Federal 
and State partners to assist in recruiting regional projects, beginning 
with the food system arena, where an existing statutory set-aside of 5 
percent of budget authority in the Business and Industry Loan Guarantee 
program offers priority to projects that benefit rural, tribal, or 
urban food deserts. The Rural Development State Director might defer to 
a HUD financing strategy for a grocery store in an urban food desert, 
but still finance a produce distribution facility or meat processing 
facility in a rural area that would help supply the new urban grocery 
store as well as other surrounding retail outlets. With most other 
Federal agencies appointing multi-State regional representatives, Rural 
Development also has grouped its State directors into four regions 
coinciding with those of the Regional Rural Development Centers under 
the National Institute of Food and Agriculture.
    To the extent that authority already exists, the initiative is 
designed to utilize the statutory authorities for on-going programs. In 
the case of grants for regional planning activities, the Rural Business 
Opportunity Grant (RBOG) program would be utilized because the 
statutory authority for that program to grant to conduct ``regional, 
community, and local economic development planning and coordination, 
and leadership development.''
    Question. For loan and grant purposes, how do you intend to define 
areas that are ``engaged in regional innovation''?
    Answer. The areas are to be self-defined based on the documentation 
of an applicant's participation in regional planning activities.
    Question. How do you plan to measure success for this program?
    Answer. The work will be done by the Community and Economic 
Development staff in Rural Development, initially as part of the OMB 
High Priority Performance Goal process, with additional staff support 
from other USDA agencies and eventually other Departments with programs 
offering regional opportunities. The 2011 budget proposal provides this 
work will be done by the Office of Regional Innovation, which would be 
housed within Rural Development.
    Rural Development will apply the existing standards and scoring 
criteria of the RBOG regulation to applicants in 2010. The process for 
selecting grant recipients will be competitive and transparent. In 
addition, the Notice of Funds Availability (NOFA) asks all applicants 
to demonstrate: clear regional leadership; evidence of broad 
participation, including demographic diversity within the region; and 
evidence of broad collaboration among Federal, State, and local 
government agencies, private for-profit and non-profit firms, 
universities, and philanthropic organizations, including both their 
participation in and financial support of the project. The NOFA 
recruits applications focused on economic opportunities in rural 
America: addressing end users in regional broadband projects; regional 
food system projects; regional renewable energy projects; projects 
demonstrating innovative use of natural resources to expand business 
opportunities; and projects designed to attract new equity capital into 
rural areas.
    There are program performance measures already established for each 
of the programs included in the initiative, for example, the number of 
jobs created or saved. It is anticipated that these measures will show 
high program performance in areas with regional innovation than those 
without such activities. Other measures may also be developed and 
program participants will be required to participate in the monitoring 
of performance.

                                  SNAP

    Question. Currently, 38 million people participate in the 
Supplemental Nutrition Assistance Program (SNAP), a record high level 
of participation driven primarily by the poor economy and unemployment. 
The budget proposal suggests that the final participation number for 
fiscal year 2010 will be more than 40 million participants with an 
unemployment rate of 10.1 percent. For fiscal year 2011, the Department 
estimates that 43 million people will participate in the program and 
unemployment will be 9.5 percent, a drop of 0.6 percent from the 
previous year's estimate. Given that unemployment is usually a strong 
indicator of SNAP participation and that the Department estimates 
unemployment will drop in fiscal year 2011, what is driving the 
participation estimate up by 3 million participants to more than 43 
million people? Is there an underlying factor that is not explained by 
the unemployment rate?
    Answer. SNAP participation is driven to a large extent by the 
national unemployment rate. However, the relationship between the two 
elements contains an inherent lag with SNAP participation growth 
lagging increases in the unemployment rate. Therefore, a decline in 
SNAP participation may not occur until well after the end of the 
recession and drop in unemployment.

         VOLUNTARY PUBLIC ACCESS AND HABITAT INCENTIVE PROGRAM

    Question. What is the status of the Voluntary Public Access and 
Habitat Incentive Program?
    Answer. The Voluntary Public Access and Habitat Incentive Program 
regulation is currently under review. Our plan is to have this 
regulation published in the Federal Register later this spring.

                         DISCRIMINATION CLAIMS

    Question. Mr. Secretary, the President recently submitted a request 
for $1.150 billion to settle discrimination claims brought by Black 
farmers. Unfortunately there are similar claims of discrimination by 
other groups (women, Native Americans, and Hispanics).
    What can you tell us about these other claims?
    Will they be settled in the near future?
    What is the potential liability of the Federal Government?
    What is being done to prevent future discrimination?
    Answer. I am committed to trying to resolve all farmers' claims of 
discrimination, including the claims of women (Love), Native Americans 
(Keepseagle), and Hispanic (Garcia) farmers.
    U.S. Department of Justice (DOJ) and U.S. Department of Agriculture 
(USDA) are currently reviewing all available options in order to 
establish a path forward that will resolve all of the major cases 
pending before USDA. We are currently involved in confidential 
settlement discussions involving these cases. Consequently, all 
litigation has been stayed. Because of the confidential nature of the 
discussions, it is difficult for me to offer specifics on potential 
liability.
    All farmers and all of USDA's customers should be treated fairly 
and equally. I remain absolutely committed to that principle and have 
made it a top priority for the Department. On April 21, 2009, I 
published a civil rights statement that noted, ``This is a new day for 
Equal Employment Opportunity, program delivery, and civil rights in 
USDA. I intend to lead the Department in correcting its past errors, 
learning from its mistakes, and moving forward to a new era of 
equitable service and access for all.'' As we work to resolve all of 
the major cases pending before USDA, I will be guided by those 
commitments and will seek a just and equitable outcome for the various 
groups of individuals who believe they have suffered from 
discrimination.
    To prevent future disparate treatment, USDA is undertaking several 
proactive measures which should decrease the filing of discrimination 
complaints. These measures include an independent assessment of program 
delivery, increased emphasis on outreach to socially disadvantaged and 
small and beginning farmers through the establishment of the Office of 
Advocacy and Outreach, reviewing findings of discrimination by the 
Office of Human Resources Management to determine if adverse actions 
are warranted and increased training for employees in civil rights.
    In April 2009, USDA published a Request for Proposals to obtain an 
independent analysis of access to program delivery at the Farm Service 
Agency, Rural Development, Natural Resources Conservation Service, and 
the Risk Management Agency. After approximately 7 months of field 
interviews of USDA employees as well as gathering feedback from USDA 
customers, a thorough report will be provided to the USDA that lists 
specific recommendations and methodologies the Department can adopt to 
ensure programs are delivered equitably and fairly. These 
recommendations will ensure that access is afforded to all 
constituents, including socially disadvantaged farmers, ranchers, and 
rural America.
    The Office of Human Resources Management under Departmental 
Management has been delegated responsibility for the establishment of 
an initiative to review all settlement agreements and decisions in 
program, individual, and employee complaints of discrimination. This 
initiative will ensure the highest level of accountability and fiscal 
responsibility is maintained within the USDA.
    Key components of the initiative are as follows:
  --Review of all settlement agreements and decisions finding liability 
        against the Agency in program, individual, and employee 
        complaints of discrimination.
  --Investigations or inquiries to determine responsibility for the 
        actions or inactions leading to Agency liability.
  --Appropriate administrative actions to correct future conduct.
  --Increased awareness of individuals in decision-making positions to 
        make responsible decisions.
  --Improvements in programs to ensure that all services are available 
        in a nondiscriminatory manner.
  --Hold USDA personnel accountable and responsible for their actions.
    This last mandate will ensure that USDA employees at all levels 
will be held accountable for ensuring that all USDA applicants, 
customers, constituents, and stakeholders, as well as employees, are 
provided equal access to USDA opportunities, programs, and services.
    The initiative to review settlement agreements and decisions in 
program, individual, and employee complaints of discrimination will be 
instrumental in improving civil rights and making USDA a model 
department.
    Additionally, all employees are required to take annual EEO 
training, in conjunction with the Department issuing the annual notice 
on discrimination. Finally, the Secretary and Assistant Secretary for 
Civil Rights have regularly given speeches and issued correspondence 
regarding civil rights, EEO, diversity, and the consequences of 
violating the civil rights of individuals, employees, and USDA 
customers.
    The 2008 farm bill authorized the creation of the Office of 
Advocacy and Outreach'' (OAO), which was established under the 
Assistant Secretary for Administration on November 3, 2009. This action 
brought together outreach, advocacy and scholarship programs which were 
scattered throughout the USDA. The Office is in the process of 
obtaining staff, implementing grant and scholarship programs, and 
assembling two Advisory Committees--the Small and Beginning Farmer and 
Rancher Advisory Committee and the Minority Farmer Advisory Committee 
are being assembled. The Office is also developing accountability 
systems such as a receipt for services and the Program Participation 
Initiative that will track service to landowners by race, ethnicity and 
gender.
    OAO will work with all USDA agencies to develop a comprehensive 
Departmental Outreach Plan to guide future activities of USDA. OAO is 
also charged with conducting a review of all rules and regulations in 
USDA to assess barriers to full participation in USDA programs by 
underserved groups.
    The creation of OAO as a distinct entity in the Department will 
place heightened emphasis on making USDA programs accessible to all. 
The mission of OAO is ``to increase access to programs of the 
Department and increase the viability and profitability of small farms 
and ranches, beginning farmers or ranchers, and socially disadvantaged 
farmers or ranchers.''
    Finally, I have directed all USDA political appointees to receive 
civil rights training. The Assistant Secretary for Civil Rights is 
providing the same civil rights training to senior managers in the 
field offices at the Farm Service Agency, Natural Resources 
Conservation Service, and Rural Development, especially in those States 
where USDA agencies report significant numbers of program 
discrimination complaints. In a video-taped message to training 
participants, I emphasized the importance of implementing USDA's civil 
rights policy and reminded attendees of their responsibility to ensure 
USDA constituents have full and equitable access to USDA programs and 
services. The civil rights training includes a historical perspective 
of civil rights at USDA, employment and program complaint processing, 
dispute resolution, civil rights compliance, and diversity. To date, 
trainings have been conducted in New York, Texas, Louisiana New Mexico, 
Florida and Oregon.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                       CATFISH INSPECTION PROGRAM

    Question. Secretary Vilsack, the administration's budget request 
recommends a decrease of $10.3 million for the catfish inspection 
program under the Food Safety Inspection Service. The farm bill was 
very clear that regulations for this program be completed within 18 
months of passage of the farm bill. Can you elaborate on this budget 
request and inform the subcommittee when you expect the Department of 
Agriculture to both release the regulations and begin implementation of 
this program?
    Answer. We believe that the $5 million requested for catfish 
inspection is adequate to meet essential program needs in fiscal year 
2011. The draft proposed rule is currently under review. In the 
meantime, FSIS is working diligently in order to develop the foundation 
needed to assume catfish inspection responsibilities upon 
implementation of a final rule.
    Question. In the President's budget request for the Catfish 
Inspection Program, the administration notes a ``need for considerable 
stakeholder engagement.'' What is the Department doing to engage 
stakeholders?
    Answer. Upon publication of the proposed rule, USDA will seek 
public comments on the proposed rule. In addition, USDA plans to hold 
three public meetings on the proposed rule, which will likely take 
place in Arkansas, Mississippi, and Washington, DC. We are developing 
significant outreach and communication plans for both domestic and 
foreign stakeholders to commence once the proposed rule is published.

             THE FOOD, CONSERVATION, AND ENERGY ACT OF 2008

    Question. Mr. Secretary, the administration's fiscal year 2011 
budget submission includes proposals that require opening up and 
amending the Food, Conservation, and Energy Act of 2008. I have 
concerns about the implications of amending a farm law that was 2 years 
in development and which still has not been fully implemented. I would 
like to know your thoughts about the possible undermining of confidence 
in farm policy and the adverse impact on the rural economy that would 
result if Congress makes significant changes to farm law before its 
scheduled expiration?
    Answer. I feel that the President's budget proposals regarding 
``payment limits'' and ``Adjusted Gross Income'' criteria actually 
strengthen confidence in U.S. farm policy, rather than undermine it. By 
focusing farm program payments to those most in need, and working to 
reduce the additional $12 trillion in debt that has accumulated since 
the beginning of the decade, we are working to ensure that Federal 
funds are being spent wisely.
    The Department provides a strong set of financial safety net 
programs to ensure the continued economic viability and productivity of 
production agriculture, including farm income and commodity support 
programs, crop insurance and disaster assistance, as well as other 
programs. The farm safety net is critically important and provides the 
foundation for economic prosperity in rural America. For 2011, USDA 
estimates that roughly $17 billion in total direct support will be 
provided to farm producers and landowners through a variety of 
programs.
    Recognizing the need to reduce the deficit, the budget proposes to 
better target direct payments to those who need and can benefit from 
them most as well as cap total payments paid to larger operations. The 
savings from these proposals will impact approximately 30,000 program 
participants, which is about 2 percent of the 1.3 million total program 
participants, and will over time comprise less than 2 percent of the 
total direct support the Department expects to provide annually to farm 
producers and landowners.

                         PIGFORD II SETTLEMENT

    Question. Mr Secretary, in regards to the Pigford II settlement, 
thousands of the farmers that have claims against the USDA are from 
Mississippi. I hope this settlement will resolve these claims in a fair 
way that is consistent with the court rulings rendered in these cases. 
I am told that under the settlement agreement, between 4.1 percent and 
7.4 percent of the appropriated funds will be spent on attorney's fees. 
Can you tell me how USDA derived these percentages?
    Answer. Subject to court approval, the parties have agreed to a 
range of attorneys' fees that will be not less than 4.1 percent but not 
more than 7.4 percent of the total amount of funds available for the 
settlement minus any money spent to implement the non-judicial claims 
process established in the agreement. Although the agreement permits 
plaintiffs to move for a fee award of 7.4 percent, the Agreement 
expressly provides that the Secretary can respond to plaintiffs' fee 
petition and argue to the Court that the Fee Award should be limited to 
4.1 percent. The parties arrived at this structure through arms-length 
negotiation.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                                 DAIRY

    Question. I would like to stay on the topic of dairy and speak 
about cattle health. The health of cattle also can suffer during these 
economically challenging times for dairy farmers. Less income means 
less money spent on preventative care and waiting longer to take care 
of a sick animal. This not only can affect the farmer's bottom line, 
but it also may affect human health.
    What is the USDA doing to ensure the health of our Nation's dairy 
cattle?
    Answer. APHIS conducts a variety of activities to protect the 
health, quality, and marketability or our Nation's animals. These 
activities include surveillance to quickly identify diseased animals, 
and emergency response capabilities that allow for the Agency to 
provide leadership, strategies, and resources for effective emergency 
response and management. These activities help to minimize exposure of 
animals to diseases that negatively impact producers.
    APHIS also assists States and producers with developing approaches 
for disease management of cattle herds by providing technical 
assistance. For example, APHIS has provided assistance to States and 
producers in developing and implementing their Johne's disease 
management, testing, and monitoring strategies for use in controlling 
the disease in cattle herds. APHIS also remains vigilant in protecting 
herds from economically significant animal diseases, such as 
brucellosis and tuberculosis, through effective control and eradication 
programs.

                   NOT-READY-TO-EAT POULTRY PRODUCTS

    Question. On December 21 of last year Senator Snowe and I sent a 
letter (attached) to you regarding our concerns about the process for 
new regulations being promulgated by USDA's Food Safety and Inspection 
Service (FSIS) for certain Not-Ready-to-Eat poultry products without 
employing the traditional rulemaking process as outlined in the 
Administrative Procedures Act (APA). This important issue affects a 
number of producers across the country, including Barber Foods, a Maine 
company employing 750 people.
    It is my understanding that FSIS will make a significant change in 
agency policy on regulation of Not-Ready-to-Eat poultry products which 
appear Ready-to-Eat. Specifically, FSIS is considering a change which 
would declare Salmonella to be an adulterant and would require non-
detectable levels of Salmonella in Not-Ready-to-Eat poultry products 
which appear Ready-to-Eat.
    A change in agency policy to regulate the presence of Salmonella in 
these products as an adulterant would reverse the long-standing policy 
of FSIS and establish a new precedent. Under the APA, changes to long-
standing agency policies are to be made through formal rulemaking 
procedures.
    Let me be very clear that the safety of our Nation's food supply is 
of paramount importance, and I am not commenting on the merits of the 
regulation change. I encourage FSIS to take all necessary steps to 
improve the safety of our food supply. Even the most important policy 
goals, however, must be implemented in accordance with the procedures 
established by law.
    Since I have yet to receive a response to my letter, I wanted to 
take this opportunity to ask you what specific steps FSIS is taking to 
make sure any regulatory change for Not-Ready-to-Eat poultry products 
which appear Ready-to-Eat are made in accordance with APA requirements?
    Answer. The problem of Salmonella in not-ready-to-eat (NRTE) 
stuffed poultry that appears to be ready-to-eat (RTE) is longstanding. 
There is a history of consumers purchasing the product, treating it as 
though it were RTE, and then getting sick. For more than a decade we 
have worked with companies making these NRTE products to identify and 
implement strategies that will result in a safer product. 
Unfortunately, despite our efforts, the problem persists.
    We are committed to ensuring that any decisions about these 
products will be made in an open and transparent manner. Accordingly, 
please be assured that as USDA moves forward in this effort, we will 
provide ample opportunity for industry and, indeed, all interested 
parties to comment on any actions that FSIS tentatively determines are 
necessary to protect the public health. Ample time will also be allowed 
for the companies involved to implement any actions that FSIS may 
decide to require. We must all be aware, however, that while we work 
with companies to identify actions likely to be most effective, people 
continue to risk becoming ill from these products.
                    congressionally direct spending
    Question. For all congressionally direct spending, please provide 
for each: a funding history, all ultimate funding recipients, a 
statement of goals and accomplishments, any assessments made on funding 
amounts and how those funds were used.
    Answer. The information is submitted for the record.
    [The information follows:]

                        Special Research Grants

                  ADVANCING BIOFUEL PRODUCTION, TEXAS

    The research under this project is being conducted at Texas A&M 
University and Baylor University. The goal of the proposed project is 
to enhance understanding of crop composition on bioenergy conversion, 
using sorghum as a model dedicated energy crop. Understanding the 
composition of this crop and its effect on conversion efficiency is 
crucial to the development of alternative energy sources. From the 
Texas A&M University sorghum program, biomass samples from different 
sorghum types grown under different agronomic practices were produced, 
dried, ground, and provided to Baylor University personnel. Samples 
continue to be analyzed for potential conversion to biofuels. The 
analysis focuses on the sugar composition using a protocol developed 
specifically for the analysis.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $148,950; for fiscal year 2009, 
$140,000; and for fiscal year 2010, $300,000. The total amount 
appropriated is $588,950.
    Research activities to complete the objectives began in 2008. 
Samples of sorghum have been produced and are currently being analyzed 
to address the original objectives to analyze water-soluble materials 
in sorghum, investigate the optimal conversion technology and operation 
conditions for conversion into biofuel, and evaluate the existing 
germplasm and continued breeding programs to develop sorghum varieties.
    The NIFA National Program Leader has had discussions with the 
principal investigator from Texas A&M University. A site visit to 
Baylor University is planned for 2010.

                ADVANCED GENETIC TECHNOLOGIES, KENTUCKY

    This research focuses on developing the infrastructure needed to 
initiate advanced genetic technologies used in the study of 
agriculturally relevant plants, animals, and microbes. The research 
will integrate the modern laboratory methods of large-scale DNA 
sequencing with computational methods to interpret DNA sequences and 
identify genes and key features of genomes. Pilot studies will be 
conducted to obtain sequences from an important symbiont of tall 
fescue, the most widely planted forage grass in the United States, and 
also from an important horse parasite. Other pilot studies will be 
invited and pursued as appropriate.
    The results of this research will enhance techniques of genetic 
analysis, and through such techniques, increased understanding of 
genomes of plants, fungal symbionts of plants, and animal parasites. 
The techniques developed by this research will enable genome sequencing 
for numerous microorganisms that are pathogenic or symbiotic with 
agricultural plants and livestock in the local environment. The project 
will support the training of students and post-docs for work in the 
life science and computer science.
    The work supported by this grant began in fiscal year 2001, and the 
following amounts have been appropriated: in fiscal year 2001, 
$473,955; in fiscal year 2002, $600,000; in fiscal year 2003, $670,613; 
in fiscal year 2004, $600,436; in fiscal year 2005, $644,800; in fiscal 
year 2006, $638,550; in fiscal year 2007, $0; in fiscal year 2008, 
$480,612; in fiscal year 2009, $452,000; and fiscal year 2010, 
$650,000. The total amount appropriated is $5,210,966.
    The research is being conducted at the agricultural experiment 
station maintained by the University of Kentucky.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission.

          AEGILOPS CYLINDRICA (JOINTED GOATGRASS), WASHINGTON

    The purpose of this initiative is to investigate the biomass and 
bioproduct potential of plants that are typically classified as weeds 
when they invade land used for growing crops. Weedy plants have traits 
that allow them to compete successfully for resources and to grow 
rapidly. An issue related to biomass production is whether traits 
derived from weedy plants might be used to augment production of 
biomass crops and/or whether weedy plants might be developed into 
biomass crops. The goal with Aegilops cylindrica, or jointed goatgrass, 
is to determine whether the robust growth of jointed goatgrass-wheat 
hybrids might make these hybrids or related plants that carry some of 
their traits useful in dryland areas. These hybrids are annuals and 
almost completely sterile so if the hybrids themselves were used as a 
biomass crop, there would not be a significant control problem. Three 
other weedy plants also will be investigated. Research on a hybrid 
poplar will determine whether it is possible to reroute significant 
amounts of carbon from the phenylpropanoid pathway that generates 
lignin precursors to other phenolic compounds that might be used as 
high-value biofuels. The ability to divert carbon from lignin into a 
valuable commodity would be especially useful in lignified biomass 
crops like poplar, which is an invasive tree well suited to the Pacific 
Northwest. Arundo donax, or giant reed, is an invasive and fast-growing 
grass, and various photosynthetic parameters will be investigated to 
determine why light harvesting or carbon allocation is so efficient. 
There is a good control plan in place for experimental plantings that 
rely on water limitation and herbicide application to eliminate the 
plant when necessary. Lactuca serriola, or prickly lettuce, will be 
evaluated to determine if it is possible to increase the quantity or 
quality of the latex compounds in the sap. There have been recent 
advances in gene mapping in this plant, and the focus may be on the 
weed itself but an alternative might be to take the genes responsible 
for isoprenoid polymerization to latex and move them into an alternate 
plant.
    Previous work with jointed goatgrass focused on controlling 
invasion into wheat fields. The research has been a success. Scientists 
developed cultural practices to suppress this weed and combined these 
practices with a technology to allow elimination of jointed goatgrass 
by application of a herbicide during cultivation of a herbicide-
resistant wheat developed for this project. Now that goatgrass can be 
controlled, progress has been made by gathering hybrids and probable 
parental plants from several locations for fiber analysis and by 
producing better defined crosses in greenhouses to generate the needed 
amount of hybrid seed for field testing. Preliminary experiments with 
giant reed have shown an impressive growth rate and extremely high rate 
of carbon dioxide assimilation. Prickly lettuce species and biotypes 
have been surveyed for latex quality and quantity; and matings have 
been carried out to develop populations for mapping productivity 
traits, and genetic markers are being screened. The research on poplar 
continues with cloning high capacity genes for using the 
phenylpropanoid pathway to reroute carbon flux to aromatic monomers.
    The initial work supported by this grant began in fiscal year 1994. 
The appropriation for fiscal year 1994 was $329,000; for fiscal years 
1995 1997, $296,000 each year; $346,000 for fiscal year 1998; $360,000 
each year in fiscal years 1999 and 2000; $359,208 in fiscal year 2001; 
$367,000 in fiscal year 2002; $380,511 in fiscal year 2003; $340,976 in 
fiscal year 2004; $355,136 in fiscal year 2005; $351,450 in fiscal year 
2006; $0 in fiscal year 2007; $261,159 in fiscal year 2008; and 
$245,000 per year in fiscal years 2009 and 2010. Total appropriations 
are $5,188,440.
    This work is being carried out at Washington State University.
    This project has been previously peer reviewed for scientific merit 
and adherence to the program objectives by a panel of scientists and 
producers. Senior agency scientists have reviewed the overall grant 
annually. Progress toward the new objectives was evaluated based on a 
progress report and during a site visit in the fall of 2009.

                  AGRICULTURAL DIVERSIFICATION, HAWAII

    Diversified agriculture offers new opportunities and includes 
specialty fruits that open a variety of new markets. The overall 
objective of this project is to provide scientific and outreach support 
services that enable Hawaii entrepreneurs to increase their revenues or 
profits from growing and selling specialty fruits.
    Highlights of work that have been accomplished include establishing 
a private sector oversight committee to review program activities, 
research on identification of new products, risk analysis, market 
analysis, and provision of business guidelines for growing and selling 
new crops. Since project inception, there has been a two- and one-half 
fold increase in the number of farms growing tropical specialty fruit 
crops and a three-fold increase in the value of the crops produced on 
these farms.
    Grants have been awarded from funds appropriated as follows: for 
fiscal years 1988-1989, $156,000 per year; for fiscal years 1990-1993, 
$154,000 per year; for fiscal year 1994, $145,000; for fiscal years 
1995-2000, $131,000 per year; for fiscal year 2001, $130,712; for 
fiscal year 2002, $128,000; for fiscal year 2003, $127,168; for fiscal 
year 2004, $113,327; for fiscal year 2005, $112,096; fiscal year 2006, 
$218,790; for fiscal year 2007, $0; for fiscal year 2008, $162,852; and 
for fiscal years 2009 and 2010, $153,000 per year. A total of 
$3,157,945 has been appropriated.
    Research is being conducted at the University of Hawaii's College 
of Tropical Agriculture and Human Resources on the island of Oahu, and 
other Hawaiian islands.
    Evaluation of this project is conducted annually based on the 
annual progress report and discussions with the principal investigator. 
It has been determined that progress in the development of new 
agricultural opportunities and use of decision-making tools for farmers 
and entrepreneurs is satisfactory.

         AGRICULTURAL ENTREPRENEURAL ALTERNATIVES, PENNSYLVANIA

    This research is focused on key areas with entrepreneurial growth 
potential and will expand into two new areas with considerable growth 
potential. Such areas include bio-based energy, green buildings and 
organic foods. This research will determine the most effective methods 
designed to increase small farm profitability by improving farmers' 
business management, marketing, and production practices; and to 
identify barriers to marketing local foods in Pennsylvania.
    To date, this project has hired a Research Associate whose 
appointment began in August 2009. This project has also completed the 
following: prepared and beta tested an agriculture and natural 
resources green business case study for entrepreneurship students; 
established a sustainable entrepreneurship research project design; 
gathered content to develop an agricultural focused entrepreneurship 
extension and outreach train-the-trainer program.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $248,250; for fiscal year 2009, 
$233,000; and for fiscal year 2010, $248,000. The total amount 
appropriated is $729,250.
    This work is being carried out at Pennsylvania State University 
Research station.
    Annual proposals for funding are peer reviewed for relevance and 
scientific merit. The National Institute of Food and Agriculture agency 
contact is also in regular contact with the principal researcher at 
Pennsylvania State University to discuss progress towards meeting 
project objectives.

                    AGRICULTURAL MARKETING, ILLINOIS

    The University of Illinois developed an electronic infrastructure 
and marketing resource called MarketMaker which was to be used to 
assist and educate livestock farmers on marketing strategies for value-
added meat products. It has developed into a tool that can benefit 
everyone in the food supply chain, from farmers, to processors, 
distributors, retailers, and the consumer looking for unique food 
products. The goal for this stage of development will include the 
continued geographic expansion of MarketMaker but will also build 
greater participation from businesses beyond the farm gate.
    Current progress includes the following: Build awareness among non-
farm food related enterprises--Project investigators and State partners 
are in the early stages of a campaign to educate and inform food 
processors, wholesalers, distributors and food retailers on the use 
MarketMaker to acquire attribute specific food products and identify 
potential supply chain partners. To extend the outreach of the project, 
the investigators have targeted organizations such as the National 
Restaurant Association, the American Association of Meat Processors, 
the Seafood Products Association, and the Food Marketing Institute. 
Solicit Food Industry Feedback--Food industry leaders and decision-
makers have been invited to identify the types of information about 
other food related enterprises that they would find most useful. 
Conversations with WalMart, Sysco Corp, and C.H. Robinson are ongoing 
and are providing valuable feedback that will guide the further 
expansion of the current MarketMaker data base. Key Food Industry 
decision-maker interviews--The MarketMaker team will continue to 
solicit feedback from industry experts to arrive at the optimum extent 
of information that would aid food supply chain decision makers. 
Investigators will identify key food industry decision-makers, with 
input from the Advisory Board. Interviews will focus on collecting data 
on (1) food categories and characteristics most important for their 
business; (2) search capabilities most important to their business; and 
(3) strategies for training personnel to use MarketMaker in their 
industry. Identify Key Metrics to Determine the Commercial Readiness of 
Farmers--Industry interviews will also allow investigators to inventory 
standards of performance that are expected from farmers in such areas 
as post harvest handling, packaging standards and food safety 
standards. This information will become the basis for developing a 
curriculum for ``Commercial Ready Farming Practices''. This curriculum 
will be implemented by the land grant partners. Design New Business 
Registration Templates--This information will be integrated into a new 
online registration template used to create profiles for the individual 
business. The farmer/producer portion of the data base already includes 
expanded profiles that identify products produced, forms of sale, 
marketing attributes, and other types of information that help the user 
filter out the farmers that best fit their needs. Newly designed 
templates for registering will allow for the creation of equally rich 
profiles for food manufacturers, wholesalers, distributors, restaurants 
and food retailers. Other business profiles in the data base currently 
only include the kinds of cursory information that can be purchased 
through business data brokers.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant, with an amount of $186,684; and for fiscal years 2009 
and 2010, $176,000 per year. The total amount appropriated is $538,684.
    The work is being conducted at the University of Illinois.
    The agency evaluates the merit of research proposals as they are 
submitted. The principal investigators and project managers submit 
annual reports to the agency to document impact of the project. Agency 
evaluation of the project includes peer review of accomplishments and 
proposal objectives and targeted outcomes. Additionally, progress 
reports to the Current Research Information System (CRIS) are being 
monitored for satisfactory accomplishments and timelines.

             AGRICULTURE ENERGY INNOVATION CENTER, GEORGIA

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $1,000,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                       AGRICULTURE SCIENCE, OHIO

    This program has focused on research on emerging diseases of 
plants, animals, zoonotic diseases, and foodborne diseases. 
Specifically, these diseases have included influenza virus, severe 
acute respiratory syndrome (SARS) coronavirus, aster yellows 
phytoplasma, and sudden oak death. In 2009, work was done to determine 
the molecular basis for interspecies transmission of H3N2 viruses 
between swine and turkeys. This program also looked to determine if 
soybean rust and new strains of stem rust of wheat have arrived in 
Ohio, and to develop protocols for sampling for invasive crop diseases 
and assessing the accuracy of risk assessment models for emerging high-
impact crop diseases.
    Progress continues on research involving influenza viruses, SARS 
coronavirus, soybean rust, and sudden oak death. Educational materials 
have been developed to assist soybean growers in the identification of 
soybean rust in infected plants, and staff training continues for 
biosafety laboratory containment. Polyclonal antibodies specific for 
the soybean rust pathogen have been developed and several volatiles 
have been identified from infected trees that attract insects; chemical 
characterization is in progress.
    The work supported by this grant began in fiscal year 2003, and the 
appropriation for fiscal year 2003 was $496,750; for fiscal year 2004, 
$444,363; for fiscal year 2005, $542,624; for fiscal year 2006, 
$564,300; $0 in fiscal year 2007; $407,130 in fiscal year 2008; 
$382,000 in fiscal year 2009; and $450,000 in fiscal year 2010. The 
cumulative total amount appropriated is $3,287,167.
    This work is being done at the Food Animal Health Research Program 
laboratories and clinics at the Ohio Agricultural Research and 
Development Center and the Department of Plant Pathology, all located 
at The Ohio State University in Wooster, Ohio.
    The fiscal year 2009 proposal was institutionally peer-reviewed at 
the Ohio State University. In addition, a NIFA National Program Leader 
reviewed the proposal and determined that the research project was 
appropriate and addresses important opportunities for better 
understanding new and emerging plant and animal disease threats. 
Furthermore, the feasibility, budget, time-frame, and facilities for 
the project were adequate. The National Program Leader noted that these 
ongoing research projects outline a program which builds upon 
established resources and responds to National research needs in 
emerging plant and animal diseases.

            AGROECOLOGY/CHESAPEAKE BAY AGROECOLOGY, MARYLAND

    The objective of this grant is to preserve farm and forest land in 
the Chesapeake Bay region and prevent farmland conversion to housing. 
The research focuses on: the management and selection of hull-less 
barley cultivars in Maryland that can be used as a feedstock for fuel 
ethanol production; investigating a variety of native plant species for 
use as high-value niche crops for small farms and nurseries; and 
assessing State forestland through the collection of information on 
forest type, past management history, age, volume, forest structure, 
and species diversity.
    This grant has completed some objectives to provide alternative 
high value crops to maintain farmland and provide cover crops to reduce 
nutrient runoff.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. In fiscal years 2009 and 2010, funds appropriated were 
$499,000 per year. A total of $938,000 has been appropriated.
    The work is being carried out at the Wye Research and Education 
Center in Queenstown, Maryland, and throughout the State.
    Fiscal year 2009 is the first year that funds were appropriated for 
this grant. An evaluation is planned for the summer of 2010.

                     AIR QUALITY, TEXAS AND KANSAS

    This research and technology-transfer initiative was created to 
form a Federal/State partnership that is: (1) characterizing odor, 
odorous gases, particulate matter, and greenhouse gases from open-lot 
concentrated animal feeding operations (CAFOs); (2) developing and 
evaluating cost-effective abatement measures; (3) providing a sound, 
scientific basis for specific air pollution regulations, including 
appropriate emission factors for particulates, odor, and odorous gases 
for the Southern Great Plains; (4) determining the potential impact of 
these air contaminants on animal health and productivity with 
inferences related to human health concerns; and (5) providing 
technology transfer to the public and agricultural producers. The 
project is no longer working on animal health and productivity and has 
begun measuring emissions of greenhouse gases. The following are the 
most recent accomplishments to date by objective.
    Objective 1. Emissions Characterizations for Abatement Measures and 
Receptor Impacts.--A value of 20 percent surface moisture content of 
feedlot pen surfaces was determined to be a critical threshold for 
reducing particulate matter emissions, and time of day was found to be 
a critical parameter for applying the water to the pen surface. Average 
12-month dry deposition of inorganic nitrogen was found to be almost 
three times as large as wet deposition. These relationships will be 
very useful in constructing process-based emissions models for 
particulate matter and gaseous emissions.
    Objective 2. Process-Based Emissions Models.--A nitrogen mass 
balance was constructed for cattle in commercial feedyards. Less than 
10 percent of the fed nitrogen was retained by the cattle and 30-35 
percent of the nitrogen was available to be lost to the atmosphere as 
ammonia in winter and almost double that amount in summer. Feeding 
distiller's grains, a co-product of ethanol from corn, generated higher 
emissions of ammonia nitrogen which was proportional to increased 
protein content in the ration.
    Objective 3. Dispersion Modeling, Regulation, and Emissions 
Factors.--Scraping manure from the feedyard pens reduced reactive 
volatile organic carbon emissions significantly. Emission factors for 
these organics was a factor of 10 times lower than values used by some 
State regulatory agencies. Scraping also significantly reduced 
emissions of carbon dioxide and methane. EPA methodology for estimating 
feedlot emissions of methane from volatile solids was determined and 
compared to more direct emissions measurements.
    Objective 4. Technology Transfer.--Investigators produced 4 
refereed journal articles, 17 scientific presentations, 5 news 
articles, 5 fact sheets, 2 eXtension webinars, and 6 graduate student 
theses. The project Web site was consolidated and improved. The project 
team received the Vice Chancellor's Award in Excellence-Research for 
their work on this project.
    The work supported by this grant began in fiscal year 2002, and the 
appropriation for fiscal year 2002 was $640,000, $869,313 in fiscal 
year 2003; $894,690 in fiscal year 2004; $1,065,408 in fiscal year 
2005; $1,558,260 in fiscal year 2006; $0 in fiscal year 2007; 
$1,160,817 in fiscal year 2008; and $1,090,000 per year in fiscal years 
2009 and 2010. A total of $8,368,488 has been appropriated.
    Research is being conducted within the Texas A&M University System 
with the lead being at the Agricultural Research and Extension Center 
at Amarillo and participation at West Texas A&M University. Kansas 
State University also participates in the project as well as 
participation by the Agricultural Research Service in Bushland, Texas.
    A comprehensive program review was completed in August 2008 with an 
independent peer review team. The review team reported satisfactory 
progress on all but one of the five objectives. The review team felt 
that progress on the technology transfer objective could be much better 
given the maturity of the project. A number of very helpful 
recommendations were given by the review team to the project directors. 
The project directors have since met and have laid-out a very 
comprehensive plan to address the review team's recommendations. The 
2008 review has created a broader group of participants on the advisory 
committee. The program officer thoroughly reviewed the most recent 
proposal and progress updates and participated in the research planning 
meeting for the 2010 fiscal year.

   ANIMAL SCIENCE FOOD SAFETY CONSORTIUM, ARKANSAS, IOWA, AND KANSAS

    The Food Safety Consortium researchers provide information to 
consumers by supporting one of the largest food safety Web sites. The 
Food Safety Consortium will continue to improve the safety of American 
meat and poultry products, provide U.S. consumers with safer products 
and help the United States maintain a major role in the international 
market.
    The original goal of this research was to assess the potential 
threats to beef, pork, or poultry during the production of the live 
animal and during processing, distribution, and consumption, in 
addition to developing sampling and testing strategies to rapidly 
identify any contaminants and determine the distribution of the 
contaminants in the food supply. To date promising results were 
obtained in continuing work with two natural proteins termed 
bacteriocins and produced by two beneficial bacteria belonging to the 
genus Bacillus. Preliminary studies indicate a potential mechanistic 
action of these new Bacillus candidates involving rapid activation of 
innate host immune mechanisms in chickens and turkeys. In addition to 
these findings, another research group determined whether combinations 
of organic acids would inhibit Salmonella Typhimurium biofilm formation 
using an assay based on adherence to titer plate wells. At lower 
concentrations organic acids disrupted biofilm formation while higher 
concentrations led to bacterial death.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1989, $1,400,000; fiscal year 1990, $1,678,000; fiscal year 1991, 
$1,845,000; fiscal years 1992-1993, $1,942,000 per year; fiscal year 
1994, $1,825,000; fiscal years 1995-1996, $1,743,000 per year; fiscal 
year 1997, $1,690,000; fiscal years 1998-2000, $1,521,000 per year; 
fiscal year 2001, $1,631,403; fiscal year 2002, $1,598,000; fiscal year 
2003, $1,603,509; fiscal year 2004, $1,444,427; fiscal year 2005, 
$1,432,448; fiscal year 2006, $1,417,680; fiscal year 2007, $0; fiscal 
year 2008, $1,056,552; fiscal year 2009, $939,000; and fiscal year 
2010, $1,000,000. The total appropriation was $32,494,019.
    Research is being conducted at the University of Arkansas at 
Fayetteville, Iowa State University, and Kansas State University.
    This program was reviewed and approved based on the proposal 
submission and Current Research Information system (CRIS) reports by 
NIFA staff in September 2009.

                APPLE FIRE BLIGHT, MICHIGAN AND NEW YORK

    This research is on fire blight in apple trees. Fire blight is a 
bacterial disease that can kill spurs, branches, and sometimes entire 
trees. The management of this disease is difficult because there are 
limited control options available. This research project is designed to 
develop fire blight resistant varieties, evaluate biological and 
chemical control methods for disease management, and develop an 
education and extension program to help growers improve their ability 
to manage fire blight in their orchards.
    To date, new genes have been identified that show promise for their 
ability to make apple trees resistant to fire blight. These genes are 
now incorporated into apple trees that are significantly resistant to 
fire blight in the field. Additionally, a novel material, kasugamycin, 
has been shown to have good potential for controlling fire blight in 
areas where streptomycin resistance has developed. This is now being 
used by growers on a trial basis and will be further tested this year. 
An integrated pest management strategy is being developed and deployed.
    Fiscal year 1997 was the first year that funds were appropriated 
for this project, with an appropriation of $325,000. Each year that 
this grant has been appropriated, the total has been split equally 
between New York and Michigan. For fiscal years 1998 through 2000, 
$500,000 per year; in fiscal year 2001, $498,900; in fiscal year 2002 
$489,000; in fiscal year 2003, $491,783; in fiscal year 2004, $456,292; 
in fiscal year 2005, $479,136; in fiscal year 2006, $495,000; in fiscal 
year 2007, $0; in fiscal year 2008, $368,403; and in fiscal years 2009 
and 2010, $346,000 per year. A total of $5,795,514 has been 
appropriated.
    This research project is being conducted as a collaborative program 
at agricultural experiment stations maintained by Michigan State 
University and at the New York State Agriculture Experiment Station of 
Cornell University, located in Geneva, New York.
    Senior agency technical staff conducts a merit review of the 
proposal submitted by the performing institution each year. The 
investigators have developed improved techniques for transferring 
resistance genes into apples and have been able to accelerate flowering 
in transgenic trees to be able to make evaluations after 2 years, 
rather than 4 to 5 years. The researchers have made progress toward 
effective biological control of the bacterium that causes the disease, 
as well as understanding the genetic basis for disease development.

              AQUACULTURE, CALIFORNIA, FLORIDA, AND TEXAS

    The objective of this grant is focused on shell fish aquaculture to 
ensure the sustainability of the hard clam aquaculture industry in 
Florida through evaluation of stock hybridization, stocking densities, 
and an initial assessment of soil characteristics in Florida. 
Objectives also focus on developing new technologies to advance United 
States marine finfish aquaculture by improving the efficiency and 
economic viability of recirculating aquaculture systems for maturation 
and spawning of marine fish broodstock.
    Accomplishments from this directed research include but are not 
limited to: generation of a computer model and new design 
specifications for marine broodstock maturation systems and new water 
quality monitoring tests and protocols that have led to the successful 
spawning of southern flounder producing more than 600,000 viable eggs 
and juveniles. These eggs and juveniles were provided to the Texas 
Parks and Wildlife fish hatchery system along with juvenile flounder to 
a commercial grower for industry development. The University of Texas 
determined that juvenile flounder could be successfully reared in 10 
parts per 1,000 salinity but had reduced survival at 0.5 parts per 
1,000. Digestive enzymes in larval southern flounder were also measured 
during development in order to select an appropriate feeding regimen. 
Cultured Mercenaria mercenaria and wild Mercenaria campechiensis were 
spawned and single-parent crosses accomplished. Allozyme marker 
analysis indicated parental clams in two crosses were hybrids. Grow-out 
trials indicated hybrid weights and growth were higher than parental 
stocks. A laboratory challenge was conducted exposing two families to 
salinities of 15 or 25 parts per 1,000 and hypoxic or normoxic 
conditions at 32 degrees Centigrade. In the lab challenge, survival 
analysis indicated that the Mercenaria mercenaria x Mercenaria 
campechiensis crosses performed better under stressful conditions than 
did parents or reciprocal crosses. About 248,000 hybrid seed were 
planted in 2008 for replicated comparison of stocks, density, and gear. 
Experimental clams are sampled every four months and will be harvested 
in late summer. Ten commercial growers planted 190,000 seed clams on 
commercial leases in three counties for site comparison. Additionally, 
in March 2008, a total of 1,017,000 seed was transferred to Cedar Key 
for continued culture. The clam husbandry project is still underway.
    Work supported by this grant began in fiscal year 2006 with an 
appropriation of $594,000; $0 in fiscal year 2007; $442,878 in fiscal 
year 2008; and $416,000 per year in fiscal years 2009 and 2010. The 
total amount appropriated is $1,868,878.
    The University of Florida, Gainesville, in collaboration with 
commercial producers in the Cedar Key area in Florida, is conducting 
the clam research. Research on marine finfish is being conducted at the 
Mote Marine Laboratory and Aquarium in Sarasota, Florida, the 
Department of Marine Science of the University of Texas in Port 
Aransas, Texas, and at the Hubbs-Sea World Research Institute in San 
Diego and Carlsbad, California.
    The Agency's National Aquaculture program staff review the project 
annually upon submission of proposals with details on all proposed 
studies. Programmatic review of the fiscal year 2009 proposal concluded 
that the methodology and experimental design were sound. Additionally, 
the Agency held a post-award management workshop in December 2009 that 
included reporting on progress and accomplishments and focus on 
performance, relevancy, and quality.

                   AQUACULTURE, IDAHO AND WASHINGTON

    The original goal of the program was to improve and expand trout 
aquaculture at the regional and national levels through improved animal 
health management, improved water quality management, improved product 
quality, and new product development. Past research has led to vital 
information on the immune system of trout and new diagnostic methods 
that will help in the early detection of disease organisms affecting 
the rainbow trout industry; the identification of genetic disease-
resistance markers in rainbow trout which will aid in the development 
of genetic vaccines for the rainbow trout industry; the development of 
disease diagnostic tools for other salmonids; improved processing 
technologies for rainbow trout and improved trout production systems to 
reduce effluents from trout farm; water re-use systems for less-costly 
and flow-through aquaculture facilities with more environmentally 
friendly performance due to new engineering techniques; Hepatopoietic 
Necrosis Virus resistance loci in a rainbow X cutthroat cross have been 
identified and mapped; and a rickettsial-like bacterial sequence 
associated with strawberry disease lesions in rainbow trout has been 
identified. Research on other species has led to: both imidacloprid and 
carbaryl were found to be efficacious in controlling burrowing shrimp 
at the rates tested; and ultrasound can be used to measure egg diameter 
in mature female sturgeon and to predict appropriate caviar harvest 
times. Recent findings from this program include but are not limited 
to: Black soldierfly pre-pupae were grown with and without omega-3 and 
omega-6 fatty acids by altering their diets. Black soldierfly pre-pupae 
enriched with omega-3 and omega-6 fatty acids do not undergo 
significant oxidation even after 12 months of storage at room 
temperature. These findings suggest that this insect could easily be 
stored for several months at room temperature without becoming rancid, 
a characteristic that is beneficial to the feed industry if this 
product is to be considered as a potential feed ingredient for 
aquaculture diets as well as diets for various other animals. The 
mechanism of immune-stimulated muscle wasting in fish may be somewhat 
different than that in mammals. Selection of strains based on increased 
levels of immunity may be detrimental to muscle growth. These results 
may also imply that management practices such as long-term feeding of 
immunostimulant-containing diets may ultimately reduce production 
efficiency. Differential expression of heat shock proteins in rainbow 
trout tissues was determined, as well as differential capacity of 
rainbow trout embryos to up-regulate heat shock proteins expression in 
response to heat shock. Partial results of these studies did show that 
older embryos showed greater tolerance to heat shock than younger 
embryos. Rainbow trout should be fed a low level of soybean meal during 
early feeding to improve utilization of higher levels of soybean meal 
in grow-out, and this information challenges current dogma. Findings 
from this research have also identified important patterns in consumer 
response to mass media reporting on farmed salmon and aquaculture in 
general. People often use simple decision rules, leading a large 
percentage of the population to avoid farmed seafood products under the 
belief that these products are not natural or are contaminated. Media 
analysis shows that news stories rarely convey the science in a 
complete way. The research is leading to recommendations for both 
science reporting and health advisories regarding seafood.
    The work supported by this grant began in fiscal year 2001, and the 
appropriation was $284,373. The fiscal year 2002 appropriation was 
$600,000; in fiscal year 2003, $769,963; in fiscal year 2004, $688,911; 
in fiscal year 2005, $763,840; in fiscal year 2006, $756,360; in fiscal 
year 2007, $0; in fiscal year 2008, $563,031; and in fiscal years 2009 
and 2010, $529,000 per year. A total of $5,484,478 has been 
appropriated.
    Washington State University, the University of Idaho, and the 
Pacific Shellfish Institute in Washington are conducting the research.
    The proposals are reviewed by the agency's National Aquaculture 
Program staff upon submission. The last agency review concluded that 
significant progress had been reported on research objectives under 
this program. The Principal Investigators were leading authorities in 
this area of research and were well aware of the complexity of the 
industry and the implications of their research. The proposal was well 
written and objectives were clearly stated. The experimental design and 
scientific approach appeared to be sound. Literature and justifications 
for research were provided. The Agency conducted a post-award workshop 
in December 2009 that included reporting on progress and 
accomplishments with a focus on performance, quality, and relevancy.

                         AQUACULTURE, LOUISIANA

    The original goal of the research was to provide science-based 
information that specifically addressed the needs of the aquaculture 
industry in Louisiana and the southern region. The program funded by 
the Aquaculture, Louisiana grant has resulted in increased crawfish 
production from research on new winter baits, the use of square-mesh 
traps, improved pond-draining and stocking schedules, and increased 
reproduction capacity and improved predictability of reproduction from 
short-term feeding of adult crawfish prior to burrowing. Studies were 
completed that evaluated bait type, trap soak-time, and crawfish escape 
from traps made from square-mesh welded wire. Research from this 
program has also demonstrated that chitosan produced from crawfish 
shells offers the potential to reduce off-flavor in processed channel 
catfish. Disease control has been enhanced through the development of 
new vaccines for channel catfish. Genetic maps have been developed for 
commercial strains of channel catfish and research on cryopreservation 
technologies has led to improved gene banking of commercially important 
aquaculture species. The use of ultrasound for classification of 
ovarian condition of catfish, including industry-scale use in 
cooperation with commercial farms, was standardized and validated. 
Spawning of catfish in greenhouse tanks prior to the natural spawning 
season has been documented as well as reproductive conditioning of koi 
carp in heated broodstock ponds. Research examined the utilization of 
ultrasound technologies to determine the state of ripeness of channel 
catfish eggs and demonstrated that channel catfish can be induced to 
spawn early by using warm well water without affecting reproductive 
performance. New processing technologies have led to improved quality 
and safety of cultured aquatic species and new feed formulations have 
led to reduced production costs. Energy analysis of alligator 
operations showed two major areas where significant savings could 
occur: water heating; and feed production. Results from recent crawfish 
trials conducted in artificial burrows provided possible cause/effect 
relationships observed in crawfish ponds where production relies solely 
on natural recruitment to populate ponds. Possible causes of 
reproductive impairment were identified to improve the understanding of 
population dynamics in crawfish ponds. High-throughput cryopreservation 
technologies for blue catfish sperm is now available for application 
and, with continued work with commercial hatcheries, will become 
available for commercialization. Characterization of larval development 
of the Fat Sleeper, a marine baitfish, will aid in the identification 
of morphological changes prior to these larvae accepting live or 
artificial feed items. Soluble and insoluble proteins from catfish skin 
were isolated and studied. Freeze-dried soluble and insoluble 
hydrolysate catfish skin powders were shown to have desirable 
functional and rheological properties. Protein hydrolysates made from 
catfish skin can be converted into a high-value protein powder food 
ingredient. Applications of this food ingredient include incorporation 
into muscle tissue products by injection, tumbling, and coating. The 
majority of Vibrio vulnificus isolates from Gulf oysters were of the 
environmental type versus the clinical type, and there was a seasonal 
variation in the genotypes identified. The study may help guide future 
control measures to focus more specifically on seasons that tend to 
accumulate the clinical-type Vibrio vulnificus.
    Research conducted under this program continues as initiated under 
the Aquaculture General program in fiscal years 1988 through 1991. The 
work supported by the current program began in fiscal year 1992, and 
the appropriation for fiscal years 1992-1993 was $390,000 per year; 
$367,000 in fiscal year 1994; $330,000 each year in fiscal years 1995-
2000; $329,274 in fiscal year 2001; $322,000 in fiscal year 2002; 
$327,855 in fiscal year 2003; $313,141 in fiscal year 2004; $329,344 in 
fiscal year 2005; $325,710 in fiscal year 2006; $0 in fiscal year 2007; 
$243,285 in fiscal year 2008; $188,000 in fiscal year 2009; and 
$150,000 in fiscal year 2010. A total of $5,655,609 has been 
appropriated.
    The research is being conducted at Louisiana State University.
    The agency's National Aquaculture Program Staff review proposals as 
they are submitted to the agency with details of proposed research 
studies. The proposed research is consistent with national goals and 
objectives outlined by the Joint Subcommittee on Aquaculture, National 
Science, and Technology Council (JSA-NSTC) Strategic Plan for 
Aquaculture Research and Development. The Agency conducted a post-award 
management workshop in December 2009 that included reporting on 
progress and accomplishments with a focus on performance, quality and 
relevancy.

                        AQUACULTURE, MISSISSIPPI

    The fiscal year 2009 research funded under the Aquaculture 
Research, Stoneville, Mississippi Special Research grant was focused on 
practical feeding and nutritional requirements of channel catfish. 
Specific objectives outlined in the fiscal year 2009 proposal include: 
(1) evaluate effects of lysine supplementation on lysine-deficient 
diets on growth, feed efficiency, and lysine utilization in channel 
catfish; (2) determine clearance times for yellow pigments in channel 
catfish; and (3) compare satiate and restricted feeding on production 
characteristics of pond-raised channel catfish x blue catfish hybrids. 
The anticipated impact will be a reduction in feed cost and an increase 
in profit for catfish producers. Research funded under this program has 
had significant impact on the profitability of the pond-raised channel 
catfish industry in the United States. Researchers involved in this 
program work closely with the catfish industry providing practical 
solutions to improve the feeding efficiency of catfish production 
systems.
    Past research conducted under this program has resulted in improved 
feed formulations and efficiency and improved water quality and disease 
resistance strategies for commercial channel catfish culture. Past 
results, include but are not limited to, research that has shown that 
dried distiller's grains with solubles plus supplemental lysine can 
replace about 35 percent of soybean meal, and cottonseed meal plus 
supplemental lysine can replace about 50 percent of soybean meal in the 
diet without significantly affecting fish growth, feed efficiency, and 
processing yield. A combination of distiller's grains, cottonseed meal, 
and supplemental lysine can totally replace soybean meal. However, a 
dietary level of 30 percent distiller's grains appears to increase the 
fillet fat level because of the high fat content in distiller's grains. 
Another study examined the use of high-protein finishing diets to 
improve processing yield of pond-raised channel catfish using a 
multiple-batch cropping system. Results showed that there were no 
significant differences in the amount of feed fed, net production, 
final weight per fish, feed conversion, processing yield, and body 
composition of fish fed low protein diets and finished with high 
protein diets compared with fish fed diets containing various levels of 
protein throughout the growing season. Based on results from this 
study, it appears that finishing with high protein diets does not 
appear to be beneficial to improving processing yield of pond-raised 
catfish. Another recent project concluded that there were no 
significant differences in weight gain, feed conversion ratio, 
survival, and processing yield of fish fed diets containing various 
levels of canola meal up to 50 percent. Comparisons between channel 
catfish and blue catfish concluded that, regardless of dietary protein 
levels, blue catfish had higher whole-carcass weight, nugget, and total 
meat yield and higher fillet moisture and protein but lower fillet 
yield and fillet fat than channel catfish. Results of this program are 
quickly disseminated to the industry having an almost immediate impact 
on production costs due to close linkages with the channel catfish 
industry.
    The program was initiated in fiscal year 1980. Grants have been 
awarded from funds appropriated as follows: fiscal years 1980-1981, 
$150,000 per year; fiscal year 1982, $240,000; fiscal years 1983-1984, 
$270,000 per year; fiscal year 1985, $420,000; fiscal years 1986-1987, 
$400,000 per year; fiscal year 1988, $500,000; fiscal year 1989, 
$588,000; fiscal year 1990, $581,000; fiscal year 1991, $600,000; 
fiscal years 1992-1993, $700,000 per year; fiscal year 1994, $658,000; 
fiscal years 1995-1997, $592,000 per year; fiscal year 1998, $642,000; 
fiscal years 1999-2000, $592,000 per year; fiscal year 2001, $590,698; 
fiscal year 2002, $579,000; fiscal year 2003, $582,191; fiscal year 
2004, $520,908; fiscal year 2005, $516,832; fiscal year 2006, $511,830; 
fiscal year 2007, $0; fiscal year 2008, $385,284; and fiscal years 2009 
and 2010, $361,000 per year. A total of $14,637,743 has been 
appropriated.
    The research is being conducted at the Thad Cochran National 
Warmwater Aquaculture Center and Delta Branch Experiment Station of the 
Mississippi State University Agricultural and Forestry Experiment 
Station located in Stoneville, Mississippi.
    The agency's National Aquaculture Program staff review proposals 
with details of planned research studies that are submitted to the 
agency. The Agency conducted a post-award management workshop in 
December 2009 that included reporting on progress and accomplishments 
with a focus on performance, quality and relevancy.

                      AQUACULTURE, NORTH CAROLINA

    The objective of the grant is to improve the production efficiency 
of the North Carolina warm water fish culture industry through 
understanding the fundamental mechanisms controlling growth and feed 
intake, and establishing methods to improve production efficiency and 
environmental sustainability of hybrid striped bass in recirculating 
water aquaculture systems.
    Past research conducted under this program has lead to information 
on: certain plasma proteins in hybrid striped bass that were correlated 
with specific growth rates; a biofiltration study that suggested that 
wood chips would be a cost-effective alternative to the more-expensive, 
conventional plastic media; growth uniformity that can be achieved in 
yellow perch by controlling temperature and photoperiod of grow-out 
systems; nutritional requirement determinations for optimum growth and 
development for Southern flounder and hybrid striped bass; selection of 
families of hybrid striped bass for production traits including 
survival, growth, and dress-out weight; determining that increasing the 
percentage of female Southern flounder in a grow-out system will 
significantly reduce production costs; partial compensatory growth was 
observed in hybrid striped bass food fish grown in ponds and tanks 
during the re-alimentation period when fish were fed daily following 
periods of feed deprivation and pond total phosphorus concentrations 
was 32 percent lower in the compensatory growth treatments than control 
ponds; and many genes in hybrid striped bass are activated in 
association with the transition of oocytes from primary to secondary 
growth. Recent accomplishments include but are not limited to: ovaries 
in early atresia produce a choriolysin, which is related to the 
hatching enzyme involved in hatching fish embryos so that females 
initiating atresia can be identified and induced to reproduce before 
they become un-spawnable. Leptin expression was restricted to the liver 
in striped bass and hybrid striped bass while in mammals leptin is 
expressed predominantly in adipose tissue. Both tissues are important 
lipid stores for their respective groups. The principal investigators 
found that Insulin-like Growth Factor-I is a strong corollary to 
predict growth and that ghrelin, a major appetite stimulatory hormone, 
may partially drive the growth hormone secretory dynamics and 
hyperphagic response observed with compensatory growth feeding 
protocols for hybrid striped bass. Results from studies using chemicals 
to reduce effluents from hybrid striped bass ponds strongly suggest 
that chemical treatment of pond effluents to achieve Environmental 
Protection Agency compliance is not feasible.
    Work supported by this grant began in fiscal year 1997, and the 
appropriation was $150,000. The project was not funded in fiscal years 
1998 and 1999. The fiscal year 2000 appropriation was $255,000; for 
fiscal year 2001, $299,340; for fiscal year 2002, $293,000; for fiscal 
year 2003, $291,096; for fiscal year 2004, $260,454; for fiscal year 
2005, $277,760; for fiscal year 2006, $321,750; for fiscal year 2007, 
$0; for fiscal year 2008, $242,292; and for fiscal years 2009 and 2010, 
$227,000 per year. The total amount appropriated for this program is 
$2,844,692.
    The research is being conducted at North Carolina State University 
at the North Carolina State aquaculture research facilities in Aurora 
and Plymouth, North Carolina.
    The agency's National Aquaculture Program staff reviewed the 
project upon submission to the agency with details of all proposed 
research studies. The proposed research was consistent with the Joint 
Subcommittee on Aquaculture's Strategic Plan for Research and 
Development. The Agency conducted a post-award management workshop in 
December 2009 that included reporting on progress and accomplishments 
with a focus on performance, quality and relevancy.

      AQUACULTURE PRODUCT AND MARKETING DEVELOPMENT, WEST VIRGINIA

    The original goal of this research was to develop sound marketing 
strategies for aquaculture products, improve the economic efficiency of 
aquaculture production systems, and improve the quality and variety of 
aquaculture products coming from West Virginia and the Appalachian 
region. Research funded under this program has lead to the development 
of software designed to simulate raceway production of trout that will 
provide a way for growers to determine how to better-manage their 
systems; commercial fish meal-free diets that may provide an effective 
strategy to reduce the levels of contaminants in farm-raised rainbow 
trout; West Virginia fee-fishing opportunities that can contribute to 
the productivity of the tourism industry by providing tourists with 
more to see and do with respect to outdoor activities; information on 
watercress that can be grown in the effluent stream from trout raceway 
systems and that may effectively remove nitrogen and phosphorus 
discharged into streams; the use of impaired waters, such as mine 
discharge ponds, utilizing different feeds and the use of different 
strains or species of fish that may open opportunities for small fish 
farms in the Appalachian region; aquaponics systems that can utilize 
flow-through systems and that cool-season food and ornamental plants 
can be produced and grow well in this system; and plant production that 
can be maintained year-round providing a reliable income source and 
that can be used to grow cool-season crops through the summer when they 
are less-available and can command a higher price. New protein and 
lipid recovery technologies designed for semi-industrial applications 
that will allow protein and lipid recovery in sufficient quantities for 
development of marketable, value-added food products from aquaculture 
products from West Virginia has lead to the development of basic 
parameters for protein and fish oil recovery and design for an 
industrial-scale bio-reactor system for processing fish by-products 
and/or whole, gutted fish. This has resulted in the submission of two 
patent applications filed by West Virginia University with the United 
States Patent and Trademark Office.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1998, $600,000; $750,000 for each of fiscal years 1999 and 2000; 
$748,350 for fiscal year 2001; $733,000 for fiscal year 2002; $735,190 
for fiscal year 2003; $671,017 for fiscal year 2004; $705,312 in fiscal 
year 2005; $742,500 in fiscal year 2006; $0 in fiscal year 2007; 
$521,325 in fiscal year 2008; $489,000 in fiscal year 2009; and 
$550,000 in fiscal year 2010. A total of $7,995,694 has been 
appropriated.
    The work is being carried out at the University of West Virginia in 
Morgantown along with a number of cooperators.
    Proposals with details of planned research studies are submitted to 
the agency for critical review by the agency's National Aquaculture 
Program staff. The proposed research was consistent with national goals 
and objectives outlined in the National Science and Technology 
Council's Joint Subcommittee on Aquaculture under the Strategic Plan 
for Aquaculture Research and Development. The Agency conducted a post-
award management workshop in December 2009 that included reporting on 
progress and accomplishments with a focus on performance, quality and 
relevancy.

                     ARMILLARIA ROOT ROT, MICHIGAN

    This project has objectives to find resistance to Armillaria root 
rot of cherry by conventional breeding techniques and to develop a 
management strategy for Armillaria root disease, primarily host plant 
resistance. The nurseries in infected field plots have already been 
established, but the outcome of the experiment will be 5 to 8 years in 
the future. Within the large screening program, some epidemiological 
work on strain distribution and on the efficacy of sanitation measures 
will be done. Analysis of integrated pest management possibilities, 
particularly biological control and chemical control are underway. 
Basic research is being conducted on the fungal pathogen itself, in the 
evaluation of genetic factors that help the Armillaria fungus develop 
rhizomorphs that grow from one tree to the next and are important in 
protecting the fungus from sunlight.
    The work supported by this grant began in fiscal year 2002, and the 
appropriation for fiscal year 2002 was $160,000; in fiscal year 2003, 
$158,960; in fiscal year 2004, $142,156; in fiscal year 2005, $149,792; 
in fiscal year 2006, $149,490; in fiscal year 2007, $0; in fiscal year 
2008, $111,216; and in fiscal years 2009 and 2010, $104,000 per year. 
The total amount appropriated is $1,079,614.
    This work is being carried out at Michigan State University.
    The submitting institution conducts a peer review of the proposal 
prior to submission. Senior agency technical staff conducts a merit 
review of the proposal prior to making a funding recommendation. The 
agency may conduct an on-site review in 2010.

             ASPARAGUS PRODUCTION TECHNOLOGIES, WASHINGTON

    The original goals of this research were to reduce production and 
consumer costs and increase the annual asparagus supply. To date this 
research has proven the concept of new harvesting technologies to 
reduce field labor costs, developed new reduced-labor processing 
technologies, investigated new packaging processes to improve quality 
and shelf life of fresh-packed asparagus, and began investigations into 
the economic and social impact of reduced-labor asparagus production. 
Reduced production costs will increase the national and global 
competitiveness asparagus growers.
    The work supported by this grant began in fiscal year 2001. The 
amount appropriated for fiscal year 2001 was $224,505; for fiscal year 
2002, $260,000; for fiscal year 2003, $278,180; for fiscal year 2004, 
$248,525; for fiscal year 2005, $248,000; for fiscal year 2006, 
$245,520; for fiscal year 2007, $0; and fiscal year 2008, $183,705; and 
for fiscal years 2009 and 2010, $173,000 per year. The total amount 
appropriated is $1,861,435.
    The work is being conducted at Washington State University's 
agricultural experiment stations in Prosser and Pasco and at Michigan 
State University's experiment station in East Lansing.
    The performing institution conducts a peer review of each proposal 
and submits an annual progress report to the agency each year. Progress 
has been made in achieving the research objectives. Senior agency 
technical staff reviews each proposal to assess quality. The findings 
of these reviews indicate progress in achieving the project's 
objectives.

                       AVIAN BIOSCIENCE, DELAWARE

    The objective of the grant is to improve production efficiency, 
animal health, environmental compatibility, and food safety in poultry 
systems. A key goal of the University of Delaware Center for Avian 
Biosciences (Center) is to strengthen the interfaces between recognized 
and growing programs to enhance their visibility and effectiveness. 
Since its inception in 2006, and continued efforts in 2009, the Center 
has made significant contributions in the field of avian biosciences. 
Some of the significant highlights include: developed foam-based humane 
emergency mass depopulation alternative for floor-reared poultry 
broilers and turkeys; improved in-house compositing of poultry 
carcasses infected with highly pathogenic avian viruses; interacted 
with Federal agencies and legislators and provided scientific 
information for adoption/endorsement of the technology by the U.S. 
poultry industry; made numerous training presentations on Avian 
Influenza controls and eradication efforts; developed avian influenza 
rapid diagnostic assays; received recognition for two University of 
Delaware laboratories as leading labs in avian influenza surveillance 
and detection in wild birds and poultry; sponsored numerous conferences 
and workshops; established significant domestic and international 
linkages in animal health. This Center continues to build partnerships 
with the industry, appropriate State and Federal agencies, other 
organizations, centers, and universities in research, teaching and 
outreach efforts. Furthermore, undergraduate and graduate educational 
programs in avian biosciences are flourishing under faculty mentorship 
in avian bioscience disciplines.
    The work supported by this grant began in fiscal year 2006 with an 
appropriation of $99,000; in fiscal year 2007, $0; in fiscal year 2008, 
$74,475; in fiscal year 2009, $94,000; and in fiscal year 2010, 
$150,000. A total of $417,475 has been appropriated.
    This work is being carried out at the University of Delaware in 
Newark, Delaware.
    The agency thoroughly evaluated the current year and previous year 
progress in May of 2009. The agency evaluation is in agreement with the 
project description as being 40 percent research and 60 percent applied 
in nature. Subsequent conversations and email exchanges between the 
Project Director and our liaison suggest that the project is 
progressing well.

                      BABCOCK INSTITUTE, WISCONSIN

    The original goal of the Institute was to cultivate links between 
the dairy industry of the United States and those in the rest of the 
world through mutually beneficial research and programs that are 
scientific, educational, and commercial in nature. This involves 
research collaboration and scientific exchange, world market and dairy 
trade analysis, and education and training programs. The Institute is 
still dedicated to its original goal. The Babcock Institute has 
completed studies of the Indian and Mexican dairy sectors as part of 
its series of dairy ``country/regional studies'' designed to help 
United States firms and policymakers develop strategies and policies to 
exploit export opportunities and accommodate actions of foreign dairy 
companies and governments in exporting countries. Mexico is the largest 
market for U.S. exporters of dairy products. In 2008, Mexico purchased 
U.S. dairy products valued at $935 million. Babcock is developing links 
with Southeast Asia. In 2009, the Director participated in a Trade 
mission to Japan and China to promote Wisconsin as a site for foreign 
investment and learn more about export opportunities and technical 
collaborations. Babcock is collaborating with the China Agricultural 
University in Beijing to increase the exchange of scientific 
information between the United States and China. Visitors from China 
toured the Babcock Institute to learn ways to help improve the quality 
and safety of dairy products in China. Babcock is building ties to 
current and future dairy leaders in Mexico through links with the main 
agricultural campus at Queretaro, Mexico's leading private University, 
commonly known as Monterrey Tec, the large Alpura processing 
cooperative, and the national Holstein Association. Partnerships have 
resulted in research to help improve the flavor of United States-
produced Hispanic cheeses, which continue to be a substantial growth 
area in the United States, but are routinely criticized for poor flavor 
and functional characteristics. Babcock is funding research through 
sub-grants to study methods to improve animal/dairy products 
production. This includes feed evaluation to improve animal nutrition, 
which will improve the nutritional value of the dairy products and 
enhance dairy yields. Studies on the microbiology and chemistry of 
artisanal cheeses are also ongoing. The Institute has reached out to 
international and domestic producer groups with multilingual technical 
publications and CDs, multilingual electronic outreach through the Web, 
and international short courses and consulting services. Institute 
staff members continue to work closely with county extension agents to 
create practical training materials for Spanish-speaking dairy 
employees, including calf care and herdsmanship modules for the Dairy 
Worker Training series, and with University of Wisconsin--Madison 
professors to create educational CDs for U.S. and international farmers 
and dairy industry professionals. Recently developed CDs include 
Artificial Insemination Techniques, Milking Skills, and Brucellosis 
Prevention. Babcock also produces the Dairy Update series, which brings 
University of Wisconsin research findings to the agricultural 
community. The institute provided training to improve the quality and 
safety of dairy products to dairy farmers, producers, scientists, and 
students from Europe, Central and South America, Southeast Asia, and 
the Middle East. Training of young scientists in the United States in 
dairy science and cheese making is ongoing.
    Grants have been awarded from funds appropriated as follows: fiscal 
years 1992 and 1993, $75,000 per year; fiscal year 1994, $250,000; 
fiscal years 1995-1998, $312,000 per year; fiscal year 1999, $400,000; 
fiscal year 2000, $510,000; fiscal year 2001, $598,680; fiscal year 
2002, $588,000; fiscal year 2003, $596,100; fiscal year 2004, $536,814; 
fiscal year 2005, $564,448; fiscal year 2006, $594,000; fiscal year 
2007, $0; fiscal year 2008, $442,878; and fiscal years 2009 and 2010, 
$416,000 per year. A total of $7,310,920 has been appropriated.
    The work of the Babcock Institute is carried out at the University 
of Wisconsin--Madison College of Agriculture and Life Sciences and 
throughout the world.
    The Babcock Institute undergoes two independent reviews each year, 
internally at the University of Wisconsin prior to submission of the 
proposal, and by technical staff at NIFA prior to approval for release 
of funds. In addition, the Institute was included in a review of the 
Department of Dairy Science at the University of Wisconsin in May, 
2004. The 2009 proposal was reviewed by the NIFA National Program 
Leader.

            BARLEY FOR RURAL DEVELOPMENT, IDAHO AND MONTANA

    The original goal of this research was to use results from 
significant earlier investment in barley genetics and molecular 
genetics to assemble appropriate genetic packages, with traditional 
crossing and selection techniques, to develop and release more 
economically productive barley varieties to western barley growers. 
These researchers have focused on unique attributes of barley as a crop 
and a valued product. A major development this year has been the 
acceptance of barley varieties developed by this project by major 
brewing companies, including Coors-Miller and Anhauser-Busch. The new 
varieties performed well in brewing quality tests. Farmers will benefit 
because the project's new varieties are significantly more reliable for 
them than varieties they were growing before, which were bred in and 
for Canada. Barley farmers in Montana, Idaho, and similar regions can 
now grow varieties that have a good market and reduced risk of crop 
failure, two characteristics that are critical for farm income and 
rural development. In addition, the researchers report a technical 
breakthrough this year toward a practical and economically feasible on-
farm ethanol production from barley straw. After natural in-field 
freezing, fructan components in the straw can be isolated, 
concentrated, and fermented by a specific yeast to create biofuel.
    The work supported by this grant began in fiscal year 2006 with an 
appropriation of $727,650; $0 in fiscal year 2007; $547,143 in fiscal 
year 2008; $514,000 in fiscal year 2009; and $547,000 in fiscal year 
2010. The total amount appropriated is $2,335,793.
    Research is being conducted at Montana State University and the 
University of Idaho.
    Each annual proposal is reviewed by senior agency technical staff. 
This research has been productive based on germplasm releases and peer-
reviewed journal articles and other publications.

             BEEF IMPROVEMENT RESEARCH, MISSOURI AND TEXAS

    The original goal of this program was to enhance production 
efficiency in beef cattle production systems. Since 2006, the Missouri 
group research has focused on measuring residual feed intake among 
animals, its relevance to feed costs differences among animals, and 
benefit of selecting for residual feed intake in reducing production 
costs in the feedlot. The research has shown that selecting progeny 
from sires that were tested to be efficient compared to those testing 
inefficient reduced production costs in the feedlot by an estimated $60 
per head. The Texas researchers selected 105 Brahman bulls, 120 Brahman 
heifers, and 38 Bonsmara heifers based on phenotypic measure of 
residual feed intake including reproductive performance. The next phase 
of this study included breeding high and low efficiency Brahaman 
females to high and low efficiency Hereford bulls to develop high and 
low efficiency F1 females. With these animal populations in hand, the 
project staff is now pursuing to determine the biological basis for 
genetic and phenotypic variation in feed efficiency of growing and 
mature cattle; examining behavioral and physiological responses in 
cattle with divergent feed efficiencies; develop technologies to reduce 
the cost and increase the accuracy of measuring feed efficiency in 
cattle, especially on pasture; examine relationships between feed 
efficiency and fertility in gestation cows, growing heifers, and bulls; 
and develop producer education programs to enhance adoption of these 
technologies. Ultimately, a significant reduction in feed input costs 
and environmental impacts of beef production systems are the desired 
target.
    The work supported under this grant began in fiscal year 2006, and 
the appropriation for fiscal year 2006 was $990,000; in fiscal year 
2007, $0; in fiscal year 2008, $737,799; and in fiscal years 2009 and 
2010, $693,000 per year. A total of $3,113,799 has been appropriated.
    This work is being carried out at the Departments of Animal 
Sciences at Texas A&M University and the University of Missouri--
Columbia.
    The agency evaluated the initial proposal in May of fiscal year 
2006. In September 2006, the National Program Leader responsible for 
the grant oversight visited the Texas facilities. The project was 
reviewed again in 2008. The Missouri project was reviewed by the 
National Program Leader in fiscal year 2006. No site visit for the 
Missouri project has been conducted. However, the project progress and 
the current project were thoroughly reviewed in spring of 2008 and 
spring of 2009.

 BIOACTIVE FOODS AND RESEARCH FOR HEALTH AND FOOD SAFETY, MASSACHUSETTS

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an appropriation of $525,000. Since this is a new 
grant, no information is available regarding the program's research 
goals and objectives.

           BIODESIGN AND PROCESSING RESEARCH CENTER, VIRGINIA

    The Biodesign and Bioprocessing Research Center researchers are 
working to develop processes for producing high value polymers from 
poultry and dairy processing in Virginia, optimize biogas and acid 
production potential and nutrient recovery from dairy manure, and 
conduct a proof-of-concept study to produce high-yield hydrogen from 
polysaccharides and water through a novel enzymatic method.
    The project has been investigating ways to toughen agricultural by-
product proteins from poultry and dairy processing by eliminating the 
diffusible glycerol component and ways to stabilize the protein against 
biodegradation for longer life. It has been discovered that choice of 
the correct protein structure through processing can stabilize the 
protein to microbial attack and more efficiently tailor product life. 
Current studies are also focusing on self-assembly protein structures 
from wheat and corn protein that could serve as templates for high 
performance materials. Results so far show that these proteins can form 
fibers similar to silk, hair, and collagen. Studies have been conducted 
to explore a novel attached culture system for growing the alga 
Chlorella as a biodiesel feedstock, using dairy manure wastewater as 
the growth medium. Among the various supporting materials tested for 
algal attachment, the best performance in terms of biomass yield, ease 
of harvest and physical robustness was observed with polystyrene foam. 
The algal culture removed 61-79 percent total nitrogen and 62-93 
percent total phosphorus from the dairy manure wastewater under 
different culture conditions. A patent application has been filed based 
on this technology. The project also produced high-yield hydrogen from 
cellulosic materials. In addition, they have increased the hydrogen 
production rate by 10x fold through optimization. The next 10-fold 
increase in reaction rate will greatly enhance the chances for 
commercialization of the technology. The results of these 
investigations have been disseminated at numerous national and 
international conferences throughout the World. The Center has provided 
opportunities for training of a large number of graduate students in an 
effort to produced skilled work force for the bio-industry of the 
future.
    The work supported by this grant began in fiscal year 2006. The 
appropriation for fiscal year 2006 was $940,000; for fiscal year 2007, 
$0; for fiscal year 2008, $701,058; and for fiscal years 2009 and 2010, 
$868,000 per year; A total of $3,377,058 has been appropriated.
    The research is conducted at the Virginia Polytechnic Institute and 
State University.
    A progress report for fiscal year 2009 has been evaluated, and it 
has been determined that progress toward accomplishing the project 
objectives is on-going.

        BIOENERGY PRODUCTION AND CARBON SEQUESTRATION, TENNESSEE

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $1,000,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

        BIOMASS-BASED ENERGY RESEARCH, MISSISSIPPI AND OKLAHOMA

    This project is focused on the conversion of cellulosic biomass, 
such as switchgrass, to liquid fuels using a gasification-fermentation 
process. Specifically, the project will: (1) assess the feedstock 
potential of agricultural and forestry crops; (2) establish critical 
parameters in maintaining syngas quality; (3) advance bioreactor 
designs and enhance enzyme activities; (4) investigate potential 
valuable products that complement ethanol production; and (5) determine 
the full cost of system components including production, harvesting, 
storage, processing, and waste disposal. The project has developed a 
new high-yielding switchgrass cultivar that has demonstrated 
significantly higher yields than the best standard variety. 
Correlations between gasifer performance parameters and biomass 
properties have improved the understanding of operational variables and 
increased syngas quality. Preliminary estimates suggest that at least 
three units of energy are produced for one energy unit of input.
    The work supported by this grant began in fiscal year 2001, and the 
appropriation for fiscal year 2001 was $900,016; for fiscal year 2002, 
$960,000; for fiscal year 2003, $1,142,525; for fiscal year 2004, 
$1,022,929; for fiscal year 2005, $1,014,816; for fiscal year 2006, 
$1,188,000; for fiscal year 2007, $0; for fiscal year 2008, $893,700; 
and for fiscal years 2009 and 2010, $839,000 per year. The total amount 
appropriated is $8,799,986.
    The work is being carried out at Oklahoma State University, the 
University of Oklahoma, and Mississippi State University.
    Evaluation of this project is conducted yearly based on annual 
progress reports and discussions with the principle investigators over 
the course of the year. This project is making progress in accordance 
with the mission of the National Institute of Food and Agriculture.

                     BIOTECHNOLOGY, NORTH CAROLINA

    The original goal of this research was to improve the 
competitiveness of wood production in the southern United States, to 
better manage invasive pathogens of ornamental trees, and to increase 
the distribution of elite hardwood trees in natural forest settings. 
Researchers are planning on using biotechnology and genetics to address 
optimal ways to generate both transgenic and non-transgenic Populus 
clones that are better adapted as biomass feedstock under varying 
environmental conditions. Recent accomplishments include the 
development of field sites at Oxford and Williamsdale, North Carolina.
    The work supported by this grant began in fiscal year 2001, and the 
following amounts have been appropriated: in fiscal year 2001, 
$284,373; in fiscal year 2002, $306,000; in fiscal year 2003, $304,011; 
in fiscal year 2004, $272,383; in fiscal year 2005, $286,688; in fiscal 
year 2006, $284,130; in fiscal year 2007, $0; in fiscal year 2008, 
$211,509; and in fiscal years 2009 and 2010, $199,000 per year. The 
total amount appropriated is $2,347,094.
    The research is being conducted at North Carolina State University 
and various sites in the southern Appalachians and elsewhere in the 
southeastern United States.
    Senior agency technical staff conducts a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission.

              BOVINE TUBERCULOSIS, MICHIGAN AND MINNESOTA

    The original goal of this program is to focus on the issues of 
spatial epidemiologic relationships involved in the transmission of 
tuberculosis among the deer population, survivability of the organism 
in the environment, and the other wild or domestic hosts that may exist 
for this organism, as well as the pathogenesis of the disease in 
pigeons. Tuberculosis infected deer have been found to be the source of 
infection for other wild animals and domestic cats. New approaches to 
TB diagnosis and detection, through more rapid, reliable diagnostic 
tools and novel and more efficient surveillance techniques, are needed 
to reduce the significant costs associated with TB control and 
eradication programs. A risk assessment model for herd tuberculosis 
status was developed and correctly classified 95 percent of the 
simulated case herds as tuberculosis positive. This risk model 
accurately predicts the likelihood of a beef herd being correctly 
identified as tuberculosis positive or negative. Incorporating these in 
to a risk-based surveillance program will enhance current TB 
surveillance programs. This will decrease both the economic and 
psychological costs of TB, and accelerate TB control and eradication.
    The work supported by this grant began in fiscal year 2000 with an 
appropriation of $170,000; for fiscal year 2001, $324,285; for fiscal 
year 2002, $318,000; for fiscal year 2003, $345,738; for fiscal year 
2004, $309,165; for fiscal year 2005, $352,160; for fiscal year 2006, 
$352,440; for fiscal year 2007, $0; for fiscal year 2008, $262,152; for 
fiscal year 2009, $246,000; and for fiscal year 2010, $346,000. The 
cumulative total amount appropriated is $3,025,940.
    This work is being conducted at the College of Veterinary Medicine 
at Michigan State University in East Lansing, Michigan.
    Each proposal submitted to NIFA has been institutionally peer-
reviewed at Michigan State University. During the review of the fiscal 
year 2009 proposal, the NIFA National Program Leader determined that 
the research objectives were clearly described and placed in lucid and 
logical context with the objectives of the prior grant cycle.

                      BRUCELLOSIS VACCINE, MONTANA

    The original goal of this program is to develop vaccine delivery 
systems and novel Brucella vaccines for bison. This will be 
accomplished by conducting research to design and develop new subunit 
and live Brucellosis vaccines that will effectively protect bison and 
cattle against Brucellosis.
    Progress to date includes a better understanding of the bison 
immune response which shows the dynamics of bison immunity and the 
importance of studying bison mucosal immune responses to assist in the 
development of new generation Brucella vaccines. Reagents have been 
developed to detect immune responses of bison, and an oral delivery 
system for a bison vaccine has been optimized. The investigator 
continues to work toward vaccine development, and has identified 
possible candidates for the brucellosis vaccine. Results from the bison 
and mouse vaccination studies are promising due to protective efficacy 
which was obtained in both animal systems. Thus, the development of a 
subunit vaccine for brucellosis appears to be feasible once analyses' 
discerning the protective epitopes using a DNA vaccine approach has 
been completed. Further work was also done to characterize the new 
vaccine candidates.
    The work supported by this grant began in fiscal year 1999. The 
appropriation for fiscal year 1999 was $150,000; for fiscal year 2000, 
$425,000; for fiscal year 2001, $494,909; for fiscal year 2002, 
$485,000; for fiscal year 2003, $489,796; for fiscal year 2004, 
$438,398; for fiscal year 2005, $440,448; for fiscal year 2006, 
$435,600; for fiscal year 2007, $0; for fiscal year 2008, $324,711; and 
for fiscal years 2009 and 2010, $305,000 per year. The total amount 
appropriated is $4,303,862.
    This work is being done at Montana State University's Department of 
Veterinary and Molecular Biology in Bozeman, Montana.
    Each fiscal year, the submitted proposal for this program is peer-
reviewed by the institution prior to submission, and subsequently 
reviewed by a NIFA National Program Leader.

 CATALOGING GENES ASSOCIATED WITH DROUGHT AND DISEASE RESISTANCE, NEW 
                                 MEXICO

    This research will use computational tools to investigate changes 
in gene expression that occur during drought and diseases stresses in 
plants grown in the American Southwest. The researchers propose to link 
DNA sequence information to gene expression patterns with particular 
interest in those genes that affect plant metabolism. They will also 
set up plant metabolite extraction methods and gas chromatography and 
mass spectrometry analysis methods to quantify key metabolites. Based 
on gene expression data, the researchers predict that certain 
metabolites in Capsicum chili and Phaseolus beans will be altered in 
response to disease and drought. They will test these predictions using 
root samples collected from treated resistant and susceptible or 
tolerant genotypes. Research on the molecular genetics of drought 
stress and the impact of drought on disease stress is crucial as water 
supplies and quality become more restricted.
    In 2009, these researchers focused on the development of a process 
for green chemistry extraction of commercially valuable red pigments 
from chili peppers. This will be a new process that may be patented. 
They have also discovered that not all orange-colored chili peppers are 
high in beta-carotene, since red and yellow pigments can mix in the 
fruit to create orange color. Chili breeding programs should verify 
whether or not there is a link between color and vitamin content in 
their material, before proceeding with visual selection based on color.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $186,684; and for fiscal years 2009 
and 2010, $176,000 per year. A total of $538,684 has been appropriated.
    The research will be conducted at New Mexico State University.
    The submitting institution conducts a peer review of the proposal 
prior to submission. Senior agency technical staff conducts a merit 
review of the proposal prior to making a funding recommendation.

                   CENTER FOR ONE MEDICINE, ILLINOIS

    The original goal of this program, was to educate a new cadre of 
health professionals who understand the determinants and contributing 
factors for human, animal, and ecosystem health as well as how public 
health policy is developed and how it affects the health of all three 
objectives. To understand disease processes that occur at the interface 
of human and animal activities and their effects on the environment and 
to improve our society's preparedness and response to natural and 
intentional exposures of biological, chemical, and physical agents.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. An amount of $235,000 was appropriated in fiscal year 
2009 and $500,000 in fiscal year 2010. A total of $735,000 has been 
appropriated.
    The work is being carried out at the University of Illinois, at 
Urbana-Champaign.
    The fiscal year 2009 proposal was institutionally peer-reviewed at 
the Center for One Medicine. In addition, a NIFA National Program 
Leader reviewed the proposal.

                   CENTER FOR RURAL STUDIES, VERMONT

    The original goal was to create a database and analytical 
capability for rural development programming in Vermont. Past 
accomplishments include maps to target child hunger and rural 
development opportunities, applied research to inform the development 
of retail areas, an ``Economic Handbook for Vermont Counties,'' and 
strategies for using the Internet.
    The Center has assisted local officials with e-mail, streaming 
video, software installation and utilization, and accessing information 
from Web sources. It has developed databases useful for local planners 
and school boards and indicators to help local officials interpret data 
and apply for State and Federal grants. It worked with the Vermont 
Council on Rural Development to assess the need for broadband Internet 
service and facilitated community-level solutions for service in more 
than 47 towns. It has developed training materials for town clerks on 
Web site design, e-Government, and e-security.
    In 2008, the Center updated the ``Vermont Indicators Online,'' 
collaborated with the U.S. Census Bureau to ensure access to Census 
Bureau data, assisted Vermont data users, and maintained a Census 
Bureau data portal for State residents. The VIO had 24,000 Web site 
visits, and 60,000 pages of data were accessed that year. The Center 
also developed the ``Vermont Geography Portal'' to make spatial 
information and a mapping application widely available. In addition, 
the Center developed a GIS educational curriculum for municipal 
officials and K-12 educators. Also in 2008, the Center developed 
methods to use spatial data to identify population clusters in the 
State and analyze them community-by-community.
    In 2009, the Center surveyed over 400 Vermont farmers on land and 
development issues related to farmer decisions to purchase or sell land 
or to change the way they farm. Almost 80 percent reported that local 
boards had some degree of understanding of agricultural issues and 
operations. The Center addressed the issue of extending broadband to 
rural Vermont and developed a database of over 4,800 households and 
businesses that want broadband access and services. Focusing on farm 
business incubation, the project supported 15 operations over 3 years 
that now report an average net farm income increase from $18,000 to 
$21,000 over 1 year. The Center completed a study of a local food e-
commerce portal to assist in marketing fresh products. Farmers will 
help design and test an e-commerce portal in fiscal year 2010. 
Workshops for women farmers helped expose producers to new 
opportunities through the Internet. The Center continued to enhance and 
maintain the Vermont Indicators Online (VIO) Web site and the Vermont 
Housing Data Web site. The project funded two rounds of business 
workshops for food product entrepreneurs and provided technical 
assistance to a State farm-to-school program, with VT FEED. Other 
activities included maintaining and updating the Vermont Planning 
Information Center, a clearinghouse of information for municipal land 
use officials, and launching a community-based participatory research 
partnership with Smart Growth Vermont to determine indicators of health 
for Vermont downtowns, including food systems and regional landscape 
date.
    The grant was initiated in fiscal year 1992. Appropriated amounts 
are: fiscal years 1992-1993, $37,000 per year; fiscal year 1994, 
$35,000; fiscal years 1995-1998, $32,000 per year; fiscal years 1999-
2000, $200,000 per year; fiscal year 2001, $199,560; fiscal year 2002, 
$240,000; fiscal year 2003, $337,790; fiscal year 2004, $302,206; 
fiscal year 2005, $348,192; fiscal year 2006, $361,350; fiscal year 
2007, $0; fiscal year 2008, $261,159; fiscal year 2009, $245,000; and 
fiscal year 2010, $350,000. Total appropriations are $3,282,257.
    The work is being carried out through the University of Vermont. 
Parts of the research and application are done in association with 
county planning commissions and local governments and business 
organizations.
    The agency evaluates the merit of research proposals as they are 
submitted. The principal investigators and project managers submit 
annual reports to the agency to document impact of the project. Agency 
evaluation of the project includes peer review of accomplishments and 
proposal objectives and targeted outcomes.

                CHILDHOOD OBESITY AND NUTRITION, VERMONT

    The objective of this grant is to increase physical activity 
behavior in preschool children enrolled in daycare centers by: 
increasing the exercise self-efficacy of daycare staff, increasing 
their knowledge and changing attitudes, beliefs, and perceptions about 
preschool physical activity, and increasing the availability and 
utilization of high quality physical activity materials.
    This research looks at physical activity behavior as one 
intervention. Formative data on daycare centers and daycare providers 
were collected in 2004 through three focus groups to see how staff 
perceived physical activity for children, what they felt the barriers 
to children getting more activity were and how they felt about their 
own activity. Focus groups gave positive feedback that physical 
activity for children was important to daycare providers. A key result 
was that the day care setting was a very favorable environment for 
promotion of physical activity with perceived advantages to social, 
cognitive, behavioral and health issues. In addition, there was a 
strong appreciation of the child care provider's role in promoting, 
facilitating, or teaching physical activity skills during active play 
times. Both modeling and leadership were seen as important to obtaining 
the benefits of physical activity in this environment. While child care 
providers showed a strong appreciation of their role in promoting, 
facilitating, or teaching physical activity during active play times, 
the level of engagement in physical activity in their own lives varied 
widely, suggesting that this will be a challenging direction for 
intervention in comparison to other skills directly related to child 
care work. Barriers to physical activity in day care settings to 
include indoor and outdoor space available, access to open land and 
play or exercise equipment were explored. In 2005 and 2006, two mail 
surveys were implemented and sent to Vermont daycare center directors 
and to daycare staff. Survey responses helped researchers identify 
training needs; training content, format, location and incentives; 
barriers to staff involvement in modeling or leading active play; and 
supporters or reinforcers for active play. In 2006 and 2007, the 
feasibility of using SenseWear Armbands to measure physical activity 
was determined in two different daycare centers. In 2008, the physical 
activity of 61 children from seven daycare centers was measured via 
direct observation and objectively using the SenseWear Armbands. 
Results showed that children spent a total of 58 percent of their day 
sedentary; 36.8 percent in moderate activity; 4.4 percent in vigorous 
activity and 0.7 percent in very vigorous activity. Children were about 
twice as active when they played outside as compared to inside for 
moderate or vigorous activity and the quality of their play or level of 
energy expended 10 percent higher when they were engaged in teacher-led 
activities. This evidence supports current work to train providers to 
provide more teacher-directed, structured physical activity to 
preschool children.
    The work supported by this grant began in fiscal year 2003 with an 
appropriation of $149,025; for fiscal year 2004, $133,209; for fiscal 
year 2005, $190,464; for fiscal year 2006, $198,990; for fiscal year 
2007, $0; for fiscal year 2008, $112,209; for fiscal year 2009, 
$169,000; and for fiscal year 2010, $250,000. A total of $1,202,897 has 
been appropriated.
    Research is being conducted at the University of Vermont and State 
Agricultural College, Burlington.
    The project underwent a peer review process in June 2009 in 
accordance with USDA guidelines and is also evaluated through annual 
reports. The project materials have also been reviewed by the 
Institutional Review Board and by State daycare leaders. Finally, any 
data that are published would be evaluated through the peer review 
process.

                  CITRUS CANKER AND GREENING, FLORIDA

    The original goals of this research were to evaluate potential 
materials that could delay or interfere with the bacterial infection 
processes on susceptible host material, characterize aspects of canker 
and HLB and ACP biology, ecology, and epidemiology that might be 
manipulated to reduce infection or to predict more effectively where 
infection has taken place, and to develop mechanisms within the host 
plants that will increase their resistance to infection and disease 
development. Researchers are attempting to introduce additional 
resistance mechanisms derived from the pathogen or from plants with 
resistance to other similar bacterial diseases. Educational objectives 
of this project focus on development and delivery of current 
information on the organism, the disease, and efforts to eliminate it. 
Educational programs will be designed for commercial citrus producers, 
harvesters, and those who work in contact with citrus trees which may 
be exposed to the disease; homeowners with citrus planted in their 
yards; the general public who seeks information on the eradication 
effort and its necessity; and regulators and policy makers who are 
interested in science-based actions and policies.
    This program began in fiscal year 2001. Funds have been 
appropriated as follows: fiscal year 2001, $4,739,550; fiscal year 
2002, $490,000; fiscal year 2003, $486,815; fiscal year 2004, $447,345; 
fiscal year 2005, $470,208; fiscal year 2006, $495,000; fiscal year 
2007, $0; fiscal year 2008, $1,295,865; and fiscal years 2009 and 2010, 
$1,217,000 per year. The total amount appropriated is $10,858,783. This 
project was funded only for citrus canker through 2007. Citrus greening 
was added to the objectives in 2008 although funding levels did not 
increase.
    The research is being conducted at the University of Florida 
research and education facilities located at Lake Alfred, Bradenton, 
Immokalee, and Homestead; and in South Texas.
    Senior agency technical staff evaluates the project every year. In 
addition, the University of Florida operates this project as an 
internal competitive grants program that seats an independent panel of 
experts to review the research and extension proposals. The agency 
worked with the program director to develop a request for applications 
and provided input into the development of a peer-review process. A 
review of the research supported by this project was undertaken in 2006 
by the National Citrus Research Council, and an agency technical 
specialist was in attendance. There was no recommendation for change of 
direction, and the community wants to stay the course with the current 
objectives, while increasing public outreach, particularly on the 
option of transgenic oranges. In 2011, the Agricultural Research 
Service is leading a national research coordination effort. This 
special grant funded research projects and new request for applications 
will be reviewed in the context of the total national research and 
extension effort on citrus diseases.

          COMPETITIVENESS OF AGRICULTURE PRODUCTS, WASHINGTON

    This research identifies international marketing opportunities for 
Northwest firms in the forest products and food products sectors by 
providing information on markets and product technologies that can open 
higher-valued international markets to U.S. exporters. Foreign 
purchasers need information on the advantages of U.S. products, and 
U.S. exporters need information on the substantially different quality 
and service requirements for serving foreign markets.
    The International Marketing Program for Agricultural Commodities 
and Trade (IMPACT) program of Washington State University implements 
this research and provides a central and stable core of knowledgeable 
experts who can guide small export businesses in navigating these 
markets successfully.
    The Center for International Trade in Forest Products (CINTRAFOR), 
located within the College of Forest Resources at the University of 
Washington, provides the research knowledge in marketing and product 
conversion to be competitive in the world market.
    The most recent accomplishments of IMPACT and CINTRAFOR are:
For 2008
    IMPACT Center developed a cost effective algal cultivation process 
for converting cull potato starch to omega-3 polyunsaturated fatty 
acids (omega-3 PUFA), more specifically, docosahexaenoic acid (DHA). A 
patent for the process is currently pending. The enriched algal biomass 
that is created in the process also has auxiliary uses as feed 
additives that can be fed to dairy cows to enrich the nutritional value 
of milk or to other animals to increase the value of the respective 
animal products. In addition to the clear impact of providing a supply 
source for omega-3 polyunsaturated fatty acids that can have positive 
health effects on humans, as well as providing for nutritionally 
enhanced milk products, the process also provides for a valuable 
alternative market outlet for cull potatoes that might otherwise have 
limited value in the market place for potato producers.
    CINTRAFOR, manages the United States-China Build (USCB) program and 
promotes the benefits of wood frame construction to construction 
professionals in China. This program also provides U.S. wooden building 
materials manufacturers the opportunity to participate in trade 
missions to China where they can meet with potential customers in three 
different cities to showcase their products and services. Since the 
start of the program, over 100 U.S. companies and over 2,800 Chinese 
construction industry professionals have participated in USCB programs 
in China. This program has resulted in over $32.4 million in new export 
sales to China while creating almost 350 new jobs within the forest 
products sector in the United States.
For 2009
    The IMPACT Center funds a variety of projects applying advances in 
science and technology to improve the competitiveness of food and 
agricultural systems in today's global market.
    IMPACT Center scientists are investigating polices for mitigating 
production and trade effects from invasive species outbreaks in 
livestock--e.g., mad cow disease or foot and mouth disease--and 
plants--e.g., apple maggot. Other projects include exploring the phase 
out of organophosphate pesticides on the apple industry, enhancing wine 
exports, profitability in the organic sector, and assessment of agri-
tourism.
    Research has demonstrated that losses from a foot and mouth 
outbreak in the United States could range over $270 billion, but that 
this can be dramatically reduced with improved traceability in the 
livestock system. Other projects can improve export success for 
existing industries, solve phytosanitary and barriers to trade issues, 
or develop alternative revenues through organic production and agri-
tourism.
    CINTRAFOR manages the highly successful United States-China Build 
program for the Evergreen Building Products Association.
    In 2009, CINTRAFOR organized two sales missions to China where 17 
U.S. companies made technical presentations to the 678 Chinese 
construction professionals who attended the six seminars.
    Following the conclusion of the two sales missions, the U.S. 
companies reported that they had obtained total sales of $22,441,000 as 
a result of their participation in the United States-China Build 
program. It is estimated that the increase in U.S. exports resulting 
from these two sales missions led to the creation of 252 new jobs.
    The work began in fiscal year 1992. The appropriation for fiscal 
years 1992-1993 was $800,000 each year; fiscal year 1994, $752,000; 
fiscal years 1995-1998, $677,000 each year; fiscal years 1999-2000, 
$680,000 each year; fiscal year 2001, $678,504; fiscal year 2002, 
$665,000; fiscal year 2003, $675,580; fiscal year 2004, $604,413; 
fiscal year 2005, $646,784; fiscal year 2006, $672,210; fiscal year 
2007, $0; fiscal year 2008, $500,472; and fiscal years 2009 and 2010, 
$469,000 per year. A total of $11,800,963 has been appropriated.
    Both programs--IMPACT and CINTRAFOR--were formally reviewed by an 
external review team with a representative from NIFA in August 2004. 
Both were found to be satisfactorily achieving their goals.
    On-site reviews are conducted annually of the University of 
Washington component of the project through annual meetings of the 
project's Executive Board and attended by NIFA and the Washington State 
University component through the grant competition evaluation where the 
NIFA project director is involved.
    The original goal of this research was the application of leading-
edge information technologies, including high-performance computing, to 
advance agricultural sciences and quickly bring research results to 
farmers and the general public. Spatially balanced, complete-block 
experimental designs have been created for 15 treatments and 
replications in agronomic crops and recently extended to vineyards; a 
hyperspectral soil data base has been developed; a real-time nitrogen 
management model, Adapt-N, has been linked to a Web interface; using 
widely dispersed rain gauge data and radar-based precipitation 
estimates, high resolution precipitation estimates are now generated 
and provided daily to farmers using a Web interface; economic 
investment models accommodate stochastic events, such as climate change 
and insect infestations; and data-mining techniques are used to make 
weather event predictions that are spatially and temporally explicit. 
Additionally, this project has supported six graduate student theses 
and generated more than 30 peer-reviewed scientific papers.
    The work supported by this grant began in fiscal year 2003. The 
appropriation for fiscal year 2003 was $248,375; for fiscal year 2004, 
$221,684; for fiscal year 2005, $239,072; for fiscal year 2006, 
$236,610; for fiscal year 2007, $0; for fiscal year 2008, $176,754; and 
for fiscal years 2009 and 2010, $131,000 per year. The total amount 
appropriated is $1,384,495.
    Research is conducted at Cornell University's Theory Center, at 
various Cornell University laboratories, and in experiment station and 
producer fields. With extension of the Adapt-N nitrogen tool, work is 
also being conducted in Iowa.
    The project is subject to a thorough institutional peer review 
during preparation of the grant proposal. Submitted proposals undergo 
merit review by one or more agency scientists. In 2004, an agency-led 
on-site review of the research was conducted. The review team 
encouraged broader marketing of their activities and eventual 
development of one or two signature projects that fully exploit the 
computational resources available. The principal researcher and other 
institutional representatives met with agency staff in 2008 to review 
project progress.
    cool season legume research, idaho, north dakota, and washington
    The original goals of this project were to improve efficiency and 
sustainability of cool season food legumes through multi-disciplinary 
research directed at high priority issues affecting cool season food 
legumes. The program was to develop new and strengthen regional 
collaborative approaches in research and technology transfer. While the 
overarching goals remain the same, specific objectives are revised 
annually and prioritized through consultation among researchers, 
industry representatives, and farmers. In one outcome, phenolic and 
flavenoid compounds have been tracked to assess antioxidant activity to 
help explain the cancer prevention properties of pulse legumes. 
Extracts of specific legumes have been confirmed to inhibit cancers of 
the colon, liver, stomach, and tongue. Compounds are being isolated 
from green and yellow pea, lentil, and chickpea and their activity is 
being confirmed. Processing of the legume seed with steam appears to 
improve the appearance, texture, and retention of antioxidant activity. 
This research has complemented work done to investigate the retention 
of antioxidant capacity in extruded products made from legume flours. 
Extruded snacks containing 65 percent of lentil or dry pea, along with 
selected natural food ingredients and potato starch, were prepared in 
the laboratory and sent to a certified laboratory in Canada to 
determine the glycemic index (GI) using human subjects. These legume-
based foods offer great alternatives for populations suffering from 
health problems, such as type two diabetes, obesity, colon cancer, and 
heart disease.
    Cool season food legume trials across the northern plains provided 
critical information for producers about high yielding legume varieties 
with good quality traits. These data will help decision makers improve 
yields 5 to 10 percent and benefit the industry with a better quality 
end product.
    Lentil and pea selections for adaptation, agronomic, quality, 
disease tolerance are ongoing. Several mapping populations are now in 
development or are in use to more quickly identify powdery mildew 
resistance. Other genetic markers have been identified to improve 
efficiency of breeding for resistance to Fusarium and Aphanomyces fungi 
and of high-yielding pea cultivars. These new methods have increased 
throughput, accelerating powdery mildew resistance screening of 24 
cultivars, 17 lines, and 582 accessions of pea. No immune genotypes 
were found, but a range of susceptibility was identified. Leveillula 
taurica, the chickpea powdery mildew pathogen was also identified for 
the first time in the Pacific Northwest. Pea seed treatments fungicides 
were found to reduce root rot incidence and severity and increase 
yield.
    The critical weed-free period for chickpea and lentil and the 
associated yield losses has been shown to vary across cultivars are now 
better understood. These data will help growers with decisions on 
herbicide use, application timing and may result in a better return on 
herbicide inputs or less herbicide being used.
    A system has been launched to track the movement of the winged pea 
aphid into the Palouse region of Washington and Idaho using 
geospatially referenced insect traps. It is expected that this system 
will result in reduced insecticide use and the associated environmental 
and public health benefits and reduced production cost.
    The work supported by this grant began in fiscal year 1991 with 
appropriations for fiscal year 1991 of $375,000; fiscal years 1992-
1993, $387,000 per year; fiscal year 1994, $364,000; fiscal year 1995, 
$103,000; fiscal years 1996 through 2000, $329,000 per year; fiscal 
year 2001, $328,276; fiscal year 2002, $321,000; fiscal year 2003, 
$333,816; fiscal year 2004, $536,814; fiscal year 2005, $564,448; 
fiscal year 2006, $558,360; fiscal year 2007, $0; fiscal year 2008, 
$416,067; fiscal year 2009, $235,000; and fiscal year 2010, $350,000. A 
total of $6,904,781 has been appropriated in the life of the project.
    This research is being conducted at agricultural experiment station 
locations in Idaho, Washington, and North Dakota. The funds are awarded 
competitively among scientists from the participating States.
    The project is evaluated annually by an advisory panel of 
university and industry experts. Proposals are peer reviewed at the 
performing institutions and by senior agency technical staff. An on-
site review of the project was conducted by a senior member of agency's 
technical staff in 2004. A strategic planning session was held in 
February 2006 in Spokane, Washington, to assess current research needs 
for cool season pulse crops. The current research priorities are based 
on the conclusions from that meeting. The next external peer review 
panel and program review by the Industry Research Committee will be 
held in February of 2010. The research priorities identified at that 
workshop will be reflected in the program application for 2010.

          COTTON INSECT MANAGEMENT AND FIBER QUALITY, GEORGIA

    The objectives of this project are to improve the quality of cotton 
produced in Georgia and other southeastern States and to test a new 
experimental gin. This research focuses on areas that integrate levels 
of biological organization such as population ecology and the biology 
and ecology of transgenic organisms in agroecosystems, along with the 
more traditional pest management tactics to sustain cotton production 
in Georgia and the southeastern region. Substantial progress has been 
made toward achieving the overall project goals including maintaining 
fiber quality, understanding the biology and ecology of emerging pests, 
improving sampling of emerging pests and establishing management 
thresholds, improving management tactics for emerging insect pests, and 
continuing surveillance of the farmscape for shifts in pests. A cotton 
entomologist has been hired and is currently establishing a laboratory. 
Several studies have been completed evaluating recommended thresholds 
and assessing the possibility of using variable thresholds depending on 
the phenology of the crop. Another study has been conducted examining 
the possible use of barrier crops, such as grain sorghum and Sudan 
grass, to reduce colonization of cotton fields and limit crop damage.
    Work supported by this grant began in fiscal year 2006 with an 
appropriation of $489,060; $0 in fiscal year 2007; $368,402 in fiscal 
year 2008; and $346,000 per year in fiscal years 2009 and 2010. The 
total amount appropriated is $1,549,463.
    This research is being conducted primarily at the Coastal Plain 
Experiment Station located at Tifton, Georgia. However, collaborative 
work has expanded several of the studies into other States in the 
Southeast.
    Each of the annual project proposals was subjected to peer review 
performing institution's peer review and was reviewed by senior agency 
technical staff. Results of this project have been presented at the 
Beltwide Cotton Research Conferences, meetings of the Entomological 
Society of America, and at numerous regional meetings of growers and 
commodity groups.

          CRANBERRY/BLUEBERRY DISEASE AND BREEDING, NEW JERSEY

    The work is focused on identification and monitoring of insect 
pests on blueberries and cranberries; the identification, breeding, and 
incorporation of superior germplasm into horticulturally desirable 
genotypes; identification and determination of several fungal fruit-
rotting species; identification of root-rot resistant cranberry 
genotypes; and identification of human health benefits from cranberry 
and blueberry consumption. Overall, research has been focused on the 
attainment of cultural management methods that are environmentally 
compatible, while reducing blueberry and cranberry crop losses.
    This project involves insects and diseases having major impacts on 
New Jersey's cranberry and blueberry industries, but the findings are 
being shared with experts in Wisconsin, Michigan, and New England.
    Over 75 blueberry selections with wild blueberry accessions 
resistant to secondary mummy berry infections have been moved into 
advanced testing. The biology and seasonal life history of spotted 
fireworm on cranberries has been determined. A pheromone trap-based 
monitoring system for cranberry fruitworm was developed and further 
refined for commercialization. Blueberry fruit volatiles attractive to 
blueberry maggots were identified and tested in the field. Researchers 
have planted over 4,500 cranberry progeny for evaluation. Seven major 
fruit-rotting fungal species were identified, and their incidence in 10 
major cultivars of blueberry and cranberry were determined. It is 
likely that resistance to fruit rot is specific to fungal species. 
Investigators have developed a product that is ready for field testing 
which uses current season remote sensing data to predict the incidence 
of fruit rot in cranberry.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1985, $100,000; fiscal years 1986 and 1987, $95,000 per year; 
fiscal years 1988 and 1989, $260,000 per year; fiscal year 1990, 
$275,000; fiscal years 1991 to 1993, $260,000 per year; fiscal year 
1994, $244,000; fiscal years 1995 to 2000, $220,000 per year; fiscal 
year 2001 $219,516; fiscal year 2002, $216,000; fiscal year 2003 
$234,466; fiscal year 2004 $209,755; fiscal year 2005, $352,160; fiscal 
year 2006, $643,500; fiscal year 2007, $0; fiscal year 2008, $479,619; 
for fiscal year 2009, $451,000; and for fiscal year 2010, $550,000. A 
total of $6,785,016 has been appropriated.
    This research is being conducted at the New Jersey Agricultural 
Experiment Station.
    This project is evaluated annually based on the annual progress 
report and discussions with the principal investigator. It has been 
determined that progress in the development of new agricultural 
opportunities and use of decision-making tools for farmers and 
entrepreneurs is satisfactory. The agency conducted an on-site 
evaluation of the project in April 2006. In addition, evaluation of 
this project is conducted annually based on the annual progress report 
and discussions with the principal investigator. It has been determined 
that progress in the development of new agricultural opportunities and 
use of decision-making tools for farmers and entrepreneurs is 
satisfactory.

                   CRANBERRY/BLUEBERRY, MASSACHUSETTS

    The original goal of this research was to use molecular genetics to 
reduce dependence on chemical pesticides in cranberry production. An 
additional goal was to use molecular genetic techniques to identify 
potential biological control agents that could be used to further 
decrease dependency on the use of synthetic pesticides in cranberry 
production. Good progress has been made toward achieving both of these 
goals. Molecular markers have been developed that differentiate between 
early and late emerging dodder populations. These markers have been 
used to identify field populations of the different strains, and trials 
have been initiated to determine the best timing of herbicide 
applications to provide complete control of dodder. Field samples have 
been taken from both wild and cultivated cranberry, and various strains 
of Actinomycete fungi have been isolated. These organisms will be 
evaluated under greenhouse and field conditions for the ability to 
suppress the growth of fungi pathogenic to cranberry and blueberry.
    The work supported by this grant began in fiscal year 1999, and the 
appropriation for fiscal years 1999 and 2000 was $150,000 per year; in 
fiscal year 2001, $174,615; in fiscal year 2002, $172,000; in fiscal 
year 2003, $170,882; in fiscal year 2004, $153,091; in fiscal year 
2005, $151,776; in fiscal year 2006, $158,400; in fiscal year 2007, $0; 
in fiscal year 2008, $118,167; in fiscal year 2009, $111,000; and in 
fiscal year 2010, $160,000. A total of $1,669,931 has been 
appropriated.
    Research is being conducted at a University of Massachusetts 
Research and Extension Center.
    A site visit was made by senior agency technical staff in July 
2003, and a merit review was conducted in April 2007. It was determined 
that the investigators are making progress toward the achievement of 
their stated objectives. In addition, evaluation of this project is 
conducted annually based on the annual progress report and discussions 
with the principal investigator.

             CROP INTEGRATION AND PRODUCTION, SOUTH DAKOTA

    The objectives of this grant are to develop crop alternatives for 
which there is no governmental commodity support but which would be 
economically sustainable in no tillage conditions of South Dakota, 
North Dakota, and Nebraska. The research is designed to develop 
production management systems for alternative crops in western 
Nebraska, North Dakota, and South Dakota that are nitrogen producing 
and that also fit into a no tillage dry land crop rotation system.
    Researchers have focused on examining characteristics of 
alternative crops relative to their potential to improve cropping 
systems. The factors evaluated included the ability of the crop to 
reduce nitrogen needs, disrupt pest cycles, and produce products with 
adequate economic return. The information from this research will be 
used to assess the nutritional and economic viability of these crops as 
food, feedstuffs, forage, energy, or green manure sources. Nebraska 
researchers have initiated beef feedlot feeding trials. Some swine 
ration research using pulse crops and oilseed meals as feed ingredients 
are being conducted; this presents a large potential market for pulse 
crops, particularly these corps that do not meet the food grade 
standard.
    The work supported by this grant began in fiscal year 2002, and the 
appropriation for fiscal year 2002 was $200,000; for fiscal year 2003, 
$273,213; for fiscal year 2004, $268,407; for fiscal year 2005, 
$294,624; for fiscal year 2006, $297,000; for fiscal year 2007, $0; for 
fiscal year 2008, $223,425; for fiscal year 2009, $258,000; and for 
fiscal year 2010, $400,000. A total of $2,214,669 has been 
appropriated.
    The research is being conducted in South Dakota, North Dakota, and 
Nebraska under semiarid conditions.
    A peer review of the proposal was conducted by the submitting 
institution, and senior agency science staff conducted a critical 
review of the proposal. In 2008, an on-site review was conducted by 
senior agency technical staff.

                     CROP PATHOGENS, NORTH CAROLINA

    This research will elucidate the genomics of high consequence 
fungal plant pathogens and produce algorithms for tracking and mapping 
the spread of crop pathogens, with the specific intent to determine if 
the spread is natural or appears to be unusual. The study is directed 
toward identifying regions of DNA diagnostic to the sub-species level, 
as well as for pathogenicity, survival, and toxin production of three 
high-consequence fungal pathogens: Mangaporthe oryzae, Aspergillus 
flavus, and Rhizoctonia species.
    Progress to date includes building phylogenetic relatedness maps of 
several highly damaging plant pathogens and performing the systematic 
work needed to turn this knowledge into accurate diagnostic tools. The 
research on Rhizoctonia is develop DNA markers and microarray 
technology to discern Rhizoctonia species from other biota in soils.
    This project began in fiscal year 2003 with an appropriation of 
$198,700; for fiscal year 2004, $177,944; for fiscal year 2005, 
$250,976; for fiscal year 2006, $321,750; for fiscal year 2007, $0; for 
fiscal year 2008, $240,306; and for fiscal years 2009 and 2010, 
$225,000 per year. A total of $1,639,676 has been appropriated.
    The research is being conducted at North Carolina State University.
    The submitting institution conducts a peer review of the proposal 
prior to submission. Additional merit review is conducted annually by 
senior agency technical staff prior to making a funding recommendation.

                  DAIRY AND MEAT GOAT RESEARCH, TEXAS

    The objective of this grant focuses on defining the population 
structure of goats in Texas and the Southeastern United States with an 
ultimate aim of determining the genetic make-up, breed identification, 
semen preservation, and embryo collection and storage.
    In 2006, the researchers focused on capacity building in artificial 
insemination and embryo transfer technologies at the International Goat 
Research Center at their institution. The overall objectives for the 
2008 project were: (1) to quantify genetic diversity within and among 
15 goat breeds located in Texas and the southeastern United States; and 
(2) to clarify the evolutionary genetic relationships among the 15 goat 
breeds. However, in fiscal year 2009, the focus of the project changed 
to defining the underlying molecular mechanisms that impact goat 
fertility. The investigators have standardized techniques for cell 
culture and biochemical analysis of cellular proteins by western 
blotting and immunoreactivity. The National Program Leader overseeing 
the progress of this project is satisfied with the progress and expects 
the project objectives to be completed within the project duration.
    Grants have been awarded through appropriated funds as follows: 
$100,000 per year for fiscal years 1983-1985; $95,000 per year for 
fiscal years 1986-1988; no funds were appropriated in fiscal year 1989; 
$74,000 for fiscal year 1990; $75,000 per year for fiscal years 1991-
1993; $70,000 for fiscal year 1994; $63,000 per year for fiscal years 
1995-2000; $62,861 for fiscal year 2001; $63,000 for fiscal year 2002; 
$62,591 for fiscal year 2003; $56,664 for fiscal year 2004; $99,200 for 
fiscal year 2005; $148,500 in fiscal year 2006; $0 in fiscal year 2007; 
$111,216 in fiscal year 2008; $94,000 in fiscal year 2009; and $200,000 
in fiscal year 2010. A total of $2,230,032 has been appropriated thus 
far.
    Research is being conducted at Prairie View Agricultural and 
Mechanical University in Texas.
    The current project was thoroughly reviewed at the time of 
submission in 2009. The project progress is being monitored 
continuously.

                 DAIRY FARM PROFITABILITY, PENNSYLVANIA

    The objective of this grant is to identify and develop improved 
dairy management practices that will help producers sustain and improve 
the profitability of their operations by: improving the reliability and 
enhancing the performance of next-generation anaerobic digesters by 
developing psychrotolerant and acidotolerant microbial consortia 
derived from acidic bogs; develop innovative sensing systems with 
Internet enabled remote monitoring and process control to reduce 
operator management requirements; defining digester designs based on 
current best practices and next-generation digester enhancements, 
building on the innovations developed in the first two objectives; and 
assessing the dairy farm-level performance and profitability of these 
digester designs for different dairy farm types and sizes and different 
policy scenarios.
    To date, current progress is focusing on the following four 
objectives:
  --Use the Profitability Assessment Dairy Tool (PA Dairy Tool) and the 
        Income Over Feed Cost (IOFC) Tool to identify bottlenecks that 
        limit dairy farm profitability on at least 50 farms over 2 
        years. (http://www.das.psu.edu/dairy/pa-tool and http://
        dairyalliance.psu.edu/resources/income-over-feed-cost-tool/)
Uniqueness of the Pennsylvania Dairy Tool
    Several features of the Pennsylvania Dairy Tool are novel and 
innovative including:
    --an overall, big picture assessment of an operation's 
            profitability combined with drill-down specificity at the 
            basic management level,
    --minimal data input to generate results,
    --unbiased assessment of the factors limiting revenue generation on 
            the dairy operation,
    --simple color-coded results that immediately focus the attention 
            of the user on the most critical management areas,
    --useable across herds of different sizes, different breeds, 
            different management styles, and different regions,
    --estimation of revenue loss from each operational management area,
    --the ability to estimate revenue losses against both industry 
            benchmarks and the dairy operator's goals,
    --the ability to build a database to assess farm management changes 
            and dairy profitability.
  --Determine relationships between operational and capital efficiency 
        and overall return on assets of high profit--greater than 4 
        percent--level farms.
  --Identify strategic changes that will result in improvement in IOFC, 
        cows per worker, milk sold per worker, internal herd growth 
        (IHG) and asset turnover ratio in order to increase overall 
        farm profitability--using data from objective 2 and high profit 
        level herds.
  --Teach dairy producers and advisors about strategies--objective 3--
        for improving farm profitability through ongoing training with 
        Dairy Profit Teams, a series of webinars, and quarterly 
        newsletters.
    The work supported by this grant began in fiscal year 2001. The 
appropriations amount to the following: fiscal year 2001, $284,373; 
fiscal year 2002, $294,000; fiscal year 2003, $496,750; fiscal year 
2004, $444,363; fiscal year 2005, $468,224; fiscal year 2006, $495,000; 
fiscal year 2007, $0; fiscal year 2008, $372,375; fiscal year 2009, 
$349,000; and fiscal year 2010, $372,000. In total, this research has 
received $3,576,085.
    The work is being carried out at the Pennsylvania State University, 
University Park, Pennsylvania.
    The productivity of the research team has been documented through 
the publication of many scientific papers in peer reviewed journals, 
Pennsylvania Department of Agriculture publications, and others. 
Additionally, the agency closely reviews each year's proposals and 
works with the project director to correct any deficiencies. 
Additionally, progress reports to the Current Research Information 
System (CRIS) are being monitored for satisfactory accomplishments and 
timelines.

                DELTA RURAL REVITALIZATION, MISSISSIPPI

    The objective of the grant is to support basic and applied research 
relevant to efforts to expand economic development opportunities for 
farms, families, communities, and residents of the Mississippi Delta 
region, increase adult literacy, and address healthy living issues.
    The project has progressed through several phases. Phase I research 
produced a baseline assessment of economic, social, and political 
factors that enhance or impede the region's progress. Phase II research 
evaluated the potential for entrepreneurship and small business 
creation and assessed the availability and use of information 
technology in the Delta. In the current phase, major new applied 
research efforts have been launched.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1989, $175,000; fiscal year 1990, $173,000; fiscal years 1991-
1993, $175,000 per year; fiscal year 1994, $164,000; fiscal years 1995-
2000, $148,000 per year; fiscal year 2001, $204,549; fiscal year 2002, 
$201,000; fiscal year 2003, $203,668; fiscal year 2004, $182,914; 
fiscal year 2005, $244,032; fiscal year 2006, $247,500; fiscal year 
2007, $0; fiscal year 2008, $186,684; and fiscal years 2009 and 2010, 
$176,000 per year. A total of $3,747,430 has been appropriated.
    The research is being carried out by the Southern Rural Development 
Center, housed at Mississippi State University, and sub-contractors. 
The Southern Rural Development Center Director is the project director, 
and he has established collaborations with the Mid-Delta Developers' 
Association, the Delta Council's Adult Literacy Program, the Delta 
Regional Authority, the Delta Data Center, the Mississippi Development 
Authority, and regional Chambers of Commerce.
    Proposals are submitted for internal review, evaluation, and merit 
review within the agency as they are received. The principal 
investigators and project managers submit periodic updates to the 
agency to document progress and impacts. For the current phase of the 
project, a team prioritized research questions so that the research 
investment interfaces closely with regional needs and supports outreach 
education.

                   DESIGNING FOODS FOR HEALTH, TEXAS

    The objectives of the grant are to: (1) optimize the health 
promoting bioactive compounds through genetics; (2) assess the health 
benefits of these compounds; (3) isolate, purify and characterize the 
bioactive compounds; and (4) develop technologies for pre/post-harvest 
and processing.
    The interdisciplinary team of scientists has expertise in the areas 
of breeding, pre- and post-harvest physiology, nutrition, chemistry, 
biochemistry, biotechnology, biomedical sciences, and molecular 
genetics. This inter-disciplinary research team provided need-based 
outcomes evolved from stakeholders. Integrating efficient drip 
irrigation, nitrogen and potassium fertilizer strategies will lead to 
optimal quality and yield of high cash-value vegetable crops in 
southwest Texas.
    The work supported by this grant began in fiscal year 1999, and the 
appropriation for fiscal year 1999 was $250,000; for fiscal year 2000, 
$318,750; for fiscal year 2001, $561,761; for fiscal year 2002, 
$690,000; for fiscal year 2003, $819,638; for fiscal year 2004, 
$1,342,035; for fiscal year 2005 $1,611,008; for fiscal year 2006, 
$1,980,000; for fiscal year 2007, $0; for fiscal year 2008, $1,474,605; 
and for fiscal years 2009 and 2010, $1,385,000 per year. The total 
appropriation was $11,817,797.
    Research is conducted at the Vegetable and Fruit Improvement Center 
and other research centers within the Texas Agricultural Experiment 
Station of the Texas A&M University System. Some research is conducted 
at the University of Houston, Victoria, and the University of Arizona.
    The 2009 proposal was reviewed in September 2009 by NIFA staff who 
determined the faculty and facilities were adequate for completion of 
the proposed project.

                   DETECTION AND FOOD SAFETY, ALABAMA

    The goal of this project was to reduce the incidence of food-borne 
illness through the use of sensor chips that assess the safety of food 
items as they moved through the food chain. Work in 2001 was aimed at 
developing a hand-held sensor that will allow food processors to detect 
the presence of bacterial pathogens and toxins in food within 100 
seconds. Laboratory tests in 2003 demonstrated faster response times 
while detecting as few as 300 Salmonella cells in 1 milliliter of 
liquid. Test kits have also been commercialized for detecting a 
livestock feed constituent that transmits bovine spongiform 
encephalopathy, commonly referred to as ``mad cow disease.'' 
Furthermore, investigators have demonstrated capability with radio-
frequency identification tags and have patented and licensed several 
new approaches to sensing pathogens, including Salmonella and anthrax 
that promise the capability to detect a single bacteria or spore. Tests 
with patented magneto-strictive particle sensors in 2005 confirm one-
cell sensitivity. A new, more sensitive Enzyme-Linked Immunosorbent 
Assay (ELISA) test strip for anthrax has been prototyped. A patent 
application has been submitted for a new micro-fluidic device that can 
bring a single bacteria cell or spore in contact with a nano-scale 
sensor. At this point in 2008, one spin-off company has been 
established and four other companies are selling commercialized 
products resulting from this work. Recently, a sixth licensed 
technology dramatically improves the software diagnostic capability of 
off-the-shelf electronic noses used in defense and in the food 
industry.
    The work supported by this grant began in fiscal year 1999 under 
the Food Safety, Alabama grant. The appropriation for fiscal year 1999 
was $300,000; for fiscal year 2000, $446,250; for fiscal year 2001, 
$519,854; for fiscal year 2002, $608,000; for fiscal year 2003, 
$1,117,688; for fiscal year 2004, $1,000,065; for fiscal year 2005, 
$1,091,200; for fiscal year 2006, $1,134,540; and for fiscal year 2007, 
$0. In fiscal year 2008, the project was renamed the Detection and Food 
Safety, Alabama grant with an appropriation of $1,861,875; and for 
fiscal years 2009 and 2010, $1,748,000 per year. The total amount 
appropriated for this program is $11,575,472.
    Research is conducted at the Auburn Research Center for Detection 
and Food Safety, Auburn University.
    The project is subject to a thorough institutional peer review 
during preparation of the grant proposal. Each project proposal 
receives merit review by one or more agency scientists. All food safety 
special-grant projects were reviewed at an investigator-attended 
workshop held at agency offices in August 2005. The project's principal 
investigator provided a seminar for agency personnel in 2009. It was 
noted that the project is proceeding according to its projected time 
line.

                      DROUGHT MITIGATION, NEBRASKA

    The objective of the grant is to reduce the risk to agriculture and 
society associated with drought: promoting and conducting research on 
drought mitigation and preparedness technologies; improving 
coordination of drought-related activities and actions within and 
between levels of government; and assisting in the development, 
dissemination, and implementation of appropriate mitigation and 
preparedness technologies in the public and private sectors.
    The work supported by this grant received an appropriation of 
$200,000 per year in fiscal years 1995 through 2000; $199,560 in fiscal 
year 2001; $196,000 in fiscal year 2002; $223,538 in fiscal year 2003; 
$200,808 in fiscal year 2004; $211,296 in fiscal year 2005; $219,780 in 
fiscal year 2006; $0 in fiscal year 2007; $372,375 in fiscal year 2008; 
$469,000 in fiscal year 2009; and $600,000 in fiscal year 2010 for a 
total appropriation of $3,892,357.
    The research is conducted at the University of Nebraska--Lincoln. 
The National Drought Mitigation Center in Lincoln, Nebraska, is 
recognized around the world as a leader in research, education, and 
outreach for drought. The Center also hosts preparation of the Drought 
Monitor--a product used to determine drought relief in USDA.
    An on-site review of the project was conducted in 2005, and a 
follow-up review was conducted at the NIFA National Water Conference in 
February 2006. Since then, the project leaders have conducted informal 
meetings with the National Program Leader assigned to this project in 
Washington, DC. The project also is reviewed each year when the 
proposal is submitted for funding. The project was reviewed as part of 
a Programmatic Review conducted by the National Institute of Food and 
Agriculture in 2009.

               EFFICIENT IRRIGATION, NEW MEXICO AND TEXAS

    The objective of the grant is to increase the efficiency of 
agriculture and urban landscape irrigation and encourage the 
development of efficient water markets in the Rio Grande Basin. 
Modeling technology aids are helping irrigation district managers 
understand likely financial outcomes of changes in water-delivery rates 
to agricultural, municipal, and industrial users. Data being gathered 
from rehabilitation projects for irrigation districts with leaking 
canals and pipelines and inefficient pumping facilities are estimated 
to save 61,275 acre-feet of water per year. Significant reductions in 
sugarcane water use are possible using efficient application methods 
that improve uniformity of distribution and optimum scheduling, 
including amount and timing of water application. Substantial water 
savings have been facilitated in vegetable and citrus production in the 
Lower Rio Grande Valley using soil moisture monitoring, various 
cultural practices on crop water use, and irrigation recommendations. 
The potential water savings may reach 19,528 million gallons per year, 
assuming 50 percent of landscapes in El Paso are irrigated with 
recycled water. Several chili pepper cultivars were found to be more 
salt tolerant than others; this indicates that recycled water may be 
used for irrigating chili peppers and freshwater can be saved for more 
sensitive crops. Soil salinization in urban green spaces is being 
studied in El Paso. This study is expected to establish soil assessment 
and handling guidelines for construction of sports fields and irrigated 
urban landscapes. Such guidelines will help improve water-use 
efficiency and wise use of fiscal resources.
    The work supported by this grant began in fiscal year 2001, and the 
appropriation for fiscal year 2001 was $1,185,386; for fiscal year 
2002, $1,176,000; for fiscal year 2003, $1,490,250; for fiscal year 
2004, $1,342,035; for fiscal year 2005, $1,488,000; for fiscal year 
2006, $1,658,250; for fiscal year 2007, $0; for fiscal year 2008, 
$1,235,292; and for fiscal years 2009 and 2010, $1,160,000 per year. 
The total amount appropriated is $11,895,213.
    Texas A&M University and New Mexico State University jointly 
conduct this research through the Water Resources Institute at Texas 
A&M University.
    An agency scientist conducts a merit review of the proposal 
submitted in support of the appropriation on an annual basis. A 
conference of the co-investigators was held in August 10-13, 2009. The 
site review involved a series of presentations by project leaders that 
described project objectives and accomplishments for the previous year. 
The site visit review of this project allowed the agency scientists to 
ensure that objectives of the project were coordinated with the other 
three projects in the basin. The research team is a multi-disciplinary 
group including, but not limited to economists, engineers, plant, soil, 
and atmospheric scientists. Agency scientist(s) intend to participate 
in a similar conference in 2010 to continue evaluating its progress.

                        EMERALD ASH BORER, OHIO

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $550,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                    ENVIRONMENTAL RESEARCH, NEW YORK

    The objectives of this research are (1) Improve estimates of the 
magnitudes of biogeochemical fluxes of Nitrogen (N), (P), and sediments 
from the New York portion of the Susquehanna River basin into the 
Susquehanna, and ultimately to the impaired Chesapeake Bay; (2) Assess 
controls on nutrient pollution, particularly N, in rural landscapes 
with a mixture of forested and agricultural land uses; (3) Evaluate the 
importance of agricultural sources of nutrient pollution in the context 
of all sources in the watershed; and (4) Assess the effects of climate 
variability and climate change on fluxes of N, P, and sediment from the 
rural landscape.
    There are three main research areas for the project. Research 
activities on Agricultural Biogeochemistry are being conducted at the 
Harford Animal Science Teaching and Research in Cortland County, New 
York. Research on Atmospheric Deposition is being conducted at the 
Connecticut Hill Game Management Area in New York State. Integrated 
modeling of nutrient and sediment sources and sinks across spatial 
scales is being done at Cornell University. Each of the three research 
areas has collected the essential background and historical information 
for their respective sites and established specific monitoring 
activities.
    At the Harford Animal Science Teaching and Research Center, ongoing 
and historical data available include water quality from 15 wells, soil 
test results and crop yields, manure and fertilizer applications 
records for 20 years, nutrient inputs via animal feed, animal densities 
and field management. Data to be collected for this project include: 
repair and sampling of wells monthly for a year; analysis of dissolved 
organic nitrogen, nitrate, ammonium, monthly storm events, and surface 
samples from drainage creeks and nearby streams; analysis for 
sediments, nitrite, nitrate, ammonium, total dissolved nitrogen, 
soluble reactive phosphorus, total dissolved phosphorus, and 
particulate nitrogen and phosphorus; and monitoring deposition of 
ammonia and ammonium along gradients away from the farm site, using 
both bulk deposition measurements and passive samplers for ammonia gas 
in the atmosphere.
    At the Connecticut Hill Atmospheric and Precipitation Chemistry 
Research and Monitoring Facility, historical data available include a 
30-year record of wet and dry nitrogen deposition, comparative studies 
of dry deposition of nitrogen and sulfur species between measurements 
through the fall season versus inferentially measured estimates, and 
isotopic studies of wet and dry deposition to understand the sources of 
nitrogen deposition, and the impact of changing emissions of sulfate 
and nitrate on wet and dry deposition of sulfur, nitrogen, and acidity.
    The work supported under this grant began in 1991 with an 
appropriation of $297,000; $575,000 per year in fiscal years 1992-1993; 
$540,000 in fiscal year 1994; $486,000 per year in fiscal years 1995 
through 1999; $400,000 in fiscal year 2000; $399,120 in fiscal year 
2001; $391,000 in fiscal year 2002; $392,433 in fiscal year 2003; 
$350,917 in fiscal year 2004; $372,992 in fiscal year 2005; $369,270 in 
fiscal year 2006; $0 in fiscal year 2007; $275,061 in fiscal year 2008; 
and $258,000 per year in fiscal years 2009 and 2010. The total amount 
appropriated is $7,883,793.
    The last evaluation showed progress in producing a series of 
creative spin-up efforts emphasizing field and laboratory studies by 
individuals or groups of Cornell faculty that have led towards a better 
understanding of the sources and sinks of nutrients and sediments in 
the Susquehanna River Basin. The program has also been successful in 
integrating models of nutrient and sediment sources and sinks across 
spatial scales. The program has also made progress towards evaluating 
the importance of atmospheric deposition and agricultural sources of 
nutrient pollution in the context of all sources in the watershed. The 
Cornell community has the broad expertise in the disciplines required 
to achieve their goals. The program is designed to foster creative new 
research and integrate the results with current research at Cornell 
into an overall, comprehensive effort. The Susquehanna River Basin has 
proven to be an ideal laboratory for better understanding of the 
factors that control nitrogen fluxes from rural landscapes with mixed 
agriculture and forest lands.

              ENVIRONMENTAL RISK FACTORS/CANCER, NEW YORK

    The objectives of the grant are to evaluate the scientific 
information on pesticides, other chemicals, and diet, and the 
relationships of these to breast cancer risk. As a result of the 
proposed work, health professionals, extension educators, community 
leaders, and the public will increase their understanding of the 
relationship between overweight and obesity and breast cancer risk and 
will improve their capacity to take an environmental approach to breast 
cancer risk reduction through obesity prevention in communities.
    Focus group data of over 200 study participants showed the 
proportion of participants meeting walking goals increased from 38 to 
65 percent over 10 weeks with the greatest relative step increase by 
those who walked least at baseline. Ninety-three percent reported 
positive dietary changes. In the current project year, the proposed 
intervention and data collection objectives have been met; the 
intervention, Small Steps are Easier Together, has been implemented in 
five new worksites and three comparison worksites and pre- and post-
intervention data have been collected from all sites. In addition, 
information on the environmental approach for obesity prevention 
developed and implemented by this research was disseminated at multiple 
scientific and professional meetings, reaching 525 researchers, health 
professionals, educators and community leaders.
    The work supported by this grant began in 1997, and in fiscal years 
1997-1999, $100,000 was appropriated per year; fiscal year 2000, 
$170,000; fiscal year 2001, $226,501; fiscal year 2002, $222,000; 
fiscal year 2003, $220,557; fiscal year 2004, $197,826; fiscal year 
2005, $217,248; fiscal year 2006, $214,830; fiscal year 2007, $0; 
fiscal year 2008, $159,873; and fiscal years 2009 and 2010, $150,000 
per year. A total of $2,228,835 has been appropriated.
    The work is done at Cornell University, Ithaca, New York.
    A university peer review of the project was last completed in May 
2009. In addition, this project has undergone continuous evaluations by 
the agency and project researchers. Conclusions from these have 
informed planning efforts for the education component including the 
streamlining of the environmental intervention, e.g. Small Steps are 
Easier Together for easy local application by community educators with 
minimal assistance.

                 ENVIRONMENTALLY SAFE PRODUCTS, VERMONT

    The objectives of the grant are to develop new applications for 
``waste'' products that may lead to novel products or approaches to 
solving environmental problems including the development of an 
environmentally friendly wood finish, coating formulation system, the 
development of a deicer from by-products of the cheese whey production 
process, the use of iron slag wastes as absorptive materials to capture 
phosphorous in agricultural runoff to then be used in horticultural 
applications, and the use of waste products as energy sources to 
improve efficiency of greenhouse operations.
    Five prototype wood coating mixes were formulated and have been 
optimized for maximum performance in industrial settings. The chemical 
characteristics of the formulations have been analyzed, and the coating 
materials have been applied on experimental wood samples. A workshop 
has been built which is designed for this project. The safe wood 
finishes perform better in terms of water resistance, drying time, and 
pencil scratch hardness compared with the same type of commercial 
products. The analyses on mold resistant properties and ultraviolet 
resistance of the prototypes have been completed. A U.S. patent 
application for formulation and production of the environmentally safe 
wood finish products was filed in July 2002. Commercial application 
trials have been carried out at two of Ethan Allen Furniture 
operations. An organic salt, potassium acetate, has been produced 
through a two-stage fermentation process at lab scale, and work is 
ongoing to optimize the process. This by-product of the cheese making 
process serves to reduce road ice and is biologically degradable in the 
environment. Other by-products of the cheese manufacturing process, 
whey protein and lactate, are being evaluated as coatings and nutrient 
sources for biocontrol fungi, respectively. Whey protein-based wood and 
paper adhesives have been developed with much improved strength. Scaled 
up studies on the plywood adhesives were performed. Analyses on 
functional properties of the adhesives were conducted. A peer-reviewed 
manuscript on the findings of this project has been submitted to 
Journal of Polymer Sciences.
    The work supported by this grant began in fiscal year 2000. The 
appropriation for fiscal year 2000 was $200,000; for fiscal year 2001, 
$245,459; for fiscal year 2002, $240,000; for fiscal year 2003, 
$243,408; for fiscal year 2004, $745,575; for fiscal year 2005, 
$740,032; for fiscal year 2006, $742,500; for fiscal year 2007, $0; for 
fiscal year 2008, $335,634; for fiscal year 2009, $188,000; and for 
fiscal year 2010, $250,000. The total amount appropriated is 
$3,930,608.
    This work is being carried out in the College of Agricultural and 
Life Sciences, the University of Vermont.
    Evaluation of this project is conducted annually based on the 
annual progress report and discussions with the principal investigator 
and colleagues, as appropriate. The review is conducted by the NIFA 
staff who has determined that this research is in accordance with the 
mission of the agency.

                    EXPANDED WHEAT PASTURE, OKLAHOMA

    The goal of this research was to discover and disseminate 
scientific information that decreases production risk and improves 
profitability of feeder cattle and grain production from dual purpose 
winter wheat. This work has already shown how the use of feed 
supplements can increase net profit from cattle grazing on wheat 
pasture. The study has identified management practices, for example, 
date of planting, cultivar selection, grazing intensity, and date of 
cattle removal, that produce the optimum grain yield and cattle gain. A 
decision support microcomputer model, titled ``Wheat and Wheat/Stocker 
Production Planner'' has been developed for use by producers and 
extension educators as a decision aid to help producers assess income 
risk in the operation. Wheat cultivars called GRAZEnGRAIN that maintain 
high grain yields after being grazed have been identified. Studies were 
conducted to further develop supplementation strategies for growing 
cattle on wheat pasture, characterize the physiological basis for 
differences in finishing performance of feeder cattle off wheat pasture 
and determine the effects of wheat breeding practices, varietal 
improvement, and cultural and management practices on productivity of 
the wheat/stocker cattle enterprise. Data evaluating adipose tissue 
development indicate that steers grazing winter wheat pasture will gain 
at a greater rate and start to deposit more intramuscular fat at a 
younger age compared with steers grazing dormant native rangeland.
    The work supported by this grant began in fiscal year 1989, and 
appropriations were as follows: fiscal year 1989, $400,000; fiscal year 
1990, $148,000; fiscal year 1991, $275,000; fiscal years 1992-1993, 
$337,000 per year; fiscal year 1994, $317,000; fiscal years 1995-2000, 
$285,000 per year; fiscal year 2001, $292,355; fiscal year 2002 
$286,000; fiscal year 2003, $307,985; fiscal year 2004 $275,366; fiscal 
year 2005, $272,800; fiscal year 2006, $319,770; fiscal year 2007, $0; 
fiscal year 2008, $238,320; and fiscal years 2009 and 2010, $223,000 
per year. A total of $5,962,596 has been appropriated.
    Large replicated pasture studies are being conducted at wheat 
pasture research units near the Oklahoma State University campus, at 
the Wheat Pasture Research Unit, 596 acres near Marshall, Oklahoma, 
which is 30 miles west of the Oklahoma State University campus, and the 
Sparks Beef Research Center, an Oklahoma Agricultural Experiment 
Station facility near campus. As a component of the Oklahoma 
Agricultural Experiment Station wheat breeding program, breeding 
nurseries have been established at Marshall using a graze-plus-grain 
management system. In addition, small-plot wheat variety performance 
tests are conducted at about 18 locations across the State either on 
Oklahoma Agricultural Experiment Station facilities or on private farm 
land.
    Senior agency technical staff reviewed the annual project proposal 
and progress reports and concluded that the project was appropriately 
focused and addressing the stated objectives. A comprehensive review 
including site visit is still under consideration for 2010.

       EXPERT INTEGRATED PEST MANAGEMENT DECISION SUPPORT SYSTEM

    The objective of this project is to streamline the exchange of pest 
management information within and between Federal and State government 
agencies, research scientists, extension educators, agricultural 
industries, commodity groups, and agricultural producers. The Expert 
Pest Management Information Decision Support System has been moved to a 
Web-based system, with access to all of the originally proposed 
databases now complete. This system has now been seamlessly integrated 
into the agency's Regional Integrated Pest Management Centers 
Information System at www.ipmcenters.org. Semi-automated updating of 
the databases is now in place as a cooperative effort among the 
agencies responsible for collecting the information. The Center for 
Integrated Pest Management maintains the databases for the Pipeline, 
CropLife Pesticide Use Data, Crop Profiles, Pest Management Strategic 
Plans, Crop Timelines, the NIFA Food Quality Protection Act Research 
Projects Database, the NIFA Contacts Database, the aggregated National 
Agriculture Statistics Service Pesticide Use Data, a new Interagency 
Integrated Pest Management Projects Database and a new Proposal/Project 
Management System. The latter is used by the Regional Integrated Pest 
Management Centers to track and seamlessly manage all Request for 
Applications for which they have responsibility, from Request for 
Applications publication, through proposal submission and review, to 
project reporting locally and dynamically into the Interagency 
Integrated Pest Management Projects Database.
    This work supported by this grant began in fiscal year 1995, and 
appropriations were as follows: in fiscal year 1995, $172,000; in 
fiscal year 1996, $177,000 from this special grant plus $21,000 from 
Research, Extension, and Education Evaluation Funds and $40,000 from 
the Pesticide Impact Assessment Program; in fiscal year 1997, $165,425; 
in fiscal years 1998-2000, $177,000 per year; in fiscal year 2001, 
$176,611; in fiscal year 2002, $177,000; in fiscal year 2003, $175,850; 
in fiscal year 2004, $158,062; in fiscal year 2005, $156,736; in fiscal 
years 2006 and 2007, $155,430 per year; in fiscal year 2008, $153,915; 
in fiscal year 2009, $154,000; and in fiscal year 2010, $156,000. Total 
amount appropriated is $2,725,459.
    The bulk of the work is carried out on the campus of North Carolina 
State University in Raleigh, which collaborates with agricultural 
scientists at land-grant universities throughout the United States. The 
Center for Integrated Pest Management at North Carolina State 
University manages the Web server where the pest management information 
system is located.
    Over the past 4 years, the Web development aspect of the project 
has been evaluated annually. Currently, the annual review of the 
project and goals is by a Web development committee composed of the 
directors and Information Technology staff of the Regional Integrated 
Pest Management Centers. Several key components of the project received 
favorable reviews during a formal comprehensive review of the 
Integrated Pest Management Centers in February of 2008. For 2009, the 
project was competitively awarded and was reviewed prior to submission 
by three independent reviewers and an external review panel.

                          FLORICULTURE, HAWAII

    The original goals of this research were to develop and 
commercialize high yielding, disease and insect resistant floral 
cultivars of anthurium, orchids, protea, flowering ginger, bird of 
paradise, heliconia, ti leaves and other exotic tropical flower and 
foliage varieties; address current technical constraints; and implement 
effective marketing strategies.
    More than 100 new anthurium hybrids are in individual plant 
selection stage and eight selections in tissue culture are in advance 
testing on cooperator farms. Protea resistant to the fungal pathogen, 
Phytophthora cinnamomi, were obtained from South Africa, and this 
germplasm is being incorporated into protea breeding lines. Seventeen 
new resistant, tissue-culture propagated protea hybrids were released 
to the public for a total of 101 new cultivars released since 1999. 
Seventeen new Leucospermum hybrids were released since 2003. Tests 
continue for Phytophthora cinnamomi resistance and extended vase life. 
The orchid breeding program was intensified in 2004, and 39 crosses 
have been germinated to date. Research on light enhancement has 
shortened the production period for orchid flowering by four to six 
weeks. Research was also focused on the development of post-harvest 
handling practices and addressed quarantine issues. A post-harvest hot 
air treatment was developed and proved effective in controlling 
nematode and bacterial infections in anthurium plants and will 
significantly reduce production costs. Studies determined effective 
controls for a new pest, pink hibiscus mealybug. Over 4,400 Protea 
cuttings were released to Hawaii growers; 15 new anthurium hybrids are 
being evaluated on grower-cooperator farms; several new dendrobium 
orchids are being tested for both potted and cut flower varieties. Nine 
commercial orchid nurseries were assessed for fusarium diseases; 
Fusarium proliferatum, F. oxysporum, F. solani, and F. subglutinans 
were the most common pathogens. Most recently, a series of water and 
fertilizer management audits at large nurseries found improper usage of 
water and fertilizers. Results of an irrigation experiment on Anthurium 
showed a substantial increase in flower yield by 35 percent and also an 
increase in the proportion of large flowers size from 45 percent to 70 
percent with several short pulses of fertigation compared to current 
farm practices, resulting in a net revenue gain of approximately 
$200,000 per acre each year. Additionally, composts using macadamia nut 
shells and rubber chips as ingredients were demonstrated to be 
appropriate alternative potting media for potted palms compared with 
more expensive potting media sold commercially. Using controlled-
release fertilizers with a shorter time-release rate enabled faster 
movement of nutrients into the potting media was shown to facilitate 
faster intake by plants. Also it was found that a coir-cinder mixture 
was an adequate potting media for dendrobium and oncidium orchids due 
to its better water holding capacity; thus, lower the rate of 
fertilizer release. These research results were presented at a national 
conference and an abstract was published in HortScience.
    The work supported by this grant began in fiscal year 1989 and the 
following amounts have been appropriated: in fiscal year 1989, 
$300,000; fiscal years 1990-1993, $296,000 per year; fiscal year 1994, 
$278,000; fiscal years 1995-2000, $250,000 per year; fiscal year 2001, 
$249,450; fiscal year 2002, $400,000; fiscal year 2003, $397,400; 
fiscal year 2004, $354,894; fiscal year 2005, $352,160; fiscal year 
2006, $348,480; fiscal year 2007, $0; fiscal year 2008, $259,173; 
fiscal year 2009, $243,000; and fiscal year 2010, $300,000. A total of 
$6,166,557 has been appropriated since fiscal year 1989.
    This research is being conducted by the College of Tropical 
Agriculture and Human Resources at the University of Hawaii--Manoa at 
locations in Honolulu and Hilo, and by the College of Agriculture, 
Forestry and Natural Resource Management at the University of Hawaii at 
locations in Hilo, with input from the floral crops industry on the 
islands of Hawaii and Maui.
    Each individual project proposal goes through a national peer merit 
review managed by the applicant institution. Each proposal is peer 
reviewed and ranked, and funding is provided only to the highest ranked 
projects. Project accomplishments and proposed research objectives are 
reviewed annually. In addition, project expenditures are monitored to 
ensure that spending is consistent with approved project budgets and 
with Federal regulations. Research results are also reviewed by members 
of the Hawaii floriculture industry to ensure that priorities 
identified by the industry and reflected in the request for proposals 
are being addressed and progress toward achieving objectives are on 
schedule. As new objectives are identified, they will be reviewed by 
research administrators and members of the Hawaii floriculture 
industry.

FOOD AND AGRICULTURE POLICY RESEARCH INSTITUTE, IOWA, MISSOURI, NEVADA, 
                               WISCONSIN

    The objectives of the grant are: (1) to provide information to help 
public decision makers evaluate farm policy options; and (2) to enhance 
capacity to conduct quantitative analysis of agricultural policy 
issues.
    The institutions maintain large econometric models and datasets 
which are regularly updated to analyze farm and trade policy 
alternatives and the impacts of various programs on several sub-sectors 
of the agricultural economy. During the past year, the Food and 
Agriculture Policy Research Institute (FAPRI) at Missouri included an 
annual 10-year outlook for agriculture--prepared every year since 1984, 
agricultural policy scenarios requested by Congress at will, 
Congressional briefings, and Congressional testimony. The final 
projections for domestic and world agricultural markets are found in 
FAPRI 2009 U.S. and World Agricultural Outlook. Each publication is 
posted on their Web site (www.fapri.missouri.edu).
    Grants have been awarded from funds appropriated as follows: fiscal 
years 1984-1985, $450,000 per year; fiscal years 1986-1987, $357,000 
per year; fiscal year 1988, $425,000; fiscal year 1989, $463,000; 
fiscal year 1990, $714,000; fiscal years 1991-1993, $750,000 per year; 
fiscal year 1994, $705,000; fiscal years 1995-1996, $850,000 per year; 
fiscal year 1997-2000, $800,000 per year; fiscal year, 2001, $947,910; 
fiscal year 2002, $1,000,000; fiscal year 2003, $1,515,088; fiscal year 
2004, 1,364,899; fiscal year 2005, $1,536,608; fiscal year 2006, 
$1,595,880; fiscal year 2007, $0; fiscal year 2008, $1,191,600; fiscal 
year 2009, $1,139,000; and fiscal year 2010, $1,339,000. The total 
amount appropriated is 22,700,985.
    The program is carried out at the Center for Agriculture and Rural 
Development, Iowa State University, and the Center for National Food 
and Agricultural Policy, University of Missouri.
    Each year Iowa State University and the University of Missouri 
publish the Food Agriculture Policy Institute U.S. and World 
Agriculture Outlook which is assessed annually. A formal evaluation of 
this program has not been conducted.

                     FOOD AND FUEL INITIATIVE, IOWA

    The objectives of this grant focus on: (1) discovery of new value-
added food safety compounds in co-products to enhance economic 
development opportunities; (2) Mycotoxin monitoring in co-products for 
food and feed safety and mitigation strategies; and (3) economic 
analysis, risk assessment and communication.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $297,900; $280,000 in fiscal year 
2009; and $298,000 in fiscal year 2010. A total of $875,900 has been 
appropriated.
    This research is conducted at Iowa State University.
    The submitted proposal for this new project was critically reviewed 
in the summer of 2009 by the National Program Leader of NIFA and was 
found to be scientifically sound.

               FOOD MARKETING POLICY CENTER, CONNECTICUT

    The objectives of the grant are the analysis of private strategies, 
public policies, and food system performance to enhance economic 
welfare; and, the development of food safety and related policies to 
provide guidance for the control of safety risks and for significant 
reduction of safety risks in the global food system.
    The work supported by this grant began in fiscal year 1988. The 
appropriations amount to the following: fiscal year 1988, $150,000; 
fiscal year 1989, $285,000; fiscal year 1990, $373,000; fiscal years 
1991-1993, $393,000 per year; fiscal year 1994, $369,000; fiscal years 
1995-1998, $332,000 per year; fiscal years 1999-2000, $400,000; fiscal 
year 2001, $493,911; fiscal year 2002, $484,000; fiscal year 2003, 
$486,815; fiscal year 2004, $581,548; fiscal year 2005, $579,328; 
fiscal year 2006, $573,210; fiscal year 2007, $0; fiscal year 2008, 
$426,990; and fiscal years 2009 and 2010, $401,000 per year. The total 
amount appropriated for this project to date is $8,911,802.
    Project work is being carried out at the University of Connecticut 
and also at the University of Massachusetts and at cooperating 
universities via the visiting fellows program.
    Annual proposals for funding are peer reviewed for relevance and 
scientific merit. The NIFA contact is also in regular contact with the 
principal researcher at the key institution to discuss progress towards 
meeting project objectives.

                    FOOD SAFETY, MAINE AND OKLAHOMA

    The objectives of this project is to discover ways to improve the 
safety and security of the Nation's food supply at all steps from farm 
or ranch production through processing. The project will focus on 
E.coli monitoring in cattle, L. Monocytogenes virulence, oregano as an 
inhibitor of food borne pathogens, and the tracing of staphylococcal 
enterotoxin along with a recombinant genetic method for detecting 
prions in meat or meat by-products.
    Researchers have demonstrated that injection of 0.1 percent 
solution of ammonium hydroxide significantly affects aerobic and 
anaerobic microbial populations in beef loins. Protocols have 
successfully been developed for the detection of the various soy 
products' DNA using the lectin gene with Real-time Polymerase chain 
reaction. E. coli O157:H7 has been found to persist in young growing 
spinach for up to two weeks, and the leaf morphology for spinach has 
been found to play a role in bacterial colonization.
    The work supported by this grant began in fiscal year 2002 with an 
appropriation of $400,000; for fiscal year 2003, $620,938; for fiscal 
year 2004, $555,702; for fiscal year 2005, $551,552; for fiscal year 
2006, $546,480; for fiscal year 2007, $0; for fiscal year 2008, 
$407,130; and for fiscal years 2009 and 2010, $382,000 per year. A 
total of $3,845,802 has been appropriated.
    The research is being conducted at Oklahoma State University, 
Agricultural Experiment Station in the Food and Agricultural Products 
Research and Technology Center. The sensor technology proof of concept 
research will be completed in Orono, Maine, at the Sensor Research and 
Development Corporation.
    An agency evaluation was conducted in 2009. The Project Director 
met with the National Program staff at NIFA via a series of 
teleconferences and gave a summary of the status of the project and 
also presented the data that has been compiled to date.

                           FOOD SAFETY, TEXAS

    The objective of the grant is to develop a national and 
international Electron Beam Food Research Center that will conduct 
applied research focusing electron beam technology on food applications 
and agriculturally related products. Specifically, the Center will host 
research projects from industry, government, and academia, while 
conducting outreach, training, and education in the science and 
technology of electron beam-based irradiation.
    To date, the Center has completed studies on the usage of electron 
beams to inactivate viruses on cantaloupes and pathogens in lettuce and 
spinach, and a provisional patent has been obtained for the use of E-
beam for the treatment and disinfection of municipal wastewater. In 
addition, the researchers are using e-beam irradiation to develop novel 
vaccines for Salmonella in poultry. A Salmonella vaccine patent has 
been submitted in collaboration with USDA-Agricultural Research Service 
scientists for use by poultry breeders, growers, and in hatcheries. E-
beam irradiation can be used to replace formalin, which is currently 
used in vaccine production. Formalin has been classified as 
``reasonably anticipated to be a human carcinogen''; Therefore, this 
technology will likely improve the safety of vaccines. This has public 
health implications and could be used to improve the safety of human 
vaccines. In addition, use of the vaccine in live chickens will improve 
the health of the chickens, thus reducing the need for antibiotics and 
may result in lower levels of Salmonella contamination in poultry meat. 
Experiential short courses in food safety have been conducted 
periodically and have provided hands-on training for food industry 
workers and other food science and food safety professionals. In 2009, 
this research included scientists from Mexico, France, and India.
    The work supported by this grant began in fiscal year 2003, and the 
appropriation for fiscal year 2003 was $198,700; for fiscal year 2004, 
$177,944; for fiscal year 2005, $187,488; for fiscal year 2006, 
$198,000; for fiscal year 2007, $0; for fiscal year 2008, $74,475; and 
for fiscal years 2009 and 2010, $69,000 per year. A total of $974,607 
has been appropriated.
    Currently, all related research has been conducted at the Institute 
of Food Science and Engineering in the Texas A&M University Electron 
Beam Food Research Facility, College Station, Texas.
    The last Agency evaluation of this project was conducted in 
December 2009. It was concluded that the investigators are qualified to 
carry out the objectives involving applied research on food and 
agriculturally related products and that the findings of the research 
will result in food safety and public health benefits.

               FOOD SAFETY RESEARCH CONSORTIUM, NEW YORK

    The objective of this grant is to conduct and coordinate food 
safety research that provides critical new knowledge on foodborne 
pathogens and leads to the development of new and innovative food 
safety tools and intervention strategies by developing and applying 
molecular characterization and epidemiological methods to provide an 
improved understanding of the transmission, evolution, and ecology of 
selected bacterial foodborne pathogens, including Salmonella and L. 
monocytogenes.
    Strain collections, subtyping and characterization methods, and 
protocols will be made broadly available to facilitate application of 
the methodologies developed. Over the last project year, researchers 
have made major progress on two specific projects. Previous research 
has shown that L. monocytogenes isolates can be grouped into three 
genetic lineages, which seem to differ in their ability and likelihood 
to cause human disease. Researchers have also tested the hypothesis 
that L. monocytogenes lineages may exhibit different stress-related 
phenotypes.
    The work supported by this grant began in fiscal year 2001 with an 
appropriation of $284,373; for fiscal year 2002, $800,000; for fiscal 
year 2003, $894,150; for fiscal year 2004 $800,250; for fiscal year 
2005, $892,800; for fiscal year 2006, $990,000; for fiscal year 2007, 
$0, for fiscal year 2008, $737,799, for fiscal years 2009 and 2010, 
$693,000 per year. A total of $6,785,372 has been appropriated.
    This research will be conducted at Cornell University in Ithaca, 
New York, in the Departments of Food Science and Computer Science.
    An agency evaluation was conducted by NIFA staff in September 2009 
upon receipt of the proposal and Current Research Information System 
(CRIS) reports. NIFA staff determined the proposal was sound and the 
facilities and faculty were adequate to complete the project 
successfully.

                       FOOD SECURITY, WASHINGTON

    The objectives of this grant are to enhance the Pacific Northwest 
(PNW) spring wheat breeding material; develop and test facultative 
wheat varieties that can be planted in the late fall, winter, or early 
spring; develop innovative intervention to control microbiological 
pathogens associated with food processing; and develop new packaging 
and processing methods to prevent microbiological contamination of 
processed foods.
    The work began in fiscal year 2002 with an appropriation of 
$400,000; $447,075 in fiscal year 2003; $399,628 for fiscal year 2004, 
$397,792 in fiscal year 2005; $394,020 in fiscal year 2006; $0 in 
fiscal year 2007; $293,928 in fiscal year 2008; and $276,000 per year 
in fiscal years 2009 and 2010. A total of $2,884,443 has been 
appropriated.
    Research is being conducted at laboratories at the College of 
Agriculture, Human, and Natural Resources, Washington State University.
    Proposals for projects are developed by Washington State University 
and are reviewed by peers at the College of Agriculture, Human, and 
Natural Resources. They are then submitted to NIFA and are reviewed by 
National Programs Leaders. NIFA staff also monitors the progress of the 
project through semi-annual conference calls and through review of 
annual accomplishments. Selection of recipients of small grants awarded 
by the project is made by scientists at Washington State University. It 
is anticipated that NIFA staff will conduct an evaluation in 2010.

          FORAGES FOR ADVANCING LIVESTOCK PRODUCTION, KENTUCKY

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $473,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                      FORESTRY RESEARCH, ARKANSAS

    The objective of the grant is to develop alternative forest 
management strategies for achieving multi-resource objectives; i.e., 
production of timber, wildlife, recreation, and other values of the 
forest on private industrial and non-industrial forest lands and public 
lands. Progress has been made in several areas such as development of 
intensive fiber farming systems as alternatives to soybeans for 
Mississippi Delta farmers, and discovery of the nutrient needs of 
predators of the beetle so predators can be grown and studied in 
artificial cultures.
    A major accomplishment in 2008 follows:
    The Arkansas Forest Resources Center conducted bio-fuel research to 
determine the most efficient alternative bio-fuel and feed-stocks in a 
variety of locations around the State of Arkansas. Portable bio-
refinery work proceeds as a component of this research. Results 
indicated that large volumes of cellulosic biomass from forest residue 
and agronomic biomass crops are compatible with growing sites in 
Arkansas and can provide large volumes capable of providing fuel feed 
stocks. Forest based feed stocks--residuals and slash--could produce as 
much as 900,000,000 gallons of ethanol a year. This is a replacement of 
10 percent of the total gasoline consumption in the State.
    A major accomplishment in 2009 follows:
    Issues surrounding cellulosic-based biomass feedstock production 
are complex and require sound science-based information from which to 
base management decisions. Scientists implemented studies on cellulosic 
biomass production systems to assess biomass yields, determine 
investment potentials, and evaluate impacts on selected environmental 
services. Successful establishment of different cellulosic biomass 
production systems was influenced by local environmental factors 
associated with each treatment immediately following planting.
    Grants have been awarded from funds appropriated as follows: 1994 
$470,000; 1995 $523,000; 1996 $523,000; 1997 $523,000; 1998 $523,000; 
1999 $523,000; 2000 $523,000; 2001 $521,849; 2002 $512,000; 2003 
$508,672; 2004 $455,298; 2005 $461,280; 2006 $456,390; 2007 $0; 2008 
$339,606; 2009 $319,000; 2010 $319,000; Total $7,501,095.
    The Arkansas Forest Resources Center is administered through the 
School of Forest Resources on the campus of the University of Arkansas 
at Monticello. Individual studies are being conducted at the University 
of Arkansas, Fayetteville; University of Arkansas at Monticello; and 
several locations across the State.
    A review was conducted in 2001. The review team found no adverse 
conditions on research capability, and that infrastructure is adequate; 
projects were progressing as scheduled. A review will be scheduled in 
2010.

                 FRESH PRODUCE FOOD SAFETY, CALIFORNIA

    The objectives of this grant are to establish a clearinghouse for 
research related to produce safety, and to support studies focused on 
developing solutions that mitigate risks associated with the Nation's 
produce supply.
    Eleven research projects have been awarded, and each will 
specifically address reducing the food safety risks associated with 
growing and harvesting fresh produce.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $521,325; $704,000 in fiscal year 
2009; and $750,000 in fiscal year 2010. A total of $1,975,325 has been 
appropriated.
    The research is being conducted at the University of California, 
Davis.
    A summary of completed work was submitted, reviewed, and approved 
by National Program staff in November 2009.

       GENOMICS FOR SOUTHERN CROP STRESS AND DISEASE, MISSISSIPPI

    The objective of this grant is to determine how southern crops and 
livestock respond to stress from pests and the environment, in order to 
provide basic and applied knowledge to breeding programs. The research 
will use genomics tools for identification of pathogen and stress 
resistance in southern agricultural crops including, but not limited 
to, cotton, rice, soybeans, corn, sweet potatoes, forestry, and in 
livestock, including poultry.
    Researchers have been constructing the genome maps of 
agriculturally important plants and animals, using experimental data to 
provide more accurate blueprints for identifying key genes involved in 
production. This work is continually ongoing as more and more genome 
sequence data becomes available. It makes the genome sequences much 
easier for researchers worldwide to interpret, use, and turn into 
valuable products. Researchers are also continually improving the 
encyclopedia of all gene functions for all agriculturally important 
species; the encyclopedia is called AgBase and is available at 
www.agbase.msstate.edu. AgBase provides information that has a digital 
code and is used to reverse-engineer the molecular components of 
cellular machines. It is used by researchers worldwide to derive 
knowledge, and thus value, from their massive genomics data sets.
    The work supported by this grant began in fiscal year 2002. The 
appropriation for fiscal year 2002 was $640,000; for fiscal year 2003, 
$715,320; for fiscal year 2004, $640,200; for fiscal year 2005, 
$882,880; for fiscal year 2006, $1,128,600; for fiscal year 2007, $0; 
for fiscal year 2008, $849,015; and for fiscal years 2009 and 2010, 
$797,000 per year. A total of $6,450,015 has been appropriated.
    Research is being conducted at Mississippi Agriculture and Forestry 
Experiment Station sites. Collaboration will be encouraged with 
researchers at Historically Black Colleges and Universities in the 
State. Alcorn State University and the Mississippi University for Women 
have participated in summer programs through this project. The 
researchers also collaborate with the European Bioinformatics 
Institute.
    The project is managed as a competitive grants program. Each 
application is reviewed by an external, nationally recognized panel of 
reviewers. Only projects with superior recommendations are funded.

                     GEOGRAPHIC INFORMATION SYSTEM

    The objectives of the grant are to build institutional frameworks 
for developing and disseminating geographic and related information to 
local decision-makers and to promote collaborative and innovative 
transfer of geographic information system (GIS) technologies to State 
and local governments and others in the public and private sectors.
    In fiscal year 2009, administration of this project was transferred 
to Pennsylvania State University from the University of Wisconsin. 
Accomplishments in fiscal year 2008 common to all sites include: 
technical assistance in GIS implementation; pilot project 
demonstrations; data automation and database development; consultation 
and advice for local and tribal government; software evaluation and 
development; model development; software and GIS application training; 
satellite telecasts; educational video production; public conference 
and other professional presentations; technical and lay audience 
publications; and provision of information and technical resources 
through the RGIS Web site. The RGIS Web site will be maintained by the 
Chesapeake Penn State University site www.ruralgis.org.
    All sites contribute and participate in the two annual coordinating 
committee meetings; regional GIS meetings and conferences; preparation 
and distribution of the project bulletins; helping to update and 
maintain the project Web site; and coordination and guiding development 
of education modules. The project provided several bulletins and 
education modules for the Cooperative Extension's eXtension community 
of practice called <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6ebc7d6e6f5dfd5d288">[email&#160;protected]</a>
    A few examples of project impacts by site are detailed below:
    Chesapeake--Pennsylvania State University.--Developed a Web 
application that allows farmers to create maps necessary to meet 
regulatory requirements of the Pennsylvania Nutrient Balance Sheets; 
Initiated development of the Pennsylvania One Stop, an online 
application that provides farmers with the ability to develop their own 
conservation and nutrient management plans; Designed a method to assess 
drought vulnerability for Pennsylvania applicable at the field scale 
using local soils, climatic conditions, and crop management factors; 
Evaluated LiDAR data for use in riparian buffer assessment for streams 
by improving channel morphology data, characterization of buffer 
vegetative conditions, and to quantify stream shading conditions; and 
Expanded an educational program called FARMSAFE where FFA students and 
their teachers develop Farm Emergency Response Maps for farmers. They 
learn about farm safety and geospatial technologies. Currently 26 
school districts are participating and using curriculum developed by 
this center.
    South--South Georgia Regional Development Center.--Developed models 
and maps of lands in south Georgia suitable for both development and 
agriculture uses, including land use for bio-energy, land areas in 
which there is suitability for both uses, and land in proximity to 
residential and commercial enterprises where it is prone to loss as a 
prime source of food and energy crops; Developed a first-of-its-kind 
geospatial database template to assist the Georgia Department of 
Community Affairs with gathering complete, topologically sound land use 
reporting from 16 regional development centers across the State; and 
Refined and disseminated the Well and Septic Tank Referencing and 
Online Map (WelSTROM) resource for the mapping and data collection of 
private wells and septic systems as the installations occur.
    Tribal Technical Center (TTC)--Southwestern Indian Polytechnic 
Institute.--The Tribal Technical Center has not yet provided a report 
for 2008 RGIS activities. Key personnel left the project at the 
beginning of the project and considerable time elapsed before they were 
replaced. It is only in recent months that RGIS-TTC has begun to make 
substantive progress toward project goals. In order to allow RGIS-TTC 
sufficient time to meet 2008 goals, TTC requested and received a 1-year 
no-cost extension to the overall RGIS grant. During the spring 2010 
business meeting, members of the consortium will evaluate TTC progress 
and provide a recommendation to the 2008 grant administrative unit--
University of Wisconsin--Madison. It is hoped that TTC will have 
sufficient progress at this time to justify disbursement of the entire 
funds allocated for their purposes. If, however, it appears at that 
time that RGIS-TTC will not be able to expend the funds toward project 
goals, RGIS Administration will submit a request to USDA to reallocate 
funds.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1990, $494,000; fiscal year 1991, $747,000; fiscal years 1992 and 
1993, $1,000,000 per year; fiscal year 1994, $1,011,000; fiscal year 
1995, $877,000; fiscal year 1996, $939,000; fiscal years 1997 through 
1999, $844,000 per year; fiscal year 2000, $850,000; fiscal year 2001, 
$1,022,745; fiscal year 2002, $1,199,000; fiscal year 2003, $1,390,900; 
fiscal year 2004, $1,431,504; fiscal year 2005, $1,702,272; fiscal year 
2006 $1,783,980; fiscal year 2007, $0; fiscal year 2008, $1,328,634; 
and fiscal years 2009 and 2010, $1,248,000 per year. A total of 
$21,805,035 has been appropriated. This project was funded under 
research Federal Administration through fiscal year 2004. In fiscal 
year 2005, these funds were awarded as a Special Research Grant.
    The National Consortium for Rural Geospatial Innovations in America 
is administratively centered at Pennsylvania State University at 
University Park and functions as one of the Chesapeake Centers.
    The South Georgia Center in Valdosta, Georgia, works in affiliation 
with the South Georgia Regional Development Center.
    The Mid-South Center, in Fayetteville, Arkansas, works in 
affiliation with the University of Arkansas.
    The Pacific Northwest Center works in affiliation Central 
Washington University and the Yakima Nations.
    The Great Plains center in Grand Forks, North Dakota, works in 
affiliation with the University of North Dakota.
    Native American communities are being reached through the 
Southwestern Indian Polytechnic Institute Tribal Technical Center in 
Albuquerque, New Mexico.
    Beginning in 1995, the program was externally reviewed by local 
advisory committees and qualified professionals inside and outside of 
government with comments and suggestions sent to the agency to assist 
with the merit reviews. A 2-day review of the program was conducted in 
November 2002 by the NIFA personnel in conjunction with a satellite 
training broadcast of Geographic Information Systems technologies to 
tribal colleges. In December 2003, an independent group of peers did a 
comprehensive review of project activities over the last 5 years. The 
program was found to be making progress towards objectives and 
producing useful documents for their clientele. In fiscal year 2006, 
the project conducted a stakeholder survey to assess the achievement 
and impacts of RGIS directly.

               GLOBAL CHANGE AND UV MONITORING, COLORADO

    The objective of this grant is the establishment of a 
climatological network to monitor ultraviolet radiation at the surface 
of the earth.
    Instruments have been deployed and are currently in operation at 36 
monitoring sites across the 50 United States and Canada. Data are 
available within 24 hours of measurement, via the Web, and are used by 
many Federal agencies and university researchers. In 2009, the 
project's Web site increased its capability to provide users with 
graphical displays for some data. Some project funds are expended each 
year to partially support studies by researchers across the country to 
address plant, animal, and ecological impacts from ultraviolet 
exposure. This, of course, represents a small fraction of all the 
scientific studies being conducted with these data by the broader 
scientific community. The lead scientist is developing an integrated 
impact assessment model that couples climate, radiation, crop models, 
and local weather conditions to predict and understand climate-crop 
interactions. Recent model results demonstrate geospatially dispersed 
effects of combined ultraviolet radiation and temperature increases on 
the productivity of cotton cropland across the United States. Model 
results for corn crops will be available by the middle of 2010.
    The work supported by this grant began in fiscal year 1992, and the 
appropriation for fiscal years 1992-1993 was $2,000,000 per year; 
fiscal year 1994, $1,175,000; fiscal year 1995, $1,625,000; fiscal year 
1996, $1,615,000; fiscal year 1997, $1,657,000; fiscal years 1998-2000, 
$1,000,000 per year; fiscal year 2001, $1,430,845; fiscal year 2002, 
$1,402,000; fiscal year 2003, $2,235,375; fiscal year 2004, $2,000,129; 
fiscal year 2005, $1,984,000; fiscal year 2006, $2,162,160; fiscal year 
2007, $0; fiscal year 2008, $1,610,646; and fiscal years 2009 and 2010, 
$1,408,000 per year. A total of $28,713,155 has been appropriated.
    Colorado State University manages the operating network, which 
includes fully instrumented sites across the continental United States, 
and in Hawaii, Alaska, Puerto Rico, and New Zealand. Ultraviolet 
radiation effects work is conducted at collaborator laboratories across 
the United States. Isolated experiments on ultraviolet effects are 
conducted at various university and government laboratories across the 
country.
    The agency has assigned two technical staff to continuously monitor 
activities in the global change research program. Agency staff 
scientists are in contact with the principal researchers on a monthly 
basis. A review of the Ultraviolet Radiation Monitoring Program by a 
panel of technical experts from outside the Department was completed in 
April 2001, and their report is available. Agency staff met with 
program staff in January 2002 to discuss implementation of review panel 
recommendations. In 2004, the project's principal researchers developed 
a 5-year strategic plan for monitoring and research, which has been 
reviewed and approved by agency technical staff; this plan is updated 
annually to keep it current. Each year, the project's principal 
researchers meet with the agency administrator and other staff to 
evaluate project objectives, approaches, and impacts. In 2008, funds 
were awarded to the institution competitively though a request for 
applications and a peer-review process.

                    GRAIN SORGHUM, KANSAS AND TEXAS

    The objective of the grant is to identify and use germplasm to 
develop grain sorghum cultivars that both mature earlier and produce 
more grain.
    In 2009, research in this project has improved understanding of the 
mechanisms of drought tolerance in sorghum. Field research with 
genetically diverse sorghum lines under different conditions revealed 
that leaf temperature and slow wilting are the best measurable 
indicators of superior end-of-season yields under drought stress. These 
traits are known to be related to plant water use efficiency. 
Researchers are using the technique of association mapping with these 
same lines, to identify the genes that help sorghum use water 
efficiently. Breeders will then be able to use these genes in marker-
assisted breeding to develop sorghum lines that are even more drought 
tolerant.
    The work supported by this grant began in fiscal year 1997, and the 
appropriation for fiscal years 1997-2000 was $106,000 per year; for 
fiscal year 2001, $105,767; for fiscal year 2002, $104,000; for fiscal 
year 2003, $139,040; for fiscal year 2004, $124,262; for fiscal year 
2005, $135,904; for fiscal year 2006, $728,640; for fiscal year 2007, 
$0; for fiscal year 2008, $548,136; for fiscal year 2009, $515,000; and 
for fiscal year 2010, $1,000,000. A total of $3,824,749 has been 
appropriated.
    The research is conducted at Kansas State University, Texas Tech 
University, and Texas A&M University.
    The project is subjected to peer review by the recipient 
institution, as well as review by senior agency technical staff. In 
addition, stakeholder input was obtained through formal and informal 
methods. The project was reviewed as part of the agency review of the 
Kansas State University Agronomy Department.

  GRASS SEED CROPPING FOR SUSTAINABLE AGRICULTURE, IDAHO, OREGON, AND 
                               WASHINGTON

    The objectives of this grant are to: develop sustainable grass seed 
cropping systems that optimize economic seed production with maximum 
energy and resource conservation and maintain or improve environmental 
quality; develop economic utilization of grass seed production by-
products in agriculture; and develop maximum genetic and biological 
potential of seed.
    The work supported by this grant began in fiscal year 1994 with an 
appropriation of $470,000; fiscal years 1995-2000, $423,000 per year; 
fiscal year 2001, $422,069; fiscal year 2002, $414,000; fiscal year 
2003, $454,030; fiscal year 2004, $406,587; fiscal year 2005, $450,368; 
fiscal year 2006, $445,500; fiscal year 2007, $0; fiscal year 2008, 
$332,655; and fiscal years 2009 and 2010, $313,000 per year. A total of 
$6,559,209 has been appropriated.
    The research is conducted at State agricultural experiment stations 
in Idaho, Oregon, and Washington.
    Additional work is expected to address some of the most difficult 
issues, such as breeding new cultivars to address changing needs and 
developing markets for the unburned crop residue. That work is now 
underway.
    This program is subject to an annual comprehensive evaluation by a 
team of peer scientists, industry representatives, and farmers. The 
results are used to guide research for the next year. Each proposal 
undergoes merit review at the performing institution and is reviewed by 
senior agency technical staff. The program was subjected to a 
comprehensive review in December of 2000, which focused on the program 
objectives and priorities. A site visit and review of progress was 
conducted in 2003.

                    HIGH PERFORMANCE COMPUTING, UTAH

    The objective of this grant is to extend the use and applications 
of high performance computing to the agricultural research community by 
producing a virtual, scalable infrastructure for agricultural 
researchers, and developing a new parallel approach to population 
genetics and phylogeography on this infrastructure.
    During 2006, Utah State University organized and sponsored a 
national symposium on high performance computing for the agricultural 
research community with a technical and educational program; a similar 
meeting was held in 2009. Researcher-focused seminars and workshops 
were held in 2008 and 2009 to help faculty and graduate students 
develop knowledge and skills related to high-performance computing and 
to help them initiate projects. Investigators have completed testing of 
a regional climate model for snowpack, and the simulation and analysis 
of climate impacts on agricultural water use have been completed.
    The work supported by this grant began in 2006 under the Advanced 
Computing Research and Education grant with an appropriation of 
$539,550; and in fiscal year 2007, $0. In fiscal year 2008, the project 
was renamed High Performance Computing with an appropriation of 
$521,333; in fiscal year 2009, $525,000; and in fiscal year 2010, 
$263,000. A total of $1,848,883 has been appropriated for this program.
    The program is carried out at Utah State University.
    The project is subject to a thorough institutional peer review 
during preparation of the grant proposal. Submitted proposals undergo 
merit review by one or more agency scientists. The principal researcher 
meets annually with agency staff wherein project objectives, plans, and 
accomplishments are discussed. An agency scientist made an on-site 
visit to the project in 2009.

                       HUMAN NUTRITION, LOUISIANA

    The objective of this grant is to understand differences in fat 
storage and how this information can be applied to terminating the 
current fattening of America.
    Previous work evaluated the effects of high and low protein diets 
in normal and overweight men and women at both low and high levels of 
physical activity and energy intake using gene expression and muscle 
metabolism, in vitro to explore the metabolism, and genetic basis of 
the responses to intakes of these diets. Weight gain with the low 
protein diet was significantly less than with higher protein diets, but 
the fat storage was identical between the groups. These results are 
noteworthy in that from a nutritional point of view it means that 
interpreting weight changes in people with different protein intakes is 
not simple and suggests that additional measures may be needed to 
adequately interpret such data. Currently, this research has two 
projects underway. The first, the study of variability of food intake 
in dietitians is based on a demonstration of corrective signals for 
feeding that operate over 3- to 4-day intervals in relatively sedentary 
women. The second, the study of the interaction of dietary fat and 
carbohydrates examines whether a high fat diet enhances liver fat and 
decreases insulin sensitivity over 3- to 4-day intervals and if this 
effect is exaggerated by the type of monosaccharide, such as fructose 
or glucose, in the diet.
    The work supported by this grant began in fiscal year 1991, and the 
appropriation for fiscal years 1991-1993 was $800,000 per year; for 
fiscal years 1994-2000, $752,000 per year; for fiscal year 2001, 
$750,346; for fiscal year 2002, $800,000; for fiscal year 2003, 
$794,800; for fiscal year 2004; $711,776; for fiscal year 2005, 
$706,304; for fiscal year 2006, $698,940; for fiscal year 2007, $0; for 
fiscal year 2008, $526,290; and for fiscal year 2009, $494,000; and for 
fiscal year 2010, $526,000. A total of $13,672,456 has been 
appropriated.
    Research is conducted at the Pennington Biomedical Research Center, 
a unit of the Louisiana State University.
    A scientific and independent peer-review was conducted by a panel 
of three reviewers from the Pennington Biomedical Research Center, 
Baton Rouge, Louisiana, and two external reviewers according to the 
USDA guidelines on May 20, 2009. In addition, progress is evaluated 
through the review of annual reports by NIFA National Program Leaders.

                       HUMAN NUTRITION, NEW YORK

    The objective of the grant is to support new multi-investigator 
collaborative research projects that integrate approaches in genomics, 
nutritional biochemistry, and human metabolism to address fundamental 
questions in human nutrition and health. Research focuses on the use of 
stable isotope approaches to understand human nutrient dynamics at the 
whole body and cellular level in healthy humans.
    Work on the current human nutrition research projects that focus on 
the key nutrients calcium, iron and choline began in fiscal year 2009. 
Studies to measure calcium, vitamin D, related hormones and bone 
turnover markers in pregnant teens to determine how these factors are 
associated with fetal bone growth and maternal bone loss across 
pregnancy are nearing completion. Researchers have found that vitamin D 
insufficiency is prevalent in minority adolescents and their newborns 
at delivery and that suboptimal vitamin D status is associated with a 
significantly lower birth weight in the newborn infant. Maternal 
vitamin D insufficiency was also found to have a significant negative 
impact on fetal bone growth. These results are being written for 
publication. Human nutrition studies of choline requirements during 
pregnancy are completing data collection. Analysis of the data is 
underway.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1989, $450,000; fiscal years 1990-1991, $556,000 per year; fiscal 
years 1992-1993, $735,000 per year; fiscal year 1994, $691,000; fiscal 
years 1995 through 2000, $622,000 per year; fiscal year 2001, $620,632; 
fiscal year 2002, $609,000; fiscal year 2003, $571,163; fiscal year 
2004, $546,755; fiscal year 2005, $580,320; fiscal year 2006, $574,200; 
fiscal year 2007, $0; and fiscal year 2008, $402,165; and fiscal years 
2009 and 2010, $377,000 per year. A total of $12,113,235 has been 
appropriated.
    Research is being conducted at Cornell University, New York.
    The proposal that was received for fiscal year 2009 was subjected 
to independent peer review as required by the Cornell University 
Agricultural Experiment Station. The process followed guidelines issued 
by that office and entailed complete review of the proposal by two 
Cornell faculty members external to the Division of Nutritional 
Sciences. The proposal that is being prepared for fiscal year 2010 is a 
continuation that is subject to an internal review by NIFA staff.

                      HYDROPONIC PRODUCTION, OHIO

    The objective of the grant is to expand hydroponic production 
technology with new growers and new crops using energy efficient 
greenhouses and Internet decision support tools and have year-round 
availability of locally grown, high-quality vegetable and floriculture 
crops for all consumers.
    Significant progress has been made in the areas of economic 
analyses to enable producers to make fiscally sound decisions on choice 
and operation of production facilities, cropping patterns, and 
marketing decisions. This information has been provided to the user 
community in easily accessible formats, including demonstration 
greenhouses at Toledo, printed information, Web-based information, and 
conferences. There is continuous, ongoing testing and demonstration of 
improved technology including determination of the economic feasibility 
of using the new technology systems. A Web-based grower information 
system with interactive decision model for growing hydroponic tomatoes, 
which is available at www.oardc.ohiostate.edu/hydroponics/drake/
index.php, was developed and is continuously updated and modified. 
Demonstration and outreach activities are assisting growers in 
expanding markets and marketing organizations for hydroponic-grown 
crops; refining Internet decision support tools; designing and 
demonstrating new, economical, energy efficient production systems; 
investigating the feasibility of new crops for hydroponic production 
methods; and conducting research on and demonstrating safe, effective 
integrated pest management practices for hydroponic production systems. 
Vegetable growers in Ohio and abroad were provided with technical, 
cultural, and marketing support through one-on-one consultations and 
site visits, telephone and e-mail communications, a monthly greenhouse 
newsletter, a Web site, as well as through support for the grower-led 
organization, the Great Lakes Hydroponic Association.
    The work supported by this grant began in fiscal year 1998, and the 
following amounts have been appropriated: in fiscal year 1998, 
$140,000; in fiscal years 1999 and 2000, $200,000 per year; in fiscal 
year 2001, $99,780; in fiscal year 2002, $100,000; in fiscal year 2003, 
$99,350; in fiscal year 2004, $178,938; in fiscal year 2005, $178,560; 
in fiscal year 2006, $177,210; in fiscal year 2007, $0; in fiscal year 
2008, $132,069; and in fiscal years 2009 and 2010, $124,000 per year. A 
total of $1,753,907 has been appropriated.
    The research is being conducted by the Food, Agricultural, and 
Biological Engineering, the Ohio State University Agricultural Research 
Center, Wooster, Ohio; the Ohio State University Extension Commercial 
Business Enhancement Center, Bowling Green, Ohio; and at the Toledo 
Botanical Garden, Toledo, Ohio.
    Each year, the performing institution conducts an internal peer 
review of the proposal. In addition, the agency conducts a merit review 
of each new proposal. To date, satisfactory progress towards 
accomplishing project goals and objectives has been made.

           IMPROVED DAIRY MANAGEMENT PRACTICES, PENNSYLVANIA

    The objective of this grant is to research new technologies and 
management practices that will help Pennsylvania dairy operations 
become more profitable and sustainable.
    Feed represents the largest and most variable cost for dairy 
producers. Therefore, the productivity and profitability of every 
commercial dairy farm depends on the efficient use of feed, with the 
goal of achieving the highest output of milk with the minimum input of 
feed. New feeding strategies are needed to improve feed efficiency in 
dairy cattle. To this end, the research in this project seeks a better 
understanding of the natural biological rhythms in dairy cattle. This 
information will enable researchers to test different feeding regimens 
and find ways to produce more milk with less feed. In addition to 
improved productivity and profitability, enhanced feed efficiency has 
the potential to decrease the production of greenhouse gases by dairy 
cattle and thus lessen their local, regional and global contributions 
to climate change.
    The work supported by this grant began in fiscal year 1992, and the 
appropriation for fiscal years 1992 and 1993 was $335,000 per year; 
fiscal year 1994, $329,000; fiscal years 1995-2000, $296,000 per year; 
fiscal year 2001, $397,124; fiscal year 2002, $389,000; fiscal year 
2003, $397,400; fiscal year 2004, $354,894; fiscal year 2005, $352,160; 
fiscal year 2006, $348,480; fiscal year 2007, $0; fiscal year 2008, 
$259,173; and fiscal years 2009 and 2010, $243,000 per year. A total of 
$5,759,231 has been appropriated.
    This research is being carried out at the Pennsylvania State 
University.
    The submitted proposal for this new project was critically reviewed 
by the National Program Leader of NIFA in the summer of 2009.

                   IMPROVED FRUIT PRACTICES, MICHIGAN

    The objective of this grant is to reduce the chemical contamination 
of the environment during protection from pests in fruit production and 
improve production practices for beans and beets through multi 
disciplinary research, including genetic resistance, pesticides, and 
the development of new nonchemical production methods.
    Field studies are being conducted to determine optimum nitrogen 
application rates for sugar beet. This project has played a crucial 
role in the development, registration, and expanded use of mating 
disruption products for Michigan apples and peaches. The use of this 
technique has greatly improved the control of codling moth, a key pest 
of apples. The technique involves spraying a chemical that interferes 
with moth mating. The spray does not leave toxic residue on the fruit 
and does not harm beneficial organisms. Use of the technique has 
reduced fruit injury and provided increased revenues of $20 to $100 per 
acre. To reduce costs of application and effectiveness of the technique 
to control key fruit pests, pheromone delivery and application 
technologies are being developed. Reducing the reliance on broad 
spectrum pesticides in the production of fruit has been a focal point 
of this project. By incorporating reduced risk control options into 
their integrated pest management programs, Michigan apple producers 
have been able to reduce insecticide and miticide use by an average of 
28 percent. This includes a 20 percent and 37 percent reduction in the 
use of organophosphate and carbamate compounds, respectively. Insect 
trapping technologies are now finding application to protect Michigan's 
cherry crop. Traps provide an alternative to insecticide use. Using 
traps on the crop has saved the industry as much as $700,000 per 
growing season.
    The work supported by this grant began in fiscal year 1994. The 
appropriation for fiscal year 1994 was $494,000; for fiscal years 1995 
2000, $445,000 per year; for fiscal year 2001, $444,021; for fiscal 
year 2002, $239,000; for fiscal year 2003, $237,447; for fiscal year 
2004, $211,743; for fiscal year 2005, $210,304; for fiscal year 2006, 
$209,880; for fiscal year 2007, $0; for fiscal year 2008, $156,894; and 
for fiscal years 2009 and 2010, $147,000 per year. A total of 
$5,167,289 has been appropriated.
    Research is conducted by Michigan State University at several of 
its field stations and in grower orchards and fields.
    This project has been subjected to a comprehensive review each 
year. The annual proposals are peer reviewed at the performing 
institution before submission to the agency, and the proposal is then 
reviewed by senior agency technical staff.

        INCREASING SHELF LIFE OF AGRICULTURAL COMMODITIES, IDAHO

    The objective of this grant is to develop a bio-electronic detector 
platform for the detection of staphylococcal microorganisms and 
enterotoxins, which can be applied in food processing and distribution 
systems and that can serve as a model for the development of a sensor 
with broader applications to other pathogens and food contaminants.
    A micro-electronic test chip has been specifically designed and 
manufactured for this purpose; transistor parameters have been defined. 
The electronic test structure fabricated allows surface chemistry data 
to be acquired along with deoxyribonucleic acid binding data. Initial 
experiments captured both live and formalin killed staphylococcus 
aureus from pure cultures. Data obtained using the test chip provide 
information for the design of an intelligent electronic micro-device. 
National Aeronautics and Space Administration's Ultra Low Power 
technology was used to create maximum sensitivity. The transistor 
circuits were completed. The fabrication run was completed, and 
processes for chip cleaning and surface modifications and encapsulation 
were developed. Three electronic sensor platforms have been evaluated 
in food systems. A hand-held, sensitive, enzyme-linked immunomagnetic 
electrochemistry biosensor has been developed and tested for detection 
of microorganisms and toxins in food and water. Silica nanospring mat 
electronic biosensors were fabricated and found useful in sequence 
specific detection of deoxyribonucleic acid. The third platform is 
nanowire-based field effect transistor devices for label free and 
ultra-sensitive electronic biodetection. Conjugated gold nanoparticle 
technology has been explored to knock down genes for improving shelf-
life of meat through pre-harvest regulation or post-harvest fatty acid 
oxidation.
    The work supported by this grant began in fiscal year 2002. The 
appropriation for fiscal year 2002 was $640,000; $789,833 in fiscal 
year 2003; $706,805 in fiscal year 2004; $822,368 in fiscal year 2005; 
$854,370 in fiscal year 2006; $0 in fiscal year 2007; $642,471 in 
fiscal year 2008; and $603,000 per year in fiscal years 2009 and 2010. 
A total of $5,661,847 has been appropriated.
    The primary research is conducted at the University of Idaho 
Research Park in Post Falls and in the Department of Microbiology, 
Molecular Biology, and Biochemistry, and Department of Chemical and 
Materials Engineering on the Moscow campus of the University of Idaho. 
Limited supplementary works, including microchip fabrication and some 
tests, are conducted at the chosen collaborators' locations.
    An agency scientist conducts a merit review of the proposal 
submitted in support of the appropriation on an annual basis. A review 
of the proposal for fiscal year 2009 was conducted on June 25, 2009. 
The research team is a multi-disciplinary group consisting of molecular 
biologists, electronic designers, organic chemists, solid state 
physicists, microbiologists, material engineers, and food scientists. 
The feasibility of a successful completion of the proposed tasks is 
good.

                 INFECTIOUS DISEASE RESEARCH, COLORADO

    The objective of this grant is to initiate, conduct, and promote 
research activities that have impacts on trade issues; use a 
multidisciplinary, integrated approach to monitor for diseases; 
prioritize critical research needs through stakeholder advisory groups; 
and provide outreach and graduate student training.
    The investigators have contributed to the diagnosis and preventive 
policy for several economically important diseases such as Vesicular 
Stomatitis, Bovine Tuberculosis, Johne's Disease, Brucellosis, Bovine 
Spongiform Encephalopathy, Foot and Mouth Disease, and Bovine Viral 
Diarrhea. Research results have been made available directly to the 
stakeholders for immediate implementation through an advisory group, as 
well as a Web site. Antimicrobial drug use and antimicrobial resistance 
research has been conducted to investigate appropriate methods to 
evaluate antimicrobial resistance through time. Furthermore, industry, 
international, veterinary, and traditional students from diverse 
disciplines have received advanced short-term or long-term training in 
animal diseases, health and food safety.
    The work has been underway since 1999 with an initial appropriation 
of $250,000. Since that time appropriations have been made as follows: 
$255,000 for fiscal year 2000; $299,340 for fiscal year 2001; $640,000 
for fiscal year 2002; $745,125 for fiscal year 2003; $667,041 for 
fiscal year 2004; $777,728 for fiscal year 2005; $808,830 for fiscal 
year 2006; $0 for fiscal year 2007; $608,709 for fiscal year 2008; 
$572,000 for fiscal year 2009; and $650,000 in fiscal year 2010. A 
total of $6,273,773 has been appropriated.
    The work is being conducted on the campus of Colorado State 
University located at Fort Collins by the College of Veterinary 
Medicine and Biomedical Sciences.
    The NIFA National Program Leader from the agency hosted a meeting 
with the Project Director in Washington, DC in March 2007 and has met 
with him at various professional meetings on a regular basis since 
then. In addition, the project advisory committee conducted a program 
review in February-March 2005. The progress and accomplishments were 
found to be consistent with the goals of the project. The fiscal year 
2010 proposal was institutionally reviewed by Colorado State 
University, as well as by a NIFA National Program Leader.

   INITIATIVE TO IMPROVE BLUEBERRY PRODUCTION AND EFFICIENCY, GEORGIA

    The objective of this grant is to develop a variety of blueberry 
cultivars with high fruit quality with regards to flavor, storage, and 
shipping.
    In the first year of the project, field trials were established on 
University of Georgia research farms and at grower test sites. The 
trials consisted of standard cultivars and advanced selections from the 
University of Georgia blueberry breeding program. The field trials 
included both rabitteye and southern highbush selections. Various fruit 
and plant attributes were evaluated.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $223,425; and $209,000 per year for 
fiscal years 2009 and 2010. A total of $641,425 has been appropriated.
    A merit review of the application was conducted in 2010.

                  INLAND MARINE AQUACULTURE, VIRGINIA

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $400,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

          INSTITUTE FOR FOOD SCIENCE AND ENGINEERING, ARKANSAS

    The objective of the grant is to provide a mechanism for the 
University of Arkansas to utilize its multidisciplinary research 
expertise to offer an integrated approach to developing and 
disseminating scientific information associated with production, value-
added processing, safety, nutritional value, packaging, storage, and 
distribution of food products.
    The Institute for Food Science and Engineering seeks to strengthen 
existing partnerships and develop new partnerships and alliances with 
the State, regional, national food industry, government, and academic 
institutions, while providing an appropriate balance of fundamental and 
applied research in program areas that are critical to the food 
processing industries in Arkansas, the region, and the Nation. New 
production, processing, and packaging technologies are developed and 
promoted to enhance product quality and ensure safety throughout the 
food chain from production to consumption. Technology transfer efforts 
assist the food industry in developing value-added, high-quality 
products that are safe, appealing, and healthy. Appropriate technology 
transfer methods are used to communicate research findings, developing 
a nationally and internationally recognized industry outreach program.
    The work supported by this grant began in fiscal year 1996. The 
appropriation for fiscal years 1996 and 1997 was $750,000 each year; 
$950,000 for fiscal year 1998; $1,250,000 each year for fiscal years 
1999-2000; $1,247,250 for fiscal year 2001; $1,222,000 in fiscal year 
2002; $1,214,057 for fiscal year 2003; $1,086,551 for fiscal year 2004; 
$1,110,048 for fiscal year 2005; $1,107,810 for fiscal year 2006; $0 
for fiscal year 2007; $825,183 for fiscal year 2008; and $775,000 per 
year for fiscal years 2009 and 2010. The total appropriation was 
$14,312,899.
    This project was evaluated in September 2009 by NIFA staff and the 
reviews indicated that the faculty and facilities were adequate, and 
the proposal was sound.

   INTEGRATED ECONOMIC AND TECHNICAL ANALYSIS OF SUSTAINABLE BIOMASS 
                        ENERGY SYSTEMS, INDIANA

    The objective of this grant is to conduct economic and 
environmental analyses to assist Indiana and the Midwest in producing 
and using renewable energy and how biomass production and conversion 
affects the economy, environment and ecosystems of the region.
    The original goal of this research is to conduct economics and 
environmental analyses. The economic analysis is using three different 
economic modeling tools that capture the uncertainty in oil price and 
other economic variables and simulation of the impacts of different 
biofuels policy options and oil prices on ethanol production. The 
policies being considered are the fixed biofuel subsidy, a variable 
subsidy that fluctuates with the price of oil, the Renewable Fuel 
Standard, and greenhouse gas policies. This project is also examining a 
model used to simulate global impacts of domestic and European Union 
biofuels programs. Technology options include cellulose conversion via 
biochemical processes and via thermochemical processes. The economic 
analyses are under development by building spreadsheet models for each 
of the major technology paths and policy options. The environmental 
analysis will include data collection and analysis of field trials 
using big bluestem, miscanthus, switchgrass, sorghum, and corn grown in 
rotation with soybean and continuous corn. All experimental treatments 
have been established at the primary experimental site including 
transplanting Miscanthus rhizomes and removal of residues from corn and 
sorghum residue removal treatments. All monitoring equipment has been 
installed and calibrated to study grain and total above ground dry 
matter yields as a function of nitrogen fertilizer rate and dissolved 
organic carbon content in drainage water and weekly assessment of 
greenhouse gas emissions. Compositional analysis of all plant issues 
has been initiated.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. An amount of $188,000 per year was appropriated in 
fiscal years 2009 and 2010. The total appropriation is $376,000.
    The work is being carried out at Purdue University and at the 
Purdue University Water Quality Field Station.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. An agency evaluation will be conducted when the 
proposal for fiscal year 2010 is submitted.

                       INTEGRATED PEST MANAGEMENT

    The objective of this grant is to develop new approaches for 
managing critical pest problems in agricultural production systems and 
urban environments. Integrated pest management systems are developed to 
enhance or maintain profitability, protect human health and the 
environment, manage invasive pest species, and serve as a replacement 
for management tools lost as a result of regulatory action, pest 
resistance, and other factors.
    The investment of research grant funds in these projects has 
resulted in the development of many new pest management tools and a 
reduction in the economic, health, and environmental risks associated 
with agricultural production. Recent examples of contributions made by 
this research program include the development of new management 
approaches for peach brown rot, rice stink bug, and grape berry moth.
    The work supported by this grant began in fiscal year 1981, and the 
following amounts have been appropriated: in fiscal year 1981, 
$1,500,000; in fiscal years 1982-1985, $3,091,000 per year; in fiscal 
years 1986-1989, $2,940,000 per year; in fiscal year 1990, $2,903,000; 
in fiscal year 1991, $4,000,000; in fiscal years 1992 and 1993, 
$4,457,000 per year; in fiscal year 1994, $3,034,000; in fiscal years 
1995-2000, $2,731,000 per year; in fiscal year 2001, $2,724,992; in 
fiscal year 2002, $2,725,000; in fiscal year 2003, $2,707,288; in 
fiscal year 2004, $2,438,527; in fiscal year 2005, $2,419,488; in 
fiscal years 2006 and 2007, $2,395,800 per year; in fiscal year 2008, 
$2,379,228; in fiscal year 2009, $2,379,000; and in fiscal year 2010, 
$2,415,000. A total of $85,841,123 has been appropriated since fiscal 
year 1981.
    Researchers from all land-grant universities are eligible to 
compete for this funding. In fiscal year 2009, the following 15 
institutions received funding from this competitive grants program: 
Clemson University, Cornell University, Idaho State University, 
Louisiana State University, Michigan State University, Montana State 
University, North Carolina State University, Ohio State University, 
Oregon State University, Purdue University, the University of Florida, 
the University of Georgia, the University of Massachusetts, the 
University of Maine, and Washington State University.
    The agency has established a comprehensive annual process to 
identify meritorious projects through a competitive process that 
evaluates relevance to stakeholder needs and technical merit. All 
proposals undergo technical and merit review at the institutional and 
regional levels. All proposals are reviewed by a panel of experts to 
identify those that are both highly relevant and technically sound. 
Senior agency technical staff evaluates proposals and make 
recommendations based on the evaluation of the peer review panel. The 
agency's technical staff also reviews annual and final reports to 
evaluate accomplishments and to determine whether project objectives 
are being achieved. The program was reviewed by an external panel in 
February 2006 as part of a broader stakeholder review of the agency's 
Regional Integrated Pest Management Centers program.

                INTEGRATED PRODUCTION SYSTEMS, OKLAHOMA

    The objectives of this grant are to develop organic production 
techniques for crops in Oklahoma, and to characterize changes in market 
prices at regional terminal markets and develop potential market 
opportunities.
    Recent work includes a project to determine activity and 
effectiveness of organic pesticides for managing harlequin bugs on 
brassica crops. Three studies were conducted on the use of cucurbit 
crop planting systems following a rye cover crop for their impact on 
weed control. Another study was conducted on corn gluten meal for weed 
control in southern peas. Cultivar trials were conducted with 18 
cultivars of tomatoes grown under certified National Organic Program 
protocols. Twelve cultivars of cantaloupe were also grown in a soil 
fertility study comparing conventional synthetic fertilizers with 
organic poultry litter fertilizers. In another study, the effectiveness 
of conventional versus organic vegetable production systems was 
examined. Results of these studies have been published in journals and 
Oklahoma State University variety trial publications and presented at 
field days.
    Work supported by this grant started in fiscal year 1984, and the 
appropriations were: fiscal year 1984, $200,000; fiscal year 1985, 
$250,000; fiscal year 1986, $238,000; fiscal years 1987-1989, $188,000 
per year; fiscal years 1990-1991, $186,000 per year; fiscal year 1992, 
$193,000; fiscal year 1993, $190,000; fiscal year 1994, $179,000; 
fiscal years 1995-1998, $161,000 per year; fiscal years 1999-2000, 
$180,000 per year; fiscal year 2001, $179,604; fiscal year 2002, 
$176,000; fiscal year 2003, $231,486; fiscal year 2004, $206,773; 
fiscal year 2005, $205,344; fiscal year 2006, $252,450; fiscal year 
2007, $0; fiscal year 2008, $187,677; and fiscal years 2009 and 2010, 
$177,000 per year. A total of $4,983,334 has been appropriated.
    This research is being conducted at the Wes Watkins Agricultural 
Research and Education Center at Lane, Oklahoma. This facility is 
operated by the Oklahoma State Agricultural Experiment Station.
    Each of the annual project proposals was subjected to peer review 
by the performing institution and was evaluated by senior agency 
technical staff.

              INTERNATIONAL ARID LANDS CONSORTIUM, ARIZONA

    The objective of this grant is to develop an ecological approach to 
multiple-use management and sustainable use of arid and semi-arid 
lands.
    The Consortium has conducted research and development, educational 
and training initiatives, demonstration projects, workshops and other 
technology transfer activities applied to the development, management, 
restoration, and reclamation of arid and semi-arid land in North 
America, the Middle East, and elsewhere in the world. All activities 
are supported by member institutions through their ongoing applied 
research and demonstration projects. The IALC was authorized by 
Congress in 1990. During the past 20 years, the IALC has funded 91 
research projects, 30 demonstration projects, 11 special initiatives; 
administered a successful 7-year IALC-USAID (U.S. Agency for 
International Development) cooperative agreement in Central Asia and 
the Middle East; and sponsored 20 undergrad and grad students through 
the IALC Peace Fellowship program. Selected project topics over the 
past 20 years include: conservation; water quality; irrigation; GIS 
(Geographic Information System) and remote sensing; ecology; 
agriculture; wildlife management; rangeland management; wastewater; and 
biodiversity. IALC outputs from projects include: journal articles; 
books; doctoral dissertations; presentations; Web sites; and many 
others. Most IALC projects have taken place in the Southwestern United 
States and in the Middle East. Four highlights from the fiscal year 
2008-2009 projects funded by NIFA include: (1) Fire in Chihuahuan 
Desert Grasslands: Effects on Soil Biota and Nutrient Cycling; (2) Pine 
Expansion in Arid Land: Fire Effects on Safe Site Abundance; (3) Post-
Fire Vegetation Recovery: Impacts of Restoration and Environment; and 
(4) Runoff, Flood, and Non-sewage Wastewater for Native Tree 
Propagation: Anaerobic Sewage Treatment for Sustainable Water 
Reclamation in Jordan.
    The International Arid Lands Consortium was incorporated in 1991. 
Funds were appropriated to the Forest Service in 1993. Additional funds 
were received during each of the years that followed. For fiscal years 
1994-1998, $329,000 per year; for fiscal years 1999 and 2000, $400,000 
per year; for fiscal year 2001, $493,911; for fiscal year 2002, 
$484,000; for fiscal year 2003, $513,640; for fiscal year 2004, 
$581,549; for fiscal year 2005, $579,328; for fiscal year 2006, 
$573,210; for fiscal year 2007, $0; for fiscal year 2008, $426,990; and 
for fiscal years 2009 and 2010, $401,000 per year. Total appropriations 
are $6,899,628.
    Research is currently being conducted at the University of Arizona; 
South Dakota State University; Texas Agricultural and Mechanical 
University, Kingsville; New Mexico State University; University of 
Illinois; Nevada's Desert Research Institute; and several research and 
higher education institutions in Israel, Jordan, and Egypt.
    The National Program Leader for Rangeland and Grassland Ecosystems 
communicates regularly with the project director and attended the Board 
of Directors meeting held in spring 2009. The research conducted under 
this grant is progressing satisfactorily and is in accordance with the 
mission of the agency.

                   INVASIVE PLANT MANAGEMENT, MONTANA

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $270,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                    IR-4 MINOR CROP PEST MANAGEMENT

    The objectives of the grant are to obtain and maintain regulatory 
clearances of effective crop protection agents for high value, 
specialty food crops and for minor uses on major crops with special 
emphasis on lower risk chemicals and uses that are compatible with 
integrated pest management programs; to support research to enhance the 
development and registration of bio-pesticides for use in food and non-
food pest management programs; and to support research on crop 
protection products that will expand their uses on ornamental crops to 
allow management of new and important pest species.
    Since the program began, data generated by IR-4 has contributed to 
the approval of over 8,400 food-use and over 10,800 ornamental pest 
management product clearances and registrations. The IR-4 program 
supported clearances accounting for approximately 50 percent of all 
pest management registration packets approved by the EPA between 2001 
and 2004. From 1999 through 2004, IR-4 data packages contributed to the 
registration of 3,780 food-crop products and 3,520 ornamental products, 
which are 46 percent and 32 percent, respectively, of all IR-4 
supported registrations. During calendar year 2008, the EPA reviewed a 
record 41 chemistries for IR-4 Food Use Program tolerance petitions. 
The agency also eliminated the remaining backlog of IR-4 petitions 
making 2008 one of the most productive years for IR-4. Permanent 
pesticide tolerances on these were established on 241 chemicals that 
could result in 999 new specialty crop use registrations, many of which 
are considered reduced risk. IR-4 Ornamental Horticulture Program data 
supported seven new registrations and one registration amendment as 
well as four registrations in California. These IR-4 supported 
successes impacted 3,095 ornamental plant species. The Biopesticide 
Program funded 29 research projects to provide data to support 
expansion on a number of biopesticide registrations. IR-4's efforts 
supported 18 new or modified products which could provide 128 new 
biopesticide uses. IR-4 continued the crop group update by submitting a 
proposal to EPA to expand the tree nut crop group. In 2008, the IR-4 
food crop program consisted of 573 field trials associated with 92 
studies. The IR-4 Ornamental Horticulture program established 1,323 
trials with greenhouse and field ornamental crops in support of company 
registrations decisions. All food use studies are conducted in 
compliance with Federal Good Laboratory Practice Standards. The IR-4 
Quality Assurance Unit conducted 157 field and 73 analytical in-life 
inspections; and audited 651 field data books, 84 analytical summary 
reports, and 97 final or amended reports. In 2008, the Food Use Program 
submitted 151 data packages, involving 36 chemicals, and the Ornamental 
Horticulture Program submitted 12 data packages to registrants.
    Grants have been awarded from appropriated funds as follows: 
Program redirection in fiscal year 1975, $250,000; fiscal years 1976-
1980, $1,000,000 per year; fiscal year 1981, $1,250,000; fiscal years 
1982-1985, $1,440,000 per year; fiscal years 1986-1989, $1,369,000 per 
year; fiscal year 1990, $1,975,000; fiscal year 1991, $3,000,000; 
fiscal years 1992-1993, $3,500,000 per year; fiscal year 1994, 
$6,345,000; fiscal years 1995-1997, $5,710,000 per year; fiscal years 
1998-2000, $8,990,000 per year; fiscal year 2001, $8,970,222; fiscal 
year 2002, $10,485,000; fiscal year 2003, $10,673,171; fiscal year 
2004, $9,549,325; fiscal year 2005, $11,145,120; fiscal years 2006 and 
2007, $10,677,150 per year; fiscal year 2008, $11,367,864; fiscal year 
2009, $12,000,000; and fiscal year 2010, $12,180,000. A total of 
$187,881,002 has been appropriated.
    Field work is performed at locations that meet specific EPA 
requirements for appropriate geographic distribution of locations for 
regulatory data collection. The majority of IR-4 field research is 
conducted at 28 Field Research Centers in the following 20 States: 
California, Colorado, Florida, Hawaii, Idaho, Illinois, Maine, 
Maryland, Michigan, New Hampshire, New Jersey, New Mexico, New York, 
North Carolina, Oregon, South Dakota, Tennessee, Texas, Washington, and 
Wisconsin. In addition, the Agricultural Research Service (ARS) has 
cooperating IR-4 field research sites in California, Georgia, South 
Carolina, Ohio, Oregon, Texas, and Washington. IR-4 laboratory analyses 
are being conducted at Agricultural Experiment Stations in California, 
Florida, Michigan, and New York with assistance from State Agricultural 
Experiment Stations in Hawaii, North Carolina, and Washington. The ARS 
laboratories in Georgia, Maryland, and Washington also cooperate with 
the processing of residue sample analysis. Protocol development, data 
assimilation, writing petitions, and registration processing are 
coordinated through the New Jersey Agricultural Experiment Station.
    Funding applications are reviewed by senior agency technical staff. 
The findings of these reviews indicate progress in achieving the 
objective of providing safe and effective pest management alternatives 
for specialty crops growers. In May 2003, the agency sponsored a peer 
review of the project, which consisted of a science panel composed of 
representatives from the USDA, the EPA, commodity groups, the food 
processing industry, the crop protection industry, and land-grant 
universities. The review committee was asked to examine past IR-4 
accomplishments, review the current organizational structure, 
operations and program, and help chart future directions for the 
program. The review panel report was issued in July 2003 with specific 
comments and recommendations for each of the above areas. The report 
ranked the IR-4 program as outstanding in carrying out its mission of 
facilitating the registration of new pest management products for 
specialty crops. A strategic planning conference was held in December 
2008 to focus on future needs and opportunities. Participants believe 
that maintaining and enhancing the core objectives of the Food Use, 
Ornamental Horticulture, and Biopesticide programs is essential. An 
external peer review was conducted in May 2009.

  JOINT UNITED STATES/CHINA BIOTECHNOLOGY RESEARCH AND EXTENSION, UTAH

    The objective of this grant is to establish joint programs between 
the United States and China in agricultural biotechnology and related 
areas. Joint research programs will focus on animal models for the 
study of infectious diseases, natural bioactive compound development, 
and cellular communication networks; and agriculturally relevant crops 
and forages; livestock cloning and genetics; water resources; and 
climate change.
    A collaborative project on sheep genomics between Utah State 
University and Yunnan University in Kunming has resulted in the 
training of graduate and post-graduate students with joint publications 
as outcomes.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $446,850; $420,000 in fiscal year 
2009; and $210,000 in fiscal year 2010. A total of $1,076,850 has been 
appropriated.
    The research is being conducted at Utah State University and at 
cooperating institutions in China.
    Senior agency technical staff conduct a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission.

                  LEOPOLD CENTER HYPOXIA PROJECT, IOWA

    The objective of this grant is the development of performance-based 
strategies for improving land management in the Upper Mississippi River 
basin by optimizing agricultural production on specific landscapes, 
facilitating land use change to create ecological buffers and water 
retention areas, and diversifying land use to increase production of 
perennials for bio-based and energy crops.
    Demonstration sites for this project have been established and 
results of water quality improvement are being analyzed. One key issue 
is developing management alternatives for producers. To that end, the 
project continues to explore alternative methods to reduce nutrient 
losses from agriculture.
    The work is being carried out through the Leopold Center for 
Sustainable Agriculture at Iowa State University in Ames, Iowa.
    The project was initiated in fiscal year 2004. The appropriation 
for fiscal year 2004 was $223,673; for fiscal year 2005, $222,208; for 
fiscal year 2006, $219,780; for fiscal year 2007, $0; for fiscal year 
2008, $112,209; and for fiscal years 2009 and 2010, $105,000 per year. 
A total of $987,870 has been appropriated for this project.
    A programmatic review of this project is expected to be conducted 
in 2010. The most recent review was conducted by a NIFA National 
Program Leader who visited the campus at Iowa State University and met 
with project officials in fiscal year 2006. The Project leader met with 
the National Program Leader responsible for oversight of this project 
in 2008.

             LIVESTOCK AND DAIRY POLICY, NEW YORK AND TEXAS

    The objective of this grant is to provide timely and comprehensive 
analysis of numerous policy and technological changes affecting 
livestock and dairy farmers and agribusinesses and advise them and 
policymakers promptly of possible outcomes.
    The program continues to provide timely assessments and evaluations 
of provisions and proposed changes in agricultural policies, the 
General Agreement on Tariffs and Trade, and the North American Free 
Trade Agreement; various income and excise tax measures; and 
alternative pricing measures for milk. Work on most projects continues 
under Project 576. Accomplishments under various sub-projects of 
Project 594 include econometric models of price transmission processes 
in U.S. dairy markets. Both institutions maintain extension outreach 
programs to disseminate results of their analysis throughout the United 
States. They have organized a national Dairy Markets and Policy 
Extension Committee to advise and assist them in this effort. This 
committee was especially helpful to USDA in educating farmers about 
proposed milk marketing order changes last year.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1989, $450,000; fiscal year 1990, $518,000; fiscal years 1991-
1993, $525,000 per year; fiscal year 1994, $494,000; fiscal years 1995-
1998, $445,000 per year; fiscal year 1999 and 2000, $475,000 per year; 
fiscal year 2001, $568,746; fiscal year 2002, $558,000; fiscal year 
2003, $600,074; fiscal year 2004, $894,690; fiscal year 2005, $892,800; 
fiscal year 2006, $990,000; fiscal year 2007, $0; fiscal year 2008, 
$737,799; and fiscal years 2009 and 2010, $693,000 per year. A total of 
$12,395,109 has been appropriated.
    The research is being conducted at Cornell University and Texas A&M 
University.
    A formal evaluation of this project has not been conducted. Annual 
proposals for funding, however, are peer reviewed for relevance and 
scientific merit. The NIFA contact is also in regular contact with 
principal researchers at each institution to discuss progress toward 
project objectives.

                        MAPLE RESEARCH, VERMONT

    The objective of the grant is to investigate several novel maple 
sap vacuum tubing collection systems in order to develop a cost-
effective system that maximizes sap yield.
    Research funded by the USDA Special Grants for Maple since 2005 has 
focused on the effects of sap processing technology on maple syrup 
chemistry and quality. Initial studies during the spring seasons of 
2006 and 2007 examined the impacts of air injection of maple sap and 
concentrate on maple syrup chemical composition and flavor. In general, 
air injection, either of sap or concentrate, results in production of 
maple syrup that is significantly lighter in color, but with relatively 
few other changes of consequence. In 2008, as a result of producer 
desires to reduce energy consumption by further increasing reverse 
osmosis concentration, researchers compared the effects of boiling 8 
degree Brix and 21 degree Brix sap concentrate. In addition to the 
initial ``sweetening'' boil, during the 2009 production season 
researchers were able to complete five test boils in two identical 
syrup evaporators with the different levels of sap concentrate. 
Laboratory analyses of syrup produced in these experiments are ongoing; 
however, it appears that for color grade, trends found in the 2009 
season are similar to those observed in 2008, although syrup is 
produced at a considerably faster rate at higher concentrations.
    Work under this project began in fiscal year 1985. Annual 
appropriations in support of this project are as follows: fiscal year 
1985, $100,000; fiscal years 1986 and 1987, $95,000 per year; fiscal 
years 1988 and 1989, $100,000 per year; fiscal years 1990-1993, $99,000 
per year; fiscal year 1994, $93,000; fiscal years 1995-1997, $84,000 
per year; fiscal years 1998-2000, $100,000 per year; fiscal year 2001, 
$119,000; fiscal year 2002, $120,000; fiscal year 2003, $149,025; 
fiscal year 2004, $133,209; fiscal year 2005, $131,936; fiscal year 
2006, $137,610; fiscal year 2007, $0; fiscal year 2008, $97,314; 
$155,000 in fiscal year 2009; and $165,000 in fiscal year 2010. The 
total appropriation was $2,739,094.
    This research is being conducted at the Proctor Maple Research 
Center at the University of Vermont in Burlington.
    The proposal was evaluated by NIFA Staff in September 2009. 
Approval was granted based on the quality of the proposal, the 
facilities, faculty, and previous Current Research Information System 
(CRIS) reports.

                           MEADOWFOAM, OREGON

    The objective of this grant is to increase the productivity and 
profitability of meadow foam as an oilseed crop by developing new 
varieties that out-yield previously grown varieties. Four new 
experimental varieties were developed in 2008-2009 and planted for 
further increase and yield evaluation.
    Breeding and genetics, weed management, and other research 
activities are being carried out in field, greenhouse, and laboratory 
facilities managed by the Department of Crop and Soil Science at Oregon 
State University, Corvallis. Assessment of herbicidal activity of 
glocosinolate derivatives is conducted at the Columbia Basin 
Agricultural Research Center, Pendleon, Oregon.
    The work supported by this grant began in 1999, and the 
appropriation for fiscal years 1999-2000 was $300,000 per year; for 
fiscal year 2001, $299,340; for fiscal year 2002, $293,000; for fiscal 
year 2003, $293,083; for fiscal year 2004, $262,442; for fiscal year 
2005, $259,904; for fiscal year 2006, $257,400; for fiscal year, 2007, 
$0; for fiscal year 2008, $191,649; and for fiscal years 2009 and 2010, 
$180,000 per year. A total of $2,816,818 has been appropriated.
    Evaluation of this project is conducted annually based on the 
annual progress report and discussions with the principal investigator 
as appropriate. In the fall of 2006, a discussion on progress was held 
with the Oregon Meadowfoam Oilseed Growers Association. The evaluation 
is conducted by the National Program Leader for Agricultural Materials 
who has determined that research is progressing and is in accordance 
with the mission of the agency.

                   MICHIGAN BIOTECHNOLOGY CONSORTIUM

    The objectives of the grant are to increase the utilization of 
agricultural raw materials; to develop bioprocessing technology to 
manufacture products from agricultural raw materials; to reduce 
agricultural surpluses; and to reduce the need to import foreign 
petroleum, thereby decreasing environmental costs of agricultural 
products and processes.
    Recent accomplishments include identification of a bacterium, 
Actinobacillus succinogenes, capable of utilizing both hexose and 
pentose sugars simultaneously for the production of succinic acid, 
demonstration that this organism is capable of converting hydrolyzed 
raw starch efficiently to succinic acid in a clean-not-sterile 
environment, and demonstration that biomass-derived sugar streams, 
generated through pre-treatment and hydrolysis of corn fiber, can serve 
as sugar sources in succinic fermentations. Additional goals for this 
project include: optimizing the physical, chemical and mechanical 
properties of cellulose in the form of nanowhiskers and microfibrils as 
reinforcement in polymer matrix nanocomposites; developing a 
biodegradable, thermoplastic cellulose polymer based on environmentally 
benign processing techniques; developing a commercially viable process 
for the production of succinic acid from bio-based feedstocks; and 
identifying new commercially attractive biobased technologies. Six 
promising technologies for new biobased products have been identified 
and further research on these technologies is being initiated.
    The work supported by this grant began in fiscal year 1989, and the 
following amounts have been appropriated: in fiscal year 1989, 
$1,750,000; in fiscal year 1990, $2,160,000; in fiscal year 1991, 
$2,246,000; in fiscal years 1992-1993, $2,358,000 per year; in fiscal 
year 1994, $2,217,000; in fiscal year 1995, $1,995,000; in fiscal years 
1996 and 1997, $750,000 per year; in fiscal years 1998-2000, $675,000 
per year; in fiscal year 2001, $723,405; in fiscal year 2002, $481,000; 
in fiscal year 2003, $623,918; in fiscal year 2004, $558,684; in fiscal 
year 2005, $554,528; in fiscal year 2006, $549,450; in fiscal year 
2007, $0; in fiscal year 2008, $409,116; and in fiscal years 2009 and 
2010, $384,000 per year. A total of $23,277,101 has been appropriated.
    This research is being conducted on the campus of Michigan State 
University and at the Michigan Biotechnology Institute. Technology 
demonstrations are occurring throughout the United States.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission.

             MIDWEST CENTER FOR BIOENERGY GRASSES, INDIANA

    The objective of this grant is to optimize bioenergy crops for 
their end-use production as biofuels by (1) exploring grass genetics 
for improved feedstock quality and quantity; (2) optimizing biomass 
architecture for end-use production; (3) developing cropping systems 
for plant production, sustainability, and cost efficiency; and (4) 
developing direct-conversion technologies for scalable and distributive 
hydrocarbon refineries.
    Researchers have already engaged growers, ethanol producers, and 
implement companies to work with the research center to test and grow 
feedstocks and produce and assess the resulting ethanol. Test plots to 
determine soil characteristics and long-term sustainability have been 
established.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. An amount of $188,000 per year was appropriated for 
fiscal years 2009 and 2010. A total of $376,000 has been appropriated.
    The research is being conducted by Purdue University at regional 
Purdue Agricultural Centers and at Purdue University's Water Quality 
Field Station.
    Evaluation of this project is conducted yearly based on annual 
progress reports and discussions with the principle investigators over 
the course of the year. This project is making progress in accordance 
with the mission of the National Institute of Food and Agriculture.

                    MIDWEST POULTRY CONSORTIUM, IOWA

    The objective of the grant is to conduct poultry research based on 
current and projected needs of the poultry system in the Midwest.
    The Midwest Poultry Consortium priorities for the poultry industry 
in the Midwest are improving efficiency and sustainability of poultry 
production through integrated, collaborative research and technology 
transfer. This project has focused on identifying biomarkers for 
beneficial traits, mechanisms of muscle growth, and practices to reduce 
malodorous compounds; as well as developed new vaccines and food 
products. It has also developed new regional collaborative approaches 
in research and technology transfer involving land-grant and other 
universities, the Federal Government, and the private sector on 
priority areas of local needs and problems of regional/national scope.
    Research projects supported by this grant began in fiscal year 2002 
with an appropriation of $400,000. This was followed in fiscal year 
2003 with $695,450; in fiscal year 2004, $626,283; in fiscal year 2005, 
$682,496; in fiscal year 2006, $675,180; in fiscal year 2007, $0; in 
fiscal year 2008, $502,458; and in fiscal years 2009 and 2010, $471,000 
per year. The total amount appropriated is $4,523,867.
    Research is conducted by member States of the Midwest Poultry 
Consortium Research, which are: Colorado, Illinois, Indiana, Iowa, 
Kansas, Michigan, Minnesota, Missouri, Nebraska, North Dakota, Ohio, 
South Dakota, and Wisconsin. Experts in other States collaborate on 
projects.
    The progress under each project is reported yearly and found to be 
satisfactory. An annual merit review of projects is provided by staff.

                       MILK SAFETY, PENNSYLVANIA

    The objective of this grant is to improve the safety of pasteurized 
fluid milk, addressing critical control points from pre-pasteurization 
contamination of milk from the distribution system to the consumer.
    Researchers have gathered preliminary data that uses a general 
approach to identify single nucleotide polymorphisms which may lead to 
a rapid, cost effective method of differentiating E. coli O157:H7 
strains. A bioreporter-based diagnostic test for detection of organic 
toxicants such as benzene, toluene, ethylbenzene, trichloroethylene, 
and xylene directly from milk and milk products was developed. The 
molecular beacon-based real-time Polymerase Chain Reaction assays for 
detection of foodborne pathogens, including Campylobacter jejuni, 
Escherichia coli O157:H7, Listeria monocytogenes, Salmonella, 
Staphylococcus aureus, and bioterrorism agent Bacillus anthracis, were 
developed.
    Grants have been awarded for milk consumption and milk safety from 
funds appropriated as follows: fiscal years 1986-1989, $285,000 per 
year; fiscal year 1990, $281,000; fiscal year 1991, $283,000; fiscal 
year 1992, $284,000; fiscal year 1993, $184,000; fiscal years 1994-
1998, $268,000 per year; fiscal year 1999, $250,000; fiscal year 2000 
$297,500; fiscal year 2001, $374,175; fiscal year 2002, $600,000; 
fiscal year 2003 $745,125; fiscal year 2004, $667,041; fiscal year 
2005, $703,328; fiscal year 2006, $780,120; fiscal year 2007, $0; 
fiscal year 2008, $586,863; fiscal year 2009, $771,000; and fiscal year 
2010, $821,000. A total of $10,108,152 has been appropriated.
    This research is conducted at the Pennsylvania State University, 
State College, Pennsylvania.
    This project was evaluated in April 2009 by NIFA staff using 
Current Research Information System reports and the submitted proposal. 
This review by staff concluded that the Pennsylvania State University 
faculty and facilities are adequate for the successful completion of 
this project.

                         MINOR USE ANIMAL DRUGS

    The objective of this grant is to facilitate the registration 
process for therapeutic compounds in minor food and fiber animal 
species. This cooperative effort between State, Federal and industry 
personnel will obtain minor and specialty animal drug clearances i.e. 
tolerances, exemptions, and registrations. The activities will include 
determining and prioritizing minor use needs and data requirements, 
reviews, analyzes and evaluations of minor use research proposals; 
developing and assembling data for minor use drug registrations; and 
preparing and submitting petitions for drug registrations.
    Currently, data generated through this project has led to improved 
animal health and welfare due to new applications of drugs for minor 
species that are made available. This project will facilitate the safe 
and efficacious use of drugs to improve the health and welfare of minor 
animal species and facilitate use of drugs for minor uses in major 
animal species.
    Fiscal year 2009 is the first year that funds were appropriated for 
this grant. However, this grant was previously funded starting in 
fiscal year 1982 through fiscal year 2006 with appropriations totaling 
$10,803,443. The fiscal years 2009 and 2010 appropriations are $429,000 
per year for appropriations totaling $858,000.
    The work is being carried out at Cornell University, the University 
of Florida, the University of California--Davis, and Iowa State 
University.
    The fiscal year 2009 proposal was institutionally peer-reviewed at 
Cornell University, the University of Florida, the University of 
California--Davis, and Iowa State University. In addition, a NIFA 
National Program Leader reviewed the proposal and determined that the 
research project was appropriate and addresses important opportunities 
for better understanding of the need to obtain minor and specialty 
animal drug clearances. Furthermore, the feasibility, budget, time-
frame, and facilities for the project were adequate. The National 
Program Leader noted that these ongoing research projects outline a 
program which builds upon established resources and responds to 
national research need for data on safe and effective drugs, such as 
are available for cattle, swine, and poultry.

                      MOLLUSCAN SHELLFISH, OREGON

    The objectives of this grant are to establish a repository for 
molluscan shellfish germplasm, to establish breeding programs for 
commercial production of molluscan shellfish, and to establish a 
resource center for industry researchers and other interested parties 
in the United States and abroad.
    The program has developed improved strains of oysters which have 
been evaluated by industry collaborators in Alaska, Washington, Oregon, 
and California. Several commercial oyster hatcheries have used the 
breeding program's broodstock to produce billions of spat for the west 
coast oyster industry and foreign markets. A repository has been 
established to conserve genetic materials from oyster lines with a 
redundant, second repository to protect the selected lines of oysters 
developed by this program and is co-administered and funded in 
partnership with industry collaborators.
    The work supported by this grant began in fiscal year 1995 with an 
appropriation of $250,000; in fiscal year 1996, $300,000; in fiscal 
years 1997-2000, $400,000 per year; in fiscal year 2001, $399,120; in 
fiscal year 2002, $391,000; in fiscal year 2003, $392,433; in fiscal 
year 2004, $350,917; in fiscal year 2005, $348,192; in fiscal year 
2006, $361,350; in fiscal year 2007, $0; in fiscal year 2008, $269,103; 
and in fiscal years 2009 and 2010, $253,000 per year. A total of 
$5,168,115 has been appropriated.
    The work is being conducted by Oregon State University at their 
Hatfield Marine Science Center located in Newport, Oregon, in 
cooperation with commercial shellfish producers in California, Oregon, 
Washington, and Alaska.
    The agency's National Aquaculture Program staff review the project 
annually as the proposals are submitted to the agency with details of 
planned research studies. The proposed research is consistent with the 
National Aquaculture Research and Development Strategic Plan. The 
Agency conducted a post-award management workshop in December 2009 that 
included reporting of progress and accomplishments with a focus on 
quality, performance, and relevancy.

                    MULTI-COMMODITY RESEARCH, OREGON

    The objective of this grant is to provide agricultural market 
research and analysis to support Pacific Northwest producers and 
agribusinesses and to identify potential value-added markets and 
product opportunities in the Pacific Rim countries.
    A couple examples of current work includes:
    Marketing and Trade Economics.--The reinstatement of State 
slaughter and processing inspection programs could provide new 
opportunities for processing facilities and livestock producers in 
terms of value-added meat products and sales. For these and other 
reasons, ongoing work and surveys are being undertaken to assess 
interest in a State-Federal meat inspection program in Oregon and 
Washington.
    Value-added Product Development.--A number of value-added projects 
were initiated over the past year, including product development 
activities, ingredient formulation, and shelf-life studies. There have 
been several ongoing laser technology projects to explore the benefits 
of laser scoring on fruits to increase infusion of high fructose corn 
syrup (HFCS) to produce a shelf stable product. An example is work on 
blueberries where laser scoring followed by HFCS infusion provided a 
superior quality dehydrated product. However, preliminary test results 
of laser-scored frozen raspberries showed that laser scoring does not 
significantly improve the infusion rate, the dehydration rate, or the 
weight loss of the laser-scored raspberries compared to control 
raspberries. This is probably due to the more delicate skin of the 
raspberries compared to the harder outer core of blueberries.
    The work supported by this grant began in fiscal year 1993. The 
appropriations amount to the following: fiscal year 1993, $300,000; 
fiscal year 1994, $282,000; fiscal years 1995-2000, $364,000 each year; 
fiscal year 2001, $363,199; fiscal year 2002, $356,000; fiscal year 
2003, $397,400; fiscal year 2004, $354,894; fiscal year 2005, $353,152; 
fiscal year 2006, $349,470; fiscal year 2007, $0; fiscal year 2008, 
$260,166; and fiscal years 2009 and 2010, $244,000 per year. In total, 
this research project has received $5,688,281.
    The work is being carried out at Oregon State University in 
Corvallis, and at the Food Innovation Center in Portland, Oregon.
    NIFA conducted a merit review of the project in May 2001, as it 
evaluated the proposal submitted that year. This project was also 
assessed in 2005 in preparation for an external review of agricultural 
markets and trade as a portion of the Office of Management and Budget 
Performance Assessment Rating Tool. Furthermore, reports have been 
submitted to the Current Research Information System to reflect 
accomplishments for 2006, 2007, and 2008. Additionally, progress 
reports are being monitored for satisfactory accomplishments and 
timelines.

NATIONAL BEEF CATTLE GENETIC EVALUATION CONSORTIUM, COLORADO, GEORGIA, 
                              AND NEW YORK

    The objective of this grant is to develop and implement improved 
methodologies and technologies for genetic evaluation of beef cattle to 
maximize the impact genetic programs have on the economic viability, 
international competitiveness, and sustainability of United States beef 
cattle producers, and to provide consumers with affordable and healthy 
beef products, and to develop one national system for the genetic 
evaluation for all breeds of beef cattle.
    An outcome of this project is that producers will be able to alter 
nutrient composition of beef--for example, fatty acid composition, iron 
content, and others--through selection, which will enhance its 
nutritional value, thus improving human health. To achieve this 
outcome, Iowa State University researchers will determine nutrient 
composition of beef samples and evaluate any influence these nutrient 
components have on tenderness/sensory characteristics. For adaptation, 
researchers are developing phenotypic--reproduction and stayability--
and Deoxyribonucleic Acid resources on populations of cattle at large 
ranches located around the United States. Stayability will be defined 
as the probability a female stays in the herd through three 
pregnancies. Cattle health is an important component to profitability. 
Over 2 years, 1,600 calves from a single large ranch will be owned by 
and fed at a cooperating feedlot. Data on incidence of disease, 
behavior, such as flight speed and chute behavior, and growth and 
carcass traits as well as Deoxyribonucleic Acid samples will be 
collected by Colorado State University. It is anticipated that 80 
percent of the calves will be identified back to their sire through 
Deoxyribonucleic Acid parentage testing. Whole genome scans will be 
done on the sick calves and a representative sample of those identified 
as not being sick in the feedlot growing phase of the study. The 
National Beef Cattle Genetic Evaluation Consortium is involved in 
producer education through workshops and symposium and train-the-
trainer educational events.
    The work supported by this grant began in fiscal year 2001. The 
appropriation for fiscal year 2001 was $284,373; for fiscal year 2002, 
$343,000; for fiscal year 2003, $667,632; for fiscal year 2004, 
$671,018; for fiscal year 2005, $779,712; for fiscal year 2006, 
$871,200; for fiscal year 2007, $0; for fiscal year 2008, $655,380; for 
fiscal year 2009, $615,000; and for fiscal year 2010, $655,000. The 
total amount appropriated is $5,542,315.
    Research is conducted at the three universities involved in the 
consortium: Colorado State University, Cornell University, and 
University of Georgia and three affiliates--Iowa State University, 
Kansas State University and University of Kentucky--which are 
collaborating in enhancing the national genetic evaluation system that 
producers widely use for making genetic improvements in their beef 
herds. Additionally, they collaborate with United States beef cattle 
breed associations and many purebred and commercial beef cattle 
operations in the United States.
    The proposal was peer-reviewed at the university prior to 
submission. A merit review was conducted by the agency prior to 
funding. The NIFA National Program Leader meets on a yearly basis with 
the project director and co-project directors to discuss and evaluate 
progress. It is concluded that this project is making progress.

          NATIONAL CENTER FOR SOYBEAN BIOTECHNOLOGY, MISSOURI

    The objective of this grant is to integrate basic and applied 
research to develop superior soybean cultivars that will help U.S. 
farmers maintain global competitiveness.
    Researchers on have used the technique of fluorescence in-situ 
hybridization to create a karoytype of all soybean chromosomes. It has 
been difficult for researchers to map the physical locations of genes 
onto soybean chromosomes because soybean chromosomes are small, and all 
about the same size and shape. The new karyotype makes it possible for 
researchers to distinguish each distinct pair of soybean chromosomes. 
The results of this research were presented at an international 
conference in 2009 and will be submitted for publication in 2010. Using 
the new information from the karyotype, researchers have already 
detected a chromosome translocation in wild soybeans that is not 
present in domestic soybeans. This finding is of significance to 
soybean breeders who are working with wild soybeans to broaden the 
narrow genetic diversity of cultivated soybeans. It will help to 
predict and work around the loss of fertility that is often a barrier 
in crosses between wild and cultivated soybeans. Researchers are using 
information from the newly available soybean genome sequence to 
identify genetic markers for important, hard-to-select soybean traits. 
This year, they have identified quantitative trait loci, a type of 
linked genome markers, for Asian soybean rust and for soybean cyst 
nematode. They are particularly excited about the nematode resistance 
gene because it appears to be a different gene from the nematode 
resistance presently used in soybean breeding throughout the United 
States. The availability of different resistance genes will help 
protect this valuable crop.
    The work supported by this grant began in fiscal year 2004. The 
appropriation for fiscal year 2004 was $894,690; for fiscal year 2005, 
$940,416; for fiscal year 2006, $977,130; for fiscal year 2007, $0; for 
fiscal year 2008, $734,820; and for fiscal years 2009 and 2010, 
$690,000 per year. A total of $4,927,056 has been appropriated.
    Research is conducted at the University of Missouri at Colombia.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission.

          NEMATODE RESISTANCE GENETIC ENGINEERING, NEW MEXICO

    The objective of this grant is to provide an alternative approach 
for the control of plant parasitic nematodes and insects through the 
use of molecular biology to transfer pesticide resistance to plants.
    Previous accomplishments include enhancing the genetic expression 
of natural pesticides, development of genetic constructs with improved 
effectiveness, adaptation of genetic promoters for specific crop 
plants, and molecular characterization of targeting sequences. Recent 
work has focused on development of engineered nematode resistance, 
development of molecular tools for rapid and highly accurate pest 
detection, and development of resistance genes to viral plant 
pathogens. Continuing work includes: cloning of a collagenase gene for 
nematode resistance from the model nematode C. elegans and creating 
transgenic plants that express this novel collagenase; development of 
transgenic plants that express novel Bt toxins which have shown promise 
as nematode resistance genes; development of molecular identification 
technology for rapid high accuracy identification of pests. Results of 
this research have been used to differentiate endemic and exotic 
species of fire ants, differentiate specific strains of alfalfa weevil 
which are morphologically indistinguishable but have different 
behaviors in the field, identify the occurrence of Pierce's disease, a 
highly important disease of grapes, in New Mexico, and for the 
continued development of genes that confer broad spectrum resistance to 
multiple plant viruses. During the coming year, researchers will focus 
on developing additional sequences that can be used to distinguish 
these and other hard to differentiate Meloidogyne species. This assay 
will be valuable for rapid identification of nematodes in the field, 
especially for Meloidogyne spp. that cannot be identified beyond the 
genus level using morphological characteristics of juveniles.
    The work supported by this grant began in fiscal year 1991, and the 
following amounts have been appropriated: in fiscal years 1991-1993, 
$150,000 per year; in fiscal year 1994, $141,000; in fiscal years 1995-
2000, $127,000 per year; in fiscal year 2001, $126,721; in fiscal year 
2002, $147,000; in fiscal year 2003, $146,045; in fiscal year 2004, 
$130,227; in fiscal year 2005, $138,880; in fiscal year 2006, $137,610; 
in fiscal year 2007, $0; in fiscal year 2008, $223,425; and in fiscal 
years 2009 and 2010, $209,000. A total of $2,820,908 has been 
appropriated.
    Research is being conducted at New Mexico State University and at 
collaborating universities in the region.
    Project proposals are subjected to peer review at the submitting 
institution and merit review by senior agency technical staff.

                   NEVADA ARID RANGELANDS INITIATIVE

    The objectives of this grant are: (1) healthy rangelands for 
multiple uses; (2) improved campus-based range management education 
programs; (3) healthy economies at the ranch, community, and county 
level; and (4) public land decisionmaking models that value and support 
public inputs.
    The project initiated a mini-grant program that is stakeholder-
driven, integrated with Cooperative Extension as well as Federal and 
State agencies, and peer and stakeholder reviewed to address critical 
issues for the multiple uses of the Nevada arid rangelands and support 
for rural economies. Considerable progress has been made in invasive 
weed management, fuel load reduction, fire management and restoration 
of Great Basin rangelands; assessment of pinyon-juniper expansion; 
restoration of sagebrush, woodland, and riparian ecosystems; rangeland 
management/wildlife interactions including sage grouse and pygmy rabbit 
habitats, persistence of native plant species, disease transfer between 
bighorn and domestic sheep; the production of water efficient 
alternative crops such as native seed; and policies that affect the 
sustainability of agriculture and rural economies.
    The work supported by this grant began in fiscal year 2000, and the 
appropriation for fiscal year 2000 was $255,000; fiscal year 2001, 
$299,340; fiscal year 2002, $400,000; fiscal year 2003, $521,588; 
fiscal year 2004, $467,227; fiscal year 2005, $480,128; fiscal year 
2006, $498,960; fiscal year 2007, $0; fiscal year 2008, $365,424; 
fiscal year 2009, $376,000; and for fiscal year 2010, $500,000. A total 
of $4,163,667 has been appropriated.
    Research is conducted at the University of Nevada Main Station 
Field Lab in Reno; the Gund Range Research Ranch outside of Austin in 
Eureka County, Nevada; Bureau of Land Management allotments near Elko 
and Winnemucca; and at selected ranches and other often remote offsite 
locations. Part of the project helps to fund student exchange with 
Turkmenistan.
    NIFA expects to conducts a site visit in 2010. The institution 
conducts a mini-grant program that sends the proposals out for peer and 
stakeholder review and provides funding for the highest quality 
relevant projects that address the most critical issues facing their 
stakeholders. They instituted an annual review process where the 
project investigators provide a written and oral presentation regarding 
the progress the project is making toward obtaining its goals and plans 
for continuation. The NIFA National Program Leader for Rangeland and 
Grassland Ecosystems is in close contact with the project director and 
several of the mini-grant project directors for this research.

                         NEW CENTURY FARM, IOWA

    An objective of this grant is to improve the cost-effectiveness of 
producing biofuels, bioenergy, industrial chemicals, and biobased 
products from corn and soybeans, and alternative cellulosic feedstocks 
such as corn grain fiber, corn cobs, corn stover, switch grass, and 
other sources of biomass. Another objective is to develop microbial co-
products that are desired by the monogastric (swine and poultry) and 
ruminant livestock feed industry.
    Progress to date has demonstrated opportunities to improve the 
energy and water balances in dry-grind ethanol plants and to produce a 
high-protein feed product for non-ruminants by cultivating the fungal 
organism Rhizopus microsporus on excess thin stillage. The fungi remove 
waste products from yeast fermentation. Waste products include 
glycerol, lactic, and acetic acids. Their removal resulted in the 
ability to recycle recovered water and enzymes. This greatly reduced 
energy input into the ethanol process by avoiding the need for 
evaporating thin stillage. A provisional patent has been filed for five 
strategies to recover corn germ, during or after fermentation to 
improve ethanol yield, recover edible oil, and improve quality of 
ethanol feed coproducts. Laboratory-scale work has shown that 
oleaginous yeast grows well and accumulates oil when cultivated on 
glycerol, a byproduct of biodiesel production; therefore, the glycerol 
byproduct serves as a feedstock for biodiesel.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $223,425; $282,000 in fiscal year 
2009; and $350,000 in fiscal year 2010. A total of $855,425 has been 
appropriated.
    The research is conducted at Iowa State University.
    A report of progress in fiscal year 2009 has been evaluated, and it 
has been determined that progress is being made.

                    NEW CROP OPPORTUNITIES, KENTUCKY

    The objective of this grant is to develop, demonstrate, and assist 
in the adoption of more profitable production and marketing systems for 
horticultural crops and specialty grains.
    Accomplishments include the establishment of a Web site to provide 
information to farmers and extension agents about the Center's 
research, and to provide information on additional crops. The Web site 
now includes profiles of 123 crops with production, marketing, and 
budget information to help farmers determine if a particular crop is 
right for them. The Web site also offers links to decision aids 
available through the University of Kentucky's Department of 
Agricultural Economics, crop budgets, and price reports from farmers 
markets and produce auctions around the State. Kentucky's farmers 
markets have grown steadily for the past 5 years, and growers 
throughout the State use the New Crops price reports as guidelines for 
pricing their produce and value-added products. The State's farmer's 
market vendors totaled more than 2,000 in 2009. Training sessions have 
been offered around the State to help extension agents learn how to aid 
farmers in their counties who want to try new crops. Sweet sorghum 
research led to the release of the male-sterile hybrid KN Morris. In 
2009, more than 1,000 pounds of KN Morris seed was sold. This indicates 
that more than 300 acres and over 100 producers are growing the 
variety. A recent budget for sweet sorghum estimated that net profits 
of more than $2,500 per acre are possible. In addition, the sweet 
sorghum improvement project has produced and distributed seed of 
several varieties for which there is a demand for small quantities 
worldwide, primarily for ethanol research. Breeding triple-null soybean 
cultivars was among the original New Crops research projects in 2000. 
In 2009, the Kentucky Agricultural Experiment Station Seed Commodity 
Committee approved the release of KY04-ns-309, a soybean with a black 
seed coat and yellow cotyledons that is a triple seed lipoxygenase 
null. Evaluation of flax and chia as potential new crops for Kentucky 
began in 2006. A patent is being pursued for development of early 
flowering chia (Salvia hispanica) varieties. Research has included 
projects on improved production techniques that will benefit organic 
vegetable, fruit and grain farmers, and a training session on organic 
production and irrigation was offered to extension agents in 2009. 
Research has also included projects on conventional produce, as well as 
floriculture and nursery crops. Flowering dogwood research has saved 
producers $3,250 per acre. Eight years ago, the value of all 
horticulture cash receipts in Kentucky was $78.6 million. Kentucky's 
vegetables, fruit, nursery and greenhouse industries have grown 
steadily, and current industry sales trends point toward 2009 gross 
sales of approximately $115 to $120 million.
    The work supported by this grant began in fiscal year 2000, and the 
appropriation for fiscal year 2000 was $595,000; for fiscal year 2001, 
$723,405; for fiscal year 2002, $735,000; for fiscal year 2003, 
$737,177; for fiscal year 2004, $659,088; for fiscal year 2005, 
$724,160; for fiscal year 2006, $752,400; for fiscal year 2007, $0; for 
fiscal year 2008, $559,059; and for fiscal years 2009 and 2010, 
$525,000 per year. The total amount appropriated is $6,535,289.
    The work is being conducted at the University of Kentucky, its 
research centers in Eastern and Western Kentucky, at arboreta and 
botanical gardens, and on cooperating farms across the State.
    A peer review of the proposal has been conducted by the submitting 
institution. Additionally, senior agency technical staff conducted a 
critical review of the proposal prior to awarding the grant. Based on 
the peer review, the agency's review, and the grantee progress reports, 
the project has been successful in meeting its objectives of developing 
and assisting in the adoption of more profitable production and 
marketing systems for horticultural crops and specialty grains.

     NEW SATELLITE AND COMPUTER-BASED TECHNOLOGY FOR AGRICULTURE, 
                              MISSISSIPPI

    The objective of this grant is to evaluate site-specific 
technologies and develop recommendations for management decisions 
related to fertilization, pest control, and other cultural practices 
for agricultural crop production in the mid-South.
    Yield monitors and variable-rate fertilizer applications have been 
evaluated, both operationally and economically, and are being 
commercially adopted by farmers. Research projects have resulted in new 
decision support systems and have led to new agricultural production 
systems that are being marketed by small businesses. Thirteen invention 
disclosures, and an equal number of patent applications, are in process 
at the institution.
    The work supported by this grant began in fiscal year 1997 under 
the former project title Advanced Spatial Technologies with an 
appropriation of $350,000; for fiscal year 1998, $600,000; for fiscal 
years 1999-2000, $1,000,000 per year; for fiscal year 2001, $997,800; 
for fiscal year 2002, $978,000; for fiscal year 2003, $982,572; for 
fiscal year 2004, $879,778; for fiscal year 2005, $935,456; for fiscal 
year 2006, $926,640; and for fiscal year 2007, $0. In fiscal year 2008, 
$697,086 was appropriated under the current project title New Satellite 
and Computer-Based Technology for Agriculture; and in fiscal years 2009 
and 2010, $654,000 per year. The total amount appropriated is 
$10,655,332.
    The research is being conducted on various Mississippi Agricultural 
Experiment Station facilities and farmer fields around the State.
    The project is subject to a thorough institutional peer review 
during preparation of the grant proposal. In addition, individual 
experiments comprising the project are subject to a year-end assessment 
of progress by project staff. Submitted proposals undergo merit review 
by one or more agency scientists. A comprehensive review by a panel of 
outside experts was conducted following the 2001 crop season. This 
review provided suggestions to strengthen and sharpen the focus 
beginning with the 2002 fiscal year, including establishment of an 
advisory board. A strategic planning effort to identify priorities and 
improve management was initiated and now guides the focus of current 
work. To better delineate initiation-completion cycles for individual 
experiments, beginning in fiscal year 2007, individual experiments have 
been reviewed and funded in total at initiation, rather than allocating 
continuation funding on an annual basis.

              OIL RESOURCES FROM DESERT PLANTS, NEW MEXICO

    The objectives of this grant are to examine the expression patterns 
of 12 putative wax synthases in the wild plant of the mustard genus of 
oilseeds, and to use bioinformatics approaches to identify numerous 
candidate genes for wax and oil synthesis in other species such as 
grapes, rice poplar trees, and others.
    The expression of industrial oils in plants through genetic 
engineering has proven difficult due to several characteristics of the 
oil-producing process in plants. The genes for specialty oils are 
difficult to isolate, and successful expression of desired oils 
involves complex interactions of several metabolic pathways and 
biochemical support components.
    This research began in fiscal year 1989 with a $100,000 grant under 
the Supplemental and Alternative Crops program. Grants have been 
awarded under the Special Research Grants program as follows: for 
fiscal year 1990, $148,000; for fiscal years 1991-1993, $200,000 per 
year; for fiscal year 1994, $188,000; for fiscal years 1995-1996, 
$169,000 per year; for fiscal years 1997-2000, $175,000 per year; for 
fiscal year 2001, $174,615; for fiscal year 2002, $196,000; for fiscal 
year 2003, $223,538; for fiscal year 2004, $200,808; for fiscal year 
2005, $211,296; for fiscal year 2006, $208,890; for fiscal year 2007, 
$0; for fiscal year 2008, $186,684; and for fiscal years 2009 and 2010, 
$176,000 per year. A total of $3,827,831 has been appropriated.
    The research is being conducted by the Plant Genetic Engineering 
laboratory at New Mexico State University at Las Cruces.
    The project is evaluated by senior agency technical staff based on 
the annual progress report. A site visit was made in April 2005. 
Progress in the metabolic engineering of target organisms was 
determined to be satisfactory and meets the mission of the agency.

                        ORGANIC CROPPING, OREGON

    The objectives of this grant are to develop a fertilizer calculator 
for cover crop systems; investigate biological pest management 
strategies to encourage beneficial predator; screen onion and broccoli 
varieties for suitability in organic systems; and identify weed control 
strategies for forage systems and cereal crop systems.
    Accomplishments to date include establishing plots, collecting data 
and disseminating information on organic cereal crops, an organic 
fertilizer calculator for cover crops, vegetable variety trials, and 
beneficial ground beetle activities.
    The project began in fiscal year 2008 with an appropriation for of 
$148,950; in fiscal year 2009, $140,000; and in fiscal year 2010, 
$149,000. A total of $437,950 has been appropriated.
    The work is being carried out at Oregon State University and on 
working farms in the State.
    Fiscal year 2008 is the first year that funds were appropriated for 
this grant so NIFA has not conducted an evaluation of this project.

                      ORGANIC CROPPING, WASHINGTON

    The objective of this grant is to address multiple areas of 
interest identified by the organic industry including organic seed 
protection and production, understory management in tree and vine 
crops, organic weed control for annual crops, organic pest and nutrient 
management, and analysis of economic and marketing trends.
    Organic seed treatments were tested for their ability to control 
soil-borne diseases in vegetables, and several show promise. After 
evaluating vegetable varieties, several new varieties were released. 
Research on integrating organic grain and livestock production in 
dryland farming is being conducted on two organic farms has shown that 
after alfalfa take-out, organic grains yielded similarly to the 
conventional local average as long as the alfalfa was successfully 
taken out. Integration of organic crops with livestock was economically 
successful in 2008 both for livestock producers adding a grain 
component and for grain producers adding a livestock component. Results 
have been shared in 29 presentations at conferences and field days and 
on the Web site of Washington State University's Center for Sustaining 
Agriculture and Natural Resources. Five scientific journal articles and 
three non-refereed reports have been published. The systems, methods, 
and products evaluated by this program are used not only by certified 
organic and transitional organic farmers but also increasingly by 
conventional producers as economic, environmental, safety, and market 
pressures increase. Several of these subprojects have the potential to 
advance sustainable agriculture on a national scale. New wheat 
varieties will be developed and selected in organic systems and will be 
available to wheat growers throughout the United States. Organic 
vineyard management techniques will be relevant to growers in other 
regions of the country with similar wet growing conditions. Organic 
seed treatment results will be relevant to all growers regardless of 
location. Orchard management for nitrogen and cover crops will be 
relevant to orchard growers with similar dry growing conditions.
    The work supported by this grant began in fiscal year 2003, and the 
appropriation for fiscal year 2003 was $124,188; for fiscal year 2004, 
$223,673; for fiscal year 2005, $359,104; for fiscal year 2006, 
$355,410; for fiscal year 2007, $0; for fiscal year 2008, $264,138; for 
fiscal year 2009, $248,000; and for fiscal year 2010, $264,000. A total 
of $1,838,513 has been appropriated.
    The work is being carried out at university research farms, 
laboratories, greenhouses, and other facilities at Washington State 
University, and on the farms of cooperating growers in Washington 
State.
    Annual proposals and progress reports are reviewed by senior agency 
technical staff. The research is addressing industry needs and shows 
good stakeholder involvement and responsiveness.

                 ORGANIC WASTE UTILIZATION, NEW MEXICO

    The objective of this grant is the qualification of the effects of 
applying dairy-derived compost as a soil amendment, relating nutrient 
availability, plant growth, irrigation requirements, and heavy metal 
uptake when compared to applications of raw dairy waste.
    Compost application regarding soil fertility, plant growth, water 
retention, and salinity is on-going. The new composting technology has 
little to no investment in specialized equipment materials for the bio-
reactor process cost less than $35.00/unit, produces no odors or 
commonly associated insects problems, amenable to scaling up, reduces 
volatilization and leaching of nutrients to minimal amounts, reduces 
the composting time cycle up to 75 percent, reduces water usage by a 
factor of 6, and results in a low salinity 2-3 mS/cm\2\, nutrient rich, 
high-microbial-biodiversity compost. Standards for the use of compost 
for land reclamation are being developed in collaboration with State 
agencies.
    The work supported by this grant began in fiscal year 1996, and the 
appropriation for fiscal year 1996 was $150,000; for fiscal years 1997-
2000, $100,000 per year; for fiscal year 2001, $99,780; for fiscal year 
2002, $100,000; for fiscal year 2003, $99,350; for fiscal year 2004, 
$88,475; for fiscal year 2005, $93,248; for fiscal year 2006, $92,070; 
for fiscal year 2007, $0; for fiscal year 2008, $74,475; and for fiscal 
years 2009 and 2010, $69,000 per year. A total of $1,355,398 has been 
appropriated.
    This work is being carried out in New Mexico under the direction of 
Waste-management Education and Research Consortium: A Consortium for 
Environmental Education and Technology Development in collaboration 
with Canon Consulting. Other collaborators include the Composting 
Council, N-Viro in Ohio, Plains Electric, and McKinley Paper in New 
Mexico.
    This project has been evaluated based on the annual progress report 
and discussions with the principal investigator in the winter of 2009. 
The NIFA National Program Leader for Animal Manure Management has 
reviewed the project and determined that progress is satisfactory and 
that the research is conducted in accordance with the mission of this 
agency.

             PEACH TREE SHORT LIFE RESEARCH, SOUTH CAROLINA

    The objective of this grant is to find a long-term solution to a 
disease syndrome known as Peach Tree Short Life by development and 
testing of Guardian rootstocks. These rootstocks have been introduced 
in 22 States and their performance has been good for the most part. 
However, they report an unacceptable amount of genetic variation in 
seedlings produced by clones of the original resistant parents. The 
investigators are using molecular marker-assisted techniques to improve 
the seedling selection process. Practical field strategies for control 
of the infectious nematodes, based on non-chemical and biological 
methods are also being developed. The efficacy of a wide variety of 
fungicides with different modes of action was determined under lab 
conditions for control of Armillaria tabescens. A replicated research 
trial investigating pre-plant practices to manage Armillaria root rot 
was established on a commercial replant site near Ridge Spring, South 
Carolina.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1981, $100,000; fiscal years 1982 to 1985, $192,000 per year; 
fiscal years 1986 to 1988, $183,000 per year; fiscal year 1989, 
$192,000; fiscal year 1990, $190,000; fiscal years 1991 to 1993, 
$192,000 per year; fiscal year 1994, $180,000; fiscal years 1995 to 
2000, $162,000 per year; fiscal year 2001, $178,606; fiscal year 2002, 
$175,000; fiscal year 2003, $260,297; fiscal year 2004, $232,619; 
fiscal year 2005, $264,864; fiscal year 2006, $275,220; fiscal year 
2007, $0; fiscal year 2008, $207,537; and fiscal years 2009 and 2010, 
$195,000 per year. A total of $5,511,143 has been appropriated.
    This research is being conducted at the South Carolina Agricultural 
Experiment Station.
    The last agency evaluation of this project was a merit review 
completed in April 2005. This evaluation concluded that the evaluation 
of peach rootstocks with resistance to peach tree short life is of 
continued importance in managing this disease. Integrated management 
practices are currently being evaluated. Results with ``BY520-9'' have 
been so encouraging that a program has been implemented with commercial 
nurseries to provide peach growers this rootstock on an experimental 
basis, while testing progresses in the southeastern United States. 
Guardian Brand ``BY520-9'' is not resistant to ring nematodes, but 
peach trees on this rootstock thrive for many years in nematode-
infested soil.

                      PERENNIAL WHEAT, WASHINGTON

    The objectives of this grant are the development of perennial wheat 
lines, to test promising lines for agronomic and grain quality 
characters, and to develop a management system for their use on 
erodible land in the Pacific Northwest.
    Results indicate that there is no relationship between grain yield 
and regrowth among wheat lines exhibiting a perennial habit. The 
significance of this data is that it should be possible to develop 
perennial wheat lines that yield as much as annual wheat.
    The research began in fiscal year 2003, and the appropriation for 
fiscal year 2003 was $149,025; for fiscal year 2004, $133,209; for 
fiscal year 2005, $140,864; for fiscal year 2006, $139,590; for fiscal 
year 2007, $0; for fiscal year 2008, $104,265; and for fiscal years 
2009 and 2010, $98,000 per year. A total of $862,953 has been 
appropriated.
    This research is conducted at the Washington State University 
research farm and on fields of participating farmers.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission. A site review was conducted in 2003, which found the 
project to be well organized and managed.

                      PEST MANAGEMENT ALTERNATIVES

    The objective of this grant is the development and implementation 
of pest management alternatives when regulatory action by the 
Environmental Protection Agency, voluntary action by the registrant, or 
other circumstances results in the unavailability of certain pesticides 
or pesticide uses.
    These activities have pertained to pesticides identified for 
possible regulatory action under the Food Quality Protection Act of 
1996. Through these grants, new pest management tools and techniques 
are being developed to address critical pest problems identified by 
pest managers and other stakeholders. This program has initiated a 
process to address regional priorities established by these 
stakeholders.
    Grants have been awarded from funds appropriated as follows: fiscal 
years 1996 through 2000, $1,623,000 per year; fiscal year 2001, 
$1,619,429; fiscal year 2002, $1,619,000; fiscal year 2003, $1,608,477; 
fiscal year 2004, $1,448,404; fiscal year 2005, $1,436,416; fiscal 
years 2006 and 2007, $1,421,640 per year; fiscal year 2008, $1,412,046; 
fiscal year 2009, $1,412,000; and fiscal year 2010, $1,434,000. A total 
of $22,948,052 has been appropriated.
    All State agricultural experiment stations, all colleges and 
universities, other research institutions and organizations, Federal 
agencies, private organizations or corporations, and individuals are 
eligible to compete for this funding. This research is currently being 
carried out by State agricultural experiment stations and other 
research organizations located in several States.
    Each new request for applications and all submitted project 
proposals are evaluated annually by a regional panel for relevancy and 
a national panel for scientific merit. Reviews are held annually to 
evaluate the progress and scope of this program. The conclusions 
continue that the program is on course and making good progress. The 
projects supported by this special research grant program have 
consistently provided key knowledge needed in developing new approaches 
to pest management.

                     PHYTOPHTHORA RESEARCH, GEORGIA

    The objective of this grant is to reduce the loss of vegetable 
crops due to Phytophthora capsici, evaluating efficacy and economics of 
the following practices: Remediation of infected sites, containment of 
Phytophthora and limit spread, development and testing of new control 
measures including soil treatments, rotational crops, and testing and 
treating water sources used for irrigation.
    Information on preventive and containment measures will be 
distributed and recommendations will be demonstrated with research 
plots on grower farms. Integrated management practices are being moved 
into the farm sector and on-going monitoring techniques are being 
developed.
    The work supported by this grant began in fiscal year 2006 with an 
appropriation of $255,420; for fiscal year 2007, $0; for fiscal year 
2008, $189,663; and for fiscal years 2009 and 2010, $178,000 per year. 
A total of $633,083 has been appropriated.
    The research is being conducted at facilities operated by the 
University of Georgia College of Agricultural and Environmental 
Sciences in Tifton, Georgia.
    The project proposal will be peer reviewed at the submitting 
institution where it will be evaluated for technical quality and 
relevance to regional goals by experts with the scientific knowledge 
and technical skills to conduct the proposed research work. The 
reviewers will read and make comments that will be incorporated into 
the proposal by the project director. The agency national program staff 
with expertise in plant pathology will evaluate the submitted proposal. 
Progress reports will be submitted each year. Additional merit review 
is conducted annually by senior agency technical staff prior to making 
a funding recommendation.

                    PHYTOPHTHORA RESEARCH, MICHIGAN

    The objective of this grant is to reduce the loss of vegetable 
crops due to Phytophthora capsici by: developing new techniques to 
prevent Phytophthora contamination of irrigation sources because the 
disease can spread through water; identifying and developing 
Phytophthora-resistant varieties; developing new techniques for 
Phytophthora control, including soil additives, mulches, crop rotation 
and water management; testing fungicides, biological controls and other 
new agents that might control Phytophthora; conducting on-farm research 
trials and hands-on grower workshops; and investigating the Fraser fir 
as a host to the Phytophthora capsici that historically has only 
affected vegetable crops.
    Five surface water sites used for vegetable irrigation were 
monitored for Phytophthora in two regions of the State. Phytophthora 
was recovered from all five sites from mid-June to mid-August. Nearly 
4,000 acres of vegetable production were impacted by our findings. In 
response, six wells have been drilled and will be used as a source of 
clean irrigation water that is free of Phytophthora. Using clean 
irrigation water will protect Michigan's vegetable crops and reduce the 
spread of Phytophthorato clean fields. Research was also focused on 
developing Phytophthora-resistant varieties. The fruit of 31 cucumber 
cultigens were screened for resistance to Phytophthora. None of the 31 
cultigens exhibited complete resistance, however, six were identified 
that reduced spore production. Fruit from a variety of cucurbit crops 
was tested for age-related loss in susceptibility to Phytophthora. For 
those crops with age-associated increase in resistance, protection by 
fungicides will be most critical at the early stages of fruit 
development. Efforts was also directed toward the development of new 
techniques for Phytophthora control, including soil additives, mulches, 
crop rotation and water management. Field experiments were conducted on 
a commercial farm to test the effects of cover crops and raised plant 
beds on the management of Phytophthora. The cover crops including 
oilseed radish, brown mustard, and oriental mustard, provided some 
control of the disease but would need to be combined with other 
management tools. In some regions of the State where vegetable and 
Christmas tree production occur in the same regions, growers will need 
to be especially aware of this pathogen's ability to infect vegetables 
and Fraser fir as our current research identifies Fraser fir as a host 
of Phytophthora capsici. Resources were also focused on testing 
fungicides, biological controls and other new agents that might control 
Phytophthora. Twenty-five products, including three biopesticides, 
three reduced-risk, and five experimental fungicides, were tested alone 
and in combination in six field trials during 2006 for management of 
Phytophthora on squash, cucumber, and bell peppers with up to 75 
percent increased yield compared to controls. The original objectives 
were expanded to integrate control techniques and then to conduct on-
farm research trials and hands-on grower workshops. Fungicide and water 
management trials were conducted on commercial farms and 21 
presentations were made to growers.
    The work supported by this grant began in fiscal year 2006 with an 
appropriation of $495,000; for fiscal year 2007, $0; for fiscal year 
2008, $368,403; and for fiscal years 2009 and 2010, $346,000 per year. 
A total of $1,555,403 has been appropriated.
    The work is being conducted at Michigan State University with field 
research and demonstration plots with commercial growers in Michigan.
    The project proposal is peer reviewed at the submitting institution 
where it is evaluated for technical quality and relevance to regional 
goals by experts with the scientific knowledge and technical skills to 
conduct the proposed research work. The reviewers read and make 
comments that will be incorporated into the proposal by the project 
director. Senior agency technical staff evaluate the submitted proposal 
and also conduct merit reviews. Progress reports are submitted each 
year.

  PHYTOSENSORS FOR CROP SECURITY AND PRECISION AGRICULTURE, TENNESSEE

    The objective of this grant is to develop a biodetection system 
that can sense and report the presence of plant pathogens prior to 
symptom appearance and spread. The project will combine state-of-the-
art technologies in biotechnology and photonics to produce crop plants 
that can be used as early warning sentinels for the detection of plant 
diseases.
    Current research has focused on developing this biodetection 
system, showing proof-of-concept, and initiated preliminary studies of 
the biodetection system. Research work is underway to reach this goal. 
In 2009, the proposed work has resulted in seven publications with two 
additional manuscripts in preparation.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant with an amount of $700,000; and for fiscal year 2010, 
$1,000,000. A total of $1,700,000 has been appropriated.
    The work is being carried out at the University of Tennessee at 
Knoxville.
    The agency has not evaluated this project, since fiscal year 2009 
is the first year that funds were appropriated for this research.

                      PIERCE'S DISEASE, CALIFORNIA

    The objective of this grant is to control Pierce's Disease, through 
the development of resistant grape clones, supplemented with integrated 
management methods.
    Recent research has revealed both conventional and transgenic 
approaches to creating grapevines with resistance to the causative 
agent. Other research is exploring new and conventional methods to 
controlling the sharpshooter vectors. Other supported research has 
identified proteins contributing to the pathogenicity and virulence of 
the causative agent.
    The work supported by this grant began in fiscal year 2001, and the 
amount appropriated was $1,895,820; in fiscal year 2002, $1,960,000; in 
fiscal year 2003, $2,235,375; in fiscal year 2004, $2,013,053; in 
fiscal year 2005, $2,071,296; in fiscal year 2006, $2,188,890; in 
fiscal year 2007, $0; in fiscal year 2008, $1,630,506; in fiscal year 
2009, $1,531,000; and in fiscal year 2010, $2,000,000. The total amount 
appropriated is $17,525,940.
    The research is being carried out by the University of California 
Division of Agriculture and Natural Resources. Funds are awarded 
competitively to scientists in California and from other universities 
in the United States with pertinent expertise in research on Pierce's 
disease.
    The agency evaluated the project in August 2009. In December 2009, 
senior agency technical staff also evaluated individual research 
projects competitively awarded in 2009. Research projects from this 
grant are addressing the research objectives for scientific advances to 
control Pierce's disease and are integrated and complementary with 
other research programs on Pierce's disease.

  POLICY ANALYSES FOR A NATIONAL SECURE AND SUSTAINABLE FOOD, FIBER, 
                   FORESTRY AND ENERGY PROGRAM, TEXAS

    The objective of this grant is to conduct quantitative policy 
analysis of food, farm, fiber, forest, and international economies. The 
model estimates the aggregate economic impacts of exogenously specified 
bio-fuel production on all endogenous variables in the model, including 
price, utilization by category, regional acreage planted and harvested, 
and production for each crop for each year simulated dynamically 
starting with historically data and simulating into the future as far 
as the 2030/31 crop year.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $148,950; in fiscal year 2009, 
$140,000; and in fiscal year 2010, $200,000. A total of $488,950 has 
been appropriated.
    The research will be conducted at Texas A&M University and Auburn 
University.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant so NIFA has not conducted an evaluation of this project. 
However, the principal investigator and the National Program Leader 
maintain regular contact.

                      POTATO CYST NEMATODE, IDAHO

    The objectives of this grant are to develop an understanding of 
potato cyst nematode reproduction, evaluate bio-fumigants to eradicate 
nematodes and cysts, and evaluate the use of microbial, fungal and 
plant bio-control approaches to reduce the level of viable cysts in the 
field.
    Thus far, reproduction research has involved developing 
informational resources on nematode production, equipping facilities 
for processing and collecting cysts, and developing protocols for 
producing new generations of cysts from field harvested nematodes. This 
project has facilitated establishing contacts with research programs in 
Scotland and Northern Ireland, leveraging the understanding of this 
pest and how to manage it as we deal with issues of global food 
security. The rearing protocol has been established and cysts are being 
produced for use in controlled studies. Isolation and identification of 
potential microbial and fungal bio-control agents of G. pallida have 
been isolated from field samples that could explain the initial low 
hatching rate of the field cysts. Eleven fungal species and four 
bacteria were isolated from the field derived G. pallida cysts, based 
on DNA sequence evaluation. These microbes may have value as biological 
control agents. Initial successes have been achieved on the cyst 
viability question. Staining techniques are being perfected, but 
initial results indicate that shorter staining periods, as little as 2 
days may be sufficient without contributing to nematode mortality due 
to the test. Extracts from Brassica juncea and Sinapsis alba seed meal 
is being evaluated as potential biofumigants to control G. pallida. 
Hatching and viability studies indicate that the extracts do affect 
nematode egg and juvenile viability, but studies on cysts will be 
conducted in 2010. Potato germplasm screening for potential resistance 
to G. pallida has been initiated in association with Agricultural 
Research Service potato breeders in Idaho and Washington. Several 
potential candidate genotypes were identified with most being products 
of interspecific crosses with wild potato relatives. A second study 
using germplasm from the National Plant Germplasm System is currently 
underway to evaluate less adapted genotypes as potential sources of 
resistance to G. pallida. The research program is providing G. pallida 
cysts and facilities for work by other G. pallida related programs. The 
research program facilitated Agricultural Research Service weed host 
studies which resulted in the identification of one nightshade species 
that could serve as an alternative host for G. pallida. The program 
supplied cysts and laboratory facilities for diffusate fractionation 
studies that resulted in the potential isolation of a fraction that 
induces a higher rate of hatching. This work could lead to the 
development of a method to induce hatching of G. pallida in the field 
without an adequate host. G. pallida cysts and DNA from J2 juveniles 
was sent to Agricultural Research Service researchers in New York for 
molecular studies of G. pallida. To facilitate eradication efforts by 
the Animal and Plant Health Inspection Service in southern Idaho, G. 
pallida cysts were supplied to serve as controls in viability studies 
for potential deregulation of fumigated G. pallida fields. One 
additional project was efficacy testing of several fumigants on G. 
pallida cysts. Field trials were conducted under controlled conditions 
and found all tested fumigants to be effective.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $372,375; and $349,000 per year in 
fiscal years 2009 and 2010. A total of $1,070,375 has been appropriated 
in the 3 years of the project.
    An evaluation of this project has not been conducted since funds 
were first appropriated and provided late in fiscal year 2008.

                    POTATO BREEDING RESEARCH PROGRAM

    The objective of this grant is to improve production and quality of 
potatoes for processing and fresh market by breeding new potato 
varieties that are high yielding, disease and insect resistant, and 
adapted to the growing conditions in their particular areas, both for 
fresh market and processing.
    Potato breeders must provide farmers with outstanding levels of 
performance in more different traits than perhaps any other crop. A 
farmer typically needs a potato variety with resistance to 6 to 10 
diseases and pests, and 3 to 5 types of tolerance to stresses such as 
drought, heat, and frost, and adaptation to sustainable and region-
specific production practices; and even more qualities for processing 
or cooking quality and tuber appearance. In the northeastern region, 
grower demand for three promising experimental varieties outstripped 
seed production capacity, and adoption of two specialty varieties by 
small-scale fresh market growers increased. An advanced variety with 
good late blight and nematode resistance is ready for use as a parent, 
to reduce use of pesticides and reduce growers' loss to pests. Area 
planted to a recent release, the heat-necrosis resistant variety Harvey 
Blackwell, increased significantly this year. The North Central region 
has a large number of novelty potatoes, over 100 selections, in 
advanced trials. In the Northwest region, three new varieties were 
released. One of these uses 10 to 25 percent less water than standard 
older varieties and is expected to replace the older varieties over 
much of the acreage. An earlier release, Alturas, requires only half 
the nitrogen of standard varieties; this variety was grown on 14,000 
acres this past year, with a total savings to producers of about $1.7 
million. A molecular marker was developed and is in use to select for 
resistance to a prevalent virus that is difficult to detect visually. 
In the Western region, about 60 percent of production acres and a 
similar percentage of certified seed acres were planted to varieties 
developed by this project.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1983, $200,000; fiscal year 1984, $400,000; fiscal year 1985, 
$600,000; fiscal years 1986 and 1987, $761,000 per year; fiscal year 
1988, $997,000; fiscal year 1989, $1,177,000; fiscal year 1990, 
$1,310,000; fiscal year 1991, $1,371,000; fiscal years 1992 and 1993, 
$1,435,000 per year; fiscal year 1994, $1,349,000; fiscal years 1995-
1998, $1,214,000 per year; fiscal years 1999 and 2000, $1,300,000 per 
year; fiscal year 2001, $1,446,810; fiscal year 2002, $1,568,000; 
fiscal year 2003, $1,573,704; fiscal year 2004, $1,408,640; fiscal year 
2005, $1,496,928; fiscal year 2006, $1,482,030; for fiscal year 2007, 
$0; for fiscal year 2008, $1,104,216; for fiscal year 2009, $1,037,000; 
and for fiscal year 2010, $1,436,000. A total of $30,369,328 has been 
appropriated.
    The work is being conducted at State agricultural experiment 
stations in Idaho, Oregon, Washington, Michigan, Wisconsin, Minnesota, 
North Dakota, New York, Maine, Pennsylvania, Virginia, North Carolina, 
Ohio, Florida, New Jersey, Colorado, Texas, and California.
    The agency publishes a request for proposals each year for this 
project. Funds are awarded after a national-level scientific peer 
review. Comments from these agency-managed reviews have resulted in 
increased collaboration among States and among stakeholder groups, and 
improved technical quality of the research.

                     PRECISION AGRICULTURE, ALABAMA

    The objective of this grant is to evaluate and demonstrate the 
utility of geospatial applications to crop and forest production in 
Alabama.
    Research has begun to develop improved relationships between 
dynamic soil processes and soil hydraulic properties; develop and 
evaluate variable-rate application technologies, e.g., fertilizer, 
pesticides; improve sub-stand-level management in forestry operations; 
and develop precision irrigation technologies. Adoption of precision 
agriculture tools and technologies has increased in Alabama, with 
demonstrated economic savings of $2 to $8 per acre for spraying 
operations. In 2009, there was a 15 percent increase in the adoption of 
subsurface drip irrigation, which provides yield benefits over rain-fed 
crops.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $445,857; and for fiscal years 2009 
and 2010, $419,000 per year. A total of $1,283,857 has been 
appropriated.
    The research will be conducted at Auburn University, on experiment 
station farms, and in producer fields in Alabama.
    The project is subject to a thorough institutional peer review 
during preparation of the grant proposal. Submitted proposals undergo 
merit review by one or more agency scientists.

                    PRECISION AGRICULTURE, KENTUCKY

    The objective of this grant is to develop and evaluate precision 
agriculture technologies and provide producers with guidelines for 
adoption. Research focuses on agricultural practices and forestry and 
natural resources.
    Mini-grants are awarded that address both economic and 
environmental issues related to soil variability and the application of 
precision technologies. To date, more than 80 research papers have been 
produced that highlight advances in nitrogen management, soil mapping, 
Global Positioning System use and performance, crop yield monitoring 
sensors and mapping, remote sensing platforms, variable-rate 
technologies, wildlife tracking, delineating field management zones, 
and economics-based decision support systems.
    The work supported by this grant began in fiscal year 1999. The 
appropriation for fiscal year 1999 was $500,000; for fiscal year 2000, 
$850,000; for fiscal year 2001, $748,350; for fiscal year 2002, 
$733,000; for fiscal year 2003, $737,177; for fiscal year 2004, 
$659,088; for fiscal year 2005, $674,560; for fiscal year 2006, 
$668,250; for fiscal year 2007, $0; for fiscal year 2008, $502,458; for 
fiscal year 2009, $471,000; and for fiscal year 2010, $671,000. A total 
of $7,214,883 has been appropriated.
    The research is conducted at the Kentucky Agriculture Experiment 
Station, University of Kentucky laboratories, and selected producer 
field locations.
    This project is composed of mini-grants within the institution, 
each of which is peer reviewed, and the combined proposal is subjected 
to the institution's project approval process. Submitted proposals 
undergo merit review by one or more agency scientists. This program has 
not been subjected to on-site review by the agency.

                     PREHARVEST FOOD SAFETY, KANSAS

    The objective of this grant is to identify means to control E. coli 
O157 at the farm level through research to develop and validate 
improved methods for the detection of E. coli O157:H7 in cattle feces 
and environmental samples, to improve the understanding of the natural 
ecology of E. coli O157 in cattle operations, and to identify and test 
on-farm intervention strategies for control of E. coli O157.
    Researchers have completed a study to determine the effects and 
interactions of distillers grain and dry-rolled corn supplementation of 
steam flaked corn-based finishing diets on fecal shedding of E. coli 
O157:H7. Their findings indicate that distillers grain, with or without 
dry-rolled corn supplementation, has no effect on fecal E. coli O157:H7 
shedding. Other research results suggest that using pre-evisceration 
carcass testing to reduce the effect of high shedders within a truck 
load of animals may be effective. The researchers have recently 
developed a multiplex Polymerase Chain Reaction (PCR) method to detect 
six major virulence genes of E. coli O157:H7, which has strengthened 
the identification protocol for isolates from fecal and food samples.
    The work supported by this grant began in fiscal year 1996 with 
appropriations through fiscal year 2000 of $212,000 per year; for 
fiscal year 2001, $211,534; for fiscal year 2002, $208,000; for fiscal 
year 2003, $206,648; for fiscal year 2004, $184,903; for fiscal year 
2005, $191,456; for fiscal year 2006, $199,980; for fiscal year 2007, 
$0; for fiscal year 2008, $150,936; $142,000 for fiscal year 2009; and 
$500,000 for fiscal year 2010. A total appropriation of $3,055,457 has 
been appropriated.
    The research is being conducted at Kansas State University, College 
of Veterinary Medicine, in the Department of Diagnostic Medicine/
Pathiobiology.
    An agency evaluation was conducted in November 2009 and the work 
was found to be progressing satisfactorily.

             PRESERVATION AND PROCESSING RESEARCH, OKLAHOMA

    The objective of the grant is to identify the major limitations for 
maintaining quality of harvested fruits, vegetables, tree nuts, herb 
and spice crops, and prescribe appropriate harvesting, handling and 
processing protocols to extend shelf life and enhance marketability for 
horticultural commodities.
    The focus has been to maintain and improve profitability of 
integrated production and postharvest handling systems to assure an 
economic market niche for Oklahoma producers and food processors. Crop 
biosensors developed earlier in this project are being commercialized 
in Oklahoma for precision agriculture applications, and efforts to 
improve precision and expand utility of new generation sensors are 
underway. A systematic approach to develop complementary cropping, 
harvesting, handling, and processing operation has resulted in 
development of improved handling systems for cucurbit, tree fruit, and 
nutraceutical crops. Non-destructive processing systems for partial oil 
reduction of tree nuts have been developed to extend shelf life and 
lower the calorie content for the raw or processed product. A new food 
drying and extraction facility started operations in Oklahoma. Systems 
for maintenance of high active ingredients in sage, pepper, and 
watermelon crops are under development to extend efforts toward 
profitable value-added extraction of foods, and expansion of marketing 
opportunities for current and potential Oklahoma horticultural crops.
    This work has been underway since 1985. Funds have been 
appropriated as follows: fiscal year 1985, $100,000; fiscal year 1986, 
$142,000; fiscal year 1987, $242,000; fiscal years 1988 and 1989, 
$267,000 per year; fiscal year 1990, $264,000; fiscal year 1991, 
$265,000; fiscal year 1992, $282,000; fiscal year 1993, $267,000; 
fiscal year 1994, $251,000; fiscal years 1995-2000, $226,000 per year; 
fiscal year 2001, $225,503; fiscal year 2002, $221,000; fiscal year 
2003, $222,544; fiscal year 2004, $199,814; fiscal year 2005, $198,400; 
fiscal year 2006, $247,500; fiscal year 2007, $0; fiscal year 2008, 
$184,698; and fiscal years 2009 and 2010, $174,000 per year. A total of 
$5,550,459 has been appropriated.
    This work is being conducted at the Oklahoma State Agricultural 
Experiment Station, in conjunction with ongoing production research at 
the Wes Watkins Agricultural Research and Extension Center and the 
South Central Agricultural Research Laboratories.
    An agency scientist conducts a merit review of the proposal 
submitted in support of the appropriation annually. Last review of the 
project was conducted on June 25, 2009. The specific researches 
progressed well and the results were satisfactory.

    PROTEIN PRODUCTION FOR RESEARCH TO COMBAT VIRUSES AND MICROBES, 
                              CONNECTICUT

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                       PROTEIN UTILIZATION, IOWA

    The objective of this grant is to utilize industrial enzymes in 
enhancing the value of soybean by creating new protein products.
    To date, microscopic observations have shown that High Pressure 
Processing was efficient in releasing oil from soybean aggregates. 
Adding methanol was equally effective, offering the potential for 
incorporating EAEP with biodiesel production. Researchers evaluated 
strategies to produce high-protein feed and determined the potential of 
the skim milk fraction as a food source. Membrane filtration produced 
protein that could be spray-dried and had greatly reduced content of 
anti-nutritional factors. Researchers discovered hydrolyzing soy sugars 
with a-galactosidase increased sweetness and decreased bitterness of 
protease-modified soy protein. Industry partners adopted this 
hydrolysis procedure in their processing plant to produce hydrolysate, 
and their potential customer, an adhesives compounder, utilized the 
product in adhesives. The hydrolysate was compatible with non-phenol 
formaldehyde resins. Polyamine-epichlorohydrin can be used in soy 
adhesive systems as the primary reactant or as a crosslinker. 
Researchers discovered that chemical treatment of EAEP proteins with a 
reducing agent improved growth parameters in broiler chicks.
    This project began in fiscal year 2001 with an appropriation of 
$189,582; $186,000 for fiscal year 2002; $422,238 for fiscal year 2003; 
$671,018 for fiscal year 2004; $804,512 in fiscal year 2005; $836,550 
in fiscal year 2006; $0 in fiscal year 2007; $623,604 in fiscal year 
2008; $586,000 in fiscal year 2009; and $600,000 in fiscal year 2010. 
The total appropriation was $4,919,504.
    Research is being conducted at Iowa State University in Ames, Iowa, 
and Genencor International in Rochester, New York.
    The last agency evaluation of the project was September 2009. Work 
toward the project objectives appeared to be adequate and progressing 
according to the projected timetable.

                  RANGELAND ECOSYSTEMS DYNAMICS, IDAHO

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $300,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

              REGIONAL BARLEY GENE MAPPING PROJECT, OREGON

    The objective of the grant is to establish a cooperative project 
from molecular genetics to breeding that will locate and use new genes 
to add value, maximize grain quality, and ensure a more productive and 
competitive barley industry.
    A multi-institutional approach has been taken, with research being 
conducted at institutions in 17 States. Experimental lines developed by 
these researchers are being grown and tested in Colorado, Idaho, 
Kansas, Minnesota, Montana, Ohio, Oregon, Washington, and Wisconsin. 
The first major accomplishment of this research was a barley linkage 
map that was the considered the best crop plant linkage map at that 
time. The map laid the foundation for breeders and statistical 
geneticists to produce the first comprehensive genomic analysis of 
agronomic and quality traits in a crop of economic importance.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1990, $153,000; fiscal year 1991, $262,000; fiscal years 1992-
1993, $412,000 per year; fiscal year 1994, $387,000; fiscal years 1995-
1998, $348,000 per year; fiscal year 1999, $400,000; fiscal year 2000, 
$425,000; fiscal year 2001, $586,706; fiscal year 2002, $760,000; 
fiscal year 2003, $755,060; fiscal year 2004, $675,988; fiscal year 
2005, $682,496; fiscal year 2006, $675,180; fiscal year 2007, $0; 
fiscal year 2008, $502,458; and fiscal years 2009 and 2010, $471,000 
per year. A total of $9,422,888 has been appropriated.
    Research is being conducted in numerous State agricultural 
experiment stations. In recent years, research has been conducted at 
experiment stations in Oregon, Colorado, Washington, Montana, Idaho, 
North Dakota, Minnesota, New York, Virginia, Oklahoma, Utah, Wisconsin, 
and California.
    Senior agency technical staff conduct a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission. The research supported by this project is competitively 
awarded by a panel formed by the National Barley Improvement Committee; 
panel members include researchers, growers and industry. Researchers 
supported by this project regularly report their results for peer 
scrutiny at the annual International Conference on the Status of Plant 
and Animal Genome Research, which is co-organized by this agency.

     REGIONALIZED IMPLICATIONS OF FARM PROGRAMS, MISSOURI AND TEXAS

    The objective of this grant is to provide the farm community, 
agribusiness groups, and public officials information about farm, 
trade, and fiscal policy implications by developing regionalized models 
that reflect farming characteristics for major production regions of 
the United States.
    Aggregate level impacts as well as those for all 102 representative 
farms were analyzed. The financial conditions of these farms over the 
next 5 to 7 years are presented in the 2009 Food and Agricultural 
Policy Research Institute (FAPRI)--United States and World Agricultural 
Outlook Baseline data.
    The work supported by this grant began in fiscal year 1990 and the 
appropriation for fiscal year 1990 was $346,000; in fiscal years 1991-
1993, $348,000 per year; $327,000 in fiscal year 1994; $294,000 per 
year in fiscal years 1995 through 2000; $293,353 in fiscal year 2001; 
$287,000 in fiscal year 2002; $317,920 in fiscal year 2003; $536,814 in 
fiscal year 2004; $759,872 in fiscal year 2005; $851,400 in fiscal year 
2006; $0 in fiscal year 2007; $633,534 in fiscal year 2008; and 
$595,000 per year in fiscal years 2009 and 2010. A total of $8,350,893 
has been appropriated.
    Research is being conducted by the Texas A&M University and the 
University of Missouri at Columbia.
    A formal evaluation of this project has not been carried out; 
however, the NIFA representative is in frequent communication with the 
principal investigator concerning policy analysis procedures and 
studies.

              RENEWABLE ENERGY AND PRODUCTS, NORTH DAKOTA

    The objectives of this grant are to: determine the potential yield 
of selected perennial grass varieties for biomass and biofuel 
production, evaluate weed control strategies for biomass crops, examine 
the impacts of corn-based ethanol production on markets and 
communities, and analyze the availability of nanofibers from crop 
residues to be used for biocomposites.
    Biomass production plots were seeded at four sites in May 2008. 
Initial yields on the dryland sites were lower than expected, but 
switchgrass yields at an irrigated site were 26 percent higher than 
projected. A total of 4 pre-emergent and 23 post-applied herbicides 
have been evaluated for efficacy on switchgrass, quackgrass, and smooth 
bromegrass. Switchgrass yield increased two-fold after glyphosate was 
applied to an old stand to control cool season grassy weeds. Of these, 
nine were chosen for further evaluation of weed control in an 
established switchgrass field. Herbicides for most effective control 
for quackgrass and smooth bromegrass were identified. Additional 
experiments included evaluating potential biomass yield from kenaf, 
sunnhemp, sorghums, and millets. Initial results found sorghum and 
kenaf have the potential to produce above 10 tons per acre of dry 
matter in one season and could be used as annual feedstocks for 
cellulosic ethanol production. Sugargbeet pulp is being used as a 
feedstock for ethanol production using yeast and E. coli K011. A 
solids-fed batch approach has shown that loadings up to 12 percent 
solids resulted in maximum yields. A pre-pilot scale pretreatment 
facility capable of processing 300 pounds of wheat straw feedstock per 
hour has been developed and is in the testing phase. Samples of 
cellulose nanofibers and of nanocomposite materials based on these 
fibers have been produced. A transportation model has been developed to 
optimize shipment of biomass from producing regions to preselected 
biofuel-producing plants in the northern plains region and ethanol from 
processing plants to blending locations. The model includes over 184 
biomass producing regions, approximately 25 predetermined processing 
plants and several blending locations. In addition, the model contains 
several feedstock storage areas where biomass is converted into pellets 
for shipments. An empirical model has been developed to determine the 
optimal number, location, and size of cellulose ethanol plant. The 
optimal number of plants was determined to be 10 in North Dakota with 
an optimal size of production capacity of 110 million gallons.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $744,750; $939,000 in fiscal year 
2009; and $1,000,000 in fiscal year 2010. A total of $2,683,750 has 
been appropriated.
    The research is conducted at North Dakota State University, and the 
nanofiber research is conducted in collaboration with Michigan State 
University and Michigan Biotechnology Institute.
    Fiscal year 2008 is the first year that funds were appropriated for 
this grant. The report of progress for fiscal year 2009 has been 
evaluated, and progress is being made.

                        RICE AGRONOMY, MISSOURI

    The objective of this grant is to increase yield and quality of 
rice, reduce the cost of production, and protect the environment in the 
rice producing area in the upper Mississippi River Delta Region.
    The research has found that growing rice with pivot irrigation 
required a higher level of management for irrigation, fertilizer, and 
weed control than conventional flood irrigated rice. Possible 
advantages to the system are the ability to grow rice in fields 
unsuitable for flooding. This type of rice production may have a 
positive impact on air quality because of reduced methane emissions and 
help conserve energy. Rice production without flooding has the 
potential to reduce methane gas production. By reducing irrigation 
water use with center pivot systems compared to flooding less 
electricity was consumed for pumping. Additionally, the research has 
yielded particularly useful information about the efficacy and 
environmental impact new pest control systems, sustainable irrigation 
and fertilization practices, and the systematic interplay between new 
practices. Results were communicated to growers and rice industry 
officials through electronic media, as well as the Delta Research 
Center field day in September 2009.
    The work supported by this grant began in fiscal year 2003, and the 
appropriation for fiscal year 2003 was $198,700; fiscal year 2004, 
$177,944; fiscal year 2005, $212,288; fiscal year 2006, $247,500; 
fiscal year 2007, $0; fiscal year 2008, $184,698; and fiscal years 2009 
and 2010, $174,000 per year. A total of $1,369,130 has been 
appropriated.
    The work is conducted at the University of Missouri's Delta 
Research Center in Portageville.
    The annual proposals were peer reviewed at the institution and by 
senior agency technical staff. An onsite review is planned for 2011.

  RUMINANT NUTRITION CONSORTIUM, MONTANA, NORTH DAKOTA, SOUTH DAKOTA, 
                                WYOMING

    The objective of this grant is to enhance economic development in 
the four-State area of Montana, North Dakota, South Dakota, and Wyoming 
by strengthening and capturing value from the ruminant livestock 
industry.
    To date, five 15 large research trials have been initiated. 
Extensive collaborations have been established among researchers, 
making all of these projects multi-investigator and multi-
institutional. While the progress reports for these projects are not 
yet available, excellent research outcomes are expected from all five 
projects.
    This grant began in fiscal year 2002 with an appropriation of 
$400,000. In fiscal year 2003, the appropriation was $447,075; in 
fiscal year 2004, $447,345; in fiscal year 2005, $470,208; in fiscal 
year 2006, $489,060; in fiscal year 2007, $0; in fiscal year 2008, 
$465,717; and in fiscal years 2009 and 2010, $563,000 per year. A total 
of $3,845,405 has been appropriated to support this project.
    This work is being carried out at South Dakota State University, 
North Dakota State University, Montana State University, the University 
of Nebraska, and the University of Wyoming.
    This project was last reviewed by agency National Program Leaders 
in 2008. The results of the evaluation revealed that the research is 
timely, well-designed, and addresses issues of local, regional, and 
national importance.

         RURAL POLICIES INSTITUTE, NEBRASKA, IOWA, AND MISSOURI

    The objective of the grant is to create a new model for providing 
timely, unbiased estimates of the impacts of policies and new policy 
initiatives on rural people and places. That model was developed. 
Policy analysis research and dissemination activities expanded in 
response to emerging issues in rural America. Rural Policies Institute 
(RUPRI) facilitates panels of researchers who collaborate on topical 
areas and form the fabric of its research capacity.
    In fiscal year 2009, RUPRI expanded its capacity to provide support 
to Federal programs and initiatives including developing regional 
approaches to rural development, economic targeting analysis, and 
collaborations across agencies to enhance rural innovation, nutrition 
and wellness, and food systems analysis. It continued the interactive 
mapping application that allows USDA to visualize investments in 
relation to economic, social, and demographic indicators. It expanded 
its capacity to conduct policy analyses in emerging rural development 
issues, including broadband deployment and adoption, implications of 
climate change and energy independence, and the urban-rural 
interdependence import for policy framing. It joined discussions about 
the collaboration between philanthropy and government in rural and 
regional development and begun research on wealth creation in rural 
America. With the Aspen Institute, it convened meetings around food 
systems, ecosystem services, and alternative energy. It continued its 
communications and outreach efforts, working with State capitols, 
public interest groups, trade associations, foundations, nonprofit 
intermediaries, and higher education.
    The work supported by these grants began in fiscal year 1991 with 
an appropriation of $375,000; fiscal year 1992, $525,000; fiscal year 
1993, $692,000; fiscal year 1994, $494,000; fiscal years 1995-2000, 
$644,000 each year; fiscal year 2001, $822,000; fiscal year 2002, 
$1,040,000; fiscal year 2003, $1,261,745; fiscal year 2004, $1,129,298; 
fiscal year 2005, $1,205,280; fiscal year 2006, $1,192,950; fiscal year 
2007, $0; fiscal year 2008, $888,735; fiscal year 2009, $835,000; and 
fiscal year 2010, $889,000. A total of $15,214,008 has been 
appropriated.
    The Institute's member universities are: the University of 
Missouri--Columbia; the University of Nebraska--Lincoln; and Iowa State 
University, Ames.
    NIFA performed an external review of the Social Science Unit at the 
University of Missouri--Columbia in fall 2002, and this included a 
review of RUPRI. Since 2005 there has been an ongoing process of 
strategic review and priority setting. This has resulted in a set of 
programmatic and organizational objectives approved by the RUPRI Board 
of Directors in 2008. The National Advisory Board provides analysis of 
directions, priorities, and outcomes.
    rural renewable energy research and education center, wisconsin
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                     RUSSIAN WHEAT APHID, COLORADO

    The objectives of the grant are the: (1) discovery of new crop 
genes that provide resistance to the Russian wheat aphid and rapid 
incorporation into wheat varieties; (2) identification and 
characterization of wheat genes involved in the defensive response to 
the Russian wheat aphid; (3) determination of mechanisms of Russian 
wheat aphid toxicity; (4) establishment of a program for rapid 
assessment of wheat quality characteristics using near-infrared 
reflectance spectroscopy; (5) development of methods to identify 
valuable wheat quality factors in a rapid manner; (6) location and 
characterization of the genetic factors controlling drought tolerance 
and end-use quality in two mapping populations; and (7) evaluation of 
promising lines of wheat for stress tolerance using field, greenhouse 
and growth chamber screening techniques.
    Progress is being made using the techniques of molecular genetics 
to reach the goal of identifying new genes for resistance to Russian 
wheat aphid and incorporating them into commercially acceptable wheat 
varieties. Specific accomplishments during the past year included 
development of experimental lines that combined resistance to the C-
biotype-two with acceptable agronomic performance, and suitable end-
use. One or more of these lines will be developed for seed increase and 
further testing in the 2011 State dryland variety trials. Gene 
silencing results from the past year indicate that the tested genes 
that were highly expressed in resistant plants are both involved in 
host plant response to Russian wheat aphid. Manipulation of the gene 
that was highly expressed in susceptible plants may provide a means to 
develop broad spectrum resistance to Russian wheat aphid. Results from 
the water use efficiency studies suggest that some of the selected 
synthetic wheat lines may be a useful source of additional variation 
for developing drought resistant wheat cultivars.
    The work supported by this grant began in fiscal year 1998, and the 
appropriation for fiscal years 1998-2000 was $200,000 per year; for 
fiscal year 2001, $249,450; for fiscal year 2002, $320,000; for fiscal 
year 2003, $317,920; for fiscal year 2004, $284,313; for fiscal year 
2005, $289,664; for fiscal year 2006, $302,940; for fiscal year 2007, 
$0; for fiscal year 2008, $228,390; for fiscal year 1990, $214,000; and 
for fiscal year 2010, $250,000. A total of $3,056,677 has been 
appropriated.
    Research is conducted on the campus of Colorado State University, 
at Colorado State University research stations, and in a collaborator's 
laboratory at Kansas State University and on the farms of cooperators 
throughout Colorado. Outreach and extension activities are shared with 
scientists and wheat growers in Colorado, Nebraska, Wyoming, Kansas, 
New Mexico, Texas, and Oklahoma through a Western region Hatch Act 
supported multi-State research and extension project.
    This project was evaluated during a site visit by senior agency 
technical staff in February 1999; the project has been evaluated using 
annual progress reports since that time.

                     SEED TECHNOLOGY, SOUTH DAKOTA

    The objective of this grant is to develop and deliver new seed that 
will help agricultural producers enhance crop value and farm 
profitability.
    The seed technology center has been established and is providing 
training and developing seed technology and biotechnology methods 
needed to support the safe delivery of specific traits to agricultural 
producers. Traits currently available in crops include herbicide 
tolerance and insect resistance. Progress has been made on assessing 
the physiological responses of crops to stress and developing tools 
that can be used to assess the impact of stress on current genotypes. 
Research in corn has focused on improving our understanding of the 
physiological impacts of stress on corn growth and development. In rice 
and wheat, research was focused on developing a mechanistic 
understanding of seed dormancy. Findings from rice and wheat research 
will be used to reduce pre-harvest sprouting and increase seedling 
quality. Soybean research was conducted to determine if genes from wild 
soybean can be used to improve resistance to biotic and abiotic stress. 
A workshop was held to promote dialogue between producers and 
scientists concerning the importance of this research. Commodity 
representatives including those promoting corn, soybeans, and wheat 
were in attendance.
    The work supported by this grant began in fiscal year 2004, and the 
following amounts have been appropriated: in fiscal year 2004, 
$313,142; in fiscal year 2005, $354,144; in fiscal year 2006, $356,400; 
in fiscal year 2007, $0; in fiscal year 2008, $265,131; in fiscal year 
2009, $282,000; and in fiscal year 2010, $350,000. A total of 
$1,920,817 has been appropriated.
    The research is being conducted at South Dakota State University, 
Brookings, South Dakota.
    Senior agency technical staff review proposals and accomplishment 
reports to ensure technical quality and relevance to needs.

          SMALL FRUIT RESEARCH, OREGON, WASHINGTON, AND IDAHO

    The objective of this grant is to fund studies that would enhance 
the profitability and sustainability of the small fruit industry in the 
Pacific northwest through research in genetics, pest management, small 
fruit processing, production/physiology, and wine grape production.
    This grant supports research using genetic material from national 
germplasm collections and the discovery of new isolates, which expand 
these genetic holdings. Studies supported by this project use advanced 
selections in breeding programs and approaches that utilize genetic 
engineering. Another industry wide-goal of this program is to identify 
new potentially harmful virus disorders in nursery stock and eliminate 
them prior to introduction into small fruit production systems. The 
selection and development of new small fruit varieties is essential to 
maintaining the competitiveness of the United States in the world 
market and in maintaining export advantages required for our 
international balance of trade.
    The initial support for this grant was an appropriation in fiscal 
year 1991 for $125,000. The fiscal appropriation for fiscal years 1992 
and 1993 was $187,000 each year; fiscal year 1994, $235,000; fiscal 
years 1995-1998, $212,000 each year; fiscal years 1999 and 2000, 
$300,000 each year; fiscal year 2001, $324,285; fiscal year 2002, 
$392,000; fiscal year 2003, $397,400; fiscal year 2004, $354,894; 
fiscal year 2005, $421,600; fiscal year 2006, $438,570; fiscal year 
2007, $0; fiscal year 2008, $326,697; and fiscal year2 2009 and 2010, 
$307,000 per year. A total of $5,451,446 has been appropriated since 
the project was initiated in 1991.
    The research is conducted at 10 research sites across the Pacific 
Northwest, managed by Oregon State University, Washington State 
University, and the University of Idaho. Research on projects under 
this grant is also conducted at several Agricultural Research Service 
laboratories and experiment stations in the Pacific Northwest.
    Senior agency technical staff conducted an on-site review in 
December 2009. In addition, evaluation of this project is conducted 
annually based on the annual progress report and discussions with the 
principal investigator.

   SOIL-BORNE DISEASE PREVENTION IN IRRIGATED AGRICULTURE, NEW MEXICO

    The objective of this grant is to produce safe and nutritious foods 
by developing strategies for prevention of soil-borne diseases in 
irrigated agriculture. Research includes focusing on genetic 
improvement of cultivars of chile pepper, determining the race 
structure of the fungal pathogen Phytophthora capsici, and 
understanding the molecular basis of resistance and virulence.
    To date, the scientists have developed genetically improved 
cultivars and produced seeds that they continue to test for disease 
resistance. They will continue this cycle of events until the desired 
horticultural and agronomic traits needed by industry and consumers are 
acceptable. They have also developed a more reliable and rapid 
screening method to hasten the selection for disease resistance 
breeding stock. The new method allows them to screen numerous races of 
foliar blight in a single plant. Further, this method allows them to 
distinguish between resistant and susceptible plants in a 3-day period 
which is much faster than with the traditional method. They have 
distributed recombinant inbred lines of chile pepper to researchers in 
several countries including China, Peru, Brazil and India, in addition 
to several States in the United States. They continue gain further 
insight and knowledge into the host-pathogen interaction and therefore, 
are gaining a foothold on reaching their ultimate goal.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $186,684; for fiscal year 2009, 
$176,000; and for fiscal year 2010, $187,000. A total of $549,684 has 
been appropriated.
    The research is being conducted at New Mexico State University 
research facilities.
    Fiscal year 2008 was the first year that funds were appropriated. A 
new proposal, including a progress report, was submitted, reviewed and 
approved for fiscal year 2009 funding.

           SOUTHERN GREAT PLAINS DAIRY CONSORTIUM, NEW MEXICO

    The objective of this grant is to investigate the economic and 
environmental impacts of the dairy industry on local economies, air 
quality, carbon footprint, and water use in the Southern Great Plains 
region.
    The formation of multi-disciplinary, university faculty research 
teams to address identified issues has been accomplished. Work toward 
the determination of the effects of dairies on local economies--air 
quality, carbon footprint, and water use--has been implemented by the 
multi-disciplinary, university faculty research teams and is currently 
underway.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant with an amount of $235,000; and in fiscal year 2010, 
$350,000. A total of $585,000 has been appropriated.
    The work is being carried out at New Mexico State University and on 
farms in New Mexico and Texas.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant, so NIFA has not yet conducted an evaluation of this 
project.
southwest consortium for plant genetics and water resources, new mexico
    The objectives of this grant are to understand tolerance to 
biological and chemical stresses in plants and the impact of these 
stresses on susceptibility of plants to pests and pathogens and on 
symbiotic beneficial organisms. An additional objective is to develop 
and evaluate genetically transformed plants for better adaptability to 
stresses of arid and semi-arid environments and the problems of water 
use efficiency and water quality.
    Researchers have used chromosome translocation to create bread 
wheat lines that can be selected for increased root size and branching. 
Many of these selected plants have been shown to exhibit increased 
drought tolerance and higher grain yields in the greenhouse, and are 
now being moved into field trials. Several families of drought-tolerant 
alfalfa have been identified using biomass markers. They have been 
successfully field tested and are now being introduced into cultivars 
for commercial application. New insight into how plants regulate their 
stress genes, including the regulation of saline and heat stress has 
been gained in tomato and in the model plant Arabidopsis.
    The work supported by this grant began in fiscal year 1986 and has 
been provided with appropriations of the following amounts: fiscal year 
1986, $285,000; fiscal years 1987-1989, $385,000 per year; fiscal year 
1990, $380,000; fiscal years 1991-1993, $400,000 per year; fiscal year 
1994, $376,000; fiscal years 1995-2000, $338,000 per year; fiscal year 
2001, $368,188; fiscal year 2002, $392,000; fiscal year 2003, $389,452; 
fiscal year 2004, $350,917; fiscal year 2005, $372,992; fiscal year 
2006, $388,080; fiscal year 2007, $0; fiscal year 2008, $288,963; and 
fiscal years 2009 and 2010, $271,000 per year. A total of $8,516,592 
has been appropriated since fiscal year 1986.
    The research teams are formed from researchers at five 
participating southwestern institutions: New Mexico State University, 
Texas Tech University, Los Alamos National Laboratory, University of 
Arizona, and the University of California in Riverside.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission. Research funding is awarded to researchers at five 
participating institutions through a mini-grant program. Projects are 
selected for funding based on a competitive external peer review and a 
project committee review. A progress report is submitted for review by 
each funded mini grant project prior to the award of second year funds. 
An annual symposium is held for researchers to present and discuss 
results.

                    SOYBEAN CYST NEMATODE, MISSOURI

    The objective of this grant is to develop new management strategies 
for managing soybean cyst nematode including research on soybean host 
resistance and Soybean cyst nematode variability.
    Since 2003, several nematode resistant soybean lines were released, 
and many experimental lines with resistance to soybean cyst nematode 
and glyphosate herbicide have been evaluated. The pathogen has 
continued to become increasingly variable genetically and in virulence, 
increasing the need for more locally adapted high-yielding soybean 
breeding lines to develop resistant varieties with a broad spectrum of 
resistance. Over 500 new resistant soybean lines resulting from this 
program were tested in 2008 and many of these were tested again in 
2009. Two of the 120 lines screened in 2008 were identified with broad 
spectrum resistance to soybean cyst nematode and also have resistance 
to other pests of soybean, the reniform nematode, the root knot 
nematode and a fungal leaf disease called frogeye leafspot. More lines 
with similar pest resistance spectra are continuing in evaluation. 
Tolerance to glyphosate herbicide has been incorporated into some of 
these new lines which offer great promise for producers. More 
fundamental research involves the utilization of new molecular 
technologies to identify genes responsible for resistance. Genetic 
fingerprinting of soybean lines has identified several multiple genes 
for soybean cyst nematode resistance. This team has increased output of 
soybean cyst nematode resistant cultivars in recent years through use 
of marker assisted selection to screen over 15,000 soybean lines 
annually and has developed markers to better identify lines with 
resistance to race three of the nematode. As the project has developed, 
the objectives have been grouped into two priority research areas, 
soybean resistance to SCN and the variability of the pathogen. Under 
the resistance priority, the following goals as currently being 
pursued, to continue to develop breeding material, to improve the 
marker assisted selection used in the breeding programs, to expand the 
gene maps for SCN resistance, to identify new sources of SCN 
resistance, to better understand the genetics of SCN resistance, and to 
educate the public about SCN through the Cooperative Extension Service. 
The variability priority area is examining population genetics to 
better understand the pathogen and its relationship with the soybean 
plant, determine the number of virulence genes in the nematode and 
their heritability, to use molecular biology methods to differentiate 
SCN variants, and to educate the public about the variability of the 
pathogen.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1979, $150,000; fiscal years 1980-1981, $250,000 per year; fiscal 
year 1982, $240,000; fiscal years 1983-1985, $300,000 per year; fiscal 
years 1986-1989, $285,000 per year; fiscal year 1990, $281,000; fiscal 
year 1991, $330,000; fiscal years 1992-1993, $359,000; fiscal year 
1994, $337,000; fiscal years 1995-1997, $303,000 per year; fiscal year 
1998, $450,000; fiscal years 1999-2000, $475,000 per year; fiscal year 
2001, 598,680; fiscal year 2002, $686,000; fiscal year 2003, $688,496; 
fiscal year 2004, $616,342; fiscal year 2005, $702,336; fiscal year 
2006, $793,980; fiscal year 2007, $0; fiscal year 2008, $591,828; and 
fiscal years 2009 and 2010, $556,000 per year. The total amount 
appropriated to date is $12,694,662.
    This research is being conducted at the Missouri Agriculture 
Experiment Station locations and at the University of Missouri.
    The last evaluation of this project was an external review in 
September 2008. The review indicated satisfaction with processes 
followed in administering the grant and the progress made in addressing 
this insidious problem in soybean production fields.

                       SOYBEAN RESEARCH, ILLINOIS

    The objective of this grant is to use biotechnology to identify and 
create improved mechanisms of disease tolerance and resistance to 
contribute to the reduction of yield losses from plant diseases.
    In the past year, significant progress has been achieved including 
the completion of a comparative analysis of soybean defense responsive 
genes to provide a defense-specific promoter for high-throughput 
disease screens; the development of markers for a novel source of 
soybean aphid resistance; combining the primary genes conveying 
resistance to soybean cyst nematode in one soybean genotype, providing 
broad based soybean cyst nematode resistance; developing a new method 
for marker discovery that has detected between 3,500 and 15,000 
informative markers for in four tested soybean cultivars; discovering a 
physiological pathway that can be exploited for engineering soybean 
cyst nematode resistance in soybean; developing an improved serological 
test to detect soybean rust spores and developed a way to differentiate 
living and dead soybean rust spores; identifying as many as 40 new 
potential genes for resistance to soybean rust from a wild relative of 
soybean, Glycine tomentella and producing hybrids from Glycine 
tomentella and soybean that appear to be resistance to soybean rust; 
developing a novel software program, Global Food in 3D, to help policy 
makers, analysts, and students understand the changing global demand 
for protein and showed that markets for soy products from the United 
States are dramatically shifting to the fast growing Asia region.
    The work supported by this grant began in fiscal year 2002, and the 
appropriation for fiscal year 2002 was $800,000; $844,475 in fiscal 
year 2003; $755,516 in fiscal year 2004; $955,296 in fiscal year 2005; 
$1,065,240 in fiscal year 2006; $0 in fiscal year 2007; $793,407 in 
fiscal year 2008; $745,000 per year in fiscal years 2009 and 2010. The 
total amount appropriated is $6,703,934.
    The work is conducted by researchers at the Soybean Disease 
Biotechnology Center on the campus of the University of Illinois.
    Each proposal is peer reviewed by the submitting institution and 
senior agency personnel technically review the research proposal and 
provide oversight.

                       SPECIALTY CROPS, ARKANSAS

    The objective of this grant is to assist growers, producers, and 
processors in the development of profitable production systems to 
provide wholesome, safe, and nutritious specialty crops that promote 
human health.
    Identification of new value-added products and development of 
affordable processing techniques that maintain or enhance their sensory 
and nutritional characteristics can enhance the viability and 
sustainability of the small and medium-sized farms. Addressing food 
safety concerns and optimizing the health-promoting aspects of products 
are critical. The work with blueberries can serve as a template for use 
with other specialty crops. Other research has demonstrated value for 
environmentally friendly, sustainable uses of specialty crop waste.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $74,475; and fiscal year 2009, 
$164,000; and for fiscal year 2010, $175,000. A total of $413,475 has 
been appropriated.
    The research will be conducted at the University of Arkansas.
    Senior agency technical staff evaluated the research each year, and 
satisfactory progress has been made.

                        SPECIALTY CROPS, INDIANA

    The objective of this grant is to conduct research on gummy stem 
blight, a fungal disease of melons, and to expand off-season production 
of vegetable crops employing high-tunnel growth facilities.
    This research will contribute to the establishment of a specialty 
crops research, teaching, and extension program at the Southwest 
Indiana Purdue Agricultural Center. The initial phase involves 
assembling the research facilities needed to pursue the research on 
fungal diseases of melons and on off-season production of specialty 
crops.
    A wide variety of horticultural production techniques will be 
evaluated with the goal of increasing productivity and maximizing yield 
potential. The geographic and climatic conditions in southwest Indiana 
make the area ideal for fruit and vegetable production as well as for 
greenhouse production of floricultural and nursery crops. This area 
fills a production niche between crops grown in the South and those 
from colder climates to the north. A well-educated workforce and 
effective strategies to combat diseases of the principal crops are 
needed to support and expand an already significant contributor to the 
economic activity of southern Indiana; melons alone are a $34 million 
crop from the region. Because approximately 40 percent of the Nation's 
population lives within a 500-mile radius of Vincennes and Evansville, 
Indiana, same-day distribution of fresh produce and floricultural crops 
is feasible.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. An amount of $235,000 per year was appropriated for 
this grant in fiscal years 2009 and 2010. The total amount appropriated 
is $470,000.
    The work is being carried out at Purdue University.
    The proposal was subjected to peer review by the submitting 
institution. Additionally, senior agency technical staff conducted a 
critical review of the proposal prior to awarding the grant.

                STEEP-WATER QUALITY IN PACIFIC NORTHWEST

    The objectives of this grant are to: (1) determine the impact of 
farming practices and systems on soil, water, and air quality; (2) 
develop new technologies and increase efficiency of inputs which 
improve profitability of conservation farming systems; (3) assess the 
profitability of conservation systems; and (4) accelerate grower 
evaluation and adaptation of profitable conservation farm systems. 
Substantial progress has been made toward meeting the objectives.
    The work supported by this grant began in fiscal year 1991, and the 
appropriations for fiscal years 1991-1993 were $980,000 per year; in 
fiscal year 1994, $921,000; in fiscal year 1995, $829,000; in fiscal 
years 1996-2000, $500,000 per year; in fiscal year 2001, $498,900; in 
fiscal year 2002, $588,000; in fiscal year 2003, $665,645; in fiscal 
year 2004, $595,466; in fiscal year 2005, $639,840; in fiscal year 
2006, $633,600; in fiscal year 2007, $0; in fiscal year 2008, $472,668; 
and in fiscal years 2009 and 2010, $444,000 per year. A total of 
$12,172,119 has been appropriated.
    This project is hosted by Washington State University. However, the 
research activities are conducted on farmlands across Idaho, Oregon, 
and Washington with cooperation from researchers and educators at the 
University of Idaho, Oregon State University, and Washington State 
University.
    The Project Director met with the National Program Leader in the 
summer of 2009 as part of a regional water quality program review. The 
project leadership team meets every year to evaluate the overall 
project and contributing projects. Overall, the project is meeting the 
goals and remains on schedule as indicated in their plan of work. A 
comprehensive review of project accomplishments is being planned for 
2010, and an overall evaluation will be conducted in conjunction with 
that review.

                  SUSTAINABLE AGRICULTURE, CALIFORNIA

    The objective of the grant is to improve the sustainability of the 
food and agriculture system along the Central Coast of California by: 
developing economically viable strawberry and vegetable crop management 
systems that emphasize crop health, reduce environmental impacts, and 
contribute to regional biodiversity conservation; enhancing ecosystem 
health in multiple-use watersheds through innovative partnerships; 
examining ways to increase participation in the development of 
sustainable food systems; and examining social and economic factors 
affecting the development of sustainable food systems in communities.
    The work supported by this grant began in fiscal year 2000, and the 
appropriation for fiscal year 2000 was $255,000; in fiscal year 2001, 
$392,135; in fiscal year 2002, $400,000; in fiscal year 2003, $496,750; 
in fiscal year 2004, $444,363; in fiscal year 2005, $514,848; in fiscal 
year 2006, $509,850; in fiscal year 2007, $0; in fiscal year 2008, 
$380,319; and in fiscal years 2009 and 2010, $357,000 per year. The 
total appropriation is $4,107,265.
    The work is being carried out in the Monterey Bay area of 
California by the Center for Agroecology and Sustainable Food Systems 
at the University of California at Santa Cruz.
    Progress reports are submitted annually and are reviewed by the 
NIFA scientific staff. The latest review, in June 2009, found the 
procedures reasonable and recommended funding.

                   SUSTAINABLE AGRICULTURE, MICHIGAN

    The objective of the grant is the development of production ecology 
information for use in farm management decisionmaking.
    Researchers have discovered methods of compost and gypsum 
application that improve quality and yield of sweet corn, learned that 
there is a high demand for pasture-raised livestock products, and 
developed outreach programs for organic growers. They have also tested 
such soil-building techniques as cover crops and low-till weed control 
and worked with Michigan farmers to develop packaging and labeling for 
their products. Results have been summarized in a variety of research 
reports as well as a series of practical manuals for field crops, fruit 
crops, pest management, and farming systems.
    The work supported by this grant began in fiscal year 1994 with an 
appropriation of $494,000; $445,000 per year in fiscal years 1995 
through 2000; $444,021 in fiscal year 2001; $435,000 in fiscal year 
2002; $432,173 in fiscal year 2003; $386,705 in fiscal year 2004; 
$383,904 in fiscal year 2005; $380,160 in fiscal year 2006; $0 in 
fiscal year 2007; $283,005 in fiscal year 2008; and $266,000 per year 
in fiscal years 2009 and 2010 bringing total appropriations to 
$6,440,968.
    This work is being carried out at research stations and other 
locations at Michigan State University and on cooperating farms around 
the State.
    Reports are submitted annually and are reviewed by the NIFA 
scientific staff. The most recent review, in June 2009, determined that 
the procedures were thoroughly described and scientifically sound.

      SUSTAINABLE AGRICULTURE AND NATURAL RESOURCES, PENNSYLVANIA

    The objective of this grant is to assist farmers in developing 
strategies to address issues related to the production, profitability, 
and sustainability of organic and conventional production systems.
    A study is being conducted to determine if seeding rates can be 
reduced without reducing the harvest yield of grain soybeans. Studies 
will continue on commercially available products that claim to reduce 
loss of surface applied nitrogen. Investigations will continue into 
improved cover cropping in the Eastern United States.
    Sustainability of various production systems has been improved. On-
farm Soybean network is being developed for use by the farmers.
    The work supported under this grant began in fiscal year 1993. The 
appropriation for fiscal year 1993 was $100,000; $94,000 per year in 
fiscal years 1994 through 1998; $95,000 per year in fiscal years 1999 
and 2000; $99,780 in fiscal year 2001; $123,000 in fiscal year 2002; 
$149,025 in fiscal year 2003; $133,209 in fiscal year 2004; $190,464 in 
fiscal year 2005; $188,100 in fiscal year 2006; $0 in fiscal year 2007; 
$141,999 in fiscal year 2008; $133,000 in fiscal year 2009; and 
$142,000 in fiscal year 2010. A total of $2,060,577 has been 
appropriated.
    Research is being conducted by the Pennsylvania State University on 
farms throughout the State of Pennsylvania. Additional work is being 
undertaken by county-based or statewide specialists in Cooperative 
Extension, Rodale Institute, Pennsylvania Association for Sustainable 
Agriculture, Pennsylvania Certified Organic, and farmer commodity 
groups.
    Annual proposals for funding are peer reviewed for relevance and 
scientific merit. The NIFA contact is also in regular contact with the 
principal researcher at the key institution to discuss progress towards 
meeting project objectives. Agency evaluation of this project has not 
been conducted.

                    SUSTAINABLE BEEF SUPPLY, MONTANA

    The objectives of this grant are: (1) development and delivery of 
educational programs aimed at providing research-based information and 
meeting beef quality assurance standards; (2) certification of feeder 
calves that have met defined beef quality assurance management 
protocols; (3) information feedback from the feedlot and packing plant 
to the cow-calf producer showing if the feeder calves met industry 
requirements for quality, consistency, and red meat yield; (4) age and 
source certification of weaned calves for the export market such as 
Japan; (5) development and delivery of educational materials associated 
with biosecurity of the ranch to prevent disease; and (6) development 
of material for an interactive television program on Global Beef 
Production.
    Research aimed at measuring phenotypic and genetic effects of 
reducing feed intake in beef heifers and cows will be measured. 
Reducing feed intake without negatively impacting reproduction, calf 
weaning weights, and bull fertility is the main focus with measurements 
of greenhouse gas--methane, carbon dioxide and nitrous oxide--
production the secondary focus. The hypothesis is that feed intake can 
be reduced 15 percent and greenhouse gases can be reduced 17 percent 
without affecting productivity. By using county extension agents to 
assist with producer training, beef producers are educated on methods 
to reduce beef quality defects; age and source verify weaned calves; 
and subsequently improve the value of cattle and carcasses. As part of 
a regional project, carcass data collected over the past 5 years will 
be analyzed to determine if production practices have changed with 
regard to carcass quality and yield. The starting point for this 
research is accomplished by a series of hands-on courses demonstrating 
best management practices. The Montana Stockgrowers Association and 
Montana State University will provide beef quality assurance education 
throughout the State. Finally, as a component of the educational focus, 
a cooperative effort between Montana State University, Montana 
Stockgrowers Association, and Montana Grain Growers Association, the 
Montana MarketManager Web site will be implemented.
    The work supported by this grant began in fiscal year 1999. The 
appropriation for fiscal year 1999 was $500,000; for fiscal year 2000, 
$637,500; for fiscal year 2001, $742,363; for fiscal year 2002, 
$1,000,000; for fiscal year 2003, $993,500; for fiscal year 2004, 
$889,720; for fiscal year 2005, $937,440; for fiscal year 2006, 
$974,160; for fiscal year 2007, $0; for fiscal year 2008, $725,883; and 
for fiscal years 2009 and 2010, $682,000 per year. The total amount 
appropriated is $8,764,566.
    The work is a joint project that is being carried out at Montana 
State University in Bozeman and the Montana Stockgrowers Association in 
Helena. In addition, various beef cattle ranches in Montana and 
cooperating beef processing facilities are located in more than 10 
States throughout the Midwest.
    NIFA National Program Leaders evaluated this project in June 2009. 
The NIFA review found that progress has been made. The goals and 
objectives of the project are relevant to the mission of the USDA and 
NIFA.
  sustainable engineered materials from renewable resources, virginia
    The objectives of the grant are to: (1) develop a methodology and a 
database for assessing alternative forest management practices 
consistent with future demand for wood products; (2) develop 
methodology for designing, evaluating, and deploying new composite 
products based on principles of materials science; and (3) assess the 
economic viability of developing a new wood-based composite products 
and alternative forest management practices.
    In 2009, Virginia Tech's Sustainable Engineered Materials Institute 
provided a hotbed for material innovation through exploration and 
creation of new competitive biobased products and materials that can 
enter new markets, create economic recovery, and enhance U.S. 
competitiveness. One of its research efforts created a natural fiber 
that is substantially less susceptible to destruction from natural 
sources such as insects and microorganisms. Current estimates show that 
utilizing this process to create a natural durable fiber could result 
in saving U.S. homeowners over $1 billion annually in preventative and 
remedial treatments currently required to repair damage caused by 
insects and decay fungi. Engineered wood and fiber products being 
created in this research offers the opportunity for dramatic reduction 
in the need for petroleum products, less waste of our Nation's natural 
resources, superior product performance, and new economic development 
opportunities. By utilizing engineered wood and fiber products rather 
than solid wood, we could save approximately 50 percent of the U.S. 
wood resources for other uses such as biofuels and bioenergy.
    The work supported by this grant began in fiscal year 2002 with an 
appropriation of $400,000; $596,100 for fiscal year 2003; $532,838 for 
fiscal year 2004; $603,136 for fiscal year 2005; $693,000 in fiscal 
year 2006; $0 in fiscal year 2007; $516,360 in fiscal year 2008; and 
$485,000 per year in fiscal years 2009 and 2010. A total of $4,311,434 
has been appropriated.
    Research is being conducted at Virginia Tech in Blacksburg, 
Virginia.
    An evaluation on this project is planned for 2010.

 SUSTAINABLE PRODUCTION AND PROCESSING RESEARCH FOR LOWBUSH SPECIALTY 
                              CROP, MAINE

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $200,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

         SWINE AND OTHER ANIMAL WASTE TREATMENT, NORTH CAROLINA

    The objective of this grant is to establish a poultry and livestock 
air quality research and education initiative that will foster growth 
of research programs in agricultural air quality that provide the basis 
for effective outreach and educational programs, locally and 
nationally.
    A porous windbreak wall and a biofilter for the exhaust air from 
the swine facility have been constructed. Twelve environmentally 
controlled poultry chambers have been used to measure the effect of 
various manure management practices, ventilation systems, and animal 
diets on the air emissions from the chambers. The vermicomposting pilot 
unit at Lake Wheeler Research Farm revealed that this pilot system 
works comparatively better for reducing bacteria fecal coliform, 
Escherichia coli, and enterococci than two previously studied 
conventional lagoon/sprayfield systems.
    The work supported by this grant began in fiscal year 1997, and the 
appropriation for fiscal year 1997 was $215,000; for fiscal year 1998, 
$300,000; for fiscal years 1999 and 2000, $500,000 per year; for fiscal 
year 2001, $498,900; for fiscal year 2002, $489,000; for fiscal year 
2003, $491,783; for fiscal year 2004, $440,386; for fiscal year 2005, 
$466,240; for fiscal year 2006, $484,110; for fiscal year 2007, $0; for 
fiscal year 2008, $372,375; and for fiscal years 2009 and 2010, 
$349,000 per year. A total of $5,455,794 has been appropriated.
    This work is being conducted at North Carolina State University in 
Raleigh and with linkages throughout the country.
    The NIFA conducted an evaluation of the progress of this work 
during 2009. The project has made progress towards meeting the original 
goals.

     TECHNOLOGY FOR IRRIGATED VEGETABLE PRODUCTION, NORTH CAROLINA

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                     TEXAS OBESITY RESEARCH PROJECT

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

              TICK BORNE DISEASE PREVENTION, RHODE ISLAND

    The objective of this grant is to develop the predictive model 
framework and Geographic Information System tools for communicating 
changes in risk and a comprehensive community-based public health 
action plan for tick-borne disease prevention.
    Accomplishments include annual Rhode Island-wide tick surveillance 
data collection for development of a risk model for the northeastern 
States; continued progress on evaluating environmental parameters 
including direct measurement of relative humidity duration for 
refinement of a climate-based model for tick and disease risk; 
development of tools for the health information delivery and decision 
support system; enhancements to the public Internet Tick Encounter 
Resource Center; and interactive workshops with citizens of Rhode 
Island to provide practical information on reduction of risks to tick-
borne diseases.
    The work supported by this grant began in fiscal year 2003 with an 
appropriation of $99,350; for fiscal year 2004, $88,475; for fiscal 
year 2005, $142,848; for fiscal year 2006, $148,500; for fiscal year 
2007, $0; for fiscal year 2008, $297,900; and for fiscal years 2009 and 
2010, $280,000 per year. A total of $1,337,073 has been appropriated.
    The research is being performed by the University of Rhode Island 
at Kingston and at more than 61 field locations throughout the State.
    Senior agency technical staff evaluated this project in August 
2009. This year's review found the progress on the stated research 
objects is on schedule, and the research is answering the overall 
objectives of this grant.

           TILLAGE, SILVICULTURE, WASTE MANAGEMENT, LOUISIANA

    The objective of this grant is improve conservation tillage systems 
for Louisiana crops and to address manure issues from dairy and poultry 
operations, as well as reduce stream pollution from livestock and 
forestry.
    Practices to promote greater efficiency of crops within and among 
cropping systems and to reduce production costs are being incorporated 
to maintain crop productivity with fewer negative effects on the 
environment. Continued work on maintaining forest soil fertility and 
quality where pine straw is annually removed further supports poultry 
litter as superior to inorganic fertilizer. This project is serving as 
a foundation for future water quality research in other regions of the 
country. Techniques, procedures and expertise learned in the planning 
and implementation of this project will be used to guide continuing 
research on water quality and waste management in this area. A biomass 
gasifier was designed and built at Louisiana State University (LSU). A 
non-provisional patent was filed in June 2008. A larger--500 lb/hr--
gasifier unit will be constructed by an investor in early 2010. A novel 
technique of producing crude-type oil from wet dairy slurries was also 
researched. Tests in 2008 were severely impacted by flooding and winds 
of Hurricane Gustav that lowered overall yields by 30 to 50 percent, 
and require caution in interpreting recent results.
    The work began in fiscal year 1994. The appropriation for fiscal 
year 1994 was $235,000; for fiscal years 1995-2000, $212,000 per year; 
for fiscal year 2001, $211,534; for fiscal year 2002, $400,000; for 
fiscal year 2003, $422,238; for fiscal year 2004, $377,758; for fiscal 
year 2005, $424,576; for fiscal year 2006, $495,000; for fiscal year 
2007, $0; for fiscal year 2008, $368,403; for fiscal year 2009, 
$188,000; and for fiscal year 2010, $200,000. This sums to $4,594,509.
    The work is being conducted on the main campus at Louisiana State 
University and at LSU's Experiment Stations at Calhoun, Crowley, Chase, 
Winnsboro, St. Joseph, and Washington Parishes.
    An on-site review is planned for 2010.

                TRI-STATE JOINT PEANUT RESEARCH, ALABAMA

    The objective of this grant is to increase peanut yields through 
sod-based rotations and conservation tillage cropping systems by 
developing and comparing the economic and environmental benefits of 
conventional and sod-based farming systems using conservation tillage, 
quantifying the positive impact that sod-based rotations have on soil 
health, pest reduction and sustainable farm production, and identifying 
production practices that result in significant yield increases with 
decreased inputs in a sod-based rotation.
    Researchers are currently monitoring disease, insect, and nematode 
levels in different phases of the sod-based cropping system in Alabama, 
Florida and Georgia for peanuts and cotton with Bahia grass. Economic 
returns from these systems are being evaluated through the economic 
model developed for this system. Soil health factors such as 
penetrometer measurements have been taken in the field. Crop growth 
parameters and nitrate levels are being monitored in each cropping 
system to determine the value of conservation tillage and of perennial 
grasses in rotation. Economic models developed thus far through this 
research indicate that a 200 acre farm can increase its net profit from 
less than $10,000 per year under the present peanut, cotton, cotton 
rotation to over $40,000 per year with the bahiagrass rotation. A 
reduction in pesticide costs is also projected of over $6,000 on the 
farm practicing the rotation. A simple spreadsheet business model is 
now available for bahiagrass, cattle, peanuts and cotton rotation.
    The work supported by this grant began in fiscal year 2002, and the 
following amounts have been appropriated: in fiscal year 2002, 
$600,000; in fiscal year 2003, $596,100; in fiscal year 2004, $532,838; 
in fiscal year 2005, $562,464; in fiscal year 2006, $585,090; in fiscal 
year 2007, $0; in fiscal year 2008, $439,899; and in fiscal years 2009 
and 2010, $413,000 per year. A total of $4,142,691 has been 
appropriated since fiscal year 2002.
    The research is being conducted at Auburn University, the 
University of Florida, and the University of Georgia.
    Senior agency technical staff reviewed the accomplishment reports 
submitted for each fiscal year since 2004 and have determined that the 
investigators are making progress toward the achievement of their 
stated objectives for each proposal. A review of recent progress will 
be conducted upon the submission of a progress report to be included in 
a new proposal solicited for 2010.

                     TROPICAL AQUACULTURE, FLORIDA

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an appropriation of $300,000. Since this is a new 
grant, no information is available regarding the program's research 
goals and objectives.

 TROPICAL AND SUBTROPICAL RESEARCH/T STAR, FLORIDA, USVI, PUERTO RICO, 
                                AND GUAM

    The objectives of the grants are to: (1) provide research that 
maintains and enhances production of established tropical and 
subtropical agricultural products; (2) develop agricultural practices 
in the tropics and subtropics that are environmentally acceptable 
through an agro-ecosystems approach; (3) enhance the role of value-
added agriculture in tropical island ecosystems; (4) expand and 
diversify presently unexploited food and fiber products which have 
potential for commercial production in tropical and subtropical 
regions; (5) expand linkages of tropical and subtropical agriculture to 
related industries and economic sectors; (6) develop and deliver user-
friendly decision support packages to help client needs; (7) address 
invasive species issues affecting agriculture in the Pacific Basin; and 
(8) enhance the linkages of agricultural and food production and 
consumption by designing foods and intervention strategies that lead to 
healthy and productive citizens in the tropical and sub-tropical 
regions.
    Participants of T STAR program are the University of Florida, the 
University of Puerto Rico and the University of the United States 
Virgin Islands. These three institutions make up the T STAR Caribbean 
basin, while the Pacific basin is comprised of the University of Hawaii 
and the University of Guam. The Administrative group of the Caribbean 
basin includes State Agricultural Experiment Station staff from 
Florida, Puerto Rico and the Virgin Islands. The Administrative group 
of T STAR Pacific basin includes State Agricultural Experiment Station 
staff from Hawaii and Guam. The Executive Director of the Association 
of the Southern Region Agricultural Experiment Station Directors is a 
participating non-member of the T STAR Caribbean, while the Executive 
Director of the Association of the Western Region Agricultural 
Experiment Station Directors is a participating non-member of the T 
STAR Pacific basin. The Agricultural Research Service of the United 
States Department of Agriculture is also represented in each basin. 
Oversight for the T STAR program is provided by two National Program 
Leaders in the National Institute of Food and Agriculture. Along with 
funding, responsibilities for each basin are divided equally between 
the Administrative groups.
    T STAR participants also collaborate with food and agricultural 
scientists throughout the region including all Ministers of Agriculture 
in the Caribbean region, French Overseas Departments, the Dutch 
Republic and the State of Florida. These relationships are critical in 
the battle against pests and diseases that are either affecting and or 
predicted to become problematic in the region
    In Guam, funds were used to study the genetic structure of cycads, 
which are important ecologically but also as ornamentals. The work is 
being coordinated on a global scale with cooperators located from 
Thailand to New York State.
    T STAR scientists have been successfully meeting these goals over 
the life of the program. However, new and emerging issues continue to 
present new challenges, many times, on an annual or even monthly basis. 
The Administrative group, in consultation with their stakeholders, 
identifies the most pressing needs of the food and agricultural sectors 
for focusing their research efforts. For example, in the Caribbean 
basin, funds are being focused on invasive aquatic and terrestrial 
invasive pests and diseases of animals and plants. The goal is to 
reduce, eliminate and or prevent the entry of organisms, all while 
protecting and conserving the natural resources and ecosystem of the 
basin. All the funded projects address important local, regional and 
national needs, for example, the effect of climate change on the pests 
and diseases, improving meat and fish production efficiency, quality of 
foods like coffee, and invasive woody plants and their impact on the 
ecosystem.
    The operation of the Tropical and Subtropical Research program was 
transferred from the Agricultural Research Service to the agency in 
fiscal year 1983. Funds were appropriated as follows: fiscal years 1983 
and 1984, $2,980,000 per year; fiscal year 1985, $3,250,000; fiscal 
years 1986-1988, $3,091,000 per year; fiscal year 1989, $3,341,000; 
fiscal year 1990, $3,299,000; fiscal years, 1991-1993, $3,320,000 per 
year; fiscal year 1994, $3,121,000; fiscal years 1995-1996, $2,809,000 
per year; fiscal years 1997-2000, $2,724,000 per year; fiscal year 
2001, $3,853,504; fiscal year 2002, $8,000,000; fiscal year 2003, 
$8,941,500; fiscal year 2004, $8,946,900; fiscal year 2005, $9,398,208; 
for fiscal year 2006, $9,452,520; fiscal year 2007, $0; fiscal year 
2008, $7,110,873; and fiscal years 2009 and 2010, $6,677,000 per year. 
A total of $123,775,505 has been appropriated.
    Research projects submitted to the T STAR Caribbean program for 
funding undergoes a thorough peer-review process, which is then subject 
to approval by the Administrative group. The Administrative group is 
comprised of administrators from the respective institutions in each 
basin, and an Agricultural Research Service and an Executive Regional 
Research Administrator from that basin. The projects deemed worthy by 
the Administrative group are then submitted to the National Institute 
of Agriculture, which conducts its own review to determine whether 
these projects will be recommended for funding. Each Administrative 
group also meets twice per year to review the program and plan ahead 
for future endeavors. In addition, the National Program Leader for T 
STAR Caribbean is also the National Institute of Agriculture's liaison 
to the University of Florida and through this relationship, 
communicates frequently with the Administrator of the T STAR program 
regarding all related issues and progress. Success of the program is 
also tracked through annual and termination reports that are required 
by the agency. The National Program Leader is therefore able to 
determine impacts, outcomes and outputs resulting from the conduct of 
these projects.

          VIRTUAL PLANT DATABASE ENHANCEMENT PROJECT, MISSOURI

    The objective of this grant is to develop the complete database for 
plants of Central America by capturing half a million new specimen 
records, bar coding and geo-referencing the specimens for analysis, and 
providing Web access to these data for scientific and agricultural 
research.
    Since work on this project was initiated in 2004, a user-friendly 
data capture program for the project was developed and deployed. Twenty 
new data entry people were trained to interpret and enter data from 
herbarium specimens. Data from 356,287 specimens at the Missouri 
Botanical Garden and 34,367 specimens in Honduras have been added to 
TROPICOS. In 2009, the project exceeded its original estimate of geo-
referencing 500,000 specimens by over 200,000. The final total was 
718,354 specimens with new coordinates. The information gathered by the 
project was made immediately available on the Web to scientists, 
researchers, and the informed public.
    This project was begun in fiscal year 2004. In fiscal year 2004, 
$671,018 was appropriated; in fiscal year 2005, $705,312; in fiscal 
year 2006, $697,950; in fiscal year 2007, $0; in fiscal year 2008, 
$625,590; and in fiscal years 2009 and 2010, $588,000 per year. A total 
of $3,875,870 has been appropriated.
    This research is being conducted at the Missouri Botanical Garden.
    Senior agency technical staff completed a merit review of this 
project in April 2008 and concluded that the objectives of the research 
were of value and that the collaborative agreements with various 
collection owners and technology are in place. The annual proposals 
undergo an internal, institutional review prior to submission to the 
agency, where they are again reviewed for merit. Consistent, high-
quality data are being added daily to the database and made available 
to researchers world-wide. The Missouri Botanical Garden is making 
satisfactory progress.

              VIRUS-FREE WINE GRAPE CULTIVARS, WASHINGTON

    The objective of this grant is to use virus-free grape clones to 
determine the best cultivars to use in the Pacific Northwest.
    Funds have been used to establish, expand, and maintain a 
foundation block of virus-free commercial grape cultivars from 
worldwide sources. These vines have been used to evaluate growth, 
yield, cold hardiness, and fruit and wine quality of grape scions and 
rootstocks. Data on the interactions of plant diseases with 
environmental effects are also being analyzed.
    The work supported by this grant began in fiscal year 2005 with an 
appropriation of $322,400; for fiscal year 2006, $318,700; for fiscal 
year 2007, $0; for fiscal year 2008, $237,327; for fiscal year 2009, 
$223,000; and for fiscal year 2010, $260,000. A total of $1,361,427 has 
been appropriated.
    Research is being conducted at the Washington State University 
Irrigated Agriculture Research and Extension Center.
    Each year, the proposal undergoes a peer review at the recipient 
institution and a merit review is conducted by senior agency technical 
staff.

     VITICULTURE CONSORTIUM, NEW YORK, CALIFORNIA, AND PENNSYLVANIA

    The objective of this grant is to maintain or enhance the 
competitiveness of the United States viticulture and wine industry in 
the global market by doing research on: varietal responses of grapes; 
modeling of water requirements; management of diseases and insects, 
including Phyloxera; and other cultural aspects of grape production.
    Each year, researchers meet with stakeholder advisory boards to 
determine research priorities, and these priorities are incorporated 
into subsequent request for applications. To date, an effective 
competitive research program has been established and is addressing 
priorities in the eastern and western regions of the country.
    Grants have been awarded from funds appropriated as follows: fiscal 
years 1996 and 1997, $500,000 per year; fiscal year 1998, $800,000; 
fiscal years 1999 and 2000, $1,000,000 per year; fiscal year 2001, 
$1,496,000; fiscal year 2002, $1,600,000; fiscal year 2003, $1,788,300; 
fiscal year 2004, $1,599,507; fiscal year 2005, $1,835,200; fiscal year 
2006, $2,079,000; fiscal year 2007, $0; fiscal year 2008, $1,548,087; 
and fiscal years 2009 and 2010, $1,454,000 per year. A total of 
$18,654,094 has been appropriated.
    Research is conducted in as many as 12 different States in any 1 
year. Research funds are distributed through the competitive grants 
processes administered by Cornell University and the University of 
California. Each year a request for applications is distributed to all 
States in which there is a viable grape industry.
    In addition to scientific peer review of the competitive grant 
process and the relevancy review of the regional guidance committees, 
the overall process of the Viticulture Consortium underwent review and 
recommended changes in 2006. Annually, senior agency technical staff 
participates in the review process used to select research projects. 
Funded research is addressing the objectives of the grant.

                       WATER CONSERVATION, KANSAS

    The objective of this grant is to determine the feasibility of 
subsurface drip irrigation and other alternative irrigation systems in 
western Kansas to sustain irrigated corn production to support the beef 
feedlot industry.
    Primary experimental activities were the continuation of field 
studies examining the agronomic relationship of crop yield and water 
supply as affected by irrigation technology, tillage and residue 
management, nitrogen management and plant density for use in evaluating 
limited irrigation strategies.
    Differences in soil water evaporation between bare soil and residue 
treatments were 0.50 to 0.75 mm/day which for seasonal basis might be 
55 to 58 mm. The impact of this change in knowledge is that producers 
might be able to obtain much as 2.7 Mg/ha additional corn yield.
    Tests indicated that gross irrigation savings of 25 to 100 mm per 
year are realistic when weather-based irrigation scheduling is 
practiced. In addition to the conserved water resource, energy savings 
of $10 to $40/acre are possible. Economic comparison of center pivot 
sprinklers and subsurface drip irrigation (SDI) indicated that SDI can 
be more profitable than sprinklers with good corn yields and current 
crop prices provided the system can last at least 20 years.
    The work supported by this grant began in fiscal year 1993 with an 
appropriation of $94,000; $88,000 in fiscal year 1994; $79,000 per year 
in fiscal years 1995-2000; $78,826 in fiscal year 2001; $79,000 in 
fiscal year 2002; $78,487 in fiscal year 2003; $70,581 in fiscal year 
2004; $74,400 in fiscal year 2005; $73,260 in fiscal year 2006; in 
fiscal year 2007, $0; in fiscal year 2008, $74,475; in fiscal year 
2009, $69,000; and in fiscal year 2010, $500,000. The total funds 
appropriated are $1,754,029.
    The research is being conducted at Kansas State University. The 
field portion of the research is being conducted on Research Centers at 
Colby and Garden City, Kansas. Additional work is being carried out in 
the Departments of Agronomy and Agricultural Economics of Kansas State 
University in Manhattan, Kansas.
    The agency scientist met with the principal researcher in October 
2008 to discuss the project progress and accomplishments. The 
researchers continue to make accomplishments in their research and 
dissemination of findings.

      WATER USE EFFICIENCY AND WATER QUALITY ENHANCEMENTS, GEORGIA

    The objective of this grant is to develop and expedite the 
implementation of new technologies to improve water use efficiency and 
water quality at both a State and watershed scale by determining the 
environmental impact of these systems on water quality.
    Detailed information on several variable rate irrigation systems 
was collected on several Georgia farms, and water quality data on 
several sites has been collected with the goal of optimizing yield, 
water quality, and field cropping patterns with a minimum of water use. 
Research to tie the current and future controller systems to wireless 
soil moisture sensors is making good progress, using soil moisture 
sensors which transmit data through a mesh network. A second generation 
commercial system that makes the nozzle system self-powering and 
controlled though a wireless ZigBee link to the controller at the pivot 
point is now being evaluated. This second generation system simplifies 
installation and maintenance by using water pressure to close the 
Bermod valve instead of air. This eliminates the need for air 
compressors and air holding tanks on the pivot. Commercial systems, 
both first and second generation, have been installed in Georgia, 
Alabama, Florida, South Carolina, North Dakota and Alaska with over 50 
cooperating growers. These sites show an average water savings of 12 to 
16 percent coupled with equal or better production. Additional systems 
are now being installed in Nebraska for the 2010 season. Growers in 
California and Maryland are likely to order in 2010 or 2011. Work has 
also progressed on a solar powered drip irrigation system, particularly 
valuable for remote sites. Work continues to simplify the system and to 
add additional information including images and temperature and 
moisture data and also to add control signals and alerts. Soil moisture 
sampling systems, developed by the project team, use a battery powered 
watermark sensor connected to a wireless data transmission system and 
promises to be significantly cheaper than all systems now commercially 
available. Results of a dissertation funded by this project and 
increased water quality monitoring have lead to recommendations for 
riparian buffers as crucial landscape Best Management Practices for 
reducing herbicide runoff from agricultural production on Georgia's 
coastal plain. The number of test sites for the variable rate center-
pivot irrigation system was expanded to over 50 last year. The project 
is now investigating micro turbines that might be used to power the 
system with the goal of coupling the nozzle system and the micro 
turbine into a single prototype piece that will be rugged, reliable, 
accurate and reasonably priced.
    The work supported in this grant began in 2002. The appropriation 
for fiscal year 2002 was $480,000; for fiscal year 2003, $536,490; for 
fiscal year 2004, $447,345; for fiscal year 2005, $470,208; for fiscal 
year 2006, $489,060; for fiscal year 2007, $0; for fiscal year 2008, 
$368,403; and for fiscal years 2009 and 2010, $346,000 per tear. A 
total of $3,663,506 has been appropriated.
    The development research is carried out in the Tifton laboratory of 
the University of Georgia. Testing sites are in several farms in the 
area.
    The agency conducted a thorough review of the project in fiscal 
year 2002. All subsequent proposals related to this project have been 
reviewed both internally and by the agency. A second project review was 
carried out through a visit to the University of Georgia, reports, and 
telephone interviews. A visit from the research team for a review is 
tentatively scheduled for 2010. Results from this project have been 
reported annually in the USDA Current Research Information System and 
in Proceedings of the American Society of Agricultural Engineers. 
Results were also presented at a National Science Foundation workshop, 
multi-State committee meetings, and a special symposium on Emerging 
technologies for real-time integrated management at the American 
Society of Agronomy-Crop Science Society of America-Soil Science 
Society of America international annual meetings. Results of this 
project have also been reviewed through the project Web site, which can 
be found at http://www.nespal.org/vri.html. The review found that work 
has been in keeping with the project objectives, that progress is on 
schedule, and publication of results is appropriate.

                       WETLAND PLANTS, LOUISIANA

    The objective of this grant is to develop an economically feasible 
approach to controlling coastal wetlands erosion that would use 
vegetation to retain threatened areas and to rebuild lost land. To 
accomplish this, a system that incorporates agricultural principles 
involved in crop production is required. Specifically, a seed-based 
system using appropriate planting material is required, and progress 
has been rapid in developing this seed-based system.
    In 2008, the Louisiana State University AgCenter's Coastal Plants 
Program (CPP), which consists of geneticists, ecologists, and other 
scientists, developed improved restoration practices and genetically 
enhanced plant varieties of ecologically important native coastal 
plants. Cost-efficient seed-based sediment restoration was developed by 
the CPP and four smooth cordgrass and five sea oats varieties were 
developed that have superior performance in natural environments. These 
developments and findings will greatly increase the efficiency and 
success of restoration projects by providing improved planting material 
and methods that effectively stabilize restored coastal sites and 
create natural ecosystems. Louisiana's losses of 20,000 to 30,000 acres 
per year with long-term consequences on national security, energy 
production, navigation, fisheries, wildlife, and other economic and 
environmental resources will benefit from this research.
    In 2009, genetically different smooth cordgrass and sea oats 
genotypes and clones were developed and tested for performance with 
traditional plant breeding methodologies by the Louisiana State 
University Agricultural Center's Coastal Plants Program. Four clones of 
smooth cordgrass and four clones of sea oats have been identified as 
superior clones after multiple years of evaluation in natural marsh or 
beach environments. These clones will be released to the public for use 
in restoration projects in 2010.
    The work supported by this grant began in fiscal year 1999, and the 
appropriation for fiscal years 1999 and 2000 was $600,000 per year; for 
fiscal year 2001, $598,680; for fiscal year 2002, $587,000; for fiscal 
year 2003, $596,100; for fiscal year 2004, $532,838; for fiscal year 
2005, $562,464; for fiscal year 2006, $557,370; for fiscal year 2007, 
$0; for fiscal year 2008, $415,074; for fiscal year 2009, $188,000; and 
for fiscal year 2010, $200,000. A total of $5,437,526 has been 
appropriated.
    Research is being conducted at the Louisiana Agricultural 
Experiment Station at Louisiana State University.
    This project was reviewed in August 2003. It was found to be 
progressing satisfactorily relative to the achievement of its original 
goals.

                     WHEAT GENETIC RESEARCH, KANSAS

    The objective of this grant is to enhance the genetic diversity 
available to wheat breeders nationally and internationally by 
collecting, evaluating, maintaining, and distributing germplasm derived 
from wild relatives of wheat.
    The Wheat Genetics Resource Center fills requests for seed from the 
germplasm collection from wheat breeders in the United States and in 
other countries. In 2009, this project identified genetic materials for 
screening for resistance to a new and threatening wheat stem rust 
referred to as Ug-99. Five new sources of resistance were identified 
and are now being used in germplasm enhancement programs.
    Work supported by this grant began in fiscal year 1989. 
Appropriations for this project are as follows: fiscal year 1989, 
$100,000; fiscal year 1990, $99,000; fiscal year 1991, $149,000; fiscal 
years 1992-1993, $159,000 per year; fiscal year 1994, $196,000; fiscal 
years 1995-1997, 176,000 per year; fiscal years 1998-2000, $261,000 per 
year; fiscal year 2001, $260,426; fiscal year 2002, $255,000; fiscal 
year 2003, $263,278; fiscal year 2004, $235,602; fiscal year 2005, 
$244,032; fiscal year 2006, $340,560; fiscal year 2007, $0; fiscal year 
2008, $256,194; fiscal year 2009, $240,000; and fiscal year 2010, 
$1,000,000. A total of $5,268,092 has been appropriated.
    This research is being conducted at Kansas State University at the 
Wheat Genetics Resource Center. The Center also includes collaborative 
projects with other departments at Kansas State University, the 
Agricultural Research Service, and with other institutions in the 
United States.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation. 
The submitting institution conducts a peer review of the proposal prior 
to submission. The project was found to successfully address issues in 
the winter wheat industry in Kansas and other States. A senior member 
of the agency's technical staff conducted a site visit in March 2008.
        wildlife/livestock disease research partnership, wyoming
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $300,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                       WOOD UTILIZATION RESEARCH

    The objectives of the grant are to: (1) provide science that 
addresses the problems associated with harvesting, transporting, 
manufacturing, and marketing economical forest products in three 
regions, and (2) educate graduate students to be knowledgeable of wood 
as a renewable resource.
    The program has been expanded to include additional university 
research locations--total = 13 universities. These have included new 
regions of indigenous forests and specific manufacturing techniques as 
well as new research emphases as specified in the Program's 5-Year 
Strategic Plan (2006) as follows:
  --Domestic and global industrial competitiveness
  --Sustainable environmentally acceptable operations and manufacturing
  --Efficient use of renewable wood materials for the benefit of 
        Americans
    There are 13 locations. Forest products research centers at 
Michigan State University, Mississippi State University, and Oregon 
State University were the first centers supported in the program. The 
University of Minnesota--Duluth, North Carolina State University, and 
the University of Maine were added in fiscal year 1994. In 1999, two 
additional units were added: (1) a consortium made up of specific units 
at the Universities in Idaho, Montana, and Washington; and (2) the 
Forestry Department, University of Tennessee. The University of 
Alaska--Sitka was included in the program in fiscal year 2000, and West 
Virginia University was added in the program in 2004. Louisiana State 
University is the latest addition (2008).
    The three original locations have expanded the objectives of their 
research as new information became available through ongoing research 
and continued responses to the completed studies. The newer programs 
have also been continued with new research objectives; some based on 
needs from consumers for additional work. The program in Alaska is 
working with institutions and organizations in Alaska to define 
research priorities. West Virginia University concentrates on the use 
of upland hardwoods. All of the programs are working to define 
environmentally benign products made of a renewable resource and 
procedures that are economically viable.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1985, $3,000,000; fiscal years 1986-1989, $2,852,000 per year; 
fiscal year 1990, $2,816,000; fiscal years 1991 and 1992, $2,852,000 
per year; fiscal year 1993, $4,153,000; fiscal year 1994, $4,176,000; 
fiscal years 1995 and 1996, $3,758,000 per year; fiscal years 1997 and 
1998, $3,536,000 per year; fiscal years 1999 and 2000, $5,136,000 per 
year; fiscal year 2001, $5,773,271; fiscal year 2002, $5,670,000; 
fiscal year 2003, $6,129,895; fiscal year 2004, $6,069,975; fiscal year 
2005, $6,234,720; fiscal year 2006, $6,370,650; fiscal year 2007, $0; 
fiscal year 2008, $4,840,875; fiscal year 2009, $4,545,000; and fiscal 
year 2010, $4,841,000. The total amount appropriated is $106,592,386.
    Reviews are conducted when requested by a State institution. 
Reviews at Mississippi State University and Oregon State University 
were conducted in 2004. Both institutions have successfully achieved 
their set objectives. Center directors met in 1996, 1999, 2004, 2005, 
2006, 2008 and 2009. Progress reports are reviewed each year. Each 
center has its advisory group or research committee to provide 
direction and the input of stakeholders into the program.

               WOOL RESEARCH, MONTANA, TEXAS, AND WYOMING

    The objective of this grant is to improve the efficiency and 
profitability of producing and marketing wool, mohair, and cashmere. 
Objectives at the three laboratories are continually revised to reflect 
the changing research priorities for the wool, mohair, and cashmere 
industries and to satisfy consumer demands for products from these 
fibers. It is anticipated that 5 years will be required to complete the 
current research.
    Research conducted at the Texas A&M University station is examining 
and contributing to several approaches for making the United States 
animal fiber and sheep and goat meat industries more competitive and 
more profitable.
    The Montana State University station uses the Optical Fiber 
Diameter Analyzer OFDA2000 instrument to provide producers an 
opportunity to test wool inexpensively and is developing an edge for 
marketing their wool clips.
    The University of Wyoming effort supports improvement of the United 
States sheep industry through identifying and evaluating new 
technologies that enhance our abilities to objectively measure the 
physical properties of greasy wool and other animal fibers; and through 
promoting communication between research organizations, producer 
groups, both at the State and national levels, end-user groups, and 
regulatory groups.
    Grants have been awarded from appropriated funds in the amount of 
$150,000 per year for fiscal years 1984-1985; $142,000 per year for 
fiscal years 1986-1989; $144,000 for fiscal year 1990; $198,000 for 
fiscal year 1991; $250,000 per year for fiscal years 1992-1993; 
$235,000 for fiscal year 1994; $212,000 per year for fiscal years 1995-
1997; $300,000 per year for fiscal years 1998-2000; $299,340 for fiscal 
year 2001; $294,000 for fiscal year 2002; $292,089 for fiscal year 
2003; $268,407 for fiscal year 2004; $297,600 for fiscal year 2005; 
$295,020 for fiscal year 2006; $0 for fiscal year 2007; for fiscal year 
2008, $219,453; and for fiscal years 2009 and 2010, $206,000 per year. 
A total of $5,858,909 has been appropriated.
    In 2008, the principal investigators from the three universities 
met with the NIFA National Program Leader responsible for the grant 
during a multi-State committee meeting where progress and direction of 
the grant was discussed. The research encompassed in this grant is a 
component of a multi-State research project; therefore, accomplishments 
are reported annually to scientific peers and representatives from the 
sheep, goat, wool, mohair, and cashmere industries. Each multi-State 
research project is periodically peer reviewed to verify 
accomplishments and collaborative efforts among the participating 
institutions. In addition, research results are presented each year to 
the members of the American Sheep Industry Association during its 
annual convention.

               WORLD FOOD AND HEALTH INITIATIVE, ILLINOIS

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $461,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                 RESEARCH FEDERAL ADMINISTRATION GRANTS
         AG-BASED INDUSTRIAL LUBRICANTS RESEARCH PROGRAM, IOWA

    The Ag-Based Industrial Lubricants program was initiated to develop 
new non-food uses for soybean crop oil. Eighteen years of research and 
development has led to numerous patents or joint patents on soy-based 
lubricants, leading to successful commercialization of many soy-based 
grease and lubricant products. In 2007, this program transitioned to a 
Center of Excellence and became the National Agriculture-Based 
Lubricants Center. The research program continues to investigate 
improvements in biolubricants manufacturing efficiency using microwave 
energy as a replacement for traditional heating methods which cost more 
and cause oxidative break-down in vegetable oils. In addition, the 
project has conducted initial diesel engine testing to evaluate 
biolubricants in the engine crankcase--a direct result of improved 
technologies to control oxidative breakdown of vegetable oils through 
continuing research in both chemical and genetic modifications of 
vegetable oils to achieve unprecedented stability. Research continues 
to investigate nano-metals for control of bacteria which cause 
premature lubricant failure in machining equipment.
    Federal funding for this project began with a 1998 appropriation of 
$200,000. Fiscal years 1999 and 2000 appropriations were $250,000 each 
year; for fiscal year 2001, $349,230; for fiscal year 2002, $360,000; 
for fiscal year 2003, $447,075; for fiscal year 2004, $402,611; for 
fiscal year 2005, $522,784; for fiscal year 2006, $543,510; for fiscal 
year 2007, $0; for fiscal year 2008, $405,144; for fiscal year 2009, 
$380,000; and for fiscal year 2010, $405,000. A total of $4,515,434 has 
been appropriated.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

        AGRICULTURAL DEVELOPMENT IN THE AMERICAN PACIFIC, HAWAII

    The Agricultural Development in the American Pacific (ADAP) goals 
are to develop human resources and information capacity within the 
institutions, to manage more effectively, agricultural programs within 
and among the institutions, and to focus available resources on 
critical agricultural issues of the Pacific. On-going projects include 
animal health surveys, livestock waste management, artificial 
insemination demonstration and education, market production information 
tracking systems co-developed with ``State'' Departments of 
Agriculture, and Web sites that contain relevant research information 
supported by ADAP and pacific-based information.
    The ADAP Communications, Information and Publications Service 
(CIPS) project was created to coordinate and address the information 
needs of the ADAP institutions, communities and clientele on a regional 
basis. This project helped provide and made accessible appropriate 
information and materials that benefit the American Pacific region and 
encourage economic and agricultural sustainability. As a result of more 
open and immediate access to information, duplication of work in the 
region was reduced, leading to more efficient use of fiscal and human 
resources. The increased utilization of electronic communication 
capabilities greatly reduced travel costs for various meetings, 
training, and workshops.
    The American Pacific Land-grant institutions and government 
agencies want to increase their levels of trained and competent staff 
in order to enhance the institution and government services and to 
advance local agricultural development or allied fields. One way to 
help increase the number of qualified employees is to provide high 
school and college students, specifically potential future employees, 
and current government or ADAP institution employees, with the 
opportunity to compete for educational scholarships. ADAP has developed 
programs targeted at different stages of educational development.
    The work was funded for 7 years with an annual appropriation of 
$650,000 to the former Extension Service. In fiscal year 1994, an 
appropriation of $608,000 was made to NIFA to continue the ADAP 
program. In fiscal year 1995, the appropriation was $527,000; for 
fiscal years 1996 through 2000, $564,000 each year; fiscal year 2001, 
$562,759; fiscal year 2002, $552,000; fiscal year 2003, $548,412; 
fiscal year 2004, $490,091; fiscal year 2005, $486,080; fiscal year 
2006, $481,150; fiscal year 2007, $0; fiscal year 2008, $372,375; 
fiscal year 2009, $349,000; and fiscal year 2010, $400,000. The total 
appropriation is $8,196,867.
    Work is carried out at American Samoa Community College, College of 
Micronesia, College of the Marshall Islands, Palau Community College, 
College of Micronesia--Federated State of Micronesia, Northern Marianas 
College, University of Guam, and the University of Hawaii at Manoa.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

              AGRICULTURE WASTE UTILIZATION, WEST VIRGINIA

    The original goal of this project was to determine the 
applicability of anaerobic digestion to convert organic waste materials 
to energy in the form of biogas, thereby reducing the amount of organic 
matter for disposal. The subsequent goal is to manage the remaining 
solids from anaerobic digestion in an environmentally sound manner. A 
model was developed that predicts the changes of temperature in a pilot 
plant anaerobic digester. An experiment has made excellent progress 
using a molecular approach to document microbial diversity in an 
anaerobic digester. A long-term experiment was begun in 2008 to 
investigate the capacity of thermophilic anaerobic digestion to recover 
additional energy from a variety of types of waste biomass including 
agricultural residues and ethanol manufacturing wastes. Metagenomics is 
a new field that has arisen as a result of technological advancements 
to understand how a microbial community functions.
    The work supported by this grant began in fiscal year 1998, and the 
appropriation for fiscal year 1998 was $360,000; for fiscal year 1999, 
$250,000; for fiscal year 2000, $425,000; for fiscal year 2001, 
$494,909; for fiscal year 2002, $600,000; for fiscal year 2003, 
$685,515; for fiscal year 2004, $617,336; for fiscal year 2005, 
$648,768; for fiscal year 2006, $683,100; for fiscal year 2007, $0; for 
fiscal year 2008, $484,584; for fiscal year 2009, $455,000; and for 
fiscal year 2010, $500,000. A total of $6,204,212 has been 
appropriated.
    Research is conducted at West Virginia State College, Institute.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

            ANIMAL HEALTH RESEARCH AND DIAGNOSTICS, KENTUCKY

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $300,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                   ANIMAL WASTE MANAGEMENT, OKLAHOMA

    The goal of this research is to develop best management practices 
for the expanded animal industry that will protect ground water 
supplies from pollution of nutrients, salts, and pathogens; maintain 
air quality; and minimize odors derived from the swine operation to 
include: swine buildings, lagoon, land-application, soil-cropping, and/
or rangeland production system, thus maintaining the quality of life in 
the rural sector. Long-term application of swine effluent in no-till 
cropping systems resulted in increasing levels of carbon sequestration 
and nitrogen in the soil profile following 9 years of an irrigated 
corn-wheat production. Reductions in protein content in swine feed has 
resulted in significant reductions in ammonia emissions from swine 
housing. The project has produced several educational videos for use by 
swine producers in Oklahoma and in the adjoining States. These videos 
describe how producers can reduce the environmental impact of managing 
swine manure to protect soil, water, and air. These videos are 
accessible by any producer through the Oklahoma State University Web 
site.
    The work supported by this grant began in fiscal year 1998, and the 
appropriation for fiscal years 1998-2000 was $250,000 per year; for 
fiscal year 2001, $274,395; for fiscal year 2002, $320,000; for fiscal 
year 2003, $332,823; for fiscal year 2004, $298,230; for fiscal year 
2005, $295,616; for fiscal year 2006, $392,040; for fiscal year 2007, 
$0; for fiscal year 2008, $291,942; and for fiscal years 2009 and 2010, 
$274,000 per year. A total of $3,503,046 has been appropriated for this 
project.
    Some of the field work has been conducted at The Oklahoma Panhandle 
Research and Extension Center located in Goodwell, Oklahoma. Much of 
the laboratory analysis work was done at Oklahoma State University. The 
diet modification and economic impact studies were conducted at the 
swine research facility at Stillwater, Oklahoma.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

       APPLIED AGRICULTURE AND ENVIRONMENTAL RESEARCH, CALIFORNIA

    California State University scientists are studying the air quality 
requirements of particulate matter from agriculture, race horse 
muscular injuries threatening the horse racing industry, managing 
drought on high value crops like pistachios, development of an avian 
flu immunization, and reducing crop processing costs and environmental 
impacts.
    The project developed an eco-friendly lye peeling system with wide 
application in fruit and vegetable processing industries. The system 
has potential to significantly reduce fresh water use, wastewater 
discharge, and contaminant levels in wastewater. Research demonstrated 
that allowing weed growth in winter and vegetation removal in mid-
spring using cultivation, prevented vine yield reductions, reduced 
production costs, and avoided pre-emergence herbicide use. Results show 
that a series of growth implants increased physiological growth and 
carcass attributes in Holstein Steers. Completion of the development of 
an Intelligent Mechanical Tomato Transplanter has increased the 
knowledge base leading to a new awareness that computer controlled 
robotic systems can potentially be used for transplanting tomatoes and 
similar crops. Genome mapping in lettuce has led to increased shelf 
life and nutrient quality. Wine grape quality and value are improved 
through abscisic acid treatments. The use of improved water management 
allowed nut orchards to survive through long periods of drought 
conditions.
    The work for this project began in fiscal year 2006 with an 
appropriation of $990,000; for fiscal year 2007, $0; for fiscal year 
2008, $737,799; and for fiscal years 2009 and 2010, $693,000 per year. 
A total of $3,113,799 has been appropriated.
    The research is being carried out at California State at Fresno; 
the California State Polytechnic University at San Luis Obispo; 
California State University at Pomona; and California State University 
at Chico.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                           AQUACULTURE, OHIO

    The goal of the project is to establish a program in Ohio to foster 
the development of a statewide aquaculture industry. Research funded 
under the Aquaculture, Ohio program has led to: new information from 
muscle studies that will be useful in identifying gene products unique 
to enhanced muscle growth and development and will allow producers to 
develop useful breeding strategies for the production of yellow perch; 
the establishment of a marker-assisted breeding program in yellow perch 
that should improve growth rate by 15 to 20 percent per generation; 
unique protein expression patterns that were correlated with specific 
traits that can be used to examine muscle in fishes; sensory evaluation 
studies comparing wild versus farm-raised yellow perch that found that 
farm-raised yellow perch compares favorably to wild-caught perch; 
development of new pond fertilization regimes for yellow perch 
production that has led to a 30 percent increase of perch juveniles; 
establishment of XY female bluegill population that will allow for the 
development of a YY-male broodstock population. Progeny from these 
broodstock will be entirely male and are expected to grow 30 to 50 
percent faster than mixed-gender population; genetic linkage mapping 
and identified sex-specific markers that should provide the basis for 
detection of important commercial traits; and that market-sized golden 
shiners can be raised in one growing season in Ohio's temperate 
climate. Recent accomplishments include but are not limited to: 10 
improved lines of yellow perch were developed. These fish showed that 
the improved lines grew 28 percent to 54 percent faster than unimproved 
fish. Approximately 60,000 of these improved yellow perch fry and 
fingerlings were distributed to fish farmers in the State. A second 
generation of improved fish was created in 2008. Two mapping families 
have been developed and induced to produce second generation families 
for quantity trait loci mapping. About 15,000 all-male and 5,000 YY 
supermale bluegill populations, which would grow 40 to 50 percent 
faster than a mixed-gender population, have been generated for 
developing all-male broodstock. The Bowling Green Aquaculture Program 
established an algal and zooplankton culture lab and produced 50,000 
yellow perch juveniles for grow-out trials with a private cooperator. 
The aquaponics variety trials in 2008 were successful in producing 
tomatoes, peppers, leaf lettuce, cucumbers, eggplant, as well as chives 
and basil. The Bowling Green Aquaculture Program organized a Baitfish 
Grower's Alliance and provided a Baitfish Culture manual and technical 
assistance to the growers. Largemouth bass and yellow perch were 
cultured together to market size in 1 year using indoor recirculating 
systems, substantially reducing production costs and traditional grow-
out time by nine months. Methods have been developed to identify gene 
products associated with muscle growth due to genetic and nutritional 
selection and researchers have developed novel proteomic methodology 
combining electrophoretic, image, statistical, and primary protein 
sequence techniques to identify muscle proteins and enzymes associated 
with environmental impacts on muscle growth and meat quality. The 
fundamental findings from these studies demonstrate that muscle growth 
in meat animals is accomplished through the increase in those enzymes 
that are the gate keepers of the glycolytic pathway.
    The appropriation for fiscal year 2002 was $400,000; for fiscal 
year 2003, $447,075; for fiscal year 2004, $849,955; for fiscal year 
2005, $846,176; for fiscal year 2006, $891,000; for fiscal year 2007, 
$0; for fiscal year 2008, $663,324; and for fiscal years 2009 and 2010, 
$623,000 per year. A total of $5,343,530 has been appropriated.
    The research is conducted at The Ohio State University in 
collaboration with the Ohio Agricultural Research and Development 
Center, the South Centers at Piketon, and the Agricultural Technical 
Institute.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

        AQUACULTURE RESEARCH AND EDUCATION CENTER, PENNSYLVANIA

    The goal of this project is to develop a program in aquaculture 
production and processing for urban areas. Research conducted by the 
program have: found that NuPro, a commercially available feed 
ingredient, can be an effective protein supplement for salmonid feeds; 
generated new information on the use of commercially available feed 
ingredients for salmonids including a study on four organic acids 
citric, fumaric, oxalic, and gluconic. In Atlantic salmon feeding 
trials, gluconic acid may be the most promising when used as a feed 
preservative and may also contribute to enhance growth. Recent studies 
have determined: methods for culturing local freshwater mussel species 
described and refined, and several native species of fish were tested 
as hosts for the parasitic larvae of the mussels. Tilapia can 
effectively utilize phytate phosphorus with supplemental phytase being 
added to the diet. Research on organic diets for tilapia indicate that 
appropriate feeds can be created to support an organic tilapia 
aquaculture program once the final regulation from USDA for organic 
standards have been finalized.
    This project began in fiscal year 2003. The fiscal year 2003 
appropriation was $248,375; for fiscal year 2004, $221,684; for fiscal 
year 2005, $220,224; for fiscal year 2006, $217,800; for fiscal year 
2007, $0; for fiscal year 2008, $163,845; for fiscal year 2009, 
$154,000; and for fiscal year 2010, $300,000. A total of $1,371,928 has 
been appropriated.
    Cheyney University of Pennsylvania located in Cheyney, Pennsylvania 
is conducting the research.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

       BEST PRACTICES IN AGRICULTURE WASTE MANAGEMENT, CALIFORNIA

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $300,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                   BIOBASED POLYMER INITIATVE, KANSAS

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $750,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                  BIOTECHNOLOGY RESEARCH, MISSISSIPPI

    A goal of this research is to develop the capacity of Alcorn State 
University to conduct research in the area of plant biotechnology, 
train students for careers in biotechnology and biomedical sciences, 
and to utilize biotechnology techniques to improve the livelihood and 
viability of limited resource farmers in Mississippi and the Southeast. 
Another goal is to develop new sweet potato cultivars with disease 
tolerance, expanded industrial and food uses, and the potential for 
greater economic benefits for farmers. Several transgenic sweet potato 
lines have been developed with an anti-microbial peptide against 
various fungal pathogens.
    The work supported by this grant began in fiscal year 2000, and the 
following amounts have been appropriated: in fiscal year 2000, 
$425,000; in fiscal year 2001, $589,700; in fiscal year 2002, $680,000; 
in fiscal year 2003, $745,125; in fiscal year 2004, $667,041; in fiscal 
year 2005, $661,664; in fiscal year 2006, $680,130; in fiscal year 
2007, $0; in fiscal year 2008, $511,395; and in fiscal years 2009 and 
2010, $480,000 per year. The total amount appropriated is $5,920,055.
    The research is being conducted at Alcorn State University, in 
Lorman, Mississippi, and at field locations in Preston and Mound Bayou, 
Mississippi.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                   CELLULOSIC BIOMASS, SOUTH CAROLINA

    The objective of this project is to determine which plants produce 
the highest energy yield per bushel among sugarcane, sugar-beets, and 
switchgrass for the production of bio-butanol. Specific objectives 
include: (1) establishment of field station; (2) contrasting organic 
versus traditional growth methods of feedstocks; and (3) educating the 
public through workshops and multimedia presentations in an effort to 
produce certified organic crop producers for bio-butanol feedstocks. 
Researchers are establishing the testing greenhouse on newly acquired 
land. Seeds of switchgrass, sugar beets, and vegetative cuttings of 
sugarcane are being planted and germinated. Students and researchers 
are collecting pertinent data on feedstock germination, establishment, 
and development.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant. In fiscal years 2009 and 2010, $469,000 per year was 
appropriated. A total of $938,000 has been appropriated.
    The work is being carried out by researchers at Claflin University 
and on the Agricultural/Biofuel Feed Stock Research Field Station in 
Orangeburg County, South Carolina.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

          CENTER FOR AGRICULTURAL AND RURAL DEVELOPMENT, IOWA

    The objectives of this project are to assess and evaluate various 
proposals affecting agricultural trade, provide analytical support to 
the Office of the U.S. Trade Representative, and provide information to 
farmers and agribusiness firms on the competitive implications of trade 
agreements. Theoretical studies, empirical and descriptive analyses of 
policy issues and technical problems pertaining to the Uruguay round of 
negotiations were completed and provided to negotiators and the 
agribusiness community. Knowledge developed in this phase is now being 
used to monitor the effects of the Uruguay Round Agricultural Agreement 
(URA).
    This grant supports six projects focusing on URA and the World 
Trade Organization (WTO) monitoring and implementation problems; 
implications of the URA and WTO for Eastern Europe, Baltic, and the 
Newly Independent States; development of a model to assess the North 
American Free Trade Agreement and its linkages with the General 
Agreement on Tariffs and Trade; trade implications of U.S. food and 
development aid in developing countries; integration of China into 
world agricultural markets; and special projects as requested for the 
U.S. Trade Representative's office. Major emphasis is placed on 
developing and improving international livestock and grain sector 
models.
    This research program was initiated in fiscal year 1989. Grants 
have been awarded from funds appropriated as follows: fiscal year 1989, 
$750,000; fiscal years 1990 and 1991, $741,000 per year; fiscal years 
1992-1993, $750,000 per year; fiscal year 1994, $705,000; fiscal year 
1995, $612,000; fiscal year 1996, $655,000; fiscal years 1997-2000, 
$355,000 per year; fiscal year 2001, $427,058; fiscal year 2002, 
$600,000; fiscal year 2003, $670,613; fiscal year 2004, $600,436; 
fiscal year 2005, $595,200; fiscal year 2006, $589,050; fiscal year 
2007, $0; fiscal year 2008, $438,906; and for fiscal years 2009 and 
2010, $412,000 per year. A total of $11,869,263 has been appropriated.
    The research program is carried out by the Center for Agriculture 
and Rural Development at Iowa State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

               CENTER FOR FOOD INDUSTRY EXCELLENCE, TEXAS
    A goal of this research is to construct a mathematical simulation 
model based on real-world data that effectively compared E. coli 
O157:H7 and Salmonella movement through the farm-to-fork continuum in 
U.S. and Mexican beef processing plants. In addition to the development 
of the model, researchers will identify drivers of microbial failures 
within this model that could be used to critically evaluate and compare 
interventions used in the United States and Mexico to optimize their 
ability to reduce the microbial failure rate. This data will be used to 
develop training modules for producers involved in the farm-to-fork 
continuum in the United States and Mexico. Industry workshops on topics 
such as HACCP (Hazard Analysis and Critical Control Points), Listeria 
Control, Beef 706 and Beef Baccalaureate have been conducted to reach 
several targeted audiences including food processors, the media, and 
food retailers.
    The work supported by this grant began in fiscal year 2003, and the 
appropriation for fiscal year 2003 was $248,375; $221,684 in fiscal 
year 2004; $867,008 in fiscal year 2005; $1,353,330 in fiscal year 
2006; $0 in fiscal year 2007; $1,007,895 in fiscal year 2008; and 
$946,000 per year in fiscal years 2009 and 2010. The total 
appropriation was $5,590,292.
    Research is being conducted at the Center for Food Industry 
Excellence at Texas Tech University Meat Laboratory in Lubbock, Texas.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

              CENTER FOR INNOVATIVE FOOD TECHNOLOGY, OHIO

    The goal of the program is to create a program that provided 
relevant solutions to technically challenging problems as defined by 
the industry. More than 64 industry-driven projects have been completed 
to date. The Center has encouraged innovation by leveraging private 
sector funding to underwrite projects designed to assess the 
feasibility of emerging technologies in specific applications, or 
traditional non-food technologies in specific food processing 
situations. The accomplishments in this last fiscal year include an 
evaluation performed at The Ohio State University on the efficiency of 
anti-microbial coatings for processing equipment, a demonstration of 
chemical thinning technology to increase the yields of processing 
vegetables, the establishment of a program to evaluate the technical 
and economic feasibility of electron beam processing of vegetables, the 
use of silver zeolite antimicrobial packaging for food products, the 
development of gluten-free pasta, wraps, and pizza dough, and the 
potential use of an organic substance to inhibit the browning of fresh 
cut fruits and vegetables.
    The work has been supported since fiscal year 1995. The project 
received appropriations of $181,000 per year for fiscal years 1995-
1997; $281,000 for fiscal year 1998; $381,000 per year for fiscal years 
1999 and 2000; $759,326 for fiscal year 2001; $765,000 for fiscal year 
2002; $760,028 for fiscal year 2003; $1,042,811 for fiscal year 2004; 
$1,144,768 for fiscal year 2005; $1,133,550 for fiscal year 2006; $0 
for fiscal year 2007; $845,043 in fiscal year 2008; and $793,000 per 
year in fiscal years 2009 and 2010. A total of $9,622,526 has been 
appropriated.
    Research is being conducted in the laboratories of the Ohio State 
University and at various participating companies in Ohio, Wisconsin, 
Texas, Tennessee, Colorado, Indiana, California, and Michigan.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                CENTER FOR NORTH AMERICAN STUDIES, TEXAS

    The goal of this project is to promote strong agricultural ties 
among the United States, Mexico, and Canada. The project is also 
designed to help ensure the continued competitiveness of U.S. 
agriculture. Current progress is addressing the following:
  --Evaluate the trade impacts of alternative trade, macroeconomic, 
        market, and farm policies in each of the three countries.
    --Ongoing throughout the existence of the Center for North American 
            Studies (CNAS).
  --Develop cooperative research programs to investigate priority 
        issues related to growing North American trade in agricultural 
        and food products.
    --Ongoing throughout the existence of CNAS.
  --Develop training programs designed to prepare agricultural and 
        agribusiness firms for international opportunities and 
        competition.
    --Predominately performed during the spring and summer time period, 
            but also somewhat ongoing throughout the year.
  --Maintain and expand institutional linkages with internationally 
        recognized agricultural programs in Mexico, Canada, and other 
        countries important to North American agricultural trade.
    --Ongoing throughout the existence of CNAS.
    Work supported by this grant which began 1994 are as follows: 
fiscal year 1994, $94,000; fiscal year 1995, $81,000; fiscal years 
1996-2000, $87,000 each year; fiscal year 2001, $86,809; fiscal year 
2002, $200,000; fiscal year 2003, $198,700; fiscal year 2004, $894,690; 
fiscal year 2005, $992,000; fiscal year 2006, $990,000; fiscal year 
2007, $0; fiscal year 2008, $737,799; and for fiscal years 2009 and 
2010, $693,000 per year. In total, this research has received 
$6,095,998 in appropriations.
    The work is being carried out at Texas A&M University through the 
Texas Agricultural Experiment Station, and in other segments of the 
Texas A&M University System. In addition to Texas A&M University, other 
involved institutions are Texas Tech University, Louisiana State 
University Agricultural Center, and New Mexico State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

           CENTER FOR RENEWABLE TRANSPORTATION FUEL, MICHIGAN

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

          CENTERS FOR DAIRY AND BEEF EXCELLENCE, PENNSYLVANIA

    Please note that the Centers for Dairy and Beef Excellence are two 
separate organizations that function independently of one another.
    The goal for the Center for Dairy Excellence in Pennsylvania is to 
continue to revitalize the dairy industry within the State and 
positively impact rural communities while strengthening the local 
economy with regard to jobs and income. The Center has made significant 
progress toward these goals through the development and successful 
implementation of the Dairy Profit Team Program. This program has 
become a central part of the decision-making process on progressive 
dairy farms in Pennsylvania.
    The long-term efficiency goals set forth by the Center for Beef 
Excellence include increasing feed efficiency statewide by 10 percent, 
increasing cow reproduction by five percent, increasing cow efficiency 
by five percent and decreasing calf mortality by five percent. The 
Center also plans to increase research funding for beef-related 
research by 25 percent statewide.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $74,475; for fiscal year 2009, 
$319,000; and for fiscal year 2010, $340,000. The total amount 
appropriated is $733,475.
    The research is conducted at the Center for Dairy Excellence in 
Harrisburg, Pennsylvania and on dairy farms throughout the State.
    The Center for Beef Excellence is located in Harrisburg, 
Pennsylvania. A significant proportion of the work is conducted on-farm 
throughout the State.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

        CLEMSON UNIVERSITY VETERINARY INSTITUTE, SOUTH CAROLINA

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $1,000,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                      CLIMATE FORECASTING, FLORIDA

    The goal of this research is to improve climate forecasting and 
crop models to reduce risk for agricultural producers and the crop 
insurance industry. This is being accomplished by designing and 
developing a climate forecast information component, a State and 
region-wide agricultural outlook component, a commodity-based 
component; and produce an Agriculture Climate Information and Decision 
Support system. Additional research at the Southeast Climate Consortium 
includes the integration of weather generators with climate models; the 
assessment of agricultural impact through the analysis of historical 
crop yields and simulated yield potentials; understanding forestry risk 
and its minimization; water quality assessment and policy analysis; and 
the development of crop management optimization toolkits and programs 
to explore optimal management options under different El Nino-Southern 
Oscillation conditions and optimization criteria.
    The project accomplishments to date include: annual regional freeze 
forecasts; El Nino-Southern Oscillation phase assessment; historic 
weather data by county; weather generator; coupled climate-ocean-land 
surface-crop modeling: bimonthly wildfire and forest risk forecasts; 
crop simulation model; historic yield data by county; assessments of 
yield response to climate; county level climate-crop yield forecasts; 
and cattle heat stress forecast.
    The program has greatly improved its prototype crop yield risk tool 
which helps analyze yield potential based on climate forecast and 
planting dates. The Web-based system is a Climate-Related Tool for 
Agriculture and Natural Resources Management and referred to as 
AgroClimate Tools. The Climate Forecast Tool provides monthly climate 
forecasts of average precipitation and minimum and maximum temperatures 
at the county level; probabilities for these variables to help the 
analysis of risk and observed values for the past 5 years. The crop 
yield risk tool helps analyze yield potential based on climate forecast 
and planting dates. The results are based on crop model simulations and 
are only available for a limited number of counties, depending on the 
crop selected. Crops under implementation are: peanuts for selected 
counties in Alabama, Georgia, and Florida; potato for Suwannee County, 
Florida; and Fresh Tomato for South Florida.
    The work supported by this grant began in fiscal year 2003 with an 
appropriation of $894,150; for fiscal year 2004, $3,131,415; for fiscal 
year 2005, $3,601,952; for fiscal year 2006, $3,565,980; for fiscal 
year 2007, $0; for fiscal year 2008, $2,656,275; and for fiscal years 
2009 and 2010, $2,494,000 per year. A total of $18,837,772 has been 
appropriated.
    Research is conducted at Florida State University, University of 
Florida, University of Miami, University of Georgia, Auburn University, 
and the University of Alabama--Huntsville.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                         COTTON RESEARCH, TEXAS

    The goal of this project was to provide comprehensive multi-
disciplinary research to improve cotton production in west Texas and 
expand the demand for cotton grown in the area. The research has made 
improvements in cotton varieties through traditional genetics and 
genetic engineering aimed at improving seedling establishment, 
increasing photosynthetic efficiency and cotton yields, and developing 
resistance to pest and diseases. As a result of this research, many 
production areas have seen an improvement in overall yield and improved 
fiber length and strength. Cotton economic and marketing research 
projects have provided an analysis of feasibility and market impact of 
new production technologies, improvement of pricing and market 
reporting, understanding market behavior, and factors related to 
international competitiveness.
    The work supported by this grant began in fiscal year 1998. The 
appropriation for fiscal years 1998 and 1999 was $200,000 per year; for 
fiscal year 2000, $170,000; for fiscal year 2001, $498,000; for fiscal 
year 2002, $880,000; for fiscal year 2003, $1,182,265; for fiscal year 
2004, $2,236,725; for fiscal year 2005, $2,480,000; for fiscal year 
2006, $2,475,000; for fiscal year 2007, $0; for fiscal year 2008, 
$1,843,008; and for fiscal years 2009 and 2010, $1,730,000 per year. A 
total of $15,624,998 has been appropriated.
    The work is conducted in or near Lubbock, Texas, on the Texas Tech 
University Campus, Fiber and Biopolymer Research Center, Texas ArgiLife 
Research and Extension Center, USDA-ARS Cropping Systems Research Lab, 
and on area research and demonstration farms.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

          COUNCIL FOR AGRICULTURE SCIENCE AND TECHNOLOGY, IOWA

    The Council for Agriculture Science and Technology (CAST) is a 
nonprofit 501(c)(3) organization composed of scientific societies and 
many individual, student, company, nonprofit and associate society 
members. The goal of CAST is to compile and communicate objective, 
science-based information about agriculture.
    During the current grant period, CAST published numerous issue 
papers, commentaries, and special publications on a wide variety of 
timely topics including Poultry and Ruminant Carcass Disposal Options 
for Routine and Catastrophic Mortality; Scientific Assessment of the 
Welfare of Dry Sows Kept in Individual Accommodations; Animal 
Productivity and Genetic Diversity; Considerations in Biodiesel 
Production; Food Safety and Fresh Produce; Fate and Transport of 
Pathogens in Swine Manure; and Sustainability of U.S. Soybean 
Production. These publications were distributed widely to both 
scientific and nonscientific audiences.
    This project began in fiscal year 2004 with an appropriation of 
$134,203; in fiscal year 2005, $148,800; in fiscal year 2006, $147,510; 
in fiscal year 2007, $0; in fiscal year 2008, $112,209; in fiscal year 
2009, $105,000; and in fiscal year 2010, $110,000. A total of $757,722 
has been appropriated.
    This work is being carried out at the Council for Agriculture 
Science and Technology in Ames, Iowa.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                     DATA INFORMATION SYSTEM--REEIS

    The objective of the system is to enable users to measure the 
impact and effectiveness of research, extension, and education 
programs. REEIS is meeting this goal by incrementally incorporating 
data from more and more programs and continually expanding the data 
available for currently incorporated programs and disseminating 
information on current research programs. REEIS now contains over 10 
major Data Marts--a subsection of a Data Warehouse--and resources of 
information.
    In 2008, there was a continuation of enhancing program monitoring 
and reporting tools. The Leadership Management Dashboard (LMD) was 
developed and released in REEIS as a real time tool integrating 
information from multiple databases. The LMD links grant funding 
information with program information and provides an integrated view of 
how grant funds are allocated and spent by various USDA programs. The 
first audience for the LMD was the USDA National Program Leaders. In 
2009, additional releases of this enhanced tool were made available to 
broader audiences including university partners. Also, data from the 
National Information Management and Support System (NIMSS) were 
incorporated into the LMD. The REEIS system also incorporated reports 
from the new Agricultural Research, Extension and Education Reform Act 
(AREERA) system which provides for the direct input by States of Plans 
of Work and Annual Reports.
    Information from the system is provided for the following topics: 
current and historical agricultural research efforts; forestry research 
efforts; statistics about students, institutions, faculty, and degrees 
related to agriculture; partner institution snapshots; food and 
nutrition efforts; 4-H programs; information on families at risk; 
impact reports; agricultural snapshots of each State and outlying 
areas; agriculture-related patents and citations and state 
accomplishments and plans of work;
    REEIS began in fiscal year 1997 when Congress appropriated $400,000 
for planning and design. The subsequent appropriations by fiscal year 
are as follows: 1998--$800,000; 1999--$1,000,000; 2000--$2,000,000; 
2001--$2,120,325; 2002--$2,078,000; 2003--$2,750,000; 2004--$2,444,492; 
2005--$2,424,448; 2006--$2,561,130; 2007--$0; 2008--$2,703,939; and 
2009 and 2010--$2,704,000 per year. The total appropriation for fiscal 
years 1997 through 2008 is $26,690,334.
    This program is conducted at the NIFA headquarters in Washington, 
DC.

                       DIETARY INTERVENTION, OHIO

    The goals of this research are to determine if freeze-dried berries 
can exert a preventive effect on the development of colon cancer in 
humans, and to identify dietary components mediating CEACAM1 levels for 
the prevention of and therapeutics against obesity, diabetes and 
secondary complications.
    Ohio State University researchers have completed two clinical 
trials that provide evidence that freeze-dried black raspberries could 
be protective against colon cancer; one trial in patients diagnosed 
with colon cancer and the other in patients with familial adenomatous 
polyposis. In addition, biomarker studies in normal and polyp tissues 
taken from berry treated familial adenomatous polyposis patients showed 
that the berries are capable of demethylating tumor suppressor genes in 
rectal polyps taken from these patients.
    Researchers at the University of Toledo have reported findings that 
show a correlation between reduction in hepatic CEACAM1 and obesity 
with insulin resistance; high fat diets reduce hepatic CEACAM1 levels 
and impact insulin clearance; and high fat diets cause insulin 
resistance via a CEACAM1 dependent gene-dose mechanism. Currently, 
researchers are investigating the reduction in hepatic CEACAM1 via a 
PPARa-depended pathway as an early mechanism of diet-induced insulin 
resistance and the premise that additional proteins are involved in the 
progression of frank diabetes.
    For The Ohio State University the work supported by this grant 
began in fiscal year 2003 with an appropriation of $248,375; for fiscal 
year 2004, $894,690; for fiscal year 2005, $1,138,816; for fiscal year 
2006, $1,237,500; for fiscal year 2007, $0; for fiscal year 2008, 
$922,497; and for fiscal years 2009 and 2010, $866,000 per year. A 
total of $6,173,878 has been appropriated.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                ELECTRONIC GRANTS ADMINISTRATION SYSTEM

    The goal of the program is to enable the agency to advertise, 
accept, process, review and award grants and cooperative agreements 
electronically. The initial focus on advertising funding opportunities 
with electronic applications has been successful. The goal of receiving 
applications electronically has also been successful. In 2009, 99 
percent of NIFA proposals were received electronically. Significant 
progress is being made on electronic review and evaluation of 
proposals, and the final elements of awarding grants electronically 
remain.
    The work completed in fiscal year 2006 allowed the agency to begin 
accepting electronic grant applications. In fiscal year 2007, NIFA 
expanded the scope of the project to allow the submission of proposals 
in an electronic format for all programs.
    In fiscal year 2009, NIFA required electronic submission via 
Grants.gov for all program areas eliminating paper-based submissions. 
Proposals were submitted through Grants.gov and processed by the Agency 
through the eGrants system. Over 5,000 applications were received and 
successfully processed through the system during this cycle. The 
percentages of problem categories were reduced from previous cycles. 
Significant improvements were made in components supporting proposal 
review and evaluation as well as other management functions that have 
led to significant improvement in overall processing efficiency.
    This project began in fiscal year 2003 with an appropriation of 
$2,125,960; $1,944,460 in fiscal year 2004; $1,928,448 in fiscal year 
2005; $2,030,490 in fiscal year 2006; $0 in fiscal year 2007; 
$2,135,943 in fiscal year 2008; and $2,136,000 per year in fiscal years 
2009 and 2010. A total of $14,437,301 has been appropriated.
    This program is conducted at the NIFA headquarters in Washington, 
DC, except the Grants USDA project, which is carried out at a USDA 
Rural Development facility in St. Louis, Missouri.

                       ETHNOBOTANICALS, MARYLAND

    Research at the Appalachian Center for Ethnobotanical Studies is 
focusing on the multidisciplinary study and conservation of native 
plants.
    This research will foster economic growth in the region through the 
managed development of the area's natural resources and the development 
of new local enterprises that explore the use of regional plants for 
health-related purposes. It will also help to document and preserve 
Appalachian culture as it relates to wild plant harvesting and herbal 
medicine through community outreach and education programs.
    Black cohosh is one of the most important medicinal plants in the 
Appalachian region. The roots and rhizomes are harvested for commercial 
medicinal purposes because they contain bioactive secondary metabolites 
or natural products.
    A number of natural product phytochemicals from black cohosh have 
been investigated to elucidate a principal agent and a mechanism of 
action. Early work suggested that black cohosh possessed estrogenic 
activity, and though a number of unique cinnamic acid esters and 
cycloartane-type triterpene glycosides were discovered, no reproducible 
evidence has yet to be reported to support that hypothesis. Subsequent 
studies demonstrated convincingly that many of the metabolites show 
antioxidant activity, bind serotonin and opiate receptors, inhibit 
osteoclastogenesis, and inhibit the growth of human breast and prostate 
cancer cells. Recent work identified a serotonin derivative from the 
plant that binds with high affinity to a cognate receptor, supporting 
an emerging model in which small-molecule agonists produced by black 
cohosh stimulate the serotonergic system, which is involved in 
thermoregulation, and which in turn could alleviate episodes of hot 
flashes during menopause.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $372,375; for fiscal year 2009, 
$469,000; and for fiscal year 2010, $550,000. The total amount 
appropriated is $1,391,375.
    The research will be conducted at Frostburg State University, West 
Virginia University, and the University of Maryland Biotechnology 
Institute.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                      FARMLAND PRESERVATION, OHIO

    The objectives of the Ohio Center for Farmland Policy Innovation 
the Center are to: (1) Become an ``action center'' for farmland policy 
in Ohio, creating and delivering new information for communities who do 
not currently have the professional capacity to manage and balance 
growth and change; (2) Consider and test new policy instruments with 
communities seeking to retain farmland in Ohio through a Farmland 
Protection Partnership program; and (3) Consider ways to strengthen the 
economic viability of Ohio farms as a necessary part of farmland 
protection. It achieves its mission by conducting research-based 
outreach and extension. Current progress is as follows:
    Farmland Protection Partnership Program.--The Center conducts 
policy experiments with communities that are leaders in farmland 
protection in Ohio.
    The main purpose of the policy experiments is to develop and convey 
information on likely performance land policy options for Ohio 
communities, as well as other techniques that should be available, to 
those who can use it.
    Farmland Preservation Summit.--The Center co-hosts the annual Ohio 
Farmland Preservation Summit. This summit is the one opportunity of the 
year for farmland protection interests to gather and learn from each 
other and invited speakers. According to the national organization, 
American Farmland Trust, the summit is the largest statewide meeting of 
farmland preservationists across the country. The most recent Farmland 
Preservation Summits was held in November 2009. The next one is planned 
for the autumn of 2010. These are excellent opportunities to not only 
provide outreach on our partnership projects--number one above--but a 
time to bring in outside experts that we can access through the 
national network of farmland preservation.
    State-level Assistance.--Staff of the Center are often called on to 
provide advice and expertise to State level efforts. These efforts have 
a direct impact on Ohio communities and their opportunities and options 
for farmland preservation. A few of the roles that staff is involved 
with include the Food Policy Council, Food Systems Assessment task 
force, Ohio Department of Agriculture, Office of Farmland Preservation 
advisory board, and Ohio Department of Agriculture Specialty Crop Block 
Grant Review Committee.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $112,209; for fiscal year 2009, 
$105,000; and for fiscal year 2010, $160,000. A total of $377,000 has 
been appropriated.
    The research is being conducted at the Ohio State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

        FLORIDA BIOMASS TO BIOFUELS CONVERSION PROGRAM, FLORIDA

    The goal of this project is to optimize the use of waste biomass as 
a feedstock for ethanol production. Enzyme cocktails will be made to 
utilize a variety of waste biomass including corn stover, rye straw, 
wood pulp, switchgrass, sugarcane bagasse, and citrus peel. Three 
important enzymes have been expressed in significant quantities. 
Because of the enzyme activity observed in plant crude extracts, there 
is no need for purification; therefore, further reducing the cost below 
current commercial recombinant enzymes. Plant-derived enzyme cocktails 
enhanced the hydrolysis of wood and citrus peels, releasing more 
fermentable sugars than commercial cocktails.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant with an amount of $235,000; and for fiscal year 2010, 
$300,000. A total of $535,000 is appropriated.
    The work is being carried out at the University of Central Florida.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                       GREENHOUSE NURSERIES, OHIO

    This goal of this research is to identify and implement strategies 
to enhance the economic competitive position of Ohio greenhouse 
nurseries, especially those in northwestern Ohio.
    Economic impact of the greenhouse industry has been estimated. 
Mapping of general industry trends has been completed, and economic 
barriers to competitiveness have been identified and strategies have 
been developed based upon a cluster-based economic model. This economic 
model was implemented in 2005 with the formation of a greenhouse 
cluster advisory board with representatives from northwestern Ohio 
greenhouse growers, Ohio Floriculture Association, Regional Growth 
Partnership, The Ohio State University Extension Office, the 
Agricultural Research Service, the University of Toledo, and Bowling 
Green State University. This board meets monthly to implement marketing 
and branding strategy. The use of controlled release fertilizers is 
being researched and implemented to reduce nutrient pollution. During 
the last 12 months, the major accomplishment of the grant has been 
progress on a sustainable greenhouse cluster in northwest Ohio. A 
Maumee Valley Growers cluster developed a positive brand identity. Two 
major challenges that have been successfully addressed by Maumee Valley 
Growers are the implementation of a coordinated marketing effort 
capitalizing on the growers' brand, and the implementation of a group 
buying program that will save the northwest Ohio greenhouse industry an 
estimated $250,000 in energy, workers compensation, and insurance costs 
during the next 12 months. The northwest Ohio natural gas savings 
program has been expanded to other parts of the State and southeastern 
Michigan and will continue to develop as will a group buying program 
for electricity modeled after the highly successful natural gas buying 
program. This electricity program will initially focus on 19 northern 
Ohio counties. A successful cluster emphasizes collaboration between 
the businesses, in this case greenhouses, in a cluster and community 
partners. Progress has been made in developing relationships with 
community partners since 2005, but efforts to develop long-term, 
sustainable, collaborative relationships with community partners will 
continue as will the work of nurturing and building on relationships 
between participating growers. This cluster strategy has the potential 
to be utilized in other areas, strengthening the links between growers 
and consumers.
    The work supported by this grant began in fiscal year 2003, and the 
following amounts have been appropriated: in fiscal year 2003, 
$149,025; in fiscal year 2004, $712,770; in fiscal year 2005, $726,144; 
in fiscal year 2006, $718,740; in fiscal year 2007, $0; in fiscal year 
2008, $535,227; in fiscal year 2009, $502,000; and in fiscal year 2010, 
$1,380,000. A total of $4,723,906 has been appropriated.
    The research is being conducted at selected sites throughout Ohio 
and through subcontracts with the University of Toledo, Bowling Green 
State University, and Indiana State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                HIGH VALUE HORTICULTURAL CROPS, VIRGINIA

    The goal of this grant is to build capacity in the area of 
renewable and sustainable resources at the Institute for Advanced 
Learning and Research. This effort was conducted in close collaboration 
with the Departments of Forestry and Horticulture at Virginia 
Polytechnic Institute and State University. Short-term objectives of 
this undertaking were to organize and equip the plant tissue culture/
agricultural biotechnology laboratory and solicit sub-licenses for the 
production of polyploid orchids, for the production of landscape 
ornamentals and other unique, high value horticultural crops, as well 
as initiate research on new ornamental and vegetable cultivars.
    In fiscal year 2003, the plant tissue culture/agricultural 
biotechnology laboratory was designed and equipped. Fast growing clones 
of loblolly pines that are to be used in Institute research were 
planted at the Reynolds Homestead. In fiscal year 2004, technicians 
were hired and participated in in-depth training at Virginia Tech 
University, the Georgia Institute of Technology, and North Carolina 
State University. A horticulture graduate student was employed to teach 
and document protocols for orchid propagation. Three Danville-based 
faculty positions were filled in 2005. These included two molecular 
breeding faculty and a Virginia plant introduction program coordinator. 
New ornamentals and trees developed through the program will be field 
tested in collaboration with the Virginia Nursery and Landscape 
Association. The Virginia Tech Department of Horticulture and the 
Institute was awarded a grant from the Virginia Tobacco Indemnification 
and Community Revitalization Commission to establish test sites for 
plant introductions. The Virginia Tech Department of Forestry has hired 
a new faculty member with expertise in forest tree genetics and 
functional genomics, to collaborate with researchers at the Institute. 
Collaborative meetings have been held with several potential partners, 
both educational and commercial, including North Carolina State 
University, CellFor, and HZPC. A new objective is to development and 
breeding of novel biofuel crops. Additionally, high value native 
ornamental crops are being propagated to replace commonly sold, but 
potentially invasive non-native ornamentals.
    The work supported by this grant began in fiscal year 2003, and the 
following amounts have been appropriated: in fiscal year 2003, 
$248,375; in fiscal year 2004, $447,345; in fiscal year 2005, $567,424; 
in fiscal year 2006, $717,750; in fiscal year 2007, $0; in fiscal year 
2008, $535,227; and in fiscal years 2009 and 2010, $502,000 per year. A 
total of $3,520,121 has been appropriated.
    This work is being conducted at the Institute for Advanced Learning 
and Research, partnering with the Forestry and Horticulture 
Departments, Virginia Polytechnic Institute and State University, 
Blacksburg, Virginia.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

INTERNATIONAL CENTER FOR GOOD TECHNOLOGY DEVELOPMENT TO EXPAND MARKETS, 
                                INDIANA

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $750,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                      MARICULTURE, NORTH CAROLINA

    Projects funded under the fiscal year 2009 Mariculture, North 
Carolina grant were designed to develop and transfer to commercial 
users, safe and effective methods for marine food fish production. 
Current research focuses on three candidate species for aquaculture: 
southern flounder, Paralichthys lethostigma; black sea bass, 
Centropristis striata; and red porgy, Pagrus pagrus. Specific 
objectives include: (1) Compare performance of southern flounder and a 
southern flounder female by summer flounder male F1 hybrid; (2) 
optimize Artemia enrichment protocols for larval southern flounder and 
black sea bass using state-of-the-art products; (3) evaluate 
substitution limits of alternative proteins such as underutilized plant 
and animal by-products as a fish meal replacement in southern flounder 
diets under controlled laboratory conditions by replacing menhaden fish 
meal with: (a) poultry by-products and fermented poultry by-products; 
and (b) menhaden fish meal with dried distillers grain with solubles; 
(4) formulate cost-effective diets using a combination of different 
alternative protein sources such as soybean meal, poultry by-product 
meal, and meat and bone meal, and determine their effects on growth of 
black sea bass; and (5) determine the effects of these feeds on the 
biochemical composition of fish flesh.
    Research conducted under the Mariculture, North Carolina program 
has led to information on the effects of temperature, salinity, and 
light intensity on embryos and early larval survival of black sea bass; 
fatty acid profile studies in southern flounder provided a better 
understanding of the biochemical basis of egg quality and requirements 
for natural spawning of southern flounder; culture requirements for 
larval rearing and grow-out culture studies have demonstrated that 
wild-caught black sea bass can be grown indoors from juvenile to 
marketable sizes in low-salinity, brackish water; black sea bass will 
undergo sexual maturation under artificial conditions within 1 year of 
capture; and using only female black sea bass for cost-effective grow-
out indoors. These advances aid the development of microbound diets for 
replacing live feeds and the development of more cost-effective rearing 
protocols. Captive, wild-caught, red porgy broodstock produced up to 
300,000 eggs per day from January through March, 2005. A total of 1,200 
day 35 post-hatch juveniles were produced with 2.4 percent survival. 
The University of North Carolina at Wilmington is collaborating with 
the city of Jacksonville, North Carolina, to retrofit a defunct waste 
water treatment plant to install a state-of-the-art, pilot-scale 
recirculating aquaculture system for marine finfish. Southern flounder 
and black sea bass will be grown by a commercial practitioner to test 
economic viability and to integrate research, education, and technology 
transfer for these two species. The results of this project have 
advanced knowledge of private practitioners which are currently 
undertaking startup commercial companies in North Carolina. The 
Sturgeon City project has provided a unique opportunity for a 
commercial practitioner to produce marine finfish, specifically the 
southern flounder and black sea bass, in a state-of-the-art 
recirculating aquaculture system, while receiving training. This is an 
example of a public-private partnership for sustainable marine finfish 
culture development. The outcomes of the Sturgeon City project in 
Jacksonville, North Carolina, will be of significant interest to 
prospective commercial aquaculturists, government policy makers, and to 
researchers and educators.
    The work supported by this grant began in fiscal year 1998. The 
appropriation for fiscal year 1998 was $150,000; for fiscal years 1999 
and 2000, $250,000 per year; for fiscal year 2001, $324,285; for fiscal 
year 2002, $360,000; for fiscal year 2003, $357,660; for fiscal year 
2004, $320,100; for fiscal year 2005, $317,440; for fiscal year 2006, 
$313,830; for fiscal year 2007, $0; for fiscal year 2008, $234,348; and 
for fiscal years 2009 and 2010, $220,000 per year. A total of 
$3,317,663 has been appropriated.
    The work is being conducted at the Center for Marine Science 
Research at the University of North Carolina at Wilmington.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                  MEDICINAL AND BIOACTIVE CROPS, TEXAS

    The long-term goal of this project is to develop aesculiosides as 
novel primary and/or adjuvant therapy for cancers.
    To date, over 1,000 species of vascular plants representing 138 
families found in Texas have been collected and screened for the 
identification of bioactive agents since 1993. Over 600 pure compounds, 
including over 100 new compounds, have been isolated from 28 species, 
mostly native plants in Texas. Several aesculiosides have shown 
promising activity against 60 cell lines from 9 different human cancers 
including leukemia, non-small cell lung, colon, central nervous system 
(CNS), melanoma, ovarian, renal, prostate, and breast19. Further 
investigation indicated that active saponins are highly selective for 
tumor cells relative to normal cells.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $267,900; for fiscal year 2009, 
$280,000; and for fiscal year 2010, $300,000. A total of $847,900 has 
been appropriated.
    The research will be conducted at Stephen F. Austin State 
University in Nacogdoches, Texas
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

        MIDWEST AGRIBUSINESS TRADE AND INFORMATION CENTER, IOWA

    The objective of this project is to continue work by the Midwest 
Agribusiness Trade Research and Information Center to promote expansion 
of foreign trade and investment by small and medium-size midwest 
agribusiness firms. Current progress is as follows: Topics for research 
to be conducted at Iowa State University include: (1) competitiveness 
and marketability of commodity and non-commodity agricultural products; 
(2) export opportunities for non-commodity products and methods of 
differentiating these products; and (3) emerging issues and trade-
distorting events with significant potential to affect world trade 
patterns.
    Under subcontract, the Greater Des Moines Partnership will provide 
technical assistance and information to agribusinesses, such as 
business climate and trade lead information, business contacts of 
potential buyers and partners, and other resources that benefit 
companies before and during the exporting process. The project 
objectives are to: (1) Study the competitiveness and marketability of 
commodity and non-commodity agricultural products in international 
markets, determine the potential size and value of specific markets, 
and evaluate opportunities and constraints faced by U.S. agribusiness 
firms conducting business in foreign countries. (2) Evaluate 
opportunities for non-commodity products and ways to differentiate 
these products, such as process verification, reputation- and location-
based identification, branding, and traceability. (3) Analyze emerging 
issues such as trade agreements, trade-distorting events and animal 
disease outbreaks and their potential effects on U.S. agricultural 
exports and world supply and demand. (4) Disseminate research results 
and other relevant information about international business 
opportunities to help U.S. agribusiness firms initiate or increase 
agricultural exports.
    The Greater Des Moines Partnership's objectives and expected 
outputs are to: (1) Offer professional consultation to midwest 
agribusinesses interested in penetrating international markets through 
trainings, one-on-one consultations/assistance, development of 
marketing materials and matching up of international delegations with 
potential midwest agribusiness partners. (2) Disseminate market 
research and information related to agricultural exports. (3) Publish 
an online quarterly newsletter to serve the needs of Iowa agribusiness 
exporters and create an online database listing Iowa agribusiness 
companies wishing to expand their presence in the international 
marketplace. (4) Develop expertise in Foreign Trade Zone (FTZ) 
provisions for the benefits of midwest exporters. Use two operating 
FTZs to serve export-oriented businesses.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $186,684; for fiscal year 2009, 
$176,000; and for fiscal year 2010, $187,000. A total of $549,684 has 
been appropriated.
    The research will be conducted at the Midwest Agribusiness Trade 
and Information Center at Iowa State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                  MISSISSIPPI VALLEY STATE UNIVERSITY

    The goal of this project is to expose students, faculty, staff, 
community-leaders, and lay citizens to promote a healthier life style 
which will reduce obesity rate, encourage young people to stay in 
school, and pursue education beyond high school. This is to be 
accomplished through curriculum enhancement and faculty research 
support.
    The accomplishment report indicates that the goals described in the 
proposal are being achieved satisfactorily. The goal of the program is 
to enhance the various academic programs at Mississippi Valley State 
University.
    This program was initiated in fiscal year 1987. Grants have been 
awarded from funds appropriated as follows: fiscal year 1987, $750,000; 
fiscal year 1988 and 1989, $625,000 per year; fiscal year 1990, 
$617,000; fiscal year 1991, $642,000; fiscal years 1992 and 1993, 
$668,000 per year; fiscal year 1994, $593,000; fiscal year 1995, 
$544,000; fiscal years 1996-2000, $583,000 per year; fiscal year 2001, 
$645,577; fiscal year 2002, $633,000; fiscal year 2003, $1,043,175; 
fiscal year 2004, $933,460; fiscal year 2005, $925,536; fiscal year 
2006, $1,418,670; fiscal year 2007, $0; fiscal year 2008, $1,067,475; 
and for fiscal years 2009 and 2010, $1,002,000 per year. A total of 
$17,317,893 has been appropriated.
    The work is being carried out at Mississippi Valley State-
University campus and off-campus in Leflore County. Other counties in 
Mississippi may also be involved.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

        MONITORING AGRICULTURAL SEWAGE SLUDGE APPLICATION, OHIO

    The University of Toledo, along with Bowling Green State University 
and Central State University, will determine the human health and 
environmental impacts associated with the application of sewage sludge 
on agricultural fields. Researchers will analyze physical, chemical and 
biological impacts of sewage sludge application and the impacts of 
pharmaceutical and personal care products, pathogens and nutrients on 
soil and water. The project will include epidemiological studies, 
pathogens, and residual drugs within the sludge.
    Researchers have incorporated data into a geographic information 
system (GIS) to create layers of parcel data including roads, 
waterways, schools, soil data, biosolids permitted fields, and 
biosolids application rates for the project. A health survey was 
completed in Wood County that examined whether an association existed 
between self-reported health effects and distance from fields where 
application of Class B biosolids was permitted. Researchers have also 
identified approximately 50 compounds in wastewater influent, effluent, 
and biosolids that are classified as antibiotics, anti-depressants, 
anti-coagulants, and anti-psychotics. New methods of testing for these 
contaminants have developed as a result of the conduct of these studies 
and have been published in national scientific journals.
    The work supported by this grant began in fiscal year 2004 with an 
appropriation of $1,073,628; for fiscal year 2005, $1,276,704; for 
fiscal year 2006, $1,274,130; for fiscal year 2007, $0; for fiscal year 
2008, 893,700; for fiscal year 2009, $839,000; and for fiscal year 
2010, $500,000. A total of $5,857,162 has been appropriated.
    Research is being conducted at the University of Toledo; Bowling 
Green State University; and at field locations in Lucas and Green 
counties as appropriate.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

     NE CENTER FOR INVASIVE PLANTS, CONNECTICUT, VERMONT, AND MAINE

    The goal of this project is to develop a multi-State, 
interdisciplinary research program to address the problems caused by 
invasive species and to develop methods for sterile, non-invasive 
cultivars. There have been a number of achievements including:
    The development of methods in the creation of non-invasive euonymus 
and Japanese barberry plants as a first step in developing sterile, 
non-invasive cultivars in the next 5 years.
    Predictive models to predict future spread of invasive plants in 
the New England region.
    The analysis of economic impacts of invasive plants in New England 
as useful information to policy makers, nursery industry and scientific 
community.
    Development of outreach education activities to make the public 
aware of the problems of invasive plants and the importance of adopting 
native, non-invasive plants for ornamental purposes.
    Sponsoring an international symposium August 10-14, 2009, entitled 
``Invasive Plants in the Northeast of Asia and America: Trading 
Problems, Trading Solutions,'' that brought together experts of from 
the United States, China, Japan, Korea, and eastern Russian for a week 
of presentations, field trips, and workshops dealing with the ecology 
of invasives, biotechnology and horticultural approaches to control, 
and regulatory hurdles and opportunities. Over 80 people attended the 
conference, parts of which were broadcast by the Connecticut Public 
Broadcasting Network. Agency representatives--USDA and the National 
Science Foundation; Chinese Forestry--attended and contributed to 
discussions of potential future joint research activities.
    There also have been some scientific publications including: 
``Detecting the influence of ornamental Berberis thunbergii var. 
atropurpurea in invasive populations of Berberis thunbergii--
Berberidaceae--using Amplified Fragment Length Polymorphism--AFLP'' 
published in American J. Botany 95(6):1-7; ``AFLP identification of 
Berberis thunbergii cultivars, inter-specific hybrids, and their 
parental species'' published in J. Horticultural Science & 
Biotechnology 83(1):55-63.
    The work under this project began in fiscal year 2006 with an 
appropriation of $420,750; for fiscal year 2007, $0; for fiscal year 
2008, $313,788; and for fiscal years 2009 and 2010, $295,000 per year. 
A total of $1,324,538 has been appropriated.
    Research is being conducted at the University of Connecticut, the 
University of Vermont, and the University of Maine.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                      NUTRITION RESEARCH, NEW YORK

    The goal of this research is to evaluate City Harvest's work in the 
Melrose neighborhood-in-the South Bronx in order to increase access to 
high quality fresh produce and other nutrient-dense foods; to increase 
awareness as to the causes and effects of nutrition-related diseases 
while providing the information and tools necessary to enable residents 
to improve their dietary health; and to measure the change in dietary 
behavior exhibited by clients assessing these services.
    City Harvest helps feed 260,000 New Yorkers each week by rescuing 
high-quality surplus food and distributing to a network of 600 soup 
kitchens, food pantries and other community food programs. This program 
provides immediate hunger relief and helps New Yorkers gain access to 
affordable, local, nutritious food, with the goal of creating sustained 
long-term food security. City Harvest has been developing and testing 
measurement tools for the collection of data from users of the Melrose 
Mobile Market on fresh produce access. In addition, nutrition education 
courses on healthy planning, shopping and cooking for families have 
been offered in 6- or 8-week series at strategic locations within the 
community.
    Fiscal year 2009 was the first year that funds were appropriated 
for this grant with an amount of $188,000 under the Special Research 
Grants. In fiscal year 2010, this grant was moved to the Research 
Federal Administration Grants with an appropriation of $188,000. A 
total of $376,000 has been appropriated.
    The work is being carried out by City Harvest, New York City and 
Cornell University Cooperative Extension, New York City.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                NUTRITION AND DIET RESEARCH, CALIFORNIA

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $925,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                 PASTEURIZATION OF SHELL EGGS, MICHIGAN

    The goal of this project is the commercialization of this 
innovative and patented process that addresses the potential food 
safety problem of microbial contamination of eggs and the possible 
transfer of pathogenic bacteria to humans. Research on this microwave 
and heating process is progressing toward a commercial product. Work is 
being conducted in collaboration with government, industry, and 
university personnel.
    Grants have supported this research grant beginning in fiscal year 
2003. The appropriation for fiscal year 2003 was $248,375; for fiscal 
year 2004, $1,093,510; for fiscal year 2005, $1,237,024; for fiscal 
year 2006, $1,336,500; for fiscal year 2007, $0; for fiscal year 2008, 
$995,979; and for fiscal years 2009 and 2010, $935,000 per year. A 
total of $6,781,388 has been appropriated to this time.
    The Michigan Research Institute facility is the research site, 
which is coordinated with industry or university sub-contractors.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                        PM-10 STUDY, WASHINGTON

    The PM-10 study object is to address the effects of emissions of 
PM-10 and PM-2.5-sized particulates, or dust, from agricultural land on 
air quality and development of control strategies to (1) develop a 
geographic information system (GIS) database for simulating wind 
erosion and transport of fugitive dust; (2) quantify and predict wind 
erosion; (3) create a PM emission inventory; (4) develop PM dispersion 
models; (5) develop alternate tillage and cropping systems to control 
PM emissions; (6) document changes in farming practices that have led 
to reduced emissions; (7) identify sustainable farming practices that 
control erosion; and (8) help farmers adopt best management practices.
    The project has developed an undercutter tillage tool that has 
proven effective in reducing erosion. Scientists have reported a 50 
percent reduction in dust using the undercutter compared to 
conventional tillage. The USDA Wind Erosion Prediction System (WEPS) 
has recently been tested and improved for the Columbia Basin in 
addition to GIS databases that will drive atmospheric and global 
circulation models in the region. On-going work will attempt to couple 
WEPS with these advanced circulation models to predict regional wind 
erosion events.
    The project is in its fifth year of cropping system studies to 
evaluate conservation tillage against traditional wheat-fallow systems 
for controlling wind erosion. One more cropping season is needed to 
evaluate all of their treatments.
    The project has documented increases in soil organic carbon from 
using no-till versus conventional tillage practices. The chemical 
signatures in organic carbon are being utilized to predict sources of 
wind-blown sediment. In addition to carbon, the impact of these 
practices on soil quality is being documented.
    Economic analysis of various farming practices are being performed 
to document which practices are the most cost-effective for producers 
in controlling erosion. For example, the economic analysis showed that 
the undercutter tillage method was profitable, and 50 growers have 
adopted the practice through a cost-share program with Natural 
Resources Conservation Service (NRCS).
    The project is transferring direct-seeding technologies to 
producers through workshops and on-farm demonstrations.
    The work supported by this grant began in March 1994 at the 
University of California--Davis and at Washington State University. The 
appropriation for fiscal year 1994 was $940,000; for fiscal year 1995, 
$815,000; for fiscal years 1996 through 2000, $873,000 per year; for 
fiscal year 2001, $435,041; for fiscal year 2002, $426,000; for fiscal 
year 2003, $435,153; for fiscal year 2004, $389,687; for fiscal year 
2005, $386,880; for fiscal year 2006, $383,130; for fiscal year 2007, 
$0; for fiscal year 2008, $284,991; and for fiscal years 2009 and 2010, 
$268,000 per year. California has not received funding under this grant 
since fiscal year 2000 and has had its own funding stream since 2002. A 
total of $9,396,882 has been appropriated.
    Scientists at Washington State University are leading the efforts, 
but additional work is being done at the Agricultural Research 
Service's laboratory in Pullman, the University of Idaho, and Oregon 
State University through subcontracts.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                        POLYMER RESEARCH, KANSAS

    The goals of the project are the development of new monomers and 
polymers based on vegetable and crop oils and the study of the effects 
of structure on the properties of novel polymers. Various processing 
methods will be examined. The physical and chemical properties of the 
new polymers will be systematically characterized.
    Five specific tasks have been completed to date. They include 
preparation of pure polyricinoleic acid methyl esters by 
transesterification of castor oil and distillation; preparation of 
hydroxyl acid methyl ester with secondary hydroxyl groups from oleic 
acid by epoxidation and hydrogenation; preparation of polyester diols 
of molecular weight 700-4000 transesterification of methylricioleate 
and diethylene glycol; preparation of polyurethanes from diols having 
soft segment concentration from 40-80 percent; and ozonolysis of 
vegetable oils and preparation of methyl esters of hydroxynonanoic 
acid. A new class of seven elastomers with well-defined structures and 
excellent properties was created suitable for medical and athletic 
applications. The new elastomers varied in hardness from soft rubbers 
having 70 percent of bio-based content to hard rubber with 50 or 40 
percent bio content. The original goal is nearly its completion.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $1,117,125; for fiscal year 2009, 
$1,284,000; and for fiscal year 2010, $2,000,000. A total of $4,401,125 
has been appropriated.
    The research will be conducted at the Pittsburg State University in 
Kansas.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.
          rural agriculture small business development program
    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $500,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                       RURAL SYSTEMS, MISSISSIPPI

    The goal of the National Center for Bio-defense Communications for 
Rural America (Center) is to bring to bear Internet-based technologies 
for early detection of significant human and animal health events and 
to issue authorized, secure, non-public, bio-terror alerts and 
notifications to authorized and appropriate policymakers, healthcare, 
and first-responder recipients.
    The Center is proposing to develop and implement more projects 
designed to address several problems that became evident as a result of 
Hurricane Katrina. The Center has just completed a major revision of 
the State Vet System. This revision has materially enhanced 
performance, removed unnecessary steps and key strokes, streamlined the 
user interface, and brought several disconnected tasks into the main 
body of the application. In partnership with the Mississippi Emergency 
Management Agency, the Mississippi State Veterinarian's Office and the 
Mississippi Department of Human Services, the Center has developed an 
integrated online Mississippi Emergency Evacuation Shelter System. The 
Center has begun work on a new goal to design, create, and host a 
Mississippi, rural-centric Web portal to personalize, deliver, and 
track the review of updated and newly available training materials on 
photogrammetric and geospatial analysis.
    The work supported by this grant began in fiscal year 2003 and the 
appropriation for fiscal year 2003 was $347,725; for fiscal year 2004 
is $311,153; for fiscal year 2005, $308,512; for fiscal year 2006, 
$304,920; for fiscal year 2007, $0; for fiscal year 2008, $229,383; and 
for fiscal years 2009 and 2010, $215,000 per year. A total of 
$1,931,693 has been appropriated.
    The program is conducted at the Institute of Epidemiology and 
Health Services Research at the e-Center of Jackson State University, 
and the Jackson Medical Mall, Jackson, Mississippi.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

    SHRIMP AQUACULTURE, ARIZONA, HAWAII, LOUISIANA, MASSACHUSETTS, 
                 MISSISSIPPI, SOUTH CAROLINA, AND TEXAS

    The goal of this program is to increase domestic production of 
marine shrimp through aquaculture. Research funded through past awards 
to the program has led to: development of a computerized database for 
the shrimp breeding program; providing improved seedstock to industry 
that have been developed from the breeding program; improved shrimp 
disease diagnostics, prevention, and treatment protocols; advanced 
marine shrimp farming technologies, products, and services by providing 
high-quality, specific pathogen-free, and genetically improved shrimp 
stocks; environmentally and economically viable marine shrimp 
production systems that produce a quality product at competitive 
prices; improved biosecurity protocols that will provide protection for 
cultured and wild shrimp stocks; improving shrimp culture systems that 
reduce effluents; identifying and developing diagnostic protocols for 
many shrimp diseases that have affected world shrimp production; 
developing and using bioeconomic models to guide research and 
development efforts for the super-intensive production systems 
developed under this program; developing and evaluating disease-
resistant lines of shrimp by selective breeding; elucidating molecular 
mechanisms of disease resistance; developing monoclonal antibodies that 
have been licensed for rapid field diagnosis of a common bacterial 
disease in shrimp; developing new shrimp feeds that have lower 
inclusion rates of fish meal and fish oil; establishing a 
bioinformatics database with search capabilities to identify genes 
associated with traits of economic importance; training students in 
shrimp disease diagnostics and prevention; and improving feeds and 
feeding strategies using domestically produced grains that reduce our 
dependence on marine fish-derived protein and oils.
    Recent accomplishments include but are not limited to: production 
of approximately 50 shrimp families which are resistant to Taura 
Syndrome Virus and exhibit rapid growth and high survival at super-
intensive stocking densities; three new diseases appeared on the list 
of Crustacean Diseases in the 2008 Aquatic Code of the Office 
International des Epizooties as a direct result of this work. These 
were Necrotizing Hepatopancreatitis, Hepatopancreatic Parvovirus 
Disease, and Mourilyan Virus Disease. Following review of the global 
status of these diseases by the Crustacean ad hoc group at the 
University of Arizona, only Necrotizing Hepatopancreatitis was 
recommended for full listing by the Office International des 
Epizooties. The draft Code chapters on Hepatopancreatic Parvovirus 
Disease and Mourilyan Virus Disease were withdrawn in 2008 by the 
Crustacean ad hoc group as diseases recommended for listing by the 
Office International des Epizooties. The University of Arizona offers 
training in shrimp pathology and shrimp disease diagnostic methods to 
members of the Consortium, to United States and foreign governments, 
and to the domestic and foreign shrimp culture industries. The 
University of Arizona's Shrimp Pathology Short Course has been 
operational since 1989 as a mostly self-supporting, annually offered 
course, and is one of the University of Arizona's functions in the 
Consortium.
    Grants have been awarded from funds appropriated as follows: fiscal 
year 1985, $1,050,000; fiscal year 1986, $1,236,000; fiscal year 1987, 
$2,026,000; fiscal year 1988, $2,236,000; fiscal year 1989, $2,736,000; 
fiscal year 1990, $3,195,000; fiscal year 1991, $3,365,000; fiscal 
years 1992-1993, $3,500,000 per year; fiscal year 1994, $3,290,000; 
fiscal year 1995, $2,852,000; fiscal year 1996, $3,054,000; fiscal 
years 1997-2000, $3,354,000 per year; fiscal year 2001, $4,167,811; 
fiscal year 2002, $4,214,000; fiscal year 2003, $4,186,609; fiscal year 
2004, $3,745,769; fiscal year 2005, $3,941,216; fiscal year 2006, 
$4,158,000; fiscal year 2007, $0; fiscal year 2008, $3,097,167; and for 
fiscal years 2009 and 2010, $2,908,000 per year. A total of $78,782,572 
has been appropriated.
    The research is conducted through the United States Marine Shrimp 
Farming Consortium. Individual projects are administered and conducted 
by the University of Southern Mississippi's Gulf Coast Research 
Laboratory in Ocean Springs, Mississippi and by the Oceanic Institute 
in Hawaii. Other Consortium members conducting the research include: 
Tufts University in Massachusetts, the Waddell Mariculture Center in 
South Carolina, the Texas A&M Agricultural Experiment Station, the 
University of Arizona, and Nicholls State University in Louisiana.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

         SUSTAINABLE AGRICULTURE FRESHWATER CONSERVATION, TEXAS

    The goal of this research is to develop a sustainable water use 
model for a part of the Rio Grande basin through the identification and 
analysis of constraints to the sustainable use of the trans-boundary 
Rio Grande water system. With agricultural water use being a major 
focus, other relevant project elements include: characterization, 
quantification, and modeling of basin surface and groundwater 
resources; water supply-demand issues throughout the Rio Grande 
drainage basin; human health-related water pollution issues; 
agricultural water use practices; identification and characterization 
of biological integrity and aquatic habitats as well as wastewater 
characterization and treatment options to extend/renew available 
supplies. The project seeks to identify the root causes and obstacles 
to sustainable use of limited resources and explore the socioeconomic 
potential of integrated solutions that are acceptable to stakeholders 
throughout the Rio Grande Basin. A focal point of the research is the 
identification of organizations and agencies doing water-related 
research in the three U.S. States and five Mexican States comprising 
the Rio Grande/Rio Bravo drainage basin. The development of a 
comprehensive and easily accessible Web-based clearinghouse of 
information will enable policy-makers, stakeholders, and the public to 
locate critical information throughout the Rio Grande and is intended 
to facilitate informed decisionmaking. A Trans-boundary Diagnostic 
Analysis Framework (TDA) has been developed specifically for the Rio 
Grande drainage basin and is actively used as the outline for 
identifying objectives and integrating the results of research 
conducted by researchers. The TDA is intended to be a resource in the 
subsequent development of a management action plan for Rio Grande Basin 
resources.
    The work supported by this grant began in fiscal year 2004, and the 
appropriation for fiscal year 2004 was $1,789,380; for fiscal year 
2005, $1,805,440; for fiscal year 2006, $1,831,500; for fiscal year 
2007, $0; for fiscal year 2008, $1,527,234; and for fiscal years 2009 
and 2010, $1,434,000 per year. A total of $9,821,554 has been 
appropriated.
    Much of this work is being conducted in the area of the Big Bend 
National Park on the Rio Grande River. The institution which provides 
leadership of the project is Sul Ross State University in Alpine, 
Texas. Subcontracts on the project also exist for Texas State 
University at San Marcos.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

   UNIVERSITY OF WISCONSIN--STEVENS POINT INSTITUTE FOR SUSTAINABLE 
                              TECHNOLOGIES

    The goal of the project is to develop a self-sustaining center that 
will provide education, training, and research support for government 
and industry in Wisconsin. The Research Division of the institute will 
focus on establishing a biofuels research lab to support new 
alternative fuel development; a statewide biofuels scientific and 
economic conference is under development to provide practical 
information to the citizens of Wisconsin; the University of Wisconsin, 
Stevens Point Paper Science and Engineering Department is working with 
the institute on developing sustainable technologies for the paper 
industry; and researchers are collaborating with others in education 
and laboratory sciences to develop criteria for sustainability. A draft 
curriculum for an alternative energy minor has been developed and will 
process through university governance spring semester.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $1,843,008; for fiscal year 2009, 
$1,408,000; and for fiscal year 2010, $1,400,000. A total of $4,651,408 
has been appropriated.
    The research will be conducted at the University of Wisconsin--
Stevens Point.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                 VIRAL HEMORRHAGIC SEPTICEMIA, MICHIGAN

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $150,000. Since this is a new grant, no 
information is available regarding the program's research goals and 
objectives.

                   VIRAL HEMORRHAGIC SEPTICEMIA, OHIO

    The goal of the project is to investigate the emerging Viral 
Hemorrhagic Septicemia disease outbreaks in Lake Erie and in the Great 
Lakes region by developing a molecular genetic test to enhance the 
rapid and cost-effective detection of the virus and to map the 
distribution of VHS in yellow perch, walleye, smallmouth bass, and 
other Great Lakes fish populations. Results will be compared to the 
cell culture method, and results are currently being used as a 
confirmatory test for VHS detection to determine sensitivity, 
reliability, and accuracy. A positive outcome from this effort will 
result in a less-expensive and more-sensitive VHS test kit to be placed 
on the market providing time-efficient testing for aquaculture 
facilities and lake managers.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $223,425; for fiscal year 2009, 
$209,000; and for fiscal year 2010, $500,000. A total of $932,425 has 
been appropriated.
    The research is being conducted at the University of Toledo in 
Ohio.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                     VITIS GENE DISCOVERY, MISSOURI

    The original goal of this research was to identify powdery mildew 
responsive genes in healthy and infected grapes and to obtain complete 
clonal DNA sequences of these genes as expressed in both berries and 
leaves.
    Molecular genetics will be used to elucidate resistance to powdery 
mildew and other fungal diseases in Vitis aestivalis, a grape species 
that is native to North America. An efficient gene silencing strategy 
will be developed. In addition, research will determine grape 
components that are beneficial to human health with the goal of 
increasing the content of those components in grapes.
    The research began in 2004. The amount appropriated for fiscal year 
2004 was $357,876; in fiscal year 2005, $603,136; in fiscal year 2006, 
$601,920; in fiscal year 2007, $0; in fiscal year 2008, $448,836; and 
in fiscal years 2009 and 2010, $422,000 per year. A total of $2,855,768 
has been appropriated to date.
    The research is being conducted by the Missouri Agricultural 
Experiment Station.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                    WATER POLLUTANTS, WEST VIRGINIA

    This project goal is aimed at characterizing the potential for 
bacterial contamination of water in West Virginia by providing a 
comprehensive database of bacteria against which samples can be 
compared to determine sources of E. coli contamination in waters. The 
database continues to grow as samples are acquired from surrounding 
States. Recent work in this project focuses on improving methods for 
detecting pathogens and using these detection methods to determine the 
potential health hazard posed by bacteria.
    The project is being carried out at Marshall University in West 
Virginia. Marshall University has one of the Nation's leading forensic 
laboratories. As the project has developed, water samples from a 
broader geographic region have been included in the analyses. These 
additional samples make the analyses more comprehensive in 
characterizing bacterial contamination.
    The work supported by this grant began in fiscal year 2002, and the 
appropriation for fiscal year 2002 was $206,000; for fiscal year 2003, 
$596,100; for fiscal year 2004, $536,814; for fiscal year 2005, 
$564,448; for fiscal year 2006, $594,000; for fiscal year 2007, $0; for 
fiscal year 2008, $410,109; for fiscal year 2009, $385,000; and for 
fiscal year 2010, $500,000. A total of $3,792,471 has been 
appropriated.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                EXTENSION FEDERAL ADMINISTRATION GRANTS
                      AGRICULTURE IN THE CLASSROOM

    The project supports State- and regional-level projects that 
promote and develop agricultural literacy for the Nation's students and 
teachers at the pre-K through secondary levels, by integrating 
agriculture into the curriculum currently taught in public and private 
schools and to those homeschooled. Funds also support the operating 
costs of the national office, including staff salaries and staff travel 
for AITC technical assistance workshops, community outreach, and 
stakeholder meetings.
    AITC encourages pre-K to 12th grade educators to adopt science-
based themes which are an outgrowth of recent scientific advances that 
address USDA priorities and advance science-based knowledge in our 
Nation's classroom. Such advances prepare students who will be better 
able to meet future U.S. manpower needs in science, technology, 
engineering and mathematics fields.
    On the national level, the AITC program supports a national Web 
site, a national resource directory, and an annual national conference. 
Each of these entities provides high-quality educational and learning 
materials: (1) Teacher resources on the AITC Web site include lesson 
plans aligned to State and/or national standards. The Web site also 
offers student information that includes virtual field trips, career 
options, agriculture and food facts, and State agricultural profiles; 
(2) The AITC National Resource Directory is an online database which 
lists hundreds of educational materials about agriculture. It was 
designed to help educators locate high-quality resources about 
agriculture for a pre-Kindergarten through 12th grade youth audience; 
(3) The national conference allows teachers from around the world to 
come together to learn about agriculture education through teacher 
training sessions, workshops, and experiential learning events. It is 
also an opportunity to share ideas and learn of others' experiences in 
using agriculture as teaching tool.
    The total amount appropriated to Agriculture in the Classroom since 
its inception in 1981 is $8,081,750. Appropriations are as follows: 
fiscal years 2010 and 2009, $553,000 per year; fiscal year 2008, 
$553,101; fiscal year 2007, $0; fiscal year 2006, $856,350; fiscal year 
2005, $730,112; fiscal year 2004, $622,307; fiscal year 2003, $700,000; 
fiscal year 2002, $600,000; fiscal year 2001, $452,000; fiscal year 
2000 through 1997, $208,000 annually; fiscal year 1996, $204,880; 
fiscal year 1995, $208,000; fiscal year 1994, $185,000; fiscal year 
1993 and 1992, $208,000 annually; fiscal year 1991, $170,000; fiscal 
year 1990, $135,000; fiscal year 1989, $87,000; fiscal year 1988 and 
1987 $74,000 per year; and fiscal year 1986, $76,000.
    AITC is administered through program staff in the Higher Education 
Programs unit in NIFA. The USDA's national staff consists of a national 
program leader, a program specialist, and a program assistant. Each 
State organization operates their programs independently and according 
to their individual needs. State AITC programs employs full and/or 
part-time staff or relies on volunteers to carry out its mission. The 
national program staff works collaboratively with the Consortium of 
State Agriculture in the Classroom Programs to maintain an active and 
national role in promoting agricultural literacy.

                      CHILDHOOD FARM SAFETY, IOWA

    The objective of the project is to identify the strengths and 
weaknesses of delivering farm safety and health messages through the 
Farm Safety 4 Just Kids, FS4JK, organization by gathering information, 
conducting focus group sessions, and identifying knowledge, attitude, 
and behavioral changes among previous participants. Each of the 10 
randomly selected FS4JK Chapter focus groups was facilitated by a local 
leader to identify their unique strengths, weaknesses, ways to address 
each, and strategies to implement change. Five strengths and four 
weaknesses were identified from the chapter telephone interviews 
completed in the fall of 2008. The strengths included community 
support, youth/peer involvement, strong activities, member attributes, 
and business partnerships. The four weaknesses included no/few members, 
funding, time, and awareness/community support/newness. Additional SWOT 
(Strengths, Weaknesses, Opportunities, and Threats) analyses are being 
conducted with additional chapters.
    The work supported by this grant began in fiscal year 2008 with an 
appropriation of $74,475; for fiscal year 2009, $69,000; and for fiscal 
year 2010, $75,000. A total of $218,475 has been appropriated.
    Work is being conducted at the Farm Safety 4 Just Kids in 
Urbandale, Iowa.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

              CONSERVATION TECHNOLOGY TRANSFER, WISCONSIN

    The goal of this project is to coordinate conservation education on 
soil and water issues including nutrient management. To date, one 
example of success pertains to integrated University research and 
extension outreach with Natural Resources Conservation Service 
technical assistance mission. This integrated effort has resulted in 
cooperative programs that have been used to train and give direct on-
farm consultations and nutrient management assessments to over 2,000 
producers who farm a total of 1,358,958 acres in 63 Wisconsin counties. 
Ninety-five percent of these producers completed a nutrient management 
plan or have one in development. Cost savings in lower fertilizer 
inputs have exceeded $1,200 annually per farmer in a representative 
sample of those who follow their plans. The Discovery Farms and Pioneer 
Farms portions of this program reach over 10,000 additional farmers per 
year with on-farm demonstrations, educational publications and local 
meetings designed to stimulate their interest in nutrient management 
planning and other conservation practices. Finally, local newsletters 
are used to inform thousands of farmers and other Wisconsin landowners 
annually, of important conservation education and cost share programs.
    The work supported by this grant began in fiscal year 2000 with an 
appropriation of $170,000; for fiscal year 2001, $473,955; for fiscal 
year 2002, $490,000; for fiscal year 2003, $496,750; for fiscal year 
2004, $447,345; for fiscal year 2005, $463,264; for fiscal year 2006, 
$481,140; for fiscal year 2007, $0; for fiscal year 2008, $372,375; and 
for fiscal years 2009 and 2010, $376,000 per year. The total amount 
appropriated is $4,146,829.
    This project is being conducted with individual producers and land 
managers throughout Wisconsin, in coordination with USDA Agricultural 
Research Stations operated by the University of Wisconsin, Madison. A 
number of other States are also adapting portions of the program.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                         DAIRY EDUCATION, IOWA

    The goals of this program Are: (1) to retain and grow the business 
of existing dairy farm families; (2) foster the development of new 
family dairy operations; (3) recruit dairy families from other regions 
to Northeast Iowa; (4) improve the image of the dairy industry; and (5) 
support specialized dairy production and processing.
    These goals are being realized by providing educational 
opportunities for current and future dairy industry participants. Since 
2000, the Northeast Iowa Dairy Foundation has helped contribute to the 
success of more than 300 students enrolled in the program's dairy 
curriculum. Approximately 95 of those 300 former students now operate, 
own, and/or manage successful dairy farms, milking roughly 12,730 cows 
and generating $203,680,000 in economic activity each year. These farms 
have contributed to a strong rural economy and infrastructure in Iowa. 
It is estimated that every 50 dairy cows create one full-time 
equivalent farm job, so at least 28 farm jobs have been created by the 
cows being milked by alumni of this program. Totaled, at least 61 
agricultural jobs are saved annually as a result of this program. 
Moreover, for every new job created in agriculture, an additional 1.3 
jobs are added to the State's employment base; so in addition to the 61 
agricultural jobs, graduates contribute to another 79 off-the-farm 
jobs, for a total of 140 jobs created annually.
    The work supported by this grant began in fiscal year 2001. The 
appropriation for fiscal year 2001 was $237,476. In fiscal year 2002, 
the appropriation was $232,000; in fiscal year 2003, $233,473; in 
fiscal year 2004, $210,749; in fiscal year 2005, $229,152; in fiscal 
year 2006, $226,710; in fiscal year 2007, $0; in fiscal year 2008, 
$168,810; in fiscal year 2009, $159,000; and in fiscal year 2010, 
$175,000. The total amount appropriated is $1,872,370.
    The work in this program takes place at The Dairy Education and 
Applied Research Center, located one mile South of Calmar, Iowa, 
adjacent to the Northeast Iowa Community College Calmar Campus. 
Resources at this Center include a 17,000 square foot education center, 
laboratories, and production facilities for 200 dairy cows.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

     DIABETES DETECTION AND PREVENTION, WASHINGTON AND PENNSYLVANIA

    The goal of the integrated extension and research project, led by 
the Joslin Diabetes Center, is to develop and conduct a community-
based, extension diabetes detection and prevention program that would 
increase public awareness of diabetes, risk factors for diabetes, and 
healthy living behaviors to prevent or delay diabetes and related 
complications. In 2009, specific program aims are: continued expansion 
of the On the Road<SUP>TM</SUP> sites to increase awareness, 
identification and proper management of diabetes; investigate methods 
for community screening of diabetes with emphasis on post-screening 
follow-up; test and evaluate the community use of On the 
Road<SUP>TM</SUP> nutrition and exercise modules; develop and establish 
a yearly Diabetes Symposium in Hawaii aimed at providers, community 
health workers and patients; update and manage the project database to 
improve data collection and analyses and program evaluation; develop 
and publish a Medication booklet to accompany On the Road<SUP>TM</SUP> 
materials; update and deploy retinal imaging equipment; and establish 
project sustainability and outreach to non-partner States and expansion 
into new venues.
    The goal of the work by Temple University in collaboration with 
Pennsylvania State University Cooperative Extension is to promote 
behaviors that are associated with decreased risk of obesity, diabetes 
and its complication in underserved urban communities. For this work, 
Temple University is using Dining with Diabetes, a well-established 
program created and used by Extension educators for community-based 
diabetes support and education of adults with type 2 diabetes. In 
addition, Temple University is conducting formative research among 
students, parents and school food service on breakfast participation 
among middle school students as relates to incidence and prevalence of 
overweight and obesity.
    An example of one accomplishment pertains to the Joslin Diabetes 
Center lead extension and research activities is the Diabetes Symposium 
in Hilo, Hawaii:
    Joslin Diabetes Center worked with University of Hawaii partners to 
put together the first annual Big Island Diabetes Summit. This 3-day 
event took place in Hilo October 17, 2009. Joslin faculty presented 
sessions on nutrition and diabetes management to physicians--35, 
dietitians and nurse educators--35, and people with diabetes--60 with 
over 130 attendees in attendance. The Big Island Diabetes Summit was 
developed to provide education, tools and resources to an area 
educationally underserved for both providers and patients.
    People with diabetes and caregivers were invited to attend the 
evening Summit session that included a free A1C and Blood Pressure 
screening before the event. Several caregivers not previously diagnosed 
were identified with A1C, greater than 6.5 percent, criteria for 
referral for full evaluation and possible diagnosis of diabetes. The 
session included an interactive education dinner with carbohydrate 
counting tips and healthy eating resources.
    The event was well received by all groups and will be held again 
next year as the 2nd Annual Big Island Diabetes Summit. Local radio 
stations expressed interest in the event, as well as other local 
businesses. Planning for next year includes attaining more support and 
involvement from local businesses and organizations.
    The work supported by this grant began in fiscal year 1999. The 
funds appropriated to date are: 1999: $550,000; 2000: $550,000; 2001: 
$923,963; 2002: $906,000; 2003: $917,994; 2004: $1,089,534; 2005: 
$1,084,256; 2006: $1,082,070; 2007: $0; 2008: $806,316; 2009: 
$1,033,000; 2010: $1,033,000; total appropriated is $9,976,133.
    The research aspects of the work to include educational development 
for the ``On the Road'' materials and data analysis are being carried 
out at the Joslin Diabetes Center in Boston, Massachusetts. ``Dining 
with Diabetes'' materials are developed at the West Virginia University 
by Extension staff. The Cooperative Extension office of each of the 
five Land-Grant Universities--Washington State University, the 
University of Hawaii, New Mexico State University, West Virginia 
University, Pennsylvania State University--are sites for educational 
material development, training of professionals and paraprofessionals, 
and data storage. The project makes a deliberate attempt to reach 
diverse and underserved audiences outside the mainstream healthcare 
system through a variety of methods and at non-traditional sites. For 
example, the program is being conducted in a diabetes screening and 
health center in a shopping center in Hilo, Hawaii, and in community 
facilities in Washington and New Mexico. In New Mexico, the project 
attempts to work with the colonistas, located along the border and 
among the Nation's poorest; New Mexico has implemented the program with 
the Navajo Nation. In addition, Temple University in Philadelphia, 
Pennsylvania, is the site of two program interventions related to 
community based approaches to prevent a treat obesity and diabetes.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                        E-COMMERCE, MISSISSIPPI

    The E-Commerce Extension Demonstration Project helps small 
businesses and rural communities use information technology to 
strengthen and develop businesses and to create a supportive business 
climate in rural communities. Its goal is to grow the rural economy by 
developing and delivering timely information, training, and technical 
assistance to the hundreds of small businesses and business leaders 
that dominate rural America's economic landscape. It builds the 
capacity of the land-grant university system to conduct research, 
deliver science-based information, train educators, and deliver high 
quality e-commerce education. The project is under the leadership of 
the Southern Rural Development Center (SRDC) and operates in 
partnership with the three other Regional Rural Development Centers and 
the Nation's Cooperative Extension Service.
    In fiscal year 2009, the project's competitive grants program has 
awarded nearly $600,000 to date involving the development of 15 
educational resources or curricula. It worked with e-commerce grantees 
to develop and release four comprehensive on-line curriculum products 
in 2009 for use by Extension educators and customers across the Nation. 
They are ``Marketing Food Specialty Products Online,'' ``Beginner's 
Guide to e-Commerce,'' ``Web site Basics: A Primer for Hispanic Small 
Businesses''--available in English and Spanish, and ``Electronic 
Retailing: Selling on the Internet.'' The project's National e-Commerce 
Extension Advisory Committee reviewed and recommended funding for the 
development of three new curriculum products slated for release in 
2010. They are ``Web Presence Strategies for Small Communities and 
Local Governments,'' ``Using Social Networking Tools to Enhance Small 
Business,'' and Search Engine Optimization (SEO) Strategies.'' The 
project updated and maintained the National e-Commerce Extension 
Initiative Web site, a state-of-the-art site that offers Extension 
educators and consumers high quality broadband and e-commerce 
information on a 24/7/365 basis. From January to November of 2009, the 
National eCommerce Extension Initiative Web site generated 10,729 
individual non-repeat visitors according to the Google analytic reports 
we prepared.
    The project awarded six competitive State mini-grants to help 
facilitate the launching of e-commerce programming that supports ``on 
the ground'' piloting of the resources developed by the SRDC. Mini-
grants were awarded to teams of Extension educators in Alabama, 
Oklahoma, Michigan, Missouri, South Carolina, and Tennessee. To date, 
these grants have resulted in nine workshops in five States and one 
national webinar. Three of the six awardees report evaluation efforts 
for both short and long term workshop participant impacts.
    It developed and released a second round mini-grant Request for 
Proposals (RFP) in the fall of 2009 and produced and published six 
eNews electronic newsletters, distributed to over 1,000 people 
nationwide, offering ready access to research reports, statistical 
data, and educational programs as they relate to e-commerce. It also 
organized and hosted a series of four webinars that offered Extension 
Educators and other participants effective strategies for using the 
newly released e-commerce curricula. It researched, completed, and 
released a tutorials section of the National e-Commerce Extension 
Initiative Web site created to give Web site users information about 
Web site design, set-up, and maintenance. Finally, it reviewed and 
approved sources for the ``Library of Resource'' section of the 
National e-Commerce Extension Initiative Web site. The Library section 
is a comprehensive listing of other sources available throughout the 
Internet that can enhance one's awareness and knowledge of a host of e-
commerce resources and programs.
    The work supported by this grant began in fiscal year 2003. The 
appropriated amount was $372,563 for fiscal year 2003; $344,018 for 
fiscal year 2004; $331,328 for fiscal year 2005; $327,690 for fiscal 
year 2006; $0 for fiscal year 2007; $246,264 for fiscal year 2008; and 
$231,000 per year in fiscal years 2009 and 2010. A total of $2,083,863 
has been appropriated.
    The work is being carried out through the leadership of the SRDC 
located at Mississippi State University. It draws on SRDC's network of 
Extension faculty located in land-grant institutions in Mississippi, 
the south, and nationally, and its partner Regional Rural Development 
Centers in the northeast, north central, and western regions.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

               EFFICIENT IRRIGATION, NEW MEXICO AND TEXAS

    The main objective is to efficiently use and/or conserve the 
limited available water in the Texas and New Mexico Rio Grande Basin in 
order to meet present and future water needs for the region. In doing 
so, this project will provide extension education to increase the 
efficiency of agriculture and urban landscape irrigation and encourage 
the development of efficient water markets in the Rio Grande Basin. 
This project will also focus on defining current irrigation district 
and system deficiencies and work towards correcting those practices.
    Subject areas addressed include irrigation district studies; 
irrigation education and training; institutional incentives for 
efficient water use; on-farm irrigation system management; urban 
landscape and in-home water conservation; environment, ecology, and 
water quality protection; saline and waste water management and water 
use; basin-wide hydrology studies, salinity modeling, and technology; 
and project oversight, communications, biometric support, and 
accountability for the multi-components of this multi-State project.
    Economics models continue to provide valuable information to 
irrigation districts, aiding them with decision-making on costs, 
rehabilitation, and other issues. Engineers continue to provide 
training and information to irrigation district managers that help 
their district delivery systems work more efficiently. The managers 
value the information provided by both the economists and engineers and 
use it to make management decisions. Other workshops, trainings, short 
courses, and field days have been held for homeowners and agricultural 
producers. These events demonstrate more efficient and water conserving 
technologies, which help the participants realize the importance and 
effects of their water use and practices. Many homeowners in particular 
have adopted these in-home water conservation strategies, saving not 
only gallons of water but money.
    The Nutrient Management Education in the Rio Grande Valley Team 
helped Valley producers reduce fertilizer use to increase their 
profitability and make the Arroyo Colorado Watershed and Rio Grande 
Basin healthy again. Results achieved so far through marketing, 
educational programs and free soil testing campaigns are remarkable: 
Producers adopting these best soil management practices increased by 60 
percent; actual fertilizer application was reduced by more than 2.6 
million pounds of nitrogen and 3 million pounds of phosphorus; growers 
saved $1.6 million or $9.47 to $27.07 an acre; and the watershed's 
water quality improved dramatically.
    The work supported by this grant began in fiscal year 2001, and the 
appropriation for fiscal year 2001 was $1,895,820; for fiscal year 
2002, $1,960,000; for fiscal year 2003, $2,026,740; for fiscal year 
2004, $2,057,787; for fiscal year 2005, $2,161,568; for fiscal year 
2006, $2,301,750; for fiscal year 2007, $0; for fiscal year 2008, 
$1,714,911; and for fiscal years 2009 and 2010, $1,610,000 per year. 
The total amount appropriated is $17,338,576.
    Texas A&M University and New Mexico State University jointly 
conduct this extension program through coordination provided by Texas 
A&M University Extension.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                   EXTENSION SPECIALIST, MISSISSIPPI

    The goal of this project is to gather and disseminate critical 
agricultural weather data for producers and researchers in Mississippi, 
surrounding States, and the Nation.
    Weather stations were installed to provide data for USDA and 
Mississippi Agricultural and Forestry Experiment Station (MAFES) 
scientists to predict seasonal variation with wind. Information is 
planned to be part of the Delta Agriculture Weather Center Web site. 
The information available primarily on the interactive Internet Web 
site (www.deltaweather.msstate.edu), has contributed greatly to the 
actual and potential annual savings for cotton, soybean, and rice 
producers. The Rice DD50 program allows farmers to reduce their risks 
and thus avoid possible losses due to untimely application of 
protection material for certain insects. Cotton DD60 heat units made 
available on a daily basis can allow the Mississippi Delta farmers to 
reduce the cost of treatments by over $24 million annually. This 
reduction in treatments translates into over 112,000 pounds of active 
ingredient of pesticide applications not sprayed in the Mississippi 
Delta per year. They also use these data to monitor the cotton boll 
formation to help time harvest aid application for economical 
defoliation.
    The funding for fiscal years 1997 and 1998 was $50,000 each year; 
for fiscal years 1999-2000, $100,000 each year; for fiscal year 2001, 
$99,780; for fiscal year 2002, $100,000; for fiscal year 2003, 
$l49,025; for fiscal year 2004, $133,209; for fiscal year 2005, 
$131,936; for fiscal year 2006, $130,680; for fiscal year 2007, $0; for 
fiscal year 2008, $98,307; for fiscal year 2009, $92,000; and for 
fiscal year 2010, $98,000. A total of $1,332,937 has been appropriated.
    The project is conducted by Mississippi State University at the 
Delta Research and Extension Center in Stoneville, Mississippi.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                   FOOD PRODUCTION EDUCATION, VERMONT

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $120,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.

                 HEALTH EDUCATION LEADERSHIP, KENTUCKY

    The goal of this program is to develop a partnership among the 
University of Kentucky Cooperative Extension Service, the Kentucky 
College of Public Health, and the academic health centers at the 
University of Kentucky to improve the health status of Kentucky 
citizens through (1) utilizing a model for family health with the 
framework as the family being the micro unit in a macro system of 
public health and healthcare and being the first providers of 
healthcare and prevention; (2) creating a partnership of families, 
communities, Extension professionals, and university researchers to 
design and implement programs at the local level that will change the 
health status of Kentuckians; and (3) utilizing a diffusion model to 
more rapidly diffuse new research findings and programs throughout the 
State and examine the effectiveness of new health behavior 
interventions.
    The following innovative programs have been developed and 
implemented: Get Moving Kentucky, A Matter of Balance, The Literacy, 
Eating, and Activity for Pre-School Program, Small Steps to Health and 
Wealth and Team-Up Cancer Screening. The Literacy, Eating, and Activity 
program added an additional 12 curriculum modules. The Blue to You, 
Mental Health for Women curriculum was piloted in 11 western Kentucky 
counties and evaluation is underway. Wellness in Kentucky has been 
adapted from Wellness in the Rockies and will be implemented statewide 
during 2010. The American On the Move program designed for Cooperative 
Extension has been integrated into the Get Moving Kentucky program. 
This program is being used by Extension educators in several counties 
and data collected on participants' progress will be helpful to program 
evaluation. Both the Men's health program and the Smoking Cessation 
social marketing program and curriculum have been tested and data 
collected for program evaluation prior to full-scale implementation in 
2011.
    The work supported by this grant began in fiscal year 2002 with an 
appropriation of $800,000. Additional appropriations are $894,150 for 
fiscal year 2003; $800,251 for fiscal year 2004; $843,200 for fiscal 
year 2005; $834,570 for fiscal year 2006; $0 in fiscal year 2007; 
$627,576 in fiscal year 2008; and $590,000 per year in fiscal years 
2009 and 2010. A total of $5,979,747 has been appropriated.
    The program is being carried out at the University of Kentucky and 
in all 120 counties in the State of Kentucky.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                 INCOME ENHANCEMENT DEMONSTRATION, OHIO

    The goal of this project is to develop new agricultural businesses 
and restructure and expand existing businesses in response to domestic 
and international challenges. In 2005, the project moved from the Ohio 
State University to the Edison Industrial Systems Center and, more 
specifically, to a non-profit subsidiary of that company, the 
Innovative Food Technology Center. To date, current progress and new 
accomplishments include, but are not limited to the following:
  --Urban Agriculture/Novel Growing Systems.--During the past year, 
        existing demonstrations of high tunnel, unheated ``hoop 
        houses'', and of high-density, vertical hydroponic growing 
        systems were expanded. The goal of the demonstrations was to 
        illustrate the economic benefit of each of the technologies. As 
        a direct result of these demonstrations, one additional hoop 
        houses, as well as nine additional hydroponic systems, were 
        purchased by northwest Ohio entities and organizations.
  --Green Products.--Since initiating efforts in this area, CIFT has 
        been in contact via seminars, Web broadcasts, and personal 
        contact, with more than 200 producers or potential producers of 
        green products or green versions of existing products. This has 
        resulted in two new product launches by CIFT constituents.
  --Biomass Processing.--At the request of several industry, community, 
        and governmental groups, CIFT is participating in the Wood 
        County, Ohio-Agricultural Task Force, a group that is examining 
        the economics of a community based anaerobic digester. Inspired 
        by this project, CIFT has also been requested to organize a 
        similar effort in Defiance County, Ohio.
  --Energy Crops.--A current project involving a demonstration and 
        evaluation of camelina is underway. As the crop is harvested, 
        oil will be extracted and evaluated in order to determine 
        whether favorable economics would exist for expanded production 
        of camelina as an ``extra'' crop in Ohio, increasing per acre 
        revenue for midwestern growers. CIFT is also actively involved 
        in promoting the results of research that is undertaking with 
        the University of Toledo to produce algae as a source of 
        biofuel feedstock.
  --Food Safety Training.--Several years ago, CIFT was selected as the 
        lead food safety educator for the Good Agricultural Practices 
        program offered by the Mid-American Agricultural and 
        Horticultural Services organization. CIFT has continued to 
        offer this type training to small specialty crop growers, 
        either as individual consulting, or in educational programming 
        opportunities.
  --Alternate Protein Sources.--During the past year, several 
        technology development projects were completed by CIFT that 
        dealt with methods to provide protein to feeding programs for 
        the poor, for school children, and for elderly. These projects 
        each considered safe and healthy alternates for these programs. 
        They each also had significant economic development advantages 
        inherent in their concepts. During the coming year, CIFT will 
        attempt to develop evaluation and implementation plans for each 
        of the results. The projects are, first, a product development 
        effort to produce high protein canned meat product by combining 
        mechanically separated poultry and soy protein isolates. The 
        rationale is that this product will provide economic benefit to 
        the poultry industry by upgrading a marginally valuable 
        ingredient, while at the same time increasing the nutritional 
        value of protein sources distributed through feeding programs. 
        The second project evaluated the economics of growing various 
        dry bean cultivars and utilizing them to prepare healthy, high 
        protein meals for feeding programs. Finally, CIFT is leading 
        the Lake Erie Underutilized Fish Marketing Project, a 
        consortium which is evaluating the use of several nutritious 
        and plentiful fish species from Lake Erie to manufacture 
        alternative value added, preserved seafood products.
    The project began in 1991. Appropriations have been as follows: 
$145,000 in fiscal year 1991; $250,000 per year in fiscal years 1992 
through 1995; $246,000 per year in fiscal years 1996 through 2000; 
$245,459 in fiscal year 2001; $241,000 in fiscal year 2002; $239,434 in 
fiscal year 2003; $213,732 in fiscal year 2004; $725,152 in fiscal year 
2005; $1,234,530 in fiscal year 2006, $0 in fiscal year 2007; $919,518 
in fiscal year 2008; and $864,000 per year in fiscal years 2009 and 
2010. Appropriations to date total $7,921,825.
    The work is being carried out at the facilities of the Innovative 
Food Technology Center, Toledo, Ohio.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

            INSTITUTE FOR SUSTAINABLE AGRICULTURE, WISCONSIN

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $400,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.

           INVASIVE PHRAGMITE CONTROL AND OUTREACH, MICHIGAN

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $155,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.

                          IOWA VITALITY CENTER

    The program was established to develop policy analysis to improve 
rural vitality in the State.
    The survival of many of Iowa's rural communities is in question, 
and communities in the State vary in their capacity to stimulate 
development and economic growth. The need for this program is to assist 
residents of Iowa's small and medium-sized rural communities as they 
work to improve economic and social conditions and achieve sustainable 
rural and community vitality. Since 2007 the project has focused on its 
Microenterprise Initiative. The local need for microenterprise 
assistance, entrepreneurial development projects, and community 
philanthropy in creating community vitality is increased because of 
weather related disasters and the credit crisis, drop in commodity 
prices, and overall economic downturn.
    In 2009, the project continued technical assistance and funding 
support for Iowa's statewide MicroLoan entity called the Iowa 
Foundation for Microenterprise and Community Vitality, a 501(c)(3) 
nonprofit foundation organized by the project as a statewide microloan 
intermediary that contracts with Cooperative Extension to coordinate 
Technical Assistance for Microloan clients. It designed Iowa's 
Microloan Web site, and went live in January 2009 
(www.iowamicroloan.org). During 2009, 60 applicants who were denied 
credit by commercial lenders were assisted by the project in developing 
Iowa Microloan applications; 20 microloan clients were approved for a 
microloan for which the project developed a technical assistance plan 
in collaboration with the entrepreneur; two-thirds of the microloan 
clients were startups and one-third were expansions; 2 microloan 
clients were minorities; no delinquencies or defaults were experienced 
in first year; and 15 Technical Assistance plans were developed and 
implemented. It also identified collaborators and negotiated agreements 
with eight Iowa regional and statewide microenterprise assistance 
networks.
    The project provided technical assistance to the Community 
Foundation of Greater Des Moines in organizing microenterprise and 
philanthropy projects for five rural affiliate county foundations. It 
also initiated four nonmetro county philanthropy capacity projects in 
collaboration with Iowa Council of Foundation--www.cvcia.org. It 
initiated the Ghana Millennium Fund Agricultural Microfinance 
Consultancy and consulted on New Market Tax Credits for four rural 
projects with three Iowa-based Community Development Entities.
    The project completed 15 County Reports for its Rural Migration 
Study and conducted 20 local and regional meetings with 365 community 
leaders--www.cvcia.org. It also conducted local demonstrations to help 
seven community entrepreneurs, and co-sponsored 12 succession planning 
workshops. It completed the Youth Marketplace Entrepreneurship Project 
in Sac County Middle Schools.
    The work supported by this grant began in fiscal year 2002. 
Appropriated amounts are: fiscal year 2002, $280,000; fiscal year 2003, 
$278,180; fiscal year 2004, $250,513; fiscal year 2005, $248,000; 
fiscal year 2006, $245,520; fiscal year 2007, $0; fiscal year 2008, 
$223,425; fiscal year 2009, $209,000; and fiscal year 2010, $250,000. A 
total of $1,984,638 has been appropriated.
    The program is being conducted at Iowa State University.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                 MAINE CATTLE HEATLH ASSISTANCE PROGRAM

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $700,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.

                 NATIONAL CENTER FOR FARM SAFETY, IOWA

    The project supports training at the National Education Center for 
Agricultural Safety, or NECAS, to reduce the level of preventable 
illnesses, injuries, and fatalities among agricultural populations. The 
NECAS provides hand-on training to emergency response personnel and 
first responders. NECAS also develops, implement, and evaluate diverse 
training methods for at-risk agricultural audiences.
    Training topics covered included agricultural rescue and emergency 
preparedness, commercial training on hazardous material handling and 
pesticides, and youth and elderly farm safety training. The Center also 
conducted awareness and informational programs on rural and 
agricultural health, certification of safe farms, farm equipment 
rescue, and safe tractor operation.
    The work supported by this grant began in fiscal year 1998 with an 
allocation of $195,000 per year for fiscal years 1998-2000; for fiscal 
year 2001, $194,571; for fiscal year 2002, $196,000; for fiscal year 
2003, $196,713; for fiscal year 2004, $223,673; for fiscal year 2005, 
$241,056; for fiscal year 2006, $238,590; for fiscal year 2007, $0; for 
fiscal year 2008, $167,817; for fiscal year 2009, $158,000; and for 
fiscal year 2010, $170,000. The total amount appropriated is 
$2,371,420.
    The National Education Center for Agricultural Safety is located at 
the Northeast Iowa Community College in Peosta, Iowa.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                    NUTRITION ENHANCEMENT, WISCONSIN

    The objectives of this program are to improve food security of 
school-age children through school breakfast promotion, enhancement, 
and coordination by increasing the number of children and schools 
participating in the school breakfast programs; to provide research-
based information, education and outreach associated with school 
breakfast promotion and enhancement to support county-based Extension 
staff efforts that further the school breakfast program; to provide 
research-based information, education and outreach related to school 
breakfast programs to schools across the State; and to provide 
leadership to statewide efforts to collect and summarize impact 
evaluation results related to school breakfast. Other initiatives 
include conducting in-depth interviews with key school food service 
directors from across the State to obtain detailed information for non-
participation in the breakfast program. In addition, efforts will focus 
on working with non-participating schools which qualify as severe, or 
schools with high percentages of free and reduced price qualifying 
students.
    To date a number of activities have been completed or are in 
progress. Following a noncompetitive grant application process, mini 
grants were awarded in September 2009 for schools to implement new 
breakfast programs or to improve an existing program. Forty-two 
Wisconsin schools received funding to start up a new breakfast program 
and 111 received program improvement grants. The conversion of the 
current school breakfast Web site to an updated blog is near 
completion. This new blog will incorporate easier navigation features 
and integrate new research and updated reports currently not found on 
the Web site. Formation of the school breakfast advisory board is in 
progress. A face to face meeting of this Board with key leaders in 
school breakfast promotion was in January 2010. Work with 
organizational partners, such as the Wisconsin Dietetic Association, 
the Wisconsin School Nutrition Association, Wisconsin Parent Teacher 
Association, and the Wisconsin Milk Marketing Board continues and is 
vital to the promotion of school breakfast programs across the State. 
Determination of severe need, non-participating schools is a project 
that is based on the most current data Wisconsin Department of Public 
Instruction collects from schools and this data is scheduled for 
release in spring 2010. Due to a demand for more information on school 
breakfast, two regional conferences will be offered in 2010. The first 
will be in Stevens Point, Wisconsin in February 2010 and the second in 
Fond du Lac, Wisconsin in April 2010.
    The work supported by this grant began in fiscal year 2004 with an 
appropriation of $894,690; $965,216 in fiscal year 2005; $1,089,000 in 
fiscal year 2006; in fiscal year 2007, $0; in fiscal year 2008, 
$744,750; in fiscal year 2009, $751,000; and in fiscal year 2010, 
$950,000. A total of $5,394,656 has been appropriated.
    The work is being carried out at the University of Wisconsin--
Extension, Madison, in collaboration with the Wisconsin Department of 
Public Instruction and in 153 schools.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                   OHIO-ISRAEL AGRICULTURE INITIATIVE

    The grant is for the Cleveland-based Negev Foundation to promote 
the exchange of agricultural technology and resources between Israel 
and the State of Ohio. The objective of the Initiative is to foster 
greater collaboration between Ohio and Israeli government and research 
institutions, farmers and companies; develop joint research and 
development and educational activities; identify agribusiness ventures 
based on new technologies; introduce potential investors; and expand 
commercial ties and market access in both regions. Activities underway 
include exports of Ohio-bred beef calves to Israel, agricultural 
biosecurity training, soybean purchases and joint processing 
facilities, aquaculture cooperation, drip irrigation demonstrations in 
Ohio, model greenhouse development, participation in trade shows (trade 
shows in Israel promoting Ohio agricultural exports), and joint Ohio-
Israel applied research and scientific exchanges on dairy production, 
food safety, integrated pest management, precision and no-till 
agriculture, and greenhouse technologies.
    This project began in fiscal year 2004. The fiscal year 2004 
appropriation was $536,814; for fiscal year 2005, $564,448; for fiscal 
year 2006, $587,070; for fiscal year 2007, $0; for fiscal year 2008, 
$495,507; for fiscal year 2009, $466,000; and for fiscal year 2010, 
$700,000. The total amount appropriated is $3,349,839.
    The project is implemented by the Negev Foundation of Cleveland, 
Ohio, and project activities are being carried out primarily in Ohio 
and Israel. The Ohio State University (OSU) is collaborating with Negev 
on several activities, including on-campus seminars, participating in 
trade mission teams, exchanging agricultural research findings and 
technologies with Israeli scientists, and engaging OSU Cooperative 
Extension Service personnel as appropriate.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

      PILOT TECHNOLOGY TRANSFER PROJECTS, OKLAHOMA AND MISSISSIPPI

    The goal of these projects to contribute to an increase in business 
productivity, employment opportunities, and per capita income by 
increasing information technology capital, locally and throughout the 
States, and applying information from Federal laboratories, Cooperative 
Extension, and other university departments and non-campus agencies. 
The specific program objectives are to enhance profitability for 
existing enterprises; aid in the acquisition, creation, or expansion of 
business and industry in the area; establish an effective response 
process for technological and industrial-related inquires; devise 
effective communication procedures regarding the program for the 
relevant audiences; and provide one-on-one and on-site engineering, 
technology, and management assistance to small-scale rural 
manufacturers. Oklahoma's Manufacturing Extension Partnership--the 
Oklahoma Alliance for Manufacturing Excellence has received national 
acclaim for its noteworthy and effective partnership with the land-
grant university.
    In Oklahoma, for fiscal year 2009, the reported impact of the 
Applications Engineering program on client projects totaled over $68 
million. This included approximately $31.5 million in sales increase/
retention, $5.8 million in cost savings/avoidance, $15.3 million in new 
investment in facilities and equipment, and 209 jobs created or 
retained with an economic impact of approximately $15.8 million.
    In Mississippi, primary impacts included increased knowledge and 
skills regarding software selection and use, hardware selection/
procurement, technological advances, and technology planning/
implementation. Specific impacts included persons obtaining jobs due to 
increased skills, companies having better trained and more capable 
employees, and individuals being more effective and efficient in their 
personal lives.
    Funding appropriated to date is as follows: $350,000 per year in 
fiscal years 1984 and 1985; $335,000 in fiscal year 1986; $333,000 per 
year in fiscal years 1987 through 1990; $331,000 per year in fiscal 
years 1991 through 1995; $326,000 per year in fiscal years 1996 through 
2000; $325,283, 2001; $319,000, 2002; $335,803, 2003; $300,218, 2004; 
$297,600, 2005; $297,000, 2006; $0, 2007; $223,425, 2008; and $209,000 
per year, 2009 and 2010. Total appropriations are $8,168,329.
    The Oklahoma efforts are being coordinated at Oklahoma State 
University and at Rural Enterprises of Oklahoma, Inc. In addition, work 
is being done in the offices and shop floors of small, rural 
manufacturers across Oklahoma and Mississippi. Coordination of work is 
being carried out at Mississippi State University and on the shop 
floors of small, rural manufacturers, community colleges, on the 
Internet, and in every county in Mississippi.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                  PILOT TECHNOLOGY TRANSFER, WISCONSIN

    The Manufacturing Technology Transfer programs principal objective 
in the development of a competitive, secure manufacturing base for 
rural communities through the mechanism of industrial extension. The 
program principally targets small and medium-size manufacturers in the 
economically distressed counties of Northwest Wisconsin.
    In 2007, the project managers report that this funding produced the 
following impacts for program participants in Northwest Wisconsin: 
increased sales, retention of sales, cost savings, targeted technology 
investments by clients totaling $90 million; 2,600 jobs were retained 
or created; 114 small and medium-sized manufacturers were served with 
165 technology transfer projects.
    In 2009, project managers continued to pilot test the relevance and 
effectiveness of new technology, business strategies, and systems by 
monitoring new concepts, systems, and technology with companies in our 
region. Project managers attended seminars to develop competencies in 
the topics selected. They also will continue to refine their 
Cooperative Extension activities by exploring ways to facilitate 
entrepreneurship by making referrals to and working closely with 
organizations such as the Small Business Development Center, University 
of Wisconsin--Extension, Small Business Association, University of 
Wisconsin--Stout's Economic Development Administration, and University 
of Wisconsin--Stout's Center for Innovation and Development.
    This project has been underway since fiscal year 1992 and was 
funded for $165,000 per year in fiscal years 1992 through 1995; 
$163,000 per year in fiscal years 1996 through 2000; $162,641, 2001; 
$160,000, 2002; $161,941, 2003; $214,726, 2004; $231,136, 2005; 
$247,500, 2006; $0, 2007; $184,698, 2008; and $174,000 per year, 2009 
and 2010. A total of $3,185,642 has been appropriated.
    The program has been carried out in northwest Wisconsin at the 
University of Wisconsin, Stout campus, and at the facilities of the 
following technical colleges in northwest Wisconsin: Chippewa Valley, 
North Central, Nicolet, and Wisconsin Indianhead. Work has also been 
carried out on-site at small and medium-size manufacturing companies in 
northwest Wisconsin.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                POTATO INTEGRATED PEST MANAGEMENT, MAINE

    The goal of this extension education project was to improve disease 
forecasting and management of potato late blight by providing growers 
with educational information to make decisions relating to field 
management of the late blight races and other pest problems, potato 
disease forecasting, disposal of cull potatoes, insect spread of potato 
diseases, insect management, implementation of economic thresholds, 
insect identification, disease identification, weed identification, and 
increase the knowledge base by increasing research efforts.
    The University of Maine Cooperative Extension's Potato Integrated 
Pest Management program impacts nearly 60,000 acres of potatoes. The 
program employs 26 program aides, maintains nearly 150 specialized 
insect traps, coordinates a statewide network of electronic weather 
stations, and surveys 125 potato fields on a weekly basis for weeds, 
insects, and diseases. The data produced help scientists track 
potential pest outbreaks and helps provide growers with current 
information on specific and timely treatments in order to minimize the 
number of pesticide applications and maximize potato yield. Weather 
conditions during the 2008 growing season were extremely conducive for 
the development of potato late blight. In the month of June, it rained 
23 of 30 days. This was a 40 percent increase in rainfall as compared 
to the average. Over 60 percent of the fields surveyed by the 
integrated pest management program in 2008 had detectable levels of 
potato late blight in them. Grower implementation of the Extension 
computerized disease forecasting program coupled with fungicide 
selection and applications, field scouting, early detection, and 
appropriate management strategies allowed growers to successfully cope 
with the serious late blight pressure. Minimal storage losses 
attributed to potato late blight were experienced with the 2008 crop. 
It was estimated that the total economic impact of the University of 
Maine Cooperative Extension Potato Integrated Pest Management program 
for the 2008 crop year was $17,216,136.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $297,900; for fiscal year 2009, 
$280,000; and for fiscal year 2010, $450,000. A total of $1,027,900 has 
been appropriated.
    The research is being conducted at the University of Maine and 
throughout the State of Maine.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                   POTATO PEST MANAGEMENT, WISCONSIN

    The of this project is to assist farmers in reducing risks from 
pesticides by working with them to implement practicable pest 
management options and to explore marketing strategies to allow growers 
to capture additional benefits from pesticide reduction. The project's 
accomplishments to date include improving the potato industry's 
environmental performance by increasing adoption of biointensive 
integrated pest management methods through grower education and the 
development of grower outreach tools, developing ecosystem function 
priorities and implementing total farm ecosystem plans, and the 
continued enhancement of a streamlined, real-time certification system 
for certified, eco-labeled niche marketed potatoes. Value-added 
marketing opportunities for fresh market potatoes have been researched, 
and measurement tools for assessing integrated pest management adoption 
and pesticide inputs have been coupled with an environmental potato 
production standard that requires potato growers to meet pesticide 
toxicity reduction and integrated pest management goals. Progress has 
been made in reducing the toxicity levels of pesticides used in potato 
production, while increasing biointensive integrated pest management 
adoption.
    In Wisconsin, the foundation for biointensive integrated pest 
management education has been developed. Educational efforts are being 
proposed to enable growers to integrate biointensive strategies into 
existing production systems. The overall momentum of the collaboration 
has been extremely strong with many accomplishments such as the 
continuation of the marketing effort, enhancements of the collaboration 
standards, improvements of resistance management protocols, database 
implementation, grant coordination and expansion of the development and 
use of educational tools for growers. The project has involved numerous 
faculty, industry representatives, potato and other commodity 
organizations, and environmental organizations to export this 
agricultural model for targeted and industry-wide change. In Wisconsin, 
this work is expanding to other vegetable crops, such as carrots, 
peppers, beans, and peas and is now also expanding to fruit crops. 
Furthermore, the ecological portions of the collaboration have been 
enhanced by working with national and local environmental organizations 
and expanding research with University of Wisconsin faculty through the 
infusion of their expertise, research, and education into the project. 
This strength needs to be maintained, while exporting the model of 
industry-wide agricultural changes through the use of policy and 
communication efforts.
    The work supported by this grant began in fiscal year 2001, and the 
following amounts have been appropriated: 2001, $189,582; 2002, 
$396,000; 2003, $298,050; 2004, $357,876; 2005, $375,968; 2006, 
$396,000; 2007, $0; 2008, $294,921; and 2009 and 2010, $277,000 per 
year. A total of $2,862,397 has been appropriated.
    This work is being conducted with fresh market potato growers in 
the following Wisconsin counties: Adams, Columbia, Barron, Green Lake, 
Langlade, Marquette, Portage, Sauk, Waupaca, and Waushara; apple 
growers in Bayfield, the Chippewa Valley, southeastern counties, and 
Dane County; and apple/cherry growers in Door County.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

                     RANGE IMPROVEMENT, NEW MEXICO

    The focus of the project is the public rangeland resource in New 
Mexico. The Range Improvement Project: Analyzing the Cumulative Impacts 
of Federal Land Policy and Management, formerly called Range Policy 
Development, has a long-term goal to bring disparate information 
together into a single analysis and develop a comprehensive solution to 
issues on Federal land resources and economies. The program developed 
local and regional economic models that link management of Federal 
rangeland and forestland to the economies of rural communities in New 
Mexico. The economic factors of interest included forage loss from 
canopy closure in national forests, endangered species act listings/
designations on habitat and industry, recreation, wilderness, rangeland 
health and monitoring, private property rights, and cultures of the 
region. The modeling activities were intended to inform policy and 
decision makers towards understanding the linkages of local and State 
economies to the industries that rely on services from New Mexico 
public lands.
    It is the vision of this project to merge multiple topics and 
disciplines to do a complete analysis for specific geographic regions 
in New Mexico. This analysis included a historical perspective on land 
uses, economic structure, government regulations, customs and cultures, 
and private property issues. It also encompassed the current land uses 
and management practices, economic structures, government regulations, 
customs and cultures, and private property issues. This project created 
a baseline for future analysis in socioeconomic, timber, recreation, 
and rangeland issues on Federal lands in New Mexico. Education has been 
the primary output related to this project. Information is extended to 
a variety of audiences including landowners, industry and agency 
personnel. These outreach outputs, according to the project leaders, 
might lead to improved site selection, disturbance management, and size 
of oil and gas well sites on New Mexico rangelands and throughout the 
West. These extension efforts provided the data to support the oil and 
gas industry on rangelands with minimized impacts on other uses of the 
public domain while maintaining the environmental services. Outreach 
publications generated by this project coupled with a new rapid 
assessment methodology are both used by landowners, county agents, 
agency personnel, and researchers throughout New Mexico.
    Collection of primary data has occurred on New Mexico ranches, the 
Gila and Lincoln national forests, and Bureau of Land Management 
allotments adjacent to those forests in New Mexico. Modeling efforts 
for this extension project are being carried out at New Mexico State 
University. Regional or county economies have been evaluated for 
economic dependence on multiple use Federal lands. Area residents, 
industry and agency officials were involved in analyzing and checking 
socioeconomic data. Field-collected data were used to update the 
information available from the Bureau of Commerce, U.S. Department of 
Agriculture, and the New Mexico Department of Labor. Broad regional 
interest in the project has led to efforts to expand applications to 
fit other sites in the southwestern United States.
    The amounts appropriated are: 1996-2000, $197,000 per year; 2001, 
$196,567; 2002, $240,000; 2003, $243,408; 2004, $217,708; 2005, 
$232,128; 2006, $241,560; 2007, $0; 2008, $223,425; 2009, $209,000; and 
2010, $223,000. A total of $3,211,796 has been appropriated.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

 UNIVERSITY OF WISCONSIN--EXTENSION NORTHERN AQUACULTURE DEMONSTRATION 
                                FACILITY

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $450,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.

                     URBAN HORTICULTURE, WISCONSIN

    The goal of this program was to provide the fundamental information 
and technology transfer needed by farmers to be successful in the new 
enterprises by increasing the capacity of county-based extension 
faculty to provide information to the public. County-based faculty are 
now working with campus faculty to identify issues where more 
information is needed. The project has expanded its focus beyond 
providing information primarily to producers by including consumers and 
homeowners as well. Overall, over 750 individuals have been empowered 
through community, neighborhood and at-risk population programs focused 
on fruit and vegetable gardening. The second area of research and 
education, impacting over 3,000 horticulturalists in Wisconsin is 
sustainable landscape practices, including Web-based pest 
identification, appropriate pesticide selection, and preserving water 
resources. The project has also involved the creation and dissemination 
of new research-based horticultural knowledge through both 
traditional--fact sheets, Web sites, etc.--venues as well as new 
communication channels--online classes, podcasts, etc. Project funding 
from USDA sources has been heavily supplemented through significant 
volunteer hours, local funding sources, and individual donations. The 
funding has also allowed the project team to leverage significant 
community-based relationships in Wisconsin's most urban counties 
including Milwaukee, Racine, Kenosha, and Waukesha. Two important 
examples include significant educational/facilities formalized 
relationships with the Boerner Botanical Gardens in Milwaukee County as 
well as funding relationship with the Milwaukee based non-profit 
organization ``Growing Power.''
    The work supported by this research began in fiscal year 2002. In 
fiscal year 2002, $200,000 was appropriated 2003, $536,490; 2004, 
$783,351; 2005, $810,464; 2006, $808,830; 2007, $0; 2008, $346,557; and 
2009 and 2010, $376,000 per year. The total appropriated to date has 
been $4,237,692.
    This project is being conducted at the University of Wisconsin at 
Madison through the Wisconsin Extension Service.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

               URBAN HORTICULTURE AND MARKETING, ILLINOIS

    The goals of this project are to provide urban horticulture and 
agriculture training for low-income youth and young adults, produce and 
market locally grown organic produce at a variety of Chicago-area 
markets, and establish a green campus within the community. In 2009, 
Windy City Harvest became the first urban agriculture training 
certificate program in Illinois to be accredited Illinois Community 
College Board. The program attracted and retained a diverse student 
body. A Windy City Harvest related production and training garden at 
the Cook County Sheriff's Boot Camp is now serving young men in 4-month 
incarcerations, and some graduates will participate in the next 9-month 
certificate session. Windy City Harvest also collaborated with the 
administrators and staff of USDA's Food and Nutrition Services Region 5 
Office to create the first Midwest People's Garden on Chicago's west 
side.
    Fiscal year 2008 was the first year that funds were appropriated 
for this grant with an amount of $74,475; for fiscal year 2009, 
$104,000; and for fiscal year 2010, $175,000. A total of $353,475 has 
been appropriated.
    The project will be conducted at the Windy City Harvest in Chicago, 
Illinois, in conjunction with the Chicago Botanic Garden and the City 
Colleges of Chicago.
    Senior agency technical staff conducted a merit review of the 
proposal for this research prior to making a funding recommendation.

            VETERINARY TECHNOLOGY SATELLITE PROGRAM, KANSAS

    Fiscal year 2010 is the first year that funds were appropriated for 
this grant with an amount of $1,000,000. Since this is a new grant, no 
information is available regarding the program's goals and objectives.

                          SUBCOMMITTEE RECESS

    Senator Kohl. Our next hearing will be Tuesday, March 9. 
We'll be hearing from Dr. Margaret Hamburg, FDA Commissioner, 
on the FDA's budget.
    Again, we thank you all for being here.
    And we will recess at this time.
    [Whereupon, at 11:59 a.m., Tuesday, March 2, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
March 9.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
